No. XX-XX

In the Supreme Court of the United States
DEB HAALAND, SECRETARY OF THE INTERIOR, ET AL.,
PETITIONERS

v.
CHAD EVERET BRACKEEN, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
TODD KIM
Assistant Attorney General
EDWIN S. KNEEDLER
Deputy Solicitor General
FREDERICK LIU
Assistant to the Solicitor
General
RACHEL HERON
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
Appendix A — Court of appeals en banc opinion
(Apr. 6, 2021) ............................................... 1a
Appendix B — Court of appeals panel opinion
(Aug. 9, 2019) .......................................... 397a
Appendix C — District court final judgment
(Oct. 4, 2018) ........................................... 463a
Appendix D — District court order granting in part
and denying in part the plaintiffs’
motions for summary judgment
(Oct. 4, 2018) ........................................... 464a
Appendix E — District court order denying the
defendants’ motions to dismiss
(July 24, 2018) ......................................... 523a
Appendix F — Constitutional and statutory
provisions ................................................ 572a

(I)

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-11479
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK
NICHOLAS LIBRETTI; STATE OF LOUISIANA;
HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
PLAINTIFFS-APPELLEES
v.
DEB HAALAND, SECRETARY, UNITED STATES
DEPARTMENT OF THE INTERIOR; DARRYL LACOUNTE,
ACTING ASSISTANT SECRETARY FOR INDIAN AFFAIRS;
BUREAU OF INDIAN AFFAIRS; UNITED STATES
DEPARTMENT OF THE INTERIOR; UNITED STATES OF
AMERICA; XAVIER BECERRA, SECRETARY, UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES; UNITED STATES DEPARTMENT OF HEALTH
AND HUMAN SERVICES, DEFENDANTS-APPELLANTS
CHEROKEE NATION; ONEIDA NATION; QUINAULT
INDIAN NATION; MORONGO BAND OF MISSION INDIANS,
INTERVENOR DEFENDANTS-APPELLANTS
[Filed:

Apr. 6, 2021]

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CV-868

(1a)

2a
Before OWEN, Chief Judge, and JONES, SMITH,
WIENER, STEWART, DENNIS, ELROD, SOUTHWICK,
HAYNES, GRAVES, HIGGINSON, COSTA, WILLETT,
DUNCAN, ENGELHARDT, and OLDHAM, Circuit Judges.*
PER CURIAM:
This en banc matter considers the constitutionality of
the Indian Child Welfare Act (ICWA), 25 U.S.C. § 1901
et seq., and the validity of implementing regulations promulgated by the Bureau of Indian Affairs (BIA) in its 2016
Final Rule (Final Rule). Plaintiffs are several couples
who seek to adopt or foster Indian children, a woman
who wishes for her Indian biological child to be adopted
by non-Indians, and the States of Texas, Louisiana, and
Indiana. Defendants are the United States, federal
agencies and officials charged with administering ICWA
and the Final Rule, as well as several Indian tribes that
intervened in support of ICWA. The district court
granted Plaintiffs summary judgment in part, declaring
that ICWA and the Final Rule contravene multiple constitutional provisions and the Administrative Procedure
Act (APA). Defendants appealed. A panel of this court
reversed and rendered judgment for the Defendants.
See Brackeen v. Bernhardt, 937 F.3d 406, 414 (5th Cir.
2019). One panel member partially dissented, concluding that several provisions of ICWA violated the Tenth
Amendment’s anticommandeering doctrine. See id. at
441-46 (Owen, J., concurring in part and dissenting in
part). This case was then reconsidered en banc.

* JUDGE HO was recused and did not participate. JUDGE
WILSON joined the court after the case was submitted and did not
participate.

3a
Neither JUDGE DENNIS’S nor JUDGE DUNCAN’S principal opinion nor any of the other writings in this complex case garnered an en banc majority on all issues.
We therefore provide the following issue-by-issue summary of the en banc court’s holdings, which does not
override or amend the en banc opinions themselves.
First is the issue of standing. The en banc court
unanimously holds that at least one Plaintiff has standing to challenge Congress’s authority under Article I of
the Constitution to enact ICWA and to press anticommandeering and nondelegation challenges to specific
ICWA provisions. The en banc court also unanimously
holds that Plaintiffs have standing to challenge the Final
Rule as unlawful under the APA. The en banc court is
equally divided as to whether Plaintiffs have standing to
challenge two provisions of ICWA, 25 U.S.C. §§ 1913
and 1914, on equal protection grounds, and the district
court’s conclusion that Plaintiffs can assert this claim is
therefore affirmed without a precedential opinion. 1 An
en banc majority also holds that Plaintiffs have standing
to assert their equal protection challenges to other provisions of ICWA.
On the merits, an en banc majority agrees that, as a
general proposition, Congress had the authority to enact ICWA under Article I of the Constitution. 2 An en
banc majority also holds that ICWA’s “Indian child”

See United States v. Garcia, 604 F.3d 186, 190 n.2 (5th Cir. 2010)
(“Decisions by an equally divided en banc court are not binding
precedent but only affirm the judgment by operation of law.”).
2
See Part II(A)(1) of JUDGE DENNIS’S opinion and Part II of
JUDGE COSTA’S opinion.
1

4a
classification does not violate equal protection. 3 The
district court’s ruling to the contrary on those two issues
is therefore reversed. The en banc court is equally divided, however, as to whether Plaintiffs prevail on their
equal protection challenge to ICWA’s adoptive placement preference for “other Indian families,” 25 U.S.C.
§ 1915(a)(3), and its foster care placement preference
for a licensed “Indian foster home,” § 1915(b)(iii). 4 The
district court’s ruling that provisions of ICWA and the
Final Rule are unconstitutional because they incorporate the “Indian child” classification is therefore
reversed, but its ruling that § 1915(a)(3) and (b)(iii) violate equal protection is affirmed without a precedential
opinion.
The court’s holdings on Plaintiffs’ various anticommandeering claims are more intricate. An en banc majority holds that ICWA’s “active efforts,” § 1912(d), expert witness, § 1912(e) and (f ), and recordkeeping requirements, § 1915(e), unconstitutionally commandeer
state actors. 5 The district court’s judgment declaring
those sections unconstitutional under the anticommandeering doctrine is therefore affirmed. However, the
en banc court is equally divided on whether the placement preferences, § 1915(a)-(b), violate anticommandeering to the extent they direct action by state agencies
Part II(B) of JUDGE DENNIS’S opinion is the en banc majority
opinion on this issue, except as to the constitutionality of “other Indian
families” in § 1915(a)(3) and “Indian foster home” in § 1915(b)(iii).
4
Compare Part II(B) of JUDGE DENNIS’S opinion with Part
III(A)(3) of JUDGE DUNCAN’S opinion.
3

Parts III(B)(1)(a)(i), (ii), (iv); III(B)(1)(b); and III(B)(2)(b) (insofar as it addresses §§ 1912(d)-(f ) and 1915(e)) of JUDGE
DUNCAN’S opinion are the en banc majority opinion on these issues.
5

5a
and officials 6; on whether the notice provision, § 1912(a),
unconstitutionally commandeers state agencies 7; and on
whether the placement record provision, § 1951(a), unconstitutionally commandeers state courts. 8 To that
extent, the district court’s judgment declaring those
sections unconstitutional under the anticommandeering
doctrine is affirmed without precedential opinion.
Furthermore, an en banc majority holds that several
challenged ICWA provisions validly preempt state law
and so do not commandeer states. Those are provisions granting certain private rights in state child
custody proceedings—namely, the right to intervene,
§ 1911(c), to appointed counsel, § 1912(b), to examine
documents, § 1912(c), to explanation of consent, § 1913(a),
to withdraw consent, § 1913(b), (c), and (d), to seek invalidation, § 1914, to seek return of custody, § 1916(a),
and to obtain tribal information, § 1917. 9 In addition,
an en banc majority holds that the following provisions
validly preempt contrary state law to the extent they apply to state courts (as opposed to state agencies): the
placement preferences, § 1915(a) and (b), and the placement and termination standards, § 1912(e) and (f ). 10 The
Compare Part II(A)(2)(a)(i) of JUDGE DENNIS’S opinion with
Part III(B)(1)(a)(iii) of JUDGE DUNCAN’S opinion.
7
Compare Part II(A)(2)(b) of JUDGE DENNIS’s opinion with Part
III(B)(1)(a)(v) of JUDGE DUNCAN’S opinion.
8
Compare Parts II(A)(2)(a)(ii) of JUDGE DENNIS’s opinion with
Part III(B)(2)(c) of JUDGE DUNCAN’S opinion.
9
Part III(B)(2)(a) of JUDGE DUNCAN’s opinion is the en banc majority opinion on this issue, except as to the appointed counsel provision in § 1912(b).
10
Part III(B)(2)(c) of JUDGE DUNCAN’S opinion is the en banc majority opinion on this issue, except as to the placement record requirement in § 1951(a).
6

6a
district court’s rulings to the contrary are therefore
reversed.
Next, an en banc majority holds that § 1915(c), which
permits Indian tribes to establish an order of adoptive
and foster preferences that is different from the order
set forth in § 1915(a) and (b), does not violate the nondelegation doctrine. 11 The district court’s ruling to the
contrary is therefore reversed.
Last are Plaintiffs’ claims that the Final Rule violates
the APA. An en banc majority holds that the BIA did
not violate the APA by concluding in the Final Rule that
it may issue regulations binding on state courts. 12 But
an en banc majority also holds that—consistently with
the en banc court’s holding that §§ 1912(d), 1912(e), and
1915(e) commandeer states—the Final Rule violated the
APA to the extent it implemented these unconstitutional
provisions. 13 Finally, an en banc majority determines
that 25 C.F.R. § 23.132(b)—the part of the Final Rule
interpreting § 1915’s “good cause” standard to require
proof by clear and convincing evidence—violated the
APA. 14 An en banc majority holds that the Final Rule
did not violate the APA in any other respect. The district court’s grant of relief under the APA is affirmed to
the extent it is consistent with these holdings and
Part II(C) of JUDGE DENNIS’S opinion is the en banc majority
opinion on this issue.
12
Part II(D)(2) of JUDGE DENNIS’S opinion is the en banc majority opinion on this issue.
13
Part III(D)(1) of JUDGE DUNCAN’S opinion is the en banc majority opinion on this issue, insofar as it applies to §§ 1912(d)-(e)
and 1915(e).
14
Part III(D)(3) of JUDGE DUNCAN’S opinion is the en banc majority opinion on this issue.
11

7a
reversed to the extent it is inconsistent with these
holdings.
The judgment of the district court is therefore
AFFIRMED in part and REVERSED in part, and
judgment is accordingly RENDERED.
DENNIS, J., delivered the opinion of the en banc court
with respect to Parts II(B), II(C), and II(D)(2) of his
opinion (except as otherwise noted in the PER CURIAM
opinion, supra).
DUNCAN, J., delivered the opinion of the en banc court
with respect to Parts III(B)(1)(a)(i)-(ii), III(B)(1)(a)(iv),
III(B)(2)(a)-(c), III(D)(1), and III(D)(3) of his opinion
(except as otherwise noted in the PER CURIAM opinion,
supra).

8a
JAMES L. DENNIS, Circuit Judge:†1
The Indian Child Welfare Act (ICWA) of 1978 is a
federal law that regulates the removal and out-of-home
placement of American Indian children. The Act establishes minimum federal standards that must be met
in any legal proceeding to place an Indian child in a foster or adoptive home, and it ensures that Indian tribes
and families are allowed to participate in such Indian
child welfare cases. See 25 U.S.C. § 1901 et seq. Congress enacted ICWA after finding “that an alarmingly
high percentage of Indian families are broken up by the
removal, often unwarranted, of their children from them
by nontribal public and private agencies and that an
alarmingly high percentage of such children are placed

†
JUDGES STEWART and GRAVES join this opinion in full. Judges
WIENER, HIGGINSON, and COSTA join all except Discussion Part
I.A.2 (standing to bring equal protection claims other than the challenges to 25 U.S.C. §§ 1913-14).
CHIEF JUDGE OWEN joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), I.C (standing to bring anticommandeering
claims), II.A.2.a.1 (anticommandeering challenge to §§ 1912(e)-(f )
and 1915(a)-(b) as they pertain to state courts), and II.C (nondelegation). She further joins Discussion Part I.D (standing to bring nondelegation claim) except as to the final sentence. See infra OWEN,
CHIEF JUDGE, OP.
JUDGE SOUTHWICK joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), II.A.1 (Congress’s Article I authority), II.B
(equal protection), and II.C (nondelegation). He further joinss inpart Discussion Parts II.A.2 (anticommandeering) and II.D (APA
challenge to the Final Rule), disagreeing to the extent the analyses
pertains to § 1912(d)-(f ) and the regulations that implement those
provisions.
JUDGE HAYNES has expressed her partial concurrence in her
separate opinion. See infra HAYNES, CIRCUIT JUDGE, OP.

9a
in non-Indian foster and adoptive homes and institutions”; “that the States, exercising their recognized jurisdiction over Indian child custody proceedings through
administrative and judicial bodies, have often failed to
recognize the essential tribal relations of Indian people
and the cultural and social standards prevailing in Indian communities and families”; and “that there is no resource that is more vital to the continued existence and
integrity of Indian tribes than their children and that
the United States has a direct interest, as trustee, in
protecting Indian children who are members of or are
eligible for membership in an Indian tribe.” Id.
Plaintiffs, consisting of the States of Texas, Louisiana, and Indiana, and seven individuals, challenge the
facial constitutionality of ICWA as well as the statutory
and constitutional validity of the Department of Interior’s 2016 administrative rule implementing ICWA (the
“Final Rule”). Combined, Texas, Louisiana, Indiana,
and Ohio (which filed an amicus brief in support of Plaintiffs) are home to only about 1% of the total number of
federally recognized Indian tribes and less than 4% of
the national American Indian and Alaska Native population. See NAT’L CONF. OF STATE LEGIS., FEDERAL AND
STATE RECOGNIZED T RIBES (March 2020), https://www.
ncsl.org/research/state-tribal-institute/list-of-federaland-state-recognized-tribes.aspx; CENTERS FOR DISEASE CONTROL AND PREVENTION, Tribal Population
https://www.cdc.gov/tribal/tribes-organizations-health/
tribes/state-population.html (last viewed Mar. 29, 2021).
On the other hand, twenty-six other states and the District of Columbia have filed amicus briefs asking us to
uphold ICWA and the Final Rule. Those states are
California, Alaska, Arizona, Colorado, Connecticut,
Idaho, Illinois, Iowa, Maine, Massachusetts, Michigan,

10a
Minnesota, Mississippi, Montana, Nevada, New Jersey,
New Mexico, New York, Oklahoma, Oregon, Pennsylvania, Rhode Island, Utah, Virginia, Washington, and Wisconsin, which are collectively home to 94% of federally
recognized Indian tribes and 69% of the national American Indian and Alaska Native population.
We do not decide cases by a show of hands of states’
votes, of course, but we cannot ignore the irony of the
situation with which we are faced. Twenty-six states
and the District of Columbia, which are home to a large
majority of federally recognized tribes and the nation’s
overall indigenous population, do not view ICWA as any
sort of burden on their child welfare systems. They
strongly contend that ICWA is constitutional and have
no problem applying it in their state court systems; indeed, they view ICWA as the “gold standard” for child
welfare practices and a “critical tool” in managing their
relationships with the Indian tribes within their borders. Conversely, only four states with relatively few
tribes and Indians regard ICWA as offensive to their
sovereignty and seek to have the law struck down completely because it intrudes upon their otherwise unimpeded discretion to manage child custody proceedings
involving Indian children. Further, these State Plaintiffs and their amicus wrongly assert repeatedly that
ICWA regulates all of their child custody and adoption
proceedings. This is simply not true. Congress drew
ICWA narrowly to provide minimum protections only to
qualified Indian children—safeguards that Congress
found necessary and proper to stop the abusive practices that had removed nearly a generation of Indian
children from their families and tribes and that threatened the very existence of the Indian nations. See generally MARGARET JACOBS, A GENERATION REMOVED:

11a
THE FOSTERING AND ADOPTION OF INDIGENOUS CHILDREN IN THE POSTWAR WORLD (2014) [hereinafter JACOBS , A GENERATION REMOVED]. The vast majority of
child custody proceedings in Texas, Louisiana, and Indiana do not involve Indian children; therefore, ICWA
does not apply in the vast majority of such proceedings
in those states or, for that matter, in any other state.
Defendants are the United States of America, several
federal agencies and officials in their official capacities,
and five intervening Indian tribes. Defendants moved
to dismiss the complaint for lack of subject matter jurisdiction, but the district court denied the motion, concluding, as relevant to this appeal, that Plaintiffs had
Article III standing. The district court then granted
summary judgment in favor of Plaintiffs, ruling that
provisions of ICWA and the Final Rule violated equal
protection, the anticommandeering doctrine, the nondelegation doctrine, and the Administrative Procedure
Act (the “APA”). Defendants appealed.
Although we would affirm most aspects of the district
court’s ruling that Plaintiffs have standing, we would
conclude that Plaintiffs’ challenges to ICWA lack merit
and uphold the statute in its entirety. We would therefore reverse the district court’s grant of summary judgment to Plaintiffs and render judgment in favor of
Defendants.
BACKGROUND

Before the establishment of the United States, the
North American landmass was “owned and governed by
hundreds of Indian tribes.” COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW § 1.01 (Nell Jessup Newton ed.,

12a
2012.) [hereinafter COHEN’S]. These tribes, sovereigns under international law, came under the jurisdiction of the United States “through a colonial process
that was partly negotiated and partly imposed.” Id.
The Constitution recognizes the existence of Indian
tribes and, in many respects, treats them as sovereigns
in the same manner as the states and foreign nations.
See U.S. CONST. art. I, § 8, cl. 3 (empowering Congress
“[t]o regulate Commerce with foreign Nations, and
among the several States, and with the Indian Tribes”);
Holden v. Joy, 84 U.S. 211, 242 (1872) (holding that the
President’s Article II, Section 2 power to make treaties
with the Indian tribes is coextensive with the power to
make treaties with foreign nations). But a long line of
judicial opinions confirms that, under U.S. law, Indian
tribes occupy a unique position: they are “domestic, dependent nations.” Cherokee Nation v. Georgia, 30 U.S.
(5 Pet.) 1, 17 (1831). That is, tribes reside within the
United States and are subject to federal power, but they
retain sovereign authority over a range of matters relevant to their self-government. COHEN’S, supra § 1.01.
Three key principles underpin the field of federal Indian law. First, Indian tribes possess “inherent powers of a limited sovereignty that has never been extinguished.” Id. Because of tribes’ retained sovereignty, they have a government-to-government relationship
with the United States. Id. Second, the federal government has expansive and exclusive powers in Indian affairs, and, relatedly, an ongoing obligation to use those
powers to promote the well-being of the tribes in what
is commonly referred to as a trust relationship. Id.
Third, as a corollary to the federal government’s broad
power in Indian affairs, the supremacy of federal law,
and the need for the nation to speak with one voice in its

13a
government-to-government relations, state authority in
this field is very limited. Id.
In addition to these precepts, we are mindful of the
uniquely crucial importance of historical perspective in
federal Indian law. See, e.g., CHARLES A. MILLER,
THE SUPREME COURT AND THE USES OF HISTORY 24
(1969) (“[I]n disputes concerning American Indian tribes
the courts have also considered and often decided cases
principally on the basis of historical materials[.]”). As
Justice Holmes said about a different issue: “Upon
this point a page of history is worth a volume of logic.”
New York Trust Co. v. Eisner, 256 U.S. 345, 349 (1921);
see also N.L.R.B. v. Noel Canning, 573 U.S. 513, 524
(2014) (“[L]ong settled and established practice is a consideration of great weight in a proper interpretation of
constitutional provisions[.]” (quoting The Pocket Veto
Case, 279 U.S. 655, 689 (1929)). Particularly significant
to our analysis is the contemporary understanding of
the Constitution’s treatment of Indian Affairs at the
time of its adoption. See, e.g., District of Columbia v.
Heller, 554 U.S. 570, 605-10 (2008) (canvassing Foundingera historical sources to synthesize the original understanding of the Constitution). We therefore survey the
interrelated history of Indian affairs and the adoption of
the Constitution.
I.

A Brief History of the American Indians and the
United States Constitution

In holding key provisions of ICWA unconstitutional,
the district court disregarded two centuries of precedent and omitted any discussion of the history of the federal constitutional power to enter treaties or legislate
with respect to the Indian tribes. Seeking to make up

14a
for the district court’s errors and omissions, the Plaintiffs now cite to several historical texts. The authorities they cite, however, mainly support a broad understanding of the federal government’s exclusive power
over Indian affairs, which includes the authority to prevent states from exercising their sovereignty in ways
that interfere with federal policy toward the Indians.
Careful study of their references and other scholarly resources reveals the lack of foundation for the district
court’s more limited conception of federal authority.
Following the American Revolution, the new United
States government supplanted the British Crown as the
self-appointed ruler of most of North America, thereby
inviting expansive white settlement of the continent.
See COHEN’S, supra § 1.02. Americans, then, were optimistic in 1783; their victory over the British had rendered the nation, as George Washington put it, “the sole
Lord[] and Proprietor[] of a vast tract of continent.”
Gregory Ablavsky, The Savage Constitution, 63 DUKE
L.J. 999, 1009 (2014) [hereinafter Ablavsky, Savage Constitution] (quoting George Washington, THE LAST OFFICIAL ADDRESS , OF HIS EXCELLENCY GENERAL
WASHINGTON, TO THE LEGISLATURES OF THE UNITED
STATES 4 (1783)). But only four years later, that optimism “turned to despondence, as the Continental Congress, with an empty treasury and a barely extant military, confronted looming wars against powerful Indian
confederacies on the northern and southern borderlands.” Id. Unrest between the tribes, the states,
squatters, and settlers was largely to blame for this dramatic shift in national mood—hallmarks of the failure of
the central government’s Indian policy under the Articles of Confederation. Id. at 1006.

15a
The insolvent Continental Congress desperately desired both peace with the Indians and annexation of the
western land they inhabited in order to repay the debt
it had incurred during the Revolutionary War. Id. To
accomplish these goals, the new nation followed the
practice of the British, who had treated Indian tribes as
“quasi-foreign nations” and used negotiation, treaties,
and war-making as the primary tools for managing relations. Br. of Prof. Ablavsky at 5. In other words, the
United States structured its relations with tribes akin to
its regulation of foreign affairs. See id. The Articles
of Confederation accordingly provided that the national
government was to have authority over “managing all
affairs with the Indians.” ARTICLES OF CONFEDERATION OF 1781, art. IX. As the Continental Congress’s
Committee on Southern Indians explained, this authority comprehended a number of interrelated powers:
“making war and peace, purchasing certain tracts of
[tribal] lands, fixing the boundaries between [Indians]
and our people, and preventing the latter settling on
lands left in possession of the former.” 33 Journals of
the Continental Congress, 1774-1789, 457 (Roscoe R.
Hill ed., 1936). These interconnected powers were, in
the Southern Indians Committee’s view, “indivisible.”
Id. This is to say that, under the Articles of Confederation, the Continental Congress was intended to possess
Indian affairs powers like those that any sovereign
would hold in conducting affairs with other sovereigns.
See id. (noting that “before the revolution” these powers
“were possessed by the King”). In practice, however,
it was not clear whether, under the Articles, the states
also retained the sovereign power to deal with the Indian tribes in their own right. See THE FEDERALIST

16a
NO. 42 at 217 (James Madison) (describing the delineation of authority as “ambiguous”).
Exercising its federal authority, the Continental Congress appointed commissioners to secure peace treaties
with tribes throughout the nation. COHEN’S, supra at
1.02[3]. These treaties serve as some of the earliest
documentary bases for the nation’s continuing trust relationship with the tribes. For example, in return for
peace and other guarantees, the United States promised
the Cherokees that the tribe would be “received” into
“the favour and protection of the United States of America.” Treaty with the Cherokees, preamble, 1785, 7 Stat.
18. Similar language was included in a treaty with the
Six Nations tribes at Fort Stanwix in New York.
TREATY WITH THE SIX NATIONS, 1784, 7 Stat. 15 (Treaty
at Fort Stanwix).
While the national government worked to secure
treaties with the tribes, some states resisted—or outright defied—these efforts, viewing them as infringements on their sovereignty. COHEN’S, supra at 1.02[3].
New York, for instance, protested the asserted national
“incursion” into its powers posed by the Treaty of Fort
Stanwix. Robert N. Clinton, The Dormant Indian
Commerce Clause, 27 CONN. L. REV. 1055, 1147 (1995).
Other states went further. Georgia and North Carolina seized on ambiguous clauses in the Articles concerning the scope of federal power over Indian affairs, construing them in a manner that “le[ft] the federal powers
. . . a mere nullity.” 33 Journals of the Continental
Congress at 457. Indeed, Georgia outright ignored
federal treaties and attempted to form its own compacts
with the Creek Indians, see id., “reportedly resort[ing]
to death threats to compel agreement” and expropriate

17a
tribal lands. Ablavsky, The Savage Constitution, supra at 1028; see also Report of the Secretary of War on
the Southern Indians (July 18, 1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS : TREATIES AND LAWS , 16071789: REVOLUTION AND CONFEDERATION 449, 450 (Alden
T. Vaughan et al. eds., 1994) [hereinafter EARLY AMERICAN INDIAN DOCUMENTS ].
In a memorandum drafted on the eve of the Constitutional Convention, James Madison described Georgia’s “wars and Treaties . . . with the Indians,” as
emblematic of the “vices” inherent in the division of federal and state power under the Articles. JAMES MADISON, VICES OF THE POLITICAL SYSTEM OF THE UNITED
STATES, in 9 THE PAPERS OF JAMES MADISON 345, 348
(Robert A. Rutland et al. eds., 1975). And in a letter
sent to Congress in the midst of the Convention, Secretary at War Henry Knox worried that the United States
could not “effectual[y] interfere[]” in the many skirmishes
that pitted states and settlers against Indians and, he
predicted that a “general [I]ndian war may be expected.”1
H. Knox, Report of the Secretary at War on the Southern Indians (July 18, 1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS 450. Thus, nationalists like Madison
Knox’s position was labeled “Secretary at War” under the Articles. See 19 Journals of the Continental Congress, 1774-1789, at
126 (Worthington Chauncey Ford ed., 1912) (establishing under
the Articles of Confederation the position of “Secretary at War”).
He was appointed to the new position of “Secretary of War” in September 1789. See Harry M. Ward, The Department of War, 17811795, at 101-02 (1962); see also Act of Aug. 7, 1789, ch. 7, 1 Stat. 49,
50 (establishing the Department of War and the office of Secretary
of War, a position invested with “such duties as shall be enjoined
on, or entrusted to him by the President of the United States . . .
relative to Indian Affairs”).
1

18a
and Alexander Hamilton “agreed on the problem”: the
new nation was “too weak to exercise the authority it enjoyed on paper” under the Articles of Confederation,
and a stronger federal government was needed. Ablavsky, Savage Constitution, supra at 999. “Indian affairs
thus propelled the creation of a more powerful national
state—one that, in Madison’s words, would possess the
“ability to effect what it is proper [it] should do.’ ” Id.
(alterations in original) (quoting Letter from James
Madison to George Nicholas (May 17, 1788), in 18 THE
DOCUMENTARY HISTORY OF THE RATIFICATION OF THE
CONSTITUTION: COMMENTARIES ON THE CONSTITUTION PUBLIC AND PRIVATE 24, 28 (John P. Kaminski et
al. eds., 1995)). The supporters of a stronger national
authority envisioned a central government that could
“govern not merely in principle but ‘in reality,’ ” as Secretary Knox wrote about Indian affairs. Id. (quoting
Report of the Secretary at War on the Southern Indians
(July 18, 1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS 449, 450).
At the Constitutional Convention, Madison attributed the failings of Indian policy to state interference
with the Confederation’s authority, especially its treatymaking power. Id. at 1006. His solution to Indian affairs was to revise “federalism to ensure federal supremacy
—partly through the Indian Commerce Clause, but
more significantly through the Treaty, Compact, Supremacy, and Property Clauses.” Ablavsky, Savage
Constitution, supra at 1006-07. At its heart, Madison’s
solution to Indian affairs “envisioned a strengthened
federal government that would protect and restrain Indians and states alike.” Id. at 1007.

19a
Hamilton and other Federalists took a different but
complementary view; their “concern over external
threats dovetailed with the views of many on the frontier, who blamed the Articles’ failure on national military weakness against Native power.” 2 Id. The approach of Hamilton and likeminded Federalists to Indian
Though the writings and speeches of Madison have traditionally
been regarded as the authoritative encapsulation of the Federalist
case for the Constitution, contemporary research has upset the assumption that Madison’s views were representative of the Federalist
camp generally. In particular, historians have harnessed The Documentary History of the Ratification, a rich source of primary material concerning the Constitutional Convention and the ratification
debates that includes documents such as letters, petitions, and records of convention debates. See MAX M. EDLING, A REVOLUTION
IN FAVOR OF GOVERNMENT: ORIGINS OF THE U.S. CONSTITUTION
AND THE MAKING OF THE AMERICAN STATE 18-21 (2003) at 29 [hereinafter Edling, A REVOLUTION IN FAVOR OF GOVERNMENT] (citing
THE DOCUMENTARY HISTORY OF THE RATIFICATION OF THE CONSTITUTION: COMMENTARIES ON THE CONSTITUTION PUBLIC AND
PRIVATE 24, 28 (John P. Kaminski et al. eds., 1995)). In addition to
the obvious import of the proceedings during the Constitutional
Convention at which the charter was framed, documentation from
the subsequent ratification debates offers significant insight into
how the Constitution should be interpreted. The Constitution rooted
its legitimacy in the consent of those whom it would come to govern,
declaring that the system it outlined was “ordained and established”
by “We the people,” U.S. CONST. PREAMBLE. To turn the promise
of self-rule into a reality, ratification was conducted through a series
of state conventions with delegates chosen by the voters of each
state. Ratification thus was itself an act of popular sovereignty and
representative democracy that required the public and its chosen
delegates to be educated and deliberate on the meaning of the Constitution. See id. at 29-31. These ratification debates provided the
“first widely shared” exposition of important constitutional provisions, and the discussions that took place therein were the starting
point for constitutional interpretation during the early republic.
Id. Thus, the contemporaneous writings that circulated among the
2

20a
affairs, then, was to create a muscular “fiscal-military
state that would possess the means to dominate the borderlands at Indians’ expense.” Id. (citing Max M.
public and within the state ratification conventions are as important
as the records of the Constitutional Convention itself in determining
the charter’s original public meaning. See id.
Mining this trove, historians have concluded that the issues that
motivated Madison were not emphasized by all Federalists. Many
Federalists did not echo Madison’s prototypical liberal “call for minority rights and limited government,” but rather argued for the formation of a strong national state. Id. at 14-15. While Madison
was concerned primarily with creating a constitutional structure
that would protect liberty by restraining concentrations of power
and safeguarding the rights of minorities, Hamilton and others
sought to establish a robust “national government with the ability to
act.” Id.
This latter group of Federalists, having witnessed the failings of
the weak and insolvent nation under the Articles of Confederation,
were fierce advocates for the Constitution’s grant of unlimited fiscal
and military power to the central government, arguing that centralizing such authority was necessary to defend against foreign and domestic aggressors and competitors. Id. Chief among the adversaries they sought to protect against were the Indian tribes. Indians presented immediate dangers in the borderlands, and these Federalists feared the tribes would form confederations with each other,
the British to the north, or the Spanish to the south, creating strong
rival powers for control of the continent. Id. These Federalists
also perceived a need to remove the tribes, by force or by treaties,
as obstacles to the new nation’s capitalization of the interior lands
and their resources. See Ablavsky, Savage Constitution at 103738, 1063-67. Countering the tribes, they believed, would require a
strong central government with unlimited taxing, borrowing, and
military powers. In sum, the need for a strong national government with robust powers to manage relations with the Indians
played a crucial role in the Federalist case for the Constitution, and
recognizing this motivation is key to understanding the wide breadth
of the Indian affairs power the Constitution confers on the federal
government. See id. at 1058-67.

21a
Edling, A REVOLUTION IN FAVOR OF GOVERNMENT:
ORIGINS OF THE U.S. CONSTITUTION AND THE MAKING
OF THE AMERICAN STATE 47-49 (2003)). The Indians
thus served as “both impetus and justification for the
creation of a federal standing army” supportable through
direct taxation. Id.
Ultimately, these arguments in favor of restraining
states and centralizing authority over Indian affairs resulted in a significant enhancement of the federal government’s power. Id. at 999. New constitutional provisions were added declaring the federal constitution,
laws, and treaties the supreme law of the land; barring
state treatymaking; and providing “exclusive federal
power over western territories.” Id. Added, too, was
the Indian Commerce Clause, but the foregoing more
general provisions ensuring supreme federal power over
the states with respect to foreign affairs and the western
territories were of much greater importance, as they
collectively authorized the “fiscal-military state committed to western expansion” that the Federalists had envisioned. Id.
During the ratification of the Constitution, the constant potential for Indian alliances with other tribes or
European nations also influenced the public understanding of the Constitution. See id. at 1058-67. Indeed, “many Federalists repeatedly invoked the specter
of threats posed by the ‘savages’ to justify” states’ ratifying a stronger federal government and a standing
army. Id. at 1000, 1069. This unifying strategy worked
well: Georgia, for example, ratified the new Constitution after only three days of debate so that it could secure federal aid in its ongoing war with the Creek Indians. Id.

22a
Proponents of the new charter also expressly contended that its consolidation of power over Indian affairs in the national government would rectify the problems that had resulted from the split authority between
the states and Congress under the Articles of Confederation. Writing in the Federalist Papers, Madison described the Indian Commerce Clause as “very properly
unfettered” by the ambiguous limits Article XI of the
Articles of Confederation had placed on state power.
THE FEDERALIST NO. 42 at 217 (James Madison); see
also Ablavsky, The Savage Constitution, supra at 105354. The Constitution’s opponents recognized, too, the
import of this redistribution of power in Indian affairs;
Abraham Yates, a leading Anti-Federalist, warned that
“adopting the new government[] will enervate” states’
“legislative rights, and totally surrender into the hands
of Congress the management and regulation of the Indian affairs.” Abraham Yates, Documentary History
of the Ratification of the Constitution, Vol. XX, p. 1158;
see also Ablavsky, The Savage Constitution, supra at
1053-54. Yet the Constitution was ratified despite
these concerns, indicating that early Americans viewed
the benefits of centralizing power over Indian affairs to
be worth the surrender of state authority.
The post-ratification history further confirms that
the Constitution created a fiscal-military government
possessing broad, exclusive federal powers over Indian
affairs. The Washington Administration likened federal authority over Indian affairs to its foreign affairs
power. For instance, Secretary Knox wrote to President
George Washington that “[t]he independent nations and
tribes of Indians ought to be considered as foreign nations, not as the subjects of any particular state.” Letter from Henry Knox to George Washington (July 7,

23a
1789), in 3 PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL SERIES 134, 138 (Dorothy Twohig ed., 1989). Accordingly, as Knox explained in another letter, the federal government had supreme authority to regulate in
this field: “[T]he United States have, under the constitution, the sole regulation of Indian affairs, in all matters whatsoever.” Letter from Henry Knox to Israel
Chapin (Apr. 28, 1792), in 1 AMERICAN STATE PAPERS:
INDIAN AFFAIRS 231-32 (Walter Lowrie et al. eds.,
1832).
State officials also acknowledged the federal government’s plenary authority over Indian affairs under the
new constitution. Soon after ratification, for example,
South Carolina Governor Charles Pinckney wrote to
President Washington requesting aid from “the general
Government, to whom with great propriety the sole
management of India[n] affairs is now committed.”
Letter from Charles Pinckney to George Washington
(Dec. 14, 1789), in 4 PAPERS OF GEORGE WASHINGTON:
PRESIDENTIAL SERIES 401, 404 (Dorothy Twohig ed.,
1993); see also Gregory Ablavsky, Beyond the Indian
Commerce Clause, 124 YALE L.J. 1012, 1043 (2015)
[hereinafter Ablavsky, Beyond the Indian Commerce
Clause] (citing similar acknowledgments of federal supremacy in Indian affairs by the legislatures of Georgia
and Virginia).
Early congressional enactments demonstrate the
Founding-era view that the federal government was supreme in regulating Indian affairs. Ablavsky, Savage
Constitution, supra at 999. Particularly significant is
the First Congress’s passage of the Indian Intercourse
Act (also referred to as the “Non-Intercourse Act” or
“Trade and Intercourse Act”). Act of July 22, 1790,

24a
1 Cong. ch. 33, 1 Stat. 137. The statute limited trade
with Indians to persons licensed by the federal government and criminalized offenses by U.S. citizens against
Indians in Indian country, including within states’ borders. Successor versions were enacted throughout the
18th and 19th centuries, further expanding the scope of
the law by, for instance, “authorizing federal military
force to arrest violators of the Act found within Indian
country anywhere in the United States.” See Br. of
Prof. Ablavsky at 11. 3
That the Constitution was intended to confer on the
federal government unimpeded authority vis-à-vis Indian relations is evidenced further in how the government deployed its new fiscal-military power against the
tribes in service of the nation’s westward expansion. 4
The military’s initial western expeditions in the early
1790s resulted in gross failure, as an Indian confederacy
handed the American forces the U.S. Army’s worst defeat by Indians in its entire history. Ablavsky, Savage
Constitution, supra at 1077-78. The Indians’ routing
of American troops underscored their martial strength
and the threat that they posed to the nation’s ambitions
to conquer the western lands. In response, the government ramped up spending on the Army over the next
few years, swelling its size severalfold. In subsequent
3
See also Act of May 19, 1796, 4 Cong. ch. 30, § 3, 1 Stat. 469, 470;
Act of June 30, 1834, ch. 161, 4 Stat. 729; Act of Mar. 30, 1802,
ch. 13, 2 Stat. 139; Act of Mar. 3, 1799, ch. 46, 1 Stat. 743; Act of
Mar. 1, 1793, ch. 19, 1 Stat. 329.
4
“The army had been brought into existence to deal with western
expansion and to coerce the Indians.” EDLING, A REVOLUTION IN
FAVOR OF GOVERNMENT, supra at 140. Indeed, in the Antebellum
era alone, the U.S. Army fought at least ten wars against the Indians. Ablavsky, Savage Constitution, supra at 1080 & n.483.

25a
battles with the Indians, the newly strengthened Army
“prevailed, seizing most of present-day Ohio.” Id. at
1078. The government’s bellicose stance toward the
tribes persisted, and, over the next century, wars between the Indians and the United States “remained a
near constant” as the government continued to facilitate
westward expansion. 5 Id. at 1078. In this way, the
Constitution operated as the Federalists had predicted:
the nation developed a strong military able to quell any
threat posed by Indians and, consequently, to open up
the west to Anglo settlement. Id. at 1077-78.

The history of the dispossession of the Indians continued apace
throughout the nineteenth and well into the twentieth centuries.
In the early years of the nineteenth century, for example, the
United States negotiated treaties that resulted in the nation acquiring millions of acres, “often paying pennines on the acre for
lands worth many times more.” COHEN’S, supra § 1.03. Later,
during the “allotment” era of 1887 until 1934, Indians’ land holdings plunged from 138 million acres to only 48 million acres of land
due to the federal government’s policy of splitting tribal members’
undivided interests in reservation lands into individually-owned
lots and then selling off “surplus” reservation land to non-Indians.
Id. § 1.04. By the measure of some scholars of the Indian history,
“the United States seized some 1.5 billion acres from North America’s native peoples” in total since the nation’s founding. Claudio
Saunt, The Invasion of America, AEON (Jan. 7, 2015), https://aeon.
co/essays/how-were-1-5-billion-acres-of-land-so-rapidly-stolen. Professor Saunt has authored several books documenting the lengthy
history of injustices that befell the Indians as their lands were
taken by non-Indians throughout the eighteenth and nineteenth
centuries, often by the federal government or with its backing.
See, e.g., CLAUDIO SAUNT, WEST OF THE REVOLUTION: AN UNCOMMON HISTORY OF 1776 (2014); CLAUDIO SAUNT, UNWORTHY REPUBLIC: THE DISPOSSESSION OF NATIVE AMERICANS AND THE
ROAD TO INDIAN TERRITORY (2020).
5

26a
Finally, early Supreme Court decisions confirm that
the Constitution was understood to place the reins of authority over Indian affairs squarely and solely in the
hands of the federal government. In Worcester v.
Georgia, 31 U.S. (6 Pet.) 515, 559 (1832), Chief Justice
John Marshall explained that the Constitution
confers on congress the powers of war and peace; of
making treaties, and of regulating commerce with
foreign nations, and among the several states, and
with the Indian tribes. These powers comprehend
all that is required for the regulation of our intercourse with the Indians. They are not limited by
any restrictions on their free actions. The shackles
imposed on this power, in the confederation, are discarded.
The Court’s holistic reading of the Constitution exemplifies how the Founding Generation understood federal Indian authority: as a bundle of interrelated powers that functioned synergistically to give the federal
government supreme authority over Indian affairs.
See id. at 519 (“The treaties and laws of the United
States contemplate the Indian territory as completely
separated from that of the states; and provide that all
intercourse with them shall be carried on exclusively by
the government of the union.”); see also Ablavsky, Beyond the Indian Commerce Clause, supra at 1040; cf.
McGirt v. Oklahoma, 140 S. Ct. 2452, 2463 (2020) (“The
policy of leaving Indians free from state jurisdiction and
control is deeply rooted in this Nation’s history.” (internal quotation marks omitted)).
In sum, the historical evidence powerfully demonstrates that the Framers intended the Constitution,
through an array of provisions, to entrust to the federal

27a
government exclusive and supreme authority in Indian
affairs, including the power to prevent states from interfering with federal policy toward the Indians. It also
reveals that the Founding Generation, both at the federal and state levels, held this same understanding regarding the Constitution’s consolidation of authority in
Indian affairs. Wielding its interconnected, symbiotic
powers in this area, the early federal government at
times regulated to encourage national expansion at the
expense of the Indians’ sovereignty and thereby to entrench tribes’ dependency on the federal government of
the United States.
II. The Special Federal-Tribal Trust Relationship

As a result of the federal government’s forcible annexation of the western lands and envelopment of the
Indian nations, the United States developed a special
obligation with respect to the Indian tribes, with the two
sharing what modern courts generally describe as a
unique “trust relationship.” Matthew L.M. Fletcher,
PRINCIPLES OF FEDERAL INDIAN LAW § 5.2 (1st ed.
2017) [hereinafter Fletcher, FEDERAL INDIAN LAW]. In
essence, the trust relationship obligates the federal government to preserve tribal self-governance, promote
tribal welfare, and uphold its fiduciary duty in managing
tribal assets. See id.
The contemporary understanding of the trust relationship has roots in the centuries-old “doctrine of the
law of nations.” Worcester, 31 U.S. at 520. That doctrine holds that “when a stronger sovereign assumes authority over a weaker sovereign, the stronger one assumes a duty of protection for the weaker one, which
does not surrender its right to self-government.” Fletcher, FEDERAL INDIAN LAW, supra § 5.2; see Worcester,

28a
31 U.S. at 552, 555 (“Th[e] relation [between the United
States and the tribes] was that of a nation claiming and
receiving the protection of one more powerful: not that
of individuals abandoning their national character, and
submitting as subjects to the laws of a master . . .
Protection does not imply the destruction of the protected.”). Of course, the Indian Nations were originally self-governing sovereigns and independent from
any outside rulers. See McClanahan v. State Tax
Comm’n of Az., 411 U.S. 164, 172 (1973). But vested
with plenary authority over Indian affairs, the federal
government from its founding asserted a degree of ultimate sovereignty over the tribes. See Ablavsky, Beyond the Indian Commerce Clause, supra at 1012. In
particular, the United States insisted that it had the authority under the law of nations to control the tribes’ external relations with other sovereigns. See Fletcher,
FEDERAL INDIAN LAW, supra § 5.2. Under the same
law of nations, then, the United States naturally assumed a duty of protection to the tribes. See id. And
as the nation expanded westward, an increasing number
of Indian nations, whether through treaty or military
conquest, fell under the authority of the United States
and therefore under its duty of protection. COHEN’S,
supra § 1.03.
In addition to demonstrating the early federal government’s view that it held exclusive plenary power over
Indian affairs, the First Congress’s enactment of the Indian Intercourse Act reveals that the young nation understood itself to owe a special duty of protection to the
Indian tribes within its borders. Act of July 22, 1790, 1
Cong. ch. 33, 1 Stat. 137. The legislation sought to prevent abuses against Indians by non-Indians and states.

29a
Specifically, it permitted only federal agents to purchase Indian lands and provided for criminal sanctions
for offenses by non-Indians against Indians. See COHEN’S , supra § 1.03. Federal legislation protective of
Indians was crucial because, as the Court later explained, the tribes “owe no allegiance to the states, and
receive from them no protection. Because of the local
ill feeling, the people of the states where they are found
are often their deadliest enemies.” United States v.
Kagama, 118 U.S. 375, 384 (1886).
The government’s acknowledgement and assumption
of a special duty of protection is further reflected in
countless treaties between the United States and the
tribes. See, e.g., Worcester, 31 U.S. at 519 (noting that
the United States “assum[ed] the duty of protection” toward the Cherokee Nation under the Treaty of Holston,
July 2, 1791, 7 Stat. 39, 40). Like the Indian Intercourse Act, these treaties committed the government to
protecting the tribes from a sometimes-hostile nonIndian populace. See, e.g., Treaty with the Northern
Cheyenne and Northern Arapahoe, art. I, May 10, 1868,
15 Stat. 655, 655 (“If bad men among the whites, or
among other people subject to the authority of the
United States, shall commit any wrong upon the person
or property of the Indians, the United States will . . .
cause the offender to be arrested and punished according to the laws of the United States, and also reimburse
the injured person for the loss sustained.”); see also
Mary Christina Wood, Indian Land and the Promise of
Native Sovereignty: The Trust Doctrine Revisited,
1994 UTAH L. REV. 1471, 1496-97 (1994). The Supreme
Court itself has repeatedly recognized the duty of protection the treaties memorialized. See, e.g., Kagama,
118 U.S. at 384 (“From the[ tribes’] very weakness and

30a
helplessness, so largely due to the course of dealing of
the federal government with them, and the treaties in
which it has been promised, there arises the duty of protection, and with it the power.”); Worcester, 31 U.S. at
519.
Regrettably, the federal government’s involvement
in Indian affairs has also often been far from benign.
During the late nineteenth to early twentieth centuries,
Congress interfered in internal tribal affairs and property interests extensively. Fletcher, FEDERAL INDIAN
LAW, supra § 5.2; see also McGirt, 140 S. Ct. at 2463
(discussing Congress’s policy in the late 1800’s of “pressur[ing] many tribes to abandon their communal lifestyles and parcel their land into smaller lots owned by
individual tribe members,” in order to assimilate Native
Americans and give white settlers “more space of their
own” (citing General Allotment Act of 1887, ch. 119, 24
Stat. 388-90)). The Court, however, held that such congressional enactments—even when they resulted in takings of tribal property—were immune from judicial review as long as Congress acted in “good faith.” Lone
Wolf v. Hitchcock, 187 U.S. 553, 565-66 (1903)). In taking a hands-off, deferential approach to Congress’s
management of Indian affairs, the Court analogized the
federal-tribal relationship as akin to that of a guardian
to its ward. See, e.g., id. at 565 (stating that “Congress
possess[es] paramount power over the property of the
Indians, by reason of its exercise of guardianship over
their interests”); Kagama, 118 U.S. at 384 (“These Indian tribes are the wards of the nation. They are communities dependent on the United States[.]”). Though
intended to suggest that the government played a salutary role in tribal affairs, the guardianship metaphor instead underscores a prevailing view of Indians—both

31a
wrongheaded and deeply repugnant—as primitive people, “untutored and improvident, and still requiring the
protection and supervision of the general government.”
Heckman v. United States, 224 U.S. 413, 417 (1912); see
also, e.g., Beecher v. Wetherby, 95 U.S. (5 Otto) 517, 525
(1877) (describing the Indians as “an ignorant and dependent race” subject to the “control [of ] a Christian
people”).
In 1934, Congress began a “slow retreat” from this
problematic guardianship model when it enacted the Indian Reorganization Act. Fletcher, FEDERAL INDIAN
LAW, supra § 5.2 (citing Act of June 18, 1934, 48 Stat.
984, codified as amended at 25 U.S.C. §§ 5101 et seq.).
The Act, for the first time in the history of the government’s intervention in Indian affairs, required tribal
consent to the statute’s operative provisions. 25 U.S.C.
§ 5123(a)(1). This trend continued into the latter half
of the twentieth century, and the guardianship metaphor has now given way completely, with Congress and
the modern Court both explicitly acknowledging that
the government’s relationship with and obligations to
the tribes is instead that of a trustee to a beneficiary.
See, e.g., 25 U.S.C. §§ 5601-02 (recognizing and reaffirming the federal trust responsibility); 25 U.S.C. § 3101
(finding that “the United States has a trust responsibility toward Indian forest lands”); United States v. Mitchell, 463 U.S. 206, 225 (1983) (affirming the “undisputed
existence of a general trust relationship between the
United States and the Indian people”); see also Fletcher,
FEDERAL INDIAN LAW, supra § 5.2. Rather than reflecting and justifying a paternalistic approach that subordinated tribal sovereignty—as the guardianship model
did—the trust relationship commits the federal govern-

32a
ment to preserving tribal self-governance. 6 It also obligates and authorizes Congress to enact statutes that
promote the general well-being of tribes by providing
them with governmental services, including education,
health care, housing, and public safety. Fletcher, FEDERAL INDIAN LAW, supra § 5.3; see also Seminole Nation v. United States, 316 U.S. 286 (1942) (imposing “the
most exacting fiduciary standards” on the government
in administering tribal assets). In fact, “[n]early every
piece of modern legislation dealing with Indian tribes
contains a statement reaffirming the trust relationship
between tribes and the federal government.” 7 COHEN’S,
supra § 5.04.

6
This duty to maintain tribal self-governance is embodied in the
congressional statement of policy in the Indian Self-Determination
and Education Assistance Act of 1975:

The Congress declares its commitment to the maintenance of
the Federal Government’s unique and continuing relationship
with, and responsibility to, individual Indian tribes and to the
Indian people as a whole through the establishment of a meaningful Indian self-determination policy that will permit an orderly transition from the Federal domination of programs for,
and services to, Indians to effective and meaningful participation by the Indian people in the planning, conduct, and administration of those programs and services. In accordance with
this policy, the United States is committed to supporting and
assisting Indian tribes in the development of strong and stable
governments, capable of administering quality programs and
developing the economies of their respective communities.
25 U.S.C. § 5301.
7
See, e.g., Indian Trust Asset Reform Act, 25 U.S.C. §§ 5601-5602
(recognizing and reaffirming the federal trust responsibility); National Indian Forest Resources Management Act, 25 U.S.C. § 3101
(finding that “the United States has a trust responsibility toward

33a
In short, the present-day trust relationship between
the United States and Indian nations is an outgrowth of
a complex, centuries-old nation-to-nation political relationship between the two, and it expresses both the enduring obligations the federal government owes to the
Indians and its power to discharge this duty.
III. Federal Regulation of Indian Children Before ICWA

Even before the dawn of the American nation, Congress had concerned itself with the rearing of Indian
youths. As JUDGE COSTA relates, in 1775 the Continental Congress appropriated funds ostensibly to educate Indians at Dartmouth College but with the ulterior
aim of using the Indian pupils as shields to ward off potential attacks by the British or their Indian allies. See
COSTA, CIRCUIT JUDGE, OP. at 15. In the earliest years
of the Constitutional era, the federal government took a
number of actions to regulate Indian children. For example, starting in 1794, the federal government entered
forest lands”); American Indian Agricultural Resources Management Act, 25 U.S.C. § 3701 (finding that “the United States has a
trust responsibility to protect, conserve, utilize, and manage Indian
agricultural lands consistent with its fiduciary obligation and its
unique relationship with Indian tribes”); American Indian Trust
Fund Management Reform Act of 1994, 25 U.S.C. § 4043 (Special
Trustee for American Indians must prepare comprehensive strategic plan to “ensure proper and efficient discharge of the Secretary’s
trust responsibilities to Indian tribes and individual Indians”);
Native American Housing Assistance and Self-Determination Act,
25 U.S.C. § 4101(2)-(4) (“[T]here exists a unique relationship between the Government of the United States and the governments of
Indian tribes and a unique Federal responsibility to Indian people[.]”); 20 U.S.C. § 7401 (“It is the policy of the United States to
fulfill the Federal Government’s unique and continuing trust relationship with and responsibility to the Indian people for the education of Indian children.”).

34a
into over one hundred treaties with Indian tribes that
obligated the federal government to provide for Indian
education. And stemming from a misguided paternalistic stance toward the tribes, President Washington directed American treaty commissioners dealing with Indian tribes to “endeavor to obtain a stipulation for certain missionaries . . . to reside in the nation” in order to “civilize” the population. Matthew L.M. Fletcher
& Wenona T. Singel, Indian Children and the FederalTribal Trust Relationship, 95 NEB. L. REV. 885, 912
(2017) (quoting Letter from George Washington, President of the United States, to Benjamin Lincoln, Cyrus
Griffin, and David Humphreys, (August 29, 1789), reprinted in 4 AMERICAN STATE PAPERS 65, 66 (Walter
Lowrie & Matthew St. Clair Clarke eds., 1832)).
During the late eighteen century the federal government even expressly involved itself in the transfer of
American Indian children from their families and tribal
communities to non-native homes. Fletcher, FEDERAL
INDIAN LAW, supra § 3.6. Under the Washington Administration, for instance, federal monies financed the
rearing of Indian children in Quaker homes. Br. of
Prof. Ablavsky at 20. Though springing from an intention to do good, like much of the government’s past Indian policy, the Indian removal efforts wrought monumental and lasting damage on the lives of individual Indians and tribes. See Fletcher, FEDERAL INDIAN LAW,
supra § 3.6.
The campaign to “Christianize” the supposedly heathen Native peoples greatly expanded in the late nineteenth century, with the removal of Indian children constituting the single most important aspect of the government’s “civilization” policy. See Fletcher, FEDERAL

35a
INDIAN LAW, supra § 3.6. Government officials took Indian children from their homes and tribal lands, at times
by force, and enrolled them at coercive, off-reservation
Indian boarding schools. Id. These federally run or
financed schools sought to stamp out all vestiges of Indian culture. As the Commissioner of Indian Affairs
wrote in 1896, the purportedly humanitarian course was
“for the strong arm of the nation to reach out, take [Indian children] in their infancy and place them in its fostering schools, surrounding them with an atmosphere of
civilization, . . . instead of allowing them to grow up
as barbarians and savages.” T.J. Morgan, A Plea for
the Papoose, 18 Baptist Home Mission Monthly 402, 404
(1896).
The headmaster of the notorious Carlisle
School explained the policy even more bluntly in his infamous credo, stating that the schools were meant to
take an Indian child and “Kill the Indian in him, to save
the man.” Fletcher, FEDERAL INDIAN LAW, supra
§ 3.6 (quoting Richard H. Pratt, THE ADVANTAGES OF
MINGLING INDIANS WITH WHITES (1892), reprinted in
AMERICANIZING THE AMERICAN INDIANS: WRITINGS
BY THE “F RIENDS OF THE INDIAN” 1880-1900 260-61
(Francis Paul Prucha ed. 1973)).
Although the total number of children enrolled in the
boarding schools is unknown, in 1895 alone 157 boarding
schools housed more than 15,000 Indian children. Andrea C. Curcio, Civil Claims for Uncivilized Acts: Filing Suit Against the Government for American Indian
Boarding School Abuses, 4 HASTINGS RACE & POVERTY
L.J. 45, 57 (2006). Many were run directly by the Bureau of Indian Affairs (“BIA”). Others were operated
by Christian groups that received federal funds.
Schooling was left to Christian groups because Christianity, and particularly Protestantism, was seen, at the

36a
time, as essential to a “civilized” life. See Fletcher,
FEDERAL INDIAN LAW, supra § 3.6. The government
thus hoped to eradicate the American Indians’ native religions by converting young Indians to Christianity.
The use of government-backed force was central to
the creation of these boarding schools. “Indian parents who opposed the taking of their children to these
schools faced criminal prosecution and possible incarceration.” Id. Children were “literally kidnap[ped]”
so they could be shipped off to the Indian schools. For
example, one federal agent described hunting down
Hopi “Indian children who had escaped to caves or cellars, sometimes defended by their parents, who would
have to be restrained by force to prevent the kidnapping
of their children.” Id.
Life at the schools themselves was pervaded by a
strict regimen of military-style discipline meant to reform Indian children and assimilate them into Anglo society. Id. Children were forbidden to speak their native languages and were punished, including through
beatings, if they lapsed into their native tongues. COHEN’S , supra § 1.04. And the goal of permanently severing Indian children’s connections with tribal life did
not stop at the end of the school year. Under an “outing system,” Indian children were placed in non-Indian
homes far from their reservations during the summer,
ensuring that they never returned to their communities
during their tenure at the boarding schools. Fletcher,
FEDERAL INDIAN LAW, supra § 3.6.
In 1928, a devastating federally commissioned report
produced by the Brookings Institution laid bare the
problems in Indian boarding schools, concluding that
they were “grossly inadequate.” See Lewis Meriam,

37a
THE PROBLEM OF INDIAN ADMINISTRATION 11 (1928).
The report detailed life at the schools, citing “deplorable
health conditions,” including fire risks, “serious malnutrition, and high-rates of communicable diseases.” Id.
at 192, 318-19. More generally, the report observed
that the “official government attitude” toward Indian
education had been premised “on the theory that it is
necessary to remove the Indian child[ren] as far as possible from [their] environment” so as to prepare them
for “life among the whites.” Id. at 346, 618. This way
of thinking, the report explained, was fundamentally
flawed and at odds with the “modern point of view in education,” which favored rearing the child “in the natural
setting of home and family life.” Id. at 346. The
result of the government’s boarding school policy had
been to “largely disintegrate[] the [Indian] family.”
Id. at 15.
By the time of the report, Indian boarding schools
had begun to decline as the BIA charged state public
schools with assuming more responsibility for Indian
education. COHEN’S, supra § 1.04. But the boarding
schools did not vanish; as late as the 1970s, thousands of
Indian children were still being educated at federal
boarding schools. See Indian Child Welfare Act of
1977: Hearing on S. 1214 Before the Select Comm. on
Indian Affairs, 95th Cong. 603 (1977).
In establishing Indian schools, “the intent of American policymakers and educators may not have been to
harm Indian people,” but the “end result was the neardestruction of tribal culture and religion across the
United States.” Fletcher, FEDERAL INDIAN LAW, supra § 3.6. The federal government itself has acknowledged its tragic role in decimating Indian tribes and

38a
families by separating them from their children. In
2000, the Assistant Secretary of the BIA offered a formal apology to the Indian tribes:
[The BIA] set out to destroy all things Indian. This
agency forbade the speaking of Indian languages,
prohibited the conduct of traditional religious activities, outlawed traditional government, and made Indian people ashamed of who they were. Worst of all,
the [BIA] committed these acts against the children
entrusted to its boarding schools, brutalizing them
emotionally, psychologically, physically, and spiritually . . . Never again will we seize your children,
nor teach them to be ashamed of who they are.
Never again.
146 CONG. REC. E1453 (Sept. 12, 2000) (quoting apology
of Assistant Secretary for Indian Affairs, Department of
the Interior remarks on Sept. 8, 2000).
IV. State Abuses Leading to ICWA

Though federal Indian boarding schools eventually
declined, massive numbers of Indian children continued
to be permanently removed from their families, tribes,
and cultures through the 1970s.
Replacing offreservation boarding schools, state courts and child welfare agencies became the primary vehicle for severing
Indian youth—the lifeblood of tribes—from their communities. See COHEN’S, supra § 11.02. Surveys of
states with large Indian populations during the 1960s
and 1970s showed that between twenty-five to thirtyfive percent of all Indian children were removed from
their families. See Indian Child Welfare Program:
Hearings before the Subcommittee on Indian Affairs of
the Senate Committee on Interior and Insular Affairs,

39a
93rd CONG. REC. 3 (April 8-9, 1974) (statement of William Byler, Executive Director, Association of American
Indian Affairs); H.R. Rep. No. 95-1386, at 9 (1978). “In
16 states surveyed in 1969, approximately 85% percent
of all Indian children in foster care were living in nonIndian homes,” while in Minnesota in the early 1970s “90
percent of the adopted Indian children [were] in nonIndian homes.” H.R. Rep. No. 95-1386, at 9 (1978); see
also Indian Child Welfare Program: Hearings before
the Subcommittee on Indian Affairs of the Senate Committee on Interior and Insular Affairs, 93rd CONG.
REC. 5 (April 8-9, 1974) (statement of William Byler, Executive Director, Association of American Indian Affairs); Miss. Band of Choctaw Indians v. Holyfield, 490
U.S. 30, 32 (1989); COHEN’S, supra § 11.01. And in jurisdictions with significant Indian populations, Indian
children were uprooted by states’ child welfare machinery at rates far exceeding those for non-Indians. See
Indian Child Welfare Act of 1977: Hearing on S. 1214
Before the Select Comm. on Indian Affairs, 95th Cong.
539-40 (1977). For example, in North Dakota and
South Dakota, Indian children were over twenty times
as likely to be placed in foster care than non-Indians.
Id. at 540. In Minnesota, Maine, and Utah, the relative
foster care rate for Indian children was, respectively,
nineteen, sixteen, and fifteen times greater than that for
non-Indians. Id. at 540. And in Washington, the combined rate of foster care and adoptive placements for Indian children in 1973 was nearly fourteen times greater
than that of non-Indians. Id. at 599.
This nationwide crisis aroused the attention and indignation of Congress in the mid-1970s. Over the course
of four years, Congress held hearings on, deliberated on,
and debated how to remedy the problem. Fletcher,

40a
FEDERAL INDIAN LAW, supra § 8.8. Congress heard
“testimony taken from Indian Country . . . that
many state and county social service agencies and workers, with the approval and backing of many state courts
and some federal B[IA] officials, had engaged in the systematic, automatic, and across-the-board removal of Indian children from Indian families and into non-Indian
families and communities.” Id.
State officials attempted to justify these large-scale
removals by invoking Anglo norms that favored rearing
children within a nuclear family structure. See Holyfield, 490 U.S. at 35-36 (quoting 25 U.S.C. § 1901). This
approach often reflected the officials’ profound ignorance of or hostility to tribes’ traditional values and
community-oriented approach to child raising. In Indian communities, for example, it is common for extended family to play key roles in raising Indian children. See JACOBS, A GENERATION REMOVED, supra at
24-25; see also Supreme Court Br. of Indian Law Professors in Adoptive Couple v. Baby Girl, No. 12-399, at
5. Non-Indian child welfare agents, however, interpreted this practice of extended family care as parental
neglect and cited it as a reason for removing Indian children from their parents and putting them up for adoption. See Supreme Court Br. of Indian Law Professors
in Adoptive Couple v. Baby Girl, No. 12-399. In total,
this and similar uninformed and abusive practices resulted in the removal, as noted, of over a quarter of all
Indian children from their homes in states with large Indian populations. See H.R. Rep. No. 95-1386, at 9 (1978).
Thus, even though the widespread transfer of Indian
children to non-Indians may not have been specifically
intended as an assimilation project, it nonetheless had
that effect.

41a
The mass removal of Indian children had profoundly
adverse effects on the children themselves, who suffered
trauma from being separated from their families and
“problems of adjusting to a social and cultural environment much different than their own.” Id.; see also
Indian Child Welfare Act of 1977: Hearing Before the
S. Select Committee on Indian Affs., 95th Cong. 114
(1977) (statement of Carl E. Mindell, M.D., & Alan Gurwitt, M.D., American Academy of Child Psychiatry)
(stating that “[t]here is much clinical evidence to suggest that these Native American children placed in offreservation non-Indian homes are at risk in their later
development” and that “they are subject to ethnic confusion and a pervasive sense of abandonment”). Indian
parents suffered greatly, too, of course. The evil of
mass removal, however, was systemic, threatening not
only children and families but the tribes themselves.
As Calvin Isaac, the Chief of the Mississippi Band of
Choctaw Indians, explained to Congress, the aggregate
effect of the removal of Indian children threatened the
tribes’ existence:
Culturally, the chances of Indian survival are significantly reduced if our children, the only real means for
the transmission of the tribal heritage, are to be
raised in non-Indian homes and denied exposure to
the ways of their People. Furthermore, these practices seriously undercut the tribes’ ability to continue
as self-governing communities. Probably in no area
is it more important that tribal sovereignty be respected than in an area as socially and culturally determinative as family relationships.

42a
Holyfield, 490 U.S. at 34. 8
V.

Congress’s Findings and Aims in Enacting ICWA

In view of the alarming abuses perpetrated through
state Indian child custody proceedings, Congress enacted ICWA in 1978. Recognizing that a “special relationship” exists between the United States and Indian
tribes, Congress made the following findings:
Congress has plenary power over Indian affairs. 25
U.S.C. § 1901(1) (citing U.S. CONST. art. I, § 8, cl. 3
(“The Congress shall have Power . . . To regulate Commerce . . . with the Indian Tribes.”)).
“[T]here is no resource that is more vital to the continued existence and integrity of Indian tribes than
their children.” Id. § 1901(3).
“[A]n alarmingly high percentage of Indian families
are broken up by the removal, often unwarranted, of
their children from them by nontribal public and private agencies and . . . an alarmingly high percentage of such children are placed in non-Indian
foster and adoptive homes and institutions.” Id.
§ 1901(4).
“States exercising their recognized jurisdiction over
Indian child custody proceedings through adminis-

As the Supreme Court noted in Holyfield, 490 U.S. 34 n.3, “[t]hese
sentiments were shared by the ICWA’s principal sponsor in the
House, Rep. Morris Udall, see 124 CONG. REC. 38102 (1978) (“Indian tribes and Indian people are being drained of their children
and, as a result, their future as a tribe and a people is being placed
in jeopardy”), and its minority sponsor, Rep. Robert Lagomarsino,
id. (“This bill is directed at conditions which . . . threaten
. . . the future of American Indian tribes [.]” (cleaned up)).
8

43a
trative and judicial bodies, have often failed to recognize the essential tribal relations of Indian people and
the cultural and social standards prevailing in Indian
communities and families.” Id. § 1901(5).
Based on its findings, Congress declared that it was the
policy of the United States
to protect the best interests of Indian children and to
promote the stability and security of Indian tribes
and families by the establishment of minimum Federal standards for the removal of Indian children
from their families and the placement of such children in foster or adoptive homes which will reflect
the unique values of Indian culture, and by providing
for assistance to Indian tribes in the operation of
child and family service programs.
Id. § 1902.
VI. ICWA’s Provisions

ICWA’s substantive and procedural safeguards apply in any child custody proceeding involving an “Indian
child,” defined as “any unmarried person who is under
age eighteen and is either (a) a member of an Indian
tribe or (b) is eligible for membership in an Indian tribe
and is the biological child of a member of an Indian
tribe.” Id. § 1903(4). In proceedings for the foster
care placement or termination of parental rights, ICWA
gives “the Indian custodian of the child and the Indian
child’s tribe . . . a right to intervene at any point in
the proceeding.” Id. § 1911(c). “In any involuntary
proceeding . . . where the court knows or has reason to know that an Indian child is involved,” ICWA requires that the parent, the Indian custodian, the child’s
tribe, or the Secretary of the United States Department

44a
of the Interior (“Secretary” or “Secretary of the Interior”) be notified of pending proceedings and of their
right to intervene. Id. § 1912(a). In voluntary proceedings for the termination of parental rights or adoptive placement of an Indian child, ICWA ensures that
the parent can withdraw consent for any reason prior to
entry of a final decree of adoption or termination, at
which point the child must be returned to the parent.
Id. § 1913(c). If consent was obtained through fraud or
duress, a parent may petition to withdraw consent
within two years after the final decree of adoption and,
upon a showing of fraud or duress, the court must vacate
the decree and return the child to the parent. Id.
§ 1913(d). An Indian child, a parent or Indian custodian from whose custody the child was removed, or the
child’s tribe may file a petition in any court of competent
jurisdiction to invalidate an action in state court for foster care placement or termination of parental rights if
the action violated any provision of §§ 1911 to 1913. Id.
§ 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings involving Indian children. Section 1915 requires:
In any adoptive placement of an Indian child under
State law, a preference shall be given, in the absence
of good cause to the contrary, to a placement with
(1) a member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian families.
Id. § 1915(a). Similar requirements are set for foster
care or preadoptive placements. Id. § 1915(b). If a
tribe establishes by resolution a different order of pref-

45a
erences, the state court or agency effecting the placement “shall follow [the tribe’s] order so long as the
placement is the least restrictive setting appropriate to
the particular needs of the child.” Id. § 1915(c).
The state in which an Indian child’s placement was
made shall maintain records of the placement, which
shall be made available at any time upon request by the
Secretary or the child’s tribe. Id. § 1915(e). An Indian adoptee who attains the age of majority may request that the court which entered the adoption order
provide her with information “as may be necessary to
protect any rights flowing from the . . . tribal relationship.” Id. § 1917. And a state court entering a final decree in an adoptive placement “shall provide the
Secretary with a copy of such decree or order” and information as necessary regarding “(1) the name and
tribal affiliation of the child; (2) the names and addresses of the biological parents; (3) the names and addresses of the adoptive parents; and (4) the identity of
any agency having files or information relating to such
adoptive placement.” Id. § 1951(a). ICWA’s severability clause provides that “[i]f any provision of this
chapter or the applicability thereof is held invalid, the
remaining provisions of this chapter shall not be affected thereby.” Id. § 1963.
VII. The Final Rule

ICWA provides that “the Secretary [of the Interior]
shall promulgate such rules and regulations as may be
necessary to carry out [its] provisions.” 25 U.S.C. § 1952.
In 1979, the BIA promulgated guidelines (the “1979
Guidelines”) intended to assist state courts in implementing ICWA but that lacked “binding legislative ef-

46a
fect.” Guidelines for State Courts; Indian Child Custody Proceedings, 44 Fed. Reg. 67,584, 67,584 (Nov. 26,
1979). The 1979 Guidelines left the “[p]rimary responsibility” of interpreting certain language in ICWA “with
the [state] courts that decide Indian child custody
cases.” Id. However, in June 2016, the BIA promulgated the Final Rule to “clarify the minimum Federal
standards governing implementation of [ICWA]” and to
ensure that it “is applied in all States consistent with the
Act’s express language, Congress’s intent in enacting
the statute, and to promote the stability and security of
Indian tribes and families.” 25 C.F.R. § 23.101; Indian
Child Welfare Act Proceedings, 81 Fed. Reg. 38,778,
38,868 (June 14, 2016). The Final Rule explained that
while the BIA “initially hoped that binding regulations
would not be necessary to carry out [ICWA], a third of
a century of experience has confirmed the need for more
uniformity in the interpretation and application of this
important Federal law.” 81 Fed. Reg. at 38,782 (internal citation and quotation marks omitted).
The Final Rule provides that state courts have the
responsibility of determining whether a child is an “Indian child” subject to ICWA’s requirements. 25 C.F.R.
§§ 23.107; 81 Fed. Reg. at 38,778, 38,869-73. The Final
Rule also sets forth notice and recordkeeping requirements for states, see 25 C.F.R. §§ 23.140-41; 81 Fed.
Reg. at 38,778, 38,875-76, and requirements for states
and individuals regarding voluntary proceedings and parental withdrawal of consent, see 25 C.F.R. §§ 23.124-28; 81
Fed. Reg. at 38,778, 38,873-74. The Final Rule also restates ICWA’s placement preferences and clarifies
when they apply and when states may depart from them.
See 25 C.F.R. §§ 23.129-32; 81 Fed. Reg. at 38,778,
38,874-75.

47a
VIII. The Instant Action
A.
1.

Parties
Plaintiffs

Plaintiffs in this action are the states of Texas, Louisiana, and Indiana, 9 (collectively, “State Plaintiffs”), and
seven individual Plaintiffs—Chad and Jennifer Brackeen (“the Brackeens”), Nick and Heather Libretti (“the
Librettis”), Altagracia Socorro Hernandez (“Hernandez”), and Jason and Danielle Clifford (“the Cliffords”)
(collectively, “Individual Plaintiffs”) (together with State
Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.

At the time their initial complaint was filed in the district court, the Brackeens sought to adopt A.L.M., who
falls within ICWA’s definition of an “Indian Child.”
His biological mother is an enrolled member of the Navajo Nation and his biological father is an enrolled member of the Cherokee Nation. When A.L.M. was ten
months old, Texas’s Child Protective Services (“CPS”)
removed him from his paternal grandmother’s custody
and placed him in foster care with the Brackeens. Both
the Navajo Nation and the Cherokee Nation were notified pursuant to ICWA and the Final Rule. A.L.M.
lived with the Brackeens for more than sixteen months
before they sought to adopt him with the support of his
There are three federally recognized tribes in Texas: the
Yselta del Sur Pueblo, the Kickapoo Tribe, and the AlabamaCoushatta Tribe. There are four federally recognized tribes in
Louisiana: the Chitimacha Tribe, the Coushatta Tribe, the TunicaBiloxi Tribe, and the Jena Band of Choctaw Indians. There is one
federally recognized tribe in Indiana: the Pokagon Band of Potawatomi Indians.
9

48a
biological parents and paternal grandmother. In May
2017, a Texas court, in voluntary proceedings, terminated the parental rights of A.L.M.’s biological parents,
making him eligible for adoption under Texas law.
Shortly thereafter, the Navajo Nation notified the state
court that it had located a potential alternative placement for A.L.M. with non-relatives in New Mexico,
though this placement ultimately failed to materialize.
In July 2017, the Brackeens filed an original petition for
adoption, and the Cherokee Nation and Navajo Nation
were notified. The Navajo Nation and the Cherokee
Nation reached an agreement whereby the Navajo Nation was designated as A.L.M.’s tribe for purposes of
ICWA’s application in the state proceedings. No one
intervened in the Texas adoption proceeding or otherwise formally sought to adopt A.L.M. The Brackeens
entered into a settlement with the Texas state agency
and A.L.M.’s guardian ad litem specifying that, because
no one else sought to adopt A.L.M., ICWA’s placement
preferences did not apply. In January 2018, the Brackeens successfully petitioned to adopt A.L.M.
The
Brackeens initially alleged in their complaint that they
would like to continue to provide foster care for and possibly adopt additional children in need, but their experience adopting A.L.M. made them reluctant to provide
foster care for other Indian children in the future. Since
their complaint was filed, the Brackeens have sought to
adopt A.L.M.’s sister, Y.R.J. in Texas state court.
Y.R.J., like her brother, is an Indian Child for purposes
of ICWA. The Navajo Nation contests the adoption.
On February 2, 2019, the Texas court granted the Brackeens’ motion to declare ICWA inapplicable as a violation
of the Texas constitution, but “conscientiously refrain[ed]” from ruling on the Brackeens’ claims under

49a
the United States Constitution pending our resolution
of the instant appeal.
b. The Librettis & Baby O.

The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby O.
for adoption at her birth, though Hernandez has continued to be a part of Baby O.’s life and she and the Librettis visit each other regularly. Baby O.’s biological father, E.R.G., descends from members of the Ysleta del
sur Pueblo Tribe (the “Pueblo Tribe”), located in El
Paso, Texas, and was a registered member of that tribe
at the time Baby O. was born. The Pueblo Tribe intervened in the Nevada custody proceedings seeking to remove Baby O. from the Librettis. Once the Librettis
joined the challenge to the constitutionality of ICWA
and the Final Rule, the Pueblo Tribe indicated that it
was willing to settle. The Librettis agreed to a settlement with the Pueblo Tribe that would permit them to
petition for adoption of Baby O. The Pueblo Tribe
agreed not to contest the Librettis’ adoption of Baby O.,
and on December 19, 2018, the Nevada state court issued a decree of adoption, declaring that the Librettis
were Baby O.’s lawful parents. Like the Brackeens,
the Librettis alleged that they intend to provide foster
care for and possibly adopt additional children in need
but are reluctant to foster Indian children after this
experience.
c. The Cliffords & Child P.

The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the

50a
“White Earth Band”). Child P. is a member of the
White Earth Band for purposes of ICWA’s application
in the Minnesota state court proceedings. Pursuant to
§ 1915’s placement preferences, county officials removed
Child P. from the Cliffords’ custody and, in January 2018,
placed her in the care of her maternal grandmother,
whose foster license had been revoked. Child P.’s guardian ad litem supports the Cliffords’ efforts to adopt her
and agrees that the adoption is in Child P.’s best interest. The Cliffords and Child P. remain separated, and
the Cliffords face heightened legal barriers to adopting
her. On January 17, 2019, the Minnesota court denied
the Cliffords’ motion for adoptive placement.
2.

Defendants

Defendants are the United States of America; the
United States Department of the Interior and its Secretary Deb Haaland, in her official capacity; the BIA and
its Director Darryl La Counte, in his official capacity;
and the Department of Health and Human Services and
its Secretary Xavier Becerra, in his official capacity (collectively, the “Federal Defendants”). Shortly after this
case was filed in the district court, the Cherokee Nation,
Oneida Nation, Quinalt Indian Nation, and Morengo
Band of Mission Indians (collectively, the “Tribal Defendants”) moved to intervene, and the district court
granted the motion. On appeal, we granted the Navajo
Nation’s motion to intervene as a defendant 10 (together
with Federal and Tribal Defendants, “Defendants”).

The Navajo Nation had previously moved to intervene twice in
the district court. The first motion was for the limited purpose of
seeking dismissal pursuant to Rule 19, which the district court denied. The Navajo Nation filed a second motion to intervene for
10

51a
B.

Procedural History

Plaintiffs filed the instant action against the Federal
Defendants in October 2017, alleging that the Final Rule
and certain provisions of ICWA are unconstitutional and
seeking injunctive and declaratory relief. Plaintiffs argued that ICWA and the Final Rule violate equal protection and substantive due process under the Fifth
Amendment and the anticommandeering doctrine that
arises from the Tenth Amendment. Plaintiffs additionally sought a declaration that provisions of ICWA and
the Final Rule violate the nondelegation doctrine and
the APA. Defendants moved to dismiss, alleging that
Plaintiffs lacked standing. The district court denied
the motion. All parties filed cross-motions for summary
judgment. The district court granted Plaintiffs’ motion
for summary judgment in part, declaring that ICWA
and the Final Rule violated equal protection, the Tenth
Amendment, and the nondelegation doctrine, and that
the challenged portions of the Final Rule were invalid
under the APA. 11 Defendants appealed. A panel of this
court affirmed in part the district court’s rulings on standing but reversed and rendered judgment on the merits,
with one judge concurring in part and dissenting in part.
The court then granted en banc review. In total, fourteen amicus briefs have been filed in this case.

purposes of appeal after the district court’s summary judgment order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation filed
the motion directly with this court.
11
The district court denied Plaintiffs’ substantive due process claim,
which Plaintiffs do not appeal.

52a
STANDARD OF REVIEW

We review a district court’s grant of summary judgment de novo. See Texas v. United States, 497 F.3d
491, 495 (5th Cir. 2007). Summary judgment is appropriate when the movant has demonstrated “that there is
no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” FED.
R. CIV. P. 56(a). A genuine dispute of material fact exists “if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
DISCUSSION
I.

Article III Standing

Defendants first contend that Plaintiffs lack standing
to challenge ICWA and the Final Rule. The district
court denied Defendants’ motion to dismiss on this basis, concluding that Individual Plaintiffs have standing
to bring an equal protection claim; State Plaintiffs have
standing to challenge provisions of ICWA and the Final
Rule on the ground that they violate the Tenth Amendment and the nondelegation doctrine; and all Plaintiffs
have standing to bring an APA claim challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (citing U.S. CONST.
art. III, § 2). “Standing to sue is a doctrine rooted in
the traditional understanding of a case or controversy.”
Id. To meet the Article III standing requirement,
plaintiffs must demonstrate (1) “an injury in fact” that
is (2) “fairly traceable to the challenged action of the de-

53a
fendant,” and that is (3) likely to be “redressed by a favorable decision.” Lujan v. Defs. of Wildlife, 504 U.S.
555, 560-61 (1992) (internal quotation marks, citations,
and alterations omitted). A plaintiff seeking equitable
relief must demonstrate a likelihood of future injury in
addition to past harm. See City of Los Angeles v.
Lyons, 461 U.S. 95, 105 (1983). This injury must be
“concrete and particularized” and “actual or imminent,
not conjectural or hypothetical.” See Lujan, 504 U.S.
at 560 (internal quotation marks and citations omitted).
“[S]tanding is not dispensed in gross,” and “a plaintiff must demonstrate standing for each claim he seeks
to press and for each form of relief that is sought.”
Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650 (2017) (quoting Davis v. Fed. Election Comm’n,
554 U.S. 724, 734 (2008)). Nevertheless, “the presence
of one party with standing is sufficient to satisfy Article
III’s case-or-controversy requirement,” and we therefore need conclude only that one plaintiff in the present
case satisfies standing with respect to each claim.
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 52 n.2 (2006). “This court reviews
questions of standing de novo.” Nat’l Rifle Ass’n of
Am., Inc. v. McCraw, 719 F.3d 338, 343 (5th Cir. 2013).
A.

Standing to Bring Equal Protection Claim

Plaintiffs challenged 25 U.S.C. §§ 1913(d), 1914,
1915(a), and 1915(b), and Final Rule § 23.129 to 23.132
on equal protection grounds, alleging that these provisions impose regulatory burdens on non-Indian families
seeking to adopt Indian children that are not similarly
imposed on Indian families who seek to adopt Indian
children. The district court concluded that Individual
Plaintiffs suffered and continue to suffer injuries when

54a
their efforts to adopt Indian children are burdened by
ICWA and the Final Rule; that their injuries are fairly
traceable to the actions of Defendants because ICWA
and the Final Rule mandate state compliance; and that
these injuries are redressable because if ICWA and the
Final Rule were invalidated, then state courts would no
longer be required to follow them. Defendants disagree,
arguing that the Individual Plaintiffs cannot demonstrate an injury in fact or redressability and thus lack
standing to bring an equal protection claim. We will
consider Plaintiffs’ standing to assert challenges to each
of the provisions at issue in turn.
1.

The Challenge to §§ 1913 and 1914

We first conclude that none of the Plaintiffs have
standing to assert an equal protection challenge to
§§ 1913 and 1914. The district court concluded that
§ 1913(d), which allows a parent to petition the court to
vacate a final decree of adoption on the ground that consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years following the final judgment. Defendants argue that § 1914, 12 and not § 1913(d), applies
to the Brackeens’ state court proceedings and that, in
any event, any injury premised on potential future collateral attack under either provision is too speculative.

“Any Indian child who is the subject of any action for foster
care placement or termination of parental rights under State law,
any parent or Indian custodian from whose custody such child was
removed, and the Indian child’s tribe may petition any court of
competent jurisdiction to invalidate such action upon a showing
that such action violated any provision of sections 1911, 1912, and
1913 of this title.” 25 U.S.C. § 1914.
12

55a
We need not decide which provision applies here, as
none of the Individual Plaintiffs have suffered an injury
under either provision. 13 Plaintiffs do not assert that
the biological parents of any Indian child, any tribe, or
any other party are currently seeking or intend in the
future to invalidate the adoption of any of their adopted
children under either provision. Plaintiffs’ proffered
injury under § 1913(d) or § 1914 is therefore too speculative to support standing. See Lujan, 504 U.S. at 560;
see also Clapper v. Amnesty Int’l USA, 568 U.S. 398,
409, 414 n. 5 (2013) (“[T]hreatened injury must be certainly impending to constitute injury in fact, and . . .
allegations of possible future injury are not sufficient.
. . . . Plaintiffs cannot rely on speculation about the
unfettered choices made by independent actors not before the court.” (internal quotation marks, citations, and
alterations omitted)).
Plaintiffs and JUDGE DUNCAN cite Time Warner Cable, Inc. v. Hudson for the proposition that “unequal positioning” before the law is sufficient to constitute an injury. 667 F.3d 630 (5th Cir. 2012) (internal quotation
marks and citation omitted); see DUNCAN, CIRCUIT
JUDGE, OP. at 19-20 & n.30. But that case is inapposite.

State Plaintiffs argue that they have standing to bring an equal
protection challenge in parens patriae on behalf of citizens other
than the Individual Plaintiffs. We disagree. See South Carolina
v. Katzenbach, 383 U.S. 301, 324 (1966) (“[A] State [does not] have
standing as the parent of its citizens to invoke [the Fifth Amendment Due Process Clause] against the Federal Government, the
ultimate parens patriae of every American citizen.”).
13

56a
In Time Warner, this court considered whether
standing was satisfied when incumbent Texas cable operators that had franchise agreements to provide services to municipalities across the state brought an equal
protection challenge to a Texas law that excluded them
from a benefit afforded to other similarly situated cable
operators. 667 F.3d at 633-34. The Texas legislature
had concluded that the cost of negotiating separate municipal franchise agreements posed a barrier for new
companies seeking to enter the cable services market.
Id. The Texas legislature responded by passing a law
that permitted new entrants to the market and
“overbuilders”—companies that build their own cable
systems in areas already served by a cable operator—to
obtain statewide franchises immediately. Id. Incumbent cable providers, however, were ineligible for statewide franchises until after the expiration of their existing municipal licenses. Id. at 634.
This court concluded that the incumbent operators
had alleged a sufficiently actual or imminent injury because the statute was presently preventing incumbent
cable providers from competing for the statewide franchises on equal footing with other market participants.
Id. at 636. The incumbent cable providers would have
been denied statewide licenses under the law if they had
applied for them prior to the expiration of their existing
municipal licenses, and submitting an application for a
state-issued franchise license was wholly within the incumbent providers’ power. In this way, the incumbent
providers’ claim satisfied Article III requirements, as
the law erected an actual barrier to companies already
providing cable services that otherwise would be immediately free to seek a statewide franchise. Id.; see also

57a
Northeastern Florida Chapter of Assoc. Gen. Contractors of America v. City of Jacksonville, 508 U.S. 656, 666
(1993) (in challenging a governmental program setting
aside a certain percentage of contracts for minorityowned businesses, plaintiff must “demonstrate that it is
able and ready to bid on contracts and that a discriminatory policy prevents it from doing so on an equal basis” (emphasis added)).
By contrast, Plaintiffs’ challenges here to §§ 1913(d)
and 1914 rest on the purely theoretical actions of potential third parties who may (or may not) invoke these provisions. Cf. Clapper, 568 U.S. at 414 n.5. This case is
not like Time Warner, but rather Barber v. Bryant, in
which a group of LGBT individuals and advocacy organizations brought an equal protection challenge to a Mississippi statute that permitted parties accused of LGBT
discrimination to assert their sincerely held religious
opposition as a defense. 860 F.3d 345, 351 (5th Cir.
2017). This court found that, like in the present case,
the Barber plaintiffs lacked standing to bring their
equal protection challenge because any hypothetical future injury they would suffer under the statute was entirely dependent on unknown third-parties choosing to
undertake a course of conduct purportedly authorized
by the statute—there, discrimination against the plaintiffs. Id. at 357. JUDGE DUNCAN selectively quotes
from Barber to argue that the court based its decision
only on the fact that the plaintiffs had not alleged that
they intended to engage in the activities in relation to
which the Mississippi statute provided a discrimination
defense. DUNCAN, CIRCUIT JUDGE, OP. at 19 n.30.
But the Barber court plainly stated that, “[a]t a minimum, the challengers would have to allege plans to engage in [the] conduct in Mississippi for which they would

58a
be subject to a denial of service and would be stripped of
a preexisting remedy for that denial.” Barber, 860
F.3d at 358 (emphasis added). In the absence of allegations that a third party would take advantage of the
statute to act in a way that would harm the plaintiffs, the
plaintiffs failed to assert the type of imminent injury
necessary to support standing on their equal protection
claim. 14
In much the same way, the Plaintiffs here allege only
that a third party could come along and challenge their
adoptions under the statute, but they make no allegations that any party has in fact done so or intends to do
so in the future. In other words, these provisions have
yet to place any Plaintiff on unequal footing. No harm
under the statute has materialized and no certain injury
is imminent, as is required for standing to challenge the
provision. Clapper, 568 U.S. at 409. And, to the extent Plaintiffs argue that an injury arises from their attempts to avoid collateral attack under § 1914 by complying with §§ 1911 to 1913, costs incurred to avoid injury are “insufficient to create standing” where the injury is not certainly impending. See id. at 416-17. Accordingly, Plaintiffs lack standing to challenge §§ 1913(d)
and 1914.

The Barber plaintiffs also raised an Establishment Clause challenge to the statute, a separate issue not presented here and about
which we express no opinion. See Barber, 860 F.3d at 356 (“The
Equal Protection and Establishment Clause cases call for different
injury-in-fact analyses because the injuries protected against under the Clauses are different.” (internal quotations and citations
omitted)).
14

59a
2.

The Remaining Equal Protection Claims

Turning to the Plaintiffs’ remaining claims, we conclude that the Brackeens have standing to assert an
equal protection claim as to 25 U.S.C. § 1915(a) and Final Rule §§ 23.129, 23.130, and 23.132, and that the
Cliffords have standing to press this claim as to
§ 1915(b) and Final Rule § 23.131. Because at least one
Plaintiff has standing to assert each of these remaining
claims, the “case-or-controversy requirement” is satisfied, and we do not analyze whether any other Individual
Plaintiff has standing to raise it. See Rumsfeld, 547
U.S. at 52 n.2.
First, the Brackeens have standing to challenge
§ 1915(a), ICWA’s adoption placement preferences provision. As Plaintiffs argue, § 1915’s placement preferences impose on them the ongoing injury of increased
regulatory burdens in their proceedings to adopt A.L.M.’s
sister, Y.R.J., which the Navajo Nation currently opposes in Texas state court. “An increased regulatory
burden typically satisfies the injury in fact requirement.” Contender Farms, L.L.P. v. U.S. Dep’t of Agric.,
779 F.3d 258, 266 (5th Cir. 2015). However, we must
also consider whether causation and redressability are
met here. See Lujan, 504 U.S. at 560-61. The Brackeens’ alleged injury is fairly traceable to the actions of
at least some of the Federal Defendants, who bear some
responsibility for the regulatory burdens imposed by
ICWA and the Final Rule. See Contender Farms,
L.L.P., 779 F.3d at 266 (noting that causation “flow[s]
naturally from” a regulatory injury). Additionally, the
Brackeens have demonstrated a likelihood that their injury will be redressed by a favorable ruling of this court.
In the Brackeens’ ongoing proceedings to adopt Y.R.J.,

60a
the Texas trial court has indicated that it will refrain
from ruling on the Brackeens’ federal constitutional
claims pending a ruling from this court. 15

We also conclude that the Brackeens have maintained standing
throughout the course of the litigation. The Brackeen’s initial complaint, filed in October 2017, alleged that they intended to adopt
A.L.M. In January 2018, the Brackeens completed their adoption
of A.L.M. in state court. In March 2018, they filed a second
amended complaint wherein they alleged that they “intend[ed] to
provide foster care for, and possibly adopt, additional children in
need.” Several months later, in September 2018, the Brackeens
undertook efforts to adopt Y.R.J, and they supplemented the district court record in October 2018 with exhibits evidencing these
efforts. The injury alleged in the Brackeens’ second amended
complaint was sufficiently imminent to support standing, in part,
because the regulatory burdens they claimed ICWA imposed on
their first adoption constitute “evidence bearing on whether” they
faced “a real and immediate threat of repeated injury.” City of
Los Angeles v. Lyons, 461 U.S. 95, 102 (1983) (internal quotation
marks omitted). That the Brackeens’ asserted injury was not too
conjectural to support standing is confirmed by their later attempted adoption of Y.R.J. See Hargrave v. Vermont, 340 F.3d
27, 33034 (2d Cir. 2003) (plaintiff ’s claims that she would be subject
to a state law even though a state court had refused to enforce the
law were not speculative in light of state Supreme Court’s ruling
following the filing of plaintiff ’s federal complaint that the law
could go into effect). Further, in this case, promoting judicial
economy counsels in favor of construing the Brackeens’ supplemental filing as correcting any defect in the pleading, permitting
both the court and the parties to “circumvent ‘the needless formality and expense of instituting a new action when events occurring
after the original filing indicate[] a right to relief.’ ” Northstar
Fin. Advisors Inc. v. Schwab Investments, 779 F.3d 1036, 1044 (9th
Cir. 2015) (quoting WRIGHT, MILLER, & KANE, FEDERAL PRACTICE
AND PROCEDURE: CIVIL 3D § 1505)). Therefore, even if the Brackeens had lacked standing at some point during the district court
15

61a
Our esteemed colleague JUDGE COSTA disagrees that
the likelihood that the Texas trial court will follow our
interpretation of ICWA is sufficient to satisfy Article
III’s redressability requirements and asserts that we
are rendering an advisory opinion on this issue. COSTA,
CIRCUIT JUDGE, OP. at 2-4. But “Article III does not
demand a demonstration that victory in court will without doubt cure the identified injury.” Teton Historic
Aviation Found. v. DOD, 785 F.3d 719, 727 (D.C. Cir.
2015). The plaintiff must show only that its injury is
“likely to be redressed by a favorable decision.” Vill.
of Arlington Heights, v. Metro. Hous. Dev. Corp., 429
U.S. 252, 262 (1977). By stating that it will defer to our
ruling, the Texas court has removed any need “to engage in undue speculation as a predicate for finding that
the plaintiff has the requisite personal stake in the controversy.” Id. at 261-62. Instead, the Texas court’s
statement has made it all but certain that a decision in
the Brackeens’ favor will redress their purported injuries. See Evans v. Michigan, 568 U.S. 313, 325-26
(2013) (“We presume here, as in other contexts, that
courts exercise their duties in good faith.”). Article
III’s redressability requirements are met with respect
to the Brackeens’ claim, meaning at least one Plaintiff
has standing to bring an equal protection claim challenging § 1915(a) and Final Rule §§ 23.129 to 23.132. See
Lujan, 504 U.S. at 560-61; Rumsfeld, 547 U.S. at 52 n.2.

litigation, their supplementation of the record with information related to their attempted adoption of Y.R.J. cured any defect. See
Mathews v. Diaz, 426 U.S. 67, 75 (1976).

62a
Similarly, the Cliffords have standing to challenge
§ 1915(b), ICWA’s foster care and preadoptive placement preferences, and Final Rule § 23.131.16 The Cliffords have clearly alleged an injury due to this provision;
they fostered Child P., but, pursuant to § 1915(b)’s placement preferences, Child. P. was removed from their custody and placed with her maternal grandmother, a member of the White Earth Band. Like the Brackeens’ alleged injury, the Cliffords’ injury is fairly traceable to
some of the Federal Defendants given their responsibility for the burdens imposed by § 1915(b). Finally, a
declaration by the district court that § 1915(b) violates
equal protection would redress the Cliffords’ injury.
Since Child P. has not yet been adopted, the Cliffords
may still petition for custody. Though no state court—
whether within this circuit or in the Cliffords’ home
state of Minnesota—is bound by a decree of this court,
we conclude that it is “substantially likely that [a state
The Cliffords also challenged § 1915(a). We need not address
this challenge, however, as we have already concluded that the
Brackeens—and thus all Plaintiffs—have standing to challenge this
provision. See Rumsfeld, 547 U.S. at 52 n.2 (“[T]he presence of
one party with standing is sufficient to satisfy Article III’s case-orcontroversy requirement.”).
In addition, the parties contest
whether the Cliffords’ claim is subject to issue preclusion. Because
issue preclusion is an affirmative defense, it does not implicate our
standing analysis. See, e.g., In re Senior Cottages of Am., LLC, 482
F.3d 997, 1003 (8th Cir. 2007) (“Whether a party has standing to
bring claims and whether a party’s claims are barred by an equitable
defense are two separate questions, to be addressed on their own
terms.” (quoting Official Comm. of Unsecured Creditors v. R.F. Lafferty & Co., 267 F.3d 340, 346 (3d Cir. 2001))); WRIGHT & MILLER,
13A FED. PRAC. & PROC. JURIS. § 3531 (3d ed.) (“Affirmative defenses against the claims of others are not likely to raise ‘standing’
concerns.”).
16

63a
court] would abide by an authoritative interpretation” of
ICWA by this court, “even though [it] would not be directly bound by such a determination.” Franklin v.
Massachusetts, 505 U.S. 788, 803 (1992). Thus, a favorable ruling “would at least make it easier for” the
Cliffords to regain custody of Child P. Duarte ex rel. Duarte v. City of Lewisville, 759 F.3d 514, 521 (5th Cir.
2014). In sum, Plaintiffs have standing to challenge
§ 1915(a) and (b) and Final Rule §§ 23.129 to 23.132.
B.

Standing to Bring Administrative Procedure Act
Claim

Plaintiffs also bring APA challenges to the Final Rule
promulgated by the BIA. They assert that the Final
Rule violates the APA because ICWA does not authorize
the Secretary of the Interior to promulgate binding
rules and regulations and also contend that the Final
Rule’s construction of § 1915 is invalid. The district
court ruled that State Plaintiffs had standing to bring
APA claims, determining that the Final Rule injured
State Plaintiffs by intruding upon their interests as
quasi-sovereigns to control the domestic affairs within
their states. 17 A state may be entitled to “special solicitude” in our standing analysis if the state is vested by
statute with a procedural right to file suit to protect an
interest and the state has suffered an injury to its
“quasi-sovereign interests.” Massachusetts v. EPA,
549 U.S. 497, 518-20 (2007) (holding that the Clean Air
The district court also found an injury based on the Social Security Act’s conditioning of funding on states’ compliance with ICWA.
However, because we find that Plaintiffs have standing on other
grounds, we decline to decide whether they have demonstrated
standing based on an alleged injury caused by the Social Security
Act.
17

64a
Act provided Massachusetts a procedural right to challenge the EPA’s rulemaking and that Massachusetts
suffered an injury in its capacity as a quasi-sovereign
landowner due to rising sea levels associated with climate change). Applying Massachusetts, this court in
Texas v. United States held that Texas had standing to
challenge the Department of Homeland Security’s
(“DHS”) implementation and expansion of the Deferred
Action for Childhood Arrivals program under the APA.
See 809 F.3d 134, 152 (5th Cir. 2015). This court reasoned that Texas was entitled to special solicitude on the
grounds that the APA created a procedural right to challenge the DHS’s actions, and DHS’s actions affected
states’ sovereign interest in creating and enforcing a legal code. See id. at 152-53.
Likewise, here, the APA provides State Plaintiffs a
procedural right to challenge the Final Rule. See id.;
5 U.S.C. § 702. Moreover, State Plaintiffs allege that
the Final Rule affects their sovereign interest in controlling child custody proceedings in state courts. See
Texas, 809 F.3d at 153 (recognizing that, pursuant to a
sovereign interest in creating and enforcing a legal code,
states may have standing based on, inter alia, federal
preemption of state law). Thus, State Plaintiffs are entitled to special solicitude in our standing inquiry.
With this in mind, we find that the elements of standing
are satisfied. If, as State Plaintiffs alleged, the Secretary promulgated a rule binding on states without the
authority to do so, then State Plaintiffs have suffered a
concrete injury to their sovereign interest in controlling
child custody proceedings that was caused by the Final
Rule. Additionally, though state courts and agencies
are not bound by this court’s precedent, a favorable ruling from this court would remedy the alleged injury to

65a
states by making their compliance with ICWA and the
Final Rule optional rather than compulsory. See Massachusetts, 549 U.S. at 521 (finding redressability where
the requested relief would prompt the agency to “reduce
th[e] risk” of harm to the state).
C.

Standing to Bring Tenth Amendment Claims

For similar reasons, the district court found, and we
agree, that State Plaintiffs have standing to challenge
provisions of ICWA and the Final Rule under the Tenth
Amendment. The imposition of regulatory burdens on
State Plaintiffs is sufficient to demonstrate an injury to
their sovereign interest in creating and enforcing a legal
code to govern child custody proceedings in state courts.
See Texas, 809 F.3d at 153. Additionally, the causation
and redressability requirements are satisfied here, as a
favorable ruling would likely redress State Plaintiffs’ asserted injuries by lifting the mandatory burdens ICWA
and the Final Rule impose on states. See Lujan, 504
U.S. at 560-61.
D.

Standing to Bring Nondelegation Claim

Plaintiffs also contend that § 1915(c), which allows a
tribe to establish a different order of placement preferences than the defaults contained in § 1915(a) and (b), is
an impermissible delegation of legislative power that
binds State Plaintiffs. Defendants argue that State
Plaintiffs cannot demonstrate an injury, given the lack
of evidence that a tribe’s reordering of § 1915(a) and
(b)’s placement preferences has affected any children in
Texas, Indiana, or Louisiana or that such impact is “real
and immediate.” State Plaintiffs respond that tribes
can change ICWA’s placement preferences at any time
and that at least one tribe, the Alabama-Coushatta Tribe

66a
of Texas, has already done so. We conclude that State
Plaintiffs have demonstrated injury and causation with
respect to this claim, as State Plaintiffs’ injury from
the Alabama-Coushatta Tribe’s decision to depart from
§ 1915’s default placement preferences is concrete and
particularized and not speculative. See Lujan, 504
U.S. at 560. And given that the Alabama-Coushatta
Tribe has already filed their reordered placement preferences with Texas’s Department of Family and Protective Services, Texas faces a “substantial risk” that its
claimed injury will occur. Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 158 (2014) (“An allegation of future injury may suffice if the threatened injury is ‘certainly impending,’ or there is a ‘substantial risk that the
harm will occur.’ ” (internal quotation marks omitted)
(quoting Clapper, 568 U.S. at 409, 414 n.5)). Moreover,
a favorable ruling from this court would redress State
Plaintiffs’ injury by making a state’s compliance with a
tribe’s alternative order of preferences under § 1915(c)
optional rather than mandatory. See id.
II. Facial Constitutional Challenges to ICWA

Having determined that State Plaintiffs have standing on the aforementioned claims, we proceed to the
merits of these claims. We note at the outset that
ICWA is entitled to a “presumption of constitutionality”
and “[d]ue respect for the decisions of a coordinate
branch of Government demands that we invalidate a
congressional enactment only upon a plain showing that
Congress has exceeded its constitutional bounds.”
United States v. Morrison, 529 U.S. 598, 607 (2000) (citing
United States v. Harris, 106 U.S. 629, 635 (1883)).

67a
A. Preemption and Anticommandeering

The district court ruled, and Plaintiffs argue on appeal, that 25 U.S.C. §§ 1901-23 18 and 1951-52 19 exceed
Congress’s constitutional powers by violating the anticommandeering doctrine and accordingly do not preempt any conflicting state law. We review de novo the
constitutionality of a federal statute. See United States
v. Perez-Macias, 335 F.3d 421, 425 (5th Cir. 2003).
We start our discussion by explaining the principles
underpinning two intertwined areas of constitutional
law: preemption and anticommandeering. First, preemption. This concept is derived from the Supremacy
Clause of the Constitution, which provides that “[t]his
Constitution, and the Laws of the United States which
shall be made in Pursuance thereof [] . . . shall be
the supreme Law of the Land; and the Judges in every
State shall be bound thereby, any Thing in the Constitution or Laws of any State to the Contrary notwithstanding.” U.S. CONST. art. VI, cl. 2; see also Crosby v.
Nat’l Foreign Trade Council, 530 U.S. 363, 372 (2000)
(“A fundamental principle of the Constitution is that
Congress has the power to preempt state law.”). There-

18
Title 25 U.S.C. §§ 1901-03 sets forth Congress’s findings, declaration of policy, and definitions. Sections 1911-23 govern child
custody proceedings, including tribal court jurisdiction, notice requirements in involuntary and voluntary state proceedings, termination of parental rights, invalidation of state proceedings, placement preferences, and agreements between states and tribes.
19
Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior to promulgate rules and regulations that are necessary for
ICWA’s implementation.

68a
fore, when “Congress enacts a law that imposes restrictions or confers rights on private actors” and a
“state law confers rights or imposes restrictions that
conflict with the federal law,” under the Supremacy
Clause, “the federal law takes precedence and the state
law is preempted.” Murphy v. NCAA, 138 S. Ct. 1461,
1480 (2018). “Even without an express provision for
preemption . . . state law is naturally preempted to
the extent of any conflict with a federal statute.”
Crosby, 530 U.S. at 372.
The anticommandeering doctrine, by contrast, is
rooted in the Tenth Amendment, which states that “[t]he
powers not delegated to the United States by the Constitution, nor prohibited by it to the States, are reserved
to the States respectively, or to the people.” U.S.
CONST. amend. X. Congress’s legislative powers are
limited to those enumerated under the Constitution, and
“conspicuously absent from the list of powers given to
Congress is the power to issue direct orders to the governments of the States.” Murphy, 138 S. Ct. at 1476.
“Where a federal interest is sufficiently strong to cause
Congress to legislate, it must do so directly; it may not
conscript state governments as its agents.” Id. at 1477
(quoting New York v. U.S., 505 U.S. 144, 178 (1992)).
In the present context, these two doctrines—
preemption and anticommandeering—represent opposite sides of the same coin. See New York, 505 U.S. at
156 (explaining that in cases “involving the division of
authority between federal and state governments,” the
dual inquiries as to whether a congressional enactment
is authorized under Article I or violates the Tenth Amendment “are mirror images of each other”). This is because for a federal law to preempt conflicting state law,

69a
two conditions must be satisfied. First, the federal law
“must represent the exercise of a power conferred on
Congress by the Constitution.” Murphy, 138 S. Ct. at
1479. Second, since the Constitution “confers upon
Congress the power to regulate individuals, not States,”
New York, 505 U.S. at 166, the provision at issue must
be a regulation of private actors. Murphy, 138 S. Ct.
at 1479. As discussed in more detail infra, a law does
not fail this second inquiry simply because it also regulates states that participate in an activity in which private parties engage. Id. at 1478. Rather, the key
question is whether the law establishes rights enforceable by or against private parties. See id. at 1480 (citing
Morales v. Trans World Airlines, Inc., 504 U.S. 374, 391
(1992)). When a federal law fails this second step by
directly commanding the executive or legislative branch
of a state government to act or refrain from acting without commanding private parties to do the same, it violates the anticommandeering doctrine. 20 See, e.g., New
York, 505 U.S. at 188 (stating that “[t]he Federal Gov-

Though Congress is prohibited from commandeering states’
legislatures and executive officers, it can “encourage a State to regulate in a particular way, or . . . hold out incentives to the States
as a method of influencing a State’s policy choices.” New York,
505 U.S. at 166. For example, Congress may condition the receipt
of federal funds under its spending power. See id. at 167. Some
of the Defendants contend that ICWA is authorized under Congress’s Spending Clause powers because Congress conditioned
federal funding in Title IV-B and E of the Social Security Act on
states’ compliance with ICWA. However, because we conclude
that ICWA is constitutionally permissible even if its provisions are
construed as mandatory, we need not reach the question of whether
it is justified as an optional incentive program in which states voluntarily participate.
20

70a
ernment may not compel the States to enact or administer a federal regulatory program”); Printz v. United
States, 521 U.S. 898, 932 (1997). On the other hand, if
Congress enacts a statute pursuant to an enumerated
power and the statute does not violate the anticommandeering doctrine or another constitutional provision,
then the federal law necessarily has preemptive force. 21
Of course, like any other unconstitutional law, a federal statute
that violates the anticommandeering doctrine exceeds Congress’s
legislative authority. See New York, 505 U.S. at 155-56. The Court
has stated, however, that a statute is beyond Congress’s Article I
power for purposes of the premption analysis either when the statute does not “represent the exercise of a power conferred on Congress by the Constitution,”—that is, when it addresses a subject
matter that is not included in the powers that the Constitution
grants the federal government—or when the statute breaches the
anticommandeering doctrine, regardless of the subject matter addressed by the legislation. See Murphy, 138 S. Ct. at 1479. These
are two distinct inquires. Otherwise, Congress could never violate
the anticommandeering doctrine when regulating in a field over
which it holds plenary authority. But the Supreme Court has held
that this is not how the Constitution works. See Reno v. Condon,
528 U.S. 141, 142 (2000) (stating that, “in New York [v. United States,
505 U.S. 144 (1992)] and Printz [v. United States, 521 U.S. 898
(1997)], the Court held that federal statutes were invalid, not because Congress lacked legislative authority over the subject matter,
but because those statutes violated” the anticommandeering doctrine); cf., e.g., Seminole Tribe of Florida v. Florida, 517 U.S. 44
(1996) (explaining that “[e]ven when the Constitution vests in Congress complete law-making authority over a particular area,” that
authority is subject to other constitutional constraints); Williams v.
Rhodes, 393 U.S. 23, 29 (1968) (“[T]he Constitution is filled with provisions that grant Congress . . . specific power[s] to legislate in
certain areas; these granted powers are always subject to the limitation that they may not be exercised in a way that violates other
specific provisions of the Constitution.”). We therefore address
separately whether ICWA is within the range of subject matter on
21

71a
1.

Article I Authority

We first address whether ICWA represents a valid
exercise of Congress’s Article I power. “Proper respect for a co-ordinate branch of the government requires the courts of the United States to give effect to
the presumption that congress will pass no act not
within its constitutional power.
This presumption
should prevail unless the lack of constitutional authority
to pass an act in question is clearly demonstrated.”
Harris, 106 U.S. at 635.
The district court concluded that Congress overstepped its powers in enacting ICWA by breaching the
anticommandeering doctrine, but it never addressed
whether the Act fell within Congress’s Article I power
separate and apart from any supposed anticommandeering violation. On appeal, Plaintiffs squarely argue that
Congress exceeded its authority—without respect to
any anticommandeering violation—in enacting ICWA. 22
For the reasons that follow, we disagree.

which Article I authorizes Congress to legislate and whether the law
violates the anticommandeering inquiry.
22
“[A] court of appeals sits as a court of review, not of first view.”
Montano v. Texas, 867 F.3d 540, 546 (5th Cir. 2017). Notwithstanding this general rule, “there are circumstances in which a federal appellate court is justified in resolving an issue not passed on below, as
where the proper resolution is beyond any doubt, or where injustice
might otherwise result.” Singleton v. Wulff, 428 U.S. 106, 121 (1976)
(cleaned up). Given the extensive litigation and the substantial and
exceptional briefing from both the parties and amici, we conclude
that it would work an injustice at this juncture not to resolve the
question of Congress’s authority to enact ICWA. See id. Moreover, we ultimately conclude that the proper resolution of the question is beyond any doubt.

72a
The historical development of the federal Indian affairs power is essential to understanding its sources and
scope. See Heller, 554 U.S. at 581. Earlier, we reviewed the Framers’ dissatisfaction with the untenable
division of authority over Indian affairs between the
states and the national Government under the Articles
of Confederation. We explained how this led the Framers to endow the national government with exclusive,
plenary power in regulating Indian affairs under the
new Constitution.
See supra Background Part I.
This intent, we observed, is revealed through a holistic
reading of the Constitution; the combination of the charter’s Treaty, Property, Supremacy, Indian Commerce,
and Necessary and Proper Clauses, among other provisions, operate to bestow upon the federal government
supreme power to deal with the Indian tribes. See
Ablavsky, Beyond the Indian Commerce Clause, supra
at 1043-44. Understandably, then, the Supreme Court
has consistently characterized the federal government’s
Indian affairs power in the broadest possible terms.
See, e.g., United States v. Lara, 541 U.S. 193, 200 (2000)
(noting that the Indian Commerce and Treaty Clauses
are sources of Congress’s “plenary and exclusive” “powers to legislate in respect to Indian tribes”); Ramah
Navajo Sch. Bd., Inc. v. Bureau of Revenue of N.M., 458
U.S. 832, 837 (1982) (discussing Congress’s “broad
power . . . to regulate tribal affairs under the Indian
Commerce Clause”); White Mountain Apache Tribe v.
Bracker, 448 U.S. 136, 142 (1980) (same); Santa Clara
Pueblo v. Martinez, 436 U.S. 49, 72 (1978) (“As we have
repeatedly emphasized, Congress’ authority over Indian
matters is extraordinarily broad . . . . ”); Mancari,
417 U.S. at 551-52 (noting that “[t]he plenary power of
Congress to deal with the special problems of Indians is

73a
drawn both explicitly and implicitly from the Constitution itself ”).
Conversely, the Constitution totally displaced the
states from having any role in these affairs and “divested [them] of virtually all authority over Indian commerce and Indian tribes.” Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 62 (1996); see also Ablavsky, Beyond the Indian Commerce Clause, supra at 1043-44
(noting that the federal government’s Indian affairs
powers collectively amounted to what present-day doctrine terms field preemption).
Responding to the
problem under the Articles of Confederation of states
openly flouting the federal strategy with respect to the
Indians, the Framers specifically intended that the Constitution would prevent the states from exercising their
sovereignty in a way that interfered with federal Indian
policy. See William C. Canby, § 2.1 AMERICAN INDIAN
LAW IN A NUTSHELL, (7th Ed.) [hereinafter CANBY,
AMERICAN INDIAN LAW]. As in its dealings with foreign nations, it was important that the United States
speak with one voice in making peace with or deploying
military force against the Indians without being undercut by the various contrary policies individual states
might adopt if left to their own devices.
The writings and actions of both the Washington Administration and the First Congress amply demonstrate
this early conception of the national Government as having primacy over Indian affairs. President George
Washington himself explained in a letter to the Governor of Pennsylvania that the federal Government, under
the new Constitution, “possess[ed] the only authority of
regulating an intercourse with [the Indians], and re-

74a
dressing their grievances.” Letter from George Washington to Thomas Mifflin (Sept. 4, 1790), in 6 THE PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL SERIES 188, 189 (Mark A. Mastromarino ed., 1996). And
the First Congress reinforced this exceptionally broad
understanding of federal authority through the adoption
of the Indian Intercourse Act of 1790, Act of July 22,
1790, §§ 1-3, 1 Stat. 137-38. See, e.g., Marsh v. Chambers, 463 U.S. 783, 790 (1983) (“An act ‘passed by the
first Congress assembled under the Constitution, many
of whose members had taken part in framing that instrument, is contemporaneous and weighty evidence of
its true meaning.’ ” (alteration omitted) (quoting Wisconsin v. Pelican Ins. Co., 127 U.S. 265, 297 (1888)).
The legislation provided exclusively for federal management of essential aspects of Indian affairs: the regulation of trade with Indians, prohibition on purchases of
Indian land except by federal agents, and the federalization of crimes committed by non-Indians against Indians. See COHEN’S, supra, § 1.03[2]. And early Congresses repeatedly reaffirmed this expansive understanding of federal power by reenacting the statute in
various forms throughout the late eighteenth and early
nineteenth century. See Act of June 30, 1834, ch. 161,
4 Stat. 729; Act of Mar. 30, 1802, ch. 13, 2 Stat. 139; Act
of Mar. 3, 1799, ch. 46, 1 Stat. 743; Act of May 19, 1796,
ch. 30, 1 Stat. 469; Act of Mar. 1, 1793, ch. 19, 1 Stat. 329.
These acts further evince that, from its earliest days,
Congress viewed itself as having an obligation to sustain
the Indians and tribes as a separate people belonging to
separate nations and to protect them from harm by the
states and their inhabitants. See Lummi Indian Tribe
v. Whatcom Cnty., 5 F.3d 1355, 1358 (9th Cir. 1993) (in-

75a
ternal citations omitted) (“Courts considering the [Indian Intercourse] Act’s purpose have agreed that Congress intended to protect Indians from the ‘greed of
other races,’ and from ‘being victimized by artful scoundrels inclined to make a sharp bargain.’ ” (first quoting
United States v. Candelaria, 271 U.S. 432, 442 (1926);
then quoting Tuscarora Nation of Indians v. Power
Auth., 257 F.2d 885, 888 (2d Cir. 1958), vacated as moot
sub nom., McMorran v. Tuscarora Nation of Indians,
362 U.S. 608 (1960))); STEPHEN L. PEVAR, THE RIGHTS
OF INDIANS AND TRIBES 96 (4th ed. 2012). This duty
has deep historical roots. As related above, the federal
Government engaged with the Indians in the decades
following ratification as part of its westward expansion
project, utilizing not only diplomatic tools like treaties,
but also military might. See supra Background Part I.
By virtue of its manifold and dominant powers over Indian affairs, the national Government gradually subjugated the western lands, eventually enveloping the Indian tribes and extinguishing many aspects of their external sovereignty, including their ability to deal with
other countries as independent nations.
As a consequence of the Indians’ partial surrender of
sovereign power, the federal Government naturally took
on an attendant duty to protect and provide for the wellbeing of the “domestic dependent [Indian] nations.”
Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 13 (1831)
(stating that Indian tribes “look to our government for
protection; rely upon its kindness and its power; appeal
to it for relief to their wants”); see also Mancari, 417
U.S. at 552 (“In the exercise of the war and treaty powers, the United States overcame the Indians and took
possession of their lands, sometimes by force, leaving
them . . . [a] dependent people, needing protection

76a
. . . .” (quoting Bd. of Cnty. Comm’rs v. Seber, 318 U.S.
705, 715 (1943)); supra Background Part II. That is,
owing to the federal Government’s expansive Indian affairs powers and the way in which it has wielded those
powers to divest Indians of their ancestral lands, the
Government bears a responsibility to protect the tribes
from external threats. Similarly, the Government has
an overarching duty to provide for the welfare of tribes.
See CANBY, AMERICAN INDIAN LAW, supra § 3.1; CO23
Numerous pieces of Indian fedHEN’S , supra, § 5.04.
eral legislation have been passed pursuant to this federal duty. 24 Indeed, we know of no court that has found
As discussed, this obligation has been characterized as akin to
a guardian-ward relationship, or, in more contemporary parlance,
a trust relationship. See supra Background Part II; compare
Cherokee, 30 U.S. at 13 (referring to the tribes as “domestic dependent nations” and explaining “[t]heir relation to the United
States resembles that of a ward to his guardian”), with Menominee
Indian Tribe of Wis. v. United States, 136 S. Ct. 750, 757 (2016)
(noting the “general trust relationship between the United States
and the Indian tribes”) (internal quotation marks omitted).
24
See, e.g., Indian Health Care Improvement Act, 25 U.S.C.
§ 1602 (explaining that the legislation was passed “in fulfillment of
[the Government’s] special trust responsibilities and legal obligations to Indians”); Indian Self-Determination and Education Assistance Act, 25 U.S.C. § 450a(a) (“The Congress hereby recognizes
the obligation of the United States to respond to the strong expression of the Indian people for self-determination by assuring maximum Indian participation in the direction of educational as well as
other Federal services to Indian communities so as to render such
services more responsive to the needs and desires of those communities.”); Elementary and Secondary Education Act, 20 U.S.C.
§ 7401 (“It is the policy of the United States to fulfill the Federal
Government’s unique and continuing trust relationship with and
responsibility to the Indian people for the education of Indian children.”); American Indian Agricultural Resource Management Act,
23

77a
Congress’s power wanting when Congress has invoked
its duty to the tribes and enacted legislation clearly
aimed at keeping its enduring covenant. See, e.g.,
Mancari, 417 U.S. 551-52 (“Of necessity the United
States assumed the duty of furnishing . . . protection [to the Indians], and with it the authority to do all
that was required to perform that obligation. . . . ”
(quoting Seber, 318 U.S. at 715)); Kagama, 118 U.S. at
383-84 (“Indian tribes are the wards of the nation. They
are communities dependent on the United States . . .
From their very weakness and helplessness
. . .
there arises the duty of protection, and with it the
power. This has always been recognized by the executive, and by congress, and by this court, whenever the
question has arisen.”); Perrin v. United States, 232 U.S.
478, 486 (1914) (“It must also be conceded that, in determining what is reasonably essential to the protection of
the Indians, Congress is invested with a wide discretion,
and its action, unless purely arbitrary, must be accepted
and given full effect by the courts.”); Worcester, 31 U.S.
at 556-57 (explaining that the Constitution vests Congress with broad Indian affairs powers and that Congress has “[f ]rom the commencement of our government
. . . passed acts to regulate trade and intercourse with
the Indians; which treat the[ tribes] as nations, respect
their rights, and manifest a firm purpose to afford that

25 U.S.C. § 1307 (“[T]he United States has a trust responsibility to
protect, conserve, utilize, and manage Indian agricultural lands
consistent with its fiduciary obligation and its unique relationship
with Indian tribes.”).

78a
protection which treaties stipulate”); Cherokee Nation,
30 U.S. at 13. 25
Chief among the external threats to the Indian tribes
were the states and their inhabitants. See Kagama,
118 U.S. at 384 (The Indian tribes “owe no allegiance to
the states, and receive from them no protection. Because of the local ill feeling, the people of the states
where they are found are often their deadliest enemies.”);
CANBY, AMERICAN INDIAN LAW, supra § 3.1. And the
Supreme Court has long recognized and repeatedly reaffirmed the federal Government’s ongoing duty to protect tribes from the states and vice versa—as well as its
power to do so. See Kagama, 118 U.S. at 384; Cherokee
Nation, 30 U.S. at 13; Worcester, 31 U.S. at 556-57;
Mancari, 417 U.S. 551-52.
In light of the foregoing, ICWA represents the convergence of key aspects of federal Indian law. First, as
Congress expressly noted in its congressional findings,
ICWA was enacted pursuant to the “plenary power over
Indian affairs” that the Constitution places in the federal government. 26 25 U.S.C. § 1901(1). This authority
Though some of the cited cases are permeated with paternalistic overtones and objectionable descriptions of Indians, it is no
less true today than it was centuries ago that the national Government owes an obligation to provide for the welfare of the Indians—
and that it is armed with the power to do so. See, e.g., Mancari,
417 U.S. 551-52.
26
We find it notable that, in enacting ICWA, Congress explicitly
contemplated whether it was constitutionally authorized to do so.
See H.R. REP. NO. 95-1386, at 13-15 (discussing the constitutionality of ICWA, including that ICWA falls within Congress’s plenary
power over Indian affairs); Rostker v. Goldberg, 453 U.S. 57, 64
(1981) (“The customary deference accorded the judgments of Congress is certainly appropriate when, as here, Congress specifically
25

79a
is exclusive to the federal government, and the Framers
specifically intended to prevent the states from interfering with its exercise, either by taking their own disparate stances in dealing with tribal governments or by otherwise exercising their sovereignty in a manner contrary to federal Indian policy. See Seminole Tribe of
Fla., 517 U.S. at 62; Ablavsky, Beyond the Indian Commerce Clause, supra at 1043-44. Just as the Constitution was meant to preclude the states from undertaking
their own wars or making their own treaties with the Indian tribes, see James Madison, Vices of the Political
System of the United States, in 9 THE PAPERS OF JAMES
MADISON 345, 348 (Robert A. Rutland et al. eds., 1975),
so too does it empower the federal government to ensure
states do not spoil relations with the Indian tribes
through the unwarranted taking and placement of Indian children in non-Indian foster and adoptive homes. 27
considered the question of the Act’s constitutionality.”). Though
this judgment is not dispositive, we grant it due deference. See
Perrin, 232 U.S. at 486 (“[I]n determining what is reasonably essential to the protection of the Indians, Congress is invested with
a wide discretion[.]”).
27
JUDGE DUNCAN contends that the principle that the federal
government may prevent states from interfering with federal policy toward the tribes does not apply here because ICWA does not
totally exclude states from Indian child custody proceedings. He
contends that ICWA instead “does the opposite of ‘excluding’ ” by
“leav[ing] many adoptions under state jurisdiction . . . while
imposing ‘Federal standards’ on those state proceedings.” DUNCAN, CIRCUIT JUDGE, OP. at 48 (citing §§ 1911(b) & 1902). But
JUDGE DUNCAN’s suggestion that ICWA “co-opts” the machinery
of state courts in service to the federal government is highly misleading. DUNCAN, CIRCUIT JUDGE, Op. at 49. Far from pressing
the states into federal service, ICWA minimizes any intrusion on
state sovereignty by permitting states to exercise some jurisdiction over Indian Child custody proceedings so long as the state

80a
As with the federal government’s dealings with any
other nation, the Constitution dictates that the government address relations with the Indian tribes on behalf
of the nation as a whole without state interference, be it
with respect to war making, peace treaties, or child custody practices.
Second, ICWA falls within the federal government’s
continuing trust relationship with the tribes, which includes a specific obligation to protect the tribes from the
states. We earlier recounted the arbitrary and abusive
child removal and assimilation practices that led Congress to conclude that it was necessary and proper for it
to enact ICWA. See supra Background Part IV-V; see
also Antoine, 420 U.S. at 203. Briefly stated, throughout the late nineteenth and well into the twentieth century, the federal government was intimately involved in
programs ostensibly to “educate” Indian children at offreservation schools that sought to imbue them with
white Christian values and permanently shed them of
courts respect the federal rights of Indian children, families, and
tribes. Section “1911(a) establishes exclusive jurisdiction in the
tribal courts for proceedings concerning an Indian child who resides or is domiciled within the reservation.” Holyfield, 490 U.S.
at 36 (internal quotation marks omitted) (emphasis added). And
while Section 1911(b) allows states to exercise some concurrent jurisdiction over cases involving “children not domiciled on the reservation,” it establishes that jurisdiction over such proceedings
still “presumptively” lies with the tribal courts. Id. at 36 (internal
quotation marks omitted) (emphasis added). This means that, except in limited circumstances, the case may remain in state court
only with the consent of the Indian child’s parents, custodian, and
tribe. See § 1911(b). This is all to say, that the statute allows
states to participate in an activity that is presumptively and could
wholly be reserved to the tribes or the federal government is an
indulgence of state interests, not an invasion thereof.

81a
and sever them from their tribal heritage. Although
the federal Government eventually discontinued this assimilationist policy, Congress found that abusive Indian
child custody practices continued at the state level, often
leading to the “wholesale” and unwarranted removal of
Indian children from their homes by state child welfare
agencies and adjudicatory bodies, see H.R. REP. NO. 951386, at 9; see also Indian Child Welfare Act of 1977:
Hearing Before the S. Select Committee on Indian Affs.,
95th Cong. 320 (1977) (statement of James Abourezk,
Chairman, S. Select Comm. on Indian Affs.) (describing
the massive removal as resulting in “cultural genocide”).
Congress heard and received extensive evidence on this
plundering of tribal communities’ children, including
testimony that the vast removal of Indian children from
their homes and communities constituted an existential
threat to tribes. See 124 Cong. Rec. 38,103 (1978) (statement of Minority sponsor Rep. Robert Lagomarsino)
(“For Indians generally and tribes in particular, the continued wholesale removal of their children by nontribal
government and private agencies constitutes a serious
threat to their existence as on-going, self-governing communities.”); see also H.R. REP. NO. 95-1386, at 9-10 (declaring that the removal of Indian children was a “crisis
of massive proportions,” representing “perhaps the
most tragic and destructive aspect of Indian life”).
After reviewing this testimony and evidence concerning the massive removal of Indian children from their
tribal communities by the states, Congress found that
“there is no resource that is more vital to the continued
existence and integrity of Indian tribes than their children”; “that an alarmingly high percentage of Indian
families are broken up by the removal, often unwarranted, of their children from them by nontribal public

82a
and private agencies”; and “that an alarmingly high percentage of such children are placed in non-Indian foster
and adoptive homes and institutions.”
25 U.S.C.
§ 1901(3)-(4). And Congress directly attributed this
threat to the states “exercising their recognized jurisdiction over Indian child custody proceedings through
administrative and judicial bodies,” observing that they
had “often failed to recognize the essential tribal relations of Indian people and the cultural and social standards prevailing in Indian communities and families.”
Id. § 1901(5).
Thus, ICWA also falls within Congress’s “plenary
powers to legislate on the problems of Indians” in order
to fulfill its enduring trust obligations to the tribes.
Antoine, 420 U.S. at 203. Indeed, the congressional
findings in the statute expressly invoke this “responsibility for the protection and preservation of Indian
tribes and their resources” and state “that the United
States has a direct interest, as trustee, in protecting Indian children.” 25 U.S.C. § 1901(2)-(3). The law was
intended to combat an evil threatening the very existence of tribal communities, and it would be difficult to
conceive of federal legislation that is more clearly aimed
at the Government’s enduring trust obligations to the
tribes. Moreover, it fulfills the government’s duty to
protect the tribes from the states by regulating relations
between the two—a power that the Framers specifically
intended that the Constitution bestow on the federal
government. 28 See CANBY, AMERICAN INDIAN LAW
The opposing opinion misapprehends the significance to our
analysis of the federal government’s history of removing Indian
children from their families and tribes to place them at off-reservation
boarding schools. See DUNCAN, CIRCUIT JUDGE, OP. at 50-51. In
28

83a
the view of the opposing opinion, that the boarding school policy
began in the latter half of the nineteenth century, and not the
Founding era, means that the federal government’s assimilation
policy is irrelevant in determining whether Congress was authorized to enact ICWA. This is squarely contrary to the Supreme
Court’s explicit direction that historical “practice [is] an important
interpretive factor even when the nature or longevity of that practice is subject to dispute, and even when that practice began after
the founding era.” Noel Canning, 573 U.S. at 525 (emphasis
added). But more importantly, JUDGE DUNCAN’S observation about
the start of the boarding school policy misses the point: Since the
Nation’s founding, the federal government has viewed itself as owing an affirmative duty to promote tribal welfare generally and to
provide for Indian children specifically, as well as having the power
to do so—obligations that arise under what is now described as a
trust relationship between the tribes and the government. See
Br. of Prof. Ablavsky at 20 (describing federal financing of placement of Indian children in Quaker homes during the Washington
administration); see also Fletcher, FEDERAL INDIAN LAW § 5.2.
This relationship, at one time, led the federal government to pursue misguided policies that harmed the tribes, including its efforts
at assimilating Indian children through the use of boarding schools
during the nineteenth and twentieth centuries. And decades after
the height of the federal government’s ill-founded promotion of Indian boarding schools, the states continued to perpetuate the destruction of tribal culture by removing massive numbers of Indian
children from the custody of their parents. See supra Background
Part IV-V. In the face of these abusive child welfare practices
and pursuant to the government’s trust duty to the tribes—which,
again, is rooted in the Nation’s Founding era—Congress enacted
ICWA to protect the tribes. Stated differently, Founding-era history confirms Congress’s “plenary power[]” and responsibility “to
legislate on the problems of Indians,” Antoine, 420 U.S. at 203, and
the history of Indian child removal demonstrates that the unwarranted breakup of Indian families was such a problem. Congress
was effectuating its trust obligations to the tribes when it acted to
halt the wrongful Indian child custody practices that had once been
carried out by the federal government and were continuing to be
practiced by states at the time of ICWA’s enactment, and this is

84a
§ 2.1 (“The central policy . . . was one of separating
Indians and non-Indians and subjecting nearly all interaction between the two groups to federal control.”).
Plaintiffs raise several arguments in favor of cabining Congress’s authority to redress the evils attending
state child welfare proceedings involving Indian children. We review their contentions and find them wanting.
First, seeking to surmount the mountain of case law
sustaining Congress’s plenary authority to regulate with
respect to Indians, Plaintiffs point out that the Court remarked that this power is “not absolute” in Delaware
Tribal Business Committee v. Weeks, 430 U.S. 73, 84
(1977). A cursory review of the cited authority reveals
that it affords no support to Plaintiffs’ position. The
above-quoted statement was made with regard to the
justiciability of a challenge to Congress’s “exercise of
control over tribal property.” Id. at 83. In other words,
the Court was addressing only whether it in fact had authority to adjudicate the dispute—not the extent of Congress’s authority to regulate Indian tribes. In any
event, the Court concluded that the controversy was justiciable and upheld the challenged enactment. Id. at
90. Delaware Tribal Business Committee in no way
shackles Congress’s authority to regulate Indian tribes.
Plaintiffs next contend that the meaning of commerce
in the Indian and Interstate Commerce Clauses is equivalent. Plaintiffs thus seek to import Interstate Commerce Clause jurisprudence into the Indian Commerce

exactly what the Constitution empowers the federal government to
do.

85a
Clause in order to limit Congress’s power under the latter; they argue that the latter clause does not authorize
ICWA because children are not “persons . . . in commerce” and child custody cases do not substantially affect commerce with Indian tribes. We find Plaintiffs’
construction of the Indian Commerce Clause unduly
cramped, at odds with both the original understanding
of the clause and the Supreme Court’s more recent instructions. See Printz, 521 U.S. at 905 (looking to “historical understanding and practice” as well as “the jurisprudence of this Court” to determine whether a federal enactment was constitutional). More fundamentally, the history, text, and structure of the Constitution
demonstrate that the federal Government, including
Congress, has plenary authority over all Indian affairs
and that this power is in no way limited to the regulation
of economic activity. And, as stated, Congress does not
derive its plenary power solely from the Indian Commerce Clause, but rather from the holistic interplay of
the constitutional powers granted to Congress to deal
with the Indian tribes as separate nations. See Ablavsky, Beyond the Indian Commerce Clause, supra at
1026.
The history refutes Plaintiffs’ attempt to equate the
Interstate and Indian Commerce Clauses. Indeed,
since the framing of the Constitution, “Indian ‘commerce’ [has] mean[t] something different” than “interstate commerce.” Id. The Framers debated and approved the Indian Commerce Clause separately from
the Interstate Commerce Clause, and, during ratification, the clauses were viewed as so distinct in content
that “no one during ratification interpreted the Indian
Commerce Clause to shed light on the Interstate . . .
Commerce Clause[], or vice versa.” Id. at 1027; see

86a
also Matthew L.M. Fletcher, ICWA and the Commerce
Clause, in THE INDIAN CHILD WELFARE ACT AT 30:
FACING THE FUTURE 32 (Fletcher et al. eds., 2009)
[hereinafter Fletcher, ICWA and the Commerce Clause].
Though both provisions use the term “commerce,” the
historical evidence from the time of the Constitution’s
framing indicates that interpreting “commerce” identically in the Interstate and Indian Commerce Clauses is
a “trap” that “would tend to obliterate the original meaning and intent of the Indian Commerce Clause.” Fletcher,
ICWA and the Commerce Clause, supra, at 31. Put
simply, “[c]ommerce with Indian tribes must be interpreted on its own terms rather than in the shadow of
. . . the Interstate Commerce Clause.” Ablavsky,
Beyond the Indian Commerce Clause, supra, at 1028,
1029 (noting that eighteenth century references to
“commerce” with Indians included the exchange of religious ideas with tribes and sexual intercourse with Indians); see also Fletcher, ICWA and the Commerce
Clause, supra at 8-9.
Legislation from the beginning of the Constitutional
era further demonstrates that the Constitution confers
synergistic and comprehensive powers on the federal
Government to manage relations with Indian tribes, regardless of whether the regulated activity is economic in
nature. As noted above, the Indian Intercourse Act of
1790 embraced many noneconomic subjects, including
the regulation of criminal conduct by non-Indians
against Indians. In enacting the law, the First Congress plainly conceived of its power to extend into regulation of noneconomic activity relating to Indian tribes.
See Jack M. Balkin, Commerce, 109 MICH. L. REV. 1, 2426 (2010) (discussing the Act and its successors and stating that “Congress clearly believed that it could reach

87a
both economic and noneconomic activity under the Indian Commerce Clause,” given that the Act reaches noneconomic criminal conduct, such as murder); see also
Akhil Reed Amar, America’s Constitution and the Yale
School of Constitutional Interpretation, 115 YALE L.J.
1997, 2004 n.25 (2006). Since then, Congress has repeatedly exercised its Indian affairs authority for matters
far beyond mere economic exchange. See, e.g., Indian
Health Care Improvement Act, 25 U.S.C. §§ 1601 et seq.;
Tribally Controlled Community College Assistance Act,
25 U.S.C. § 1801(7)(B).
Furthermore, “[t]he scope of federal power under the
Indian commerce clause has developed under Supreme
Court decisions differently than the powers over foreign
and interstate commerce.” COHEN ’S, supra, § 4.01[1][a].
The Court has explicitly underscored the distinction between the clauses, explaining that “the Indian Commerce Clause accomplishes a greater transfer of power
from the States to the Federal Government than does
the Interstate Commerce Clause.” Seminole Tribe,
517 U.S. at 62 (observing that, though “the States still
exercise some authority over interstate trade[, they]
have been divested of virtually all authority over Indian
commerce and Indian tribes”). In short, it is “well established that the Interstate Commerce and Indian Commerce Clauses have very different applications”; unlike
the former clause, which “is concerned with maintaining
free trade among the States,” “the central function of
the Indian Commerce Clause is to provide Congress
with plenary power to legislate in the field of Indian affairs.” Cotton Petroleum Corp. v. New Mexico, 490 U.S.
163, 192 (1989) (emphasis added); see also United States
v. Lomayaoma, 86 F.3d 142, 145 (9th Cir. 1996) (noting

88a
that the Indian Commerce clause “confers more extensive power on Congress than does the Interstate Commerce Clause”). And the Supreme Court has continually made clear that Congress’s Indian affairs power is
not limited to regulating economic activity. See Lara,
541 U.S. at 200 (affirming power of tribes to criminally
prosecute nonmembers); United States v. Holliday, 70
U.S. (3 Wall.) 407, 410-11, 416-17 (1865) (upholding under the Indian Commerce Clause a federal statute that
criminally sanctioned the sale of liquor to Indians, reasoning that the law “regulates the intercourse between
the citizens of the United States and [Indian] tribes,
which is another branch of commerce, and a very important one”); Worcester, 31 U.S. at 559 (explaining that
the array of Indian affairs powers conferred on Congress by the Constitution “comprehend all that is required for the regulation of our intercourse with the Indians”). Any contention that ICWA is beyond Congress’s authority to legislate with regard to Indian affairs is unfounded.
Alternatively, Plaintiffs argue that, even if the Constitution grants Congress plenary power with respect to
Indian affairs, ICWA nonetheless exceeds Congress’s
legislative authority because it reaches Indian children
who are not yet enrolled tribal members. We find no
merit in this argument. Pursuant to its Indian affairs
power, Congress has long regulated persons without
any tribal connection when their conduct affects Indians. See, e.g., Indian Intercourse Act, § 1, 1 Stat. 137
(requiring any person who seeks “to carry on any trade
or intercourse with the Indian tribes” to obtain a license
from the federal government); United States v. Mazurie, 419 U.S. 544, 556-58 (1975) (upholding federal

89a
criminal statute, passed pursuant to the Indian Commerce Clause and applied to non-Indians for conduct on
private, non-Indian land within a reservation). Indeed,
“Congress’ plenary powers to legislate on the problems
of Indians” often results in statutes that impact—and
are directly aimed at—non-Indians. Antoine, 420 U.S.
at 203; see also Dick v. United States, 208 U.S. 340, 357
(1908) (“As long as these Indians remain a distinct people, with an existing tribal organization, recognized by
the political department of the government, Congress
has the power to say with whom, and on what terms,
they shall deal . . . .”). This type of regulation has
been upheld repeatedly, even when it extends outside
the bounds of the reservation or Indian country. See,
e.g., United States v. Nice, 241 U.S. 591, 597 (1916) (“The
power of Congress to regulate or prohibit traffic in intoxicating liquor with tribal Indians within a state,
whether upon or off an Indian reservation, is well settled. It has long been exercised, and has repeatedly
been sustained by this court.”) (emphasis added);
United States v. Forty-Three Gallons of Whiskey, 93 U.S.
(3 Otto) 188, 195 (1876) (sustaining Congress’s power to
require forfeiture of liquor sold outside of Indian country by a non-Indian to a tribal member); Holliday, 70
U.S. (3 Wall.) at 416-17 (upholding statute that criminally sanctioned sale of liquor by a non-Indian to an Indian outside of Indian country); COHEN’S, supra, § 5.01[3]
(explaining that the Indian Commerce Clause comprehends “transactions outside of Indian country.”). Simply
put, Congress’s Indian affairs power does not hinge on
whether an entity affected by a regulation is a member
of an Indian tribe, and there is no authority in the case
law for the novel constraint on congressional power that
Plaintiffs proffer.

90a
JUDGE DUNCAN’s objections to Congress’s power to
enact ICWA center on concerns that the statute impermissibly interferes with state sovereignty by legislating
federal protections applicable to Indian children in state
child welfare proceedings. He raises similar contentions when arguing that ICWA contravenes the anticommandeering principle, which we address below in
our anticommandeering discussion. See infra Discussion Part II.A.2. But that issue is distinct from the
question of whether Congress under Article I may legislate on the particular subject matter at issue: providing minimum protections for Indian children and families in child custody proceedings in order to prevent and
rectify the massive removal of Indian children from
their communities. 29 See supra note 21. To the extent the opposing opinion alleges a Tenth Amendment
violation independent of any anticommandeering problem, centuries of Supreme Court precedent declaring
Congress’s duty to protect tribes from the states and
Congress’s corresponding “plenary power[] to legislate
on the problems of Indians” compel us to reject JUDGE
The opposing opinion misreads us as somehow suggesting that
the “Tenth Amendment vanishes” when Congress has plenary
power to legislate in a certain field. SEE DUNCAN, CIRCUIT
JUDGE, OP. at 28. To the contrary, we have explained that the
question of Congress’s Article I authority to legislate on a given
subject matter is separate from the anticommandeering inquiry
and other federalism concerns—as well as other constitutional constraints on Congress’s legislative authority. See supra note 21.
And our analysis therefore tracks this basic understanding about
the distinct constitutional inquiries presented: first, we address
whether ICWA is within the range of Congress’s Indian affairs authority, and second, we consider whether ICWA contravenes the
anticommandeering doctrine. Compare Discussion Part II.A.1
with Discussion Part.II.A.2.
29

91a
DUNCAN’S arguments for imposing new restraints on
this authority. Antoine, 420 U.S. at 203; see also, e.g.,
Mancari, 417 U.S. 551-52; Kagama, 118 U.S. at 383-84.
Indeed, preventing the states from exercising their sovereign power in a manner that interferes with federal
policy toward the Indian tribes is precisely what the
Constitution was intended to do. See Worcester, 31 U.S.
at 559 (“[The Constitution] confers on congress the powers of war and peace; of making treaties, and of regulating commerce with foreign nations, and among the several states, and with the Indian tribes. These powers
comprehend all that is required for the regulation of our
intercourse with the Indians. They are not limited by
any restrictions on their free actions. The shackles imposed on this power, in the confederation, are discarded.”). It was exactly this concern that led the
Framers to confer on the federal government exclusive,
plenary power over Indian affairs through myriad interrelated constitutional provisions. See Ablavsky, Beyond the Indian Commerce Clause at 1043-44.
JUDGE DUNCAN’s argument suffers from another
fundamental defect. His overarching premise is that
ICWA violates the Tenth Amendment—and thus exceeds Congress’s Article I authority—because it “encroaches” on an area of “traditional” state regulation,
the field of domestic relations. DUNCAN, CIRCUIT
JUDGE, OP. at 15, 40 n.58,. Yet, as JUDGE HIGGINSON
cogently explains, this assertion is squarely at odds with
the Supreme Court’s decision in Garcia v. San Antonio
Metropolitan Transit Authority, where the Court emphatically rejected as unprincipled and unadministrable
a conception of Tenth Amendment protections that
turns on whether a regulated activity is one that is tra-

92a
ditionally within a state’s purview. HIGGINSON, CIRCUIT JUDGE, OP. at 1-2; see Garcia, 469 U.S. 528, 546-47
(1985) (“We therefore now reject, as unsound in principle and unworkable in practice, a rule of state immunity
from federal regulation that turns on a judicial appraisal
of whether a particular governmental function is ‘integral’ or ’traditional.’ ”)
First, “[t]here is no ‘general doctrine implied in the
Federal Constitution that the two governments, national and state, are each to exercise its powers so as not
to interfere with the free and full exercise of the powers
of the other.’ ” Maryland v. Wirtz, 392 U.S. 183, 195
(1968) (quoting Case v. Bowles, 327 U.S. 92, 101 (1946)).
Rather, pursuant to the Supremacy Clause, “the Federal Government, when acting within a delegated power,
may override countervailing state interests,” whether
those interests are labeled traditional, fundamental, or
otherwise. Id. In ratifying the Constitution, the states
consented to the subordination of their interests—even
those interests that are traditional state prerogatives—
to those of the federal government when it acts pursuant
to its constitutional powers. See Garcia, 469 U.S. at
549. “In the words of James Madison to the Members
of the First Congress: ‘Interference with the power of
the States was no constitutional criterion of the power
of Congress. If the power was not given, Congress
could not exercise it; if given, they might exercise it,
although it should interfere with the laws, or even the
Constitution of the States.’ ” Id. (quoting 2 Annals of
Cong. 1897 (1791)).
Moreover, on a more practical level, requiring courts
to attempt to ascertain whether a given area of regulation is sufficiently within the historical province of states

93a
to qualify for protection would “result in line-drawing of
the most-arbitrary sort.” Id. at 545. “[T]he genesis
of state governmental functions stretches over a historical continuum from before the Revolution to the present, and courts would have to decide by fiat precisely
how longstanding a pattern of state involvement had to
be for federal regulatory authority to be defeated.” Id.
And, as the Garcia Court observed, aside from longevity, there is a total lack “of objective criteria” by which
to identify unenumerated “fundamental’ elements of
state sovereignty.” Id. at 549.
The Garcia Court therefore held that the entirety of
the constitutional protections for states’ retained sovereignty in the federalist system are found in the limitations inherent in Congress’s enumerated Article I powers 30 and “in the structure of the Federal government
itself,” which assigns the states a role in, among other
things, selecting the executive and legislative branches
of the federal government. Id. at 550-51. This structure reflects the Framers’ desire “to protect the States
from overreaching by Congress” through their participation in the democratic system and the political process, and not by judicial assessment of whether a federal
The modern anticommandeering doctrine was developed postGarcia, and it is also rooted in the Tenth Amendment’s reservation
of state sovereignty. See, e.g., New York, 505 U.S. at 188; Printz,
521 U.S. at 932. And the Court has of course long recognized that
states retain sovereign immunity from most private suits, including
in post-Garcia decisions. See, e.g., Seminole Tribe, 517 U.S. at 47.
Garcia, nevertheless, remains good law, as evidenced by citations to
it in the Court’s leading anticommandeering cases, see New York,
505 U.S. at 155; Printz, 521 U.S. at 932, meaning the type of unenumerated spheres of state sovereignty JUDGE DUNCAN relies upon
simply do not exist.
30

94a
practice intrudes on some inviolable area of state sovereignty that went unmentioned in the Constitution despite its supposed importance. Id. In short, Garcia
made clear that any “attempt to draw the boundaries of
state regulatory immunity in terms of ‘traditional governmental function’ is not only unworkable but is also
inconsistent with established principles of federalism.”
Id. at 554.
As JUDGE HIGGINSON points out, this is precisely the
type of disfavored line drawing in which JUDGE DUNCAN’S opinion engages: it erroneously attempts to shield
states from ICWA’s minimum protections on the ground
that the law touches on domestic relations, a sphere of
regulation “traditionally” within the purview of states.
HIGGINSON, CIRCUIT JUDGE, OP. at 1-2. The opposing
opinion thus “risks resuscitating a misunderstanding of
state sovereignty that entangles judges with the problematic policy task of deciding what issues are so inherent in the concept and history of state sovereignty that
they fall beyond the reach of Congress.” HIGGINSON,
CIRCUIT JUDGE, OP. at 2.
Recognizing that Garcia’s reasoning dooms its argument, the opposing opinion attempts to distinguish that
decision based on the fact that the statute at issue in
Garcia was enacted pursuant to Congress’s Interstate
Commerce Clause authority, whereas ICWA stems from
Congress’s power over Indian affairs. See DUNCAN,
CIRCUIT JUDGE, OP. at 40 n.58. However, the Garcia
Court’s reasoning for expressly rejecting a Tenth
Amendment test that looks to whether a federal regulation encroaches on a ‘traditional governmental function’
applies with equal force regardless of the enumerated
power pursuant to which Congress acts. Moreover, it

95a
would be nonsensical for the Tenth Amendment to impose more stringent federalism limitations on Congress
when it regulates under its Indian affairs authority than
under its Interstate Commerce power. It is well settled that states retain sovereign authority under the
Tenth Amendment “only to the extent that the Constitution has not divested them of their original powers and
transferred those powers to the Federal Government,”
id. at 549, and “the Indian Commerce Clause accomplishes a greater transfer of power from the States to
the Federal Government than does the Interstate Commerce Clause.” Seminole Tribe, 517 U.S. at 62. In
other words, if any distinction exists between the limitations federalism places on Congress’s Indian affairs
power and its Interstate Commerce power, it would be
that Congress has more freedom to regulate with respect to Indian affairs, not less. See id.; Cotton Petroleum Corp., 490 U.S. at 192; see also Lomayaoma, 86
F.3d 145; Ablavsky, Beyond the Indian Commerce
Clause, supra at 1043-44.
The opposing opinion further contends that Garcia is
inapposite because that case “concerned whether ‘incidental application’ of general federal laws ‘excessively
interfered with the functioning of state governments.’ ”
DUNCAN, CIRCUIT JUDGE, OP. at 40 n.58 (quoting Printz,
521 U.S. at 932). But the same is true with ICWA.
Like the provision of the Fair Labor Standards Act at
issue in Garcia that applied to both public and private
employers, ICWA is a generally applicable law. Under
the statute, as explained infra Discussion Part II.A.2.b,
any burdens faced by states are “nothing more than the
same . . . obligations” that “private [actors] have to
meet.” Garcia, 469 U.S. at 554. Because ICWA’s man-

96a
dates may be borne either by private actors or state actors, any burdens on states are “merely incidental applications” of the statute. Printz, 521 U.S. at 932. JUDGE
DUNCAN thus fails to persuasively distinguish Garcia,
confirming that the opposing opinion’s argument for
limiting Congress’s Indian affairs authority under the
Tenth Amendment is “unsound in principle and unworkable in practice.” Garcia, 469 U.S. at 546.
The opposing opinion also posits, in essence, that
Congress’s authority to enact ICWA turns on whether
there is either a Supreme Court decision blessing a statute that operates just like ICWA or a Founding-era federal law that regulates Indian children and applies
within state child welfare proceedings. See DUNCAN,
CIRCUIT JUDGE, OP. at 29-56. Because neither exist,
ICWA must fall, according to the opposing opinion. Such
reasoning is misguided.
First, it is unsurprising that there is no Founding-era
federal Indian statute conferring rights that apply in
state proceedings. As JUDGE COSTA notes, it would have
been anachronistic and bizarre for the early Congresses
to have passed a law specifically pertaining to child custody proceedings because it was not until the middle of
the nineteenth century that state adoption law shifted to
allow for the adjudication of child placements in judicial
proceedings. See COSTA, CIRCUIT JUDGE, OP. at 16-17;
see also Naomi Cahn, Perfect Substitutes or the Real
Thing?, 52 Duke L.J. 1077, 1112-17 (2003). And there
was no need during the Founding era for legislation that
operated like ICWA as there was no massive removal of
Indian children from their families at the hands of state
administrative or judicial bodies. It was only during
the 1970s that the scale of the ongoing, state-driven

97a
problem of Indian child removal was brought to Congress’s attention. See supra Background Part IV.
Over a four-year span, Congress considered voluminous
evidence of the systematic removal of Indian children
from their families and tribes through state proceedings.
Fletcher, FEDERAL INDIAN LAW, supra § 8.8. Faced with
the unique and alarming nature of this evil, Congress
determined it was necessary to enact ICWA in order to
protect Indian children, families, and tribes within those
state proceedings. Thus, deciding ICWA’s constitutionality by looking to whether the Founders enacted a
federal law conferring rights to Indian families and
tribes within child custody proceedings is as nonsensical
as deciding that federal regulation of the internet is unconstitutional because the early Congresses lacked the
prescience to regulate a non-existent technology.
Second, the absence of a Supreme Court decision
squarely addressing a federal Indian statute that creates rights applicable in state proceedings does not lend
credence to the opposing opinion’s position. As discussed infra Discussion Part II.A.2.a.i, the Supreme
Court has repeatedly held that state courts are bound
by the Supremacy Clause to apply validly preemptive
federal law, and there is thus ample Supreme Court
precedent supporting Congress’s authority to enact
laws applicable in state proceedings.
See, e.g.,
McCarty v. McCarty, 453 U.S. 210, 235-36 (1981) (federal military benefits statute guaranteeing “retired
pay” to a retired servicemember preempted state’s community property law that otherwise would have provided upon divorce for dividing the retirement pay between the former spouses); Hisquierdo v. Hisquierdo,
439 U.S. 572, 590 (1979) (federal Railroad Retirement
Act’s scheme for pension benefits, which excluded a

98a
spouse of a railroad employee from entitlement to such
benefits upon divorce, preempted state law’s definition
of community property subject to division). That there
may be no case affirming a federal statute that creates
rights related to Indians that apply in state courts evidences only the history just discussed and the fact that
few questioned Congress’s ability to legislate in this
manner given the wealth of Supreme Court precedents
upholding the preemptive force of federal law. Indeed,
ICWA itself has been a part of the United State Code
for over forty years without a significant Tenth Amendment challenge to the law reaching the Supreme Court
or the courts of our sister circuits, which would surely
be puzzling if the statute were truly the radical, unprecedented federal overreach that the opposing opinion
contends. Thus, the lack of a Supreme Court case directly addressing an Indian law like ICWA that creates
rights applicable in state court proceedings speaks not
to the absence of federal authority to enact such a statute, but instead to historical circumstance and federal
authority that is so well established as to be unquestionable.
To summarize, ICWA’s constitutionality does not
hinge on JUDGE DUNCAN’s exceptionally pinched framing that would have the statute rise or fall based on the
historical sanctioning of an exact analogue that Congress would have had no occasion to enact. Rather, the
salient question is whether the history and text of the
Constitution and congressional practice suggest that
ICWA is within Congress’s plenary Indian affairs authority. See Noel Canning, 573 U.S. at 533 (“The Founders knew they were writing a document designed to apply to ever-changing circumstances over centuries.
After all, a Constitution is ‘intended to endure for ages

99a
to come,’ and must adapt itself to a future that can only
be ‘seen dimly,’ if at all.” (quoting McCulloch v. Maryland, 17 U.S. (4 Wheat) 316, 415 (1819))); Heller, 554
U.S. at 528. Given the extensive history of federal government efforts to provide for the welfare of Indian children and tribes, including legislation specifically designed to protect Indians from mistreatment by the
states and their citizens, this question can only be answered in the affirmative.
Searching in vain for case law to support its unorthodox position, the opposing opinion improvidently relies
on two inapposite Supreme Court decisions, Seminole
Tribe of Florida v. Florida, 517 U.S. 44 (1996), and
United States v. Lara, 541 U.S. 193 (2004). In Seminole Tribe, the Court considered an issue wholly absent
from the present case: Congress’s power to abrogate
states’ sovereign immunity. 517 U.S. at 47. That case
concerned the Indian Gaming Regulatory Act, which
was passed pursuant to the Indian Commerce Clause.
Id. One provision in the law authorized tribes to sue
states in federal court to compel them to negotiate in
good faith to establish a tribal-state compact governing
gaming activities. Id. The Court nullified that provision; it reasoned that, although the Constitution vests
Congress with “complete law-making authority” with
respect to Indian affairs, “the Eleventh Amendment
[generally] prevents congressional authorization of suits
by private parties against unconsenting states.” Id. at
72.
JUDGE DUNCAN emphasizes this uncontroversial
statement, but it does not advance his argument. DUNIn holding that
CAN, CIRCUIT JUDGE, OP. at 35-36.

100a
Congress could not abrogate a state’s sovereign immunity pursuant to its Indian affairs power, Seminole Tribe
simply recognized that, even when Congress holds plenary authority over a field of legislation, that power is
still subject to limitations imposed by other constitutional provisions. See id.; Williams, 393 U.S. at 29;
Condon, 528 U.S. at 149. It is for this reason that, as
explained supra note 21, we first address Congress’s Article I authority to legislate over ICWA’s subject matter
and then separately consider whether ICWA is consistent with the anticommandeering doctrine and other
constitutional guarantees.
To the extent JUDGE DUNCAN asserts that Seminole
Tribe prohibits Congress from regulating in state “sovereign matters like adoption proceedings,” DUNCAN,
CIRCUIT JUDGE, OP. at 36, we disagree. Seminole
Tribe addressed only limitations on Congress’s power to
override states’ sovereign immunity from suit by private
parties. See id. at 47. It has no bearing on the scope
of Congress’s Article I authority when, as here, private
suits against a state are not at issue. Indeed, the Court
carefully noted that its opinion in no way touched upon
other aspects of the Tenth Amendment. See id. at 61
n.10 (expressly declining to opine on whether the statute
contravened the anticommandeering doctrine because
this argument “was not considered below . . . and is
not fairly within the question presented”); see also id. at
183 n.65 (Souter, J., dissenting) (cautioning that the
views expressed in his dissenting opinion on the issue of
state sovereign immunity “should not be understood [as]
tak[ing] a position on” the “scope of the Tenth Amendment” in other respects). Furthermore, the Supreme
Court has expressly held that even in fields like domestic relations that are generally the exclusive territory of

101a
state regulation, Congress can enact legislation that
preempts contrary state law. See, e.g., McCarty, 453
U.S. at 235-36. In sum, any reliance on Seminole Tribe
as imposing a limit on Congress’s ability to exercise its
Indian affairs authority to create federal rights that apply within child custody proceedings is misplaced. 31
The Supreme Court’s decision and reasoning in Lara,
541 U.S. at 196, also does not apply to the present case.
There, the Court considered the constitutionality of a
statute enacted in response to an earlier Court ruling in
Duro v. Reina, 495 U.S. 676 (1990). In Duro, the Court
held that tribes had been dispossessed of their inherent
authority to prosecute nonmember Indians by virtue of
their status as dependent sovereigns subject to the authority of the United States. Id. at 679. Congress
promptly passed a law seeking to avoid the Court’s ruling in Duro by “recogniz[ing] and reaffirm[ing]” that
tribes’ inherent sovereignty includes the power to exercise criminal jurisdiction over nonmember Indians.
Lara, 541 U.S. at 196; see also United States v. Enas,
255 F.3d 662, 669 (9th Cir. 2001) (citing 25 U.S.C.
§ 1301(2)). That statute was challenged in Lara as exceeding Congress’s authority. See 541 U.S. at 200.
The case thus presented the specific question of whether
Congress could statutorily alter limits that had been
We note that JUDGE DUNCAN mischaracterizes the Defendants
as supposedly making the “core” argument that simply because Congress has plenary authority over Indian affairs it “can ipso facto”
regulate sovereign state affairs. DUNCAN, CIRCUIT JUDGE, OP. at
33-34, 36 n.52. This contention is not raised in the Defendants’
briefing nor was it advanced at oral argument. Defendants’ actual
argument is that, as an initial matter, Congress has authority to
enact ICWA and second that ICWA does not violate the anticommandeering doctrine.
31

102a
placed on tribes’ inherent sovereign powers as a result
of their dependent status.
The Court answered this question in the affirmative,
reasoning that Congress was in effect “relax[ing] restrictions that the political branches” had previously
placed on the exercise of inherent tribal authority. Id.
at 196. In recognizing Congress’s power to remove
such restrictions, the Court discussed several relevant
considerations. For example, one consideration was
that Congress, with the Court’s approval, had a longestablished practice of adjusting the limits on the sovereign authority of tribes and other “dependent entities”
such as Hawai‘i and Puerto Rico. Id. 203-04. This
history of congressional action was germane to deciding
whether Congress could continue to adjust the scope of
tribal autonomy. However, the Lara Court’s considerations are of no relevance where, as with ICWA, Congress is not altering the scope of tribes’ retained sovereign power.
Instead, in enacting ICWA, Congress simply employed its power to set policy with respect to the Indian
tribes by conferring minimum federal protections on Indian children, parents, and tribes in state child custody
proceeding. Stated differently, the considerations in
Lara are inapplicable because, unlike the statute at issue in Lara, ICWA affirmatively grants new rights, protections, and safeguards to individual Indians and tribes
in state proceedings and does not restore or remove any
inherent sovereign authority the tribes possessed prior
to their becoming dependents of the United States.
Take, for instance, § 1911(b), which permits tribes to intervene in an off-reservation child custody case and in-

103a
voke ICWA’s placement preferences. That this provision cannot be read to restore sovereign authority to a
tribe is clear from the fact that it grants the very same
right to an Indian child’s parents or relatives; a power
cannot be sovereign in nature if it can just as easily be
exercised by individual tribal members as by tribes
themselves. Cf. Lara, 541 U.S. at 200 (upholding tribes’
inherent sovereign power to prosecute nonmember Indians). Similarly, § 1912(b) provides indigent Indian parents or custodians a right to appointed counsel in state
child custody proceedings—a right not conferred on the
sovereign tribes at all. These provisions grant rights
to Indian tribes, parents, and relatives pursuant to Congress’s power to regulate relations between states, the
federal government, and the tribes, and they simply do
not implicate the Indian tribes’ inherent sovereign
power. 32
In sum, Lara’s unique analytical approach cannot be
applied wholesale to assess an enactment like ICWA
that does not restore tribal sovereignty but instead affirmatively regulates Indian affairs by establishing a
range of federal protections that apply when an Indian
child is involved in a state child custody proceeding.
Lara’s reasoning is therefore far removed from the
Article I issue presented in this case.

JUDGE DUNCAN is correct that in Lara the Court noted that it
was not confronted “with a question dealing with potential constitutional limitations on efforts to legislate far more radical changes in
tribal status.” Lara, 541 U.S. at 205; DUNCAN, CIRCUIT JUDGE,
OP. at 33-34 n.33. But as explained above, ICWA does not effect
any change whatsoever in tribal sovereignty. JUDGE DUNCAN is
therefore incorrect that the instant challenge to ICWA presents the
question Lara left undecided.
32

104a
Based on the Framers’ intent to confer on the federal
Government exclusive responsibility for Indian affairs,
the centuries-long history of the Government’s exercise
of this power, and the extensive body of binding Supreme Court decisions affirming and reaffirming this
authority, we conclude that ICWA “represent[s] the exercise of [] power[s] conferred on Congress by the Constitution.” Murphy, 138 S. Ct. at 1479. At a bare minimum, ICWA is “necessary and proper,” U.S. CONST.
art. I, sec. 8—that is, “plainly adapted,” McCulloch v.
Maryland, 17 U.S. (4 Wheat) 316, 421 (1819)—to solving
“the problems of Indians,” Antoine, 420 U.S. at 203, and
thus fulfilling the federal government’s trust duty to the
tribes as it is squarely targeted at rectifying “perhaps
the most tragic and destructive aspect of Indian life.”
H.R. REP. NO. 95-1386, at 9-10. 33 A contrary holding
would render Congress impotent to remedy and prevent
repetition of the depredations visited upon Indian children, tribes, and families, an injustice to which the federal Government itself has contributed and apologized.
See 146 CONG. REC. E1453 (Sept. 12, 2000) (quoting
apology of Assistant Secretary for Indian Affairs, Department of the Interior remarks on Sept. 8, 2000).
Such a result would be not only a sad irony, but a grievous judicial straitjacketing of a coordinate branch of
government. We decline to vitiate Congress’s authority in a field in which the Supreme Court has held that it
wields plenary power. See Lara, 541 U.S. at 200 (2000);
Ramah Navajo Sch. Bd., Inc., 458 U.S. at 837; White
Mountain Apache Tribe, 448 U.S. at 142. Instead, we
Notably, Plaintiffs do not expressly contend that ICWA exceeds the auxiliary powers granted to Congress under the Necessary and Proper Clause.
33

105a
follow the Court’s sustained admonitions that Congress
is empowered fully to make good on its trust obligations
to Indian tribes. See, e.g., Mancari, 417 U.S. 551-52;
Antoine, 420 U.S. at 203; Kagama, 118 U.S. at 383-84.
2.

ICWA Does Not Violate the Anticommandeering
Principle.

We turn to the second prong of the preemption analysis and consider whether ICWA runs afoul of the anticommandeering doctrine. Under the Articles of Confederation, the federal government largely lacked the
power to govern the people directly and instead was restricted to giving commands to the states that it was often powerless to enforce. New York, 505 U.S. at 16162 (citing Lane Cnty. v. Oregon, 74 U.S. (Wall.) 71, 76
(1868)). To rectify this impotency, the Framers inverted this relationship in the Constitution, empowering
Congress to “exercise its legislative authority directly
over individuals rather than over States.” Id. at 164.
Citing this history, Justice O’Connor inaugurated the
modern anticommandeering doctrine, in New York v.
United States, stating that it represents the Framers’
structural decision to withhold from Congress the power
to directly command state executives and state legislatures to do its bidding. See id.
The Constitution’s Supremacy Clause, provides,
however, that “the Laws of the United States . . .
shall be the supreme Law of the Land; and the Judges
in every State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary notwithstanding.” U.S. CONST. art. VI, cl. 2. Thus, a distinction exists between a law that unconstitutionally
“conscript[s] state governments as [the federal government’s] agents,” New York, 505 U.S.at 178, and a law

106a
that establishes federal rights or obligations that the
states must honor despite any conflict with state law.
We consider, then, whether ICWA falls into the former
camp or the latter.
a. In Requiring State Courts to Apply Preemptive Federal Law, ICWA Does Not Violate the
Anticommandeering Doctrine.

The district court determined that ICWA unconstitutionally commandeers the states by requiring state
courts to apply its minimum protections in their child
custody proceedings.
However, when considering
whether a federal law violates the anticommandeering
doctrine, the Supreme Court has consistently drawn a
distinction between a state’s courts and its political
branches.
Because the Supremacy Clause obligates state courts
to apply federal law as the “supreme Law of the Land”
and provides that “the Judges in every State shall be
bound thereby,” the anticommandeering principle that
Justice O’Connor formulated in New York does not apply to properly enacted federal laws that state courts
are bound to enforce. As Justice Scalia made clear in
Printz, “the Constitution was originally understood to
permit imposition of an obligation on state judges to enforce federal prescriptions, insofar as those prescriptions related to matters appropriate for the judicial
power.” Printz, 521 U.S. at 907. State courts were
viewed as distinctive because, “unlike [state] legislatures and executives, they applied the law of other
sovereigns all the time,” including federal law as mandated by the Supremacy Clause. Id. Thus, it is wellestablished that Congress has the power to pass laws
enforceable in state courts. See Palmore v. United

107a
States, 411 U.S. 389, 402 (1973); Testa v. Katt, 330 U.S.
386, 394 (1947); see also Second Employers’ Liability
Cases, N.H. & H.R. Co., 223 U.S. 1, 57 (1912); Claflin v.
Houseman, 93 U.S. 130, 136-37 (1876). Although these
“[f ]ederal statutes enforceable in state courts do, in a
sense, direct state judges to enforce them, . . . this
sort of federal ‘direction’ of state judges is mandated by
the text of the Supremacy Clause.” New York, 505
U.S. at 178-79. In other words, it is inherent in the Supremacy Clause’s provision that federal law “shall be
the supreme Law of the Land” that state courts must
enforce federal law. U.S. CONST. art. VI, cl. 2.
In the district court’s erroneous view, ICWA’s standards do not bind states courts because ICWA itself does
not supply a federal cause of action. Although the district court noted the settled principle that state courts
must apply federal law to a federal cause of action, it did
not recognize the equally settled obligation on state
courts to honor federal rights when they are implicated
in a case arising out of a state-law cause of action. Failing to appreciate this duty, the court below thought that
ICWA cannot bind state courts because it “modif [ies]”
the substantive standards applicable to child custody
cases, which arise from state law. Thus, the district
court believed that ICWA improperly commandeers
state courts and therefore cannot preempt conflicting
state law.
There is no support in the Supreme Court’s precedents for this novel limit on federal preemption. See,
e.g., Haywood v. Drown, 556 U.S. 729, 736 (2009) (“[A]lthough States retain substantial leeway to establish the
contours of their judicial systems, they lack authority to
nullify a federal right or cause of action they believe is

108a
inconsistent with their local policies.” (emphasis added)).
The Supreme Court has long made clear that, even in
areas of traditional state prerogative, such as domestic
relations, a federal right may preempt state causes of
action “to the extent of any conflict” between the two.
Hillman v. Maretta, 569 U.S. 483, 490-91 (2013) (quoting Crosby, 530 U.S. at 372). In other words, when the
standard application of substantive state family law
“clearly conflict[s]” with “federal enactments” in an area
in which Congress may validly exercise its Article I authority, state law “must give way.” Id. (quoting Ridgway v. Ridgway, 454 U.S. 46, 55 (1981)) (federal statute
requiring that life insurance benefits be paid according
to a specific “order of precedence” preempted state law
directing that proceeds be paid to a different beneficiary).
More to the point, the Supreme Court has expressly
held that federal law can “modify” the substance of state
law claims. Take, for example, McCarty v. McCarty,
453 U.S. 210 (1981). There, a federal military benefits
statute provided for a different division of retirement
benefits upon divorce than a state’s community property
law. Id. at 235-36. The Court held that the federal
law preempted state law, thereby altering the substantive law applicable to a state-law cause of action. Id.;
see also Egelhoff v. Egelhoff ex rel. Breiner, 532 U.S.
131, 143 (2001) (holding that ERISA preempted state
law regarding allocation of certain assets upon divorce
during state probate proceeding); Hisquierdo v. Hisquierdo, 439 U.S. 572, 590 (1979) (holding that federal
law preempted state law’s definition of community property subject to division with respect to federal pension
benefits). And in Jinks v. Richland County, the Court

109a
affirmed that federal law cannot only “modify” the substance of a state law claim, but indeed can keep alive a
state law cause of action that would otherwise be timebarred. 34 538 U.S. 456, 459 (2003) (upholding the federal supplemental jurisdiction statute’s provision tolling
state law claims while they are pending in federal court,
thus permitting such claims, if they are dismissed from
federal court, to proceed in state court, though they otherwise may be barred by the running of a state’s limitations period).
As amici point out, these laws are not unique: a host
of federal statutes change the standards applicable to
state causes of action, including in family law proceedings.
See, e.g., Servicemembers Civil Relief Act,
50 U.S.C. § 3911, et seq.; Parental Kidnapping Prevention Act, 28 U.S.C. § 1738A; Full Faith and Credit for
Child Support Orders Act, 28 U.S.C. § 1738B; Foreign
Sovereign Immunities Act, 28 U.S.C. § 1330, et seq.;
Intercountry Adoption Act of 2000, 42 U.S.C. § 14954.
And state courts have long applied these requirements
without ever questioning Congress’s authority to impose them.
For example, in In re Larson, a California appeals
court held that the federal Soldiers’ and Sailors’ Civil

While it is unquestionable that federal law may alter the “ ‘substance’ of state-law rights of action,” the Supreme Court has left
unresolved the validity of “federal laws that regulate state-court
‘procedure.’ ” See Jinks, 538 U.S. at 464. We need not weigh in
on this unsettled question because ICWA’s challenged provisions
grant rights and protections to Indian tribes and families that are
substantive in nature. Cf. id. at 464-65 (tolling of state law limitations period is substantive).
34

110a
Relief Act (SSCRA), which affords rights to servicemembers who are “prejudiced” in state court proceedings “by reason of [their] military service,” overrode
otherwise applicable state law. 183 P.2d 688, 690 (Cal.
Dist. Ct. App. 1st 1947), disapproved of on other grounds
by In re Marriage of Schiffman, 620 P.2d 579 (Cal. 1980)
(citing Pub. L. No. 86-721, 54. Stat. 1180, now titled Servicemembers Civil Relief Act, 50 U.S.C. § 391). In that
case, the state trial court had granted a mother’s petition to have her child’s last name changed to hers from
that of her former spouse. Id. at 690-91. The father
appealed, averring that, because he was in the armed
forces and detained as a prisoner of war in Germany at
the of time of the mother’s petition, he was entitled to
relief under the SSCRA. Id. at 690. Acknowledging
that the mother had “proceeded in accordance with the
applicable statutes of this state,” the appeals court nonetheless recognized that the federal statute superseded
state law and vacated the lower court’s order to permit
the father to challenge the petition. Id. at 690-91. At
no point did the state court suggest that the SSCRA impinged on state sovereignty. See also, e.g., In re China
Oil & Gas Pipeline Bureau, 94 S.W.3d 50, 59 (Tex. App.
2002) (applying Foreign Sovereign Immunities Act burden of proof to determine whether foreign state had
waived immunity from state law breach of contract,
breach of fiduciary duty, and fraud claims); State ex rel.
Valles v. Brown, 639 P.2d 1181, 1186 (N.M. 1981) (applying Parental Kidnapping Prevention Act to determine
whether the state court could modify a child custody
decree).

111a
In light of the Supreme Court’s express decisions upholding federal law’s ability to alter substantive aspects
of state claims and the robust history of federal statutes
that do just that, there can be little doubt that the district court erred by determining that ICWA’s provisions
preempting state law were instead a violation of the anticommandeering doctrine. Thus, to the extent that
the rights created by ICWA conflict with states’ child
custody laws, the Supremacy Clause requires state
judges to honor ICWA’s substantive provisions. See
New York, 505 U.S. at 178-79 (explaining that state
judges are required under the Supremacy Clause to enforce federal law).
i.

Sections 1912(e)-(f ), 1915(a)-(b)

Applying these principles to the case at bar, we conclude that “to the extent of any conflict” between the
rights created by ICWA and state law, Hillman v.
Maretta, 569 U.S. at 490, state courts are obliged to
honor those rights by applying ICWA’s substantive evidentiary standards for foster care placement and parental termination orders, 25 U.S.C. § 1912(e)-(f ), as well as
the federal law’s child placement preferences, id.
§ 1915(a)-(b). Each of these provisions creates federal
rights in favor of Indian children, families, and tribes
that potentially alter the substantive standards applicable in child custody proceedings. We note that these
provisions do in fact conflict with the otherwise applicable law of the State Plaintiffs. For example, in furthering its goal of protecting “the best interests of Indian
children,” id. § 1902, ICWA prohibits terminating the
parental rights of an Indian child’s biological parents absent a determination “beyond a reasonable doubt . . .
that the continued custody of the child by the parent

112a
. . . is likely to result in serious emotional or physical
damage to the child.” Id. § 1912(f ). The State Plaintiffs, on the other hand, generally use the far less stringent “best interests of the child” analysis and “clear and
convincing” evidentiary standard. 35 Consequently, as
between these differing standards, state courts are compelled to employ ICWA’s heightened protections in proceedings involving Indian children. Indeed, state courts
have not hesitated do so. 36 See, e.g., In re W.D.H., 43
S.W.3d 30, 37 (Tex. App. 2001) (“We conclude that it is
not possible to comply with both the two-prong test of
the Family Code, which requires a determination of the
best interest of the child under the ‘Anglo’ standard, and
35
See IND. CODE §§ 31-35-2-4(b)(2) and 31-37-14-2 (2019) (setting
forth a four-element test to terminate parental rights, including
that termination is “in the best interests of the child,” and requiring proof of each element by “clear and convincing” evidence); LA.
CHILD. CODE art. 1015, 1035, 1037 (2019) (stating that in order to
terminate parental rights a court must find by “clear and convincing evidence” that a parent has committed one of an enumerated
list of offenses and that it is in the “best interests of the child” to
terminate the rights); TEX. FAM. CODE § 161.001 (2019) (requiring
a showing by “clear and convincing evidence” “that termination is
in the best interest of the child” and that the parent committed one
of an enumerated list of offenses).
36
Some state courts have determined that certain of ICWA’s provisions do not conflict with—and therefore do not preempt—state
law but rather mandate additional protections that state courts must
implement. See, e.g., K.E. v. State, 912 P.2d 1002, 1004 (Utah Ct.
App. 1996) (holding that ICWA does not preempt the state’s “statutory grounds for termination of parental rights” but instead “requires a specific finding for termination proceedings” that continued
custody by the parent or Indian custodian is likely to result in serious emotional or physical damage to the child “in addition to those
[findings] required by state law and imposes a separate burden of
proof for that finding.” (citing 25 U.S.C. § 1912(f )).

113a
the ICWA, which views the best interest of the Indian
child in the context of maintaining the child’s relationship with the Indian Tribe, culture, and family.”);
Yavapai-Apache Tribe v. Mejia, 906 S.W.2d 152, 170
(Tex. App. 1995) (stating that ICWA “was specifically
directed at preventing the infiltration of Anglo standards” in custody proceedings involving Indian children);
In re Adoption of M.T.S., 489 N.W.2d 285, 288 (Minn.
Ct. App. 1992) (concluding that ICWA’s preference for
placing an Indian child with an Indian family member
provides a “higher standard of protection” for an Indian
guardian than the state’s best interests standard, which
would otherwise apply in determining a child’s custodial
placement (citing 25 U.S.C. §§ 1915(a), 1921)). This is
“no more than an application of the Supremacy Clause.”
New York, 505 U.S. at 178.
In sum, § 1912(e) and (f )’s evidentiary standards and
§ 1915(a) and (b)’s placement’s preferences simply supply substantive rules enforceable in state court and do
not violate the Tenth Amendment.
ii. Sections 1915(e), 1917, and 1951(a)

We likewise find no constitutional infirmity in
ICWA’s provisions that require state courts to maintain
and make available certain records pertaining to custody proceedings involving Indian children. See 25
U.S.C. §§ 1915(e), 1917, and 1951(a). Section 1915(e)
requires state courts to retain a record “evidencing the
efforts to comply” with ICWA’s placement preferences
and “ma[k]e available” this record, upon request, to the
Secretary or an Indian child’s tribe. Id. § 1915(e).
Under § 1917, once an adopted Indian child attains majority, the state court that “entered the final decree” of
adoption “shall,” upon the Indian adoptee’s application,

114a
“inform” her of her biological parents’ tribal affiliation
and provide other information that “may be necessary
to protect any rights from the individual’s tribal relationship.” Id. § 1917. And § 1951(a) requires state
courts to provide the federal government with a copy of
the adoption decree in any proceeding involving an Indian child. Id. § 1951(a).
Though these recordkeeping provisions arguably do
not supply rules of decision like those in §§ 1912(e)-(f )
and 1915(a)-(b), the original understanding of the Supremacy Clause nonetheless compels state courts to effectuate their mandate. As explained in Printz v.
United States, “the first Congresses required state
courts to record applications for citizenship
. . .
[and] to transmit abstracts of citizenship applications
and other naturalization records to the Secretary of
State.” 521 U.S. at 905-06 (citing Act of Mar. 26, 1790,
ch. 3, § 1, 1 Stat. 103; Act of June 18, 906 1798, ch. 54,
§ 2, 1 Stat. 567). From the dawn of the constitutional
era, then, federal law placed specific recordkeeping and
sharing requirements on state courts, and these duties
were viewed as congruent with the state courts’ obligations under the Supremacy Clause. The history thus
makes clear that this sort of requirement cannot be considered commandeering in violation of the Tenth Amendment. See Marsh, 463 U.S. at 790. Plaintiffs have
provided no authority for deviating from this original
understanding, and so we hew to it.
State Plaintiffs contend that, rather than applying to
state courts, §§ 1915(e) and 1951(a) instead impose obligations on state agencies and thereby violate the anti-

115a
commandeering doctrine. We address these provisions in turn and disagree with the States’ conclusion as
to each.
Though § 1915(e) applies to the “State,” it does not
specify whether that term refers to state courts or agencies. The regulation implementing § 1915(e), however,
expressly permits states to designate either their courts
or agencies as “the repository for th[e] information”
required to be maintained by § 1915(e).” 25 C.F.R.
§ 23.141 (“The State court or agency should notify the
BIA whether these records are maintained within the
court system or by a State agency.”). Substantively,
the regulation requires only that “court records” be
maintained. 81 Fed. Reg. at 38,849-50. This imposes
no direct burden on states.
State Plaintiffs do not challenge the BIA’s construction of § 1915(e). 37 Thus, their complaint that § 1915(e)
and its implementing regulation impermissibly burdens
their agencies rings hollow, given that Plaintiffs themselves have elected to designate their agencies, rather
than courts, as the entities charged with complying with
these provisions. States are not “pressed into federal
service” when they affirmatively choose to obligate their
executive, rather than judicial, officers to implement an
Such a challenge would be unavailing in any event. Because
the BIA’s determination that state courts may maintain the records contemplated by § 1915(e) is at minimum a reasonable interpretation of an ambiguous statute that the BIA administers, see
Miss. Band Choctaw Indians v. Holyfield, 490 U.S. at 40 n.13
(“Section 1915(e) . . . requires the court to maintain records
‘evidencing the efforts to comply with the order of preference specified in this section.’ ” (emphasis added)), it is entitled to Chevron
deference. See Chevron, U.S.A., Inc. v. Nat. Res. Def. Council,
Inc., 467 U.S. 837 (1984); infra Discussion Part II.D.
37

116a
otherwise valid federal obligation. See Printz, 521
U.S. at 905. In other words, § 1915(e) and its implementing regulation are not “direct orders to the governments of the States” but rather let states exercise their
discretion to require either their courts or child welfare
agencies to maintain and make available the required
records. Murphy, 138 S. Ct. at 1478. The constitutionality of these provisions does not rise or fall based
on a state’s preference.
For similar reasons, we disagree with JUDGE DUNcontention that § 1951(a), which requires state
courts to furnish adoption records to the federal government, invalidly commandeers state agencies. DUNCAN, CIRCUIT JUDGE, OP. at 104-06. Notably, no party
takes this position. This is likely because on its face
the provision applies only to state courts. See 25
U.S.C. § 1951(a) (requiring “[a]ny State court entering
a final decree or order in any Indian child adoptive
placement” to provide certain records). And the records that must be furnished by a state court pursuant to
this provision are not the type of records commonly held
by state agencies; instead, the records are naturally produced as part of state court proceedings, and state
courts are therefore in the best position to maintain and
provide the records to the federal government. 38 Id.
That the regulations implementing § 1951(a) purport to
provide states the flexibility to instead designate an

CAN’s

Section 1951(a) specifically requires that the following information be supplied to the Secretary: (1) the names and tribal affiliation of the Indian child; (2) the names and addresses of the
child’s biological parents; (3) the names and addresses of the adoptive parents; and (4) the identity of an agency that has information
relating to the child’s adoptive placement. 25 U.S.C. § 1951(a).
38

117a
agency to fulfill the duties it imposes does not change
that the law is by default aimed at state courts. See 25
C.F.R. § 23.140 (specifying that designating an agency
relieves state courts of their obligations under
§ 1951(a)). And a state’s wholly voluntary choice to utilize its political branches in place of its courts cannot, as
we have explained, constitute commandeering of those
political branches.
We therefore conclude that state courts are bound by
the Supremacy Clause to apply §§ 1915(e), 1917, and
1951(a). 39
b. The Challenged Provisions Do Not Commandeer Other State Actors.

We next consider whether ICWA commandeers state
actors other than state courts. Our determination that
the preemption and commandeering analyses are mirror
images of one another leads us to the conclusion that if
We also disagree with JUDGE DUNCAN’s asserted distinction
between § 1917 and the other recordkeeping provisions. DUNCAN, CIRCUIT JUDGE, OP. at 97-98 &-98 n.138. JUDGE DUNCAN
maintains that § 1917, which confers upon adult Indian adoptees
the right to obtain from courts information pertaining to their
tribal relationship, is a valid preemption provision because it is
“best read” as regulating private actors, not states. But the same
could be said for § 1915(e), which confers rights upon Indian tribes
to obtain records. And both provisions require state courts to retain records so that an Indian individual or tribe may later obtain
them. Thus, if § 1917 is best read as applying to private actors, so
too is § 1915(e). We find it unnecessary to resolve this question,
however, because like §§ 1915(e) and 1951(a), § 1917 places duties
on state courts to maintain records—a special type of obligation
that was understood from the nation’s very beginning to validly
bind state courts under the Supremacy Clause. See Printz, 521
U.S. at 905-06.
39

118a
ICWA regulates private actors—and therefore preempts conflicting state law—it does not contravene the
anticommandeering doctrine. A survey of the Supreme
Court’s precedents in this area makes clear that a law
meets this requirement so long as it establishes rights
that are legally enforceable by or against private parties. This test is necessarily satisfied when Congress
enacts a general regulation applicable to any party who
engages in an activity, regardless of whether that party
is a State or private actor. The Supreme Court has
thus stressed in its Tenth Amendment decisions that
“the anticommandeering doctrine does not apply when
Congress evenhandedly regulates an activity in which
both States and private actors engage.” Murphy, 138
S. Ct. at 1478. It is unsurprising, then, that in each
case in which the Court has found an anticommandeering violation, the statute at issue directly and exclusively
commanded a state’s legislature or executive officers to
undertake an action or refrain from acting without mandating that private actors do the same.
For example, in the first modern anticommandeering
case, New York v. United States, the Supreme Court held
that a federal law impermissibly commandeered state
actors to implement federal legislation when it gave
states “[a] choice between two unconstitutionally coercive” alternatives: to either dispose of radioactive waste
within their boundaries according to Congress’s instructions or “take title” to, and assume liabilities for, the
waste. 505 U.S. at 175-76. The Court was clear: Congress cannot compel “the States to enact or enforce a
federal regulatory program.” Id. at 176 (emphasis added). Notably, the statute did not place any legally enforceable rights or restrictions on private parties, instead operating only upon the states.

119a
Similarly, in Printz v. United States, the Court held
that a provision of the Brady Handgun Violence Prevention Act requiring state chief law enforcement officers
to conduct background checks on handgun purchasers
“conscript[ed] the State’s officers directly” and was
therefore invalid. 521 U.S. at 935. The Court explained that the statute violated the anticommandeering
principle because it was aimed solely at state executive
officers, requiring them “to conduct investigation in
their official capacity, by examining databases and records that only state officials have access to. In other
words, the suggestion that extension of this statute to
private citizens would eliminate the constitutional problem posits the impossible.” Id. at 932 n.17 (N.B. that
“the burden on police officers [imposed by the Brady
Act] would be permissible [under the Tenth Amendment] if a similar burden were also imposed on private
parties with access to the relevant data” (first alteration
in original) (emphasis added) (internal quotation marks
and citation omitted)). Accordingly, the Court rejected as irrelevant the Government’s argument that the
Act imposed only a minimal burden on state executive
officers, stating that it was not “evaluating whether the
incidental application to the States of a federal law of
general applicability excessively interfered with the
functioning of state governments,” but rather a law
whose “whole object . . . [was] to direct the functioning of the state executive.” Id. at 931-32. Again, the
law did nothing to alter the rights or obligations of private parties, but served only to bind the States.
Recently, in Murphy v. NCAA, the Court concluded
that a federal law that prohibited states from authorizing sports gambling ran afoul of the anticommandeering
doctrine. 138 S. Ct. at 1478. The statute violated

120a
state sovereignty, the Court explained, by “unequivocally dictat[ing] what a state legislature may and may
not do.” Id. In reaching this conclusion, the Court reviewed its Tenth Amendment jurisprudence and clarified the distinction between statutes that impermissibly
commandeer state actors and those that may incidentally burden the states but, nevertheless, do not offend
the Tenth Amendment. The mediating principle, the
Court announced, is that a regulation is valid so long as
it “evenhandedly regulates an activity in which both
States and private actors engage.” Id. at 1478. This
occurs when a statute confers either legal rights or restrictions on private parties that participate in the activity, and thus the law is “best read” as regulating private
parties.
A review of two cases cited by Murphy in which the
Court upheld statutes imposing incidental burdens or
obligations on states is instructive as to what permissible, evenhanded regulation entails. First, in Reno v.
Condon, the Court unanimously upheld the Driver’s Privacy Protection Act (DPPA), a federal regulatory
scheme that restricted the ability of states and private
parties to disclose a driver’s personal information without consent. 528 U.S. 141, 151 (2000). In determining
that the anticommandeering doctrine did not apply, the
Court distinguished the law from those invalidated in
New York and Printz:
[T]he DPPA does not require the States in their sovereign capacity to regulate their own citizens; rather
it regulates the States as the owners of [Department
of Motor Vehicle] data bases. It does not require
the [state] Legislature to enact any laws or regulations, and it does not require state officials to assist

121a
in the enforcement of federal statutes regulating private individuals . . . .
Id. The statute, moreover, “applied equally to state[s]
and private” resellers of motor vehicle information.
Murphy, 138 S. Ct. at 1479; see Condon, 528 U.S. at 151
(explaining that the statute was “generally applicable”).
That compliance with the DPPA’s provisions would “require time and effort on the part of state employees”
posed no constitutional problem, then, because private
actors engaged in the regulated enterprise were also
subject to the statute’s requirements. Condon, 528 U.S.
at 150. In short, because the law created restrictions
enforceable against private resellers, it satisfied the
“best read” test as articulated in Murphy.
Second, in Baker v. South Carolina, the Court also
rejected a Tenth Amendment challenge to a federal enactment. 485 U.S. 505, 513-15 (1988). At issue in that
case was a statute that eliminated the federal income tax
exemption for interest earned on certain bonds issued
by state and local governments unless the bonds were
registered. Id. at 507-08. The Court treated the provision “as if it directly regulated States by prohibiting
outright the issuance of [unregistered] bearer bonds.”
Id. at 511. But critically, the provision applied not only
to states but to any entity issuing the bonds, including
“local governments, the Federal Government, [and] private corporations.” Id. at 526-27. In upholding the
provision, the Court reasoned that it merely “regulat[ed] a state activity” and did not “seek to control or
influence the manner in which States regulate private
parties.” Id. at 514. “That a State wishing to engage
in certain activity must take administrative and sometimes legislative action to comply with federal standards

122a
regulating that activity is a commonplace that presents
no constitutional defect.”
Id. at 514-15 (requiring
“state officials . . . to devote substantial effort” to
comply with the statute is “an inevitable consequence”
of Congress validly regulating the state’s activity). Such
a federal law thus does not commandeer state actors,
but merely establishes standards applicable to any actor
who chooses to engage in an activity that Congress may
validly regulate through legislation. See id. It creates
legally enforceable obligations—in Baker, a prohibition
—that affect private parties.
As both a textual and practical matter, the provisions
Plaintiffs challenge apply “evenhandedly” to “an activity in which both States and private actors engage.”
Murphy, 138 S. Ct. at 1478. Sections 1912(a) and (d), for
example, impose notice and “active efforts” requirements,
respectively, on the “party” seeking the foster care placement of, or termination of parental rights to, an Indian
child. 40 Because plaintiffs bring a facial challenge, there
is no need to look beyond the language of these provisions
—which plainly is facially neutral, see Wash. State
Grange v. Wash. State Republican Party, 552 U.S. 442,
449-50 (2008) (“In determining whether a law is facially
40
Section 1912(a) requires “the party seeking the foster care
placement of, or termination of parental rights to, an Indian child”
to “notify the parent or Indian custodian and the Indian child’s tribe
. . . of the pending proceedings and of their right to intervention.”
25 U.S.C. § 1912(a) (emphasis added).
Section 1912(d) states that “[a]ny party seeking to effect a foster
care placement of, or termination of parental rights to, an Indian
child” to “satisfy the court that active efforts have been made to provide remedial services . . . to prevent the breakup of the Indian
family and that these efforts have proved unsuccessful.”
Id.
§ 1912(d) (emphasis added).

123a
invalid, we must be careful not to go beyond the statute’s
facial requirements and speculate about ‘hypothetical’
or ‘imaginary’ cases.”); see also United States v. Raines,
362 U.S. 17, 22 (1960) (“The delicate power of pronouncing an Act of Congress unconstitutional is not to be exercised with reference to hypothetical cases thus imagined.”). 41 The statute applies to any party seeking a
foster care placement or the termination of parental
rights, regardless of whether that party is a state agent
or private individual. Id.
Furthermore, even were we to consider how these
provisions are actually applied in child custody proceedings, it is clear that they do in fact apply to private par-

Our court recently reaffirmed this principle. In Freedom
Path, Inc. v. Internal Revenue Service, we examined a facial challenge to an IRS Revenue Ruling by an organization that had received a proposed denial from the IRS of its application for taxexempt status. See 913 F.3d 503, 506 (5th Cir. 2019). We explained
that “[t]o find the unconstitutionality [the organization] claims requires that we go beyond the language of the Revenue Ruling and
analyze the way in which the IRS applies it beyond the text. On
a facial challenge, however, we do not look beyond the text . . .
[A] facial challenge to a statute considers only the text of the statute itself, not its application to the particular circumstances of an
individual.” Id. at 508 (internal quotation marks and citations
omitted) (emphasis added) (quoting Field Day, LLC v. Cnty. of
Suffolk, 463 F.3d 167, 174 (2d Cir. 2006)). And, even if we were to
construe Plaintiffs’ complaint as an as-applied challenge, the
proper remedy would not be the wholesale invalidation of the statutory provisions that the district court’s order effected and for
which Plaintiffs and JUDGE DUNCAN argue. Rather, demonstrating that the statute may be applied unconstitutionally warrants
only an injunction against the statute being applied in that unconstitutional manner. See Citizens United v. Fed. Election Comm’n,
558 U.S. 310, 331 (2010).
41

124a
ties. ICWA defines “foster care placement” to embrace “any action removing an Indian child from its parent or Indian custodian for temporary placement in a
foster home or institution or the home of a guardian or
conservator.” 25 U.S.C. § 1903(1)(i) (emphasis added).
As Defendants observe, actions to appoint guardians or
conservators are often private actions that do not involve the state as a party. See, e.g., J.W. v. R.J., 951
P.2d 1206, 1212-13 (Alaska 1998) (determining that a
custody dispute between a father and stepfather constituted a “foster care placement” under ICWA); In re
Guardianship of J.C.D., 686 N.W.2d 647, 649 (S.D.
2004); In re Custody of C.C.M., 202 P.3d 971, 977 (Wash.
C.t App. 2009) (holding that grandparents’ petition for
nonparental custody of their Indian grandchild “qualifies as an action for foster care placement under ICWA”).
Similarly, private parties may bring proceedings to terminate parental rights. See, e.g., TEX. FAM. CODE.
ANN. § 102.003 (permitting, among others, a “parent,”
“the child through a court-appointed representative,” or
“a guardian” to bring such an action); 33 TEX. PRAC.
HANDBOOK OF TEX. FAMILY LAW § 19:2 (2018); see also
Matter of Adoption of T.A.W., 383 P.3d 492, 496 (Wash.
2016) (holding that ICWA’s “active efforts provision
. . . appl[ies] to privately initiated terminations” and
remanding for trial court to determine whether “active
efforts ha[d] been” made to prevent the breakup of the
Indian family); D.J. v. P.C., 36 P.3d 663, 673 (Alaska
2001) (“[W]e hold that ICWA applies to termination proceedings when a party other than the state seeks the
termination.”); S.S. v. Stephanie H., 388 P.3d 569, 57374 (Ariz. Ct. App. 2017) (“[W]e conclude that ICWA applies to a private termination proceeding just as it ap-

125a
plies to a proceeding commenced by a state-licensed private agency or public agency.”); In re N.B., 199 P.3d 16,
19 (Colo. App. 2007) (“ICWA’s plain language is not limited to action by a social services department.”). Thus,
from both a textual and practical standpoint, it cannot
seriously be disputed that these provisions apply to private parties. See 25 U.S.C. § 1903(1)(i); J.W., 951 P.2d
at 1212-13.
Similarly, § 1912(e) and (f )—which require qualified
expert witness testimony before, respectively, either
the foster care placement of, or termination of parental
rights to, an Indian child—are also evenhanded regulations that do not effect an invalid commandeering. 42 Neither provision expressly refers to state agencies. And
when read in conjunction with § 1912(d)’s language placing burdens on “[a]ny party” involved in foster care or
parental termination proceedings relating to Indian
children, § 1912(e) and (f ) must also reasonably be understood to apply to “any party” engaged in these proceedings. This understanding, moreover, comports
with how state courts have read and applied these provisions. See, e.g., In re Mahaney, 51 P.3d 776, 786
42
Section 1912(e) provides that no foster care placement may be
ordered in involuntary proceedings in state court absent “a determination, supported by clear and convincing evidence, including testimony of qualified expert witnesses, that the continued custody of the
child by the parent or Indian custodian is likely to result in serious
emotional or physical damage to the child.” 25 U.S.C. § 1912(e).
Section 1912(f ) requires that no termination of parental rights
may be ordered in involuntary proceedings in state court absent “evidence beyond a reasonable doubt, including testimony of qualified
expert witnesses, that the continued custody of the child by the parent or Indian custodian is likely to result in serious emotional or
physical damage to the child.” Id. § 1912(f ).

126a
(Wash. 2002) (holding that § 1912(e)’s expert witness requirement applied to an action exclusively between private parties—an Indian mother and her children’s paternal grandmother—regarding a foster care placement); D.J., 36 P.3d at 673 (holding that § 1912(f ) applied to an action between an Indian child’s maternal
grandmother and his biological father regarding the termination of the father’s parental rights); Matter of Baby
Boy Doe, 902 P.2d 477, 484 (Idaho 1995) (holding that
prospective adoptive parents satisfied “their burden of
proof ” under § 1912(f ) “with testimony of [a] qualified
expert witness[]”). Thus, § 1912(e) and (f ), like § 1912
(a) and (d), are generally applicable provisions. See
Murphy, 138 S. Ct. at 1478; see also Condon, 528 U.S. at
151.
State Plaintiffs’ contention that the aforementioned
provisions commandeer state executive officers is reminiscent of the argument made by South Carolina—and
rejected by the Court—in Condon. There, South Carolina claimed that the DPPA “thrusts upon the States all
of the day-to-day responsibility for administering its
complex provisions . . . and thereby makes state officials the unwilling implementors of federal policy.”
528 U.S. at 149-50 (internal quotation marks omitted).
But ICWA, like the DPPA, does not require states “to
enact any laws or regulations, and it does not require
state officials to assist in the enforcement of federal
statutes regulating private individuals.” Id. at 151.
Unlike the statutes in New York, Printz, and Murphy,
§ 1912 does not create obligations or restrictions enforceable solely against states. See Murphy, 138 S. Ct.
at 1481 (determining that a provision of the gambling
regulation at issue did not constitute a valid “preemption provision because there is no way in which [it]

127a
c[ould] be understood as a regulation of private actors”)
(emphasis added); Printz, 521 U.S. at 932 n.17 (explaining that extending “to private citizens” the federal statute’s directives “posits the impossible”); New York, 505
U.S. at 160 (“[T]his is not a case in which Congress has
subjected a State to the same legislation applicable to
private parties.”). Instead, its provisions simply impose the same, generally applicable burden on any party
engaged in a custody proceeding involving an Indian
child. Cf. Condon, 528 U.S. at 151 (noting that the regulation of data bases applied to “private resellers” of
motor vehicle information along with states); Baker, 485
U.S. at 526-27 (stating that the requirement that bearer
bonds be registered in order to be eligible for a federal
income tax exemption applied to “local governments, the
Federal Government, [and] private corporations”).
Thus, § 1912 (a), (d), (e), and (f ) “evenhandedly regulate[] an activity in which both States and private actors
engage,” and the anticommandeering doctrine does not
apply. See Murphy, 138 S. Ct. at 1478.
JUDGE DUNCAN posits two reasons why the evenhandedness principle ought not apply to the challenged
provisions.
First, he asserts that ICWA compels
states to regulate private individuals. DUNCAN, CIRCUIT JUDGE, OP. at 89-91. Not so. As discussed, ICWA
is a comprehensive federal regulatory scheme that regulates private individuals by creating rights and restrictions in favor of Indian individuals and tribes in
child custody proceedings involving Indian children.
In so doing, ICWA places legal obligations on parties to
these proceedings, whether individuals or state actors.
See Condon, 528 U.S. at 150 (finding no anticommandeering problem in the fact that compliance with the
DPPA would “require time and effort on the part of

128a
state employees”). Just as the DPPA “regulate[d] the
States as the owners of data bases,” id. at 151, ICWA
regulates the states as participants in Indian child custody proceedings—placing the same requirements on
states as it does on any private party. This fits the bill
of an evenhanded regulation. 43
Second, JUDGE DUNCAN asserts that ICWA regulates states in their sovereign capacity. DUNCAN, CIRCUIT JUDGE, OP. at 91-92.
Whereas Congress regulated states as participants in the market for bonds in
Baker and the market for driver’s information in Condon, JUDGE DUNCAN contends that ICWA does not regulate states as market participants but rather as sovereigns carrying out their duty to protect children. But
JUDGE DUNCAN’s assertion that ICWA imposes “critical duties”
on state actors is irrelevant to determining whether the statute is
consistent with the anticommandeering doctrine. DUNCAN, CIRCUIT JUDGE, OP. at 91. Nowhere in the Court’s commandeering
cases has it made mention of, or found dispositive, whether the obligations imposed on states by a regulation were important to the statutory scheme’s success. In Condon, for example, that the DPPA’s
restrictions applied to states was surely “crucial” to the law’s efficacy. See 528 U.S. at 143-44 (noting that “Congress found that
many States . . . sell driver’s personal information” and that the
statute “establishes a regulatory scheme” that expressly “restricts
the States’ ability to disclose a driver’s personal information”); id. at
143 (citing 139 CONG. REC. 9468 (Nov. 16, 1993) (explaining that a
purpose of “this legislation is to protect a wide range of individuals,
[to] protect them from the State agencies [that,] often for a price, a
profit to the State, [] release lists”) (statement of Sen. Warner)); see
also Baker, 485 U.S. at 510-11 (noting that the challenged provision
“completes th[e] statutory scheme” setup by Congress). The evenhandedness inquiry does not turn on whether the statute imposes
“critical” duties—or even “trivial” duties, for that matter—on states,
but rather whether those duties apply equally to both states and private actors. See Murphy, 138 S. Ct. at 1478.
43

129a
in Condon, the statute at issue “regulate[d] the disclosure of personal information contained in the records of
state motor vehicle departments.” 528 U.S. at 143.
The regulation of motor vehicles, of course, is a quintessential state function. As explained above, the provision was nevertheless upheld because it “regulate[d] the
States as the owners of data bases;” that is, as participants in the market for drivers’ personal information.
Id. at 151. The situation is the same here. Though
family law is as a general matter committed to the
states, but see, e.g., McCarty, 453 U.S. at 235-36, the activity at issue here—child custody proceedings—involves
private parties as litigants. 44 ICWA, then, “regulates

Citing Printz, JUDGE DUNCAN also asserts that the “salient
question” in determining whether the evenhandedness exception applies is “whether a federal law requires states officials to act ‘in their
official capacity’ to implement a federal program.” DUNCAN, CIRCUIT JUDGE, OP. at 93 (quoting Printz, 521 U.S. at 932 n.17). This
test cannot be squared with the Court’s cases. In Condon, for example, compliance with the DPPA required action by state officials
acting in their official capacity. See 528 U.S. at 150 (“We agree with
South Carolina’s assertion that the DPPA’s provisions will require
time and effort on the part of state employees . . . .”); see also
Baker, 485 U.S. at 514-15 (“That a State wishing to engage in certain
activity must take administrative and sometimes legislative action to
comply with federal standards regulating that activity is a commonplace that presents no constitutional defect.”). The salient question, rather, is whether the statute applies equally to both states and
private actors. This is clear from the portion of Printz JUDGE DUNCAN purports to rely on. As the Court in Printz explained, the
background check requirement at issue “undoubtedly” would have
been consistent with the anticommandeering doctrine if its burdens
could have been extended equally to both state actors and private
actors. 521 U.S. at 932 n.17 (emphasis added). The problem, however, was that the burden the statute placed on state law enforce44

130a
the States as” participants in these proceedings, and the
reasoning of Baker and Condon applies equally here.
Because § 1912 (a), (d), (e), and (f ) are “evenhanded,”
we conclude they are necessarily “best read” as pertaining to private actors within that phrase’s meaning in
Murphy. Id. at 1478, 1479. This follows from our earlier conclusion that a law is “best read” as regulating
private actors—and therefore can be given preemptive
effect—when it creates legal rights and obligations enforceable by or against private actors. Because an evenhanded regulation genuinely applies to private parties (as well as states), it necessarily establishes legal
rights and obligations applicable to private parties (as
well as states).
This is demonstrated by even a cursory review of
§ 1912 (a), (d), (e), and (f ). The obligations the provisions impose are enforceable against any private party
seeking a foster placement for, or the termination of parental rights to, an Indian child. And, viewed inversely,
these obligations are an array of rights in favor of and
enforceable by private parties. Section 1912(a) grants
Indian parents and tribes the right to notice of pending
child custody proceedings. Id. § 1912(a). Further,
§ 1912(d) grants to Indian children, tribes, and families
the right to maintain their tribal and family unit “subject
only to certain (federal) constraints.” Id. § 1912(d); Murphy, 138 S. Ct. at 1480. Specifically, the provision confers upon private actors an enforceable right to demand
in custody proceedings that “active efforts” be made to
ment officers by its very nature could not possibly be borne by private persons. Id. (“[T]he suggestion that extension of this statute
to private persons would eliminate the constitutional problem posits
the impossible.”).

131a
keep an Indian family intact before the foster care placement of, or termination of parental rights to, an Indian
child. See D.J., 36 P.3d at 674 (reversing the termination of parental rights to an Indian child because, inter
alia, the trial court failed to make findings as to whether
active efforts had been made to prevent the breakup of
the Indian family). Sections 1912(e) and (f ) similarly
provide enforceable federal rights to Indian parents to
maintain their families absent testimony from qualified
expert witnesses regarding detriment to the child from
the parents’ continued custody. 25 U.S.C. § 1912(e),
(f ).
Plaintiffs’ argument that ICWA is not evenhanded—
and thus is not best read as applying to private parties—
because state actors are more frequently bound by its
provisions is also misplaced. As an initial matter, a
“best read” inquiry that turns on the factual question of
whom is most likely to engage in the regulated conduct
would demand record evidence that is absent here, and
there is no indication that the Supreme Court has ever
performed such a fact-bound evaluation as part of its
commandeering analyses. More importantly, an “evenhanded” law is “best read” as regulating private parties not because its burdens may happen to fall upon
states more or less frequently than private actors as a
factual matter, but instead, as we have explained, because such a law necessarily establishes rights or obligations that are legally enforceable by or against private
parties.
The Murphy Court’s discussion of Morales v. Trans
World Airlines, Inc., in which the Court considered
whether the federal Airline Deregulation Act of 1978
(ADA) preempted States from passing their own laws

132a
prohibiting allegedly deceptive airline fare advertisements, confirms this conclusion. Id. at 1480 (citing Morales, 504 U.S.at 391). At issue in Morales was a provision of the ADA that removed earlier federal airline
regulations. 504 U.S. at 378. “To ensure that the States
would not undo federal deregulation with regulation of
their own,” the ADA provided that “no State or political
subdivision thereof . . . shall enact or enforce any
law, rule, regulation, standard or other provision having
the force and effect of law relating to rates, routes, or
services of any [covered] air carrier.” Murphy, 138
S. Ct. at 1480 (alteration in original) (quoting 49 U.S.C.
§ 1305; Morales, 504 U.S. at 378). The Court held that
the provisions validly preempted state law. Id. at 391.
As the Court in Murphy explained:
[t]his language [in the ADA] might appear to operate
directly on the States [and thus constitute an invalid
attempt at preemption], but it is a mistake to be confused by the way in which a preemption provision is
phrased . . . [I]f we look beyond the phrasing
employed in the Airline Deregulation Act’s preemption provision, it is clear that this provision operates
just like any other federal law with preemptive effect.
It confers on private entities (i.e., covered carriers) a
federal right to engage in certain conduct subject
only to certain (federal) constraints.
Id. at 1480. The Court’s analysis did not turn on the
frequency with which state and private actors engaged
in the regulated conduct; indeed, it is axiomatic that private actors could not regulate airlines. Rather, as the
Murphy Court made clear, what was dispositive in determining that the statute was “best read” as regulating
private actors—and thus preempted state law—was

133a
that it created legally enforceable private rights. Id. at
1480. Accordingly, Plaintiffs’ argument is of no moment. Sections 1912 (a), (d), (e), and (f ) are evenhanded
regulations, and they therefore do not violate the anticommandeering doctrine and may validly preempt conflicting state law.
Although Plaintiffs limit their arguments on appeal
primarily to the aforementioned portions of § 1912, the
district court’s ruling that ICWA violates the anticommandeering doctrine was far more sweeping, invalidating all portions of the statute that alter the substantive
law applicable in cases arising out of state causes of action. As discussed, the district court’s theory that
ICWA commandeers state courts in this manner is
based on a flawed premise. See supra Discussion Part
II.A.2.i. ICWA’s provisions beyond those already discussed in § 1912 also validly preempt conflicting state
law because they are part of a comprehensive statute,
the “whole object of ” which, Printz, 521 U.S. at 900, is to
“confer[] on private entities”—namely Indian children,
families, and tribes—“a federal right.” Murphy, 138
S. Ct. at 1480; see 25 U.S.C. § 1902 (declaring Congress’s
policy in enacting ICWA of “protect[ing] the best interests of Indian children and promot[ing] the stability and
security of Indian families and tribes”). An inquiry into
ICWA’s individual provisions, moreover, reveals that
they operate to confer rights on private actors. For instance, § 1911, grants the Indian custodian of an Indian
child and that child’s tribe the right to intervene in child
custody proceedings. 45 Section 1912(b) confers upon
Several jurisdictions have recognized that § 1911(c) creates
federal rights in favor of tribes and therefore have concluded that
the provision preempts otherwise applicable state law permitting
45

134a
indigent Indian parents “the right to court-appointed
counsel in any removal, placement, or termination proceeding.” Id. § 1912(b). And § 1913(b) affords Indian
parents the right to withdraw their consent to a foster
care placement at any time. Id. § 1913(b). 46

only licensed attorneys to represent parties. See, e.g., In re Elias
L., 767 N.W.2d 98, 104 (Neb. 2009). These courts have explained
that the tribal right to intervene is unfettered and that otherwise
applicable state law would “not only burden the right of tribal intervention, it will essentially deny that right in many cases.”
State ex rel. Juvenile Dep’t of Lane Cnty. v. Shuey, 850 P.2d 378,
381 (Or. Ct. App. 1993); see also In re N.N.E., 752 N.W.2d 1, 12
(Iowa 2008); J.P.H. v. Fla. Dep’t of Children & Families, 39 So. 3d
560 (Fla. Dist. Ct. App. 2010) (per curiam). In essence, these state
courts have understood that they are bound to permit tribes to intervene without being represented by licensed counsel because to
require otherwise would “frustrate[] the deliberate purpose of
Congress” in enacting this measure. Hillman, 569 U.S. at 494 (internal quotation marks and citation omitted).
46
ICWA’s placement preference provisions, § 1915(a) & (b), likewise create federal rights for Indian children, tribes, and families
that apply in Indian child custody proceedings. Because the placement preferences are valid premptive federal laws, state adjudicators are bound under the Supremacy Clause to apply these provisions. See supra Discussion Part II.A.2.a(i).
Indeed, JUDGE DUNCAN acknowledges that the placement preferences apply in state court and preempt contrary state law. He
broadly suggests, however, that the placement preferences also separately “direct action by state agencies and officials.” DUNCAN,
CIRCUIT JUDGE, OP. at 83-84. But reading the placement-preference
provisions to require state agencies to perform executive or legislative tasks is contrary to the statute’s plain text. The provisions
merely require the body adjudicating an Indian child custody proceeding to apply the preferences contained therein in deciding contested claims unless there is good cause not to. See 25 U.S.C.
§ 1915(a) (“In any adoptive placement of an Indian child . . . , a

135a
Given that the entire purpose and effect of the provisions the district court erroneously invalidated is to
confer rights and protections upon private actors, viz.,
Indian tribes, families, and children, we conclude that
they are “best read” as regulating private parties.
Murphy, 138 S. Ct. at 1479, 1480 (“In sum, regardless of
the language used by Congress . . . , every form of
preemption is based on a federal law that regulates the
conduct of private actors, not the States.”). That the
Supremacy Clause prevents states from interfering with
these federal rights does not transform ICWA into an
unconstitutional command to state actors. See Murphy, 138 S. Ct. at 1480. Rather, such a restriction on
states is inherent to preemption. See id. at 1479. It
preference shall be given, in the absence of good cause to the contrary . . . . ); id. § 1915(b) (“In any foster care or preadoptive placement, a preference shall be given, in the absence of good cause to the
contrary . . . . ”).
As JUDGE DUNCAN concedes, this straight-forward interpretation does not present an anticommandeering problem. See New
York, 505 U.S. at 178-79 (“Federal statutes enforceable in state
courts do, in a sense, direct state judges to enforce them, but this
sort of federal ‘direction’ of state judges is mandated by the text of
the Supremacy Clause.”); cf. Murphy, 138 S. Ct. at 1480-81 (observing that “every form of preemption is based on a federal law that
regulates the conduct of private actors” and invalidating a federal
statute that barred states from authorizing sports gambling because
the statute did “not confer any federal rights on private actors” and
instead could be understood only as “a direct command to the
States”). JUDGE DUNCAN’s interpretation of § 1915(a) & (b) as separately directing state administrative action—which he argues is
unconstitutional—is thus not only plainly unreasonable given the
text of the statute, but also contrary to settled canons of statutory
construction. See United States v. Jin Fuey Moy, 241 U.S. 394, 401
(1916) (stating that a statute must be interpreted to avoid constitutional doubt if reasonably possible).

136a
would thus be error on multiple levels to conclude that
ICWA unconstitutionally commandeers state actors,
and we decline to do so. 47

The opposing opinion again makes much of the unremarkable
fact, already discussed above, see supra note 21, that though Congress may hold plenary authority over a given field of legislation,
any laws passed pursuant to that plenary power must still be consistent with the anticommandeering doctrine and other constitutional principles. See DUNCAN, CIRCUIT JUDGE, OP. at 27-29. In
a misguided attempt to illustrate this point, the opposing opinion
conjures up various hypothetical federal laws concerning subjects on
which Congress exercises exclusive legislative authority that would
alter the rules applicable to various state causes of actions in state
proceedings. For example, the opposing opinion imagines a federal
law “mandating different comparative fault rules in state court suits
involving Swedish visa holders,” and appears to postulate that, notwithstanding Congress’s plenary power in regulating commerce
with foreign nations, see U.S. CONST. art. I, § 8, cl. 3, such a law
would be beyond Congress’s legislative authority. DUNCAN, CIRCUIT JUDGE, OP. at 29.
First, these are far-fetched, counterfactual, law-school exam hypotheticals that are wholly detached from the kind of real and pressing human problems that ICWA addresses; rational legislators would
neither see the need for such legislation nor enact such unfair and
unworkable laws. As Justice Frankfurter observed, “[t]he process
of Constitutional adjudication does not thrive on conjuring up horrible possibilities that never happen in the real world and devising doctrines sufficiently comprehensive in detail to cover the remotest contingency. Nor do we need go beyond what is required for a reasoned
disposition of the kind of controversy now before the Court.” Garcia, 469 U.S. 528 (quoting New York v. United States, 326 U.S. 572,
583 (1946) (Frankfurter, J.)). Though a ridiculous law can be imagined, it is unnecessary to fence off an inviolable area of sovereignty
reserved to the states in order to prevent it. And it bears emphasizing that we nowhere contend, as JUDGE DUNCAN pretends, that
Tenth Amendment principles like the anticommandeering doctrine
47

137a

“vanish” in the face of Congress’s plenary authority over Indian affairs. DUNCAN, CIRCUIT JUDGE, OP. at 69. This is a strawman, as
evidenced by the fact that we specifically address Plaintiffs’ anticommandeering contentions after concluding that ICWA is within the
subject matter upon which Congress is authorized to legislate.
Moreover, it is unclear precisely what point JUDGE DUNCAN is
attempting to make with his parade of supposed horribles. He appears to consider it obvious that his imagined laws would “of course”
exceed Congress’s power solely because they set standards applicable to state causes of action in state court proceedings. DUNCAN,
CIRCUIT JUDGE, OP. at 35. But, as Judge Duncan himself fully
acknowledges elsewhere in his opinion, it is well established that
Congress can validly set substantive standards in state court proceedings when acting pursuant to its Article I powers, including by
“altering” the substance of state causes of action. DUNCAN, CIRCUIT JUDGE, OP. at 102-03 (“The Supreme Court has ruled that federal standards may supersede state standards even in realms of traditional state authority such as family and community property law.
. . . [W]henever a federal standard supersedes a state standard,
the federal standard can be said to ‘modify a state created cause of
action.’ ”); see also Jinks, 538 U.S. at 464-65 (holding that federal
laws that “change the ‘substance’ of state-law rights of action” do not
violate state sovereignty). And, while JUDGE DUNCAN expresses
some doubt as to Congress’s authority to regulate the procedure by
which state courts’ handle state-created causes of action, he wholly
concedes that ICWA creates substantive standards, not procedural
ones. DUNCAN, CIRCUIT JUDGE, OP. at 102 (“ICWA enacts substantive child-custody standards applicable in state child custody
proceedings . . . To the extent those substantive standards compel state courts . . . we conclude they are valid preemption provisions.”). Thus, if JUDGE DUNCAN is arguing that his hypothetical
laws would outstrip Congress’s power because they would regulate
state court procedure rather than substance, he has already conceded that ICWA is not like those laws. And if he is arguing that
the laws would be unconstitutional merely because they apply to
state causes of actions in state court proceedings, his position is
squarely contradicted by on-point Supreme Court precedent and his
own words in this very case.

138a
To summarize, ICWA is a law of the United States
made in pursuance of the Congress’s constitutional authority. Further, ICWA does not violate the anticommandeering doctrine because it does not directly command state legislatures or executive officials to enact or
administer a federal program. Rather, any burden it
places on state actors is incidental and falls evenhandedly on private parties participating in the same regulated activity. Under the Supremacy Clause, then,
ICWA is the supreme law of the land, and judges in
every state shall be bound thereby. ICWA and the Final Rule therefore preempt conflicting state law, and the
district court erred by concluding otherwise.
B.

Equal Protection

The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any person within its jurisdiction the equal protection of the
laws.” U.S. CONST. amend. 14, § 1. This clause is implicitly incorporated into the Fifth Amendment’s guarantee of due process. See Bolling v. Sharpe, 347 U.S.
497, 499 (1954). We apply the same analysis with respect to equal protection claims under the Fifth and
Fourteenth Amendments. See Richard v. Hinson, 70
F.3d 415, 417 (5th Cir. 1995). In evaluating an equal
protection claim, strict scrutiny applies to laws that rely
on classifications of persons based on race. See id.
But where the classification is political, rational basis review applies. See Mancari, 417 U.S. at 555. This
means that the law is strongly presumed to be constitutional, and we will invalidate it only when the classification bears no rational connection to any legitimate government purpose. See F.C.C. v. Beach Commc’ns, Inc.,
508 U.S. 307, 314-15 (1993).

139a
The district court granted summary judgment to the
Plaintiffs, concluding that § 1903(4)—setting forth
ICWA’s definition of “Indian child” for purposes of determining when ICWA applies in state Indian child custody proceedings—is a racial classification that cannot
withstand strict scrutiny. 48 Because ICWA’s provisions are based on classifications of Indians, such as “Indian child,” “Indian family,” and “Indian foster home,”
we must first examine whether these are political or
race-based classifications and thus which level of scrutiny applies. “We review the constitutionality of federal statutes de novo.” Nat’l Rifle Ass’n of Am., Inc. v.
Bureau of Alcohol, Tobacco, Firearms, & Explosives,
700 F.3d 185, 192 (5th Cir. 2012).
1.

Level of Scrutiny

Congress has exercised plenary power “over the
tribal relations of the Indians . . . from the beginning.” Lone Wolf, 187 U.S. at 565. The Supreme
Court’s decisions “leave no doubt that federal legislation
with respect to Indian tribes . . . is not based upon
impermissible racial classifications.” United States v.
Antelope, 430 U.S. 641, 645 (1977). “Literally every
piece of legislation dealing with Indian tribes and reservations . . . single[s] out for special treatment a constituency of tribal Indians living on or near reserva-

As described above, we conclude that Plaintiffs have standing
to challenge 25 U.S.C. § 1915(a) to (b) and Final Rule §§ 23.129 to
23.132 on equal protection grounds. The district court’s analysis
of whether the ICWA classification was political or race-based focused on § 1903(4), presumably because § 1903(4) provides a threshold
definition of “Indian child” that must be met for any provision of
ICWA to apply in child custody proceedings in state court.
48

140a
tions.” Mancari, 417 U.S. at 552. “If these laws, derived from historical relationships and explicitly designed to help only Indians, were deemed invidious racial discrimination, an entire Title of the United States
Code (25 U.S.C.) would be effectively erased and the solemn commitment of the Government toward the Indians
would be jeopardized.” Id.
In the foundational case of Morton v. Mancari, the
Supreme Court rejected an equal-protection challenge
to a BIA employment preference for Indians over nonIndians that applied regardless of whether the Indian
beneficiary lived or worked on or near a reservation.
Id. at 539 n.4, 555. The Court began by noting that
Congress has repeatedly enacted preferences for Indians like the one at issue and that these preferences have
several overarching purposes:
“to give Indians a
greater participation in their own self-government; to
further the Government’s trust obligation toward the
Indian tribes; and to reduce the negative effect of having
non-Indians administer matters that affect Indian tribal
life.” Id. at 541-42 (footnotes omitted). The Court
then stated that central to the resolution of whether the
preference constituted a political or racial classification
was “the unique legal status of Indian tribes under federal law and . . . the plenary power of Congress,
based on a history of treaties and the assumption of a
‘guardian-ward’ status, to legislate on behalf of federally
recognized Indian tribes.” Id. at 551.
In view of this “historical and legal context,” the
Court upheld the preference, determining that it served
a “legitimate, nonracially based goal.” Id. at 553-54.
Specifically, the preference was “reasonably designed to
further the cause of Indian self-government and to make

141a
the BIA more responsive to the needs of its constituent
groups.” Id. at 554. Significantly, the Court observed that because the preference was limited to members of federally recognized tribes, it thus was “not directed towards a ‘racial’ group consisting of ‘Indians’
. . . In this sense, the preference is political rather
than racial in nature.” Id. at 553 n.24. This was true
even though individuals were also required to possess
“one-fourth or more degree Indian blood” to be eligible
for the preference. Id. The ruling, moreover, was
consistent with “numerous’ Court decisions upholding
legislation that singled out Indians for special treatment. Id. at 554-55. The Court concluded its opinion
by broadly holding that “[a]s long as the special treatment can be tied rationally to the fulfillment of Congress’ unique obligation toward the Indians, such legislative judgments will not be disturbed.” Id. at 555.
The district court erroneously construed Mancari
narrowly and sought to distinguish it from ICWA for
two primary reasons. First, the district court read
Mancari’s blessing of special treatment for Indian to be
limited to laws “directed at Indian self-government and
affairs on or near Indian lands.” The district court apparently concluded that ICWA did not meet either of
these requirements, and reasoned that strict scrutiny
therefore applied. Second, the district court observed
that ICWA’s definition of Indian child—which includes
children under eighteen years of age who are eligible for
membership in a federally recognized tribe and have a
biological parent who is a member of a tribe, 25 U.S.C.
§ 1903(4)(b)—extends beyond members of federally recognized tribes, whereas the preference in Mancari was
restricted to current tribal members and thus “operated

142a
to exclude many individuals who are racially to be classified as Indians.” Citing tribal membership laws that
include a requirement of lineal descent, see, e.g., NAVAJO
NATION CODE § 701, the district court concluded that,
since ICWA covers Indian children who are eligible for
membership in a tribe, “[t]his means one is an Indian
child [within the meaning of ICWA] if the child is related
to a tribal ancestor by blood.” In the view of the district court, ICWA therefore “uses ancestry as a proxy
for race,” and the law is therefore subject to strict
scrutiny.
We disagree with the district court’s reasoning and
conclude that Mancari stands for the broader proposition that as long as “legislation that singles out Indians
for . . . special treatment can be tied rationally to
the fulfillment of Congress’ unique obligation toward
the Indians,” the statute “will not be disturbed.”
Mancari, 417 U.S. at 554-55. In other words, if a statute is reasonably related to the special government-togovernment political relationship between the United
States and the Indian tribes, it does not violate equal
protection principles. Mancari—and its progeny—
confirm that classifications relating to Indians need not
be specifically directed at Indian self-government to be
considered political classifications for which rational basis scrutiny applies. Id. at 555 (“As long as the special
treatment can be tied rationally to the fulfillment of
Congress’ unique obligation toward the Indians, such
legislative judgments will not be disturbed.”); see also,
e.g., Washington v. Confederated Bands & Tribes of Yakima Indian Nation, 439 U.S. 463, 500-01 (1979) (“It is
settled that ‘the unique legal status of Indian tribes under federal law’ permits the Federal Government to enact legislation singling out tribal Indians, legislation

143a
that might otherwise be constitutionally offensive.”
(quoting Mancari, 417 U.S. at 551-52)).
In United States v. Antelope, for instance, the Court
expressly recognized that, although some of its earlier
decisions relating to Indians “involved preferences or
disabilities directly promoting Indian interests in selfgovernment,” its precedent “point[s] more broadly to
the conclusion that federal regulation of Indian affairs
is not based upon impermissible classifications.” 430
U.S. 641, 646-47 (1977) (first citing Mancari, 417 U.S. at
553 n.24; then citing Fisher v. District Court, 424 U.S.
382 (1976) (per curiam)) (holding that a federal statute
subjecting individual Indians to federal criminal jurisdiction due to their status as tribal members did not violate equal protection); see also, e.g., Washington v.
Wash. State Comm. Passenger Fishing Vessel Ass’n,
443 U.S. 658, 673 n.20 (1979) (determining that a treaty
granting Indians certain preferential fishing rights did
not violate equal protection because the Court “has repeatedly held that the peculiar semisovereign and constitutionally recognized status of Indians justifies special treatment on their behalf when rationally related to
the Government’s ‘unique obligation toward the Indians’ ” (quoting Mancari, 417 U.S. at 555)); Moe v. Confederated Salish & Kootenai Tribes, 425 U.S. 463, 47980 (1976) (sustaining tribal members’ immunity from
state sales tax for cigarettes sold on the reservation and
explaining that “[a]s long as the special treatment can
be tied rationally to the fulfillment of Congress’ unique
obligation toward the Indians, such legislative judgments will not be disturbed.” (quoting Mancari, 417
U.S. at 555)).

144a
Moreover, even if preferences for Indians were limited to those directly furthering tribal self-government
—a proposition that, as demonstrated, is unsupportable
—it is clear that ICWA is aimed squarely at this legislative purpose. As discussed, prior to enacting ICWA,
Congress considered testimony about the devastating
impacts of removing Indian children from tribes and
placing them for adoption and foster care in non-Indian
homes. See supra Background Part IV. The Tribal
Chief of the Mississippi Band of Choctaw Indians, we
noted, testified that “the chances of Indian survival are
significantly reduced” by removing Indian children from
their homes and raising them in non-Indian households
where they are “denied exposure to the ways of their
People . . . [T]hese practices seriously undercut the
tribes’ ability to continue as self-governing communities. Probably in no area is it more important that
tribal sovereignty be respected than in an area as socially and culturally determinative as family relationships.” Hearing on S. 1214 before the S. Select. Comm.
on Indian Affairs, 95th Cong. 157 (1977).
This testimony undoubtedly informed Congress’s
finding that children are the most vital resource “to the
continued existence and integrity of Indian tribes,”
which itself reflects Congress’s intent to further tribal
self-government. 25 U.S.C. § 1901(3). Moreover, the
Supreme Court has recognized that in enacting ICWA,
“Congress was concerned not solely about the interests
of Indian children and families, but also about the impact on the tribes themselves of the large numbers of
Indian children adopted by non-Indians. The numerous prerogatives accorded the tribes through ICWA’s
substantive provisions must, accordingly, be seen as a
means of protecting not only the interests of individual

145a
Indian children and families, but also of the tribes themselves.” Holyfield, 490 U.S. at 50 (internal citations
omitted)); see also id. (noting evidence before Congress
at the time ICWA was considered that the “[r]emoval of
Indian children from their cultural setting seriously
impacts
. . .
long-term tribal survival” (quoting
S. REP. NO. 597, 95th Cong., 2d Sess. 52 (1977)). Thus,
it is clear that Congress intended ICWA to further both
tribal self-government and the survival of tribes. See
25 U.S.C. § 1901(3); see also COHEN’S, supra § 11.01[2]
(“ICWA’s objective of promoting the stability and security of Indian tribes and families encompasses the interest of Indian nations in their survival as peoples and
self-governing communities . . . . ”).
We also are unpersuaded by the district court’s reasoning that differential treatment for Indians is only
subject to rational basis review when it applies to Indians living on or near reservations. The Supreme Court
has long recognized Congress’s broad power to regulate
Indians and Indian tribes on and off the reservation.
See, e.g., United States v. McGowan, 302 U.S. 535, 539
(1938) (“Congress possesses the broad power of legislating for the protection of the Indians wherever they may
be within the territory of the United States.” (quoting
United States v. Ramsey, 271 U.S. 467, 471 (1926)); Perrin, 232 U.S. at 482 (acknowledging Congress’s power to
regulate Indians “whether upon or off a reservation and
whether within or without the limits of a state”). And
courts have repeatedly upheld government preferences
for Indians, regardless as to whether the Indians receiving “special treatment” were located on or near a reservation. See, e.g., Am. Fed’n of Gov’t Emps. v. United
States, 330 F.3d 513, 516, 521 (D.C. Cir. 2003) (rejecting

146a
an equal protection challenge to a federal defense spending measure that provided a contracting preference for
firms with less than “51 percent Native American ownership” even though the preference was “not restricted
to Indian activities on or near reservations or Indian
land”). Indeed, the preference in Mancari itself did
not require that the Indians benefiting from the employment preference live on or near a reservation, and the
non-Indian employees who challenged the preference
averred that “none of them [were] employed on or near
an Indian reservation.” Mancari, 417 U.S. at 539 n.4.
The district court’s additional rationale for finding an
equal protection violation here—that unlike the statute
in Mancari, ICWA’s definition of Indian child extends
to children who are only eligible for membership but
not-yet enrolled in a tribe—is also flawed. Though the
district court made much of the fact that a child’s tribal
eligibility generally turns on having a blood relationship
with a tribal ancestor, this does not equate to a proxy for
race, as the district court believed.
Originally, Indian tribes “were self-governing sovereign political communities.” Wheeler, 435 U.S. at 32223; see also Sarah Krakoff, Inextricably Political: Race,
Membership, and Tribal Sovereignty, 87 WASH. L. REV.
1041 (2012) [hereinafter Krakoff ]. The Constitution,
moreover, recognizes tribes’ political status both explicitly and implicitly. See, e.g., U.S. CONST. art. I, § 8 (empowering Congress “to regulate commerce with foreign Nations, among the several States, and with the Indian
Tribes”). And as explained, the history of the postratification period demonstrates that the federal government treated tribes as quasi-sovereigns from the

147a
very start. 49 See Ablavsky, Beyond the Indian Commerce Clause, supra at 1061-67. Though the relationship between the government and the tribes has evolved
since then, it has always been considered a relationship
between political entities. See Cherokee Nation v.
Georgia, 30 U.S. (5 Pet.) 1, 16 (1831) (Marshall, C.J.) (describing Indian tribes as “domestic dependent nations”);
Kahawaiolaa v. Norton, 386 F.3d 1271, 1278 (9th Cir.
2004) (“Historically, the formal relationship between the
United States and American Indian tribes has been
political, rather than race-based.”); COHEN’S, supra
§ 4.01[1][a]; see generally Krakoff, supra, at 1060-78.
Beginning in 1934 with passage of the Indian Reorganization Act, the federal government entered into a
new chapter wherein it officially acknowledged Indian
tribes’ rights of self-governance by authorizing tribes to
apply for federally-recognized status. See Indian Reorganization Act, 25 U.S.C. §§ 5101 et seq. Official federal recognition of Indian tribes is “a formal political
act” that “institutionaliz[es] the government-to-government
relationship between the tribe and the federal government.” Cal. Valley Miwok Tribe v. United States, 515
F.3d 1262, 1263 (D.C. Cir. 2008) (quoting COHEN’S, supra § 3.02[3] (2005 ed.)); see also Krakoff, supra, at 1075.
To be sure, this course of dealing was not between powers on
equal footing; the Court, as noted, has described the tribes as
“wards of the nation” and “dependent on the United States,” which,
in turn, owes a “duty of protection” to Indian tribes. Kagama, 118
U.S. at 383-84 (emphasis omitted); see also Mancari, 417 U.S. at
551 (characterizing the relationship between the tribes and federal
government as that of “guardian-ward”). But this dependent, quasisovereign status does not change that tribes are fundamentally political bodies with whom the federal government must manage relations as with any other nation.
49

148a
Though inevitably tied in part to ancestry, tribal recognition and tribal sovereignty center on a group’s status
as a continuation of a historical political entity. See 25
C.F.R. § 83.11(c), (e) (criteria for a tribe to receive federal recognition include that the tribe has “maintained
political influence or authority over its members as an
autonomous entity from 1900 until the present” and that
its members “descend from a historical Indian tribe”);
Sarah Krakoff, They Were Here First: American Indian Tribes, Race, and the Constitutional Minimum, 69
STAN. L. REV. 491, 538 (2017) (explaining that the descent criterion for federal recognition is “a proxy for
connection[] to a political entity, specifically a tribe,
which existed historically”); Federal Acknowledgment
of American Indian Tribes, 80 Fed. Reg. 37862, 37,867
(2015). In this way, federally recognized tribal status
is an inherently political classification. See Mancari,
417 U.S. at 553 n.24.
In view of this history, we cannot say that simply because ICWA’s definition of “Indian child” includes minors eligible for tribal membership (who have a biological parent who is a tribal member), the classification is
drawn along racial lines. Tribal eligibility does not inherently turn on race, but rather on the criteria set by
the tribes, which are present-day political entities. 50
As the Tribes explain, under some tribal membership laws, eligibility extends to children without Indian blood, such as the descendants of persons formerly enslaved by tribes who became members after they were freed or the descendants of persons of any ethnicity who have been adopted into a tribe. See, e.g., Treaty with the
Cherokees, 1866, U.S.—Cherokee Nation of Indians, art. 9, July 19,
1866, 14 Stat. 799 (providing that the Cherokee Nation “further
agree that all freedmen who have been liberated by voluntary act of
their former owners or by law, as well as all free colored persons who
50

149a
Just as the United States or any other sovereign may
choose to whom it extends citizenship, so too may the
Indian tribes. 51 That tribes may use ancestry as part

were in the country at the commencement of the rebellion, and are
now residents therein, or who may return within six months, and
their descendants, shall have all the rights of native Cherokees”);
Cherokee Nation v. Nash, 267 F. Supp. 3d 86, 132, 140-41 (D.D.C.
2017) (holding that Cherokee Freedmen enjoy full citizenship rights
as members of the Cherokee Nation because Congress has never abrogated or amended the relevant treaty terms). Accordingly, a
child may fall under ICWA’s membership eligibility standard
because his or her biological parent became a member of a tribe,
despite not being racially Indian. Additionally, many racially Indian children, such as those affiliated with non-federally recognized
tribes, do not fall within ICWA’s definition of “Indian child.” When
it comes to ICWA’s definition of Indian child, race is thus both
underinclusive—because it does not capture these descendants of
freed enslaved persons or other adoptive members who are not “racially” Indians—and overinclusive—because it embraces “racially”
Indian children who are not enrolled in or eligible for membership
in a recognized tribe or who lack a biological parent who is a member
of a recognized tribe.
51
For illustrative purposes, we note that jus sanguinis, or citizenship based on descent, is a common feature of the citizenship laws of
foreign nations. See, e.g., Irish Nationality and Citizenship Act,
2001 (Act. No. 15/2001) (Ir.) (individuals with any direct ancestor who
was an Irish citizen are eligible for Irish ancestry, provided that the
applicant’s parent was recorded in Ireland’s foreign births register);
Kodikas Ellenikes Ithageneias [KEI] [Code of Greek Citizenship]
A:1,10 (Gr.) (establishing that children of Greek parents are Greek
by birth, and providing that aliens of Greek ethnic origin are eligible
to obtain citizenship by naturalization); The Law of the Republic of
Armenia on the Citizenship of the Republic of Armenia (Nov. 6,
1995), as amended through Feb. 26, 2017, by RA Law No. 75-N (Arm.)
(providing that a person may be granted Armenian citizenship without residing in Armenia or speaking Armenian if he or she is of Armenian ancestry); Law of Return, 5710-1950, SH No. 51 p. 159 (1950)

150a
of their criteria for determining membership eligibility
does not change that ICWA does not classify in this way;
instead, ICWA’s Indian child designation classifies on
the basis of a child’s connection to a political entity
based on whatever criteria that political entity may prescribe. 52 See Santa Clara Pueblo v. Martinez, 436 U.S.
(Isr.) (extending the right of citizenship to any “Jew” wishing to immigrate to Israel); Law of Return (Amendment No. 2), 5730-1970,
SH No. 586 p. 34 (1970) (Isr.) (clarifying that “Jew” means any person born of a Jewish mother or who converted to Judaism, and vesting the right of citizenship in any child, grandchild, or spouse of a
Jew, as well as any spouse of a child of a Jew or any spouse of a
grandchild of a Jew); Legge 5 febbraio 1992, no. 91, G.U. Feb. 15,
1992, n.38 (It.) (guaranteeing citizenship to any person whose father
or mother are citizens, and providing that Italian citizenship may be
granted to aliens whose father or mother or whose direct ancestors
to the second degree were citizens by birth); Law of 2 April 2009 on
Polish Citizenship, Dz. U. z. 2012 r. poz. 161 (Feb. 14, 2012) (Pol.)
(stating that individuals within two degrees of Polish ancestry may
be eligible for Polish citizenship). That one may be eligible for citizenship based on their ancestry does not, of course, alter the fact
that citizenship and eligibility therefor—like actual and potential
membership in a federally recognized tribe—are political matters
concerning the rights and obligations that come from membership in
a polity.
52
Moreover, even if ICWA did classify on the basis of blood quantum as do some other laws respecting Indian affairs, it does not
necessarily follow that strict scrutiny would apply. See generally
Matthew L.M. Fletcher, Politics, Indian Law, and the Constitution, 108 CAL. L. REV. 495, 532-46 (2020) (arguing that, based on
the historical understanding of the Indian affairs power, Congress
has complete authority to determine who is an Indian and it is
never a suspect classification); Mancari, 417 U.S. at 552 (applying
rational basis review to law that classified on the basis of blood
quantum). Because ICWA simply looks to tribal eligibility and the
tribal membership of a child’s birth parents, we need not decide
what level of scrutiny applies when Congress classifies on the basis
of more remote Indian ancestry. We note, however, that some

151a
49, 72 n.32 (1978) (“A tribe’s right to define its own membership for tribal purposes has long been recognized as
central to its existence as an independent political community.”).
The district court determined, and Plaintiffs now argue, that ICWA’s definition of “Indian child” “mirrors
the impermissible racial classification in Rice [v. Cayetano, 528 U.S. 495 (2000)], and is legally and factually
distinguishable from the political classification in Mancari.” We disagree.
In Rice, the Court held that a provision of the Hawaiian Constitution that permitted only “Hawaiian” people
to vote in the statewide election for the trustees of the
Office of Hawaiian Affairs (OHA) violated the Fifteenth
Amendment. Id. at 515. “Hawaiian” was defined by
statute as “any descendant of the aboriginal peoples inhabiting the Hawaiian Islands which exercised sovereignty and subsisted in the Hawaiian Islands in 1778,
and which peoples thereafter have continued to reside in
Hawai[‘]i.” Id. at 509. (citation and internal quotation marks omitted). The Court emphasized that the
statute classified citizens “solely because of their ancestry,” determining that the legislature’s purpose in doing
scholars have explained that “the appearance of ‘Indian’ within the
[text of the] U.S. Constitution likely dooms [any] equal protection
challenge to Indian classifications.” Gregory Ablavsky, Race,
Citizenship, and Original Constitutional Meanings 70 STAN. L.
REV. 1025, 1074 (2018). Either the use of “ ‘Indian’ in the Constitutional is a political classification” and thus “the use of Indian in
ICWA and similar statutes must also be read as a political classification,” or the references to Indians in the Constitution must be
understood as “bound up with historical conceptions of race” and
“the Constitution itself ” therefore acknowledges and “authorizes
distinctions based on Native ancestry.” Id.

152a
so was to use ancestry as a proxy for race. Id. at 51417. In reaching its ruling, the Rice Court expressly reaffirmed Mancari’s central holding that, because classifications based on Indian tribal membership are “not directed towards a ‘racial’ group consisting of ‘Indians,’ ”
but instead apply “only to members of ‘federally recognized’ tribes,” they are “political rather than racial in
nature.” Rice, 528 U.S. at 519-20 (quoting Mancari,
417 U.S. at 553 n.24).
The facts and legal issues in Rice are clearly distinguishable from the present case. As a threshold matter, Rice specifically involved voter eligibility in a statewide election for a state agency, and the Court found
only that the law at issue violated the Fifteenth Amendment. As should be obvious, the Fifteenth Amendment,
which deals exclusively with voting rights, is not implicated in this case. But even assuming Rice’s holding
would apply to an equal protection challenge, ICWA’s
definition of “Indian child” is a fundamentally different
sort of classification than the challenged law in Rice.
The Court in Rice specifically noted that native Hawaiians did not enjoy the same status as members of federally recognized tribes, who are constituents of quasisovereign political communities. Id. at 522. Instead,
ancestry was the sole, directly controlling criteria for
whether or not an individual could vote in the OHA election. But unlike the ancestral requirement in Rice,
ICWA’s eligibility standard simply recognizes that some
Indian children have an imperfect or inchoate tribal membership. That is, the standard embraces Indian children who possess a potential but not-yet-formalized affiliation with a current political entity—a federally recognized tribe. See Mancari, 417 U.S. at 553 n.24.

153a
An appreciation for how tribal membership works
makes this manifest. As Congress understood in enacting ICWA, tribal membership “typically requires an
affirmative act by the enrollee or her parent,” 81 Fed.
Reg. at 38,782, and a “minor, perhaps infant, Indian does
not have the capacity to initiate the formal, mechanical
procedure necessary to become enrolled in his tribe,”
H.R. REP. NO. 95-1386, at 17 (1978). Thus, Congress
was not drawing a racial classification by including the
eligibility requirement but instead recognizing the realities of tribal membership and classifying based on a
child’s status as a member or potential member of a
quasi-sovereign political entity, regardless of his or her
ethnicity. And because ICWA does not single out children “solely because of their ancestry or ethnic characteristics,” Rice, 528 U.S. at 515, Rice is inapposite.
In short, we find Rice wholly inapplicable except insofar as it reaffirmed the holdings of Mancari and its
progeny that laws that classify on the basis of Indian tribal
membership are political classifications. It therefore
does not alter our conclusion that ICWA’s definition of
“Indian child” is a political classification subject to rational basis review. See Mancari, 417 U.S. at 555.
Plaintiffs also separately contend that ICWA’s lowesttiered adoptive placement preference for “other Indian
families” constitutes a racial classification. 53 See 25
53

25 U.S.C. § 1915(a) provides:
In any adoptive placement of an Indian child under State law,
a preference shall be given, in the absence of good cause to the
contrary, to a placement with
(1) a member of the child’s extended family;

154a
U.S.C. § 1915(a)(3). This preference, they argue, treats
Indian tribes as “fungible” and does not account for the
array of differences between tribes, which, in turn, evinces
a desire to keep Indian children within a larger Indian
“race.” We disagree for reasons similar to our holding
regarding ICWA’s Indian child designation. Like the
hiring preference in Mancari, this adoption placement
preference—like all of ICWA’s placement preferences
—“applies only to members of federally recognized
tribes.” Mancari, 417 U.S. at 554 n.24 (internal quotation marks omitted); see also 25 U.S.C. § 1903(3) (defining “Indian” as encompassing only members of federally
recognized tribes). Because on its face the provision is
limited to “members of federally recognized tribes,”
“the preference is political rather than racial in nature.”
Mancari, 417 U.S. at 554 n.24 (internal quotation marks
omitted). Accordingly, it, too, is subject only to rational basis review. 54
2.

Rational Basis Review

Having determined that ICWA’s Indian child and
family designations are political classifications, we need
look no further than Rice to determine their constitutionality. Even in setting aside the Hawai‘i election
law at issue, the Court stated in no uncertain terms that
statutes that fulfill “Congress’ unique obligation toward
the Indians” are constitutional. Id. at 520 (quoting
Mancari, 417 U.S. at 555). “Of course,” the Rice Court
elaborated, “as we have established in a series of [post(2) other members of the Indian child’s tribe; or
(3) other Indian families.
54
For the same reasons, ICWA’s foster care placement preferences based on tribal membership trigger only rational basis review. See 25 U.S.C. § 1915(b).

155a
Mancari] cases, Congress may fulfill its obligations and
responsibilities to the Indian tribes by enacting legislation dedicated to their circumstances and needs.” Id.
at 519 (citing Wash. State Comm. Passenger Fishing
Vessel Ass’n, 443 U.S. at 673 n.20; Antelope, 430 U.S. at
645-47; Del. Tribal Bus. Comm. v. Weeks, 430 U.S. 73,
84-85 (1977); Moe, 425 U.S. at 479-80; Fisher, 424 U.S.
at 390-91).
This is precisely what ICWA does. We have already
described at length the “circumstances and needs” that
gave rise to ICWA. Id.; see supra Background Part
IV-V. Suffice it to say that, in enacting the statute,
Congress explicitly found that “an alarmingly high percentage of Indian families are broken up by the removal,
often unwarranted, of their children from them by nontribal public and private agencies and that an alarmingly
high percentage of such children are placed in nonIndian foster and adoptive homes and institutions.” 25
U.S.C. § 1901(4). It further concluded “that the States,
exercising their recognized jurisdiction over Indian
child custody proceedings through administrative and
judicial bodies, have often failed to recognize the essential tribal relations of Indian people and the cultural and
social standards prevailing in Indian communities and
families.” Id. § 1901(5). It therefore enacted ICWA
“to protect the best interests of Indian children and to
promote the stability and security of Indian tribes and
families.” Id. U.S.C. § 1902. By systematically favoring the placement of Indian children with Indian tribes
and families in child custody proceedings, Congress
sought to ensure that children who are eligible for tribal
membership are raised in environments that engender
respect for the traditions and values of Indian tribes,

156a
thereby increasing the likelihood that the child will eventually join a tribe and contribute to “the continued existence and integrity of Indian tribes.” Id. § 1901(3).
It cannot be reasonably gainsaid that these measures
have some rational connection to Congress’s goal of fulfilling its broad and enduring trust obligations to the Indian tribes. 55 See Mancari, 417 U.S. at 555. Indeed,
JUDGE DUNCAN does not truly argue to the contrary.
Instead, he raises what amount to two arguments that
ICWA uses impermissible means to further Congress’s
obligations to the Indian tribes.
First, JUDGE DUNCAN argues that ICWA is irrational because it extends beyond internal tribal affairs
and intrudes into state proceedings. DUNCAN, CIRCUIT JUDGE, OP. at 65. As we discuss at length when addressing Plaintiffs’ federalism-based arguments, ICWA’s
creation of federal rights that state courts must honor is
not a violation of state sovereignty. More fundamentally, however, the degree to which a law intrudes on
state proceedings has no bearing on whether that law is
rationally linked to protecting Indian tribes. One can
imagine any number of overbearing measures that
would advantage Indians at the expense of the states or
other members of society that would nonetheless promote Indian welfare. A federal law could simply effectuate a direct transfer of wealth from state coffers to the
Indian tribes, for example, which would almost certainly
run afoul of various constitutional provisions. But
In addition to the reasons stated above, that ICWA furthers
Congress’s legislative aim of discharging its duties to tribes is strongly suggested by the fact that 486 federally recognized tribes—over
80% of all such tribes in this nation—have joined as amici in support
of upholding ICWA’s constitutionality.
55

157a
there would be no debate that the law rationally furthered the well-being of tribes, which is sufficient to
overcome an equal protection challenge when rational
basis review applies. See Nordlinger v. Hahn, 505 U.S.
1, 10 (1992) (“[U]nless a classification warrants some
form of heightened review because it jeopardizes exercise of a fundamental right or categorizes on the basis of
an inherently suspect characteristic, the Equal Protection Clause requires only that the classification rationally further a legitimate [government] interest.”).
Though JUDGE DUNCAN couches this objection as an
aspect of rational basis review, he appears to apply a far
more searching standard of scrutiny. 56 For example,
JUDGE DUNCAN contends that he is “faithfully following the tailoring analysis for Indian classifications laid out by Mancari, Rice,
and Adoptive Couple.” DUNCAN, CIRCUIT JUDGE, OP. at 64 n.93.
But the Supreme Court has expressly stated that “classifications
based on tribal status” are not “suspect,” Confederated Bands &
Tribes of Yakima Indian Nation, 439 U.S. at 501, and, again, the
Court has repeatedly reaffirmed that laws that neither infringe on
a fundamental right nor involve a suspect classification warrant
only rational basis review, which does not include the type of “tailoring analysis” JUDGE DUNCAN employs. See, e.g., Beach Commc’ns,
Inc., 508 U.S., at 313 (“In areas of social and economic policy, a
statutory classification that neither proceeds along suspect lines
nor infringes fundamental constitutional rights must be upheld
against equal protection challenge if there is any reasonably conceivable state of facts that could provide a rational basis for the
classification.”). If JUDGE DUNCAN reads the cases he cites to sub
silentio overrule Supreme Court precedent to establish that Indian
classifications are inherently suspect or otherwise subject to a
stricter tailoring requirement than any other non-suspect classification, his conclusion runs counter to virtually every federal appeals court to have explicitly considered the issue. See, e.g., Am.
Fed’n of Gov’t Employees, AFL-CIO v. United States, 330 F.3d 513,
520 (D.C. Cir. 2003) (“[O]rdinary rational basis scrutiny applies to
56

158a
he relies on the Rice Court’s statement that, because the
OHA elections in that case affected the state as a whole,
extending “Mancari to th[at] context would [] permit a
State, by racial classification, to fence out whole classes
of its citizens from decisionmaking in critical state affairs.” DUNCAN, CIRCUIT JUDGE, OP. at 61-62 (quoting
528 U.S. at 522). As we have stated, though, Rice centered on the Fifteenth Amendment, and even if the law
were instead examined under the Fourteenth Amendment, it would be subject to strict scrutiny because it
classified on the basis of race and discriminated with respect to a fundamental constitutional right. See Nordlinger, 505 U.S. at 10. ICWA does neither. See San
Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 33
(1973) (limiting “fundamental rights” for purposes of
equal protection analysis to those rights protected by
the constitution). Thus, whether ICWA incidentally
disadvantages some groups in state court proceedings is
of no moment. See Romer v. Evans, 517 U.S. 620, 632
(1996) (stating that “a law will be sustained” on rational
basis review “if it can be said to advance a legitimate
government interest, even if the law seems unwise or
works to the disadvantage of a particular group, or if the
Indian classifications just as it does to other non-suspect classifications under equal protection analysis.” (citation omitted)); Artichoke Joe’s California Grand Casino v. Norton, 353 F.3d 712, 732
(9th Cir. 2003) (“The [Mancari] Court held that legislative classifications furthering that same purpose were political and, thus, did
not warrant strict scrutiny instead of ordinary, rational-basis scrutiny[.]”). In other words, it is firmly established that ordinary rational basis scrutiny applies in an equal protection challenge to an
Indian classification, and under standard rational basis review, factors like the degree of intrusion on state sovereignty are simply not
relevant to whether one can imagine a legitimate government interest furthered by the classification.

159a
rationale for it seems tenuous” (citing New Orleans v.
Dukes, 427 U.S. 297 (1976))).
Moreover, even if such a factor were relevant to
ICWA’s validity, we would disagree that the law’s purpose or effect is analogous to the Hawai‘i law at issue in
Rice. Unlike the OHA election qualifications, ICWA
regulates relations between states, the federal government, and the Indian tribes. The law is an example of
congressional control over federal-tribal affairs—an interest completely absent in Rice. See Rice, 528 U.S. at
518 (noting that to sustain Hawai‘i’s restriction under
Mancari, it would have to “accept some beginning premises not yet established in [its] case law,” such as that
Congress “has determined that native Hawaiians have a
status like that of Indians in organized tribes”); see also
Kahawaiolaa, 386 F.3d at 1279 (rejecting an equal protection challenge brought by Native Hawaiians, who
were excluded from the U.S. Department of the Interior’s formal tribal acknowledgement process, and concluding that the recognition of Indian tribes was political). Thus, there is no concern that ICWA excludes a
class of citizens from participation in their own selfgovernment; even when ICWA reaches into state court
adoption proceedings, those proceedings are simultaneously affairs of states, tribes, and Congress.
See
25 U.S.C. § 1901(3) (“[T]here is no resource that is more
vital to the continued existence and integrity of Indian
tribes than their children.”). The Rice Court’s caution
against fencing off a class of citizens from participation
in state affairs thus does not apply to ICWA for multiple
reasons.

160a
What remains of JUDGE DUNCAN’s contentions
amount to objections that ICWA’s Indian child and family designations are under- and over-inclusive. ICWA
applies to Indian children who are only eligible for tribal
membership and may never join a tribe, he points out,
as well as when an Indian child’s biological parents do
not oppose placement of an Indian child with a nonIndian family. Based on this, JUDGE DUNCAN argues
that the law could be applied in scenarios where it does
not further Congress’s goals of ensuring the continued
survival of Indian tribes and preventing the unwilling
breakup of Indian families. DUNCAN, CIRCUIT JUDGE,
OP. at 67-71. Similarly, because ICWA in some instances favors placement of an Indian child with an Indian family of a different tribe over placement with a
non-Indian family, JUDGE DUNCAN contends that the
statute treats the tribes as fungible and does not always
promote Congress’s goal of linking Indian children with
their particular tribes. DUNCAN, CIRCUIT JUDGE, OP.
at 71-73. But the Supreme Court has clearly stated
that these are not grounds for invalidating a law on rational basis review.
“Rational-basis review tolerates overinclusive classifications, underinclusive ones, and other imperfect meansends fits.” St. Joan Antida High Sch. Inc. v. Milwaukee Pub. Sch. Dist., 919 F.3d 1003, 1010 (7th Cir. 2019)
(collecting Supreme Court cases). “[L]egislation ‘does
not violate the Equal Protection Clause merely because
the classifications [it makes] are imperfect.’ ” New
York City Transit Auth. v. Beazer, 440 U.S. 568, 592 n.39
(1979) (quoting Dandridge v. Williams, 397 U.S. 471, 485
(1970)). “Even if the classification involved here is to
some extent both underinclusive and overinclusive, and

161a
hence the line drawn by Congress imperfect, it is nevertheless the rule that in a case like this ‘perfection is by
no means required.’ ” Id. (quoting Vance v. Bradley,
440 U.S. 93, 108 (1979)). On rational-basis review, a
statutory classification “comes to us bearing a strong
presumption of validity, and those attacking the rationality of the legislative classification have the burden to
negative every conceivable basis which might support
it.” Beach Commc’ns, Inc., 508 U.S. at 314-15 (emphasis added) (cleaned up). All of this is to say that it is
immaterial whether one can imagine scenarios in which
ICWA’s classifications do not further ICWA’s goals;
that the classifications could further legitimate goals in
some instances is wholly sufficient to sustain the law’s
constitutionality. 57

JUDGE DUNCAN contends that his arguments are somehow
different from contentions that ICWA is overinclusive because
“[e]ligibility—one of only two ways to trigger ICWA—makes the law
cover children (like the ones here) with no actual connection to a
tribe” and “allowing ICWA to override birth parents’ wishes to place
their children with non-Indians . . . makes nonsense of ICWA’s
key goal of preventing the break-up of Indian families.” DUNCAN,
CIRCUIT JUDGE, OP. at 68-69 n.95. But a law that employs a classification that applies to some individuals or in some situations in
which it does not further the legislature’s objectives is the precise
definition of an overinclusive law, and the Supreme Court has repeatedly reaffirmed that such a statute survives rational basis review. See, e.g., Burlington N. R. Co. v. Ford, 504 U.S. 648, 653-54
(1992) (upholding against equal protection challenge state’s differing
venue rules for domestically incorporated corporations because legislature could have rationally concluded that many corporations are
headquartered in their state of incorporation and venue rule would
promote convenient litigation, despite many corporations not having
their principal place of business in their state of incorporation);
Vance v. Bradley, 440 U.S. 93, 106 (1979) (upholding Foreign Ser57

162a
vice’s mandatory 60-year retirement age because Congress could rationally believe that it promoted the maintenance of “a vigorous and
competent” Service, notwithstanding many people over 60 being
more “vigorous and competent” than many people under 60); Dandridge v. Williams, 397 U.S. 471, 486 (1970) (upholding state’s cap
on welfare awarded to families with dependent children because it
was rational to believe it would encourage families to seek employment, despite the fact that many such families contain “no person
who is employable”). Thus, even if JUDGE DUNCAN is correct that
some Indian children as classified by ICWA never ultimately join an
Indian tribe and that some Indian birth parents do not object to the
placement of their children with non-Indian families, this does not
mean that ICWA does not pass constitutional muster. It is enough
that Congress could have rationally believed that some Indian children would join a tribe and some Indian birth parents would object
to a non-Indian family placement.
Perhaps seeking to overcome this clear infirmity in its reasoning,
the opposing opinion makes much of the Supreme Court’s statement
in Adoptive Couple v. Baby Girl that it would “raise equal protection
concerns” to apply ICWA in a manner that “put certain vulnerable
children at a great disadvantage solely because an ancestor—even a
remote one—was an Indian.” DUNCAN, CIRCUIT JUDGE, OP. at 62,
70 (quoting 570 U.S. at 655). He contends that ICWA violates equal
protection principles because it allegedly disadvantages Indian children by making it more difficult for non-Indians to adopt them.
But the Court was merely cautioning in dictum that ICWA may be
vulnerable to an as-applied challenge in the rare situation in which
applying its classification to a specific set of facts is wholly irrational.
See City of Cleburne, Tex. v. Cleburne Living Ctr., 473 U.S. 432, 448
(1985) (holding that applying city ordinance to particular plaintiffs
violated equal protection because classification was irrational in that
specific instance). This is a different matter than Plaintiffs’ facial
challenge to the statute, which requires that the “challenger . . .
establish that no set of circumstances exists under which the Act
would be valid.” United States v. Salerno, 481 U.S. 739, 745 (1987).
“The fact that [ICWA] might operate unconstitutionally under some
conceivable set of circumstances is insufficient to render it wholly
invalid[.]” Id. Lastly, we reject JUDGE DUNCAN’s supposition
that the Indian children whom Plaintiffs seek to adopt would be put

163a
Further, ICWA is irrational in the scenarios that
JUDGE DUNCAN proposes only if we artificially cabin the
interests that ICWA may serve. But “it is entirely irrelevant for constitutional purposes whether the conceived reason for the challenged distinction actually motivated the legislature.” Id. And “a legislative choice
is not subject to courtroom fact-finding and may be
based on rational speculation unsupported by evidence
or empirical data.” Id. In other words, JUDGE DUNCAN errs by limiting his analysis to ICWA’s goals as he
narrowly defines them; any conceivable legitimate goal
may be grounds to sustain ICWA’s constitutionality so
long as one can rationally articulate a way in which the
law’s Indian child and family classifications would theoretically further it.
In this light, it is clear that ICWA’s classifications are
not irrational even in the situations JUDGE DUNCAN suggests. It is rational to think that ensuring that an Indian
child is raised in a household that respects Indian values
and traditions makes it more likely that the child will
eventually join an Indian tribe—thus “promot[ing] the
stability and security of Indian tribes,” 25 U.S.C. § 1902—
even when the child’s parents would rather the child be
placed with a non-Indian family. And we reject the notion that ICWA’s preference for Indian families treats
tribes as fungible. As Defendants point out, many contemporary tribes descended from larger historical bands
and continue to share close relationships and linguistic,
at “great disadvantage” by being placed in the care of an Indian relative or family pursuant to ICWA’s preferences. DUNCAN, CIRCUIT JUDGE, OP. at 68-70. That is a value-laden policy determination that courts are ill-equipped to make, especially without the type
of detailed fact-finding as to specific home placements that is largely
absent from the record before us.

164a
cultural, and religious traditions, so placing a child with
another Indian family could conceivably further the interest in maintaining the child’s ties with his or her tribe
or culture. See, e.g., Greg O’Brien, Chickasaws: The Unconquerable People, Mississippi History Now (September 23, 2020, 9:20 AM), https://mshistorynow.mdah.state.
ms.us/articles/8/chickasaws-the-unconquerable-people
(noting that, “[c]ulturally, the Chickasaws were (and
are) similar to the Choctaws; both groups spoke a nearly
identical language, their societies were organized matrilineally (meaning that ancestry was traced only through
the mother’s line), political power was decentralized so
that each of their seven or so villages had their own
chiefs and other leaders, and they viewed the sun as the
ultimate expression of spiritual power for its ability to
create and sustain life”). By providing a preference for
placing Indian children with a family that is part of a
formally recognized Indian political community that is
interconnected to the child’s own tribe, ICWA enables
that child to avail herself of the numerous benefits—
both tangible and intangible—that come from being
raised within this context. And even if this were not
the case, Congress could rationally conclude that placing an Indian child with a different tribe would fortify
the ranks of that other tribe, contributing to the continued existence of the Indian tribes as a whole. See
25 U.S.C. §§ 1901(3), 1902; Holyfield, 490 U.S. at 49.
In sum, § 1903(4)’s definition of an “Indian child” and
§ 1915(a)(3)’s Indian family preference can be rationally
linked to the trust relationship between the tribes and
the federal government, as well as to furthering tribal
sovereignty and self-government. They therefore do
not violate constitutional equal protection principles,

165a
and the district court erred by concluding otherwise. 58
See Mancari, 417 U.S. at 555.
C.

Nondelegation Doctrine

We next review Plaintiffs’ challenge to 25 U.S.C.
§ 1915(c) under the nondelegation doctrine. Article I of
the Constitution vests “[a]ll legislative Powers” in Congress. U.S. CONST. art. 1, § 1, cl. 1. “In a delegation challenge, the constitutional question is whether the statute
has” impermissibly “delegated legislative power.” Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 472 (2001).
Section 1915(c) allows Indian tribes to establish through
tribal resolution a different order of preferred placement than that set forth in § 1915(a) and (b). 59 Section
23.130 of the Final Rule provides that a tribe’s established placement preferences apply over those initially
specified in ICWA. 60 The district court determined
that these provisions violated the nondelegation doctrine, reasoning that § 1915(c) grants Indian tribes the
power to change legislative preferences with binding effect on the states and that Indian tribes are not part of

We similarly conclude that ICWA’s foster care preferences
survive rational basis review and thus do not violate equal protection.
59
The provision states: “In the case of a placement under subsection (a) or (b) of this section, if the Indian child’s tribe shall establish a different order of preference by resolution, the agency or
court effecting the placement shall follow such order so long as the
placement is the least restrictive setting appropriate to the particular needs of the child, as provided in subsection (b) of this section.”
25 U.S.C. § 1915(c).
60
“If the Indian child’s Tribe has established by resolution a different order of preference than that specified in ICWA, the Tribe’s
placement preferences apply.” 25 C.F.R. § 23.130.
58

166a
the federal government of the United States and therefore cannot exercise federal legislative or executive regulatory power over non-Indians on non-tribal lands.
As an initial matter, Defendants argue that the district court’s analysis of the constitutionality of these
provisions ignores the inherent sovereign authority of
tribes. They contend that § 1915(c) merely recognizes
and incorporates a tribe’s exercise of its inherent sovereignty over Indian children and therefore is not a delegation of authority from Congress. Ultimately, however, we need not decide whether the Indian tribes’ inherent sovereign authority extends to establishing
rights that can be conferred on its potential members in
state court proceedings because Congress can extend
tribal jurisdiction by delegating its power through an
“express authorization [in a] federal statute.” Strate v.
A-1 Contractors, 520 U.S. 438, 445 (1997); see also
United States v. Enas, 255 F.3d 662, 666-67 (9th Cir.
2001) (en banc) (explaining the “dichotomy between inherent and delegated power” and that “[w]hen Congress
bestows additional power upon a tribe—augments its
sovereignty, one might say—this additional grant of
power is referred to as ‘delegation’ ”); cf. Mazurie, 419
U.S. at 557 (“We need not decide whether this independent authority is itself sufficient for the tribes to impose
Ordinance No. 26. It is necessary only to state that the
independent tribal authority is quite sufficient to protect Congress’ decision to vest in tribal councils this portion of its own authority to ‘regulate Commerce . . .
with the Indian tribes.’ ”) (alterations in original).
As we have stated, Congress possesses the authority
to enact ICWA pursuant to its constitutional legislative

167a
power. See supra Discussion Part II.A. And the limitations on Congress’s ability to delegate its legislative
power are “less stringent in cases where the entity exercising the delegated authority itself possesses independent authority over the subject matter.” Mazurie,
419 U.S. at 556-57.
Such a rule may arguably be justified by the fact that
the Supreme Court has long recognized that Congress
may incorporate the laws of another sovereign into federal law without violating the nondelegation doctrine.
In United States v. Sharpnack, 355 U.S. 286, 293-94
(1958), for instance, the Supreme Court upheld a federal
statute that prospectively incorporated states’ criminal
law and made it applicable in federal enclaves within
each state, though the states, of course, lacked the power
to legislate in these enclaves. Rather than an impermissible delegation of Congress’s legislative power, the
Court reasoned that the law was a “deliberate continuing adoption by Congress” of state law as binding federal law. Id.; see also Gibbons v. Ogden, 22 U.S. (9
Wheat.) 1, 80 (1824) (“Although Congress cannot enable
a State to legislate, Congress may adopt the provisions
of a State on any subject.”); United States v. Palmer,
465 F.2d 697, 699-700 (6th Cir. 1972) (holding that the
incorporation of state law into 18 U.S.C. § 1955, which
prohibits operating an illegal gambling business and defines such an illicit business as one that violates state or
local law, does not violate the nondelegation doctrine).
This same reasoning applies to laws enacted by Indian
tribes, for “Indian tribes are unique aggregations possessing attributes of sovereignty over both their members and their territory.” Mazurie, 419 U.S. at 557; see
also S. Pac. Transp. Co. v. Watt, 700 F.2d 550, 556 (9th

168a
Cir. 1983) (determining that the Secretary of the Interior did not improperly subdelegate administrative authority by requiring tribal consent as a condition precedent to granting a right-of-way across tribal lands to a
railroad because the Secretary simply “incorporate[d]
into the decision-making process the wishes of a body
with independent authority over the affected lands”).
Section 1915(c) provides that a tribe may pass, by its
own legislative authority, a resolution reordering the
placement preferences set forth by Congress in § 1915(a)
or (b). Pursuant to this section, a tribe may assess, for
example, whether the most appropriate placement for
an Indian child is with members of the child’s extended
family, the child’s tribe, or other Indian families. It is
beyond debate that it would be within Indian tribes’ authority to set these same standards in tribal child custody proceedings. See, e.g., Fisher, 424 U.S. 390 (upholding exclusive tribal jurisdiction over adoption proceedings among tribal members located in Indian country); Montana, 450 U.S. at 564 (noting tribes’ “inherent
power to determine tribal membership [and] regulate
domestic relations among members”). And just as the
law at issue in Sharpnack incorporated the laws of a
state on a matter with respect to which the state was
authorized to legislate and applied it in an area in which
the state was not authorized to legislate, so § 1915(c) incorporates the law of Indian tribes on a matter within
the tribes’ jurisdiction and makes it applicable in an area
that might otherwise be beyond the tribes’ power to regulate. Thus, § 1915(c) can be characterized as a valid
“deliberate continuing adoption by Congress” of tribal
law as binding federal law. Sharpnack, 355 U.S. at 29394; 25 U.S.C. § 1915(c); 81 Fed. Reg. at 38,784 (statement
by the BIA noting that “through numerous statutory

169a
provisions, ICWA helps ensure that State courts incorporate Indian social and cultural standards into decisionmaking that affects Indian children”).
But § 1915(c)’s validity is not dependent solely on this
framing. Courts have frequently upheld delegations of
congressional authority to Indian tribes without reference to federal incorporation of their law. In United
States v. Mazurie, for example, the Supreme Court considered a federal law that allowed the tribal council of
the Wind River Tribes, with the approval of the Secretary of the Interior, to adopt ordinances to control the
introduction of alcoholic beverages by non-Indians on
privately owned land within the boundaries of the reservation. See 419 U.S. at 547, 557. As the Court later
explained, Congress indicated its intent to delegate authority to tribes in the statute’s requirement that liquor
transactions conform “ ‘with an ordinance duly adopted’
by the governing tribe.” Rice v. Rehner, 463 U.S. 713,
730-31 (1983) (quoting 18 U.S.C. § 1161) (examining the
same statute challenged in Mazurie). The Court ruled
that such a delegation of congressional power did not violate the nondelegation doctrine. Mazurie, 419 U.S. at
546, 557. Tribes possess “a certain degree of independent authority over matters” relating to their “internal
and social relations,” the Court reasoned, including the
“distribution and use of intoxicants” within the reservation’s bounds. Id. And this independent tribal authority provided Congress with a sufficient basis for
vesting in tribes Congress’s own power to regulate Indian affairs. Id.
Similarly, in Bugenig v. Hoopa Valley Tribe, the Ninth
Circuit, sitting en banc, determined that Congress had
expressly delegated authority to the Hoopa Valley Tribe

170a
to regulate conduct by nonmembers. See 266 F.3d
1201, 1223 (9th Cir. 2001) (en banc). In that case, the
Hoopa Tribe had ratified a constitution in 1972 stating
that the Tribe’s jurisdiction “extend[s] to all lands
within the confines of the” reservation and that the
Tribe could regulate “the use and disposition of property upon the reservation,” including by non-members.
Id. at 1212. Later, Congress passed a statute stating
that “existing gove[r]ning documents of the Hoopa Valley Tribe and the governing body established and
elected thereunder . . . are hereby ratified and confirmed.” Id. at 1207-08 (quoting 25 U.S.C. § 1300i-7).
The Tribe then passed a resolution prohibiting harvesting timber within a certain zone on the reservation. Id.
at 1208. Shortly after the resolution’s adoption, a nonmember purchased property in this zone and began
clearing its timber. Id. The Tribe attempted to enjoin her timber removal, arguing that Congress had
vested in it the authority to regulate within the reservation, regardless of ownership. Id. at 1209. The Ninth
Circuit agreed. Reading together the tribal constitution and the congressional enactment that “ratified and
confirmed” the Tribe’s governing documents, the court
found that Congress had “delegated authority to regulate all the lands within the” reservation, including those
owned by non-Indians. Id. at 1216. The court also determined that the delegation was valid because “Congress can delegate to Indian tribes those powers that
are within the sphere of the Indian Commerce Clause.”
Id. at 1223 n.12.
Like the statutes in Mazurie and Bugenig, § 1915(c)
contains an express delegation to tribes. See 25 U.S.C.
§ 1915(c) (permitting “the Indian child’s tribe” to alter
the order of placement preferences). And because the

171a
authority to alter placement preferences with respect to
specific tribes is within Congress’s power, Congress can
validly delegate this authority to Indian tribes. See
Buenig, 266 F.3d at 1223 n.12. Thus, Congress has validly “augment[ed]” tribal power by delegating additional
authority via § 1915(c). Enas, 255 F.3d at 667.
JUDGE DUNCAN presents two arguments as to why
§ 1915(c) violates nondelegation principles. First, he
contends that the provision delegates Congress’s core
legislative power and thereby violates the bicameralism
and presentment requirements that Congress must adhere to when enacting law. DUNCAN, CIRCUIT JUDGE,
OP. at 110-11. Second, he argues that, even if § 1915(c)
is construed as a delegation of regulatory authority, it
violates nondelegation principles because it entrusts the
authority to a party outside the federal government.
DUNCAN, CIRCUIT JUDGE, OP. at 112. Neither contention is ultimately persuasive. . At the threshold, we note
that JUDGE DUNCAN takes up the contention that
§ 1915(c) specifically violates bicameralism and presentment wholly sua sponte; no party or amicus raised it in
the district court, before the panel, or in en banc briefing. 61 This is likely because the nondelegation doctrine
The district court also did not raise or pass on this issue. We
ordinarily do not consider issues in this posture. See Burell v. Prudential Ins. Co. of Am., 820 F.3d 132, 140 (5th Cir. 2016) (“To preserve
an argument, it must be raised to such a degree that the district
court has an opportunity to rule on it.” (cleaned up)); Firefighters’
Ret. Sys. v. EisnerAmper, L.L.P., 898 F.3d 553, 561 (5th Cir. 2018)
(“It is the general rule, of course, that a federal appellate court does
not consider an issue not passed upon below.” (internal quotation
marks omitted)). Moreover, “[i]n our adversarial system of adjudication, we follow the principle of party presentation . . . ‘[I]n the
first instance and on appeal . . . , we rely on the parties to frame
61

172a
already provides that Congress may not delegate to
other actors the core legislative power that would be
subject to the bicameralism and presentment requirements, see Loving v. United States, 517 U.S. 748, 758
(1996), and thus the nondelegation inquiry, already accounts for bicameralism and presentment. See John F.
Manning, The Nondelegation Doctrine as a Canon of
Avoidance, 2000 Sup. Ct. Rev. 223, 240 (2000) (“The nondelegation doctrine protects [important] interests by
forcing specific policies through the process of bicameralism and presentment[.]”); see also Jackson v. Stinnett,
102 F.3d 132, 135 n.3 (5th Cir. 1996) (rejecting a reading
of a statute that would “approach[] a violation of the Presentment Clause and the nondelegation doctrine” (emphasis added)). In a nondelegation challenge, the nondelegation question both subsumes and precedes the
presentment and bicameralism questions, rending those
latter inquiries superfluous.
Bicameralism and presentment are only separately
implicated—to the exclusion of nondelegation—when
Congress devises a scheme by which it (or its legislative
agent) purports to enact law through a process other
than that prescribed by Article I, Section 7 of the Constitution. “Absent retained congressional veto power
or other such retained authority . . . which is ‘legislative in its character and effect,’ the presentment clauses
are not [separately] implicated and the only question is
one involving the delegation doctrine.” United States
v. Scampini, 911 F.2d 350, 352 (9th Cir. 1990) (quoting
the issues for decision and assign to courts the role of neutral arbiter
of matters the parties present.’ ” United States v. Sineneng-Smith,
140 S. Ct. 1575, 1579 (2020) (third set of alterations in original) (quoting Greenlaw v. United States, 554 U.S. 237 (2008)).

173a
INS v. Chadha, 462 U.S. 919, 952 (1983)) (internal citation omitted); see also Metro. Washington Airports
Auth. v. Citizens for Abatement of Aircraft Noise, Inc.,
501 U.S. 252, 276 (1991) (“Congress cannot exercise its
legislative power to enact laws without following the bicameral and presentment procedures specified in Article I.” (emphasis added)). An arrangement in which
specifically Congress or its agents attempt to enact legislation through an unconstitutional process is the only
situation that can give rise to a procedural violation of
bicameralism or presentment without also implicating
nondelegation; it is still Congress that is purporting to
enact law but doing so without complying with constitutionally mandated procedures. In light of this framing,
it makes sense that the Supreme Court has consistently
performed only a nondelegation analysis when examining challenges to the vesting of power in parties other
than Congress or its agents. See, e.g., Mazurie, 419
U.S. at 556-58; Loving, 517 U.S. at 758; Am. Trucking
Ass’ns, 531 U.S. at 472-76; Mistretta v. United States,
488 U.S. 361, 371-79 (1989). Neither Congress nor its
agents are involved in the tribal resolution contemplated
by § 1915(c). The cases JUDGE DUNCAN relies upon addressing the procedures Congress must use when enacting legislation are therefore of little relevance to the
present case. E.g., Chadha, 462 U.S. at 959, Clinton v.
City of New York, 524 U.S. 417, 447-48 (1998); Metro.
Washington Airports Auth. 501 U.S. at 276.
Evaluated under the proper rubric, § 1915(c) does not
represent an invalid delegation. As to JUDGE DUNCAN’s first contention, he appears to argue that § 1915(c)
implicates the core legislative power because Congress,
in setting a default rule that tribes may alter under
congressionally-defined circumstances, has effectively

174a
permitted the tribes to “change specifically enacted
Congressional priorities.” DUNCAN, CIRCUIT JUDGE,
OP. at 109. We note the counterintuitive nature of the
opposing opinion’s proposed holding that Congress delegates too much discretion when it provides some guidance and exercises some control over an issue by setting
a default standard rather than leaving the implementation of a statute entirely to the delegee’s discretion.
Moreover, countless other federal statutes set a default
standard that applies unless another party chooses to
act, and these laws often grant the delegee far more
power to negate the normal functioning of federal law
than does § 1915(c). See, e.g., 16 U.S.C. § 1536 (permitting an Endangered Species Committee made up of
high-ranking executive branch officials to suspend the
otherwise applicable requirements of the Endangered
Species Act for particular projects); 7 U.S.C. § 136p (allowing the Environmental Protection Agency (EPA) to
exempt state and federal agencies from the Federal Insecticide, Fungicide and Rodenticide Act); 43 U.S.C.
§ 1652 (permitting the Secretary of the Interior and
other federal officials to “waive any procedural requirements of law or regulation which they deem desirable to
waive in order to” construct the Trans-Alaska Pipeline);
42 U.S.C. § 1315 (permitting states, with approval from
the Department of Health and Human Services, to customize their Medicaid programs in ways that would otherwise violate the Social Security Act). Indeed, many
federal statutes specifically delegate to another, separate sovereign the authority to alter the federal standard in matters related to the sovereign’s jurisdiction.
See, e.g., 20 U.S.C. § 1415(b)(6)(B) (providing that the
statute of limitation for bringing an administrative claim
under the Individuals with Disabilities Education Act is

175a
two-years “or, if the State has an explicit time limitation
for presenting such a complaint under this subchapter,
in such time as the State law allows”); 11 U.S.C. § 522
(permitting state law to alter the default property exemptible from a bankruptcy estate); 12 U.S.C. § 2279aa12(b)(2) (permitting states to enact law overriding exemption from state registration and qualification laws
for securities guaranteed by the Federal Agricultural
Mortgage Corporation); 42 U.S.C. § 14503(a), (e) (exempting nonprofit and governmental entities from liability for the acts of volunteers but allowing state law to
override exemption in several specific ways). 62 Courts
have repeatedly affirmed Congress’s authority to allow
another party to override the federal default for specific
applications of a law without violating nondelegation
principles. See, e.g., Am. Fuel & Petrochemical Mfrs.
v. EPA, 937 F.3d 559, 578 (D.C. Cir. 2019), cert. denied
JUDGE DUNCAN attempts to distinguish between laws that permit another party to waive statutory requirements and those that
permit a party to “re-write enacted statutes.” DUNCAN, CIRCUIT
JUDGE, OP. at 111. n.149. But the opposing opinion offers no reasoned analysis as to why a waiver, which effectively deletes text from
a statute for specific applications of the law or adds text establishing
specific exceptions to a statutory regime, is less of a “rewrit[ing of ]
enacted statutes” than the reordering of the placement preferences
for limited applications of ICWA that the statute authorizes Indian
tribes to bring about. This failing is particularly apparent in
JUDGE DUNCAN’s handling of the cited federal laws that permit another sovereign to override a statutory default, just as ICWA does
here. DUNCAN, CIRCUIT JUDGE, OP. at 113 n.150. Simply repeating the phrase “alter the text” is no substitute for meaningfully distinguishing these laws, and the opposing opinion does nothing to explain how § 1915(c) authorizes “alter[ing] the text” of a statute any
more than the myriad other federal laws cited here that permit a
party other than Congress to change a statute’s functioning for certain limited applications.
62

176a
sub nom. Valero Energy Corp. v. EPA, 140 S. Ct. 2792
(2020) (mem.) (upholding against nondelegation challenge law permitting the EPA to alter otherwise statutorily mandated renewable fuel quotas); Defs. of Wildlife v. Chertoff, 527 F. Supp. 2d 119, 124 (D.D.C. 2007)
(noting that permitting executive officials to waive environmental laws for limited purposes does not violate
nondelegation where it did not “alter the text of any
statute, repeal any law, or cancel any statutory provision” because the statute itself “retains the same legal
force and effect as it had when it was passed by both
houses of Congress and [was] presented to the President”); In re Border Infrastructure Envtl. Litig., 284
F. Supp. 3d 1092, 1140 (S.D. Cal. 2018), aff ’d, 915 F.3d
1213 (9th Cir. 2019), cert. denied sub nom. Animal Legal
Def. Fund v. Dep’t of Homeland Sec., 139 S. Ct. 594
(2018) (same).
JUDGE DUNCAN’s second contention—that Congress
may not delegate authority of any sort to a party outside
the federal government—is also easily disposed of.
Whether framed as a prospective incorporation of another sovereign’s law or a delegation of regulatory authority, the Supreme Court has long approved of federal
statutes that permit another sovereign to supply key aspects of the law, including an explicit delegation of authority to the Indian tribes. See Mazurie, 419 U.S. at
556-57; Gibbons, 22 U.S. (9 Wheat.) at 80, Wilkerson v.
Rahrer, 140 U.S. 545, 562 (1891) (“[W]hile the legislature cannot delegate its power to make a law, it can make
a law which leaves it to municipalities or the people to
determine some fact or state of things, upon which the
action of the law may depend.”). But see Knickerbocker
Ice Co. v. Stewart, 253 U.S. 149, 164 (1920) (holding that

177a
Congress may not delegate to the states its exclusive authority over admiralty and maritime law because the
Constitution specifically entrusts that power to Congress to maintain nationwide uniformity). Indeed, the
Supreme Court itself routinely looks to the law of other
sovereigns to fill in important aspects of federal statutes. In the context of a § 1983 claim, for instance, analogous state personal injury torts supply, inter alia, the
statute of limitations in which the federal claim may be
brought. See Wallace v. Kato, 549 U.S. 384, 387 (2007)
(“Section 1983 provides a federal cause of action, but in
several respects relevant here federal law looks to the
law of the State in which the cause of action arose.”).
The inescapable message of these long-standing statutes and Supreme Court precedents is clear: Congress
does not invalidly delegate regulatory power simply because it prospectively incorporates into federal law the
decision-making of another sovereign on a matter within
Cf. Kentucky Div.,
that sovereign’s jurisdiction. 63
Horsemen’s Benev. & Protective Ass’n, Inc. v. Turfway
Park Racing Ass’n, Inc., 20 F.3d 1406, 1417 (6th Cir.
1994) (“[T]he separation of powers principle and, a fortiori, the nondelegation doctrine, simply are not implicated by Congress’ ’delegation’ of power to the States.”).
It is thus unsurprising that JUDGE DUNCAN offers no
binding precedent to support a rule that regulatory

Even if the Indian tribes were not sovereigns in their own right,
it does not necessarily follow that incorporating their decisionmaking into federal law would violate the nondelegation doctrine, as
the Supreme Court has historically upheld even delegations of authority to private entities against such challenges. See Currin v.
Wallace, 306 U.S. 1, 1 (1939); United States. v. Rock Royal Co-op.,
307 U.S. 533, 577-78 (1939).
63

178a
power cannot be delegated outside the federal government, relying entirely on concurrences and secondary
sources for his novel approach. See DUNCAN, CIRCUIT
JUDGE, OP. at 112. And, because he offers no explanation or limiting principle to differentiate the present
case from those cited above, one is struck by the sheer
breadth of the opposing proposed opinion’s holding,
which would likely render myriad federal laws invalid
and conflict with binding Supreme Court precedents.
See, e.g., Mazurie, 419 U.S. at 556-57.
In sum, § 1915(c) validly integrates tribal sovereigns’
decision-making into federal law, regardless of whether
it is characterized as a prospective incorporation of
tribal law or an express delegation by Congress under
its Indian affairs authority. Accordingly, § 1915(c)
does not violate the nondelegation doctrine. 64
D.

The Final Rule

The district court held that, to the extent §§ 23.106 to
23.122, 23.124 to 23.132, and 23.140 to 23.141 of the Final
Rule were binding on State Plaintiffs, they violated the
Because we would not hold that any provision of ICWA is unconstitutional, a severability analysis is unnecessary. However,
even if we were to conclude that certain portions of ICWA violate
the Constitution, we would hold that ICWA’s severability clause,
25 U.S.C. § 1963, is fully enforceable, meaning that only those specific provisions of the law that are unconstitutional are invalid and
the remainder of the statute remains in full effect. See Seila Law
LLC v. Consumer Fin. Protect. Bureau, 140 S. Ct. 2183, 2209 (2020)
(“When Congress has expressly provided a severability clause, our
task is simplified. We will presume that Congress did not intend
the validity of the statute in question to depend on the validity of
the constitutionally offensive provision unless there is strong evidence that Congress intended otherwise.” (internal quotation and
ellipses omitted)).
64

179a
APA for three reasons: the provisions (1) purported to
implement an unconstitutional statute; (2) exceeded the
scope of the Interior Department’s statutory authority
to implement ICWA; and (3) reflected an impermissible
construction of § 1915. Reviewing the district court’s
legal conclusions de novo, we conclude that the Final
Rule does not contravene the APA. Fath v. Texas
Dep’t of Transp., 924 F.3d 132, 136 (5th Cir. 2018).
1.

The Constitutionality of ICWA

Because we conclude, for reasons discussed earlier in
this opinion, that the challenged provisions of ICWA are
constitutional, we also determine that the district court
erred by concluding that the Final Rule was invalid because it implemented an unconstitutional statute. Thus,
the statutory basis for the Final Rule is constitutionally
valid.
2.

The Scope of the BIA’s Authority

Congress authorized the Secretary of the Interior to
promulgate “rules and regulations as may be necessary
to carry out the provisions” of ICWA. 25 U.S.C. § 1952.
Pursuant to this provision, the BIA, acting under authority delegated by the Interior Department, issued
guidelines in 1979 for state courts in Indian child custody proceedings that were “not intended to have binding legislative effect.” 44 Fed. Reg. at 67,584. The
BIA explained that, generally, “when the Department
writes rules needed to carry out responsibilities Congress has explicitly imposed on the Department, those
rules are binding.” Id. However, when “the Department writes rules or guidelines advising some other
agency how it should carry out responsibilities explicitly
assigned to it by Congress, those rules or guidelines are

180a
not, by themselves, binding.” Id. With respect to
ICWA, the 1979 BIA did not interpret the language and
legislative history of 25 U.S.C. § 1952 to indicate that
Congress intended the BIA to supervise state judiciaries, and it noted that enacting federal regulations that
were primarily applicable in state court proceedings
would raise federalism concerns. Id. The agency concluded that such binding regulations were “not necessary” in any event because the BIA then believed that
state courts were “fully capable” of honoring the rights
created by ICWA. Id.
In 2016, however, the BIA changed course and issued
the Final Rule, which, in an effort to bring about greater
uniformity in Indian child custody cases, sets binding
standards governing the rights of Indian children,
families, and tribes in such proceedings. See 25 C.F.R.
§§ 23 et seq.; 81 Fed. Reg. at 38,779, 38,785. The BIA
explained that its earlier, nonbinding guidelines were
“insufficient to fully implement Congress’s goal of nationwide protections for Indian children, parents, and
Tribes.” 81 Fed. Reg. at 38,782. Without the Final
Rule, the BIA stated, state-by-state determinations
about how to implement ICWA would continue to result
in widely differing standards of protection “with potentially devastating consequences” for the Indian populations that ICWA was intended to benefit. See id.
Echoing the district court’s reasoning, Plaintiffs argue that the BIA did not provide a sufficient explanation
for its change in position regarding its authority to issue
binding regulations. It is not clear, however, whether
they also contend that, regardless of the adequacy of the
explanation for the new position, the BIA simply lacks

181a
authority under § 1952 to promulgate binding regulations. In any event, we assume Plaintiffs properly present both challenges. As to the latter argument that
the BIA lacks authority under ICWA to issue binding
regulations, we employ the familiar framework set forth
in Chevron, U.S.A., Inc. v. Natural Res. Def. Council,
Inc., 467 U.S. 837, 842-43 (1984). Under Chevron, we
review “an agency’s construction of the statute which it
administers,” by asking “two questions.” Id. at 842.
First, we must examine whether the statute is ambiguous. Id. “If the intent of Congress is clear, that is the
end of the matter; for the court, as well as the agency,
must give effect to the unambiguously expressed intent
of Congress.” Id. at 842-43. But “if the statute is silent or ambiguous with respect to the specific issue, the
question for the court is whether the agency’s answer is
based on a permissible construction of the statute.” Id.
at 843. We must uphold an agency’s reasonable interpretation of an ambiguous statute. Id. at 844.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the Department authority to promulgate rules and regulations that
implement private rights that state courts must honor.
In stating that “the Secretary shall promulgate such
rules and regulations as may be necessary to carry out
the provisions of this chapter,” the text of § 1952 confers
broad authority on the Department to promulgate rules
and regulations it deems necessary to carry out ICWA.
This language clearly grants the BIA the authority to
promulgate standards that are binding upon all parties;
this is inherent in the statute’s use of the term “rules,”
for a rule is not a rule if it can be disregarded at will.
Still, the Final Rule does place a duty on state courts to
respect the rights it implements, which we will grant is

182a
somewhat unusual in the world of administrative law.
See 81 Fed. Reg. 38,778. Because it may be arguable
that “Congress has not directly addressed the precise
question at issue”—that is, whether the BIA is authorized to promulgate rules and regulations that effectively
bind state courts—we will assume arguendo that § 1952
is ambiguous on the subject. See Chevron, 467 U.S. at
843.
The BIA’s interpretation of § 1952 is valid under the
second Chevron step because it is a reasonable construction of the statute. See 467 U.S. at 843-44. As Defendants point out, § 1952’s language is substantively
identical to other statutes conferring broad delegations
of rulemaking authority. Indeed, the Supreme Court
has held that “[w]here the empowering provision of a
statute states simply that the agency may ‘make . . .
such rules and regulations as may be necessary to carry
out the provisions of this Act’ . . . the validity of a
regulation promulgated thereunder will be sustained so
long as it is reasonably related to the purposes of the
enabling legislation.” Mourning v. Family Publ’ns
Serv., Inc., 411 U.S. 356, 369 (1973) (quoting 42 U.S.C.
§ 1408) (cleaned up); see also City of Arlington v. F.C.C.,
569 U.S. 290, 306 (2013) (noting a lack of “case[s] in
which a general conferral of rulemaking or adjudicative
authority has been held insufficient to support Chevron
deference for an exercise of that authority within the
agency’s substantive field”); AT&T Corp. v. Iowa Utils.
Bd., 525 U.S. 366, 377-78 (1999) (determining that the
Federal Communications Commission had authority to issue regulations based on statutory language permitting
the agency to “prescribe such rules and regulations as
may be necessary in the public interest to carry out” the
statute). Here, § 1952’s text is nearly identical to the

183a
statutory language at issue in Mourning, and the Final
Rule’s binding standards for Indian child custody proceedings are obviously related to ICWA’s purpose of establishing minimum federal standards in child custody
proceedings involving Indian children. See 25 U.S.C.
§ 1902. Thus, the BIA was reasonable in interpreting
§ 1952 to confer on it the authority to promulgate the
Final Rule.
Neither Plaintiffs nor JUDGE DUNCAN argues that
setting binding standards for child custody proceedings
is unrelated to ICWA’s purpose, for clearly it is not.
Instead, Plaintiffs and JUDGE DUNCAN primarily contend that the BIA reversed its position without providing an adequate explanation. 65
We must note the conceptual difference between the
Chevron inquiry, which asks whether an agency’s substantive interpretation of a statute is a reasonable one,
Like with Plaintiffs, it is not clear whether JUDGE DUNCAN separately argues that, regardless of the adequacy of the explanation
given for the change, it is unreasonable in the first instance for the
BIA to interpret § 1952 to authorize the Final Rule because Congress could not have intended to allow the agency to set standards
applicable in state courts. But any such argument would simply be
inconsistent with the Supreme Court’s holdings in Mourning and
related cases regarding the breadth of authority delegated by
broadly worded rules-enabling statutes. Under these precedents,
so long as a rule is reasonably related to the statute’s purpose, it is
not unreasonable to interpret the BIA’s delegated authority to encompass it. See Mourning, 411 U.S. at 369. Moreover, Congress
clearly considered it to be within its power to set standards applicable in child custody proceedings, as there is no dispute that many
provisions of ICWA do precisely that. There is thus no reason to
presume that Congress would implicitly exclude such authority from
its broad authorization to the BIA to promulgate rules it deems necessary to ICWA’s implementation.
65

184a
and the procedural question of whether an agency provided an adequate explanation for its decision to switch
from one statutory interpretation to another.
See
Nat’l Cable & Telecomms. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 1001 n.4 (2005) (noting that any inconsistency in an agency’s explanation for changing
course “bears on whether the [agency] has given a reasoned explanation for its current position, not on whether
its interpretation is consistent with the statute”). To
be sure, there are situations where the procedures by
which an agency adopts a new statutory interpretation
—including whether the agency provided a reasoned explanation for changing its position—may be relevant to
whether a court should defer to an agency’s interpretation of a statute. More specifically, when it is necessary for a court to interpret a statute committed to an
agency’s implementation, Chevron deference may be
withheld if the agency failed to adequately explain why
it shifted to its current interpretation. Cf. Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2125 (2016).
But the Chevron framework is inapposite where a plaintiff directly challenges an agency rulemaking as violating the APA—as opposed to the statute that is being
interpreted—because the agency arbitrarily departed
from a prior statutory interpretation. When a plaintiff
merely argues that an agency violated the APA by not
providing sufficient reasons for its change of position, it
is unnecessary for a court to actually decide whether the
new statutory interpretation is correct to resolve the
question; indeed, an agency can violate the APA by
switching to a statutory interpretation that is wholly
reasonable under Chevron if it does so without providing
an adequate explanation for the change. See Brand X,
545 U.S. at 1001 (stating that an agency “is free within

185a
the limits of reasoned interpretation to change course if
it adequately justifies the change” (emphasis added));
5 U.S.C. § 706(2)(A), (C) (calling for courts to separately
evaluate whether an agency action is arbitrary and capricious and whether an agency action is in excess of
statutory authority). And because there is no need to
interpret the statute when the challenge is only to the
adequacy of an agency’s explanation for its changed position, there is no need to determine whether to defer to
the agency’s new interpretation under Chevron.
JUDGE DUNCAN therefore errs by characterizing the
question of whether the BIA provided an adequate explanation for its changed position as a component of
Chevron step two.
Moreover, we disagree that the BIA failed to provide
an adequate explanation for its change of course. “The
mere fact that an agency interpretation contradicts a
prior agency position is not fatal. Sudden and unexplained change, or change that does not take account of
legitimate reliance on prior interpretation, may be arbitrary, capricious [or] an abuse of discretion. But if these
pitfalls are avoided, change is not invalidating, since the
whole point of Chevron is to leave the discretion provided by the ambiguities of a statute with the implementing agency.” Smiley v. Citibank (S. Dakota), N.A.,
517 U.S. 735, 742 (1996) (internal citations and quotation
marks omitted). The agency must provide a “reasoned
explanation” for its new policy, but “it need not demonstrate to a court’s satisfaction that the reasons for the
new policy are better than the reasons for the old one.”
F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502, 515
(2009). “[I]t suffices that the new policy is permissible
under the statute, that there are good reasons for it, and

186a
that the agency believes it to be better, which the conscious change of course adequately indicates.” Id.
In the preamble to the Final Rule, the BIA directly
addressed its reasons for departing from its earlier interpretation that it had no authority to promulgate binding regulations applicable in child custody proceedings.
The agency explained that, contrary to its previous position that nothing in the text of the statute indicated a
congressional intent to authorize such binding regulations, Supreme Court precedent established that the
text of § 1952 conferred “a broad and general grant of
rulemaking authority” and “presumptively authorize[s
the] agenc[y] to issue rules and regulations addressing
matters covered by the statute.” 81 Fed. Reg. at
38,785 (collecting Supreme Court cases). The BIA also
justified its determination that ICWA granted it the authority to promulgate binding regulations based on having “carefully considered public comments on the issue”
and, in light of this commentary, having reconsidered
and rejected its statements in 1979 that it lacked such
authority. See id. at 38,785-86. And the BIA directly
responded to the federalism concerns raised in 1979 and
by present-day commentators. It explained that such
concerns were misplaced because the Constitution conferred upon Congress plenary power over Indian affairs
and that, when “a power is delegated to Congress in the
Constitution, the Tenth Amendment expressly disclaims
any reservation of that power to the States.” Id. at
38,789 (internal quotation marks omitted) (quoting New
York, 505 U.S. at 156). Because Congress’s plenary
power authorized it to enact ICWA and because Congress had validly delegated authority to the BIA in
§ 1952 to implement ICWA, the agency determined that

187a
the Final Rule did not unconstitutionally encroach on
state authority. See id.
Further, the BIA discussed why it now considered
binding regulations necessary to implement ICWA: In
1979, the BIA “had neither the benefit of the Holyfield
Court’s carefully reasoned decision nor the opportunity
to observe how a lack of uniformity in the interpretation
of ICWA by State courts could undermine the statute’s
underlying purposes.” 81 Fed. Reg. at 38,787. In Miss.
Band of Choctaw Indians v. Holyfield, the Supreme
Court considered the meaning of the term “domicile” in
25 U.S.C. § 1911, which ICWA left undefined and the
BIA left open to state interpretation under its 1979
Guidelines. 490 U.S. at 43, 51. “Section 1911 lays out
a dual jurisdictional scheme” in which tribal courts have
exclusive jurisdiction over custody proceedings concerning an Indian child “who resides or is domiciled within the
reservation of ” her tribe, whereas state courts have concurrent jurisdiction with tribal courts “in the case of
children not domiciled on the reservation.” Id. at 36.
The Court held that “it is most improbable that Congress would have intended to leave the scope of the statute’s key jurisdictional provision subject to definition by
state courts as a matter of state law,” given that “Congress was concerned with the rights of Indian families
vis-à-vis state authorities” and considered “States and
their courts as partly responsible for the problem it intended to correct” through ICWA. Id. at 45. Because
Congress intended for ICWA to address a nationwide
problem, the Court determined that the lack of nationwide uniformity resulting from varied state-law definitions of this term frustrated Congress’s intent. Id.

188a
The Court’s reasoning in Holyfield applies with equal
force here. Congress’s concern with safeguarding the
rights of Indian families and communities was not limited to § 1911 but rather extended to all provisions of
ICWA. Thus, as the BIA explained, the provisions of
ICWA that the statute left open to state interpretation
in 1979, including many that Plaintiffs now challenge,
were subject to the same lack of uniformity the Supreme
Court identified as contrary to Congress’s intent in
Holyfield. 81 Fed. Reg. at 38,779, 38,782 (explaining
that the result of “conflicting State-level” interpretations of ICWA “is that many of the problems Congress
intended to address by enacting ICWA persist today”).
In view of Holyfield and “37 years of real-world ICWA
application,” id. at 38,786, the BIA concluded that issuing binding rules for child custody proceedings was
“necessary to carry out the provisions” of ICWA, an authority that was included in Congress’s broad grant of
rulemaking authority under § 1952. The BIA thus supplied a “reasoned explanation” for reversing its earlier
position on its need and authority to issue binding regulations, Fox Television Stations, 556 U.S. at 515.
JUDGE DUNCAN’s belief that ICWA is inconsistent
with principles of federalism suffuses his critique of the
BIA’s explanation for its change of interpretation. Because the BIA’s prior interpretation was constitutionally permissible and its new interpretation is not, he appears to argue, Congress could not have intended the
new interpretation, and whatever explanation the BIA
provided for the change was therefore inadequate. See
DUNCAN, CIRCUIT JUDGE, OP. at 120-22. For the reasons discussed above with respect to ICWA’s statutory
provisions, we disagree that the BIA’s new interpretation of its § 1952 authority violates the Constitution.

189a
But more importantly, in judging the adequacy of the
BIA’s explanation, it does not necessarily matter whether
the BIA’s new interpretation is actually constitutional,
nor even whether Congress in fact intended § 1952 to
confer authority to promulgate rules that would be binding in state court proceedings. These questions are
relevant only to whether the BIA’s new interpretation
of § 1952 is a substantively reasonable interpretation
and a constitutional application of the statute, which,
again, are separate questions from the procedural matter of whether the agency gave a sufficient explanation
for its decision to change course.
When specifically examining whether an agency met
the procedural requirement that it provide an adequate
explanation, all that is necessary is a “minimal level of
analysis” from which the agency’s reasoning may be discerned, Encino Motorcars, 136 S. Ct. at 2125—regardless
of whether the court finds the reasoning fully persuasive. In other words, the agency decision must simply
be non-arbitrary. When an agency “display[s] awareness that it is changing position” and provides coherent
reasons for doing so, the test is satisfied. Id. at 2126.
Here, it is enough that the BIA “believe[d]” its prior interpretation of § 1952 to be an incorrect reflection of
Congressional intent and set forth its reasons for thinking so. Fox Television Stations, 556 U.S. at 515. The
same is true for the BIA’s reasoned determination that
its issuance of binding regulations does not pose federalism problems. It does not matter to this inquiry whether a court thinks the agency’s interpretation or legal
analysis is incorrect, nor that a court disagrees with the
agency’s decision as a policy matter. See id.; cf. DUNCAN,
CIRCUIT JUDGE, OP. at 123 (arguing that conflicting state
court decisions were not numerous and long-standing

190a
enough to justify issuing regulations to enforce uniformity).
Contrary to Plaintiffs’ contentions, the BIA explained why it changed its interpretation of § 1952 and
why it believed the Final Rule was needed based on its
years of study and public outreach. See 81 Fed. Reg.
38,778-79, 38,784-85. In promulgating the rule, the
BIA relied on Supreme Court precedent, its own expertise in Indian affairs, its specific experience in administering ICWA and other Indian child-welfare programs,
state interpretations and best practices, 66 public hearings, and tribal consultations. See id. Thus, the BIA’s
change of course was not “arbitrary, capricious, [or]
an abuse of discretion” because it was not sudden
and unexplained. See Smiley, 517 U.S. at 742; 5 U.S.C.
§ 706(a)(2). The district court’s contrary conclusion
was error.
3.

The BIA’s Construction of § 1915

Title 25 U.S.C. § 1915 sets forth preferences for the
placement of Indian children unless good cause can be
shown to depart from them. 25 U.S.C. § 1915(a)-(b).
The 1979 Guidelines advised that the term “good cause”
in § 1915 “was designed to provide state courts with flexibility in determining the disposition of a placement proceeding involving an Indian child.” 44 Fed. Reg. at
67,584. However, § 23.132(b) of the 2016 Final Rule,
now specifies that “[t]he party seeking departure from
[§ 1915’s] placement preferences should bear the burden
Since ICWA’s enactment in 1978, several states have incorporated the statute’s requirements into their own laws or have enacted detailed procedures for their state agencies to collaborate
with tribes in child custody proceedings.
66

191a
of proving by clear and convincing evidence that there is
‘good cause’ to depart from the placement preferences.”
25 C.F.R. § 23.132(b). The district court determined
that Congress unambiguously intended the ordinary
preponderance-of-the-evidence standard to apply and
that the BIA’s imposition of a higher standard was
therefore not entitled to Chevron deference.
Defendants contend that the Final Rule’s clarification of the meaning of “good cause” and imposition of a
clear-and-convincing-evidence standard are entitled to
Chevron deference. Plaintiffs respond that the Final
Rule’s fixed definition of “good cause” is contrary to
ICWA’s intent to provide state courts with flexibility.
We conclude that the BIA’s interpretation of § 1915
is entitled to Chevron deference. For purposes of Chevron step one, the statute is silent with respect to which
evidentiary standard applies. See 25 U.S.C. § 1915; Chevron, 467 U.S. at 842. The district court relied on the canon
of expressio unius est exclusio alterius (“the expression
of one is the exclusion of others”) in deciding that Congress unambiguously intended that a preponderance-ofthe-evidence standard was necessary to show good
cause under § 1915. The court reasoned that, because
Congress specified a heightened evidentiary standard in
other provisions of ICWA but did not do so with respect
to § 1915, Congress did not intend for the heightened
clear-and-convincing-evidence standard to apply. This
was error.
“When interpreting statutes that govern agency action, . . . a congressional mandate in one section and
silence in another often suggests not a prohibition but
simply a decision not to mandate any solution in the sec-

192a
ond context, i.e., to leave the question to agency discretion.” Catawba Cty. v. E.P.A., 571 F.3d 20, 36 (D.C.
Cir. 2009) (internal quotation marks omitted) (quoting
Cheney R.R. Co. v. ICC, 902 F.2d 66, 69 (D.C. Cir. 1990));
accord In Defense of Animals v. United States Dep’t of
the Interior, 751 F.3d 1054, 1066 n.20 (9th Cir. 2014)
(same); see also Texas Office Pub. Util. Counsel v. F.C.C.,
183 F.3d 393, 443 (5th Cir. 1999) (noting that the expressio unius canon is of “limited usefulness . . . in the
administrative context”). “[T]hat Congress spoke in
one place but remained silent in another, as it did here,
rarely if ever suffices for the direct answer that Chevron
step one requires.” Catawba Cty. v. E.P.A., 571 F.3d
at 36 (internal quotation marks and citation omitted);
see also Adriondack Med. Ctr. v. Sebelius, 740 F.3d 692
(D.C. Cir. 2014) (“The expressio unius canon is a ‘feeble
helper in an administrative setting, where Congress is
presumed to have left to reasonable agency discretion
questions that it has not directly resolved.’ ” (quoting
Cheney R.R. Co., 902 F.2d at 68-69)); Tex. Rural Legal
Aid, Inc. v. Legal Servs. Corp., 940 F.2d 685, 694 (D.C.
Cir. 1991) (“Under Chevron, we normally withhold deference from an agency’s interpretation of a statute only
when Congress has directly spoken to the precise question at issue, and the expressio canon is simply too thin
a reed to support the conclusion that Congress has clearly
resolved this issue.” (internal quotation marks and citations omitted)).
JUDGE DUNCAN argues that there is no indication
that Congress intended to require a heightened standard of proof for § 1915. DUNCAN, CIRCUIT JUDGE, OP.
at 125-26. But this misses the point. The question is
not whether Congress intended to require a heightened
standard, but rather whether it intended to prohibit one.

193a
The statute is silent as to the matter, and when “the statute is silent . . . with respect to the specific issue,”
we assume that Congress delegated the matter to agency
discretion and proceed to Chevron step two. 67 Chevron, 467 U.S. at 842.
Under Chevron step two, the BIA’s determination as
to the applicable evidentiary standard is reasonable.
See Chevron, 467 U.S. at 844. As stated, the broad
grant of rule-making authority in § 1952 permits the
BIA to enact rules that are not foreclosed by statute “so
long as [they are] reasonably related to the purposes of
the enabling legislation.” Mourning, 411 U.S. at 36.
The BIA’s suggestion that the clear-and-convincing
standard should apply was derived from the best practices of state courts. 81 Fed. Reg. at 38,843. The preamble to the Final Rule explains that, since ICWA’s passage, “courts that have grappled with the issue have almost universally concluded that application of the clear
and convincing evidence standard is required as it is
most consistent with Congress’s intent in ICWA to

This is why Plaintiffs’ and Judged Duncan’s references to Grogan
v. Garner, 498 U.S. 279, 286 (1991), are inapposite. Grogan addressed
the standard of proof that applied to exceptions from dischargability
of debt in the Bankruptcy Code, see id., a set of laws that courts are
tasked with interpreting in the first instance. Congress had not
delegated to an agency the authority to issue rules interpreting the
Bankruptcy Code, and the Grogan court was therefore tasked with
determining the best interpretation of the statutory provision, not
simply whether a particular agency interpretation was reasonable.
Thus, the Grogan Court’s ruling that, under those circumstances,
statutory silence suggested that the preponderance-of-the-evidence
standard applied does not indicate that statutory silence prohibits
an agency from applying a heightened evidentiary standard to the
issue.
67

194a
maintain Indian families and Tribes intact.” Id. (citing, inter alia, In re MKT, 368 P.3d 771, 786 (Okla.
2016); Gila River Indian Cmty. v. Dep’t. of Child Safety,
363 P.3d 148, 152-53 (Ariz. Ct. App. 2015); In re Alexandria P., 228 Cal. App. 4th 1322, 1340 (Cal. Ct. App.
2014)). Because the BIA’s interpretation of § 1915 as
not prohibiting a heightened standard of proof is not inconsistent with the statutory provision, and because
§ 23.132(b) was based on the persuasive reasoning in
state court decisions and is designed to further congressional intent, we conclude it is reasonable and entitled to
Chevron deference.
In considering Chevron step two, JUDGE DUNCAN
again blends the question of whether the BIA fulfilled
the APA’s procedural requirement that it provide an adequate explanation for changing the way it interprets a
statute it administers—a claim the Plaintiffs have not
raised with respect to § 23.132(b)—with the substantive
question of whether it is reasonable to interpret the
BIA’s rulemaking authority to authorize the provision.
DUNCAN, CIRCUIT JUDGE, OP. at 128. Though we disagree that the BIA failed to provide a reasoned explanation for its changed position, this is neither here nor
there. Our precedents at most establish that, in a direct challenge to an agency rulemaking as beyond statutory authority, the agency’s departure from longstanding practice justifies a more searching review at Chevron step two to determine whether the new position is
reasonable. See Chamber of Com. of United States of
Am. v. United States Dep’t of Labor, 885 F.3d 360, 380
(5th Cir. 2018) (stating that we greet sudden claims that
a long-standing statute grants sweeping new powers
with “a measure of skepticism” (quoting Util. Air Regul.

195a
Grp. v. EPA, 573 U.S. 302, 324 (2014))). This is a different question from whether the agency provided an
adequate explanation for shifting away from a longstanding interpretation. 68 And even if the BIA’s explanation for changing course were insufficient, our
caselaw does not indicate that such a deficiency inherently renders the agency’s new interpretation an unreasonable construction of the statute. Plaintiffs have alleged only that § 23.132(b) is prohibited by § 1915.
Thus, the sole issue is whether the regulation is permissible under ICWA. See Chevron, 467 U.S. at 842-43.
The adequacy of the explanation for the BIA’s new position is separate from, and immaterial to, this question.
JUDGE DUNCAN offers no argument as to why it is
unreasonable to interpret § 1915 to permit the BIA to
require the clear-and-convincing evidence standard beyond his reference to the expressio unius canon, which
we have already found insufficient to foreclose the BIA’s
application of that standard. And because the BIA was
reasonable in interpreting § 1915 not to prohibit a heightened standard of proof, we conclude that § 23.132(b) did
not exceed the BIA’s statutory authority. See 5 U.S.C.
§ 706(a)(2).
*

*

*

For these reasons, we conclude as follows: First,
Plaintiffs have standing to press their claims except as
To be sure, how long an agency adhered to a prior statutory interpretation may be a relevant consideration when a plaintiff does
allege a procedural APA violation because an agency’s explanation
for a change of course must account for reliance interests engendered by its prior policy. See Fox Television Stations, Inc., 556
U.S. at 515 (citing Smiley, 517 U.S. at 742). But Plaintiffs have not
raised such a challenge to § 23.132(b).
68

196a
to §§ 1913(d) and 1914. Next, the en banc court holds
that Congress was authorized to enact ICWA. We conclude that this authority derives from Congress’s enduring obligations to Indian tribes and its plenary authority
to discharge this duty. And, although the en banc majority decides otherwise as to some provisions and the
en banc court is equally divided as to others, we would
hold that none of ICWA’s provisions violate the Tenth
Amendment’s anticommandeering doctrine. Thus, we
would hold that ICWA validly preempts any conflicting
state law, and we dissent from the en banc majority’s
decision to the extent it differs from this conclusion.
In addition, for the en banc court, we hold that
ICWA’s “Indian Child” designation and the portions of
the Final Rule that implement it do not offend equal protection principles because they are based on a political
classification and are rationally related to the fulfillment
of Congress’s unique obligation toward Indians, and we
REVERSE the district court’s determination to the contrary. And, though the en banc court is equally divided
on the matter, we would likewise determine that ICWA’s
adoptive placement preference for “other Indian families,” and its foster care placement preference for a licensed “Indian foster home,” and the regulations implementing these preferences are consistent with equal
protection.
We also hold for the en banc court that § 1915(c) does
not contravene the nondelegation doctrine because the
provision is either a valid prospective incorporation by
Congress of another sovereign’s law or a delegation of
regulatory authority. We therefore REVERSE this
aspect of the district court’s ruling.

197a
Further, we hold for the en banc court that the BIA
acted within its statutory authority in issuing binding
regulations, and we hold for the en banc court that the
agency did not violate the APA when it changed its position on the scope of its authority because the agency
provided a reasonable explanation for its new stance.
And we hold for the en banc court that the portions of
the Final Rule that implement all parts of ICWA other
than §§ 1912(d)-(f ) and 1915(e) do not violate the APA.
We thus REVERSE the district court’s contrary conclusions.
Although a majority of the en banc court disagrees,
we would also conclude that the portions of the Final
Rule implementing §§ 1912(d)-(f ) and 1915(e) are valid
because these statutory provisions are constitutional,
and we would hold that the provision of the Final Rule
implementing § 1915’s “good cause” standard is reasonable. We thus dissent from the en banc majority’s decision that these portions of the Final Rule are invalid.
Because we conclude that that the challenged provisions of ICWA are constitutional in all respects and that
the Final Rule validly implements the statute, we would
reverse the district court in full and render judgment in
favor of Defendants on all claims. We dissent from
those portions of the en banc majority’s decision that fail
to do so.

198a
STUART KYLE DUNCAN, Circuit Judge:†1
We consider challenges to the Indian Child Welfare
Act of 1978 (“ICWA”), 92 Stat. 3069, 25 U.S.C. §§ 19011963, and its implementing regulations, 81 Fed. Reg.
38,778 (June 14, 2016) (“The Final Rule”).
ICWA is a federal law that regulates state fostercare and adoption proceedings involving Indian children. The law is challenged by three states, which
claim it abridges their sovereignty, and by several couples seeking to adopt Indian children, who claim it unfairly blocks them from doing so. The case is one of
†
JUDGES SMITH, ELROD, WILLETT, ENGELHARDT, and OLDHAM
join JUDGE DUNCAN’s opinion in full. JUDGE JONES joins all except
Parts III(A)(2) (equal protection as to “Indian child”) and that portion of Part III(B)(2)(a) concerning preemption by the appointed
counsel provision in 25 U.S.C. § 1912(d).
CHIEF JUDGE OWEN joins Part III(B) (anti-commandeering/
preemption) and Part III(D)(3) (“good cause” standard in 25 C.F.R.
§ 23.132(b) violates APA). See infra OWEN, C.J., concurring in part
and dissenting in part.
JUDGE SOUTHWICK joins Parts III(B)(1)(a)(i)-(ii) (anticommandeering as to § 1912(d)-(f )); Part III(B)(2)(a) (preemption);
Part III(B)(2)(b) (in part) (no preemption, only as to § 1912(d)-(f ));
Part III(B)(2)(c) (in part) (preemption, except as to the discussion of
§ 1951(a)); and Part III(D)(1) (in part) (Final Rule violates APA to
extent it implements § 1912(d)-(f )).
JUDGE HAYNES joins Part I (standing); Part III(A)(3) (equal
protection as to “other Indian families”); Parts III(B)(1)(a)(i),
III(B)(1)(a)(iv), III(B)(1)(a)(ii) (in part), III(B)(1)(b) (in part),
and III(B)(2)(b) (in part) (anti-commandeering/preemption as to
§§ 1912(d)-(e) and 1915(e)); Part III(D)(1) (in part) (Final Rule violates APA to extent it implements provisions found unconstitutional
in those portions of Parts III(A) and (B) that JUDGE HAYNES joins);
and Part III(D)(3) (“good cause” standard in 25 C.F.R. § 23.132(b)
fails at Chevron step one). See infra HAYNES, J., concurring.

199a
first impression and raises many intricate issues. That
should come as no surprise, given that “[t]he condition
of the Indians in relation to the United States is perhaps
unlike that of any other two people in existence . . . .
marked by peculiar and cardinal distinctions which exist
no where else.” Cherokee Nation v. Georgia, 30 U.S. (5
Pet.) 1, 16 (1831) (Marshall, C.J.); see also COHEN’S
HANDBOOK OF FEDERAL INDIAN LAW § 1.01 (2019)
[hereinafter “COHEN’ S”] (“The field of Indian law and
policy is extraordinarily complex, rich, controversial,
and diverse.”). To guide the reader through our lengthy decision, we provide this summary.
First, we conclude ICWA exceeds Congress’s power
to the extent it governs state proceedings. Congress, to
be sure, has “plenary” authority to legislate on Indian
affairs. United States v. Lara, 541 U.S. 193, 200 (2004)
(quoting Cotton Petroleum Corp. v. New Mexico, 490
U.S. 163, 192 (1989)). But ICWA does something that,
to our knowledge, no federal Indian law has ever tried:
it governs states’ own administrative and judicial proceedings. That is an unheard-of exercise of the Indian
affairs power, and neither Supreme Court precedent nor
founding-era practice justifies it. And ICWA is all the
more jarring because of its subject matter: domestic
relations. That subject “belongs to the laws of the
states, and not to the laws of the United States,” and is
“one in regard to which neither the congress of the
United States, nor any authority of the United States,
has any special jurisdiction.” Ex parte Burrus, 136
U.S. 586, 594 (1890). And yet ICWA co-opts the states
to create, in essence, a federal adoption system for Indian children. The Constitution does not empower Congress to do that. To say otherwise would mock “our

200a
federal system, [in which] the National Government possesses only limited powers [and] the States and the people retain the remainder.” Bond v. United States, 572
U.S. 844, 854 (2014).
Second, in the alternative, we conclude many parts of
ICWA are unconstitutional or unlawful. ICWA’s unequal standards for “Indian children” and “Indian families” violate the Fifth Amendment’s equal protection
guarantee by failing to rationally link children to tribes.
Many provisions commandeer states by conscripting
their agencies, officials, and courts into a federal regulatory program. Another provision delegates to Indian
tribes the power to change enacted federal law setting
child placement preferences.
Declaratory relief is
proper as to those provisions. Finally, a 2016 rule implementing ICWA violates the Administrative Procedure Act by exceeding the agency’s authority over state
courts. To that extent, the rule must be declared
unlawful.
Our decision does not affect all of ICWA. Some provisions do not govern state proceedings—such as those
giving tribes exclusive jurisdiction over on-reservation
children, those permitting states and tribes to adjust
their jurisdictions, and those granting funds for tribal
programs. These provisions are not challenged here
and do not fall within our decision. With that qualification, we affirm the district court’s judgment declaring
parts of ICWA and the Final Rule unconstitutional and
unlawful.

201a
TABLE OF CONTENTS

BACKGROUND ....................................................................... 4
I.
II.
III.
IV.

Indian Child Welfare Act .......................................... 4
Final Rule................................................................... 7
Parties ........................................................................ 9
District Court Proceedings ..................................... 11
STANDARD OF REVIEW ..................................................... 13
DISCUSSION ........................................................................ 13
I. Article III Standing ................................................. 13
II. Challenge to Congress’s Power to Enact
ICWA........................................................................ 21
III. Challenges to Specific ICWA Provisions ............... 52
A. Fifth Amendment Equal Protection .................... 53
B. Commandeering and Preemption ........................ 69
1. Commandeering ................................................. 73
2. Preemption ......................................................... 88
C. Nondelegation ..................................................... 100
D. Administrative Procedure Act ........................... 109
E. Remedy ............................................................... 121
BACKGROUND
I.

Indian Child Welfare Act

In 1978, Congress enacted ICWA out of concern that
too many Indian children were being unjustifiably removed from their families and adopted by non-Indians.
Specifically, Congress found that “an alarmingly high
percentage of Indian families [were being] broken up by
the removal, often unwarranted, of their children from
them by nontribal public and private agencies and that
an alarmingly high percentage of such children [were
being] placed in non-Indian foster and adoptive homes
and institutions.” 25 U.S.C. § 1901(4). Congress also

202a
found that “the States, exercising their recognized jurisdiction over Indian child custody proceedings through
administrative and judicial bodies, ha[d] often failed to
recognize the essential tribal relations of Indian people
and the cultural and social standards prevailing in Indian communities and families.” § 1901(5). ICWA
therefore set “minimum Federal standards” for removing Indian children and placing them in foster and adoptive homes “which will reflect the unique values of Indian culture.” § 1902. These standards sought “to
protect the best interests of Indian children and to promote the stability and security of Indian tribes and families.” Id. As authority for the law, Congress invoked
its “plenary power over Indian affairs,” grounded in the
Indian Commerce Clause and “other constitutional authority.” § 1901(1); see U.S. CONST. art. I, § 8, cl. 3 (vesting
Congress with “Power . . . [t]o regulate Commerce
. . . with the Indian Tribes”).
ICWA applies to a “child custody proceeding” involving an “Indian child.” § 1903(1), (4). 1 Such proceedings
include foster care placements, terminations of parental
rights, and preadoptive and adoptive placements.
§ 1903(1)(i)-(iv). If a proceeding involves an Indian
child living on a tribe’s reservation, the tribe has exclusive jurisdiction. § 1911(a). For off-reservation Indian
children, state courts exercise concurrent jurisdiction
with tribal courts, but must transfer a proceeding to
tribal jurisdiction upon request of either parent or the
child’s tribe, absent good cause or a parent’s objection.
An “Indian child” is defined as “any unmarried person who is
under age eighteen and is either (a) a member of an Indian tribe or
(b) is eligible for membership in an Indian tribe and is the biological child of a member of an Indian tribe.” § 1903(4).
1

203a
§ 1911(b); see also Yavapai-Apache Tribe v. Mejia, 906
S.W.2d 152, 162 (Tex. App.—Houston [14th Dist.], Aug.
24, 1995, pet. denied) (explaining “state courts may exercise jurisdiction concurrently with the tribal courts”
in proceedings involving off-reservation children).
For proceedings remaining under state jurisdiction,
ICWA imposes numerous requirements. For instance,
a party seeking foster placement, or termination of parental rights, must notify the Indian child’s parent and
tribe of that party’s “right to intervene.” §§ 1911(c),
1912(a). 2 Indigent parents have the “right to courtappointed counsel.” § 1912(b). Any party has “the right
to examine all reports or other documents filed with the
court[.]” § 1912(c). To prevail, the party seeking
placement or termination must prove that “active efforts have been made to provide remedial services and
rehabilitative programs designed to prevent the
breakup of the Indian family” and “have proved unsuccessful.” § 1912(d). The party must also offer evidence, “including testimony of qualified expert witnesses,” that the
parent’s continued custody will likely cause the child
“serious emotional or physical damage.” § 1912(e)-(f ).
Proof must be by “clear and convincing evidence” for
foster placement, § 1912(e), and “beyond a reasonable
doubt” for termination, § 1912(f ).
If parents voluntarily consent to a placement or to
termination of rights, they can withdraw consent “at any
time” before the process ends. § 1913(b)-(c). Following an adoption, the birth parents may withdraw consent
based on fraud or duress for up to two years. § 1913(d).
The Secretary of the Interior must be notified if the parent or
custodian cannot be found. § 1912(a).
2

204a
A child, parent, or tribe may also sue to invalidate the
placement or termination for any violation of §§ 1911,
1912, or 1913. § 1914.
ICWA also dictates where Indian children may be
placed. In adoptions governed by state law, an Indian
child must be placed, absent “good cause,” with “(1) a
member of the child’s extended family; (2) other members of the Indian child’s tribe; or (3) other Indian families.” § 1915(a). Similarly, in foster or pre-adoptive
placements, an Indian child must be placed (again, absent good cause) with: (1) extended family; (2) a foster
home “licensed, approved, or specified” by the tribe;
(3) a licensed “Indian foster home”; or (4) an “institution
for children” either tribe-approved or operated by a
suitable Indian organization. § 1915(b)(i)-(iv). In any
case, the child’s tribe may “establish a different order of
preference by resolution,” which the “agency or court
effecting the placement shall follow,” provided “the
placement is the least restrictive setting appropriate to
the particular needs of the child.” § 1915(c). The
“State” must maintain a record of an Indian child’s
placement that “evidenc[es] the efforts to comply with
the order of preference specified in [§ 1915]” and that
“shall be made available at any time upon request of the
Secretary or the Indian child’s tribe.” § 1915(e).
ICWA also requires state courts to maintain and
transmit various records. For instance, upon request
of an adopted Indian eighteen or older, a court must provide “the tribal affiliation, if any, of the individual’s biological parents and . . . such other information as
may be necessary to protect any rights flowing from the
individual’s tribal relationship.” § 1917. Additionally, a state court must provide the Secretary with a

205a
copy of a final adoption decree “together with such other
information as may be necessary to show” various matters. § 1951(a). 3
Finally, ICWA contains a severability clause providing that, “[i]f any provision . . . or the applicability
thereof is held invalid, the remaining provisions . . .
shall not be affected thereby.” § 1963. 4
II.

Final Rule

In 1979, the Bureau of Indian Affairs (“BIA”) promulgated guidelines (the “1979 Guidelines”) to assist state
courts in applying ICWA. See 44 Fed. Reg. 67,584
(Nov. 26, 1979); see also 25 U.S.C. § 1952 (authorizing
Secretary of Interior to “promulgate such rules and regulations
. . .
necessary” to implement ICWA).
The 1979 Guidelines were “not intended to have binding
legislative effect.” 44 Fed. Reg. at 67,584. BIA found
nothing in ICWA or its legislative history to suggest
that Congress intended the Department to exercise “supervisory authority” over courts deciding Indian childcustody matters. Id. Such authority would be “so at
3
Those matters are: (1) the child’s name and tribal affiliation,
(2) the names and addresses of biological parents, (3) the names
and addresses of adoptive parents, and (4) “the identity of any
agency having files or information relating to such adoptive placement.” § 1951(a)(1)-(4); see also 25 C.F.R. §§ 23.140-141 (additional recordkeeping requirements applicable to both courts and
agencies).
4
ICWA contains other provisions unrelated to state childcustody proceedings, such as provisions permitting jurisdictional
agreements between states and Indian tribes (§ 1919); provisions
addressing the Secretary’s approval of tribal re-assumption of jurisdiction (§ 1918); and provisions concerning grants and funding
for tribal child and family programs (§§ 1931-1933). As explained
infra III(E), our decision does not affect these provisions.

206a
odds with concepts of both federalism and separation of
powers that it should not be imputed to Congress in the
absence of an express declaration of Congressional intent to that effect.” Id. Rather, “[p]rimary responsibility” for interpreting ICWA “rests with the courts that
decide Indian child custody cases.” Id. In particular,
the Guidelines mentioned the “good cause” standard,
which was “designed to provide state courts with flexibility in determining the disposition of a placement proceeding involving an Indian child.” Id.; see § 1915(a)(b).
In 2016, BIA changed course and promulgated new
regulations (the “Final Rule”) that “set binding standards for Indian child-custody proceedings in State
courts.” 81 Fed. Reg. 38,778, 38,785 (June 14, 2016).
BIA stated it “no longer agrees with statements it made
in 1979 suggesting that it lacks the authority to issue
binding regulations.” Id. at 38,786. It now found
binding standards “necessary,” see § 1952, given “divergent interpretations of ICWA provisions by State courts
and uneven implementation by State agencies.” 81
Fed. Reg. at 38,787. In particular, the new regulations
restrict what constitutes “good cause” to depart from
ICWA’s placement preferences. See id. at 38,843-47.
The “good cause” standard, the new regulations assert,
is not determined by the “best interests of the child” but
is instead “a limited exception” to the preferences. Id.
at 38,847. Accordingly, the new regulations limit “good
cause” to five factors.
See 25 C.F.R. § 23.132(c).
Moreover, the party seeking departure “should” bear
the burden of proving good cause “by clear and convincing evidence.” Id. § 23.132(b). BIA acknowledged
that the clear-and-convincing standard “is not articulated in section 1915,” but asserted courts have “almost

207a
universally concluded” it is the right standard. 81 Fed.
Reg. at 38,843. Finally, BIA explained the Final Rule
only “advises” that the standard “ ‘should’ be followed,”
but “does not categorically require that outcome” and
“declines to establish a uniform standard of proof on this
issue.” Id.
III.
A.

Parties
Plaintiffs

Plaintiffs are the states of Texas, Louisiana, and
Indiana (collectively, the “State Plaintiffs”), and seven
individual plaintiffs—Chad and Jennifer Brackeen
(the “Brackeens”), Nick and Heather Libretti (the
“Librettis”), Altagracia Socorro Hernandez (“Hernandez”), and Jason and Danielle Clifford (the “Cliffords”)
(collectively, “Individual Plaintiffs”). 5
1.

A.L.M., Y.R.J., and the Brackeens

In 2015, A.L.M. was born in New Mexico to unmarried parents. His biological mother is a member of the
Navajo Nation and his biological father is a member of
the Cherokee Nation. Soon after birth, his mother
brought A.L.M. to live in Texas with his paternal grandmother. The Child Protective Services Division (“CPS”)
of the Texas Department of Family and Protective Services (“DFPS”) removed A.L.M. when he was 10 months
old and placed him in foster care with the Brackeens.
In 2017, his biological parents voluntarily terminated
their rights to A.L.M. and, along with his guardian ad
litem, supported the Brackeens’ adoption petition. At
the adoption hearing, representatives of the Navajo and
References to “Plaintiffs” include both State Plaintiffs and Individual Plaintiffs.
5

208a
Cherokee Nations agreed to designate Navajo as A.L.M.’s
tribe because the Navajo had located an alternate placement with non-family tribal members in New Mexico.
The Texas family court denied the Brackeens’ petition,
concluding they failed to prove by clear and convincing
evidence good cause to depart from ICWA’s placement
preferences. The DFPS announced its intention to remove A.L.M. from their care and transfer him to the
Navajo family. The Brackeens obtained an emergency
stay and filed this lawsuit. The proposed Navajo placement then withdrew, and the Brackeens finalized A.L.M.’s
adoption.
The Brackeens are now engaged in Texas state court
proceedings to adopt A.L.M.’s half-sister, Y.R.J., who
was born in June 2018 to A.L.M.’s biological mother.
The Navajo Nation again opposes the Brackeens’ petition to adopt Y.R.J. based on ICWA’s placement preferences. The proceedings are ongoing. See In re Y.J.,
No. 02-19-235-CV, 2019 WL 6904728, at *1 (Tex. App.—
Fort Worth, Dec. 19, 2019, pet. filed) (remanding for further proceedings).
2.

Baby O., Hernandez, and the Librettis

In 2016, Baby O. was born in Nevada to plaintiff Hernandez, a non-Indian. Her biological father, E.R.G., is
descended from members of the Ysleta del sur Pueblo
Tribe (“Pueblo”) but was not an enrolled member when
Baby O. was born. With E.R.G.’s support, Hernandez
decided to have the Librettis adopt Baby O., who accompanied the Librettis home three days after her birth.
The Pueblo Tribe intervened in the Nevada custody proceedings and identified numerous alternative Indianfamily placements for Baby O. under ICWA. After the

209a
Librettis joined this lawsuit, however, the tribe withdrew its objections and the Librettis finalized Baby O.’s
adoption in late 2018.
3.

Child P. and the Cliffords

Born in 2011 in Minnesota, Child P. was placed in foster care in 2014 when her biological parents were arrested and charged with various drug-related offenses.
For two years Child P. moved from placement to placement until Minnesota terminated her mother’s rights
and placed her with the Cliffords in 2016, who have since
sought to adopt her. Child P.’s maternal grandmother,
R.B., is a member of the White Earth Band of the
Ojibwe Tribe (the “White Earth Band”). After Child
P. initially entered foster care in 2014, the White Earth
Band notified the court that she was ineligible for membership. After Child P. was placed with the Cliffords,
however, the tribe changed its position, notified the
court that Child P. was eligible for membership, and has
since announced that Child P. is a member. As a result, Minnesota removed Child P. from the Cliffords and
placed her with R.B. in 2018. The state trial court concluded that the Cliffords had not established “good
cause” to deviate from ICWA’s preferences by “clear
and convincing evidence,” a decision since affirmed on
appeal. See In re S.B., No. A19-225, 2019 WL 6698079,
at *6 (Minn. Ct. App. Dec. 9, 2019). Child P.’s adoption,
however, has not been finally approved; until it is, the
Cliffords remain eligible to adopt her.

210a
B.

Defendants

Defendants are the United States of America and
various federal agencies and officials, referred to collectively as the “Federal Defendants.” 6 Shortly after this
suit was filed, the Cherokee Nation, Oneida Nation,
Quinault Indian Nation, and Morongo Band of Mission
Indians (collectively, the “Tribal Defendants”) were allowed to intervene as defendants. On appeal, we granted
the Navajo Nation’s motion to intervene as a defendant. 7
IV.

District Court Proceedings

Plaintiffs sued in federal district court seeking injunctive relief and a declaration that ICWA and the Final Rule violate various provisions of the Constitution
and the APA. Defendants moved to dismiss for lack of
standing. The district court denied the motion, finding
that at least one Plaintiff had standing to bring each
claim. Plaintiffs then moved for summary judgment on
all their claims, which the district court granted in part
and denied in part. See Brackeen v. Zinke, 338 F. Supp.
3d 514 (N.D. Tex. 2018).
First, the district court ruled that ICWA discriminates on the basis of a racial classification that fails to
satisfy strict scrutiny and therefore violates the Fifth
Amendment’s equal protection component. Second,
Specifically, they are the United States Department of the Interior and its Secretary Deb Haaland, in her official capacity; the
BIA and its Acting Assistant Secretary for Indian Affairs Darryl
LaCounte, in his official capacity; and the United States Department of Health and Human Services and its Secretary Xavier
Becerra, in his official capacity.
7
References to “Defendants” include both Federal Defendants
and Tribal Defendants.
6

211a
the court ruled that ICWA’s provision empowering Indian tribes to re-order placement preferences improperly delegates federal legislative power. Third, the
court ruled that various provisions of ICWA “commandeer” state agencies, officials, and courts in violation of
Article I and the Tenth Amendment and do not validly
preempt conflicting state laws. Fourth, the court ruled
that various provisions of the Final Rule violate the
APA. Finally, the court ruled that ICWA as a whole exceeds Congress’s power under the Indian Commerce
Clause. 8 The court’s final judgment therefore declared
certain provisions of ICWA and the Final Rule unconstitutional. 9
On appeal, a panel of our court reversed the district
court on all grounds. Brackeen v. Bernhardt, 937 F.3d
406 (5th Cir. 2019). JUDGE OWEN dissented in part.
Id. at 441-46 (Owen, J., dissenting in part). We granted
en banc rehearing. Brackeen v. Bernhardt, 942 F.3d
287 (2019).
STANDARD OF REVIEW

“We review a grant of summary judgment de novo,
applying the same standard as the district court.” All.
8
The court denied summary judgment on Plaintiffs’ Fifth Amendment claim based on parents’ fundamental rights to “make decisions concerning the care, custody, and control of their children.”
Troxel v. Granville, 530 U.S. 57 (2000). The court reasoned those
rights had never been extended to foster families, prospective
adoptive parents, or “adoptive parents whose adoption is open to
collateral attack.” Brackeen, 338 F. Supp. 3d at 546. Plaintiffs
have not appealed that ruling.
9
Specifically, it declared unconstitutional 25 U.S.C. §§ 1901-23
and 1951-52, as well as 25 C.F.R. §§ 23.106-22, 23.124-32, and
23.140-41.

212a
for Good Gov’t v. Coal. for Better Gov’t, 901 F.3d 498, 504
(5th Cir. 2018) (citation omitted). “We review de novo
the constitutionality of federal statutes.”
United
States v. McGinnis, 956 F.3d 747, 752 (5th Cir. 2020) (citation omitted). We must set aside final agency action
under the APA if “such action was ‘arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance
with law.’ ” Sw. Elec. Power Co. v. EPA, 920 F.3d 999,
1013 (5th Cir. 2019) (quoting 5 U.S.C. § 706(2)(A)).
DISCUSSION

We proceed as follows. First, we address whether
Plaintiffs have Article III standing to assert their claims,
and conclude they do (infra I). Next, we address whether ICWA exceeds Congress’s constitutional power over
Indian affairs (infra II). Agreeing with the district
court in part, we conclude that ICWA exceeds Congress’s power to the extent it governs state childcustody proceedings. Alternatively (infra III), we address the court’s holdings that parts of ICWA and the
Final Rule violate the Fifth Amendment equal protection guarantee (III(A)); the anti-commandeering and
preemption doctrines (III(B)); the nondelegation doctrine (III(C)); and the APA (III(D)). Concluding that
parts of ICWA and the Final Rule are unconstitutional
or unlawful on those grounds, we then address the appropriate remedy (III(E)).
I.

Article III Standing

We first address whether Plaintiffs have Article III
standing. The district court ruled they did, concluding
that the State Plaintiffs had standing to assert claims
that ICWA exceeds Congress’s power, commandeers
states, and violates the nondelegation doctrine; that the

213a
Individual Plaintiffs had standing to assert equal protection claims; and that all Plaintiffs had standing to
challenge the Final Rule under the APA.
We review standing de novo. Stringer v. Whitley,
942 F.3d 715, 720 (5th Cir. 2019). Article III standing
requires plaintiffs to show an injury traceable to defendants’ conduct that a judicial decision would likely redress. See Thole v. U.S. Bank N.A., 140 S. Ct. 1615,
1618 (2020) (citing Lujan v. Defs. of Wildlife, 504 U.S.
555, 560-61 (1992)); see also Texas v. United States, 945
F.3d 355, 374 (5th Cir. 2019) (standing requires “injury,
causation, and redressability”) (citation omitted). At
least one plaintiff must have standing “for each claim he
seeks to press and for each form of relief that is sought.”
Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650 (2017) (citation omitted). “[T]he presence of one
party with standing is sufficient to satisfy Article III’s
case-or-controversy requirement.” Rumsfeld v. Forum for Acad. & Inst. Rights, Inc., 547 U.S. 47, 52 n.2
(2006).
A.

The claims that ICWA exceeds Congress’s power,
commandeers states, and improperly delegates legislative power are, in essence, claims that ICWA encroaches
on states’ prerogatives to administer child-custody proceedings. State Plaintiffs have standing to bring these
claims, which assert injuries unique to states, caused by
the Federal Defendants’ administration of ICWA, and
redressable by a favorable decision.
We have found that states “may have standing based
on (1) federal assertions of authority to regulate matters
[states] believe they control, (2) federal preemption of

214a
state law, and (3) federal interference with the enforcement of state law.” Texas v. United States, 809 F.3d
134, 153 (5th Cir. 2015) (citations omitted), aff ’d by
equally divided Court, 136 S. Ct. 2271 (2016) (Mem.). 10
Those principles easily encompass State Plaintiffs’
claims that ICWA hijacks their child-custody machinery
and improperly supplants their child-custody standards,
either directly or by delegation to tribes. They also explain why State Plaintiffs have standing to assert under
the APA that the Final Rule improperly issued regulations purporting to bind state administration of childcustody proceedings. See id. at 151-54 (holding federal
statute may afford states standing to vindicate injury to
their “quasi-sovereign” interests) (citing Massachusetts
v. EPA, 549 U.S. 497, 518-20 (2007)); Texas, 945 F.3d at
384 (states have standing to challenge statute infringing
sovereign interest in “applying their own laws and policies”); see also 5 U.S.C. § 702 (affording right of judicial
review to persons “suffering legal wrong because of
agency action, or adversely affected or aggrieved by
agency action”). 11

See also Tex. Office of Pub. Util. Council v. FCC, 183 F.3d 393,
449 (5th Cir. 1999) (“States have a sovereign interest in ‘the power
to create and enforce a legal code.’ ”) (quoting Alfred L. Snapp &
Son, Inc. v. Puerto Rico ex rel. Barez, 458 U.S. 592, 601 (1982)).
11
Defendants contest State Plaintiffs’ standing to bring a nondelegation challenge to § 1915(c), which allows tribes to vary ICWA’s
placement preferences. Defendants say any injury is speculative
because no evidence shows that a tribally-reordered preference has
affected proceedings in the plaintiff states. See Lujan, 504 U.S. at
560 (injury must be “actual or imminent, not conjectural or hypothetical” (internal quotation marks omitted)). We disagree. As
State Plaintiffs note, one Texas tribe, the Alabama-Coushatta, has
filed its reordered preferences with the Texas DFPS. The claimed
10

215a
B.

The equal protection claims assert ICWA and the Final Rule wrongly discriminate against Indian children
and non-Indian families. The Individual Plaintiffs claim
this unequal treatment permeates the law and regulations, beginning with the threshold definition of “Indian
child.” See 25 U.S.C. § 1903(4). They claim the placement preferences for Indian children, § 1915(a)-(b), “impose a naked preference for ‘Indian families’ over families of any other race,” and make non-Indians show
“good cause” to depart from them, id. They claim the
collateral attack provisions, §§ 1913(d) and 1914, make
their adoptions of Indian children more vulnerable to
being overturned. Finally, they claim the Final Rule
implementing these provisions adds to their injuries. 12
The State Plaintiffs assert similar claims on behalf of
“children in their care,” alleging ICWA and the Final
Rule “require [their] agencies and courts” to “carry out
the racially discriminatory policy objectives of [ICWA]”
and to expend “resources and money” in doing so. All
Plaintiffs seek a declaration that §§ 1913(d), 1914, and
1915 are unconstitutional and an injunction prohibiting
the Federal Defendants from implementing those sections “by regulations, guidelines, or otherwise.” They

injury from § 1915(c) is thus sufficient to support standing. See,
e.g., Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158 (2014)
(“An allegation of future injury may suffice if the threatened injury
is ‘certainly impending,’ or there is a ‘substantial risk that the harm
will occur.’ ”) (cleaned up).
12
See, e.g., 25 C.F.R. §§ 23.129-32 (implementing preferences); id.
§ 23.132(b) (party seeking departure from preferences must prove
“good cause” by “clear and convincing evidence”); id. §§ 23.136-37
(implementing collateral attack provisions).

216a
also seek declaratory relief and an injunction prohibiting the Federal Defendants from enforcing funding
mechanisms tied to states’ compliance with ICWA. See
42 U.S.C. §§ 622(b)(9), 677(b)(3)(G).
We agree with the district court that the Individual
Plaintiffs have standing to challenge ICWA and the Final Rule. 13 As persons seeking to adopt Indian children, the Individual Plaintiffs are “objects” of the contested provisions, and the “ordinary rule” is that they
have standing to challenge them. Contender Farms,
L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258, 264-266 (5th
Cir. 2015) (quoting Lujan, 504 U.S. at 561). Their
adoptions have been burdened, in various ways, by
ICWA’s unequal treatment of non-Indians. For instance, the Brackeens’ adoption of A.L.M. was hampered and delayed by the preferences, 14 burdens they
We therefore need not consider whether the State Plaintiffs
have standing to bring equal protection claims on behalf of Indian
children in their care.
14
Defendants argue that, because the Brackeens’ adoption of
A.L.M. was completed in January 2018, their claims regarding
A.L.M. are moot. We disagree. The situation falls within the
“capable of repetition, yet evading review” exception to mootness
because (1) A.L.M.’s adoption was “in its duration too short to be
fully litigated prior to [its being settled]”; and (2) given the Brackeens’ announced intent to adopt other Indian children, “there was
a reasonable expectation that [they] would be subjected to the
same action again.” Kucinich v. Tex. Democratic Party, 563 F.3d
161, 164 (5th Cir. 2009) (citation omitted). JUDGE WIENER’s partial dissent argues neither prong applies. As to prong one, he contends the Brackeens “could have litigated their ICWA challenges
in state court during A.L.M.’s July 2017 adoption proceedings, long
before” the district court’s October 2018 judgment. WIENER OP.
at 5 n.18. We disagree. The Brackeens were contesting the preferences during the state proceedings, but those proceedings were
13

217a
are again suffering in trying to adopt A.L.M.’s halfsister, Y.R.J. See Y.J., 2019 WL 6904728, at *5 (noting
the Navajo seek “a judgment that Y.J. be placed in accordance with ICWA preferences”). Moreover, the
Brackeens’ adoption of A.L.M. (and Y.R.J. too, if successful) will be open to collateral attack under ICWA. 15
Similarly, the Cliffords’ attempt to foster Child P. has
been thwarted by the preadoptive preferences—they
failed to show good cause to depart by “clear and convincing evidence”—and they will be hampered by the
adoptive preferences in their planned adoption of Child
P. If the Brackeens and the Cliffords were Indians, or
if the children they sought to adopt were non-Indians,
none of these obstacles would exist.

settled in December 2017 due to the fortuity that the Navajo placement “was no longer available” and no others materialized. As to
the second prong, JUDGE WIENER contends the Brackeens’ “stated
reluctance to adopt other Indian children was too vague.” Id.
We disagree. The Brackeens needed to show only a “reasonable
expectation” they would again face ICWA’s burdens. Kucinich,
563 F.3d at 164. They did so by alleging they “intend[ed]” to foster and adopt other Indian children, and then by supplementing
the record to document their effort to adopt Y.R.J., beginning with
their letter to the state agency in September 2018. See, e.g., FEC
v. Wis. Right to Life, Inc., 551 U.S. 449, 463 (2007) (second prong
satisfied when plaintiff “credibly claimed that it planned” to engage in similar activity subject to prior regulation).
15
Specifically, the Brackeens’ adoption of A.L.M. remains open
to attack under § 1914, and their prospective adoption of Y.R.J.
would be open to attack under both §§ 1913(d) and 1914. Unlike
§ 1913(d), which allows a collateral attack based on fraud or duress
only for two years after the adoption, § 1914 specifies no time frame
for a collateral attack based on a claimed violation of any provision
of §§ 1911-1913.

218a
Those unequal burdens are injuries-in-fact for equal
protection purposes. An equal protection injury consists in “[d]iscriminatory treatment at the hands of the
government.” Time Warner Cable, Inc. v. Hudson,
667 F.3d 630, 636 (5th Cir. 2012) (alteration in original). 16
If plaintiffs show such disparate treatment, then “no
further showing of suffering based on that unequal positioning is required for purposes of standing.” Time
Warner, 667 F.3d at 636; see also Ne. Fla. Chapter of
Associated Gen. Contractors v. City of Jacksonville, 508
U.S. 656, 666 (1993) (“The ‘injury in fact’ in an equal protection case . . . is the denial of equal treatment resulting from the imposition of the barrier, not the ultimate inability to obtain the benefit.”). The Individual
Plaintiffs have made that showing here. 17 And their injuries are traceable, in part, to the Federal Defendants’

See also Moore v. Bryant, 853 F.3d 245, 250 (5th Cir. 2017) (explaining “the gravamen of an equal protection claim is differential
governmental treatment”); Contender Farms, 779 F.3d at 266 (“An
increased regulatory burden typically satisfies the injury in fact
requirement.”) (citation omitted).
17
The Federal Defendants argue no Plaintiff has standing to
challenge the collateral attack provisions because it is “speculative” whether any such attack will occur. We disagree. The injury arises from those provisions’ unequal treatment of the adoptions, not from any collateral attack itself. That injury is concrete, “irrespective of whether the plaintiff [s] will sustain an actual
or more palpable injury as a result of the unequal treatment.”
Time Warner, 667 F.3d at 636 (citation omitted). We disagree
with JUDGE DENNIS that this injury is not imminent under Barber
v. Bryant, 860 F.3d 345 (5th Cir. 2017). DENNIS OP. at 41-42.
There, plaintiffs brought equal protection claims against a Mississippi law that protected persons holding traditional beliefs about
marriage, sexual relations, and sex from discriminatory state action in specified areas, such as licensing or celebrating marriages.
16

219a
implementing ICWA through the Final Rule and to their
inducing state officials to apply ICWA through the leverage of child welfare funds. See K.P. v. LeBlanc, 627
F.3d 115, 123 (5th Cir. 2010) (traceability requires only
that defendants “significantly contributed” to injury);
see also Inclusive Cmtys. Project, Inc. v. Dep’t of Treasury, 946 F.3d 649, 655 (5th Cir. 2019) (causation “doesn’t
require a showing . . . that the defendant’s actions
are the very last step in the chain of causation” and “isn’t
precluded where the defendant’s actions produce a determinative or coercive effect upon the action of someone else”) (quoting Bennett v. Spear, 520 U.S. 154, 167,
169 (1997)) (internal quotation marks omitted).
Finally, our decision would redress the Individual
Plaintiffs’ injuries. Redressability means a decision’s
“practical consequences” would “significant[ly] increase
. . . the likelihood” of relief. Utah v. Evans, 536 U.S.
452, 464 (2002). “The relief sought needn’t completely
cure the injury, however; it’s enough if the desired relief
would lessen it.” Inclusive Cmtys. Project, 946 F.3d at
Barber, 860 F.3d at 351. We held plaintiffs lacked a “certainly impending” injury because they had not alleged they “plan[ned]
to engage” in any conduct covered by the statute. Id. at 357.
Although one plaintiff did “stat[e] his intention to marry,” he did
not allege that he was seeking marriage-related services from
someone who might refuse or “even that he intended to get married
in Mississippi.” Id. The Brackeens are in a different position.
Unlike the Barber plaintiffs, the Brackeens have engaged in conduct covered by §§ 1913 and 1914—adopting Indian children—and
their adoptions are now vulnerable to collateral attack, unlike
adoptions of non-Indian children. That “[d]iscriminatory treatment at the hands of the government” is a present injury-in-fact,
regardless of whether “an actual or more palpable injury” will later
materialize in the form of a collateral attack. Time Warner, 667
F.3d at 636.

220a
655 (citation omitted); see also Dep’t of Tex., Veterans of
the Foreign Wars of U.S. v. Tex. Lottery Comm’n, 760
F.3d 427, 432 (5th Cir. 2014) (en banc) (a decision need
only relieve “a [plaintiff ’s] discrete injury,” not his
“every injury”) (citation omitted). Here, the requested
relief would redress the Individual Plaintiffs’ injuries in
numerous ways. For instance, it would make overcoming ICWA’s preferences easier, because the Individual
Plaintiffs would no longer have to justify departure “by
clear and convincing evidence.” 25 C.F.R. § 23.132(b)
(implementing § 1915(a)-(b)). It would also remove
state child welfare officials’ obligations to implement the
preferences, efforts “critical to the success of the . . .
preferences.” 81 Fed. Reg. at 38,839; see also infra
III(B)(1)(a)(iii) (discussing state officials’ required assistance with finding preferred placements). Additionally, Federal Defendants would be barred from inducing
state officials to implement ICWA, including the preferences, by withholding funding. 18
Finally, the requested relief would make the adoptions less vulnerable
to being overturned: it would declare unenforceable the
collateral attack provisions themselves (§§ 1913(d),
1914), the underlying grounds for invalidity (§§ 19111913), as well as the implementing regulations (25
C.F.R. §§ 23.136-137). So, while a favorable decision

See 42 U.S.C. § 622(b)(9) (to qualify for Title IV-B funds, a
state’s child welfare plan must describe “the specific measures
taken by the State to comply with the Indian Child Welfare Act”);
id. § 624(a) (authorizing HHS Secretary to pay child welfare funds
to a state “that has a plan developed in accordance with section
622”); see also 45 C.F.R. §§ 1355.34(b)(2)(ii)(E), 1355.36 (HHS regulations authorizing withholding of Title IV-B and Title IV-E funds
based on, inter alia, failure to comply with ICWA).
18

221a
would not guarantee the success of the Individual Plaintiffs’ adoptions, its “practical consequences” would
“lessen” their “discrete injur[ies]” caused by ICWA’s
unequal treatment of Indian children and non-Indian
families. Evans, 536 U.S. at 464; Inclusive Cmtys.
Project, 946 F.3d at 655; Dep’t of Tex., Veterans of Foreign Wars of the U.S., 760 F.3d at 432. 19 That is enough
to satisfy redressability.
II. Challenge to Congress’s Power to Enact ICWA

We first consider whether ICWA is unconstitutional
because Congress lacks power to regulate state childcustody proceedings involving Indian children. The
district court held ICWA exceeds Congress’s power.
The panel reversed, reasoning that “the Indian Com-

Redressability does not turn on whether our decision would determine the outcome of the Brackeens’ adoption of Y.R.J. So, we
need not address JUDGE COSTA’s view that redressability may
never depend on the impact of a federal decision on a state court.
See COSTA OP. at 3-11. We note that JUDGE COSTA concedes the
Brackeens have standing to bring APA claims because “a declaratory judgment against the Interior Secretary would bind her when
it comes to enforcing the department’s challenged regulations.”
Id. at 9 (citing Franklin v. Massachusetts, 505 U.S. 788, 803
(1992)). We agree. Consider, though, that one ground for the
Brackeens’ APA claims is that the Final Rule implements ICWA
provisions that violate their equal protection rights. Thus, to decide that APA claim, we would in any event have to address
whether the relevant parts of ICWA violate equal protection. See
5 U.S.C. § 706(2)(B) (courts may “hold unlawful and set aside
agency action . . . contrary to constitutional right”); see also
Tex. Office of Pub. Utility Counsel, 183 F.3d at 410 (“The intent of
Congress in 5 U.S.C. § 706(2)(B) was that courts should make an
independent assessment of a citizen’s claim of constitutional right
when reviewing agency decision-making.”) (citation omitted).
19

222a
merce Clause grants Congress plenary power over Indian affairs.” Brackeen, 937 F.3d at 434 (citing Lara,
541 U.S. at 200). On en banc rehearing, Defendants
continue to defend ICWA as a valid exercise of Congress’s “plenary and exclusive authority over Indian affairs,” derived from the Indian Commerce Clause, U.S.
Const. art. I, § 8, cl. 3, and the Treaty Clause, art. II,
§ 2, cl. 2, as well as “preconstitutional powers.”
We agree with Defendants that Congress has ample
power to legislate respecting Indians, and also that the
Supreme Court has described that power in broad terms
that go beyond trade. We cannot agree, however, that
Congress’s authority is broad enough to justify ICWA’s
intrusion on state child-custody proceedings. To the
contrary, the Supreme Court has warned that an exercise of Congress’s Indian power that “interfere[s] with
the power or authority of any State” would mark a “radical change[] in tribal status.” Lara, 541 U.S. at 205.
ICWA presents precisely such an interference with
state authority. We therefore hold that, to the extent
ICWA governs child-custody proceedings under state
jurisdiction, it exceeds Congress’s power. 20
A.

In urging us to uphold ICWA, Defendants rely heavily on two propositions: that Congress’s Indian affairs
power goes beyond commerce with tribes and that the
We reject Defendants’ argument that this issue is not before us
because the district court did not rule on it. To the contrary, the
district court ruled on the issue of congressional authority as a necessary part of Defendants’ preemption claims. See Murphy v.
NCAA, 138 S. Ct. 1461, 1479 (2018) (preemption requires considering, first, whether the law “represent[s] the exercise of a power conferred on Congress by the Constitution”).
20

223a
power is “plenary and exclusive.” We therefore consider at the outset whether those propositions, of their
own force, justify ICWA. They do not. Both propositions are true as far as they go, but relying on them to
uphold ICWA would set virtually no limit on Congress’s
authority to override state sovereignty and control state
government proceedings.
Defendants are correct that, under binding Supreme
Court precedent, Congress’s authority to legislate on
Indian affairs extends beyond regulating commerce
with Indian tribes. Despite their textual proximity,
the Indian Commerce Clause has a “very different application[]” from the Interstate Commerce Clause.
Cotton Petroleum Corp., 490 U.S. at 192. “[T]he central
function of the Indian Commerce Clause,” the Court has
explained, “is to provide Congress with plenary power
to legislate in the field of Indian affairs.” Id. (citing
Morton v. Mancari, 417 U.S. 535, 551-52 (1974); COHEN’S
at 207-08 & nn.2, 3, 9-11 (1982)). Longstanding patterns of federal legislation bear this out. For example,
in addition to commercial fields like land 21 and mineral
development, 22 Congress has enacted Indian-related
legislation in non-commercial fields like criminal law, 23
See, e.g., 25 U.S.C. § 177 (requiring federal approval of any
“purchase, grant, lease, or other conveyance of lands . . . from
any Indian nation or tribe of Indians”); id. § 81 (requiring Secretary of Interior approval for contracts leasing Indian lands); Fed.
Power Comm’n v. Tuscarora Indian Nation, 362 U.S. 99, 119 (1960)
(purpose of 25 U.S.C. § 177 is to “prevent unfair, improvident or
improper disposition” of Indian lands).
22
See, e.g., 25 U.S.C. §§ 2101-2108 (development of tribal mineral
resources).
23
See, e.g., 18 U.S.C. § 1153 (placing certain crimes by “[a]ny Indian” within Indian country under federal criminal jurisdiction);
21

224a
education, 24 probate, 25 health care, 26 and housing assistance. 27 Consequently, we cannot agree with Plaintiffs that ICWA is unconstitutional because it does not
regulate tribal “commerce.” Whatever the validity of
that argument as a matter of original constitutional
meaning, cf. Adoptive Couple v. Baby Girl, 570 U.S. 637,
659-65 (2013) (Thomas, J., concurring), it is foreclosed

McGirt v. Oklahoma, 140 S. Ct. 2452, 2482 (2020) (state lacked jurisdiction to prosecute Indian defendant under Major Crimes Act
for crime committed on reservation); Lara, 541 U.S. at 199-200 (upholding statute conferring on tribes criminal jurisdiction over nonmember Indians); United States v. Antelope, 430 U.S. 641 (1977)
(upholding Major Crimes Act); United States v. Kagama, 118 U.S.
375, 385 (1886) (same).
24
See, e.g., 25 U.S.C. § 2000 (“It is the policy of the United States
to fulfill the Federal Government’s unique and continuing trust
relationship with and responsibility to the Indian people for the
See also COHEN’S
education of Indian children . . . . ”).
§ 22.03[1][a] (“Beginning with the 1794 Treaty with the Oneida,
over 150 treaties between tribes and the United States have included educational provisions. For almost as long a time, Congress has legislated to provide for Indian education generally.”)
(footnotes omitted).
25
See, e.g., 25 U.S.C. § 2205 (authorizing tribes to adopt probate
codes for distribution of trust or restricted lands located on reservations or otherwise subject to tribal jurisdiction).
26
See, e.g., 25 U.S.C. § 1601(1) (“Federal health services to maintain and improve the health of the Indians are consonant with and
required by the Federal Government’s historical and unique legal
relationship with, and resulting responsibility to, the American Indian people.”). See also COHEN’S § 22.04 (discussing federal healthcare for Indian tribes).
27
See, e.g., 25 U.S.C. §§ 4101-4243 (establishing housing grant
program for tribes).

225a
by Supreme Court cases interpreting the Indian Commerce Clause to extend beyond commercial interactions
with tribes.
Defendants are also correct that the Supreme Court
has often described Congress’s Indian power as “plenary and exclusive.” See, e.g., Lara, 541 U.S. at 200
(citing Washington v. Confederated Bands & Tribes of
the Yakima Indian Nation, 439 U.S. 463, 470-71 (1979)
(“Yakima Nation”); Negonsott v. Samuels, 507 U.S. 99,
103 (1993); United States v. Wheeler, 435 U.S. 313, 323
(1978)). The Court has used that broad phrase in various ways—sometimes to signal “the breadth of congressional power to legislate in the area of Indian affairs,”
sometimes to confirm “the supremacy of federal over
state law in this area,” and other times “as a shorthand
for general federal authority to legislate on health,
safety, and morals within Indian country, similar to the
states’ police powers.” COHEN’S § 5.02[1] (citing inter
alia Lara, 541 U.S. at 200; Yakima Nation, 439 U.S. at
470; Cotton Petroleum Corp., 490 U.S. at 192). 28 More
recently, the Court has formulated the principle this
way: “As dependents, the [Indian] tribes are subject
to plenary control by Congress.” Michigan v. Bay

See also Gregory Ablavsky, Beyond the Indian Commerce
Clause, 124 YALE L.J. 1012, 1014 (2015)) (“Ablavsky, Indian Commerce”) (“Plenary power, as used by the Court, has two distinct
meanings. Sometimes the Court uses the term interchangeably
with ‘exclusive,’ to describe federal power over Indian affairs to the
exclusion of states. But the Court also uses the term to describe
the doctrine that the federal government has unchecked authority
over Indian tribes, including their internal affairs.”) (footnotes
omitted).
28

226a
Mills Indian Cmty., 572 U.S. 782, 788 (2014) (citing
Lara, 541 U.S. at 200). 29
Merely describing Congress’s authority as “plenary,”
however, does not settle ICWA’s validity. “The power
of Congress over Indian affairs,” the Supreme Court has
explained, “may be of a plenary nature; but it is not absolute.” Del. Tribal Bus. Comm. v. Weeks, 430 U.S. 73,
84 (1977) (quoting United States v. Alcea Band of Tillamooks, 329 U.S. 40, 54 (1946) (plurality op.)); see also
COHEN’S § 5.04[1] (“Federal power to regulate Indian
affairs is ‘plenary and exclusive,’ but not absolute.”)
(footnotes omitted). In this realm, as in any, Congress’s power is limited by other constitutional guarantees. See New York v. United States, 505 U.S. 144, 156
(1992) (“Congress exercises its conferred powers subject to the limitations contained in the Constitution.”). 30
Cf. McGirt, 140 S. Ct. at 2462 (“This Court long ago held that
the Legislature wields significant constitutional authority when it
comes to tribal relations, possessing even the authority to breach
its own promises and treaties.”) (citing Lone Wolf v. Hitchcock, 187
U.S. 553, 566-68 (1903)).
30
See, e.g., Hodel v. Irving, 481 U.S. 704, 710, 718 (1987) (holding
federal law regulating “descent and devise of Indian lands” violated the Takings Clause); Weeks, 430 U.S. at 83-84 (“plenary” congressional power “in matters of Indian affairs” subject to “equal
protection component of the Fifth Amendment”); Mancari, 417
U.S. at 551-55 (same); United States v. Creek Nation, 295 U.S. 103,
109-10 (1935) (power over Indian lands “subject to . . . pertinent constitutional restrictions,” including Takings Clause). A
different question is to what extent the Constitution applies to the
tribes themselves. “As separate sovereigns pre-existing the Constitution, tribes have historically been regarded as unconstrained
by those constitutional provisions framed specifically as limitations
on federal or state authority.” United States v. Bryant, 136 S. Ct.
1954, 1962 (2016) (quoting Santa Clara Pueblo v. Martinez, 436
29

227a
Among the most critical is the Constitution’s structural
guarantee of state sovereignty. See, e.g., Printz v.
United States, 521 U.S. 898, 918-19 (1997) (“Although
the States surrendered many of their powers to the new
Federal Government, they retained ‘a residuary and inviolable sovereignty,’ [which]
. . .
is reflected
throughout the Constitution’s text”) (quoting THE FEDNo Supreme
ERALIST NO. 39, at 245 (J. Madison)).
Court decision even hints that Congress’s Indian affairs
power trumps state sovereignty. To the contrary, the
Court has held that Congress’s power to regulate Indian
commerce—despite being “under the exclusive control
of the Federal Government”—cannot “dissipate” the
“background principle of state sovereign immunity.”
Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 72 (1996).
Similarly, the Court has recognized that states did not
surrender “their immunity against Indian tribes when
they adopted the Constitution.” Blatchford v. Native
Vill. of Noatak and Circle Vill., 501 U.S. 775, 781-82
(1991). Those decisions defy the radical notion that
Congress may deploy its “plenary” Indian power without regard to state sovereignty or the Tenth Amendment. See also infra II(B) (discussing additional precedents).
To say otherwise, as Defendants do, would erase the
distinction between federal and state power—namely,
that “[t]he Constitution confers on Congress not plenary legislative power but only certain enumerated
powers,” with “all other legislative power . . . reserved for the States.” Murphy v. NCAA, 138 S. Ct.
U.S. 49, 56 (1978)). Thus, “[t]he Bill of Rights does not apply to
Indian tribes.” Plains Commerce Bank v. Long Family Land &
Cattle Co., 554 U.S. 316, 337 (2008).

228a
1461, 1476 (2018) (emphasis added). Nor does it follow
that, because the Constitution gives Congress power
over Indian affairs, “the Tenth Amendment expressly
disclaims any reservation of that power to the States.”
New York, 505 U.S. at 156. That begs the question,
then, whether the Indian power includes authority to
govern state child-custody proceedings. That “question[] of great importance and delicacy,” id. at 155
(cleaned up), has not been squarely resolved by the Supreme Court. But the Court has strongly suggested
the answer: it has warned that an exercise of Congress’s Indian affairs power that “interfere[s] with the
power or authority of any State” would mark a “radical
change[]” in tribal relations with the states. Lara, 541
U.S. at 205; see also infra II(B). And, as we explain
below, no founding-era treaty, statute, or congressional
practice supports ICWA’s unprecedented reach. See
infra II(C).
We therefore cannot agree with JUDGE DENNIS that
ICWA’s intrusion on state government proceedings fails
even to implicate the Tenth Amendment. See DENNIS
OP. at 67. According to JUDGE DENNIS, when Congress deploys its Indian power, the Tenth Amendment
vanishes. A court need ask only whether Congress
“may legislate on the particular subject matter at issue”
—here, Indian children and families “in child custody
proceedings.”
Id. Because Congress has “plenary
power” over that subject, raising the Tenth Amendment
as a barrier would “impos[e] new restraints on [Congress’s] authority.” Id.
That is a remarkable view. Imagine its applying to
hypothetical exercises of Congress’s other “plenary”
powers—say, its “plenary power to make rules for the

229a
admission of aliens,” Kleindienst v. Mandel, 408 U.S.
753, 766 (1972), or its “plenary power over the Territories,” District of Columbia v. Carter, 409 U.S. 418, 430
(1973), or its “plenary power to legislate for the District
of Columbia,” Palmore v. United States, 411 U.S. 389,
393 (1973), or its “plenary power . . . to regulate foreign commerce,” Buttfield v. Stranahan, 192 U.S. 470,
496 (1904). Suppose Congress enacted rules in those
areas that purported to govern state proceedings, as
ICWA does. Imagine a federal law mandating different comparative fault rules in state tort suits involving
Swedish visa holders. Or unique proof standards for
Guamanians in state probate proceedings. Or laxer parol evidence rules for D.C. residents embroiled in state
contract litigation.
Or stricter adverse possession
rules for French merchants in state property disputes.
Would those federal laws, directly controlling state administrative and civil proceedings, be immune from the
Tenth Amendment because Congress’s authority in
those areas is “plenary”? Of course not. Neither is
ICWA. 31
In sum, the settled proposition that “tribes are subject to plenary control by Congress,” Bay Mills,
572 U.S. at 788, does not answer the novel question
whether Congress can control state child-custody proceedings involving Indian children. We now turn to
that question.
B.

We agree with JUDGE DENNIS that these hypotheticals are
“far-fetched” and “ridiculous.” DENNIS OP. at 104 n.47. That is
the point of a reductio ad absurdum.
31

230a
To answer it, we consider whether any Supreme Court
precedent—or, failing that, any longstanding foundingera congressional practice—justifies the use of Congress’s Indian affairs power to govern state child-custody proceedings involving Indian children. See, e.g.,
Printz, 521 U.S. at 905 (explaining “contemporaneous
legislative exposition of the Constitution . . . , acquiesced in for a long term of years, fixes the construction to be given its provisions”) (citing Myers v. United
States, 272 U.S. 52, 175 (1926)). As we explain below
(infra II(B)(1)-(2), II(C)), we find neither precedent nor
historical evidence justifying the modern use of Congress’s power here. See Nat’l Fed’n of Indep. Bus. v.
Sebelius, 567 U.S. 519, 549 (2012) (“NFIB”) (“Sometimes the most telling indication of a severe constitutional problem is the lack of historical precedent for
Congress’s action.”) (cleaned up).
We pause to make a point about method. Our analysis
does not ask—as JUDGE DENNIS supposes—whether
any “Founding-era federal law . . . applie[d] within
state child welfare proceedings.” DENNIS OP. at 72.
JUDGE COSTA also tags us with a similarly absurd view.
See COSTA OP. at 16 (imagining we seek a founding-era
practice “explicitly bless[ing] federal intervention in
state domestic relations proceedings” pursuant to the
Indian affairs power) (emphasis added). But that approach to discerning the original extent of federal power
“border[s] on the frivolous.” District of Columbia v.
Heller, 554 U.S. 570, 582 (2008). No one thinks, and we
do not claim, that states were adjudicating adoptions in
1787. Instead, we examine whether comparable founding-

231a
era uses of the Indian power justify ICWA’s modern intrusion into state custody proceedings. 32 See, e.g., infra at 38 (asking whether ICWA is justified by “comparable founding-era exercises of Congress’s Indian affairs power”). Testing whether the old maps onto the
new is standard constitutional analysis. 33 So, we do not
ask the specific (and meaningless) question whether
founding-era Indian power was used to govern “state
domestic relations proceedings”; we do ask the more
general (and meaningful) question whether that power
was used to govern “state proceedings,” “state governments,” “state governmental functions,” or “a state’s
own proceedings that involve Indians.”
See infra
II(C). Thus, the supposed rebuttals to our analysis—
that state court “adjudication of child placements” did
not exist “until the middle of the nineteenth century,”
DENNIS OP. at 72 , and “would not exist for another eight
decades” after the founding era, COSTA OP. at 16—
incinerate a straw man.
That clarification made, we proceed to our analysis.
1.

32
See, e.g., Printz, 521 U.S. at 905-09 (examining whether foundingera federal laws requiring state courts to perform various naturalization functions justified the Brady Act’s requiring state police to
perform gun background checks).
33
See, e.g., Heller, 554 U.S. at 582 (“Just as the First Amendment
protects modern forms of communications, and the Fourth Amendment applies to modern forms of search, the Second Amendment
extends, prima facie, to all instruments that constitute bearable
arms, even those that were not in existence at the time of the founding.”) (citing Reno v. ACLU, 521 U.S. 844, 849 (1997); Kyllo v.
United States, 533 U.S. 27, 35-36 (2001)).

232a
No Supreme Court decision supports Congress’s deploying its Indian affairs power to govern state government proceedings. Indeed, the Court’s precedents
point in the opposite direction: such use of the Indian
power marks a “radical change[] in tribal status” because it “interfere[s] with the power [and] authority of
[the] State[s].” Lara, 541 U.S. at 205.
The logical place to begin is Fisher v. District Court
of Sixteenth Judicial District of Montana, 424 U.S. 382
(1976), because it involves the same subject as this case:
tribal authority over adoptions. Pursuant to the Indian Reorganization Act, 25 U.S.C. § 5123 (formerly
cited as 25 U.S.C. § 476), the Northern Cheyenne Tribe
vested its tribal court with exclusive jurisdiction over
adoptions among tribe members. Fisher, 424 at 387.
The Supreme Court upheld the exclusion of state-court
jurisdiction because it would “interfere with the powers
of self-government conferred upon the [tribe].” Id.
The Court emphasized, however, that the tribe’s exclusive jurisdiction was limited to adoptions where the
child, the birth parents, and the adoptive parents were
“each and all members of the [tribe]” and “reside within
the exterior boundaries of the [reservation].” Id. at
384 n.6. The Court therefore concluded the tribal ordinance implemented an “overriding federal policy” that
ousted state-court jurisdiction “over litigation involving
reservation Indians.” Id. at 390. 34
The law at issue in Fisher is the mirror opposite of
ICWA. Fisher held Congress could keep states out of
on-reservation adoptions among tribe members. By
The Court also rejected an equal protection challenge to the
ordinance, which we discuss infra II(A)(2).
34

233a
contrast, this case asks whether Congress can directly
regulate state proceedings involving off-reservation
adoptions by non-Indians. See, e.g., 25 U.S.C. § 1915(a)
(applying ICWA preferences to “any adoptive placement of an Indian child under State law”). 35 Fisher involved Congress’s valid attempt to promote a tribe’s
“right . . . to govern itself independently of state
law.” 424 U.S. at 386. But this case asks whether
Congress can legislate standards governing a state’s
own child-custody proceedings. To be sure, Fisher
does not squarely address whether Congress has power
to do so. But the decision provides no support for the
proposition that Congress may use its Indian affairs
power to regulate state proceedings.
Speaking directly to that question is United States v.
Lara, 541 U.S. 193 (2004), a more recent examination of
the Indian affairs power. Lara was a double jeopardy
case in which the Indian defendant, Lara, was first prosecuted by a different tribe and then prosecuted for a
similar crime by the United States. 541 U.S. at 196-97.
Lara’s tribal prosecution was authorized by 25 U.S.C.
§ 1301(2), which allows tribes to prosecute other tribes’
members. Id. at 197-98. 36 He argued his tribal prosecution was an exercise of “delegated federal authority,”
such that his federal prosecution constituted double
35
We note that one aspect of ICWA is similar to the law upheld
in Fisher. Section 1911(a) reserves to a tribe exclusive jurisdiction “over any child custody proceeding involving an Indian child
who resides or is domiciled within the reservation of such tribe.”
Our decision does not affect that section because it does not regulate state proceedings.
36
The Supreme Court had previously held tribes could not prosecute members of other tribes in Duro v. Reina, 495 U.S. 676, 688
(1990), but Congress responded with § 1301(2).

234a
jeopardy. Id. The Supreme Court disagreed, concluding that § 1301(2) recognized tribes’ “inherent
power” to prosecute nonmember Indians and that the
federal prosecution did not place Lara in double jeopardy. Id. at 198, 210. The Court discussed several
“considerations” leading it to conclude the statute validly exercised Congress’s Indian affairs power. Id. at
200-07.
First, as noted, the Court confirmed that Congress
has “broad general powers to legislate in respect to Indian tribes,” powers typically described as “plenary and
exclusive.” Id. at 200 (quoting Yakima Nation, 439
U.S. at 470-71). Second, the Court had consistently approved adjustments of “tribal sovereign authority” similar to the expansion of criminal jurisdiction here. Id.
at 202-03. Third, the Court found § 1301(2) did not
have an “unusual legislative objective,” given Congress’s history of “ma[king] adjustments to the autonomous status of other such dependent entities,” such as
the Philippines or Puerto Rico. Id. at 203. Fourth,
the Court found no “explicit language in the Constitution suggesting a limitation” on Congress’s action. Id.
at 204. Fifth, the Court found the jurisdictional change
“limited” because the tribe already had jurisdiction over
its own members as well as “authority to control events
that occur upon [its] own land.” Id. The Court cautioned, however, that it was “not now faced with a question dealing with potential constitutional limits on congressional efforts to legislate far more radical changes

235a
in tribal status. In particular, this case involves no interference with the power or authority of any State.”
Id. at 205 (emphasis added). 37
ICWA’s encroachment on state child-custody proceedings cannot survive scrutiny under these Lara factors. To begin with, unlike in Lara, Defendants point
us to no Supreme Court cases approving an expansion
of “tribal sovereign authority” remotely like the one
contemplated by ICWA. Id. at 202-03. Nor—as discussed infra—have Defendants identified any foundingera congressional history of regulating state proceedings, thus marking ICWA as having an “unusual legislative objective.” Id. at 203. Indeed, ICWA is also “unusual” in that it intrudes into the domestic relations
realm “long . . . regarded as a virtually exclusive
province of the States.” Sosna v. Iowa, 419 U.S. 393,
404 (1975). Whereas in Lara no “explicit [constitutional] language” barred expanding one tribe’s criminal
jurisdiction over other tribe members, 541 U.S. at 204,
the Tenth Amendment plainly reserves to states “[t]he
whole subject of the domestic relations of . . . parent and child . . . . ” Burrus, 136 U.S. at 593-94. Unlike the “limited” jurisdictional expansion in Lara,
ICWA forces tribes into off-reservation state proceedings involving non-Indians. 541 U.S. at 204. Finally,
and most obviously, ICWA seeks the “radical change[]
in tribal status” foreshadowed in Lara: ICWA’s stated

Additionally, the Court explained that its prior decisions implicitly recognized that Congress could relax limitations on tribes’
criminal jurisdiction. Lara, 541 U.S. at 205-07 (citing, inter alia,
Oliphant v. Suquamish Tribe, 435 U.S. 191 (1978); Duro, 495 U.S.
676).
37

236a
purpose is to “interfere[] with the power [and] authority
of [the] State[s].” Id. at 205. 38
Finally, Seminole Tribe, 517 U.S. 44, confirms that
Congress cannot deploy its Indian affairs power to override state sovereignty. In that case, the Court rejected
the proposition that the Indian Gaming Regulatory Act,
enacted under the Indian Commerce Clause, could validly abrogate state sovereign immunity. Id. at 72-73.
The Court squarely held that Congress’s “exclusive” authority over Indian commerce does not “dissipate” a
state’s immunity from federal suit: “[T]he background
principle of state sovereign immunity embodied in the
Eleventh Amendment is not so ephemeral as to dissipate
when the subject of the suit is an area, like the regula-

JUDGE DENNIS contends the Lara factors “are of no relevance”
because, in ICWA, “Congress is not altering the scope of the tribes’
retained sovereign power” but is instead “grant[ing] new rights,
protections, and safeguards” to tribes and families. DENNIS OP.
at 77. We disagree. Nowhere does Lara limit its analysis to federal laws that “alter[] . . . tribes’ retained sovereign power,” as
JUDGE DENNIS claims. Rather, Lara deploys various “considerations” to assess whether the Constitution “authorizes” Congress’s
use of its Indian affairs power. See Lara, 541 U.S. at 200. Those
considerations bear directly on ICWA’s validity. To be sure, the
statute in Lara passed muster because it merely “relax[ed]” prior
statutory restrictions on “the tribes’ exercise of inherent prosecutorial power.” Id. at 200, 207. But Lara expressly reserved the
question whether there are “potential constitutional limits on congressional efforts to legislate far more radical changes in tribal status,” and “[i]n particular” for statutes that “interfere[] with the
power or authority of [a] State.” Id. at 205. The question that
Lara reserved is the one presented by ICWA—whether by
“interfer[ing] with the power or authority of [a] State,” id., ICWA
exceeds Congress’s authority to legislate for Indian tribes.
38

237a
tion of Indian commerce, that is under the exclusive control of the Federal Government.” Id. at 72. Seminole
Tribe’s holding removes any basis for Defendants’ core
argument that, because Congress’s Indian affairs authority is “plenary,” Congress can ipso facto regulate
state sovereign matters like adoption proceedings. To
the contrary, “[e]ven when the Constitution vests in
Congress complete law-making authority over a particular area” like Indian affairs, id., the exercise of that
power remains subject to the Constitution’s guarantees
of state sovereignty. 39
2.

JUDGE DENNIS claims Seminole Tribe “has no bearing” on this
question because it “addressed only limitations on Congress’s power
to override states’ sovereign immunity from suit by private parties.”
DENNIS OP. at 75. That is incorrect. States’ immunity from private suits is “a fundamental aspect of the sovereignty which the
States enjoyed before the ratification of the Constitution,” and which
is confirmed “by the Tenth Amendment.” Alden v. Maine, 527 U.S.
706, 713 (1999); see also Blatchford, 501 U.S. at 781- 82 (rejecting
notion that state surrender of immunity against tribes was “inherent
in the constitutional compact”). Thus, contrary to JUDGE DENNIS’s
view, Seminole Tribe is not cabined to the “states’ sovereign immunity from suit by private parties,” but bears directly on whether Congress’s Indian power may ipso facto override state sovereignty as a
general matter. JUDGE DENNIS also asserts that Seminole Tribe
“carefully noted that its opinion in no way touched upon other aspects of the Tenth Amendment.” DENNIS OP. at 75. That misreads the decision. The footnote JUDGE DENNIS cites only declined
to decide whether the gaming law at issue violated the Tenth Amendment by “mandat[ing] state regulation of Indian gaming,” a question
“not considered below.” Seminole Tribe, 517 U.S. at 61 n.10. Neither the cited footnote, nor anything else in the decision, creates the
artificial distinction JUDGE DENNIS seeks to create here.
39

238a
Defendants cite various Supreme Court decisions as
support for ICWA, but none suffice.
Defendants cite Lara repeatedly, but only for the
general proposition that Congress’s Indian affairs
power has been described as “plenary and exclusive.”
They do not, however, discuss Lara in any detail nor analyze ICWA’s validity under the considerations Lara
sets out. As already discussed, incanting the formula
that Congress’s power in this area is “plenary and exclusive” begs the question whether Congress may use that
power to regulate state child-custody proceedings.
The same can be said for other broad formulations of the
Indian affairs power Defendants cite. For example,
Tribal Defendants quote the seminal opinion in Worcester v. Georgia for the proposition that federal treaties
and laws “contemplate . . . that all intercourse with
[Indians] shall be carried on exclusively by the government of the union.” 31 U.S. (6 Pet.) 515, 519 (1832)
(emphasis added); see also id. at 561 (op. of Marshall,
C.J.) (same). It is unclear what that proposition has to
do with this case. Worcester itself has no bearing on it:
the decision held that Georgia could not apply its criminal laws on Cherokee territory and in contravention of a
federal treaty. See id. at 561 (explaining that “[t]he
Cherokee nation, then, is a distinct community occupying its own territory . . . in which the laws of Georgia can have no force”). 40

In a similar vein is the Supreme Court’s recent decision in
McGirt, 140 S. Ct. 2452. The Court held that certain lands in Oklahoma remained “Indian country” for purposes of the Major
Crimes Act, 18 U.S.C. § 1153(a), and thus that Oklahoma state
courts lacked jurisdiction to try an Indian defendant for crimes he
40

239a
Federal Defendants cite Washington v. Washington
State Commercial Passenger Fishing Vessel Ass’n
(“Fishing Vessel”), 443 U.S. 658 (1979), presumably because that decision required the state of Washington to
accommodate the treaty rights of Indians with respect
to off-reservation fishing sites. Indeed, at en banc argument, Federal Defendants identified Fishing Vessel
as their best case. 41 Rec. of Oral Argument at 8:45-9:50.
But the treaty-based limitation on state regulation allowed in Fishing Vessel is nothing like ICWA’s intrusion
into state child-custody proceedings. The 1850s-era
treaties in Fishing Vessel guaranteed tribes the “right
of taking fish, at all usual and accustomed grounds and
stations . . . in common with all citizens of the Territory.” 443 U.S. at 674. The Court read those treaties to guarantee tribes a portion of yearly fishing runs,
which could not be invalidated by state law or regulation.
committed on those lands. Id. at 2459. McGirt reiterates the familiar propositions that Congress has “significant constitutional
authority when it comes to tribal relations,” id. at 2462—in that
case, the authority to establish an Indian reservation—and that
“State courts generally have no jurisdiction to try Indians for conduct committed in ‘Indian country,’ ” id. at 2459 (citing Negonsott
v. Samuels, 507 U.S. 99, 102-03 (1993)). The decision, however,
offers no support for the proposition that Congress’s Indian affairs
power extends to controlling state proceedings. The Court remarked only that “States have no authority to reduce federal reservations lying within their borders,” id. at 2462, a settled proposition harkening back to Chief Justice Marshall’s admonition in
Worcester.
41
Even so, counsel effectively admitted Fishing Vessel does not
go far enough to support ICWA. When pressed for prior authority allowing Congress’s “plenary” power to interfere with state
child-custody proceedings, counsel responded that “this”—i.e. the
instant challenge to ICWA—“is the case that presents that
[issue].” Rec. of Oral Argument at 10:30-10:55.

240a
Id. at 684-85.42 Requiring state regulatory forbearance
to federal treaties, however, is worlds away from Congress’s dictating separate standards for state childcustody proceedings involving Indian children. Furthermore, unlike in Fishing Vessel, here Defendants
cannot rely on over a century of federal treaties bearing
on the precise subject matter at issue. Cf. Lara, 514
U.S. at 203-04 (finding Indian affairs power justified by
Congress’s history of similar actions); see also id. at 201
(treaties “can authorize Congress to deal with ‘matters’
with which otherwise ‘[it] could not deal’ ”). 43
Tribal Defendants cite several decisions for the proposition that Congress may legislate with respect to Indian activity that does not occur “on or near the reservation.” This general principle is true, of course, but

Fishing Vessel is one in a long line of cases resolving conflicts
between tribal treaty rights and non-tribal interests or state regulation. See, e.g., Herrera v. Wyoming, 139 S. Ct. 1686 (2019);
Puyallup Tribe v. Dep’t of Game of Wash., 391 U.S. 392 (1968);
Seufert Bros. Co. v. United States, 249 U.S. 194 (1919); United
States v. Winans, 198 U.S. 371 (1905).
43
Federal Defendants also cite Antoine v. Washington, 420 U.S.
194 (1975), which, similar to Fishing Vessel, recognized Congress
may ratify agreements with Indian tribes that preclude states from
applying contrary state law. In Antoine, a tribe ceded part of its
land to the United States in exchange for preserving hunting and
fishing rights. The Court held that the Supremacy Clause prevented the State of Washington from applying its hunting and fishing laws to Indians on the ceded lands. See id. at 203-04 (citing,
inter alia, Choate v. Trapp, 224 U.S. 665 (1912); Perrin v. United
States, 232 U.S. 478 (1914); Dick v. United States, 208 U.S. 340
(1908)). Neither Antoine, nor any decision it relied on, suggests
Congress may impose Indian-specific standards on state proceedings.
42

241a
again it begs the question whether ICWA validly regulates state child-custody proceedings. The cited cases
themselves offer no guidance on that question. For example, United States v. McGowan held that Congress
validly denominated as “Indian country” a tract of federal land occupied by an Indian colony, remarking that
Congress may legislate for the “protection of the Indians wherever they may be.” 302 U.S. 535, 539 (1938)
(citation omitted). Morton v. Ruiz invalidated under
the APA an agency policy excluding federal assistance
for tribe members living near reservations, noting “[t]he
overriding duty of our Federal Government to deal
fairly with Indians wherever located.” 415 U.S. 199,
236 (1974). Perrin v. United States upheld a federal
ban on selling alcohol on lands ceded by the Yankton
Sioux Tribe, based on Congress’s power “to prohibit the
introduction of intoxicating liquors into an Indian reservation, . . . and to prohibit traffic in such liquors
with tribal Indians, whether upon or off a reservation
and whether within or without the limits of a state.”
232 U.S. 478, 482 (1914). 44 Finally, United States v.
Kagama upheld Congress’s power to enact a criminal
code for crimes committed by Indians on Indian reservations, observing that only the federal government possessed that power and that “the theater of its exercise is
within the geographical limits of the United States.”
Nor does Perrin’s modern sequel, United States v. Mazurie,
419 U.S. 544 (1975), support Defendants’ position. Like Perrin,
Mazurie only concerns Congress’s Indian commerce power to regulate alcohol sales to Indians and the “introduction of alcoholic beverages into Indian country.” Mazurie, 419 U.S. at 554 (and collecting cases). Mazurie upheld Congress’s use of that power to
ban alcohol sales by a non-Indian who owned land within a reservation. Id. at 546-47, 555-56.
44

242a
118 U.S. 375, 384-85 (1886). As this summary shows,
these decisions say nothing about whether Congress
may exercise its Indian affairs power to regulate a state
sovereign function like child-custody proceedings. 45 And,
to the extent these decisions touch on that question, they
deny Congress’s power to do so. See, e.g., Kagama, 118
U.S. at 383 (observing the federal code “does not interfere with the process of the state courts within the res-

JUDGE HIGGINSON claims our view would resurrect the “governmental function” analysis rejected by Garcia v. San Antonio
Metropolitan Transit Authority, 469 U.S. 528, 546-47 (1985).
HIGGINSON OP. at 1; see also DENNIS OP. at 68-74. We disagree.
In deciding whether federal wage standards could apply to municipal employees, Garcia rejected the test in National League of Cities v. Usery, 426 U.S. 833, 852 (1976), which exempted from federal
regulation “integral” or “traditional” state government functions.
Garcia, 469 U.S. at 546-47. Garcia is inapposite for several reasons. First, Garcia addressed the Commerce Clause, not the Indian affairs power. As discussed, whether the latter encroaches
on state authority is one key to its valid use by Congress. See,
e.g., Lara, 541 U.S. at 205 (asking whether use of the Indian affairs
power “involve[d] . . . interference with the power or authority
of any State”). Second, our view does not depend, as Usery did,
on “apprais[ing] . . . whether a particular governmental function is ‘integral’ or ‘traditional.’ ” Garcia, 469 U.S. at 546-47. Instead, we ask whether the Indian affairs power has ever been used
to regulate state government proceedings of any kind. Third,
Garcia concerned whether “incidental application” of general federal laws “excessively interfered with the functioning of state governments.” Printz, 521 U.S. at 932 (discussing, inter alia, Usery
and Garcia). Here, by contrast, we address a law whose “whole
object . . . [is] to direct the functioning of the state [administrative and judicial proceedings]” in child custody cases. Id.; see
also infra III(B)(1)(b) (explaining ICWA does not “evenhandedly”
regulate state and private activity).
45

243a
ervation . . . [but] is confined to the acts of an Indian of some tribe, of a criminal character, committed
within the limits of the reservation”). 46
C.

Finding no Supreme Court precedent justifying
ICWA’s intrusion on state sovereignty, we next examine
whether ICWA is nonetheless supported by any comparable founding-era exercises of Congress’s Indian affairs power. “[E]arly congressional enactments ‘provid[e] contemporaneous and weighty evidence of the
Constitution’s meaning.’ ” Nev. Comm’n on Ethics v.
Carrigan, 564 U.S. 117, 122 (2011) (alteration in original) (quoting Printz, 521 U.S. at 905). When assessing
the constitutionality of a federal law, the Supreme Court
looks to founding-era legislation for any light it may
shed on the scope of Congress’s authority. See, e.g.,
Printz, 521 U.S. at 905-07 (canvassing “statutes enacted
by the first Congresses” to determine whether Congress could compel state officers to implement federal
law). 47 Evidence that the first Congresses used federal
Defendants also suggest ICWA is authorized by “preconstitutional powers.” But they fail to explain how that is so. As State
Plaintiffs point out, the Supreme Court’s reference to “preconstitutional powers” in Lara referred to the United States’ early relationship with Indian tribes, which at that time resembled “military and
foreign policy [more] than a subject of domestic or municipal law.”
541 U.S. at 201. While such authority spoke to the issue in Lara—
Congress’s power to alter the scope of tribes’ inherent sovereignty—
it has no bearing on ICWA, a law having nothing to do with military
or foreign policy and everything to do with state domestic law.
47
See also Bowsher v. Synar, 478 U.S. 714, 723-24 (1986) (relying
on Congress’s “Decision of 1789” to reject congressional role in officer removal); Marsh v. Chambers, 463 U.S. 783, 790 (1983) (placing particular weight on “[a]n act ‘passed by the First Congress
46

244a
power over Indian tribes to regulate state proceedings
would be “contemporaneous and weighty evidence” that
the Constitution permits ICWA’s encroachment on state
child-custody proceedings. Bowsher v. Synar, 478 U.S.
478 U.S. 714, 723-24 (1986). “Conversely,” if no such
evidence exists, “we would have reason to believe that
the power was thought not to exist.” Printz, 521 U.S.
at 905. Amici Indian law experts, as well as the Navajo
Nation intervenors, have amassed considerable evidence illuminating early use of the Indian affairs power,
which we have carefully considered. See Br. for Prof.
Gregory Ablavsky as Amicus Curiae at 5-20 (“Ablavsky
Br.”); Br. for Indian Law Scholars as Amici Curiae at
3-8 (“Indian Law Scholars Br.”); Br. for Intervenor
Navajo Nation at 11-12 & nn. 5-6 (“Navajo Nation Br.”).
We cannot agree, however, that this evidence supports
ICWA’s modern-day intrusion into state child-custody
proceedings.
Ample founding-era evidence shows that Congress’s
Indian affairs power was intended to be both broad in
subject matter and exclusive of state authority. The
framing generation understood Congress’s power to include, for example, “making war and peace, purchasing
certain tracts of [Indians’] lands, fixing the boundaries
between [Indians] and our people, and preventing the
latter settling on lands left in possession of the former.”
33 JOURNALS OF THE CONTINENTAL CONGRESS, 1774assembled under the Constitution, many of whose members had
taken part in framing that instrument’ ” (quoting Wisconsin v. Pelican Ins. Co., 127 U.S. 265, 297 (1888))); McCulloch v. Maryland,
17 U.S. (4 Wheat.) 316, 401 (1819) (reasoning “[t]he power [to incorporate the Bank of the United States] was exercised by the first
congress elected under the present constitution”).

245a
1789, 458 (Roscoe R. Hill ed., 1936). 48 Additionally, it
was understood that Congress’s power would displace
the prior authority of states under the Articles of Confederation to deal directly with tribes. Defending this
centralization, James Madison wrote that Congress’s
power to regulate commerce with Indian tribes was
“very properly unfettered” from “obscure and contradictory” limitations in the Articles that extended national power only to Indians “not members” of States
and made it subservient to state legislation. THE FEDERALIST NO. 42, at 219 (James Madison) (George W.
Carey & James McClellan eds., 2001). 49 Confirming
this view was Anti-Federalist Abraham Yates, Jr., who
concluded, to his chagrin, that the new Constitution
would “totally surrender into the hands of Congress the
management and regulation of the Indian affairs.”
Abraham Yates, Jr. (Sydney), To the Citizens of the
State of New-York (June 13-14, 1788), reprinted in 20
THE DOCUMENTARY HISTORY OF THE RATIFICATION OF
THE CONSTITUTION 1153, 1156-58 (John P. Kaminski et
al. eds., 2004). This view was later echoed by the
Washington administration:
“[T]he United States
48
See also JOSEPH STORY, COMMENTARIES ON THE CONSTITUTION OF THE UNITED STATES § 533, at 381 (Rotunda & Nowak ed.
1987) (“STORY”) (describing federal Indian power as the “right of

exclusive regulation of trade and intercourse with [Indians], and
the . . . authority to protect and guarantee their territorial
possessions, immunities, and jurisdiction”).
49
See also St. GEORGE TUCKER, VIEW OF THE CONSTITUTION OF
THE UNITED STATES 196 (Liberty Fund 1999) (1803) (discussing
Articles’ “obscure” and “contradictory” limitations on national power
over Indians) (citing THE FEDERALIST NO. 42); STORY § 533, at 380
(observing Articles attempted to “accomplish impossibilities [respecting power over Indians]; to reconcile a partial sovereignty in
the Union, with complete sovereignty in the states”).

246a
have, under the constitution, the sole regulation of Indian affairs, in all matters whatsoever.” Letter from
Henry Knox to Israel Chapin (Apr. 28, 1792), reprinted
in 1 AMERICAN STATE PAPERS: INDIAN AFFAIRS 231-32
(Lowrie & Clarke eds., 1832).
Especially relevant is the first Congress’s enactment
of the Trade and Intercourse Act, see Act of July 22,
1790, 1 Cong. Ch. 33, 1 Stat. 137, which, with its statutory successors, was the primary federal statute governing Indian affairs until the 1830s. See Ablavsky, Indian Commerce, at 1023. The Act prohibited “any
trade or intercourse with the Indian tribes” without a
federal license; prohibited the sale of land by Indians or
Indian tribes unless executed by federal treaty; and extended federal criminal jurisdiction to crimes committed
by non-Indians against Indians.
Congress later
amended the Act to require federal approval to cross
into Indian country and to authorize the United States
military to arrest violators of the Act. See Act of May
19, 1796, 4 Cong. Ch. 30, § 3, 1 Stat. 469, 470; id. §§ 5, 16.
None of this evidence speaks to the question before
us, which is whether Congress may use its Indian affairs
power to regulate a state’s own child-custody proceedings. As already observed, the fact that Congress’s
power goes beyond regulating tribal trade begs the
question whether it allows Congress to regulate state
governments. Also beside the point is the fact that
Congress’s power was intended to exclude state authority over tribes. This prevented states from, for instance,
nullifying federal treaties securing Indian lands. 50
See, e.g., Worcester, 31 U.S. at 561 (explaining that “[t]he Cherokee nation . . . is a distinct community occupying its own
50

247a
That evidence would be relevant if the issue were
whether ICWA could exclude state courts from adoptions involving tribe members. See Fisher, 424 U.S. at
390 (upholding exclusion of state jurisdiction for adoptions among tribe members). But ICWA presents the
opposite scenario: it seeks to force federal and tribal
standards into state proceedings. Amici point us to no
founding-era evidence even suggesting Congress thought
its Indian affairs power extended that far. 51 The most
pertinent example of Indian legislation from the first
Congress—the Trade and Intercourse Act—addresses
various aspects of the federal government’s relationship
with Indians.
It says nothing about regulating a
state’s own proceedings that involve Indians.
Amici and the Navajo Nation also cite evidence that
early Congresses used their authority to protect Indian
children. But their evidence again fails to speak to the
issue before us. For example, amici point to evidence
that the federal government was “reluctantly” involved

territory . . . in which the laws of Georgia can have no force”);
see also Ablavsky, Indian Commerce, at 1045-50 (describing Georgia’s ultimately unsuccessful efforts to assert its “territorial sovereignty” against Cherokee treaty).
51
JUDGE DENNIS similarly relies on evidence of early state resistance to federal Indian treaties, such as New York’s undermining the Fort Stanwix Treaty with the Six Nations and Georgia’s
own conflicting treaties with Creek Indians. See DENNIS OP. at 8
(citing COHEN’S § 1.02[3]; Robert N. Clinton, The Dormant Indian
Commerce Clause, 27 CONN. L. REV. 1055, 1147 (1995)). This evidence has the same flaws as amici’s, however. It supports Congress’s traditional power to bar states from subverting federal Indian treaties. But it does not involve, and so says nothing about,
Congress’s power to impose Indian-specific standards on state proceedings.

248a
in the “widespread trade in captured children, both Indian and white,” such as by “paying federal monies as
ransom for children.” Ablavsky Br. at 19 (citing, inter
alia, Christina Snyder, Slavery in Indian Country:
The Changing Face of Captivity in Early America 17374 (2010)). They also point to federal superintendence
of Indian children by “placing [them] within AngloAmerican communities” and founding a “federally-run
boarding school system.” Ablavsky Br. at 19, 20 (citing
25 U.S.C. §§ 271-304b; FREDERICK E. HOXIE, A FINAL
PROMISE: THE CAMPAIGN TO ASSIMILATE THE INDIANS , 1880-1920, 189-210 (1984)). And they cite various
federal policies vis-à-vis Indian children, such as funding education, allotting lands to Indian orphans, and establishing trust funds. See Indian Law Scholars Br. at
3-8. 52 Finally, the Navajo Nation cites numerous federal treaties that make “repeated promises . . . for
the welfare of tribal children.” Navajo Nation Br. at
11-12 & nn.5-6. 53 We assume only for argument’s sake
See, e.g., Treaty with the Oneida, etc., art. III, Nov. 11, 1794,
7 Stat. 47 (providing for education of tribe’s children); Treaty with
the Kaskaskia art. III, Aug. 13, 1803, 7 Stat. 78 (providing funding
for a Catholic priest “to instruct as many of their children as possible in the rudiments of literature”); Treaty with the Choctaw
art. XIV, Sept. 27, 1830, 7 Stat. 333 (providing lands to unmarried
children and orphans); Treaty with the Shawnee art. VIII, May 10,
1854, 10 Stat. 1053 (establishing trust fund for orphans); Treaty
with the Cherokee, art. XXV, July 19, 1866, 14 Stat. 799 (providing
for education of Cherokee orphan children in an “asylum” controlled by Cherokee government).
53
See, e.g., Treaty with the Nez Percés art. V, June 11, 1855,
12 Stat. 957 (providing two schools supplied with books, furniture,
stationery, and teachers for free to the tribe’s children); Treaty
with the Seminoles art. III, May 9, 1832, 7 Stat. 368 (promising “a
blanket and a homespun frock” to each Seminole child); Treaty
52

249a
that all this evidence concerns founding-era practices
relevant to the original understanding of the Indian affairs power. But see infra II(D) (explaining the federal
boarding-school system dates from the late nineteenth
century). Even then, the evidence shows only that the
federal government has long shouldered responsibility
for protecting Indian children. None of it, however,
speaks to whether Congress may regulate state government proceedings involving Indian children. 54
D.

Relying on much of the same historical evidence we
have examined, JUDGE DENNIS mounts an elaborate
originalist defense of ICWA. See DENNIS OP. at 5-25,
52-66. We agree with JUDGE DENNIS that ICWA’s validity hinges on Congress’s founding-era exercise of its
Indian affairs power. See id. at 5 (citing N.L.R.B. v.
Noel Canning, 573 U.S. 513, 524 (2014); Heller, 554 U.S.
at 605-10). But we sharply disagree with his analysis.

with the Delawares, Supp. Art., Sept. 24, 1829, 7 Stat. 327 (requiring “thirty-six sections of the best land” be sold for “the support of
schools for the education of Delaware children”); Articles of Agreement with the Creeks, Nov. 15, 1827, 7 Stat. 307 (providing $5,000
for “education and support of Creek children at the school in
Kentucky”).
54
JUDGE DENNIS relies heavily on this kind of evidence to support his argument that the “trust relationship” between the Federal Government and Indian tribes justifies ICWA. DENNIS OP.
at 16-17, 20-21, 59; see, e.g., COHEN’S § 5.04[3][a] (“One of the basic
principles of Indian law is that the federal government has a trust
or special relationship with Indian tribes.”). As explained below,
the trust relationship fails to support the notion that Congress may
impose federal standards on state child-custody proceedings. See
infra II(D).

250a
As explained, no founding-era treaty, statute, or practice features anything like ICWA’s foisting federal
standards on state governments. See supra II(C).
ICWA’s goal of managing tribal-state relations may
harken back to the late eighteenth century, but its methods were first born in the late 1970s. The leading Indian law treatise puts it accurately: “While reaffirming basic principles of tribal authority over tribal members, ICWA also inserts federal and tribal law into family matters long within the domain of the states.” COHEN’S § 11.01[1]. By enacting rules for state officials
and for state proceedings, ICWA outstrips the historical
record and so cannot be supported by any original understanding of the Indian affairs power.
We offer these additional responses to JUDGE DENNIS .
First, JUDGE DENNIS invokes the exclusivity of Congress’s Indian power to support ICWA. Because the
power “is exclusive to the federal government,” it “totally displaced the states from having any role in [Indian] affairs.” DENNIS OP. at 58, 53; see id. at 53 (comparing Indian affairs power to “field preemption”); see
also COSTA OP. at 13-14 (relying on “exclusive” and “undivided” nature of federal Indian power). JUDGE DENNIS contends that ICWA deploys this exclusive authority against states. “Just as the Constitution was meant
to preclude the states from undertaking their own wars
or making their own treaties with the Indian tribes,” he
argues, “so too does it empower the federal government
to ensure states do not spoil relations with the Indian
tribes” by placing Indian children with non-Indian families. Id. at 58 (citation omitted). We disagree.

251a
The exclusivity of Congress’s Indian power does not
help justify ICWA. Quite the contrary. ICWA does the
opposite of “excluding” states from Indian adoptions:
it leaves many adoptions under state jurisdiction, see 25
U.S.C. § 1911(b), while imposing “Federal standards” on
those state proceedings. Id. § 1902. If ICWA were
akin to the founding-era practice of reserving warmaking and treaty powers to the United States, then
ICWA would “totally displace[] the states from having
any role” in Indian adoptions. DENNIS OP. at 53. 55 As
discussed, that is what Congress did in Fisher when it
excluded tribal adoptions from state jurisdiction. See
supra II(B)(1) (discussing Fisher, 424 U.S. 382).
ICWA is not that. It does not bar state jurisdiction but
co-opts it, thereby imposing federal yardsticks on state

The same follows from JUDGE DENNIS’s examples of “[s]tate
officials . . . [who] acknowledged the federal government’s plenary authority over Indian affairs under the new constitution.”
DENNIS OP. at 13. Those examples involved war- and treatymaking authority that the state officials conceded was entrusted to
the federal government under the new Constitution. For instance,
in a December 1789 letter, South Carolina Governor Charles Pinckney implored President Washington to conclude a treaty with “hostile Indian tribes” leagued with the Spanish. See DENNIS OP. at
13 (quoting Letter from Charles Pinckney to George Washington
(Dec. 14, 1789), 4 PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL SERIES 401, 404 (Dorothy Twohig ed., 1993)). The “similar
acknowledgments” by the Georgia and Virginia legislatures, id.
(citing Ablavsky, Indian Commerce, at 1043), also involved treaties
and war: Georgia’s request that the federal government negotiate a peace treaty with the Creek, and Virginia’s inquiry about the
propriety of supplying tribes with ammunition. See Ablavsky,
Indian Commerce, at 1043.
55

252a
officials and state proceedings. The exclusivity of federal Indian power argues for invalidating ICWA, not upholding it. 56
Second, JUDGE DENNIS invokes the federal government’s “trust relationship” with Indian tribes to support
ICWA. DENNIS OP. at 59. This “unique” relationship
creates federal obligations “to preserve tribal selfgovernance, promote tribal welfare, and
. . .
manag[e] tribal assets.” Id. at 16- 17 (citing MATTHEW
L.M. FLETCHER, PRINCIPLES OF FEDERAL INDIAN
LAW § 5.2 (1st ed. 2017) [hereinafter FLETCHER]); see
also COHEN’S § 5.04[3][a]. In this relationship, JUDGE
DENNIS finds “a specific obligation to protect the tribes
from the states,” which he claims ICWA furthers.
DENNIS OP. at 59. Principally, he evokes the federal
government’s late-nineteenth-century policy of “Christianizing” Indian children in boarding schools, id. at 2225, 59-60, arguing that ICWA remedies similarly “abusive Indian child custody practices continued at the state
level.” Id. at 59. ICWA thus fulfills the federal government’s trust obligation by “protect[ing] the tribes
from the states.” Id. at 61. Again, we disagree.
Even assuming there is a federal duty to (as JUDGE
DENNIS phrases it) “protect the tribes from the states,”
We do not imply that Congress may never delegate to states
authority over Indian matters. See, e.g., Bryant, 136 S. Ct. at
1960 (observing that, “[i]n 1953, Congress . . . g[ave] six States
[criminal] ‘jurisdiction over specified areas of Indian country
within the States and provid[ed] for the [voluntary] assumption of
jurisdiction by other States’ ”) (first three brackets added; internal
quotation marks omitted)). But no one defends ICWA on that basis, presumably because ICWA does the opposite: it imposes federal and tribal standards on proceedings within state jurisdiction.
See 25 U.S.C. §§ 1901(5), 1903(1), 1911(b).
56

253a
it would not authorize ICWA’s imposition on state proceedings. No founding-era example shows the United
States fulfilling its trust obligations that way. History
tells a different story. The trust doctrine arose out of
early treaties, statutes—principally, the Trade and Intercourse Act and its successors, supra II(C)—and the
Supreme Court decisions in Johnson v. M’Intosh, 21
U.S. (8 Wheat.) 543 (1823), Cherokee Nation, and
Worcester. See COHEN’S § 5.04[3][a]; FLETCHER § 5.2;
WILLIAM C. CANBY, JR., AMERICAN INDIAN LAW IN A
NUTSHELL 16-17 (7th ed. 2020) [hereinafter CANBY]. 57
The key passages undergirding the trust doctrine are from Chief
Justice Marshall’s Cherokee Nation opinion:
57

[I]t may well be doubted whether those tribes which reside
within the acknowledged boundaries of the United States can,
with strict accuracy, be denominated foreign nations. They
may, more correctly, perhaps, be denominated domestic dependent nations. They occupy a territory to which we assert
a title independent of their will, which must take effect in point
of possession when their right of possession ceases. Meanwhile they are in a state of pupilage. Their relation to the
United States resembles that of a ward to his guardian.
They look to our government for protection; rely upon its kindness and its power; appeal to it for relief to their wants; and
address the president as their great father. They and their
country are considered by foreign nations, as well as by ourselves, as being so completely under the sovereignty and dominion of the United States, that any attempt to acquire their
lands, or to form a political connexion with them, would be considered by all as an invasion of our territory, and an act of
hostility.
30 U.S. (5 Pet.) at 17-18; see also COHEN’S § 5.04[3][a] (explaining
Marshall’s Cherokee Nation opinion “provided the basis for analogizing the government-to-government relationship between tribes
and the federal government as a trust relationship”).

254a
Those sources do show the federal government sometimes acted to restrain states on behalf of tribes, but
only in the sense of preventing states from unauthorized
trading, encroaching on tribal land, or subverting treaties. 58 Never did the United States purport to “protect
tribes” by enacting federal standards for state proceedings. See also supra II(C) (discussing absence of such
evidence from founding-era sources). The same is true
for early federal laws regarding crimes against Indians.
See, e.g., CANBY at 17 (noting “[d]epredations by nonIndians against Indians were made a federal crime”).
These laws provided federal compensation for victims,
id., and later for prosecution under federal jurisdiction. 59 While such laws excluded state jurisdiction,
they did not pretend to enact standards for state courts
or officials. Indeed, in upholding a later federal law punishing on-reservation Indian crimes, the Supreme Court

58
See COHEN’S § 5.04[3][a] (explaining Trade and Intercourse
Acts “imposed a statutory restraint on alienation on all tribal land
for the purpose of ensuring federal rather than state or individual
control over acquisition of Indian land”); CANBY at 17 (under the
same Acts, “[n]on-Indians were prohibited from acquiring Indian
lands by purchase or treaty . . . , or from settling on those
lands or entering them for hunting or grazing”); see also Worcester,
31 U.S. at 557 (the Acts “manifestly consider the several Indian
nations as distinct political communities, having territorial boundaries, within which their authority is exclusive, and having a right
to all the lands within those boundaries, which is not only acknowledged, but guarantied [sic] by the United States”).
59
See, e.g., Mary Christina Wood, Indian Land and the Promise
of Native Sovereignty: The Trust Doctrine Revisited, 1994 UTAH
L. REV. 1471, 1497 n.122 (discussing so-called “bad men” clauses in,
for example, the Treaty with the Northern Cheyenne and Northern
Arapahoe art I, May 10, 1868, 15 Stat. 655).

255a
stressed that the law “does not interfere with the process of the state courts within the reservation, nor with
the operation of state laws.” Kagama, 118 U.S. at
383. 60
That brings us to JUDGE DENNIS’s main historical
example—the era of federal “assimilation” of Indian
children in boarding schools. DENNIS OP. at 22-25, 59.
As we grasp his argument, JUDGE DENNIS contends
that, because the federal government once engaged in
this widespread removal and re-education of Indian children, it must also have power to prevent states from engaging in similar “abusive Indian child custody practices.” Id. at 59. 61 We reject this argument.
To begin with, JUDGE DENNIS’s key evidence dates
from the late nineteenth century, not the founding era.
See, e.g., COHEN’S § 1.04 (“In 1879, Indian education began to shift to federal boarding schools so that Indian
students could be removed completely from family and
60
JUDGE DENNIS emphasizes Kagama’s statement that Indian
tribes “owe no allegiance to the states, and receive from them no
protection,” and that “[b]ecause of the local ill feeling, the people
of the states where they are found are often their deadliest enemies.” DENNIS OP. at 67 (quoting Kagama, 118 U.S. at 384).
That colorful dicta has no bearing on the issue before us. As discussed, Kagama decided only that the United States could punish
as a federal crime the murder of an Indian by an Indian on a reservation, even though situated within a state. See 118 U.S. at 37778; see also id. at 383 (noting the law was “confined to the acts of
an Indian of some tribe, of a criminal character, committed within
the limits of the reservation”); see also supra II(B)(2) (discussing
Kagama).
61
The Federal Defendants similarly defend ICWA on the grounds
that “Congress plainly has authority to address the massive removal of children from tribal communities.”

256a
tribal life.”). 62 It therefore provides less insight into
Congress’s Indian power as conceived by the founding
generation. See Printz, 521 U.S. at 905 (explaining
that “contemporaneous legislative exposition of the
Constitution . . . , acquiesced in for a long term of
years, fixes the construction to be given its provisions”
(citing Myers, 272 U.S. at 175) (emphasis added)); 63 cf.
Heller, 554 U.S. at 614 (observing that “discussions
[that] took place 75 years after the ratification of the
Second Amendment . . . do not provide as much insight into its original meaning as earlier sources”).
But even if this evidence concerned founding-era
practice, it would not prove what JUDGE DENNIS claims.
As we have said again and again, none of the history
shows the United States using its Indian power to legislate for state governments. The boarding-school era
makes the same point from a different angle. It shows
the federal government adopting a policy towards Indian children—one roundly condemned today—and
62
See also COHEN’S § 1.04 (during this period “[t]he full brunt of
reeducation was directed toward Indian children, who were
shipped away from the reservation or brought together at reservation schools”); Ablavsky Br. at 20 (discussing the “federally-run
boarding school system, which took Indian children, often without
their parents’ consent, as part of its efforts to civilize them”) (citing
25 U.S.C. §§ 271-304b; FREDERICK E. HOXIE, A FINAL PROMISE:
THE CAMPAIGN TO ASSIMILATE THE INDIANS, 1880-1920, 189-210
(1984)).
63
See also Marsh, 463 U.S. at 790 (observing that “[a]n act
passed by the first Congress assembled under the Constitution,
many of whose members had taken part in framing that instrument, . . . is contemporaneous and weighty evidence of its true
meaning” (citation omitted) (cleaned up)); McCulloch, 17 U.S. at
401 (relying on fact that the contested power “was exercised by the
first congress elected under the present constitution”).

257a
then changing its own policy in a more enlightened direction. See COHEN’S § 1.05 (recounting “[a] marked
change in attitude toward Indian policy [that] began in
the mid-1920s . . . away from assimilation policies
and toward more tolerance and respect for traditional
aspects of Indian culture”). It is a mystery how an era
of misguided federal policy proves Congress can dictate
rules for states. None of this is to say there have been
no abuses in how states have handled Indian adoptions.
It is only to say that, in seeking a remedy, Congress cannot turn state governments into federal adoption agencies. The Tenth Amendment and the Constitution’s
structure forbid it.
One final point. According to JUDGE COSTA’s separate opinion, there is nothing “novel” about ICWA’s “interfer[ing] with state domestic relations proceedings”
because “the federal government has been a constant,
often deleterious presence in the life of the Indian family
from the beginning.” COSTA OP. at 15. But relying on
the same evidence as JUDGE DENNIS, including the
boarding-school era, see id. at 12-17, JUDGE COSTA also
fails to identify a single example of Congress’s deploying
its Indian power to regulate a state’s administrative or
judicial machinery. 64 Thus, his denial that ICWA is a
JUDGE COSTA does dial the volume up to eleven, however.
“[T]he most tragic irony” of our opinion, he claims, is that after two
centuries of federal power “often used to destroy tribal life,” we
would “reject[] that power when it is being used to sustain tribal
life.” Id. at 12. “It would be news to Native Americans,” he continues, that the same federal power used to wage war against them,
steal their lands, displace them, and “ ‘civiliz[e]’ ” their children
“does not [also] reach the Indian family.” Id. Where to begin?
First, nothing prevents the federal government from mending its
ways and using its power “to sustain tribal life.” It has tried to do
64

258a
“novel” use of that power is baffling. Id. at 15. That
view would likely surprise the leading Indian law commentator, Felix Cohen, who wrote that “ICWA . . .
inserts federal and tribal law into family matters long
within the domain of the states.” COHEN’S § 11.01[1].
It would also surprise then-Assistant Attorney General
Patricia Wald, who testified to Congress about ICWA
(and who would later serve as Chief Judge of the D.C.
Circuit). Flagging the “serious constitutional question” raised by ICWA, Wald warned “that the federal
interest in the off-reservation context is so attenuated
that the 10th Amendment and general principles of federalism preclude[] the wholesale invasion of state power
contemplated by [ICWA].” H.R. Rep. No. 95-1386, at
39-40 (1978), as reprinted in 1978 U.S.C.C.A.N. 7530,
7562-63. Of course, Wald’s views—or Felix Cohen’s,
for that matter—do not settle ICWA’s constitutionality.
But at least those commentators recognized, unlike
JUDGE COSTA, that ICWA’s intrusion on state power
was unprecedented.
* * *
We sum up this part. Neither judicial nor congressional precedent supports ICWA’s trespass on state
that for nearly a century. See COHEN’s § 1.05 (era of “Indian Reorganization,” beginning in 1928, “shift[ed] . . . toward more
tolerance and respect for traditional aspects of Indian culture”).
The issue before us, however, is whether the federal government’s
benevolence may include conscripting state governments as adoption agencies. If the Indian affairs power is a blank check, as
JUDGES DENNIS and COSTA appear to think, the answer is yes.
Second, no one denies that federal power “reach[es] the Indian
family.” COSTA OP. at 12. The issue here is whether it also
reaches the state administrative and judicial proceedings that
ICWA purports to govern.

259a
child-custody proceedings. While offering evidence
that Congress has deployed its Indian affairs power
broadly, exclusive of state authority, and in aid of Indian
children, neither Defendants nor their amici nor JUDGE
DENNIS offer founding-era examples of Congress’s using this power to intrude on state governmental functions as ICWA does. “Legislative novelty is not necessarily fatal; there is a first time for everything. But
sometimes the most telling indication of a severe constitutional problem is the lack of historical precedent for
Congress’s action.” NFIB, 567 U.S. at 549 (Roberts,
C.J.) (cleaned up) (quoting Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 505 (2010)).
The founding generation launched the Constitution in an
atmosphere of intense suspicion about federal encroachment on state sovereignty. See Centinel Letter I (Oct.
5, 1787) (warning power of the proposed government
would “necessarily absorb the state legislatures and judicatories” and “melt[] [the United States] down into
one empire”), reprinted in THE ESSENTIAL ANTIFEDERALIST 102 (W.B. Allen & Gordon Lloyd eds., 2002).
If Congress had deployed its Indian affairs power to
govern state governments, some evidence would remain.
Finding none, we have “reason to believe that the power
was thought not to exist.” Printz, 521 U.S. at 905.
The Constitution gives Congress sweeping powers
over Indians. But the power Congress claims in ICWA
finds no support in any Supreme Court decision or
founding-era practice. To permit Congress to regulate
state child-custody proceedings, whenever they involve
Indian children, is incompatible with “our federal system, [in which] the National Government possesses only
limited powers [and] the States and the people retain
the remainder.” Bond, 572 U.S. at 854. To the extent

260a
ICWA governs child-custody proceedings under state
jurisdiction, it exceeds Congress’s power.
III.

Challenges to Specific ICWA Provisions

Alternatively, we address Plaintiffs’ claims that parts
of ICWA violate the Fifth Amendment (III(A)); the
commandeering doctrine (III(B)); the nondelegation
doctrine (III(C)); and the APA (III(D)). We then consider the appropriate remedy (III(E)).
A.

Fifth Amendment Equal Protection

We first address whether ICWA violates the equal
protection component of the Fifth Amendment. See
Adarand Constructors, Inc. v. Pena, 515 U.S. 200, 21527, 235 (1995); Bolling v. Sharpe, 347 U.S. 497, 499 (1954).
“Fifth Amendment equal protection claims against federal actors are analyzed under the same standards as
Fourteenth Amendment equal protection claims against
state actors.” Butts v. Martin, 877 F.3d 571, 590 (5th
Cir. 2017) (citing Weinberger v. Wiesenfeld, 420 U.S.
636, 638 n.2 (1975)). Laws that classify citizens by race
or ancestry trigger “the ‘most rigid scrutiny.’ ” Fisher
v. Univ. of Tex., 570 U.S. 297, 309-10 (2013) (citing, inter
alia, Rice v. Cayetano, 528 U.S. 495, 517 (2000); Bolling,
347 U.S. at 499; quoting Loving v. Virginia, 388 U.S. 1,
11 (1967)). Laws that do not classify in those ways,
however, must still be “rationally related to a legitimate
governmental purpose.” Clark v. Jeter, 486 U.S. 456,
461 (1988) (citing San Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 17 (1973)).
Plaintiffs claim ICWA violates equal protection:
(1) by treating “Indian children” differently from nonIndian children; and (2) by preferring “Indian families”

261a
over non-Indian families. Both classifications, they argue, are racial and fail strict scrutiny. Alternatively,
Plaintiffs say neither classification rationally links children with their tribes. Relying heavily on Mancari,
Defendants counter that ICWA adopts “political” classifications subject to rational basis review. They say
ICWA turns on a child’s actual or potential tribal affiliation, not race, and so rationally furthers “Congress’s
‘unique obligation toward the Indians.’ ” They also defend ICWA’s preference for Indian over non-Indian
families because “many tribes have deep historic and
cultural connections with other tribes, and . . . many
Indian children may be eligible for membership in more
than one tribe.”
Siding with Plaintiffs, the district court concluded
ICWA classifies by race and fails strict scrutiny. The
court stressed that ICWA covers children “simply eligible for [tribal] membership who have a biological Indian
parent.” 65 Brackeen, 338 F. Supp. 3d at 533. Surveying
membership criteria, the court reasoned that ICWA applies if a child is “related to a tribal ancestor by blood.”
Id. The court also found that ICWA fails strict scrutiny because it is not narrowly tailored to maintaining
tribal ties. ICWA applies to “eligible” children who
may “never be members of their ancestral tribe.” Id.
at 533, 536 ICWA also “priorit[izes] a child’s placement with any Indian,” regardless of tribe, thus “impermissibly . . . treat[ing] ‘all Indian tribes as an undifferentiated mass.’ ” Id. at 535 (cleaned up) (quoting
See § 1903(4) (defining Indian child as an unmarried minor who
is either a tribal member or “eligible for membership in an Indian
tribe and . . . the biological child of a member of an Indian
tribe”).
65

262a
United States v. Bryant, 136 S. Ct. 1954, 1968 (2016)
(Thomas, J., concurring)).
1.

Even assuming ICWA classifies by tribe, not race,
it still must rationally link children to tribes.

The parties dispute whether ICWA classifies by race
or tribe. Under Supreme Court precedent, which we
examine below, that is a close question. Whatever the
answer, though, the cases teach that the classifications
still must rationally further ICWA’s goal of linking children with tribes. Because we resolve the equal protection challenges on that basis (infra III(A)(2)-(3)), we
need not decide whether ICWA classifies by race. Here
we provide necessary context for our analysis by surveying the Court’s Indian-classification cases from Mancari
(1974) to Adoptive Couple (2013).
The seminal case is Mancari, which upheld a federal
preference for hiring “Indians” at the Bureau of Indian
Affairs (“BIA”). 417 U.S. at 551-55. “Indian” meant
a tribe member with “one-fourth or more degree Indian
blood.” Id. at 553 n.24. The Court found this a “political rather than racial” preference because it excluded
many “racial[]” Indians and was granted to Indians only
“as members of quasi-sovereign tribal entities.” Id. at
553 n.24, 554. Separately, the Court required the preference to be “reasonable and rationally designed to further Indian self-government.” Id. at 555. 66 Impor-

As the Court explained, the preference: (1) was “an employment criterion reasonably designed to further the cause of Indian
self-government,” Mancari, 417 U.S. at 554; (2) insured “participation by the governed in the governing agency,” id.; (3) was akin to
requiring officials to reside in the jurisdictions they govern, id.;
66

263a
tantly, the preference “d[id] not cover any other Government agency or activity,” and so did not raise “the
obviously more difficult question that would be presented by a blanket exemption for Indians from all civil
service examinations.” Id. at 554. 67
From 1974 to 1979, the Court applied Mancari to
turn back similar equal protection challenges. It upheld laws: (1) granting a tribe sole jurisdiction over onreservation adoptions; 68 (2) barring states from taxing

(4) applied only to the BIA, whose “legal status [w]as truly sui generis” because it “governed . . . [tribal entities] in a unique fashion,” id.
67
Given our discussion of Mancari, we are puzzled by Judge
Costa’s insistence that we harbor “the notion that the Constitution
prohibits the federal government from granting preferences to
tribe members.” COSTA OP. at 18. JUDGE COSTA quotes nothing
from our opinion to prove that claim. To the contrary, we recognize that Mancari permits certain federal preferences for tribe
members. See 417 U.S. at 538, 541 (upholding BIA hiring preference for Indians and noting “[t]he federal policy of according some
hiring preference to Indians in the Indian service dates at least as
far back as 1834”) (citations omitted). But the issue here—one
Mancari itself recognized—is the permissible extent of those preferences. See id. at 554 (observing that “the BIA is truly sui generis,” that “the preference does not cover any other Government
agency or activity,” and consequently that “we need not consider
the obviously more difficult question that would be presented by a
blanket exemption for Indians from all civil service examinations”).
JUDGE COSTA pivots from this baseless claim to accuse us of “activis[m],” COSTA OP. at 20, and to propose a debate—one far afield
from the issues in this case—over whether “[o]riginalism usually
goes AWOL when the issue is whether the government may grant
preferences to historically disadvantaged groups,” id. at 18. We
decline the invitation.
68
Fisher, 424 U.S. at 384 n.5, 387, 389-91.

264a
on-reservation sales; 69 (3) disbursing treaty funds
based on tribe membership; 70 (4) creating a criminal
code for Indian lands; 71 (5) authorizing states to exercise jurisdiction over in-state Indian lands; 72 and (6) securing fishing rights to certain tribes. 73 These cases
emphasized two things about permissible Indian classifications. First, they turn on tribal status, not race.
Second, they reasonably further tribal interests—for instance, in self-government, economic development, and
protecting Indian lands. 74

Moe v. Confederated Salish & Kootenai Tribes of the Flathead
Reservation, 425 U.S. 463, 475-80 (1976).
70
Weeks, 430 U.S. at 79-85.
71
Antelope, 430 U.S. at 646-47 & n.7.
72
Yakima Nation, 439 U.S. at 471-76, 484.
73
Fishing Vessel, 443 U.S. at 684-85f.
74
See, e.g., Fisher, 424 U.S. at 387-91 (noting the law classified
not by race but by the tribe’s “quasi-sovereign status,” and “further[ed] . . . Indian self-government” by excluding state jurisdiction); Moe, 425 U.S. at 475-80 (“special [tax] treatment” turned
on treaty and furthered “Congress’ unique obligation toward the
Indians” (quoting Mancari, 417 U.S. at 555) (cleaned up)); Weeks,
430 U.S. at 79-85 (distribution turned on whether recipients were
descendants of Delawares who maintained tribal membership);
Antelope, 430 U.S. at 646 & n.7 (criminal code applied based on
whether defendants were “enrolled [tribe] members” and acted
“within . . . Indian country” (citing Mancari, 417 U.S. at
553 n.24)); Yakima Nation, 439 U.S. at 471-76, 500-02 (state jurisdiction turned only on “tribal status and land tenure,” and was
“fairly calculated” to balance non-Indian rights with “tribal selfgovernment”); Fishing Vessel, 443 U.S. at 673 & n.20 (fishing
rights turned on tribal status, not race).
69

265a
Moving ahead several years, two decisions have clarified how equal protection applies to Indian classifications. Those are Rice and Adoptive Couple. 75
Rice asked whether the Hawaii Constitution could allow only “Hawaiians” to elect trustees of a state “Hawaiian Affairs” agency. 528 U.S. at 499. The Court held
that the classification violated the Fifteenth Amendment. Id. The definition of “Hawaiian”—“any descendant of the aboriginal peoples” inhabiting the islands since 1778—was “a proxy for race” because it
traced a person’s genetic relationship to aboriginal
Plaintiffs argue that a more radical limit on Mancari arises
from the Supreme Court’s 1995 decision in Adarand. That decision addressed a federal program that paid highway contractors to
hire subcontractors controlled by “socially and economically disadvantaged individuals.” 515 U.S. at 204. The program presumed
social disadvantage if individuals were “black, Hispanic, Asian Pacific, Subcontinent Asian, [or] Native Americans.” Id. at 207 (citation omitted) (emphasis added). Without discussing Mancari,
the Court treated these as “race-based presumptions,” id. at 208,
subject to strict scrutiny. Although Adarand did not specifically
address the Native American category, more than one federal
judge has cautioned that Adarand may undercut Mancari. See
id. at 244-45 & n.3 (Stevens, J., dissenting) (warning the majority’s
reasoning “would view the special preferences that the National
Government has provided to Native Americans since 1834 as comparable to” race discrimination (citing Mancari, 417 U.S. at 541,
551-52, 553-54 & n.24)); Williams v. Babbitt, 115 F.3d 657, 665 (9th
Cir. 1997) (“If Justice Stevens is right about the logical implications of Adarand, Mancari’s days are numbered.”); but see Am.
Fed’n of Gov’t Emps., AFL-CIO v. United States, 330 F.3d 513,
520-23 (D.C. Cir. 2003) (rejecting argument that Adarand impacts
scrutiny for appropriations preference “promoting the economic
development of federally recognized Indian tribes”). Because we
do not decide whether ICWA’s classifications are race-based, however, we need not address whether Adarand undercuts Mancari.
75

266a
“races.” Id. at 514-16. Relevant here, Rice held the
voting restriction was not justified by Mancari. Id. at
518-22.
Even assuming native Hawaiians were like Indian
tribes, the Court refused to “extend the limited exception of Mancari to [this] new and larger dimension.”
Id. at 518, 520. Mancari’s hiring preference was “rationally designed to further Indian self-government” in
a “sui generis” context. Id. at 520 (quoting Mancari,
417 U.S. at 554, 555). But the decision could not support limiting voting for state offices to “a class of tribal
Indians.” Id. This was because Mancari concerned
only “the internal affair of a quasi sovereign” (a tribe),
while the election in Rice concerned the entire “State of
Hawaii.” Id. “To extend Mancari to this context,”
the Court held, “would be to permit a State, by racial
classification, to fence out whole classes of its citizens
from decisionmaking in critical state affairs.” Id. at
522. Thus, in deciding Rice, the Court clarified that
Mancari’s “limited” hiring preference for Indians could
not support preferring Indians in “critical state affairs”
like an election. Id. at 520, 522. 76
The second key decision is Adoptive Couple, which
interpreted ICWA in a dispute between an Indian child’s
adoptive parents and her biological father. 570 U.S. at
643-46.
The Court held that certain ICWA
provisions—its termination standard (§ 1912(f )), activeefforts requirement (§ 1912(d)), and placement prefer-

See, e.g., Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th Cir.
2004) (explaining Rice stands for the proposition that “Congress
may not authorize special treatment for a class of tribal Indians in
a state election”).
76

267a
ences (§ 1915(a))—do not apply where the child’s biological father never had custody because he had abandoned
the child. Id. at 648, 651-56. 77 Relevant here, the
Court warned that certain applications of ICWA may
deny a child equal protection.
Specifically, the Court warned against applying
ICWA to “put certain vulnerable children at a great disadvantage solely because an ancestor—even a remote
one—was an Indian.” Id. at 655. It observed that “a
biological Indian father could abandon his child in utero
and refuse any support for the birth mother . . . and
could then play his ICWA trump card at the eleventh
hour to override the mother’s decision and the child’s
best interests.” Id. at 656. If ICWA required that result, “many prospective adoptive parents would surely
pause before adopting any child who might possibly
qualify as an Indian under the ICWA.” Id. “Such an
interpretation,” the Court stated, “would raise equal
protection concerns.” Id.
In sum, in equal protection challenges the Supreme
Court has permitted Indian classifications based on
tribal status (not race), if they rationally further federal
obligations to tribes. This is logical, given the Constitution itself includes the category of “Indian Tribes.”
The Court explained that the termination standard—requiring
a showing that the parent’s “continued custody” may seriously
harm the child, § 1912(f )—would not apply where a parent never
had custody. Adoptive Couple, 570 U.S. at 648. Similarly, the
active-efforts requirement—requiring “active efforts” to “prevent
the breakup of the Indian family,” § 1912(d)—would not apply
where the parent had abandoned the child (there being no Indian
family to “break up”). Id. at 651-53. Finally, the placement
preferences would not apply “if no alternative party that is eligible
to be preferred . . . has come forward.” Id. at 654.
77

268a
See U.S. CONST. art. I, § 8, cl. 3 (vesting Congress with
power to “regulate Commerce . . . with the Indian
Tribes”). 78 At the same time, the Court has warned
that Indian classifications may raise equal protection
concerns when deployed outside the tribal context. A
classification may go beyond internal tribal matters and
interfere with state affairs (as in Rice), or it may disadvantage a child with tenuous links to a tribe (as in Adoptive Couple).
ICWA’s classifications exist in the twilight between
tribe and race. As Defendants point out, ICWA links
its “Indian child” definition to tribes: a child must be a
tribe member or at least “eligible” for membership and
the offspring of a member. See § 1903(4). As Plaintiffs respond, however, whether a child is “eligible” for
membership often turns on a child’s quantum of Indian
blood. For instance, one child in this case, Y.L.M., is
eligible for membership in the Navajo Tribe because she
is one-half “Navajo Indian Blood.” As Plaintiffs forcefully argue, the fact that ICWA may apply depending on
the degree of “Indian blood” in a child’s veins comes
queasily close to a racial classification. 79

See also, e.g., United States v. Zepeda, 792 F.3d 1103, 1117 (9th
Cir. 2015) (Kozinski, J., concurring in the judgment) (“The Supreme
Court has stressed time and time again that federal regulation of
Indian tribes does not equate to federal regulation of the Indian
race.” (citing Fisher, 424 U.S. at 390), Antelope, 430 U.S. at 646, and
Mancari, 417 U.S. at 553 n.24)).
79
See, e.g., Zepeda, 792 F.3d at 1117 (Kozinski, J., concurring in
the judgment) (making applicability of Indian Major Crimes Act
turn, even partially, on “proof of some quantum of Indian blood”
creates an “overt racial classification”); id. at 1119-20 (Ikuta, J.,
concurring in the judgment) (use of “blood quantum test” in same
78

269a
For present purposes, we need not decide whether
ICWA classifies by race or tribe. Regardless, the Supreme Court still requires the law’s classifications
be “reasonable and rationally designed” to further federal obligations toward tribes. Rice, 528 U.S. at 520
(quoting Mancari, 417 U.S. at 555). As explained below, ICWA’s separate standards for Indian children—
standards which govern state proceedings, apply to children with tenuous connections to a tribe, and allow birth
parents’ wishes to be overridden—fail to rationally further tribal interests. That is even more evident with
respect to ICWA’s preference for Indian over nonIndian families, which is divorced from Congress’s goal
of keeping children linked to their tribe. 80
2.

The “Indian child” classification fails to rationally
further ICWA’s goal of linking children to tribes.

For three related reasons, ICWA’s disparate standards for “Indian children” fail to rationally further federal obligations toward Indian tribes.
First, ICWA creates separate standards for Indian
children that extend beyond internal tribal affairs and
law is foreclosed by Rice’s “opposition to ‘ancestral tracing of this
sort’ ”(cleaned up) (quoting Rice, 528 U.S. at 510)).
80
JUDGE DENNIS takes issue with our tailoring analysis on two related grounds. First, he chides us for not “truly” arguing that ICWA
fails rational basis review but instead only arguing that “ICWA uses
impermissible means” to further Congress’s tribal obligations.
DENNIS OP. at 120. Second, he contends we “apply a far more
searching standard of scrutiny” than rational basis. Id. at 120-21.
The simple answer to both contentions is that we are faithfully following the tailoring analysis for Indian classifications laid out by
Mancari, Rice, and Adoptive Couple. JUDGE DENNIS’s analysis,
by contrast, proceeds as if those precedents had no bearing on this
question at all, which is incorrect. See infra III(A)(2)-(3).

270a
intrude into state proceedings. Mancari long ago cautioned that a “blanket exemption” for Indians in the civil
service system would raise “obviously . . . difficult”
equal protection problems. 417 U.S. at 554. Rice amplified this warning, holding an Indian classification
could not “extend” beyond a tribe’s “internal affair[s]”
into an “affair of the State,” like an election. 528 U.S.
at 520-22. ICWA does just what Mancari foretold and
Rice forbade: it creates disparate standards for Indian
children in state proceedings. By exporting a blanket
Indian exception into state proceedings, ICWA violates
Rice and severs any connection to internal tribal concerns.
Compare this intrusion on state jurisdiction with the
law upheld in Fisher. Supra II(B)(1). Fisher approved exclusive tribal jurisdiction for adoptions where
the child, birth parents, and adoptive parents were
“each and all members of the [tribe] and . . . reside[d] within the exterior boundaries of the [reservation].” 424 U.S. at 384 n.6. That limited measure was
“justified” because it “further[ed] the congressional policy of Indian self-government.” Id. at 391. By contrast, ICWA dictates different standards for Indian children within “the States[’] . . . recognized jurisdiction.” § 1901(5). By imposing “Indian child” standards on state proceedings, ICWA severs the link to
tribal self-government or any other tribal interest identified by the Supreme Court.
In disagreeing with this analysis, Defendants and
JUDGE DENNIS misread Rice. First, they claim Rice
merely reaffirmed Mancari and nothing more. DENNIS OP. at 117. Not so: Rice specified that Mancari’s
“limited” and “sui generis” Indian classification could

271a
not apply outside the tribal context to a state-wide election. 528 U.S. at 520-22. Thus, JUDGE DENNIS is wrong
to argue that “the degree to which [ICWA] intrudes on
state proceedings has no bearing on whether [ICWA] is
rationally linked to protecting Indian tribes.” DENNIS
OP. at 120. To the contrary, Rice said this is a critical
factor: an Indian classification cannot be transplanted
from the “internal affair[s]” of tribes into external matters concerning all state citizens. 508 U.S. at 520; see,
e.g., Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th
Cir. 2004) (explaining that, after Rice, “Congress may
not authorize special treatment for a class of tribal Indians in a state election”). Next, Defendants and JUDGE
DENNIS say Rice, unlike this case, concerned the Fifteenth Amendment. DENNIS OP. at 121. That is true
but misses the point. Rice said an Indian class could
not be used “in critical state affairs.” 528 U.S. at 522.
Child-custody proceedings are no less critical to states
than was the agency election in Rice. See, e.g., Palmore
v. Sidoti, 466 U.S. 429, 433 (1984) (“The State . . .
has a duty of the highest order to protect the interests
of minor children, particularly those of tender years.”).
Finally, Defendants argue that, unlike in Rice, ICWA
does not “bar any person . . . from participating in
child-custody proceedings” (emphasis added). That is
beside the point. Rice did not turn on whether people’s
rights were “barred” or only limited. Its point was that
a tribal classification—which could limit participation in
a tribe’s “internal affair[s]”—cannot do so in “affair of
the [s]tate,” like the state election in Rice or the state
custody proceedings here. Id. at 520. 81
JUDGE DENNIS goes so far as to say that state child-custody
proceedings involving Indian children are somehow no longer
81

272a
Second, ICWA covers children only “eligible” for
tribal membership. Enacting ICWA, Congress declared “there is no resource that is more vital to the continued existence and integrity of Indian tribes than their
children.” § 1901(3) (emphasis added). But ICWA
applies not only to child tribe members, but also to a
child only “eligible for membership in an Indian tribe
and . . . the biological child of a member of an Indian tribe.” § 1903(4) (emphasis added). As Defendants tell us, “[m]embership in an Indian tribe is generally not conferred automatically upon birth,” but requires “affirmative steps” by parents or guardians.
See 81 Fed. Reg. at 38,783 (explaining “Tribal membership . . . is voluntary and typically requires an affirmative act by the enrollee or her parent”). This
means ICWA applies to a child who is not, and may
never become, a tribe member.
Federal Defendants respond that, because a child’s
“formal enrollment” in a tribe depends on parents or
guardians, eligibility is a “proxy” for the child’s “notyet-formalized tribal affiliation.” This is just a complicated way of saying that a child only eligible for membership may never become a member, and may have no
other tangible connection to a tribe. The cases before
purely state affairs. Relying on Congress’s finding that Indian
children are tribes’ “vital” “resource[s],” 25 U.S.C. § 1901(3), he
claims: “[E]ven when ICWA reaches into state court adoption
proceedings, those proceedings are simultaneously affairs of
states, tribes, and Congress.” DENNIS OP. at 122. No authority supports that remarkable claim. ICWA’s own findings recognize that
“the States” have “their recognized jurisdiction over Indian child
custody proceedings through administrative and judicial bodies,”
25 U.S.C. § 1901(5), and its provisions maintain the distinction between state and tribal jurisdiction, id. § 1911(a), (b).

273a
us illustrate the point better than any abstract discussion could.
Take A.L.M., whom the Brackeens eventually adopted,
with his birth parents’ approval, over objections by the
Navajo Nation. A.L.M.’s only tie to the Navajo is that
his mother is a member (his father is Cherokee). But
neither A.L.M. nor his birth parents have ever lived on
the Navajo reservation during A.L.M.’s life, except for
the “day he was born and the next day.” The Navajo
never tried to participate in A.L.M.’s adoption proceedings. And the only reason A.L.M. is considered Navajo
(and not Cherokee) is that “representatives of the Cherokee and Navajo Nations . . . reached an agreement
in the hallway outside the hearing room that A.L.M.
would become a member of the Navajo Nation because
only the Navajo had identified a potential foster placement.” Or take Child P., whom the Cliffords are trying
to adopt over objections by the White Earth Band of
Ojibwe Indians. Child P. is linked to the White Earth
Band through her maternal grandmother, R.B. Before
Child P. was placed with the Cliffords, the tribe wrote
the state court that Child P. was ineligible for membership. After placement, however, the tribe changed its
position and declared Child P. eligible. This triggered
ICWA’s placement preferences: Child P. was taken
from the Cliffords and placed with R.B., whose foster license had been previously revoked by the state.
As these cases illustrate, ICWA permits a child’s inchoate tribal membership to override her placement in
state proceedings. 82 ICWA thereby “put[s] certain
JUDGE DENNIS waves away this (and the next) tailoring flaw in
ICWA because he claims they only make the law “under- and overinclusive.” DENNIS OP. at 122-23. We disagree. First, JUDGE
82

274a
vulnerable children at a great disadvantage solely because an ancestor—even a remote one—was an Indian.”
Adoptive Couple, 570 U.S. at 655. This squarely raises
the “equal protection concerns” forecast by the Supreme Court in Adoptive Couple. 83
Third, ICWA overrides the wishes of biological parents who support their child’s adoption outside the tribe.
When enacting ICWA, Congress proclaimed that too
many Indian families were being “broken up” when nontribal agencies engaged in the “often unwarranted” “removal” of children and placed them with “non-Indian”
families. § 1901(4). But ICWA applies even when an
DENNIS again disregards what Mancari, Rice, and Adoptive Couple
teach about tailoring: overbroad Indian classifications divorced from
tribal interests create equal protection problems. See Mancari,
417 U.S. at 554; Rice, 528 U.S. at 520-22; Adoptive Couple, 570 U.S.
at 655. Second, the “eligibility” criterion does not merely make
ICWA “over-inclusive.” Eligibility—one of only two ways to trigger ICWA—makes the law cover children (like the ones here) with
no actual connection to a tribe. Third, as discussed below, allowing
ICWA to override birth parents’ wishes to place their children with
non-Indians does not mean ICWA only has “imperfect means-ends
fit[].” DENNIS OP. at 123 (citation omitted). Instead, it makes
nonsense of ICWA’s key goal of preventing the break-up of Indian
families. See 25 U.S.C. § 1901(4). Finally, JUDGE DENNIS discounts ICWA’s first tailoring flaw—namely, its intrusion into state
proceedings in defiance of Mancari and Rice. Taken together,
these three flaws show ICWA fails to rationally further its goals.
83
Few provisions in Title 25 define “Indian” to include persons
“eligible” for tribal membership. See, e.g., 25 U.S.C. § 2511(3)
(defining “Indian” this way for purposes of tribal school grants).
None of these provisions, however, has any impact on state proceedings as ICWA does. Cf., e.g., § 2502(a)(1) (authorizing federal
grants to tribes that operate certain schools). Consequently, none is
affected by our holding that ICWA’s inclusion of “eligible” members is one factor that severs its connection to tribal interests.

275a
Indian child’s parents do not oppose adoption outside
the tribe. In other words, ICWA applies in circumstances entirely unlike those that gave rise to the law—
situations where no Indian family is being “broken up”
by state authorities and where parents themselves acquiesce in children’s being placed in “non-Indian foster
[or] adoptive homes.” Id.
Again, the cases before us illustrate the point. Take
Baby O., the child of Altagracia Hernandez (a nonIndian) and E.R.G. (descended from members of the Ysleta del sur Pueblo Tribe). Both parents supported
Baby O.’s adoption by the non-Indian Librettis—indeed,
Hernandez is a plaintiff in this case alongside the
Librettis. Yet the Pueblo, asserting E.R.G. was a
member, intervened and proposed numerous Indianfamily placements under ICWA.
Or again take
A.L.M., whose Navajo mother and Cherokee father both
testified they support A.L.M.’s adoption by the nonIndian Brackeens. Nonetheless, the Navajo sought to
block the Brackeens’ adoption of A.L.M. in favor of placing the child with unrelated tribe members, and is now
doing the same with the Brackeens’ attempt to adopt
A.L.M.’s half-sister, Y.R.J. See In re Y.J., 2019 WL
6904728, at *3-5.
As Plaintiffs point out, allowing ICWA to override
birth parents’ wishes in this way again raises the “equal
protection concerns” foreshadowed by Adoptive Couple.
In that case, the Court warned ICWA was open to equal
protection challenge if it allowed a tribe member “to
override the mother’s decision and the child’s best interests” and thus “put certain vulnerable children at a
great disadvantage solely because an ancestor—even a
remote one—was an Indian.”
570 U.S. at 655-56.

276a
What the Court foretold there is what has happened
here to A.L.M, Y.R.J., and Baby O.: their parents’
wishes were potentially or actually overridden by a noncustodial tribe member’s invocation of ICWA. Applying ICWA in this way does nothing to further Congress’s original aim of preventing Indian families’ being
“broken up” by the “unwarranted removal” of their children and placement with non-Indian families. § 1901(4).
In sum, we conclude that ICWA’s “Indian child” classification violates the equal protection component of the
Fifth Amendment. 84
3.

The “Indian family” classification fails to rationally
further ICWA’s goal of linking children to tribes.

We next consider Plaintiffs’ claim that ICWA impermissibly discriminates against non-Indian families.
While Plaintiffs challenge ICWA’s placement preferences as a whole on this basis, the logical focus of the
claim is on the adoptive preference for “other Indian
families” in § 1915(a), as well as the preference for a
licensed “Indian foster home” in § 1915(b).
See
§§ 1915(a)(3), 1915(b)(iii). In these provisions, ICWA’s
preference for “Indian” over “non-Indian” families is
most evident. Plaintiffs argue this privileging of Indian over non-Indian families is a racial classification
that fails strict scrutiny. As with the Indian child classification, however, we assume arguendo that “Indian
family” is a tribal, not a racial, category. We do so because we agree with Plaintiffs’ alternative argument
As the district court found, this conclusion directly impacts the
placement preferences in § 1915(a) and (b), the collateral attack
provisions in §§ 1913 and 1914, and the Final Rule provisions in
25 C.F.R. §§ 23.129-132.
84

277a
that the preference fails to rationally further Congress’s
goal of keeping Indian children linked to their own tribe.
As Plaintiffs correctly point out, “placing a tribal child
with a different Indian tribe does not even conceivably
advance the continued existence and integrity of the
child’s tribe.”
ICWA’s overriding purpose was to safeguard the
continued “existence and integrity of Indian tribes” by
protecting “their children” from unwarranted removal.
§ 1901(3). Congress invoked the United States’ interest “in protecting Indian children who are members or
eligible for membership in an Indian tribe.” Id. Congress also faulted states for “often fail[ing] to recognize
the essential tribal relations of Indian people.” § 1901(5).
Many of ICWA’s provisions seek to further this tribefocused goal. For instance, a tribe has exclusive jurisdiction of adoptions involving an Indian child domiciled
“within the reservation of such tribe.” § 1911(a) (emphasis added). Right to intervene is given to “the Indian child’s tribe.” § 1911(c). And some of ICWA’s
placement preferences are tribe-based—obviously the
preference for “other members of the Indian child’s
tribe” (§ 1915(a)(2)), but also the preference for “a member of the child’s extended family” (§ 1915(a)(1),
1915(b)(i)), who is presumably of the same tribe.
ICWA, however, also has provisions broadly preferring “Indian families” over non-Indian families. A nonIndian family seeking to adopt or foster an Indian child,
absent “good cause to the contrary,” will fail if “other
Indian families” or “Indian foster home[s]” are available. §§ 1915(a)(3), 1915(b)(iii). Nothing requires these
Indian families or homes to be of a child’s tribe. See
§ 1903(3) (relevantly defining “Indian” as “any person

278a
who is a member of an Indian tribe”). In fact, they are
virtually assured not to be: otherwise, they would
qualify as “other members of the Indian child’s tribe.”
§ 1915(a)(2).
We agree with Plaintiffs that a naked preference for
Indian over non-Indian families does nothing to further
ICWA’s stated aim of ensuring that Indian children are
linked to their tribe. This conclusion follows a fortiori
from our conclusion that ICWA’s Indian child category
is insufficiently linked to federal tribal interests. The
Indian child category encompassed children who were
not, and may never be, members of a tribe. Even more,
ICWA’s preference for “Indian families” lacks any connection to a child’s tribe: as explained, the Indian families preferred over non-Indian families are, by definition, not members of the child’s tribe. Thus, the preference has no rational link to maintaining a child’s links
with his tribe. Similarly, the Indian child category ran
afoul of Mancari, Fisher, and Rice by creating a blanket
exception for Indian children in state child-custody proceedings. The Indian family category does the same:
by definition, Indian families have a statutorilyconferred advantage over non-Indian families with respect to state adoptions and foster placements. Even
assuming the Indian family category is tribal and not racial, ICWA extends the category far beyond Mancari
and Fisher, and infiltrates the kind of “critical state affairs” that Rice forbade. See Rice, 528 U.S. at 522.
In response, Federal Defendants argue that this “Indian family” preference is not merely a “preference for
‘generic “Indianness.” ’ ” They assert it instead “reflects the reality that many tribes have deep historic and

279a
cultural connections with other tribes, and that many Indian children may be eligible for membership in more
than one tribe.” We are unpersuaded. Even accepting that some tribes are interrelated, ICWA’s Indian
family preference is not limited in that way. Rather,
the preference privileges Indian families of any tribe,
regardless of their connection to the child’s tribe, over
all non-Indian families. ICWA’s classification therefore does not rationally further linking children to their
tribes.
In sum, we conclude ICWA’s preferring Indian over
non-Indian families violates the equal protection component of the Fifth Amendment.
B.

Commandeering and Preemption

The district court concluded numerous provisions of
ICWA “commandeer” state agencies and courts in violation of Article I and the Tenth Amendment. 85 See
Brackeen, 338 F. Supp. 3d at 538-41. The court also
ruled that the preemption doctrine does not save these
provisions because they “directly command states.”
Id. at 541. On appeal, Defendants argue ICWA does
not commandeer states because it evenhandedly regulates an activity in which both states and private parties
engage. They also claim the challenged provisions
merely create federal rights enforceable in state courts
under the Supremacy Clause.

Specifically, the court found invalid §§ 1901-23 and 1951-52,
which “include the congressional findings and declaration of policy,
definitions, child custody proceedings, record keeping, information
availability, and timetables.”
85

280a
The anti-commandeering doctrine recognizes the
“fundamental structural” principal that “the Constitution . . . withhold[s] from Congress the power to issue orders directly to the States.” Murphy, 138 S. Ct.
at 1475; see generally Printz, 521 U.S. 898; New York,
505 U.S. 144; FERC v. Mississippi, 456 U.S. 742 (1982);
Hodel v. Va. Surface Mining & Reclamation Ass’n.,
Inc., 452 U.S. 264 (1981). To be sure, Congress may
encourage states to regulate as it wishes. For instance, Congress may “attach conditions on the receipt
of federal funds” under the Spending Clause. New
York, 505 U.S. at 167 (quoting South Dakota v. Dole, 483
U.S. 203, 206 (1987)). Or it may offer states the option
of regulating “private activity . . . according to federal
standards or having state law pre-empted by federal
regulation.” Id. (citing Hodel, 452 U.S. at 288). What
Congress cannot do, however, is issue “a simple command to state governments to implement legislation enacted by Congress.” Id. at 176. Nor may it “compel the
States to enact or administer a federal regulatory program.” Id. at 188. This anti-commandeering doctrine
reflects a basic principle: “[t]he Constitution confers
on Congress not plenary legislative power but only certain enumerated powers,” and “conspicuously absent”
from those is “the power to issue direct orders to the
governments of the States.” Murphy, 138 S. Ct. at 1476.
The Supreme Court has deployed this doctrine to declare unconstitutional federal legislation commanding
state legislatures, officers, and agencies. For instance,
Congress could not make state legislatures “take title”
to radioactive waste, nor make state executive agencies
“regulat[e] [waste] according to the instructions of Congress.” New York, 550 U.S. at 175-76; see also Mur-

281a
phy, 138 S. Ct. at 1476 (the law in New York “issued orders to either the legislative or executive branch of state
government”). Congress also could not compel state or
local officers to conduct background checks under a federal firearms law. Printz, 521 U.S. at 903-04, 933.
Such a requirement—even if it involved only “discrete,
ministerial tasks,” id. at 929—would amount to “the
forced participation of the States’ executive in the actual
administration of a federal program.” Id. at 918. Finally, Congress could not prohibit states from “author[izing]” sports gambling because that would “unequivocally dictate[] what a state legislature may and
may not do.” Murphy, 138 S. Ct. at 1470, 1478.
Different dynamics come into play when asking—as
the district court did here—whether federal law commandeers state courts. This is due to the Supremacy
Clause, which binds “the Judges in every State” to follow
validly enacted federal law. U.S. CONST. art. VI, cl. 2; see
Kansas v. Garcia, 140 S. Ct. 791, 801 (2020) (Supremacy
Clause “provides ‘a rule of decision’ for determining
whether federal or state law applies in a particular situation” (quoting Armstrong v. Exceptional Child Ctr.,
Inc., 575 U.S. 320, 324 (2015))). Thus, Congress may,
“in a sense, direct state judges” by enacting federal law
state courts must apply. New York, 505 U.S. at 17879. 86 Similarly, state judges must apply federal law
that validly preempts applicable state law. Murphy,
138 S. Ct. at 1479. So, if federal law is enforceable in
See also id. at 179 (explaining “this sort of federal ‘direction’ of
state judges is mandated by the text of the Supremacy Clause”);
Printz, 521 U.S. at 907 (suggesting “the Constitution was originally
understood to permit imposition of an obligation on state judges to
enforce federal prescriptions”).
86

282a
state courts or preempts state law, no “commandeering”
arises from the fact that state courts must apply the federal enactment—rather, this is what the Supremacy
Clause demands. New York, 505 U.S. at 179; see also
Printz, 521 U.S. at 907 (state courts “have been viewed
distinctively in this regard” because “unlike legislatures
and executives, they applied the law of other sovereigns
all the time”). The Supremacy Clause, however, assumes the same limit on Congress’s power that the anticommandeering doctrine does—that Congress may regulate only individuals, not state governments. 87 In that
regard, then, the operation of the Supremacy Clause
overlaps with anti-commandeering.
Finally, we should not lose sight of why anticommandeering is critical. First, the doctrine protects
the division of power between federal and state governments, which “secures to citizens the liberties that derive from the diffusion of sovereign power” and “reduce[s] the risk of tyranny and abuse from either front.”
New York, 505 U.S. at 181-82 (citations omitted). Second, the doctrine “promotes political accountability” by
letting voters know “who to credit or blame” for good or
bad policies. Murphy, 138 S. Ct. at 1477. 88 Third, the

87
See New York, 505 U.S. at 178 (federal laws enforceable in state
courts “involve congressional regulation of individuals, not congressional requirements that States regulate”); Murphy, 138 S. Ct.
at 1481 (explaining “every form of preemption is based on a federal
law that regulates the conduct of private actors, not the States”).
88
See also New York, 505 U.S. at 169 (“[W]here the Federal Government directs the States to regulate, it may be state officials who
will bear the brunt of public disapproval, while the federal officials
who devised the regulatory program may remain insulated from the
electoral ramifications of their decision.”).

283a
doctrine “prevents Congress from shifting the costs of
regulation to the States.” Murphy, 138 S. Ct. at 1477. 89
With that background in mind, we proceed to our analysis. We first address Plaintiffs’ anti-commandeering
challenges (infra III(B)(1)). We next address whether
the preemption doctrine saves any of the challenged
provisions (infra III(B)(2)). As the Supreme Court
has done in this area, we analyze the challenged provisions separately. 90 ICWA touches many aspects of
state child-custody proceedings. It would not be implausible to find constitutionally problematic provisions
alongside permissible ones. 91
1.

Commandeering

See also Printz, 521 U.S. at 930 (“By forcing state governments
to absorb the financial burden of implementing a federal regulatory program, Members of Congress can take credit for ‘solving’
problems without having to ask their constituents to pay for the
solutions with higher federal taxes.”).
90
See, e.g., Murphy, 138 S. Ct. at 1470 (analyzing only the component of the Professional and Amateur Sports Protection Act,
28 U.S.C. § 3702(1), that prohibits states from “authoriz[ing] by
law” sports betting); Printz, 521 U.S. at 902-03 (analyzing only
those Brady Act sections, 18 U.S.C. § 922(s)(2), 922(s)(6)(C),
922(s)(6)(B), applicable to a “chief law enforcement officer”); New
York, 505 U.S. at 152-54, 174-77 (analyzing separately the “take title” provision of the Low-Level Radioactive Waste Policy Amendments Act, 42 U.S.C. § 2021e(d)(2)(C)).
91
See, e.g., Murphy, 138 S. Ct. at 1481 (analyzing regulation of
state legislatures in PASPA § 3702(1) separately from the “closely
related provision” in § 3702(2) regulating “private conduct”); New
York, 505 U.S. at 173-75 (two of the Act’s “incentives” were valid
under Spending Clause and preemption, whereas “take-title” provision commandeered states).
89

284a
As discussed, the anti-commandeering doctrine typically asks whether federal law conscripts state agencies
or officials. This part therefore focuses on Plaintiffs’
claims that ICWA compels action by state child welfare
agencies. Where Plaintiffs instead challenge provisions compelling state courts, we consider those claims
under preemption analysis, infra.
a. ICWA’s active-efforts, expert-witness, placementpreference, placement-record, and notice provisions
commandeer state agencies.

No Defendant denies that ICWA requires action by
state child welfare agencies. This is unsurprising.
What prompted ICWA, after all, were concerns about
Indian families’ treatment by “State[ ] . . . administrative and judicial bodies.” § 1901(5) (emphasis
added). ICWA obviously covers matters—child-custody
proceedings—lying within the purview of state agencies. 92 ICWA’s regulations, moreover, describe actions
that must be taken by “State agencies,” “governmental
organizations,” and “State actors.” 93
For instance,
See, e.g., TEX. HUM. RES. CODE § 40.002(b)(1), (2) (providing
Texas Department of Family and Protective Services “shall . . .
provide protective services for children” as well as “family support
and family preservation services”); TEX. FAM. CODE § 262.001(a)
(authorizing “governmental entity with an interest in the child” to
take actions to protect child).
93
See, e.g., 81 Fed. Reg. at 38,779 (ICWA sought to remedy failures by “State agencies and courts”); id. at 38,780 (noting “[s]everal
ICWA provisions do apply, either directly or indirectly, to State
and private agencies”); id. at 38,790 (“active efforts” require “substantial and meaningful actions by agencies,” meaning “agencies of
government”); id. at 38,791 (agreeing “active efforts” “require States
to affirmatively provide Indian families with substantive services”); id. at 38,792 (definition of “agency” includes “governmental
92

285a
ICWA’s placement preferences “create[ ] an obligation
on State agencies and courts to implement the policy
outlined in the statute.” 81 Fed. Reg. at 38,839 (emphasis added). Thus, the idea that ICWA compels
state agencies seems incontestable. As the district
court concluded, Texas “indisputably demonstrated that
the ICWA requires [Texas’s] executive agencies to carry
out its provisions.” Brackeen, 338 F. Supp. 3d at 540.
It specifically found that the relevant agency, the DFPS,
must, among other things[:] serve notice of suit on
Indian tribes, verify a child’s tribal status, make a diligent effort to find a suitable placement according to
the ICWA preferences and show good cause if the
preference are not followed, ensure a child is enrolled
in his tribe before referring him for adoption, and
keep a written record of the placement decision.
Id. at 540 & n.18.

Defendants dispute none of this. 94

Turning to the specific challenges before us, we conclude the following ICWA provisions commandeer state
agencies.
organizations”); id. at 38,814 (“active efforts” requirement “ensure[s] that State actors . . . provide necessary services to parents of Indian children”). See also, e.g., Miss. Band of Choctaw
Indians v. Holyfield, 490 U.S. 30, 45 n.18 (1989) (observing ICWA
sought to address “the failure of State officials [and] agencies” to
consider “the special problems and circumstances of Indian families”) (internal quotation omitted).
94
JUDGE DENNIS’s opinion does not squarely address whether
ICWA commands state agencies. We understand his view to be
that the point is immaterial because ICWA “evenhandedly regulates an activity in which both States and private actors engage.”
DENNIS OP. at 89 (quoting Murphy, 138 S. Ct. at 1478). We disagree and respond below.

286a
We begin with the “active efforts” requirement in § 1912(d). Any “party”
seeking to place an Indian child in foster care, or to terminate parental rights, must “satisfy the court that active efforts have been made to provide remedial services
. . . designed to prevent the breakup of the Indian
family and that these efforts have proved unsuccessful.”
Id. State agencies are “parties” that seek placement or
termination with respect to Indian children. 95 Consequently, ICWA’s active-efforts requirement demands
extensive action by state and local agencies as a condition to fulfilling their obligations to Indian children. 96
For example, in Doty-Jabbaar v. Dallas County Child
Protective Services, a state appellate court concluded a
county agency failed ICWA’s active-efforts requirement
before terminating a birth mother’s rights. 19 S.W.3d
870, 875-76 (Tex. App.—Dallas 2000, pet. denied).
Although the agency had given the mother a seven-point
plan including “drug treatment, parenting classes, and
i.

Active efforts (§ 1912(d)).

95
See, e.g., N.M. v. Tex. Dep’t of Fam. & Prot. Servs., No. 03-1900240-CV, 2019 WL 4678420, at *1 (Tex. App.—Austin Sept. 26,
2019, no pet.) (ICWA case involving Texas DFPS’s efforts “to terminate the parent-child relationship of N.M. and the children’s father”); TEX. FAM. CODE §§ 153.371(10), 101.0133 (as child’s managing conservator, DFPS has “the right to designate the [child’s] primary residence,” including foster placement); see also 81 Fed. Reg.
at 38,792 (“any party” in § 1912 includes “governmental organizations”).
96
See 25 C.F.R. § 23.2 (defining “active efforts” to mean “affirmative, active, thorough, and timely efforts” to “maintain or reunite
an Indian child with his or her family”); see also, e.g., In re
D.E.D.I., 568 S.W.3d 261, 262-63 (Tex. App.—Eastland 2019, no
pet.) (trial court “specifically found” that DFPS “made active efforts to provide remedial services and rehabilitation programs” under ICWA).

287a
psychological evaluations,” the court found insufficient
evidence that “these remedial services and rehabilitation programs had proven unsuccessful.” Id. at 875. 97
ICWA’s regulations confirm that active-efforts demands action by state agencies. Through the “ ‘active
efforts’ provision . . . Congress intended to require
States to affirmatively provide Indian families with substantive services.”
81 Fed. Reg. at 38,791.
The
“active-efforts requirement,” they emphasize, “is one
critical tool to ensure that State actors . . . provide
necessary services to parents of Indian children.” Id.
at 38,814 (emphasis added). 98 The Final Rule even
specifies the efforts required by § 1912(d)—including
eleven categories of remedial services—“[w]here an
agency is involved in the child-custody proceeding.”
25 C.F.R. § 23.2. 99
We therefore conclude that the active-efforts requirement in § 1912(d) commandeers states in violation
of Article I and the Tenth Amendment. See also
Cf., e.g., In re J.L.C., 582 S.W.3d 421, 433-34 (Tex. App.—
Amarillo 2018, pet. ref ’d) (finding ICWA active-efforts burden satisfied because “the [DFPS] had appropriately engaged [the parent]
with services but the Department’s efforts had failed”)
98
See also id. at 38,814 (active-efforts requirement sought to
remedy failures by “agencies of government”); id. at 38,790 (the
“active efforts requirement” is one of ICWA’s “primary tools” to
address failures by “agencies of government” and should therefore
be “interpreted in a way that requires substantial and meaningful
actions by agencies to reunite Indian children with their families”).
99
The term “agency” includes “governmental organizations.”
81 Fed. Reg. at 38,792; see also 80 Fed. Reg. 10,146, 10,151 (“[a]gency”
includes a “public agency and their employees, agents or officials
involved in and/or seeking to place a child in a child custody proceeding”).
97

288a
Brackeen, 937 F.3d at 443 (Owen, J., dissenting in part)
(concluding § 1912(d) “means that a State cannot place
an Indian child in foster care, regardless of the exigencies of the circumstances, unless it first provides the federally specified services and programs without
success”).
We reach the
same conclusion as to the “expert witness” requirements in § 1912(e) and (f ). These provisions prohibit
placement or termination absent “evidence, including
testimony of qualified expert witnesses, that the continii. Expert witnesses (§ 1912(e), (f )).

ued custody of the child by the parent or Indian custodian is likely to result in serious emotional or physical
damage to the child.” § 1912(e) (foster placement);
§ 1912(f ) (termination). ICWA thus “requires the testimony of qualified expert witnesses for foster-care
placement and for adoptive placements.” 81 Fed. Reg.
at 38,829 (citing § 1912(e), (f )); see also 25 C.F.R.
§ 23.122(a) (specifying expert qualifications). As a result, state agencies must present the testimony of expert witnesses, with specific qualifications, when they
seek to place an Indian child in foster care or terminate
parental rights. See also Brackeen, 937 F.3d at 443-44
(OWEN, J., dissenting in part) (concluding § 1912(e)
“places the burden on a State, not a court, to present
expert witness testimony in order to effectuate foster
care for Indian children”).
For instance, a Texas appellate court recently found
that the DFPS failed to justify terminating parental
rights under ICWA because “the Department failed to
produce testimony of a ‘qualified expert witness’ as required under the Act.” S.P. v. Tex. Dep’t of Fam. &

289a
Prot. Servs., No. 03-17-00698-CV, 2018 WL 1220895, at
*3 (Tex. App.—Austin Mar. 9, 2018, no pet.). Although
DFPS offered testimony by the child’s caseworker that
termination was in the child’s best interest, the court
concluded the caseworker did not have “the requisite expertise to satisfy the federal requirement.” Id. at *4.
For instance, the caseworker was not “recognized by the
Muscogee tribe,” nor did she have “substantial experience in the delivery of child and family services to Indians or knowledge of [the tribe’s] prevailing social and
cultural standards and childrearing practices.” Id. 100
The court therefore concluded the state agency failed to
meet the “qualified expert witness” requirement in
§ 1912(f ) and reversed the termination of parental
rights. Id. at *4-5. 101
We conclude that § 1912(e) and (f ) require state agencies and officials to bear the cost and burden of adducing
expert testimony to justify placement of Indian children
in foster care, or to terminate parental rights. The
expert-witness requirements in § 1912(e) and (f ) therefore commandeer states.
We also
conclude that the placement preferences in § 1915(a)-(d)
violate the anti-commandeering doctrine to the extent
they direct action by state agencies and officials. These
iii. Placement preferences (§ 1915(a)-(d)).

See 80 Fed. Reg. at 10,157 (ICWA guidelines providing, inter
alia, that a qualified expert “should have specific knowledge of the
Indian tribe’s culture and customs”).
101
See also, e.g., In re K.S., 448 S.W.3d 521, 539, 544-45 (Tex.
App.—Tyler 2014, pet. denied) (affirming state agency’s termination of parental rights under ICWA based on testimony of a “Cherokee Nation representative” who “was qualified as an expert witness” under § 1912(f )).
100

290a
provisions require that, absent good cause, “preference
shall be given” to specific adoptive and foster placements for an Indian child. 102 Insofar as these preferences constrain state courts, we examine below whether
they are valid preemption provisions. Quite apart from
state courts, however, the preferences appear to independently demand efforts by state agencies and
officials.
ICWA’s regulations support this reading.
The
placement preferences, they state, “create[] an obligation on State agencies and courts to implement the policy outlined in the statute” and “require that State agencies and courts make efforts to identify and assist extended family and Tribal members with preferred placements.” 81 Fed. Reg. at 38,839 (emphases added).
These “State efforts to identify and assist preferred
placements are critical to the success of the statutory
placement preferences.” Id. at 38,839-40 (emphasis
added) (collecting decisions). Further confirming this
view, ICWA’s guidelines, see 80 Fed. Reg. 10,146, specify duties that “[t]he agency seeking a preadoptive,
adoptive or foster care placement of an Indian child
must always follow.” 80 Fed. Reg. at 10,157 (emphases added). For example, to justify deviating from the
preferences, the agency must prove that “a diligent
search has been conducted to seek out and identify placement options”—including detailed notices to the parents
See § 1915(a) (requiring adoptive preference in favor of (1) extended family, (2) other tribe members; or (3) other Indian families); § 1915(b) (requiring different foster-care preferences); § 1915(c)
(tribes may re-order preferences); § 1915(d) (preference decisions
must accord with “prevailing social and cultural standards” of pertinent Indian community).
102

291a
or custodian, “known, or reasonably identifiable” extended family, the child’s tribe, and—for foster or preadoptive placements—ICWA-specified institutions.
Id. And, as discussed, ICWA guidelines specify that
the “agency” that must undertake these efforts includes
a “public agency and their employees, agents or officials.” Id. at 10,151. 103
State decisions confirm that ICWA’s placement preferences may result in demanding extensive actions by
state child welfare agencies. For example, in Native Village of Tununak v. State, the Alaska Supreme Court addressed the duties of the Alaska Office of Child Services
(“OCS”) to implement the placement preferences. 334
P.3d 165, 177-78 (Alaska 2014). To safeguard ICWA’s
preferences, courts “must searchingly inquire about
. . . OCS’s efforts to comply with achieving[] suitable
§ 1915(a) placement preferences” and, in turn, OCS
must “identify[] early in a [child welfare proceeding] all
potential preferred adoptive placements.” Id. at 178. 104

Surprisingly, Tribal Defendants contend the preferences apply “exclusively to state courts” and “are not mandates requiring
that state executive branch employees enforce federal law.”
ICWA’s regulations show the opposite is true.
104
See also, e.g., Alexandra K. v. Dep’t of Child Safety, No. 1 CAJV 19-0081, 2019 WL 5258095, at *1 (Ariz. Ct. App. Oct. 17, 2019)
(observing “[t]he [Arizona Department of Child Safety] case manager testified DCS had not located any ICWA-compliant placement
and that the Navajo Nation had not suggested any”); People in Interest of M.D., 920 N.W.2d 496, 503 (S.D. 2018) (noting “[South Dakota Department of Social Services] workers also testified during
the dispositional hearing to their familiarity with ICWA placement
preferences, [and] their efforts to find a suitable placement for all
the children”); id. at 504 (concluding that “because DSS explored
the availability of a suitable placement for child with a diligent
103

292a
In sum, to the extent the placement preferences in
§ 1915(a)-(d) require implementation efforts by state agencies and officials, that violates the anti-commandeering
doctrine.
iv. Placement record (§ 1915(e); 25 C.F.R. §23.141).

We also conclude that the related placement-record requirements in § 1915(e) commandeer states (along with
its implementing regulation in 25 C.F.R. § 23.141).
This provision requires “the State” to “maintain[ ] . . .
[a] record” of any Indian child placements under state
law. § 1915(e). The record must “evidenc[e] the efforts to comply with the order of preference specified in
[§ 1915]” and “shall be made available at any time upon
the request of the Secretary or the Indian child’s tribe.”
Id. In turn, the Final Rule specifies: (1) the record’s
minimum contents, 25 C.F.R. § 23.141(b); (2) that “[a]
State agency or agencies may be designated to be the
repositories for this information,” id. § 23.141(c), and
(3) that “[t]he State court or agency should notify the [Bureau of Indian Affairs] whether these records are maintained within the court system or by a State agency,” id.
As then-JUDGE OWEN reasoned in her panel dissent,
these requirements commandeer states because they
are “direct orders to the States.” 937 F.3d at 444, 446
(OWEN, J., dissenting in part). The statute and regulation each command “the State” to create, compile, and
maintain the required record and furnish it upon request to the child’s tribe or the Secretary. § 1915(e);
25 C.F.R. § 23.141(a). Furthermore, the regulations
search, but was unsuccessful, there was good cause for departure
from the placement preferences”) (quoting David S. v. State, Dep’t
of Health & Social Servs., 270 P.3d 767, 782 (Alaska 2012)) (cleaned
up).

293a
explain that § 1915(e) “work[s] in concert” with the
placement preferences to “require that State agencies
and courts make efforts to identify and assist extended
family and Tribal members with preferred placements.”
81 Fed. Reg. at 38,839. 105 Consequently, as JUDGE
OWEN correctly concluded, the placement-record requirements offend “the very principle of separate state
sovereignty” because their “whole object . . . [is] to
direct the functioning of the state executive” in service
of a federal regulatory program. 937 F.3d at 445
(OWEN, J., dissenting in part) (quoting Printz, 521 U.S.
at 932).
Tribal Defendants attempt to justify these requirements as merely making states perform administrative
actions, such as “provid[ing] the federal government
with information.” See also Printz, 521 U.S. at 918 (declining to address constitutionality of laws “requir[ing]
only the provision of information to the Federal Government” by state officials). 106 But the challenged provisions demand more than “provid[ing] information.”
The required record must not only compile documents
but also “evidenc[e]” the state’s “efforts to comply” with
105
See also id. (explaining Congress intended “reading Sections
1915(a) and 1915(e) together” to “demand[ ] documentable ‘efforts
to comply’ with the ICWA placement preferences”).
106
JUDGE DENNIS also cites Printz, 521 U.S. at 905-06, for the
proposition that early federal laws required state courts to record
citizenship applications and transmit naturalization records.
DENNIS OP. at 86. But Printz did not decide whether those laws
set a constitutional precedent. See 521 U.S. at 918. And, even assuming the recordkeeping obligations in § 1915(e) may be fulfilled
by state courts, those obligations go well beyond the early examples in Printz. See also infra III(B)(2)(c) (discussing similar obligations imposed on state courts by § 1951(a)).

294a
ICWA’s placement preferences. § 1915(e). 107 The whole
point is to help implement the placement preferences,
which, as explained, demand action by state agencies.
See also 81 Fed. Reg. at 38,839 (preferences “create[] an
obligation on State agencies and courts”). More than
an obligation to “provide information,” then, § 1915(e)
demands states document the “forced participation of
the States’ executive in the actual administration of a
federal program.” Printz, 521 U.S. at 918. 108
v. Notice (§ 1912(a)). Finally, we find § 1912(a) unconstitutional because it commandeers state agencies.
Under this section, any “party” seeking to place an Indian child in foster care, or to terminate parental rights,

107
See also 25 C.F.R. § 23.141(a), (b) (to justify departing from
preferences, record “must contain . . . detailed documentation
of the efforts to comply with the placement preferences”); 81 Fed.
Reg. at 38,839 (“Section 1915(e) requires that, for each placement,
the State must maintain records evidencing the efforts to comply
with the order of preference specified in section 1915.”).
108
JUDGE DENNIS sees no commandeering because the regulation implementing § 1915(e) “permits states to designate either
their courts or agencies . . . as the entities charged with complying with” the requirement. DENNIS OP. at 87; see 25 C.F.R.
§ 23.141(c) (allowing designation of “[a] State agency or agencies”
as “repository for this information”); id. (requiring “State court or
agency” to notify BIA whether records are kept “within the court
system or by a State agency”). We disagree. Whatever option
the state chooses, either its agencies or its courts are co-opted into
administering a federal program.
JUDGE DENNIS’s premise
seems to be that requiring state courts to implement § 1915(e)
would not be commandeering. That is mistaken. As explained
below, forcing state courts to administer a federal recordkeeping
regime violates anti-commandeering just as much as forcing agencies to do it. See infra III(B)(2)(c) (addressing recordkeeping requirement in § 1951(a)).

295a
“shall notify the parent or Indian custodian and the Indian child’s tribe, by registered mail with return receipt
requested, of the pending proceedings and of their right
of intervention.” Id. 109 The regulations describe this
as “one of ICWA’s core procedural requirements in involuntary child-custody proceedings.” 81 Fed. Reg. at
38,809. It applies to state agencies. See id. at 38,792
(“any party” in § 1912(a) includes “governmental organizations”). 110 The provision thereby imposes detailed 111

If the identity or location of the parent, custodian, or tribe cannot be determined, “such notice shall be given to the Secretary in
like manner, who shall have fifteen days after receipt to provide
the requisite notice.” Id. The proceeding may not commence
until ten days after receipt of notice by the parent, custodian, tribe,
or the Secretary. Id.
110
See also, e.g., In re Morris, 815 N.W.2d 62, 72-76, 83 (Mich.
2012) (discussing § 1912(a) notice requirement and conditionally
reversing order based on failure of court to ensure that state Department of Human Services notified child’s tribe); In re Desiree
F., 99 Cal. Rptr. 2d 668, 696 (Cal. Ct. App. 2000) (finding it was “the
duty of the Fresno County Department of Social Services to notify
the Tribe or the Secretary” and invalidating court orders due to
“the failure of the respective county welfare agencies and juvenile
courts to comply with the clear provisions of the ICWA”).
111
See, e.g., 25 C.F.R. § 23.111(a)(1), (c) (court must ensure “party
seeking placement” sends notice “by registered or certified mail
with return receipt requested”); id. § 23.111(d)(1)-(6) (14 different
statements that must appear in notice); id. § 23.111(e) (if parent,
custodian, or tribe not ascertainable, requiring notice to BIA, including “as much information as is known regarding the child’s direct lineal ancestors”).
109

296a
obligations on state agencies, which the Final Rule concedes will consume significant time and money. 112
As explained, the anti-commandeering doctrine forbids Congress from imposing administrative duties on
state agencies and officials. See, e.g., New York, 550
U.S. at 176, 188 (Congress cannot issue “a simple command to state governments to implement legislation enacted by Congress,” nor “compel the States to enact or
administer a federal regulatory program”). Because
that is what § 1912(a) does, it is unconstitutional.
b.

ICWA does not “evenhandedly regulate”
state and private activity.

Defendants’ principal response on anti-commandeering
is to invoke the principle that the doctrine “does not apply when Congress evenhandedly regulates an activity
in which both States and private actors engage.” Murphy, 138 S. Ct. at 1478. For instance, they point out
that private parties, as well as state agencies, may seek
to be appointed as a child’s guardian or conservator or
to terminate parental rights. Similarly, JUDGE DENNIS observes that some of the challenged provisions (notice and active efforts) refer to “any party” seeking
placement or termination, and thus apply “regardless of
whether that party is a state agent or private individual.” See § 1912(a), (d); DENNIS OP. at 94. In advancing this argument, both Tribal Defendants and JUDGE
DENNIS rely heavily on South Carolina v. Baker, 485
81 Fed. Reg. at 38,863 (estimating at 81,900 the “[t]otal annual
burden hours” for “State court[s] and/or agenc[ies]” to provide notices); id. at 38,864 (estimating at $260,442 the “annual cost burden” of providing required notices).
112

297a
U.S. 505 (1988), and Reno v. Condon, 528 U.S. 141
(2000). DENNIS OP. at 92-93. They are right to do so,
because those decisions undergird the “evenhanded regulation” principle. See Murphy, 138 S. Ct. at 1478-79
(discussing Baker and Condon). But examining those
decisions shows the principle does not apply to ICWA.
Baker involved a federal law denying a tax exemption
to interest earned on state and local bonds issued in unregistered (“bearer”) form. 485 U.S. at 510. The law
treated private bonds similarly. Id. The Supreme
Court rejected South Carolina’s argument that the law
commandeered states by coercing them to enact and administer a registered bond scheme. Id. at 513-14. At
most, the law “effectively prohibit[ed]” states from issuing bearer bonds pursuant to a “ ‘generally applicable’ ”
law treating state and private bonds equally. Id. at 514
(citation omitted). The Court emphasized that the challenged law “d[id] not . . . seek to control or influence the manner in which States regulate private parties.” Id. Relying on Baker, Condon rejected South
Carolina’s commandeering challenge to a federal law restricting state DMVs from disclosing drivers’ personal
information. 528 U.S. at 144. The law also restricted
private disclosure and resale of such information. Id.
at 146. Distinguishing its commandeering decisions in
New York and Printz, the Court explained that, here,
the challenged law “d[id] not require the States in their
sovereign capacity to regulate their own citizens,” did
not require state legislatures to enact any laws, and
“d[id] not require state officials to assist in the enforcement of federal statutes regulating private individuals.”
Id. at 151. Additionally, the law regulated states only

298a
as “the owners of data bases,” and as part of “the universe of entities that participate as suppliers to the market for motor vehicle information.” Id.
For two main reasons, the “evenhanded regulation”
principle from Baker and Condon has no application
here. First, the laws challenged in those cases, unlike
ICWA, did not compel states “to regulate their own citizens.” Condon, 528 U.S. at 151; see also Murphy, 138
S. Ct. at 1479. ICWA emphatically does. As explained, ICWA requires state agencies to provide remedial services to Indian families (§ 1912(d); 25 C.F.R.
§ 23.2; 81 Fed. Reg. at 38,814); to adduce expert witness
testimony (§ 1912(e), (f ); 25 C.F.R. § 23.122(a); 81 Fed.
Reg. at 38,829); to assist Indian families and tribes with
preferred placements (§ 1915(a)-(d); 81 Fed. Reg. at
38,839-40); to compile records evidencing efforts to comply with placement preferences (§ 1915(e); 25 C.F.R.
§ 23.141); and to provide detailed notices to parents, custodians, and tribes (§ 1912(a); 25 C.F.R. § 23.111). This
is especially evident as to the placement preferences:
ICWA “creates an obligation on State agencies and
courts to implement” the preferences by “mak[ing] efforts to identify and assist extended family and Tribal
members.” 81 Fed. Reg. at 38,839 (emphasis added).
These efforts are “critical to the success of the statutory
placement preferences.” Id. at 38,839-40. The fact
that ICWA imposes “critical” duties on state actors concerning private persons sets it worlds apart from the tax
law in Baker (which, at most, effectively prohibited
states from issuing bearer bonds) and the privacy law in
Condon (which restricted agency disclosure of drivers’
information). Instead, ICWA fits Condon’s description of laws that commandeer states by “requir[ing]
state officials to assist in the enforcement of federal

299a
statutes regulating private individuals.”
U.S. at 151.

Condon, 528

Second, unlike the laws in Baker and Condon, ICWA
regulates states “in their sovereign capacity.” Condon, 528 U.S. at 151; see also Murphy, 138 S. Ct. at 1478.
In Baker and Condon, Congress regulated states as participants in the bond market (Baker, 485 U.S. at 510) and
the “market for motor vehicle information” (Condon,
528 U.S. at 151). Because private parties also participated in those markets, and were treated similarly,
those decisions could speak of Congress “evenhandedly
regulat[ing] an activity in which both States and private
parties engage.” Murphy, 138 S. Ct. at 1479. ICWA
is a different animal. It regulates states, not as market
participants, but as sovereigns fulfilling their “duty of
the highest order to protect the interests of minor children, particularly those of tender years.” Palmore,
466 U.S. at 433. The contrast with regulating state
participation in bond or data markets could hardly be
greater. As State Plaintiffs correctly observe, “child
welfare is not a market regulated by Congress in which
public and private actors participate,” but is instead “the
sovereign obligation of the States.”
Once again,
ICWA’s regulations clinch the point: they assert that
ICWA balances federal interests in Indian families and
tribes “with the States’ sovereign interest in childwelfare matters.” 81 Fed. Reg. at 38,789 (emphasis
added).
JUDGE DENNIS responds that, because certain ICWA
provisions may apply to private parties as well as state
agencies, this triggers the Baker/Condon “evenhanded
regulation” principle. DENNIS OP. at 93-101. We dis-

300a
agree. First, this view overlooks that Baker and Condon do not apply to a federal law that regulates states
as sovereigns 113 and compels them to regulate private
parties. 114 Baker, 485 U.S. at 514; Condon, 528 U.S. at
151; see also Murphy, 138 S. Ct. at 1479. ICWA does

JUDGE DENNIS suggests that Condon addressed a law regulating states as sovereigns, and not as market participants, because
“regulation of motor vehicles . . . is a quintessential state function.” DENNIS OP. at 98. We disagree. Congress enacted the
privacy law in Condon because it “found that many States . . .
sell [drivers’] personal information to individuals and businesses,”
528 U.S. at 143, just as “private persons” do, id. at 146. The law
thus “regulate[d] the States as the owners of data bases,” not as
sovereigns. Id. at 151.
114
We disagree with JUDGE DENNIS that the duties imposed on
state employees by the federal law in Condon are anything like
ICWA’s commandeering of state agencies. See DENNIS OP. at 98.
In Condon, state DMV employees had to spend “time and effort”
to “learn and apply” the patchwork of federal restrictions on disclosing driver information. 528 U.S. at 144-45, 150. But the employees were “not require[d] . . . to assist in the enforcement
of [the] federal statute[].” Id. at 151. ICWA, by contrast, requires state agencies to “implement” the heart of the law—placement
preferences—by “identify[ing] and assist[ing]” potential placements.
81 Fed. Reg. at 38,839-40; see also id. at 38,839 (stating the preferences “create[ ] an obligation on State agencies and courts to implement the policy outlined in the statute”) (emphasis added).
JUDGE DENNIS also misunderstands our point that state agencies’
role here is “critical.” See DENNIS OP. at 97 n.43. The point is
not that commandeering depends on whether the state actor’s
forced action is “critical” or “trivial.” Rather, the point is that
ICWA’s regulations describe state agencies as playing a “critical”
role in “implement[ing]” the law, see 81 Fed. Reg. at 38,839-40, a
telltale sign that the agencies are being “compel[led] . . . to
. . . administer a federal regulatory program,” New York, 505
U.S. at 188.
113

301a
both. Second, JUDGE DENNIS’S view mistakes the “activity” ICWA regulates. Cf. Murphy, 138 S. Ct. at 1478
(considering “an activity in which both States and private actors engage”). ICWA directly regulates state
“child custody proceeding[s].” § 1903(1). This is not
regulation of an “activity” states engage in alongside
private actors, like bond issuance or data sharing. Instead, this is regulation of state administrative and judicial “proceedings” in service of a federal regulatory
goal. The anti-commandeering doctrine forbids that. 115
Third, under JUDGE DENNIS’s view, Congress could
conscript state officials into a federal program, provided
it requires private actors to participate too. The anticommandeering cases do not support that view. The
salient question, rather, is whether a federal law requires state officials to act “in their official capacity” to
implement a federal program. See Printz, 521 U.S. at
932 n.17 (Brady Act did not “merely require [state officers] to report information in their private possession”
but instead to do so “in their official capacity”). ICWA
does so. That parts of ICWA may also compel private
parties does not dilute the fact that ICWA “compel[s]
the States to . . . administer a federal regulatory
program.” New York, 505 U.S. at 188. 116
See New York, 505 U.S. at 178 (explaining “Congress . . .
may not conscript state governments as its agents”); Murphy, 138
S. Ct. at 1479 (Congress cannot “regulate the States’ sovereign authority to ‘regulate their own citizens’ ”) (quoting Condon, 528 U.S.
at 151)).
116
As part of his argument that certain sections of ICWA are
“evenhanded” (and therefore do not commandeer states), JUDGE
DENNIS also finds that these sections are “necessarily ‘best read’
as pertaining to private actors.” DENNIS OP. at 99. But this argument grafts onto commandeering a preemption principle—
115

302a
2.

Preemption

We now consider whether the challenged ICWA provisions do not commandeer states but are, instead, valid
preemption provisions. See Murphy, 138 S. Ct. at 1479
(considering whether PASPA § 3702(1) was “a valid
preemption provision”).
The district court ruled
preemption could not save any of those provisions because they “directly command states” and not “ ‘private
actors.’ ” Brackeen, 338 F. Supp. 3d at 541 (quoting
Murphy, 138 S. Ct. at 1481). On appeal, Defendants
argue the challenged provisions confer federal rights on
Indian children, families, and tribes that preempt conflicting state laws.
“Preemption doctrine reflects the basic concept,
grounded in the Supremacy Clause, that federal law can
trump contrary state law.” Butler v. Coast Elec. Power
Ass’n, 926 F.3d 190, 195 (5th Cir. 2019) (citing Arizona
v. United States, 567 U.S. 387, 398-99 (2012)). This occurs when federal law conflicts with state law, expressly
preempts state law, or excludes state legislation by occupying an entire field. See Murphy, 138 S. Ct. at 1480
(identifying “three different types of preemption—
‘conflict,’ ‘express,’ and ‘field’ ”) (citation omitted). 117
namely, that a federal law preempts only if it is “best read as one
that regulates private actors.” Murphy, 138 S. Ct. at 1479.
JUDGE DENNIS cites no authority for the proposition that the two
analyses may be blended into one. Moreover, the most recent
Supreme Court decision addressing commandeering and
preemption—Murphy—treats the two analyses separately. See
138 S. Ct. at 1478-79 (commandeering); id. at 1479-81 (preemption).
We will therefore follow the Supreme Court and address the “best
read” issue under preemption, not commandeering.
117
See also generally City of El Cenizo, Tex. v. Texas, 890 F.3d
164, 176-81 (5th Cir. 2018) (field and conflict preemption); Franks

303a
To have any kind of preemptive effect, however, a federal law must meet two conditions: it (1) “must represent the exercise of a power conferred on Congress by
the Constitution,” and (2) must be “best read” as a law
that “regulates the conduct of private actors, not the
States.” Murphy, 138 S. Ct. at 1479, 1481. 118
At the outset, we note that ICWA implicates “conflict” preemption only. ICWA lacks an express preemption clause and no one contends ICWA occupies the field
of Indian child-custody proceedings. 119 We also note
that various ICWA provisions potentially conflict with
state laws. 120 For instance, ICWA grants an indigent
parent the right to appointed counsel, § 1912(b), which
may exceed some state guarantees. ICWA also grants
a child’s tribe the right to intervene, § 1911(c), a right not
automatically granted by some state laws. Substantively, ICWA imposes an onerous standard for terminating parental rights—proof “beyond a reasonable doubt”
that continued custody “is likely to result in serious
emotional or physical damage to the child.” § 1912(f ).
Inv. Co., LLC v. Union Pac. R. Co., 593 F.3d 404, 407-08 (5th Cir.
2010) (express preemption).
118
See also Alden, 527 U.S. at 731 (explaining “the Supremacy
Clause enshrines as ‘the supreme Law of the Land’ only those Federal Acts that accord with the constitutional design”) (citing
Printz, 521 U.S. at 924).
119
See, e.g., In re A.B., 245 P.3d 711, 718-19 (Utah 2010) (ICWA
does not implicate express or field preemption); In re W.D.H., 43
S.W.3d 30, 35-36 (Tex. App.—Houston [14th Dist.] 2001, pet. denied)
(ICWA implicates only conflict preemption).
120
See generally New Mexico v. Mescalero Apache Tribe, 462 U.S.
324, 333-34 (1983) (discussing special considerations governing
preemption of state law by “federal and tribal interests”) (and collecting decisions).

304a
States, by contrast, generally allow termination based
on “clear and convincing evidence” that a parent has
committed certain offenses and that termination is in
“the best interest of the child.” See, e.g., TEX. FAM.
CODE § 161.001(b)(1), (2). 121 ICWA’s placement preferences may also conflict with state standards, under
which placements depend on the child’s best interests. 122
Such conflicts, while not inevitable, 123 should come as no
surprise.
Whereas states seek only to promote a
child’s best interests, ICWA also seeks to “promote
the stability and security of Indian tribes and families.”
§ 1902.
With that background in mind, we proceed to the
preemption analysis. We assume for purposes of this
part only that ICWA is a valid exercise of Congress’s
power. See Murphy, 138 S. Ct. at 1479. We therefore
focus on whether the challenged provisions are “best
read” as regulating private instead of state actors. Id.

See also, e.g., In re W.D.H., 43 S.W.3d at 37, 36 (explaining
Texas law “is based on the ‘Anglo’ standard for determining the
best interest of the child,” which is “ ‘notably different’ ” from ICWA’s
termination standard) (first quoting Doty-Jabbaar, 19 S.W.3d at
877); and then citing Yavapai-Apache Tribe, 906 S.W.2d at 168).
122
Compare 81 Fed. Reg. at 38,840 (explaining “[ICWA] requires
that States apply a preference for the listed placement categories”
in § 1915), with TEX. FAM. CODE § 162.016(b) (court shall grant
adoption if “the adoption is in the best interest of the child”); LA.
CHILD. CODE arts. 1217(B), 1255(B) (the court’s “basic consideration” in adoption decree “shall be the best interests of the child”).
123
See, e.g., In re A.B., 245 P.3d at 720-21 (tribe’s right to seek
invalidation under § 1914 does not conflict with state notice-ofappeal requirements).
121

305a
a.

The provisions that regulate private actors
are valid preemption provisions.

Contrary to the district court’s ruling, see Brackeen,
338 F. Supp. 3d at 541, we conclude that several provisions of ICWA are valid preemption provisions because
they are best read as regulating private actors. For
example, ICWA gives a child’s Indian custodian
and tribe the “right to intervene at any point” in a state
court foster care or termination proceeding. § 1911(c).
An indigent parent or Indian custodian has “the right
to court-appointed counsel” in certain proceedings.
§ 1912(b). 124 Any party has “the right to examine all
reports or other documents” filed in proceedings.
§ 1912(c). ICWA also confers various parental rights
in voluntary termination proceedings, such as the right
to have the terms of consent “fully explained in detail”
and in comprehensible language (§ 1913(a)); the right to
withdraw consent to a placement at any time or to a termination or adoption prior to final decree (§ 1913(b), (c));
and the right to withdraw consent based on “fraud or
duress” up to two years after an adoption decree
(§ 1913(d)). An Indian child, parent, custodian, or tribe
may seek invalidation of a placement or termination action based on a violation of sections 1911, 1912, and 1913.
§ 1914. Additionally, a “biological parent” or prior Indian custodian may petition for return of custody when
an adoption is set aside or the adoptive parents consent.
§ 1916(a). Finally, upon reaching age 18, an adopted
Indian may obtain from the court information about his

JUDGE JONES does not agree that § 1912(b) is a valid preemption provision and so does not join this part to the extent it concludes otherwise.
124

306a
birth parents’ “tribal affiliation,” along with other information “necessary to protect any rights flowing from
[his] tribal membership.” § 1917.
The district court held none of the challenged
provisions—including these—could validly preempt
state law because they “directly command states.”
Brackeen, 338 F. Supp. 3d at 541. We disagree as to
the provisions discussed above, which are best read to
address private actors, not states. We therefore conclude those provisions (§§ 1911(c); 1912(b); 1913, 1914,
1916(a), and 1917 125) are valid preemption provisions. 126

State Plaintiffs suggest that, by requiring an adult adoptee be
informed of his birth parents’ tribal affiliation, § 1917 improperly imposes on courts a “non-judicial obligation[].” We disagree. The
right granted by § 1917 resembles rights recognized in various state
laws providing courts may unseal adoption records upon request of
adoptees. See generally Shannon Clark Kief, Annotation, Restricting Access to Judicial Records of Concluded Adoption Proceedings,
103 A.L.R. 5th 255 (2002) (collecting and analyzing cases). JUDGE
DENNIS argues that, if § 1917 creates a preemptive right (as we conclude), then so does the placement-record provision in § 1915(e).
DENNIS OP. at 89 n.39. We disagree. Unlike § 1917, § 1915(e) imposes a detailed recordkeeping regime on states designed to implement the placement preferences. See supra III(B)(1)(a)(iv).
126
See, e.g., In re J.L.T., 544 S.W.3d 874, 879 (Tex. App.—El Paso
2017, no pet.) (§ 1911(c) preempts state rule requiring tribe to file
written pleading to intervene); Dep’t of Human Servs. v. J.G.,
317 P.3d 936, 944 (Or. Ct. App. 2014) (§ 1914 preempts Oregon
“preservation rule”); In re K.B., 682 N.W.2d 81, 2004 WL 573793,
at *3 (Iowa Ct. App. 2004) (table) (concluding “when a tribe has a
statutory right of intervention under ICWA, state-law doctrines of
estoppel may not be applied to deprive it of that right”); State ex
rel. Juvenile Dept. of Lane Cnty. v. Shuey, 850 P.2d 378, 379-81
(Or. Ct. App. 1993) (tribe’s right of intervention in § 1911(c)
preempts state laws requiring tribe be represented by attorney).
125

307a
See Haywood v. Drown, 556 U.S. 729, 736 (2009) (explaining states “lack authority to nullify a federal right
or cause of action”).
b.

The provisions that command state agency action
are not valid preemption provisions.

Conversely, we conclude that the provisions of ICWA
discussed in the commandeering part are not valid
preemption provisions. They are best read as regulating states, not private actors. Murphy, 138 S. Ct. at
1479.
In our commandeering discussion, supra III(B)(1),
we considered ICWA’s provisions requiring active efforts (§ 1912(d)), expert witnesses (§ 1912(e), (f )), placement preferences (§ 1915(a)-(d)), placement records
(§ 1915(e)), and notice (§ 1912(a)). We found these provisions impose duties on state agencies to provide remedial services to Indian families (§ 1912(d); 25 C.F.R.
§ 23.2; 81 Fed. Reg. at 38,814); to adduce expert witness
testimony (§ 1912(e), (f ); 25 C.F.R. § 23.122(a); 81 Fed.
Reg. at 38,829); to assist Indian families and tribes with
preferred placements (§ 1915(a)-(d); 81 Fed. Reg. at
38,839-40); to compile records evidencing efforts to comply with placement preferences (§ 1915(e); 25 C.F.R.
§ 23.141); and to furnish notice to parents, custodians,
and tribes (§ 1912(a)). We therefore concluded these
provisions transgress the commandeering rule.
That also means they are not valid preemption provisions. “[E]very form of preemption is based on a federal law that regulates the conduct of private actors, not
the States.” Murphy, 138 S. Ct. at 1481. These provisions regulate, not private persons, but the conduct of

308a
state agencies and officials. They therefore cannot validly preempt conflicting state law. See, e.g., Printz,
521 U.S. at 935 (explaining a federal “command [to] the
States’ officers . . . to administer or enforce a federal regulatory program” is “fundamentally incompatible with our constitutional system of dual sovereignty”).
Federal Defendants respond that these provisions
merely grant Indian children and parents “federally
conferred rights,” which “may constrain state childprotection agencies” but do not “directly regulate[ ]
States.” We disagree. As we have explained at length,
these provisions do not merely “constrain” state agencies but, instead, require state agencies to undertake extensive actions. See supra III(A)(1). Thus, it is immaterial whether they can somehow be characterized,
through verbal legerdemain, as securing “federally conferred rights.” 127 The salient point is that “[t]here is no
way in which th[ese] provision[s] can be understood as a
regulation of private actors.” Murphy, 138 S. Ct. at
1481 (emphasis added). They instead regulate state
agencies, which means they commandeer states and cannot have valid preemptive effect. See, e.g., New York,
505 U.S. at 178 (“Where a federal interest is sufficiently
strong to cause Congress to legislate, it must do so directly; it may not conscript state governments as its
agents.”).

For instance, Federal Defendants awkwardly re-cast § 1912(d)
as securing to Indian children “the right not to be placed in foster
care . . . without proof that ‘active efforts have been made to
provide remedial services and rehabilitative programs.’ ” This
overlooks the key point that the provision “require[s] States to affirmatively provide Indian families with substantive services.” 81
Fed. Reg. at 38,791.
127

309a
c.

The placement preferences, placement standards,
and termination standards are valid
preemption provisions for state courts.
The recordkeeping requirement is not.

The district court ruled that certain ICWA provisions
were not valid preemption provisions because they require state courts to “incorporat[e] federal standards
that modify state created causes of action.” Brackeen,
338 F.Supp.3d at 539, 542. The court focused on
ICWA’s requirement that courts apply the § 1915 placement preferences, which it characterized as “a direct
command from Congress to the states.” Id. at 540.
More broadly, the court concluded that whenever ICWA
commands courts to apply “federal standards” in state
causes of action, it commandeers states and does not validly preempt state law. Id. at 541. On appeal, Defendants argue that the district court’s rationale failed
to account for the “well established power of Congress
to pass laws enforceable in state courts,” which those
courts must apply under the Supremacy Clause. See,
e.g., New York, 505 U.S. at 178.
To resolve this question, we first review some background principles. The Supremacy Clause binds state
courts of competent jurisdiction, save in narrow circumstances, to adjudicate federal causes of action. See,
e.g., Haywood, 556 U.S. at 734-36; Howlett v. Rose, 496
U.S. 356, 367-75 (1990); Testa v. Katt, 330 U.S. 386, 39495 (1947). 128 This obligation sometimes includes applying federal procedural rules connected with the federal
This rule does not apply “only in two narrowly defined circumstances: first when Congress expressly ousts state courts of jurisdiction; and second, when a state court refuses jurisdiction because of a neutral state rule regarding the administration of the
128

310a
action. See, e.g., Dice v. Akron, Canton & Youngstown
R.R., 342 U.S. 359, 363 (1952) (state court required to
apply FELA jury-trial right despite state rule requiring
court to make certain findings); Cent. Vt. Ry. Co. v.
White, 238 U.S. 507, 512 (1915) (state court required to
apply FELA burden of proof despite contrary state
rule). Additionally, a state procedural rule may be
preempted if it interferes with a federal cause of action.
See, e.g., Felder v. Casey, 487 U.S. 131, 147-150 (1988)
(state notice-of-injury prerequisite preempted in § 1983
actions); Brown v. W. Ry. of Ala., 338 U.S. 294, 298-99
(1949) (state pleading rule barred because it interfered
with federal rights). By contrast, however, no authority supports the proposition that Congress may prescribe procedural rules for state-law claims in state
courts. See, e.g., Felder, 487 U.S. at 138 (recognizing
the “unassailable proposition . . . that States may
establish the rules of procedure governing litigation in
their own courts”); Suesz v. Med-1 Solutions, LLC, 757
F.3d 636, 651 (7th Cir. 2014) (Sykes, J., concurring)
(“[I]t’s doubtful that Congress has the power to prescribe procedural rules for state-law claims in state
courts.”) (citing, inter alia, Anthony Bellia, Jr., Federal
Regulation of State Court Procedures, 110 Yale L. J. 947
(2001)).
The question we address here fits neatly into none of
these categories. ICWA creates no federal cause of action state courts must enforce. Nor does ICWA enact
federal procedural rules that state courts must prefer

courts.” Haywood, 556 U.S. at 735 (internal quotation marks and
citations omitted).

311a
over their own procedures. Nor does ICWA impose procedural rules for state-law claims in state courts. 129
That, as noted, would likely be a bridge too far. Instead, ICWA enacts substantive child-custody standards applicable in state child-custody proceedings.
For instance, ICWA requires courts to place Indian children with certain persons (§ 1915), and also requires
courts to make specific findings under a heightened
standard of proof before an Indian child may be placed
in a foster home or his parents’ rights terminated (§
1912(e) and (f )).
To the extent those substantive standards compel
state courts (as opposed to state agencies), we conclude
they are valid preemption provisions. As already discussed, the Supremacy Clause requires state courts to
apply validly enacted federal law. See Printz, 521 U.S.
at 907; New York, 505 U.S. at 178-79. The Supreme
Court has ruled that federal standards may supersede
state standards even in realms of traditional state authority such as family and community property law.
See, e.g., Boggs v. Boggs, 520 U.S. 833 (1997); McCarty
v. McCarty, 453 U.S. 210 (1981); Hisquierdo v. Hisquierdo, 439 U.S. 572 (1979); see also Egelhoff v.
Jinks v. Richland County, 538 U.S. 456 (2003), does not support
the proposition that Congress may impose procedural rules on state
claims in state courts. Jinks upheld Congress’s authority to toll
state limitations periods for state-law claims while removed to federal court under supplemental jurisdiction. Id. at 459, 462-63; see
28 U.S.C. § 1367(d). The Court rejected the argument that this rule
violated state sovereignty by regulating state-court “procedure,” because “tolling of limitations periods falls on the ‘substantive’ side of
the line.” 538 U.S. at 464-65. The Court disclaimed any holding
that “Congress has unlimited power to regulate practice and procedure in state courts.” Id. at 465.
129

312a
Egelhoff ex rel. Briener, 532 U.S. 141, 151-52 (2001) (observing “we have not hesitated to find state family law
pre-empted when it conflicts with ERISA”) (citing
Boggs, 520 U.S. at 833). For instance, Egelhoff held
ERISA preempted a state probate rule and so dictated,
contrary to state law, the beneficiaries of pension and
insurance proceeds. 532 U.S. at 147-50. Similarly,
McCarty held a federal military benefits law preempted
state community property rules, thus altering the property division upon divorce. 453 U.S. at 223-35. And,
more recently, Hillman v. Maretta held that a federal
law setting the “order of precedence” for paying federal
life-insurance benefits preempted a state cause of action
that directed the benefits to another person. 569 U.S.
483, 491-94 (2013).
This preemption rule embraces some of the ICWA
provisions challenged here. Specifically, ICWA’s substantive standards requiring state courts to observe
placement preferences (§ 1915) and make placement or
termination findings (§ 1912(e) and (f )) are valid preemption provisions. The district court’s view that these
standards “modify state created causes of action,”
Brackeen, 338 F.Supp.3d at 539, is a matter of terminology not legal analysis: whenever a federal standard
supersedes a state standard, the federal standard can be
said to “modify a state created cause of action.” In
McCarty, for instance, the federal benefits law could be
said to “modify” a state cause of action for dividing marital property. McCarty, 453 U.S. at 223-35. The same
for Hillman, where the preempted state law “interfere[d]” with the federal scheme “by creating a [state]
cause of action” directing proceeds to beneficiaries other
than those specified by federal law. 569 U.S. at 494.

313a
In any event, instead of casting preemption in terms
of whether federal law “modifies” a state cause of action,
the Supreme Court has put the analysis more straightforwardly: “[S]tate law is naturally preempted to the
extent of any conflict with a federal statute.” Crosby v.
Nat’l Foreign Trade Council, 530 U.S. 363, 373 (2000);
see also, e.g., Arizona, 567 U.S. at 399 (“[S]tate laws are
preempted when they conflict with federal law.”). If
ICWA’s placement preferences apply in a state proceeding, preemption means a state court must prefer them
to conflicting state standards. 130 But “this sort of federal ‘direction’ of state judges is mandated by the text of
the Supremacy Clause,” and so is not commandeering.
New York, 505 U.S. at 178-79. 131
We reach a different conclusion, however, as to
§ 1951(a), which requires state courts to provide the Secretary with a copy of an Indian child’s final adoption decree, “together with . . . other information.” The
district court held this provision unconstitutional, cast-

Elsewhere in this opinion, we conclude the § 1915 placement
preferences violate the equal protection component of the Fifth
Amendment. See supra III(A)(2), (3). Our discussion in this Part
of the preemptive effect of those preferences is separate from and
independent of our holding that the preferences violate the Fifth
Amendment.
131
State Plaintiffs worry that this principle would permit Congress “to prescribe sentences for state-law drug offenses, or to require imposition of strict liability in auto-accident cases.” We
think not. We cannot fathom where Congress would get the
power to do those things. Here, we have assumed—for this part
only—that Congress has the power to enact ICWA. But see
supra II (separately concluding Congress lacks power to enact
ICWA to extent it governs state proceedings).
130

314a
ing it as part of ICWA’s command to states to “administer” a federal regulatory program.
Brackeen,
338 F.Supp.3d at 541-42. On appeal, Defendants argue
the provision is merely an “information-sharing” requirement the Supreme Court all but approved in
Printz. We disagree. Printz left open whether requiring “the provision of information to the Federal
Government” amounts to commandeering.
See
521 U.S. at 918 (noting “we . . . do not address” that
issue because it is “not before us”). As State Plaintiffs
point out, however, § 1951(a) makes state courts do more
than share information. The provision spearheads a
“recordkeeping” regime that demands state courts
(1) transmit to the Secretary a variety of information,
see 25 C.F.R. § 23.140; 132 (2) maintain a specified
“record” of every Indian child placement, see id.
§ 23.141(a), (b); 133 and (3) “make the record available
within 14 days of a request” by the tribe or Secretary,
id. § 23.141(a). States have the option of designating
either their courts or agencies as the “repository” for this
information. Id. § 23.141(c). The regulations estimate
complying with this regime will consume large amounts

132
The information pertains to the child’s tribal affiliation, the
names and addresses of the child’s birth and adoptive parents, and
“the identity of any agency having files or information relating
to such adoptive placement.” § 1951(a)(1)-(4); see also 25 C.F.R.
§ 23.140(a)(1)-(6) (detailing additional requirements).
133
“The record must contain, at a minimum, the petition or complaint, all substantive orders entered in the child-custody proceeding, the complete record of the placement determination (including, but not limited to, the findings in the court record and the social worker’s statement), and, if the placement departs from the
placement preferences, detailed documentation of the efforts to
comply with the placement preferences.” Id. § 23.141(b).

315a
of state court and agency resources every year.
Fed. Reg. at 38,863.

See 81

Unlike the other provisions discussed in this part,
§ 1951(a) is not a substantive child-custody standard
state courts must apply under the Supremacy Clause.
Rather, the provision imposes an extensive recordkeeping obligation directly on state courts and agencies.
This is not a valid preemption provision because it regulates the conduct of states, not private actors. Cf.
Murphy, 138 S. Ct. at 1481 (explaining “every form of
preemption is based on a federal law that regulates the
conduct of private actors, not the States”). By conscripting state courts and agencies into administering
this system, § 1951(a) violates the principle that “Congress cannot compel the States to enact or enforce a federal regulatory program.” Printz, 521 U.S. at 935.
We therefore hold that § 1951(a) violates the commandeering doctrine and is not a valid preemption provision.
* * *
Summing up part III, we find the following provisions unconstitutional to the extent they command state
agencies (supra III(B)(1)(a), (B)(2)(c)):
•

The active-efforts requirement in § 1912(d)

•

The expert-witness requirement in § 1912(e) and (f )

•

The placement preferences in § 1915(a) and (b)

•

The placement-record requirement in § 1915(e)

•

The notice requirement in § 1912(a)

•

The recordkeeping requirement in § 1951(a).

316a
We also conclude that none of these are valid preemption provisions (supra III(B)(2)(b)).
On the other hand, we find the following are valid
preemption provisions (supra III(B)(2)(a), (c)):
•

The right to intervene in § 1911(c)

•

The right to appointed counsel in § 1912(b)

•

The right to examine reports and documents in
§ 1912(c)

•

The right to withdraw consent in § 1913(b) and (c)

•

The right to collaterally attack a decree in
§ 1913(d)

•

The right to petition to invalidate a decree in
§ 1914

•

The right to petition for return of custody in
§ 1916(a)

•

The right to obtain tribal affiliation information
in § 1917

•

Courts’ obligation to apply the placement preferences in § 1915

•

Courts’ obligation to apply the placement and termination standards in § 1912(e) and (f ).
C.

Nondelegation

We now consider whether ICWA § 1915(c) unconstitutionally delegates legislative power to Indian tribes.
As discussed, ICWA establishes preferences for placements of Indian children. See § 1915(a), (b). Section
1915(c) empowers tribes to reorder those preferences:

317a
In the case of a placement under subsection (a) or (b)
of this section, if the Indian child’s tribe shall establish a different order of preference by resolution, the
agency or court effecting the placement shall follow
such order so long as the placement is the least restrictive setting appropriate to the particular needs
of the child, as provided in subsection (b) of this
section.
§ 1915(c). ICWA’s regulations confirm that a tribe’s
rewritten preferences trump the order established by
Congress. 134
The district court ruled § 1915(c) and its implementing regulations violate the nondelegation doctrine for
two reasons. First, the court held that § 1915(c) invalidly attempts to delegate Congress’s “inherent legislative
power to create law.” Brackeen, 338 F. Supp. 3d at 536.
Second, even if § 1915(c) delegates only regulatory power,
that power cannot be delegated outside the federal government to an Indian tribe. The panel reversed, reasoning that the provision merely exercised Congress’s
longstanding authority to “incorporate the laws of another sovereign into federal law” and that tribes have
“inherent authority” to regulate their members and domestic relations. Brackeen, 937 F.3d at 436-37. We

See 25 C.F.R. § 23.130(b) (“If the Indian child’s Tribe has established by resolution a different order of preference than that
specified in ICWA, the Tribe’s placement preferences apply.”); id.
§ 23.131(c) (“If the Indian child’s Tribe has established by resolution a different order of preference than that specified in ICWA,
the Tribe’s placement preferences apply, so long as the placement
is the least-restrictive setting appropriate to the particular needs
of the Indian child, as provided in paragraph (a) of this section.”).
134

318a
agree with the district court that § 1915(c) impermissibly delegates legislative power to Indian tribes.
1.

“The nondelegation doctrine is rooted in the principle
of separation of powers that underlies our tripartite system of Government.” Mistretta v. United States, 488
U.S. 361, 371 (1989). Typically, a nondelegation claim
challenges Congress’s “transferring its legislative power
to another branch of Government.” Gundy v. United
States, 139 S. Ct. 2116, 2121 (2019) (plurality op.); see
also, e.g., Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 472 (2001) (a delegation challenge asks “whether
the statute has delegated legislative power to [an]
agency”). Such challenges are usually unsuccessful because the Supreme Court requires Congress to provide
only an “intelligible principle” guiding execution of the
delegated authority. See Touby v. United States, 500
U.S. 160, 165 (1991); see also, e.g., United States v.
Whaley, 577 F.3d 254, 263 (5th Cir. 2009) (the “modern
[nondelegation] test is whether Congress has provided
an ‘intelligible principle’ to guide the agency’s regulations,” which “can be broad”) (citations omitted). But
§ 1915(c), as the district court correctly recognized, presents an atypical nondelegation issue for two main reasons: the statute delegates lawmaking—not merely
regulatory—authority, and it does so to an entity outside the federal government.
“The fundamental precept of the delegation doctrine
is that the lawmaking function belongs to Congress, and
may not be conveyed to another branch or entity.”
Loving v. United States, 517 U.S. 748, 758 (1996) (citing
U.S. CONST., art. I, § 1; Field v. Clark, 143 U.S. 649, 692
(1892)). That forbidden conveyance is what § 1915(c)

319a
purports to do. It does not delegate to tribes authority
merely to regulate under Congress’s general guidelines.
Cf., e.g., Touby, 500 U.S. at 165 (nondelegation not implicated “merely because [Congress] legislates in broad
terms, leaving a certain degree of discretion to executive
or judicial actors”) (citing J.W. Hampton, Jr., & Co. v.
United States, 276 U.S. 394, 409 (1928)). Rather, it empowers tribes to change the substantive preferences
Congress enacted in § 1915(a) and (b) and to bind courts,
agencies, and private persons to follow them. As the
district court correctly reasoned, “[t]he power to change
specifically enacted Congressional priorities and impose
them on third parties can only be described as legislative.” Brackeen, 338 F. Supp. 3d at 537; see also INS
v. Chadha, 462 U.S. 919, 952 (1983) (explaining “action
that had the purpose and effect of altering the legal
rights, duties and relations of persons” is “essentially
legislative in purpose and effect”). This “delegation of
power to make the law,” Chief Justice Marshall explained long ago, “cannot be done.” Loving, 517 U.S.
at 759 (quoting Wayman v. Southard, 23 U.S. (10
Wheat.) 1, 42 (1825) (Marshall,C.J.)); see also A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S. 495,
529 (1935) (“The Congress is not permitted to abdicate
or to transfer to others the essential legislative functions with which it is vested.”).
If Congress wants to enact a new order of preferences, it must follow the constitutional demands of presentment and bicameralism. See U.S. CONST. art. I,
§ 1; id. § 7, cl. 2, 3; see also, e.g., Chadha, 462 U.S. at 951
(“[T]he Framers were acutely conscious that the bicameral requirement and the Presentment Clauses would
serve essential constitutional functions.”). But § 1915(c)
orchestrates their evasion. Just as Congress cannot

320a
authorize laws to be amended by a single chamber, see
Chadha, 462 U.S. at 959, or by the President, see Clinton
v. City of New York, 524 U.S. 417, 447-48 (1998), it may
not empower laws to be rewritten by an outside entity.
For instance, in Metropolitan Washington Airports Authority v. Citizens for the Abatement of Aircraft Noise,
Inc., 501 U.S. 252, 276 (1991), Congress established a
Board of Review, composed of nine members of Congress, that exercised veto power over a regional airport
authority. The Court held the Board’s authority was
an unconstitutional delegation of federal power: Congress may “act with conclusive effect” only “through enactment by both Houses and presentment to the President.” Id. at 275 n.19 (quoting Bowsher, 478 U.S. at
759 (Stevens, J., concurring in the judgment)). If Congress could delegate such authority to another entity, “it
would be able to evade the carefully crafted restraints
spelled out in the Constitution.” Id. at 275 n.20 (quoting Bowsher, 478 U.S. at 755 (Stevens, J., concurring in
the judgment)). 135
These principles bar the delegated authority exercised by a tribe under § 1915(c). In § 1915(a) and (b),
Congress set forth a statutory order of preferences for
placing Indian children, but § 1915(c) gives tribes the
authority by “resolution” to overrule this order. The
JUDGE DENNIS suggests that, by discussing the Constitution’s
presentment and bicameralism requirements, we have sua sponte
raised an issue not addressed by the district court or the parties.
DENNIS OP. at 132. Not so. Nondelegation, presentment, and bicameralism are interrelated doctrines, as JUDGE DENNIS himself
recognizes. See id. (stating that the nondelegation inquiry “already
accounts for bicameralism and presentment”) (citing, inter alia,
John F. Manning, The Nondelegation Doctrine as a Canon of Avoidance, 2000 SUP. CT. REV. 223, 240 (2000)).
135

321a
tribe can thereby “amend[] the standards” Congress enacted, Chadha, 462 U.S. at 954, sapping them of “legal
force or effect,” Clinton, 524 U.S. at 438. As a result, a
state court or agency must no longer follow the priorities voted on by Congress and signed by the President
in adjudicating an Indian child’s placement. Instead
they “shall follow” the tribe’s priorities. § 1915(c).
Whether Congress “intended such a result” is “of no moment.” Clinton, 524 U.S. at 445-46. Congress cannot
validly enact something called “Public Law [95-608] as
modified by [an Indian child’s tribe].” Id. at 448. The
Constitution bars Congress from authorizing action that
“alter[s] the legal rights, duties, and relations of persons
. . . outside the Legislative Branch.” Metro. Wash. Airports, 501 U.S. at 276 (quoting Chadha, 462 U.S. at
951). 136
Finally, even assuming § 1915(c) delegates only
regulatory—as opposed to legislative—authority, it is
JUDGE DENNIS tries to compare § 1915(c) to federal laws that
“set a default standard that applies unless another party chooses to
act.” DENNIS OP. at 134. The cited laws, however, empower agencies or other government actors only to grant waivers from otherwise applicable requirements, not to re-write enacted statutes. See
id. at 134-35 (citing, inter alia, 16 U.S.C. § 1536(h)(1), allowing a
committee to “grant an exemption” from certain requirements of the
Endangered Species Act). Indeed, one of the cases JUDGE DENNIS
cites upheld a similar waiver provision against a nondelegation challenge in part because “the Secretary ha[d] no authority to alter the
text of any statute, repeal any law, or cancel any statutory provision,
in whole or in part.” Def. of Wildlife v. Chertoff, 527 F. Supp. 2d
119, 124 (D.D.C. 2007) (addressing Secretary of Homeland Security’s authority to waive federal environmental law under the REAL
ID Act of 2005) (emphasis added). Unlike the waiver provisions
JUDGE DENNIS cites, § 1915(c) empowers tribes to “alter the text”
of the placement preferences Congress enacted in § 1915(a) and (b).
136

322a
still unconstitutional because it delegates that authority
outside the federal government. “By any measure,
handing off regulatory power to a private entity is ‘legislative delegation in its most obnoxious form.’ ” Dep’t
of Transp. v. Ass’n of Am. R.R., 575 U.S. 43, 62 (2015)
(Alito, J., concurring) (quoting Carter v. Carter Coal Co.,
298 U.S. 238, 311 (1936)); see also, e.g., Gary Lawson,
Delegation and Original Meaning, 88 Va. L. Rev. 327,
351-53 (2002) (explaining that delegating executive
power to non-federal actors violates Article II Appointments and Take-Care Clauses). An Indian tribe is “not
part of the Government at all,” which “would necessarily
mean that it cannot exercise . . . governmental
power.” Ass’n of Am. R.R., 575 U.S. at 1253 (Thomas,
J., concurring). To be sure, Indian tribes are often described as “possessing attributes of sovereignty,”
United States v. Mazurie, 419 U.S. 544, 557 (1975) (citing Worcester, 31 U.S. at 557), but this sovereignty has
“ ‘a unique and limited character’ . . . center[ed] on
the land held by the tribe and on tribal members within
the reservation.” Plains Commerce Bank v. Long
Family Land & Cattle Co., 554 U.S. 316, 327 (2008)
(quoting United States v. Wheeler, 435 U.S. 313, 323
(1978) and citing Mazurie, 419 U.S. at 557). As relevant here, Indians have no sovereignty over non-Indians
and no sovereignty over state proceedings. See, e.g.,
Plains Commerce Bank, 554 U.S. at 330 (“[E]fforts by a
tribe to regulate nonmembers, especially on non-Indian
fee land, are ‘presumptively invalid.’ ”) (quoting Atkinson Trading Co. v. Shirley, 532 U.S. 645, 659 (2001)); see

323a
also infra (discussing this proposition in greater
detail). 137
In sum, § 1915(c) violates the nondelegation doctrine,
either because it delegates Congress’s lawmaking function or because it delegates authority to entities outside
the federal government altogether.
2.

Defendants’ arguments to the contrary are unavailing.
Defendants first argue that § 1915(c) is not a delegation at all but only another example of Congress’s adopting the laws of another sovereign. For example, they
rely on United States v. Sharpnack, 355 U.S. 286 (1958),
which upheld the Assimilative Crimes Act (“ACA”)
JUDGE DENNIS counters that § 1915(c) is like “long approved”
federal laws “that permit another sovereign to supply key aspects of
the law”—for instance, when 42 U.S.C. § 1983 incorporates a state
limitations period. DENNIS OP. at 136. We disagree. Section
1915(c) permits tribes, not merely to “supply key aspects of the law,”
but to change the order of preferences Congress enacted. Supplementing § 1983 actions with state limitations periods is a different
animal. Congress “endorse[d] the borrowing of state-law limitations provisions” in § 1988, but only “where doing so is consistent
with federal law.” Owens v. Okure, 488 U.S. 235, 239 (1989). It is
one thing for a state statute to supplement an otherwise-silent federal provision; it is quite another for a state (or a tribe) to alter the
provisions of enacted federal law. In a similar vein, JUDGE DENNIS
also cites federal laws supposedly delegating to “separate sovereign[s]” authority to change “the federal standard in matters related
to the sovereign’s jurisdiction.” DENNIS OP. at 134-35 (emphasis
omitted) (citing, e.g., 20 U.S.C. § 1415(b)(6)(B), allowing state law to
set time limitation for bringing an IDEA administrative claim).
This again misses the point. None of these laws allows a different
sovereign to alter the text of enacted federal law.
137

324a
against a nondelegation challenge. Applying to federal
enclaves, the ACA criminalizes actions that “would be
punishable . . . within the jurisdiction of the State,
Territory, Possession, or District in which such place is
situated.” Id. at 287-88; see 18 U.S.C. § 13(a). “Rather than being a delegation by Congress of its legislative authority to the States,” Sharpnack held this practice is “a deliberate continuing adoption by Congress for
federal enclaves” of crimes that “have been already put
in effect by the respective States.” 355 U.S. at 294.
Defendants contend ICWA § 1915(c) merely follows
the pattern of the ACA by incorporating another sovereign’s law. We disagree. The ACA’s strategy is to
“borrow[] state law to fill gaps in the federal criminal
law on enclaves.” Parker Drilling Mgmt. Servs., Ltd.
v. Newton, 139 S. Ct. 1881, 1891 (2019) (cleaned up).
Section 1915(c) of ICWA does not “fill gaps” in federal
law; it empowers tribes to change federal law. Cf., e.g.,
Lewis, 523 U.S. at 160 (explaining the ACA fills gaps
only “where Congress has not defined the missing offenses”) ( cleaned up). Moreover, the Supreme Court
has clarified that the ACA cannot adopt state laws that
“effectively rewrite an offense definition that Congress
carefully considered.” Id. at 164 (citing Williams v.
United States, 327 U.S. 711, 718 (1946)). As a result,
the ACA’s “continuing adoption” of state law does not
evade the Constitution’s lawmaking requirements.
ICWA does: § 1915(c) contemplates that tribal “resolution[s]” will supersede law already enacted in §§ 1915(a)
and (b). 138
The same may be said for the Federal Tort Claims Act (“FTCA”),
on which Defendants also rely. The FTCA makes the United
States liable in tort “in accordance with the [state] law of the place
138

325a
Defendants next rely on United States v. Mazurie.
That decision addressed whether, pursuant to a federal
statute, a tribe could regulate alcohol sales on nonIndian fee lands within the boundaries of its reservation.
419 U.S. at 546-48. The Supreme Court held the tribe
could do so on two grounds. First, limitations on delegating legislative power are “less stringent in cases
where the entity exercising the delegated authority
itself possesses independent authority over the subject
matter.” Id. at 556 (citing United States v. CurtissWright Export Corp., 299 U.S. 304, 319-22 (1936)).
Second, “tribes are unique aggregations possessing attributes of sovereignty over both their members and
their territory,” which empowers them to “regulate[]
their internal and social relations.” Mazurie, 419 U.S.
at 557 (citing Worcester, 31 U.S. at 557; Kagama, 118
U.S. at 381-82; McClanahan v. Ariz. State Tax Comm’n,
411 U.S. 164, 173 (1973)). Mazurie does not apply to
§ 1915(c) for three reasons.
First, Indian tribes lack “independent authority”
over off-reservation matters. The Supreme Court—
citing Mazurie—has held that tribes’ “unique and limited” sovereignty “centers on the land held by the tribe
and on tribal members within the reservation.” Plains
Commerce Bank, 554 U.S. at 330 (citing Mazurie, 419 U.S.
at 557). Section 1915(c), however, empowers tribes to alter placement preferences with respect to off-reservation
activities. Second, tribes have only sharply limited authority over nonmembers. See, e.g., Montana v. United

where the act or omission occurred.” 28 U.S.C. § 1346(b)(1). Like
the ACA, the FTCA completes the federal framework by adopting
state law.

326a
States, 450 U.S. 544, 565 (1981) (holding a tribe’s “inherent sovereign powers . . . do not extend to the activities of nonmembers of the tribe”). Section 1915(c),
however, empowers tribes to affect the rights of nonIndian foster and adoptive parents. Third, and most
importantly, Mazurie does not even hint that tribes
have authority to bind state courts and agencies. To
the contrary, the statute in Mazurie explicitly provided
that tribal ordinances could be promulgated only “so
long as state law was not violated.” 419 U.S. at 547 (citing 18 U.S.C. § 1161). Thus, Mazurie could not support the proposition that Congress can delegate to a
tribe authority to bind state courts or agencies. Defendants cite no other authority for that unheard-of
proposition. 139
* * *
For these reasons, we hold that § 1915(c) and its implementing regulations unconstitutionally delegate federal legislative power.
D.

Administrative Procedure Act

JUDGE DENNIS suggests that, regardless of a tribe’s inherent
sovereignty, Congress can extend a tribe’s jurisdiction over state
proceedings through “express authorization” in a federal statute or
treaty. DENNIS OP. at 128 (quoting Strate v. A-1 Contractors,
520 U.S. 438, 445 (1997)). No authority supports that proposition.
The case JUDGE DENNIS cites addresses, like Mazurie, only whether
Congress may authorize tribes to exercise authority over nonmembers within their reservations. See Bugenig v. Hoopa Valley
Tribe, 266 F.3d 1201, 1223 (9th Cir. 2001) (en banc) (upholding federal statute that “ratified” tribe’s governing documents giving it power
to regulate reservation property, including nonmembers’ property).
139

327a
We now consider whether the Final Rule violates the
APA. The district court held it did for three reasons.
First, the court set aside the parts of the Final Rule that
implement the statutory provisions the court found unconstitutional. Brackeen, 338 F.Supp.3d at 541-41.
Second, in the alternative the court found the BIA exceeded its authority by issuing regulations binding on
state courts. Id. at 542-44. See 81 Fed. Reg. at
38,785-86. Third, the court separately found invalid
25 C.F.R. § 23.132(b), which requires that “good cause”
to depart from the placement preferences be proved by
clear and convincing evidence. Id. at 544-46. The
panel reversed. Brackeen, 937 F.3d at 437-41. It found
ICWA constitutional, id. at 437, and the BIA’s interpretive views entitled to Chevron deference, id. at 438-41.
We review the agency’s interpretation of ICWA under the two-step framework from Chevron, USA, Inc. v.
Natural Resources Defense Council, Inc., 467 U.S. 837
(1984); see generally, e.g., Sw. Elec. Power Co., 920 F.3d
at 1014 (discussing Chevron). At step one, we ask
“whether Congress has directly spoken to the precise
question at issue.” Chevron, 467 U.S. at 842. We answer that question by “exhaust[ing] all the ‘traditional
tools’ of construction,” including “text, structure, history, and purpose.” Kisor v. Wilkie, 139 S. Ct. 2400,
2415 (2019) (quoting Chevron, 467 U.S. at 843 n.9;
Pauley v. BethEnergy Mines, Inc., 501 U.S. 680, 707
(1991) (Scalia, J., dissenting)). If that holistic reading
of the statute settles the matter, Chevron ends: we
“must give effect to the unambiguously expressed intent
of Congress.” Chevron, 467 U.S. at 842-43. On the
other hand, if the statute is “truly ambiguous” on the
question, Kisor, 139 S. Ct. at 2414, we proceed to step
two, “asking whether the agency’s construction of the

328a
statute is ‘permissible.’ ” Sw. Elec. Power Co., 920 F.3d
at 1014 (quoting Chevron, 467 U.S. at 843). A permissible construction is one that “reasonabl[y] accommodat[es] . . . conflicting policies that were committed
to the agency’s care by the statute.” Chevron, 467 U.S.
at 845 (quoting United States v. Shimer, 367 U.S. 374,
382 (1961)).
1.

Having found parts of ICWA unconstitutional (supra
III(A)-(C)), we agree with the district court that the Final Rule is invalid to the extent it implements those unconstitutional statutory provisions. See Brackeen, 338
F.Supp.3d at 541-42; see also 5 U.S.C. § 706(2)(A) (authorizing courts to set aside “unlawful” agency action);
see also F.C.C. v. Fox Television Stations, Inc., 556 U.S.
502, 516 (2009) (explaining “unlawful” agency action “includes unconstitutional action”); Texas v. United States,
497 F.3d 491, 500-01 (5th Cir. 2007) (observing “[t]he authority of administrative agencies is constrained by the
language of the statutes they administer”) (citing Massachusetts v. EPA, 549 U.S. 497, 532 (2007)). In the alternative, we address below the more specific grounds
on which the district court concluded the Final Rule was
unlawful.
2.

The district court found the Final Rule invalid because it purports to bind state courts’ implementation of
ICWA. Its ruling appears to rely on both Chevron step
one and two. See Brackeen, 338 F.Supp.3d at 542-44.
Defending the ruling on appeal, Individual Plaintiffs focus on step two, arguing the BIA’s “novel interpretation” of its authority in the Final Rule—which reverses

329a
BIA’s position in the 1979 guidelines—does not merit
Chevron deference. See Chamber of Commerce v. U.S.
Dep’t of Labor, 885 F.3d 360, 380-81 (5th Cir. 2018)
(treating this “novel interpretation” argument under
Chevron step two). We resolve this question under
step two. Therefore, we assume ICWA is “silent or
ambiguous” on whether the BIA has authority to bind
state courts. Chevron, 467 U.S. at 843. We ask only
whether the BIA’s 2016 stance is a “permissible construction of the statute.” Id.
In 1979, mere months after enactment, the BIA emphatically concluded that ICWA did not authorize the
agency to bind state courts’ implementation of the statute. 44 Fed. Reg. at 67,584. It would be “an extraordinary step,” the BIA wrote, “[f ]or Congress to assign
to an administrative agency such supervisory control
over courts.” Id. The agency recognized that § 1952
authorized it to issue rules “necessary to carry out
[ICWA].” Id. But § 1952, the BIA explained, allowed
it to make binding rules only for those parts of ICWA
delegating interpretive responsibility to the Secretary
of the Interior. Id. 140 “Nothing” in the section’s text
or history, however, suggested Congress wanted the
agency to “exercise supervisory control over state or
tribal courts or to legislate for them with respect to Indian child custody matters.” Id. The agency declined

As an example, the agency cited § 1918, under which “the Secretary is directed to determine whether a plan for reassumption of
jurisdiction is ‘feasible’ as that term is used in the statute.” 44 Fed.
Reg. at 67,584. The agency noted it had already promulgated regulations covering this section as well as “other areas where primary
responsibility for implementing portions of the Act rest with this Department.” Id. (citing 44 Fed. Reg. 45,092 (July 31, 1979)).
140

330a
to attribute to Congress “a measure so at odds with concepts of both federalism and separation of powers . . .
in the absence of an express declaration of Congressional intent to that effect.” Id. After operating with
this understanding for 37 years, however, the agency reversed course in 2016, determining that § 1952 authorizes it to “set binding standards for Indian child-custody
proceedings in State courts.” 81 Fed. Reg. at 38,785.
When an agency abruptly departs from a longstanding position, its “ ‘current interpretation . . . is entitled to considerably less deference.’ ” Chamber of Commerce, 885 F.3d at 381 (quoting Watt v. Alaska, 451 U.S.
259, 272-73 (1981)). Here, the agency “claims to discover in a long-extant statute an unheralded power” of
binding state courts’ implementation of ICWA, and so
we “greet its announcement with a measure of skepticism.” Util. Air Regul. Grp. v. EPA, 573 U.S. 302, 324
(2014) (“UARG”). Indeed, BIA’s “turnaround” from
its previous stance “alone gives us reason to withhold
approval or at least deference for the Rule.” Chamber
of Commerce, 885 F.3d at 381 (citing Gen. Elec. Co. v.
Gilbert, 429 U.S. 125, 142 (1976)). This principle is especially prescient where, as here, the agency’s new position is “not a contemporaneous interpretation of
[ICWA]” and “flatly contradicts the position which the
agency had enunciated at an earlier date, closer to the
enactment of the governing statute.” Id. (quoting Gilbert, 429 U.S. at 142); see also Udall v. Tallman, 380
U.S. 1, 16 (1965) (giving “particular[] . . . respect”
to the “contemporaneous construction of a statute by the
men charged with the responsibility of setting its machinery in motion”) (cleaned up).
To be sure, an
agency’s changing its mind does not alone defeat Chevron deference. See, e.g., Gonzalez-Veliz v. Barr, 938

331a
F.3d 219, 234 (5th Cir. 2019) (“An agency is not permanently bound to the first reasoned decision that it
makes.”). But the agency must “show that there are
good reasons for the new policy” by providing a “reasoned explanation” for departing from its previous position. Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2126 (2016) (quoting Fox Television Stations, 556
U.S. at 515-16). 141 The BIA has failed to do so here.
The 1979 BIA explained that empowering a federal
agency to control state courts would be an “extraordinary” subversion of federalism and separation of powers. 44 Fed. Reg. at 67,584. BIA’s 2016 response to this
point can charitably be described as anemic. The
agency now says it “reconsidered” its 1979 view because
“Congress enacted ICWA to curtail State authority in
some respects,” including state court authority. 81
Fed. Reg. at 38,788-89. But that fails to address the
serious question central to the agency’s 1979 position—
JUDGE DENNIS criticizes us for including the agency’s reversal
“as a component of Chevron step two.” DENNIS OP. at 143. As our
discussion shows, however, both our court and the Supreme Court
have considered under Chevron step two an agency’s reversal-ofposition, as well as its belated discovery of novel authority in statutes
it has long administered. See Encino Motorcars, 136 S. Ct. at 212526; UARG, 573 U.S. at 324; Chamber of Commerce, 885 F.3d at 38081, 387; see also, e.g., Environmental Integrity Project v. EPA, 969
F.3d 529, 544 (5th Cir. 2020) (explaining “we take the agency’s
change of position into account” in deciding whether to apply Skidmore deference). JUDGE DENNIS himself concedes that, when assessing an agency’s reading of a statute, “Chevron deference may be
withheld if the agency failed to adequately explain why it shifted to
its current interpretation.” DENNIS OP. at 142 (citing Encino Motorcars, 136 S. Ct. at 2125). That is the question we confront here—
whether the BIA failed to justify its discovery in § 1952 of authority
whose existence it had denied for the prior forty years.
141

332a
namely, whether Congress intended the BIA to control
state courts. The agency also now points out that Congress can “pass laws enforceable in state courts.” Id.
at 38,789 (citing, inter alia, Testa, 330 U.S. at 394).
But that settled principle long pre-dates the 1979 guidelines and, again, says nothing about whether a federal
agency can control state courts. Moreover, as discussed, the Final Rule also purports to control state agencies, supra III(B)(1), which raises anti-commandeering
problems the BIA ignores. The BIA also invokes Congress’s “plenary power over Indian affairs,” 81 Fed. Reg.
at 38,789, but we have explained that mouthing that shibboleth is not enough to override state sovereignty. Supra II(A). Finally, purportedly addressing the “Federalism concerns it noted in 1979,” the BIA now cites the
Supreme Court’s Brand X decision. 81 Fed. Reg. at
38,789 (citing Nat’l Cable & Telecomm. Ass’n v. Brand
X Internet Servs., 545 U.S. 967, 983 (2005)). But Brand
X has nothing to do with federalism; rather, it addresses
when a federal court’s interpretation of a statute may
deny Chevron deference to a federal agency’s later interpretation. See id. at 982 (holding federal court
trumps if “its construction follows from the [statute’s]
unambiguous terms”).
The 1979 BIA also concluded that neither § 1952’s
language or history showed Congress gave the agency
supervisory power over state courts. 44 Fed. Reg. at
67,584. The agency reasoned that, by authorizing rules
“necessary to carry out” ICWA, § 1952 only empowered
the BIA to issue regulations “to carry out the responsibilities Congress had assigned to [the Department] under [ICWA].” Id. BIA’s 2016 response fails to engage this reasoning. It merely says that § 1952 is a
“broad and general grant of rulemaking authority” and

333a
that courts have held that similar provisions “presumptively authorize agencies to issue rules and regulations
addressing matters covered by the statute.” 81 Fed.
Reg. at 38,786. That ducks the point entirely. No one
doubts the language in § 1952 authorizes agency rulemaking. See, e.g., Mourning v. Family Pub. Serv., 411
U.S. 356, 369 (1973). The 1979 BIA asked a different
question: whether § 1952 authorizes regulations that
bind state courts in state proceedings. See 44 Fed.
Reg. at 67,584 (“Nothing in the language or legislative
history of § 1952 compels the conclusion that Congress
intended to vest this Department with such extraordinary power.”). No case cited by the 2016 BIA confronts that question. 142 Only one—AT&T Corp. v. Iowa
Utilities Board—even comes close, but it holds only that
a federal agency can control a state commission’s participation in a federal telecommunications regime. See
525 U.S. 366, 378 n.6 (1999) (asking whether “the state
commissions’ participation in the administration of the
new federal regime is to be guided by federal-agency
regulations”). Here we have the opposite question:
whether a federal agency can control state courts and
See 81 Fed. Reg. at 38,785 (citing AT&T Corp. v. Iowa Utils.
Bd., 525 U.S. 366, 378 (1999); Am. Hosp. Ass’n v. Nat’l Labor Relations Bd., 499 U.S. 606, 609-10 (1991); Mourning, 411 U.S. at 369;
City of Arlington v. FCC, 133 S. Ct. 1863, 1874 (2013); Qwest
Comm’ns Int’l Inc. v. FCC, 229 F.3d 1172, 1179 (D.C. Cir. 2000)).
Of these cases, JUDGE DENNIS focuses on Mourning because
the agency-empowering language there was “nearly identical” to
§ 1952. DENNIS OP. at 141 & n.65. That is irrelevant, however,
because Mourning did not address a federal agency’s power over
state courts or agencies; instead, it addressed the scope of the Federal Reserve Board’s power to prevent merchants from evading
certain Truth in Lending Act disclosure requirements. 411 U.S.
at 361-62.
142

334a
agencies acting under state jurisdiction. The 1979 BIA
concluded ICWA did not intend that “extraordinary
step,” 44 Fed. Reg. at 67,584, and the 2016 BIA offers
no reason whatsoever for thinking otherwise.
Finally, the BIA defends its new approach as needed
to harmonize “sometimes conflicting” state court interpretations of ICWA over past decades. 81 Fed. Reg. at
38,782. Merely because state courts have sometimes
disagreed about ICWA, however, says nothing about
whether Congress empowered the BIA to control how
state courts interpret it. Cf. 44 Fed. Reg. at 67,584 (stating 1979 BIA’s view that state courts “are fully capable
of carrying out the[ir] responsibilities [under ICWA]
without being under the direct supervision of this Department”).
Regardless, the BIA’s 2016 examples
hardly show the “necessity” for such authority. Its
prime example is that some courts created an “existing
Indian family” exception to ICWA. 143 But, as the agency
admits, the exception was repudiated by the court that
created it, is now recognized by “[o]nly a handful” of
courts, and has been rejected by a “swelling chorus” of
others. 81 Fed. Reg. at 38,801-02.
Also unpersuasive is the BIA’s reliance on Holyfield.
Id. at 38,786. Holyfield held that Congress did not
intend state law to define the term “domicile” in ICWA
§ 1911, which gives tribes sole jurisdiction over onreservation children. 490 U.S. at 44-47. The BIA
claims that, in 1979, it lacked “the benefit of the Holyfield Court’s carefully reasoned decision” showing how
ICWA could be undermined by “a lack of uniformity”
See 81 Fed. Reg. 38782 (citing, e.g., Thompson v. Fairfax Cty.
Dep’t of Family Servs., 747 S.E.2d 838, 847-48 (Va. Ct. App. 2013)).
143

335a
among state courts. 81 Fed. Reg. at 38,787. That
does not hold water. Holyfield pitted one state court’s
errant interpretation of ICWA against correct interpretations by “several other state courts”—hardly an interpretive crisis. 490 U.S. at 41 & n.14. Moreover, the
case involved ICWA’s “key jurisdictional provision” dividing tribal from state authority, id. at 45, not any provision governing how state courts apply ICWA. Cf. 44
Fed. Reg. at 67,584 (1979 BIA disclaiming authority
over provisions concerning “the responsibilities of state
or tribal courts under the Act”). And Holyfield was on
the books for 27 years before BIA claimed the decision
inspired its 2016 policy change. 81 Fed. Reg. at 38,787.
We treat that late-breaking revelation “with a measure
of skepticism.” UARG, 573 U.S. at 324.
We therefore conclude the 2016 Rule fails to provide
a “reasoned explanation” 144 for reversing the agency’s
nearly forty-year-old interpretation of § 1952 and discovering novel authority to bind state courts. Encino
Motorcars, 136 S. Ct. at 2126 (quoting Fox Television
Stations, 556 U.S. at 515-16). “An arbitrary and capri-

JUDGE DENNIS disagrees, arguing the BIA needed to provide
only a “minimal level of analysis” for its new position. DENNIS OP.
at 146 (quoting Encino Motorcars, 136 S. Ct. at 2125). But that is
not the standard. When agencies “change their existing policies,”
they must “provide a reasoned explanation for the change.” Encino Motorcars, 136 S. Ct. at 2125; see also id. (explaining “a reasoned explanation is needed for disregarding facts and circumstances that underlay or were engendered by the prior policy”)
(quoting Fox Television Stations, 556 U.S. at 515-16). As explained, the 2016 BIA has not provided a “reasoned explanation” for
its about-face. It has provided a series of non sequiturs.
144

336a
cious regulation of this sort is itself unlawful and receives no Chevron deference.”
Id. (citing United
States v. Mead Corp., 533 U.S. 218, 227 (2001)).
3.

The district court separately invalidated 25 C.F.R.
§ 23.132(b), part of the Final Rule that interprets the
“good cause” standard in § 1915. That provision mandates specific placements for Indian children “in the absence of good cause to the contrary.” See § 1915(a), (b).
In turn, the Final Rule states: “The party seeking departure from the placement preferences should bear the
burden of proving by clear and convincing evidence that
there is ‘good cause’ to depart from the placement preferences.” 25 C.F.R. § 23.132(b) (emphasis added); see
also 81 Fed. Reg. at 38,844. The district court invalidated this part of the rule under Chevron step one,
concluding it imposes a heightened burden of proof on
§ 1915 without statutory warrant.
Brackeen, 338
F.Supp.3d at 545-46. We agree.
The step one inquiry is whether the statute unambiguously forecloses the agency’s interpretation—here,
specifying a heightened burden for proving “good
cause” under § 1915. That section says nothing about
a burden of proof, as the BIA admits. See 81 Fed. Reg.
at 38,843 (noting the clear-and-convincing standard “is
not articulated in section 1915”). The presumption,
then, is that the section incorporates, not a heightened
standard of proof, but the normal preponderance standard. See, e.g., Grogan v. Garner, 498 U.S. 279, 286 (1991)
(statutory “silence” is “inconsistent with the view that
Congress intended to require a special, heightened
standard of proof ”). But we need not rely solely on
that presumption: at step one, we look beyond the

337a
“particular statutory provision in isolation” and read the
statute “as a symmetrical and coherent regulatory
scheme.”
Sw. Elec. Power Co., 920 F.3d at 1023
(cleaned up). Doing so, we find that Congress imposed
a “clear and convincing evidence” standard in a nearby
provision: § 1912(e) forbids foster placement unless
“clear and convincing evidence” shows likely harm from
the parent’s continued custody. The next subsection,
§ 1912(f ), demands an even higher showing—“beyond a
reasonable doubt”—before terminating the parent’s
rights. Congress thus deliberately included heightened standards for proving certain matters in § 1912(e)
and (f ), but not for proving “good cause” in § 1915. 145
We thus conclude Congress elected not to impose a
heightened standard in § 1915, foreclosing the agency’s
interpretation at Chevron step one. See Chamber of
Commerce, 885 F.3d at 369 (when statute “unambiguously forecloses” agency interpretation, “that is the end
of the matter”) (quoting Chevron, 467 U.S. at 842-43)
(cleaned up).
JUDGE DENNIS suggests this “negative-implication”
canon of statutory construction does not apply when assessing the permissible scope of agency action. DENNIS OP. at 148-49. See generally Jennings v. Rodriguez, 138 S. Ct. 830, 844 (2018) (discussing negativeimplication or expressio unius est exclusio alterius
canon) (citing SCALIA & GARNER, READING LAW 107
See Keene Corp. v. United States, 508 U.S. 200, 208 (1993)
(“ ‘[W]here Congress includes particular language in one section of
a statute but omits it in another . . . , it is generally presumed
that Congress acts intentionally and purposely in the disparate inclusion or exclusion.’ ”) (quoting Russello v. United States, 464 U.S.
16, 23 (1983)).
145

338a
(2012)). We disagree. Courts are to use “all the ‘traditional tools’ of construction” at Chevron step one. Kisor,
139 S. Ct. at 2415 (quoting Chevron, 467 U.S. at 843 n.9).
And both the Supreme Court and our court have deployed the negative-implication canon in the step one analysis. 146 The Chevron cases JUDGE DENNIS cites—which
in any event are all out-of-circuit—merely show that the
canon sometimes does not resolve step one. For instance, by including an agency mandate in one section
but not another, Congress “may simply not have been
focusing on the point in the second context” and so left
“the choice . . . up to the agency.” Clinchfield
Coal Co. v. Fed. Mine Safety & Health Rev. Comm’n,
895 F.2d 773, 779 (D.C. Cir. 1990); see also, e.g., Catawba
County v. EPA, 571 F.3d 20, 36 (D.C. Cir. 2009). There
is no evidence of that here, however. To the contrary,
Congress explicitly mandated heightened standards-ofproof in sections addressing foster and adoptive placements (§ 1912(e) and (f )), but not in a nearby section
(§ 1915) addressing departures from placement preferences. Far from suggesting Congress left the standardof-proof up to the agency, this pattern “signals the intentional omission” of a heightened standard from
§ 1915, a decision the agency cannot second-guess.
Chamber of Commerce, 885 F.3d at 373 (citing Russello,
464 U.S. at 23).

See, e.g., Barnhart v. Sigmon Coal Co., Inc., 534 U.S. 438, 452
(2002); Brown v. Gardner, 513 U.S. 115, 120 (1994); Acosta v. Hensel Phelps Constr. Co., 909 F.3d 723, 732(5th Cir. 2018); Chamber
of Commerce, 885 F.3d at 373; Luminant Generation Co., LLC v.
EPA, 675 F.3d 917, 929 (5th Cir. 2012); Miss. Poultry Ass’n, Inc.
v. Madigan, 992 F.2d 1359, 1363-64 & n.29 (5th Cir. 1993).
146

339a
Sitting this debate out, the Federal Defendants’ sole
response is that the Final Rule suggests but does not require the clear-and-convincing-evidence standard. They
argue that § 23.132(b) says only that courts “should” impose that standard, and also point out that the regulations state the rule “does not categorically require [it]”
and “declines to establish a uniform standard of proof.”
81 Fed. Reg. 38,843. We are unsure what to make of
this strange argument. The Final Rule’s whole purpose was to impose “uniformity” on state courts, id. at
38,779, and the term “should” often “create[s] mandatory standards.” Should, GARNER’S DICTIONARY OF
LEGAL USAGE (3d ed. 2011). Moreover, the state
courts hearing Plaintiffs’ cases have not read the rule as
a mere suggestion. Thus, whatever credence we might
give to the Federal Defendants’ view, we would still find
the rule invalid at step one because it seeks to create
(and has in fact created) a heightened standard-of-proof
in contravention of § 1915.
Alternatively, we would find this part of the rule invalid at Chevron step two. As discussed above, we view
with “skepticism” an agency’s departure from longstanding practices, especially those adopted contemporaneously with the statute’s enactment. Chamber of
Commerce, 885 F.3d at 381 (quoting UARG, 573 U.S. at
324); supra III(D)(1). The BIA’s 2016 treatment of the
§ 1915 “good cause” determination is strikingly at odds
with its 1979 position. In 1979, the BIA wrote that
ICWA’s “use of the term ‘good cause’ was designed to
provide state courts with flexibility in determining the
disposition of a placement proceeding involving an Indian child.” 44 Fed. Reg. at 67,484. This supported
BIA’s position that “[p]rimary responsibility for interpreting” ICWA’s language “rests with the courts that

340a
decide Indian child custody cases.” Id. In 2016, BIA
did a 180-degree reversal—seeking to impose a one-sizefits-all standard on what it previously stated was a “flexible” inquiry—without giving the “reasoned explanation” needed to justify discarding a longstanding agency
view. Gonzalez-Veliz, 938 F.3d at 234 (quoting Encino
Motorcars, 136 S. Ct. at 2126). The agency’s sole justification was that state courts have “almost universally”
adopted this standard. 81 Fed. Reg. at 38,843. But
that undermines the agency’s position. A near-consensus
by state courts in applying the statute—one they have
“primary responsibility” for administering, 44 Fed. Reg.
at 67,487—hardly justifies the BIA’s newfound view that
it must impose uniformity on those same courts.
E.

Remedy

We now address the question of remedy. Plaintiffs’
second amended complaint, the one operative here,
sought a declaration that specific sections of ICWA are
unconstitutional and an injunction prohibiting the Federal Defendants from implementing or administering
those sections. It also sought vacatur of the Final Rule.
The district court, however, granted only declaratory
relief as to specific provisions of ICWA and the Final
Rule, and Plaintiffs have not cross-appealed seeking to
modify the district court’s judgment. See, e.g., Cooper
Indus., Ltd. v. Nat’l Union Fire Ins. Co. of Pittsburgh,
Pa., 876 F.3d 119, 127 (5th Cir. 2017) (explaining that
“even a prevailing party must file a cross-appeal to seek
a modification of a judgment”) (citing Ward v. Santa Fe
Indep. Sch. Dist., 393 F.3d 599, 604 (5th Cir. 2004)).
Having found discrete parts of ICWA and the Final Rule
unconstitutional and unlawful, we would therefore af-

341a
firm the district court’s judgment to that extent. Specifically: (1) we would declare that the noted sections
of ICWA are unconstitutional; 147 and (2) we would declare that the noted provisions of the Final Rule are unlawful under § 706 of the APA. 148
Finally, a word about severability. The modern Supreme Court applies a “severability doctrine” to determine whether invalid parts of a statute may be excised
from the rest. See, e.g., Free Enter. Fund, 561 U.S. at
508 (“ ‘Generally speaking, when confronting a constitutional flaw in a statute, we try to limit the solution to the
problem,’ severing any ‘problematic portions while leaving the remainder intact.’ ”) (quoting Ayotte v. Planned
Parenthood of Northern New Eng., 546 U.S. 320, 328-29
(2006)). For at least two reasons, however, we need not
perform that analysis here.
First, Plaintiffs do not challenge all of ICWA but only
particular provisions. We can therefore grant Plaintiffs appropriate relief without delving into severability. 149 In that way, this case differs from cases where
Those are: (1) 25 U.S.C. §§ 1915(a), 1915(b), 1913(d), 1914
(equal protection); (2) 25 U.S.C. §§ 1912(a), 1912(d), 1912(e),
1912(f ), 1915(a), 1915(b), 1915(e), 1951(a) (anti-commandeering);
and (3) 25 U.S.C. § 1915(c) (nondelegation).
148
Those are: (1) all parts of the Final Rule that implement the
ICWA provisions declared unconstitutional; (2) all parts of the Final Rule that purport to bind state courts; and (3) the requirement
in 25 C.F.R. § 23.132(b) that good cause to depart from the placement preferences be proved “by clear and convincing evidence.”
149
See, e.g., 28 U.S.C. § 2201(a) (authorizing courts to “declare
the rights and other legal relations of any interested party” in “a
case of actual controversy within its jurisdiction”); 5 U.S.C. § 706(2)
(authorizing courts to “hold unlawful and set aside agency action,
findings, and conclusions” under various circumstances).
147

342a
deciding severability was necessary to fashion appropriate relief. Cf., e.g., Barr v. Am. Ass’n of Pol. Consultants, 140 S. Ct. 2335, 2349 (2020) (plaintiffs invoked “ordinary severability principles” to argue for complete relief on their First Amendment claim); Seila Law LLC v.
Consumer Fin. Prot. Bureau, 140 S. Ct. 2183, 2208
(2020) (observing “[t]here is a live controversy between
the parties on th[e] question [of severability], and resolving it is a necessary step in determining petitioner’s
entitlement to its requested relief ”). Second, the parties’ briefing contains little substantive analysis on this
point. We decline to perform a severability analysis of
a complex statute like ICWA when the parties have not
deeply engaged with the issue. 150

Even were we so inclined, we note that ICWA contains a severability clause. See 25 U.S.C. § 1963. In that event, “[a]t least
absent extraordinary circumstances, the Court should adhere to
the text of the severability or nonseverability clause” because the
clause “leaves no doubt about what the enacting Congress wanted
if one provision of the law were later declared unconstitutional.”
American Ass’n, 140 S. Ct. at 2349.
150

343a
PRISCILLA R. OWEN, Chief Judge, concurring in part,
dissenting in part.
I
A

I first consider whether the States have standing.
For the reasons articulated in JUDGE DENNIS’s and
JUDGE COSTA’s opinions, 1 the States do not have standing to assert in this suit that the Indian Child Welfare
Act of 1978 (ICWA) 2 violates the Equal Protection Clause
of the Fifth Amendment. As to all other claims, I conclude that the States do have standing.
The States have asserted various, often overlapping,
claims in Counts I through IV and Count VII of the live
complaint in the district court—the Second Amended
Complaint. Briefly summarized, the States seek a determination that Congress did not have the authority to
supplant state law in child-welfare and adoption cases
with certain directives in ICWA, and that Congress cannot require state courts to follow ICWA. The States
also contend that the Bureau of Indian Affairs (BIA) violated the Administrative Procedure Act (APA) and the
federal Constitution when it promulgated the Final Rule
(Count I). The States contend that the Indian Commerce Clause did not empower Congress to enact certain provisions of ICWA (Count II); that adoption, foster care, and pre-adoptive placement of “Indian children” are not permissible subjects of regulation under
the Tenth Amendment (Count III); that ICWA and the
Final Rule violate anti-commandeering principles under
See Dennis, J., concurring and dissenting, part I(A)(1),
p. 39 n.13; Costa, J., concurring and dissenting, part I, p. 3 n.2.
2
25 U.S.C. §§ 1901-1923, 1951-1952.
1

344a
the Tenth Amendment (Count III); that ICWA and the
Final Rule violate the Equal Protection Clause of the
Fifth Amendment (Count IV); and that ICWA and the
Final Rule violate the non-delegation doctrine of Article
I, Section 1 because they “delegate to Indian tribes the
legislative and regulatory power to pass resolutions in
each Indian child custody proceeding that alter the
placement preferences state courts must follow” (Count
VII).
The States complain about the costs of complying
with ICWA and the Final Rule, including the hours and
resources that child-welfare agencies expend, costs borne
by the States to employ experts, and the time consumed
in state-court proceedings resolving ICWA issues.
The States further contend they “are directly and substantially injured by the delegation of power over placement preferences because it violates the Constitution’s
separation of powers through abdication of Congress’s
legislative responsibility and requires State Plaintiffs to
honor the legislation and regulation passed by tribes in
each child custody matter, which can vary widely from
one child to the next and one tribe to another.”
The States have adequately alleged that they are injured by ICWA and the Final Rule for standing purposes. 3 The determinative question is whether those
injuries could be redressed if a federal court were to
grant the relief the States seek in this case.

See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992) (“[T]he
plaintiff must have suffered an injury in fact—an invasion of a legally protected interest which is (a) concrete and particularized
. . . and (b) actual or imminent, not conjectural or hypothetical.”
(citations, footnote, and internal quotation marks omitted)).
3

345a
The States seek a declaration that parts of ICWA are
unconstitutional and therefore that state rather than
federal law governs. To the extent the States are seeking to supplant ICWA with state substantive and procedural law in child-welfare proceedings, such a declaration would not redress the States’ injuries because no
state court would be bound by such a declaration. 4
Every state court would, of course, be free to decide the
constitutionality of ICWA de novo because the rulings
of the federal district court and of this court would not
bind state courts and would not bind private litigants in
state court proceedings. For this reason, the assertion
in JUDGE DUNCAN’S opinion that a decision of this court
“would also remove state child welfare officials’ obligations to implement [ICWA’s] preferences” 5 is, with great
respect, incorrect.
The States contended in the district court that because various provisions of ICWA are unconstitutional,
the federal government cannot require the States to
comply with those provisions and therefore could not
withhold federal funding for child welfare as a consequence of non-compliance with ICWA. Specifically,
the States requested the district court to hold that certain statutes authorizing the Secretary to withhold federal child welfare funds from states that do not comply
with ICWA, including 42 U.S.C. §§ 622(b)(9) and
677(b)(3)(G), are unconstitutional. The States sought
an injunction prohibiting the federal defendants from
See Aransas Project v. Shaw, 775 F.3d 641, 648 (5th Cir. 2014)
(per curiam) (“Redressability requires ‘a likelihood that the requested relief will redress the alleged injury.’ ” (quoting Steel Co.
v. Citizens for a Better Env’t, 523 U.S. 83, 103 (1998))).
5
See DUNCAN, J., concurring and dissenting, part I(B), p. 21.
4

346a
implementing or enforcing those statutes in their initial
pleadings.
However, the States did not thereafter pursue any
relief in the district court regarding the withholding of
funds by the federal defendants. The States moved for
summary judgment, but they did not seek summary
judgment or request injunctive relief in their motion
with regard to federal funding of child welfare. They
did not cross-appeal in this court seeking such relief, nor
could they since they did not pursue it in the district
court. The question then arises as to whether there is
redressability at this point in the proceedings, since
standing must be present at each stage of litigation. 6
A determination in this case that certain provisions
of ICWA, the Final Rule, or both were unconstitutional
would be a binding determination (res judicata) as between those States and the federal government. This
would mean that the States could categorically direct
their child-welfare agencies to cease compliance with
the provisions of ICWA if it were held unconstitutional.
Such relief would address injuries asserted by the
States and establishes the States’ Article III standing to
raise the constitutional challenges to ICWA, other than
equal protection. The States would no longer be burdened with ICWA’s requirements and would not incur

Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477-78 (1990) (“[The]
case-or-controversy requirement subsists through all stages of
federal judicial proceedings, trial and appellate. To sustain our
jurisdiction in the present case, it is not enough that a dispute was
very much alive when suit was filed . . . .” (first citing Deakins v.
Monaghan, 484 U.S. 193, 199 (1988); and then citing Steffel v.
Thompson, 415 U.S. 452, 459 n.10 (1974))).
6

347a
the costs and expenses associated with compliance unless and until, in a state-court proceeding, individual
plaintiffs asserted rights under ICWA and a final statecourt judgment were to hold, contrary to a judgment of
this court or the district court, that ICWA is constitutional and the State is bound by its requirements in that
state-court proceeding. The potential for such a collision between state and federal courts as to ICWA’s constitutionality does not mean that federal courts cannot
redress the States’ injuries in the present case. A federalcourt judgment in the States’ favor in this case could
conceivably redress their injuries, though in the longer
term, a state court’s view of the constitutionality of
ICWA might ultimately carry the day were a conflict between state-court holdings and federal-court holdings to
arise.
A judgment in the present case holding that the
States prevail against the federal defendants on their
claims that ICWA is unconstitutional could also potentially be the basis for precluding the federal government
from withdrawing funding for a State’s failure to comply
with unconstitutional statutory or regulatory provisions. Does that mean that the federal government is
prohibited from using a “carrot/stick” approach to persuade a State to comply with ICWA or else withdraw
funding? That issue was not raised or briefed in the
district court or this court. It has not been decided.
But the point is, it is not improbable that the relief that
the States do continue to seek in the present case would,
in future litigation between the States and the federal
government, preclude the federal government from
withholding child welfare funds under ICWA as a consequence of the States’ failure to comply with ICWA.
The constitutionality of ICWA would be off the table in

348a
any such future litigation between a State who is a party
to this case and the federal government.
Not all the States’ claims are grounded in the federal
Constitution. The States challenge 24 C.F.R. § 23.132(b)
on the basis that the clear-and-convincing-evidence
standard is contrary to 25 U.S.C. § 1915, and on the basis that in promulgating the Final Rule, the Bureau of
Indian Affairs (BIA) did not provide a reasoned explanation for reversing its prior, long-held interpretation of
ICWA. The relief sought by the States in this regard
would redress their complaint that the Final Rule imposes too high a standard on state agencies seeking to
place a child other than in accordance with ICWA’s preferences. The Final Rule’s offending provisions would
be abrogated and therefore would not be a factor or at
issue in state-court adoption or placement proceedings.
This would redress the injuries identified by the States.
Accordingly, I concur in parts I(C) and (D) of JUDGE
DENNIS’s opinion, with the exception of the last sentence in part I(D).
B

As to the standing of the individual plaintiffs, I concur in part I(A)(1) of JUDGE DENNIS’s opinion, and parts
I and II(A) and the final paragraph of part II(B) of
JUDGE COSTA’s opinion.
I add these observations. None of the individual
plaintiffs have standing to press any of their claims,
other than those with regard to the APA and the Final
Rule, because nothing this court has to say about ICWA
binds any state court in adoption or foster care placement cases when a private party asserts that ICWA’s
provisions are constitutional and must be applied or that

349a
they are unconstitutional and cannot be applied. Private parties in child-welfare and adoption proceedings
would not be bound by a judgment issued by a federal
district court or this court declaring rights as between
the Brackeens, for instance, and the federal defendants,
or as between the States and the federal government.
The assertion in JUDGE DUNCAN’s opinion that the
individual plaintiffs’ claims are redressable because the
“Federal Defendants would be barred from inducing
state officials to implement ICWA, including the preferences, by withholding funding,” 7 is, with great respect,
erroneous.
None of the individual plaintiffs have
standing to argue that the federal government is precluded from withholding child welfare funds from a
State. They do not argue that they have a right or interest that would permit them to insert themselves into disputes as to funding between the federal government and
the States under ICWA. The individual plaintiffs cite
no statute or constitutional provision that would confer
such a right. Any relief granted to the States regarding child-welfare funding under ICWA would redress
the individual plaintiffs’ claims, if at all, only incidentally
and tangentially. In any event, as discussed above, the
States did not pursue in the district court their request
for a declaration that the federal defendants are barred
from withholding child-welfare funding under ICWA.
Such relief was not granted by the district court, and the
States do not seek such relief in this court. No judgment of this court could now grant the relief that JUDGE
DUNCAN’s opinion says would redress the individual
plaintiffs’ claims regarding ICWA’s preferences.

7

Duncan, J., concurring and dissenting, part I(B), p. 21.

350a
The individual plaintiffs do have standing to challenge the Final Rule. However, even were the Final
Rule abrogated in its entirety, ICWA’s statutory preferences and other requirements would remain intact.
The individual plaintiffs do not have standing to challenge ICWA’s provisions directly or in the abstract in
the present case. A judgment of this court would not
resolve any actual case or controversy as between the
individual plaintiffs and the federal defendants, other
than challenges to the Final Rule, for the reasons considered above and in JUDGE DENNIS’s and JUDGE
COSTA’s opinions.
II

I agree with the conclusion in JUDGE DENNIS’s opinion, 8 as a general proposition, that Congress had the authority under the Indian Commerce Clause 9 to enact
ICWA. However, I do not join JUDGE DENNIS’s analysis fully. I join part II(A) of JUDGE COSTA’s opinion
as to this issue.
III
A

Because I conclude that neither the States nor the
individual plaintiffs have standing to bring direct equal
protection challenges to ICWA’s statutory provisions, I
would not and do not reach the merits of any of those
claims. To the extent that equal protection claims have
been asserted by the individual plaintiffs in challenging
DENNIS, J., concurring and dissenting, part II(A)(1).
U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have Power
. . . To regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.”).
8
9

351a
the Final Rule, I join the final paragraph in part II(B)
of JUDGE COSTA’s opinion. The individual plaintiffs
have standing to assert equal protection challenges to
ICWA in this context. I agree with the conclusion in
JUDGE DENNIS’s opinion that ICWA’s preferences are
political not racial.
Those preferences withstand
rational-basis scrutiny. I therefore conclude that the
Final Rule did not violate the Equal Protection Clause
in implementing ICWA’s statutory preferences, including the preference for “Indian Families.”
B

Regarding the commandeering and preemption
claims, I join part II(A)(2)(a)(i) of JUDGE DENNIS’s opinion and part III(B) of JUDGE DUNCAN’s opinion.
To clarify, with regard to part III(B)(1)(a)(iii) of
JUDGE DUNCAN’s opinion, I agree that 25 U.S.C.
§§ 1915(a)-(b), and implementing regulations, in large
measure violate the anti-commandeering doctrine.
However, the placement preferences set forth in that
statute and its implementing regulations, standing
alone, do not commandeer, as JUDGE DUNCAN’s opinion
explains.10 Those federal laws preempt contrary statelaw preferences. The commandeering occurs because
state agencies are directed to undertake action to identify and assist individuals who might be entitled to preference over others seeking to adopt or to provide foster
care. To the extent the state courts and state agencies
become aware of individuals who seek to have ICWA’s
preferences applied, ICWA’s preferences should be followed.
DUNCAN, J., concurring and dissenting, part III(B)(1)(a)(iii),
p. 83.
10

352a
C

Only the State plaintiffs asserted claims that Congress impermissibly delegated legislative power to Indian tribes in ICWA. With regard to the non-delegation
issues, I join part II(C) of Judge Dennis’s opinion.
D

Regarding the APA claims, I join part III(D)(3) of
JUDGE DUNCAN’s opinion. I do not join part III(D)(2)
of that opinion because the discussion as to whether regulations bind state courts is abstract. It is unclear
from the discussion which regulations purport to bind
state courts separate and apart from statutory provisions which do bind state courts to the extent the statutory provisions are constitutional.
E

I would grant declaratory relief consistent with the
conclusions in this opinion.

353a
JACQUES L. WIENER, JR., Circuit Judge, dissenting in
part:
I concur with JUDGE DENNIS’s Opinion, except for its
holding on standing to challenge 25 U.S.C. § 1915(a) and
(b) on equal protection grounds. I also concur with
JUDGE COSTA in his partial dissent on standing. For
the reasons more explicitly stated below, I write separately because the Plaintiffs’ second amended complaint
is deficient and should be dismissed for lack of standing.
JUDGES DUNCAN and DENNIS each conclude that the
Individual Plaintiffs, through the Brackeens and Cliffords,
have Article III standing to challenge § 1915(a) and (b)
of ICWA on equal protection grounds. 1 This conveniently allows the Opinions to proceed to the merits of the
Plaintiffs’ equal protection arguments. Like JUDGE
COSTA, I disagree with JUDGES DUNCAN’s and DENNIS’S
conclusions that the Plaintiffs have Article III standing
to challenge § 1915(a) and (b), so I would not reach the
merits of the Plaintiffs’ equal protection claim. In addition to the redressability problems cited in JUDGE
COSTA’s dissent, JUDGES DUNCAN and DENNIS choose
to ignore three important facts: (1) the date that the
most recent complaint was filed, (2) the Brackeens’ delayed supplementation of the record, and (3) the fact
that the Cliffords could have appealed their case to the
Minnesota Supreme Court but did not do so. Those
facts are dispositive of the Plaintiffs’ ability to show
standing: The Brackeens and Cliffords (and, by extension, all of the Individual Plaintiffs) do not have standing
Judge Dennis concludes that the Plaintiffs do not have standing
to challenge § 1913(d) and 1914, and I concur for the reasons provided in that opinion.
1

354a
to challenge § 1915(a) and (b), so we do not have jurisdiction to decide whether these parts of ICWA pass constitutional muster.
I.

Background

The Plaintiffs filed their initial complaint in October
2017, seeking declaratory and injunctive relief, claiming
that ICWA and the Final Rule are unconstitutional and
violate the Administrative Procedure Act. 2 At that
time, the Brackeens were attempting to adopt A.L.M.,
who qualified as an “Indian child” under ICWA.
A.L.M.’s biological parents voluntarily terminated their
parental rights in May 2017, and the Brackeens completed their adoption of A.L.M. in January 2018. The
Plaintiffs filed a second amended complaint two months
later. Presumably because they knew that standing
would be an issue, the Brackeens stated that they “also
intend to provide foster care for, and possibly adopt, additional children in need. Because of their experience
with the Final Rule and ICWA, however, [they] are reluctant to provide a foster home for other Indian children in the future.” Despite their reluctance, however,
the Brackeens attempted to adopt A.L.M.’s sister,
Y.R.J., who was born in June 2018—three months after
the second amended complaint was filed. The Plaintiffs supplemented the district court record in October
2018 (after it had entered final judgment), notifying the
court that the Brackeens were attempting to adopt
Y.R.J. The Brackeens intervened in a state court adoption proceeding in November 2018, seeking to terminate

See Brackeen v. Zinke, 338 F. Supp. 3d 514, 526-46 (N.D. Tex.
2018), rev’d sub nom. 937 F.3d 406 (5th Cir. 2019), reh’g en banc
granted, 942 F.3d 287 (5th Cir. 2019).
2

355a
the parental rights of Y.R.J.’s mother—eight months after the second amended complaint was filed. 3
The Plaintiffs also stated in their second amended
complaint that the Cliffords wished to adopt Child P., a
six-year-old girl whom the Cliffords had fostered since
July 2016. With the support of Child P.’s guardian ad
litem, the Cliffords moved to adopt Child P. The Minnesota court denied their petition in January 2019 because Child P.’s tribe intervened in her case and invoked
ICWA’s placement preferences. 4 The Cliffords appealed the Minnesota court’s order, but the Minnesota
court of appeals affirmed. 5 It does not appear that the
Cliffords timely appealed that court’s judgment.
II.

Article III Standing

Under Article III of the United States Constitution,
federal courts only have jurisdiction over a “case” or
“controversy.” 6 “To establish a ‘case or controversy,’ a
plaintiff must establish that it has standing.” 7 Standing requires that a plaintiff show (1) “an injury in fact”
that is (2) fairly traceable to the challenged action of the
defendant, and that is (3) likely to be “redressed by a
favorable decision.” 8 JUDGES DUNCAN and DENNIS
See In re Y.J., 2019 WL 6904728, at *3 (Tex. App. Dec. 19, 2019).
See In re Welfare of the Child in the Custody of: Comm’r of Human Servs., No. 27-JV-15-483 (4th Dist. Minn. Jan. 17, 2019).
5
In re S.B., No. A19-0225, 2019 WL 6698079, at *6 (Minn. Ct.
App. Dec. 9, 2019).
6
See U.S. CONST. art. III, § 2, cl. 1.
7
Legacy Cmty. Health Servs., Inc. v. Smith, 881 F.3d 358, 366
(5th Cir. 2018) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 56061 (1992)).
8
Lujan, 504 U.S. at 560-61.
3
4

356a
only analyze standing to challenge § 1915(a) and (b) on
equal protection grounds as to the Brackeens and the
Cliffords. No other Individual or State Plaintiff can
show standing to challenge these provisions of ICWA.
Fatal to the Brackeens’ assertion of standing are the
facts that (1) they had already adopted A.L.M. prior to
the Plaintiffs’ filing of the second amended complaint,
and (2) their stated desires to adopt or provide foster
care for other Indian children were too vague to constitute an injury in fact. The Brackeens must show Article III standing both at the time of the filing of the complaint and throughout the lawsuit. 9 The court must analyze standing at the time that the latest complaint is
filed. 10
The first requirement of standing is that a plaintiff
must have suffered an “injury in fact.” 11 An injury in
fact must be (1) concrete and particularized and (2) actual or imminent, not conjectural or hypothetical. 12 Some
courts have held that when “plaintiffs seek declaratory
and injunctive relief only, there is a further requirement
that they show a very significant possibility of future
9
See Rockwell Int’l Corp. v. United States, 549 U.S. 457, 473-74
(2007) (noting that standing is assessed at the time the complaint
is filed); Arizonans for Off. Eng. v. Ariz., 520 U.S. 43, 45 (1997)
(“[A]n actual controversy must be extant at all stages of review,
not merely at the time the complaint is filed.”).
10
See Rockwell, 549 U.S. at 473-74 (“[W]hen a plaintiff . . .
voluntarily amends the complaint, courts look to the amended complaint to determine jurisdiction.”); Cnty. of Riverside v. McLaughlin, 500 U.S. 44, 51 (1991) (analyzing standing at the time the second
amended complaint was filed).
11
Lujan, 504 U.S. at 560-61.
12
Id. at 560.

357a
harm; it is insufficient for them to demonstrate only a
past injury.” 13 “A request for injunctive relief remains
live only so long as there is some present harm left to
enjoin.” 14 “Past exposure to illegal conduct does not in
itself show a present case or controversy regarding injunctive relief . . . if unaccompanied by any continuing, present adverse effects.” 15
The Brackeens could not show an actual injury in fact
at the time the Plaintiffs filed the second amended complaint because the Brackeens had already adopted A.L.M.
Actual injury requires the Plaintiffs to show that they
are presently affected by ICWA and the Final Rule. 16
The Brackeens’ injury was a “past injury,” which “is insufficient for them to demonstrate” the injury in fact
necessary to obtain injunctive or declaratory relief. 17
Neither could the Brackeens show an imminent injury in fact. 18 Their stated desire to adopt or provide
San Diego Cnty. Gun Rts. Comm. v. Reno, 98 F.3d 1121, 1126
(9th Cir. 1996).
14
Taylor v. Resol. Tr. Corp., 56 F.3d 1497, 1502 (D.C. Cir. 1995).
15
O’Neal v. City of Seattle, 66 F.3d 1064, 1066 (9th Cir. 1995)
(omission in original) (quoting City of L.A. v. Lyons, 461 U.S. 95,
102 (1983)).
16
See N.J. Physicians, Inc. v. Obama, 653 F.3d 234, 239 (3d Cir.
2011) (noting that a plaintiff must be “presently impacted” by the
defendant’s actions).
17
Reno, 98 F.3d at 1126.
18
JUDGE DUNCAN notes that he would reach the same conclusion
as to the Brackeens’ adoption of A.L.M. because it fits within the
“capable of repetition, yet evading review” exception to mootness.
This exception is inapposite, so the case would be moot were it not
lacking an injury in fact, because (1) the adoption proceedings were
not too short in duration to be fully litigated, and (2) there is no
reasonable expectation that the Brackeens would be subject to the
13

358a
foster care for other Indian children was too vague because they had not specified a date or time that they
would attempt to adopt Y.R.J. or other Indian children. 19
The Brackeens did not attempt to show that they
planned to adopt another Indian child until October
2018—seven months after the second amended complaint had been filed and after final judgment had been
entered. At the time that the second amended complaint was filed, the Brackeens’ “intent” to provide foster care for Indian children, or the “possibility” that
they would adopt any, was insufficient to show injury in
fact. As the Supreme Court has explicitly held, “[s]uch
‘some day’ intentions—without any description of concrete plans, or indeed even any specification of when the
some day will be—do not support a finding of the ‘actual
or imminent’ injury that our cases require.” 20
The Brackeens’ standing issue in this case is similar
to those found in cases—some of which are cited in
JUDGE DENNIS’s Opinion—wherein the Supreme Court

same injury again. See Davis v. Fed. Election Comm’n, 554 U.S.
724, 735 (2008). As to the first prong, the Brackeens could have
litigated their ICWA challenges in state court during A.L.M.’s July
2017 adoption proceedings, long before October 2018 when the district court entered judgment against the Defendants. As to the
second prong, the Brackeens’ stated reluctance to adopt more Indian children was too vague, as discussed above. See Lujan, 504
U.S. at 564 (holding that a sufficient specification of when the injury in fact will occur is necessary).
19
See Reno, 98 F.3d at 1127 (holding that plaintiffs could not
show injury in fact, because “[t]he complaint does not specify any
particular time or date on which plaintiffs intend to violate the
Act”).
20
Lujan, 504 U.S. at 564.

359a
has held that plaintiffs lack standing because their injuries were not “imminent.” For example, in O’Shea v.
Littleton, the Court held that the plaintiffs lacked standing because, even though they had suffered past unconstitutional practices they could not prove a present or
future impact as a result of those practices. 21 The
Court noted that the alleged imminent threat was not
“sufficiently real and immediate to show an existing controversy simply because [the plaintiffs] anticipate violating lawful criminal statutes and being tried for their
offenses.” 22 Similarly, in City of Los Angeles v. Lyons,
the Court rejected the plaintiff ’s standing argument,
noting that the complaint “depended on whether [the
plaintiff ] was likely to suffer future injury from the use
of the chokeholds by police officers.” 23
Further, JUDGES DUNCAN and DENNIS err by considering Y.R.J.’s proceedings for purposes of standing
because the Plaintiffs did not move to supplement the
record with information relating to the Brackeens’ attempted adoption of Y.R.J. until October 10, 2018. Final judgment had been entered, however, on October 4,
2018. The Supreme Court has explicitly held that a
lack of standing cannot be cured by evidence entered

414 U.S. 488, 493, 495-96 (1974).
Id. at 496.
23
461 U.S. at 105. Although these cases arose in the context of
unconstitutional police practices, which are unlike allegedly unconstitutional adoptive proceedings, they are instructive. Here, like
the plaintiffs in O’Shea and Lyons, the Plaintiffs are seeking future
remedies based on past exposures to harm, which JUDGES DUNCAN
and DENNIS incorrectly classify as a regulatory burden. On the
contrary, there can be no regulatory burden in a completed adoption
proceeding, viz., the completed adoption of A.L.M.
21
22

360a
into the record after final judgment. 24 Unlike Mathews
v. Diaz, in which the Supreme Court held that a supplemental pleading cured the jurisdictional defect, the
Brackeens’ supplementation of the district court record
occurred after judgment had been entered. 25
See Summers v. Earth Island Inst., 555 U.S. 488, 495 n.* (2009)
(“After the District Court had entered judgment, and after the
Government had filed its notice of appeal, respondents submitted
additional affidavits to the District Court. We do not consider
these. If respondents had not met the challenge to their standing
at the time of judgment, they could not remedy the defect retroactively.”).
25
Cf. 426 U.S. 67, 75 (1976). In Mathews, cited by JUDGE DENNIS, the Court noted that “[a] supplemental complaint would have
eliminated this jurisdictional issue; since the record discloses, both
by affidavit and stipulation, that the jurisdictional condition was satisfied, it is not too late, even now, to supplement the complaint to
allege this fact.” Id. (emphasis added). Mathews involved Federal Rule of Civil Procedure 15(d), which allows a party to file a supplemental pleading. See id. at 75 n.8; accord Northstar Fin. Advisors Inc. v. Schwab Inv., 779 F.3d 1036, 1044 (9th Cir. 2015). The
Brackeens did not file a supplemental pleading. Instead, they filed
a supplement to the record. Further, Mathews involved the issue
of exhaustion, not standing. See 426 U.S. at 75-76. Finally,
Mathews’ language that “even now,” filing a supplemental pleading
would not be “too late,” is dictum. In Mathews, the plaintiffs filed
a supplemental pleading after the complaint had been filed but before final judgment had been entered. Id. at 75 (noting that the
pleading was supplemented “while the case was pending in the District Court”). There was no issue of filing a supplemental pleading
at the Supreme Court level; thus, this language is dictum. Here, as
stated, the Brackeens did not supplement the record until after final
judgment was entered, and this cannot cure the defective complaint.
See Prasco, LLC v. Medicis Pharm. Corp., 537 F.3d 1329, 1337 (Fed.
Cir. 2008) (noting that “while ‘later events may not create jurisdiction where none existed at the time of filing, the proper focus in determining jurisdiction are the facts at the time the complaint under
24

361a
Finally, the Cliffords do not have standing to challenge § 1915(b) because their claim is not redressable. 26
They could have appealed their challenges to ICWA in
Minnesota state court but likely missed the deadline to
appeal. 27 The state of Minnesota is also not a party to
this lawsuit, so any ruling we make on the constitutionality of ICWA would have no effect on the Cliffords’
adoption proceedings. 28
III.

Conclusion

It would be convenient if we could ignore facts that
are dispositive of Article III standing—as do JUDGES
DUNCAN and DENNIS—and proceed to the merits in important constitutional cases such as this. We are, however, governed by the rule of law. And a federal court
cannot weigh in on an issue over which it lacks jurisdiction, however appealing doing so might be. I concur
with JUDGE COSTA that the Plaintiffs lack standing because their case is not redressable. And even though I
join JUDGES DENNIS’s well-reasoned and thorough
consideration was filed’ ” (brackets and emphasis omitted) (quoting
GAF Bldg. Materials Corp. v. Elk Corp., 90 F.3d 479, 483 (Fed. Cir.
1996)).
26
See Susan B. Anthony List v. Dreihaus, 573 U.S. 149, 158 (2014)
(noting that redressability is a requirement for standing)
27
See In re S.B., No. A19-0225, 2019 WL 6698079, at *1 (Minn.
Ct. App. Dec. 9, 2019) (showing no notice of appeal to the January
2020 judgment); see also Minn. R. Civ. App. P. 117 subd 1 (requiring filing of notice of appeal within 30 days of the filing of the Court
of Appeals’ decision).
28
See Okpalobi v. Foster, 244 F.3d 405, 426-27 (5th Cir. 2001) (en
banc) (concluding that the plaintiffs’ claim was not redressable because the defendants were “powerless to enforce [the Act] against
the plaintiffs (or to prevent any threatened injury from its enforcement”)).

362a
Opinion on the merits, I would reverse the district
court’s order that the Plaintiffs have Article III standing to challenge 25 U.S.C. § 1915(a) and (b) on equal protection grounds.

363a
HAYNES, Circuit Judge, concurring:
I concur with portions of both JUDGE DENNIS’s and
JUDGE DUNCAN’s Opinions (respectively, the “Dennis
Opinion” and the “Duncan Opinion”). 1 On standing, I
concur with the conclusions of Part I of the Duncan
Opinion that Plaintiffs have standing to bring all their
claims. 2
On the equal protection issues, I concur in part with
Part II(B)(2) of the Dennis Opinion that the definition of
“Indian child” does not violate the Equal Protection
Clause. As to the placement preferences, I conclude
that the first two prongs of ICWA § 1915(a)—concerning
the members of the child’s extended family and tribe—
withstand even strict scrutiny, so I concur with
Part II(B)(2) of the Dennis Opinion that they are constitutional; but I concur with Part III(A)(3) of the Duncan
Opinion that the “other Indian families” prong of ICWA
§ 1915(a) violates the Equal Protection Clause because
it fails to be rationally tied to fulfilling Congress’s goals
of protecting Indian tribes.
On the anti-commandeering/preemption issues, I
concur with the conclusion in Part II(A)(1) of the Dennis
Opinion that Congress had plenary authority under the
Indian Commerce Clause to enact ICWA, but I concur
with Parts III(B)(1)(a)(i) and III(B)(1)(a)(iv) and in part
with Parts III(B)(1)(a)(ii), III(B)(1)(b), and III(B)(2)(b)
of the Duncan Opinion that ICWA §§ 1912(d), (e) and
All references to the Dennis Opinion and Duncan Opinion are to
the enumerated sections under the “Discussion” portion of each
opinion.
2
In that regard, I also agree with the conclusions of Parts
I(A)(2)-(D) of the Dennis Opinion.
1

364a
1915(e) violate the anti-commandeering doctrine and
are invalid preemption provisions. With respect to the
remaining statutory provisions at issue, I concur with
the Dennis Opinion that they do not violate the anticommandeering doctrine and validly preempt state law.
On the nondelegation doctrine issue, I concur with
Part II(C) of the Dennis Opinion that ICWA § 1915(c)
does not violate that doctrine.
Lastly, on the Administrative Procedure Act issues,
I concur with Part III(D)(1) of the Duncan Opinion that
the Final Rule is invalid to the extent that it implements
the unconstitutional statutory provisions identified
above: ICWA §§ 1912 (d), (e), and 1915(e) and the “other
Indian families” prong of ICWA § 1915(a). However,
to the extent that the Final Rule implements constitutional ICWA provisions, I concur with Part II(D)(1) of
the Dennis Opinion that those portions of the Final Rule
are valid. I also concur with Part II(D)(2) of the Dennis Opinion that BIA did not exceed its authority in making the Final Rule binding.
But I concur with
Part III(D)(3) of the Duncan Opinion that the “good
cause” standard in 25 C.F.R. § 23.132(b) fails at Chevron
step one.

365a
STEPHEN A. HIGGINSON, Circuit Judge, concurring in
part, with whom JUDGE COSTA joins:
I concur in Judge Dennis’s comprehensive opinion
except for Discussion § I.A.2 and write separately to
highlight lessons I draw from two Supreme Court cases.
“Any rule of state immunity that looks to the ‘traditional,’ ‘integral,’ or ‘necessary’ nature of governmental
functions inevitably invites an unelected federal judiciary to make decisions about which state policies it favors
and which ones it dislikes.” Garcia v. San Antonio
Metro. Transit Auth., 469 U.S. 528, 546 (1985). Engaging in this type of policy weighing, the dissent would
strike a statute that has garnered support from Congressional members on both sides of the aisle, a large
number of states, and at least 325 federally recognized
Indian tribes and has been the law of the land for over
four decades.
Specifically, the dissent would hold that the “structural guarantee of state sovereignty” limits Congress’s
authority to regulate state child custody proceedings involving Indian children. It bases this on two observations: “[n]o Supreme Court decision supports Congress deploying its Indian affairs power to govern state
government proceedings,” and there is no “comparable
founding-era exercise[ ] of Congress’s Indian affairs
power.”
Yet, in Garcia, the Court explained why it rejected,
“as unsound in principle and unworkable in practice, a
rule of state immunity from federal regulation that
turns on a judicial appraisal of whether a particular governmental function is ‘integral’ or ‘traditional’ ”: (1) “it
prevents a court from accommodating changes in the

366a
historical functions of States, changes that have resulted
in a number of once-private functions like education being assumed by the States and their subdivisions”; (2) it
“results in line-drawing of the most arbitrary sort; the
genesis of state governmental functions stretches over
a historical continuum from before the Revolution to the
present, and courts would have to decide by fiat precisely how longstanding a pattern of state involvement
had to be for federal regulatory authority to be defeated”; (3) it is “unworkable,” in part “because of the
elusiveness of objective criteria for ‘fundamental’ elements of state sovereignty”; and (4) “[s]tate sovereign
interests . . . are more properly protected by procedural safeguards inherent in the structure of the federal
system than by judicially created limitations on federal
power.” 469 U.S. at 543-52. Contrary to this Supreme Court instruction, the dissent risks resuscitating
a misunderstanding of state sovereignty that entangles
judges with the problematic policy task of deciding what
issues are so inherent in the concept and history of state
sovereignty that they fall beyond the reach of Congress.
“[T]he fact that the States remain sovereign as to all
powers not vested in Congress or denied them by the
Constitution offers no guidance about where the frontier
between state and federal power lies.” Id. at 550. Instead, it is the nature of our federalist system that states
retain sovereign authority “only to the extent that the
Constitution has not divested them of their original powers and transferred those powers to the Federal Government.” Id. at 549. As Judge Dennis comprehensively explains, the Indian Commerce Clause has done
exactly that with respect to Indian Affairs.

367a
But it is not only the dissent’s test that diverges from
Supreme Court authority—it would also be its result.
The Supreme Court has repeatedly recognized that
Congress can preempt state law that applies in state domestic relations proceedings. See, e.g., Egelhoff v.
Egelhoff ex rel. Breiner, 532 U.S. 141, 146 (2001) (holding that ERISA preempted application of Washington
statute in state probate proceedings); Boggs v. Boggs,
520 U.S. 833, 841 (1997) (holding that ERISA preempted
application of Louisiana community property law in
state probate proceedings); McCarty v. McCarty, 453
U.S. 210, 232-33 (1981) (holding that federal law preempted application of California community property
law in state divorce proceedings); Hisquierdo v. Hisquierdo, 439 U.S. 572, 590 (1979) (holding that the Railroad Retirement Act preempted application of California community property law in state divorce proceedings); Free v. Bland, 369 U.S. 663, 670 (1962) (holding
that federal law preempted application of Texas community property law in state probate proceedings); Wissner
v. Wissner, 338 U.S. 655, 658-59 (1950) (holding that the
National Service Life Insurance Act preempted application of California community property law in state probate proceedings); McCune v. Essig, 199 U.S. 382, 38990 (1905) (holding that the Homestead Act preempted
application of Washington community property law in
state probate proceedings); see also Gregory v. Ashcroft,
501 U.S. 452, 460 (1991) (“Congress may legislate in areas traditionally regulated by the States.”). That is exactly what Congress did here. See 25 U.S.C. § 1902 (declaring Congress’s intent to establish “minimum Federal standards” to be applied in state child custody proceedings involving Indian children).

368a
The dissent relies primarily on Seminole Tribe v.
Florida, 517 U.S. 44 (1996), to support a contrary result.
But even Chief Justice Rehnquist—the author of Seminole Tribe and perhaps the most faithful proponent of
state’s rights—explicitly recognized that Congress may
preempt state domestic relations law. See McCarty,
453 U.S. at 237 (Rehnquist, J., dissenting) (“[T]he authority of the States should not be displaced except pursuant to the clearest direction from Congress.” (emphasis added)); see also Bond v. United States, 572 U.S. 844,
858 (2014) (“ ‘[I]t is incumbent upon the federal courts to
be certain of Congress’ intent before finding that federal
law overrides’ the ‘usual constitutional balance of federal and state powers.’ ” (quoting Gregory, 501 U.S. at
460)). Although Chief Justice Rehnquist’s position was
narrower than the dissent’s here, see McCarty, 453 U.S.
at 232 (finding state community property law preempted
where (1) there was a conflict between the federal and
state laws and (2) the consequences of the state law sufficiently injured the objectives of the federal program),
I highlight it to demonstrate how consequential the dissent’s retort to clearly stated congressional authority
actually is. Even applying Chief Justice Rehnquist’s
dissenting position, the Indian Child Welfare Act
(“ICWA”) stands. The ICWA establishes “minimum
Federal standards” to be applied in state child custody
proceedings involving Indian children—it is hard to image a clearer indication of Congress’s intent to preempt
state law. 25 U.S.C. § 1902.
Just as “[n]one can dispute the central role community property laws play in . . . community property
States,” Boggs, 520 U.S. at 839-40, it is irrefutable that
states have a compelling interest in their child custody
proceedings. Nevertheless, important, longstanding,

369a
and binding Supreme Court precedent recognizes both
the United States’ unique and compelling obligation to
Indians, see United States v. Lara, 541 U.S. 193, 200
(2004) (“[T]he Constitution grants Congress broad general powers to legislate in respect to Indian tribes, powers that we have consistently described as ‘plenary and
exclusive.’ ” (citations omitted)); see also McGirt v. Oklahoma, 140 S. Ct. 2452, 2462 (2020) (“This Court long
ago held that the Legislature wields significant constitutional authority when it comes to tribal relations.”),
and dictates that “[t]he relative importance to the State
of its own law is not material when there is a conflict
with a valid federal law, for the Framers of our Constitution provided that the federal law must prevail,” Free,
369 U.S. at 666.

370a
GREGG COSTA, Circuit Judge, concurring in part and
dissenting in part, with whom CHIEF JUDGE OWEN joins
as to Parts I and II(A) and the final paragraph of Part
II(B), with whom JUDGES WIENER and HIGGINSON join,
with whom JUDGE DENNIS joins as to Part II, and with
whom JUDGE SOUTHWICK joins as to part I:
Congress passed the Indian Child Welfare Act of 1978
on voice votes, a procedure typically reserved for noncontroversial legislation. The law continues to enjoy
bipartisan support. See Brief of Members of Congress
as Amici Curiae in Support of Defendants-Appellants
and Reversal. Leading child welfare organizations believe the law “embodies and has served as a model for
the child welfare policies that are [the] best practices
generally” and reflects “the gold standard for child welfare policies and practices in the United States.” Brief
of Casey Family Programs and 30 Other Organizations
Working with Children, Families, and Courts to Support
Children’s Welfare as Amici Curiae in Support of Appellants at 2; Letter from Child Welfare Advocates to Elizabeth Appel, Off. of Regul. Aff. & Collaborative Action,
U.S. Dep’t of Interior (May 19, 2015), http://www.
nativeamericanbar.org/wp-content/uploads/2014/01/CFPet-al-Support-Letter-Re-Proposed-ICWA-Regulations.
pdf.
Yet more than four decades into its existence, a federal district court held key parts of the law unconstitutional. That facial invalidation is contrary to the longstanding views of state courts, where adoption proceedings of course take place. 1 It is ironic that a federal
See, e.g., In re K.M.O., 280 P.3d 1203, 1214-15 (Wyo. 2012); In
re Phoenix L., 708 N.W.2d 786, 795-98 (Neb. 2006); In re Baby Boy
1

371a
court saw infringements on state sovereignty that the
state courts themselves have not seen.
I.
Such ironies abound in this case. The most astonishing irony results from this being a federal court challenge to laws that apply in state adoption proceedings.
It will no doubt shock the reader who has slogged
through today’s lengthy opinions that, at least when it
comes to the far-reaching claims challenging the Indian
Child Welfare Act’s preferences for tribe members, this
case will not have binding effect in a single adoption.
That’s right, whether our court upholds the law in its
entirety or says that the whole thing exceeds congressional power, no state family court is required to follow
what we say. See, e.g., Penrod Drilling Corp. v. Williams, 868 S.W.2d 294, 296 (Tex. 1993) (per curiam) (noting that Texas state courts are “obligated to follow only
higher Texas courts and the United States Supreme
Court”); ASARCO Inc. v. Kadish, 490 U.S. 605, 617

L., 103 P.3d 1099, 1106-07 (Okla. 2004); In re A.B., 663 N.W.2d 625,
634-37 (N.D. 2003), cert. denied, 541 U.S. 972 (2004); Ruby A. v.
State, Dep’t of Health & Soc. Servs., 2003 WL 23018276, at *4-5
(Alaska Dec. 29, 2003); In re Marcus S., 638 A.2d 1158, 1158-59
(Me. 1994); In re Armell, 550 N.E.2d 1061, 1067-68 (Ill. App. Ct.
1990), cert. denied, 498 U.S. 940 (1990); In re Miller, 451 N.W.2d
576, 578-79 (Mich. Ct. App. 1990) (per curiam); In re Application
of Angus, 655 P.2d 208, 213 (Or. Ct. App. 1982), cert. denied, 464
U.S. 830 (1983); In re Appeal in Pima Cty. Juvenile Action No. S-903,
635 P.2d 187, 193 (Ariz. Ct. App. 1981), cert. denied, 455 U.S. 1007
(1982); In re Guardianship of D.L.L., 291 N.W.2d 278, 281 (S.D.
1980). But see In re Santos Y., 92 Cal. App. 4th 1274 (Cal. Ct.
App. 2001) (upholding “as applied” constitutional challenges to
ICWA when the child had never been part of an Indian home).

372a
(1989) (recognizing that state courts “render binding judicial decisions that rest on their own interpretations of
federal law”).
There is a term for a judicial decision that does nothing more than opine on what the law should be: an advisory opinion. That is what the roughly 300 pages you
just read amount to.
The rule that federal courts cannot issue advisory
opinions is as old as Article III. See Hayburn’s Case,
2 Dall. 409, 410 n.* (1792); 3 THE CORRESPONDENCE
AND PUBLIC PAPERS OF JOHN JAY 486-89 (Johnston ed.
1891) (August 8, 1793, letter from Chief Justice Jay refusing to give the Washington Administration advice on
legal questions relating to war between Great Britain
and France); see also Flast v. Cohen, 392 U.S. 83, 96
(1968) (“[I]t is quite clear that ‘the oldest and most consistent thread in the federal law of justiciability is that
the federal courts will not give advisory opinions.’ ”
(quoting CHARLES ALAN WRIGHT, FEDERAL COURTS 34
(1963))). Early courts could just call such a case what
it was—a request for an advisory opinion, see, e.g.,
Muskrat v. United States, 219 U.S. 346, 361-63 (1911);
United States v. Ferreira, 54 U.S. 40, 51-52 (1851); Hayburn’s Case, 2 Dall. at 410 n.*. The modern rise of public law litigation resulted in the development of doctrines
likes standing, ripeness, and mootness to enforce the
“case or controversy” requirement. See Cass R. Sunstein, What’s Standing After Lujan? Of Citizen Suits,
“Injuries,” and Article III, 91 MICH. L. REV. 163, 169
(1992) (noting that the Supreme Court did not use the
word “standing” until 1944 (citing Stark v. Wickard, 321
U.S. 288 (1944))). This compartmentalization of justi-

373a
ciability law risks losing the forest for the trees. Justiciability doctrines, with their various elements and exceptions, have one underlying aim: ensuring federal
courts only hear cases that actually decide concrete disputes. Decide is the key word here. When a judicial
opinion does not actually resolve a dispute, it has no
more legal force than a law review article.
The modern doctrinal box most concerned with weeding out advisory opinions is the redressability element
of standing. “Satisfaction of this requirement ensures
that the lawsuit does not entail the issuance of an advisory opinion without the possibility of any judicial relief,
and that the exercise of a court’s remedial powers will
actually redress the alleged injury.” Los Angeles v.
Lyons, 461 U.S. 95, 129 (1983) (Marshall, J., dissenting).
The redressability requirement proves fatal to at
least the equal protection claim (which is really a claim
under the Fifth Amendment’s Due Process Clause because ICWA is a federal law). Nothing we say about
equal protection will redress the Brackeens’ alleged injury of potentially being subject to preferences that
would favor tribe members in the adoption of Y.R.J. 2
Their argument for redressability is that the family
court judge may, or even says he will, follow our constitutional ruling. In other words, our opinion may advise him on how to decide the adoption case before him.
The States do not have standing to pursue the equal protection
claim because they are not “persons” entitled to the protection of
the Fifth Amendment. See South Carolina v. Katzenbach, 383 U.S.
301, 323-24 (1966). They thus cannot suffer an equal protection
injury of their own. Indeed, neither the opinion from the threejudge panel nor the en banc majority opinion relies on the States
for equal protection standing.
2

374a
This description of the plaintiffs’ argument reveals why
it doesn’t work. Maybe the opinion will convince the
family court judge, maybe it won’t. The same is true
for law review articles or legal briefs. But what is supposed to separate court decisions from other legal writings is that they actually resolve a dispute.
Yet JUDGE DENNIS’s Opinion signs off on plaintiffs’
redressability theory, 3 finding it sufficient that it is
“ ‘substantially likely that [a state court] would abide by
an authoritative interpretation’ of ICWA.” 4 Dennis
Op. at 45 (quoting Franklin v. Massachusetts, 505 U.S.
788, 803 (1992)); see also id. at 43 (stating that “the
Texas trial court has indicated that it will refrain from
ruling on the Brackeens’ federal constitutional claims

3
On their own, neither JUDGE DENNIS’s Opinion nor JUDGE
DUNCAN’s Opinion garners a majority of the court to find standing
for the equal protection claim. Combining the two opinions, however, a majority concludes there is standing. I thus address both
opinions.
4
Don’t overlook the ellipsis—it obscures something critical. The
replaced language was not referring to a “state court” that might
follow the federal decision, but to “the President and other executive
and congressional officials.” Franklin, 505 U.S. at 803. That lawsuit challenging a decennial reapportionment of congressional seats
was brought against the Secretary of Commerce, who was certainly
bound by the judgment, and the question was whether a ruling
against that Cabinet member who oversaw the census could influence the reapportionment even though the President had ultimate
policymaking authority in the executive branch. Holding that the
head of the relevant cabinet agency could be sued was hardly extraordinary. What is extraordinary—in fact unprecedented—is to
find standing based on the chance that another court might follow
the federal decision not because it has to but because it might want
to.

375a
pending a ruling from this court”). Finding redressability based on the possibility that another court will
consider the opinion persuasive would allow the requirements of standing to be satisfied by advisory opinions—
the very thing that the doctrine was designed to prevent. Justice Scalia nailed the problem with this reasoning:
If courts may simply assume that everyone (including those who are not proper parties to an action) will
honor the legal rationales that underlie their decrees,
then redressability will always exist. Redressability requires that the court be able to afford relief
through the exercise of its power, not through the
persuasive or even awe-inspiring effect of the opinion
explaining the exercise of its power.
Franklin, 505 U.S. at 825 (Scalia, J., concurring in part
and in the judgment). It therefore is not enough that
the family court judge has indicated he might, or even
will, follow what the federal court decides.
This court has no authority to resolve whether the
ICWA-mandated burden of proof will apply in the Y.R.J.
adoption. The binding effect of a legal decision—in
standing lingo, its ability to redress an injury—must
flow from the judgment itself. Id; see also United
States v. Juvenile Male, 564 U.S. 932, 937 (2011) (per
curiam) (rejecting the notion that a case could be justiciable because “a favorable decision in this case might
serve as useful precedent for respondent in a hypothetical [future] lawsuit”). But the Brackeens would come
up short even if a decision’s precedential effect could establish redressability. Texas courts do not have to follow the decisions of lower federal courts on questions of

376a
federal law. 5 Penrod Drilling Corp., 868 S.W.2d at
296; see also Arizonans for Official English v. Arizona,
520 U.S. 43, 58 n.11 (1997) (rejecting as “remarkable”
the idea that a state court must follow the precedent of
lower federal courts); Lockhart v. Fretwell, 506 U.S. 364,
375-76 (1993) (Thomas, J., concurring) (explaining that
“neither federal supremacy nor any other principle of
federal law requires that a state court’s interpretation
of federal law give way to a (lower) federal court’s interpretation”).
The bottom line is that both before and after the district court held ICWA unconstitutional, the Texas judge
in the Y.R.J. adoption case (or any other) could come out
either way on an equal protection claim. Indeed, the
state court judge has already ruled on some of the constitutional claims presented here. See In re Y.J., 2019
WL 6904728, at *1 (Tex. App.—Fort Worth, Dec. 19,
2019) (noting family court’s holding that ICWA violated

5
Apparently recognizing this problem, the Brackeens argue that
“if the Supreme Court affirmed, all courts would be bound by that
decision.” En Banc Brief of Individual Plaintiffs 63. The argument ignores the principle explained above that redressability must
come from the judgment itself as opposed to the precedential force
an opinion may have.
And there is another problem with this argument, one again recognized by Justice Scalia. Standing is determined at the outset of a
lawsuit, and no one then knows whether the case will be one of the
rare ones that makes it to the Supreme Court. Lujan v. Defenders
of Wildlife, 504 U.S. 555, 570 n.5 (1992) (explaining that “standing is
to be determined as of the commencement of suit” and “at that point
it could certainly not be known that the suit would reach this Court”).
If standing depended on whether the Supreme Court granted cert,
then a cert denial would wipe away the years of litigation in the lower
federal courts.

377a
the anticommandeering doctrine). A petition challenging that ruling is pending with the Supreme Court of
Texas. See In re Y.J., Tex. S. Ct. No. 20-0081 (petition
available at 2020 WL 750104). Some of the issues the
petition asks the state high court to resolve will sound
familiar: whether ICWA was “lawfully enacted by Congress” and whether it “discriminate[s] on the basis of
race.” Id. at 9, 13. What we think about those same
issues will have no binding effect on the state courts that
get to resolve the adoption, whether that be the state
supreme court or the family court judge. That irrefutable point means our ruling on the lawfulness of ICWA
preferences cannot redress the plaintiffs’ injury.
One might wonder if the advisory nature of this case
doesn’t always characterize declaratory judgments.
After all, “ordinarily a case or judicial controversy results in a judgment requiring award of process of execution to carry it into effect.” Fidelity Nat’l Bank & Tr.
Co. v. Swope, 274 U.S. 123, 132 (1927). To be sure,
there is an advisory flavor to all declaratory actions:
they resolve rights in a future suit that has not yet fully
materialized. Concerns that declaratory judgments
were advisory led the Supreme Court to refuse to hear
some claims for declaratory relief before the enactment
of the Declaratory Judgment Act of 1934. Willing v.
Chi. Auditorium Ass’n, 277 U.S. 274, 286-89 (1928)
(Brandeis, J.) (explaining that deciding whether a lessee
would have violated a lease by demolishing a building
before the demolition occurred would be a “declaratory
judgment[, which] relief is beyond the power conferred
upon the federal judiciary”); Liberty Warehouse Co. v.
Grannis, 273 U.S. 70, 76 (1927) (holding there was no
jurisdiction over claim under Kentucky’s declaratoryjudgment law). But see Nashville, Cent. & St. Louis

378a
Ry. v. Wallace, 288 U.S. 249, 258, 264-65 (1933) (holding
that federal courts had jurisdiction over claim brought
under state declaratory-judgment law).
What saves proper declaratory judgments from a redressability problem—but is lacking here—is that they
have preclusive effect on a traditional lawsuit that is imminent. 6 See 10B WRIGHT ET AL., supra, § 2771 (“A declaratory judgment is binding on the parties before the
court and is claim preclusive in subsequent proceedings
as to the matters declared . . . .”); accord RESTATEMENT (SECOND) OF J UDGMENTS § 33. Take an insurance coverage dispute, which was the nature of the case
upholding the federal Declaratory Judgment Act and remains the prototypical declaratory action today.
Aetna Life Ins. Co. v. Haworth, 300 U.S. 227 (1937). A
federal court’s declaration, in a case between the insurer
and insured, of whether there is coverage will bind those
parties in a subsequent lawsuit seeking to recover on the
policy. See id. at 239, 243-44. That “definitive determination of the legal rights of the parties” is what allows
declaratory judgments in federal court. Id. at 241.
To be justiciable, a declaratory judgment must seek
“specific relief through a decree of a conclusive character.” Id.; accord MedImmune, Inc. v. Genentech, Inc.,

The more common standing problem for declaratory judgments
is whether the second lawsuit “is of sufficient immediacy and reality.” See 10B CHARLES ALAN WRIGHT ET AL., FEDERAL PRACTICE & PROCEDURE § 2757 (4th ed. 2020). That is part of standing’s injury requirement, which requires an “actual or imminent”
harm. Lujan, 504 U.S. at 560 (1992) (quotations omitted). The
redressability problem this request for declaratory relief poses is
less common but no less fundamental.
6

379a
549 U.S. 118, 127 (2007). In contrast, our resolution of
the equal protection question will conclude nothing.
A leading federal procedure treatise recognizes that
preclusive effect is what separates a permissible declaratory judgment from an impermissible advisory opinion:
The federal Declaratory Judgment Act provides that
a declaratory judgment shall have the force and effect of a final judgment or decree. The very purpose
of this remedy is to establish a binding adjudication
that enables the parties to enjoy the benefits of reliance and repose secured by res judicata. Denial of
any preclusive effect, indeed, would leave a procedure difficult to distinguish from the mere advisory
opinions prohibited by Article III.
18A WRIGHT ET AL., supra, § 4446. This requirement
explains why you will not find a declaratory judgment
that lacks preclusive effect.
This case will be the first. There is no mutuality of
parties, nor is the state court judge who will decide
Y.R.J.’s case a party. The Brackeens have suggested
that a ruling in this federal case would bind the Navajo
Nation in state court. That is not true for multiple reasons. For starters, the Navajo Nation was not a party
in the district court (it intervened on appeal), so standing on that basis would not have existed when the suit
was filed or even when judgment was entered. See
Lujan, 504 U.S. at 570 n.5 (“[S]tanding is to be determined as of the commencement of suit.”). 7 Relatedly,

Lujan is right on point. The plaintiff sought to establish redressability by arguing that “by later participating in the suit” two
federal agencies “created a redressability (and hence a jurisdic7

380a
it is doubtful that issue preclusion applies to a party that
does not litigate in the trial court. Apart from these
defects relating to the timing of Navajo Nation’s entering this lawsuit, issue preclusion does not usually apply
to pure questions of law like whether ICWA’s preferences violate the Fifth Amendment. John G. & Marie
Stella Kenedy Mem. Found. v. Dewhurst, 90 S.W.3d
268, 288 (Tex. 2002) (explaining that “[d]eterminations
of law are not generally given preclusive effect” in refusing to give effect to federal court ruling interpreting
old land grant under Mexican civil law); see also In re
Westmoreland Coal Co., 968 F.3d 526, 532 (5th Cir.
2020); RESTATEMENT (SECOND) OF JUDGMENTS § 29(7)
(1982); 18 WRIGHT ET AL., supra, § 4425, at 697-701 (all
recognizing same principle). This ordinary reluctance
to give preclusive effect to questions of law becomes
even stronger when, as here, the two cases are in different forums and neither jurisdiction’s highest court has
resolved the issue. RESTATEMENT (SECOND ) OF JUDGMENTS § 29(7) cmt. i.
JUDGE DUNCAN’s Opinion states the plaintiffs need
only show that the “practical consequences” of a ruling
by this court would “significantly increase the likelihood
of relief.” Duncan Op. at 20. Note the opinion does
not say—and can’t say because no case does—that redressability can be met when the “practical consequence” is convincing a state court judge to follow our
tion) that did not exist at the outset.” Id. at 569 n.4. That argument did not work because “[t]he existence of federal jurisdiction
ordinarily depends on the facts as they exist when the complaint is
filed.” Id. (quoting Newman-Green, Inc. v. Alfonzo-Larrain, 490
U.S. 826, 830 (1989)). Any claim of postfiling redressability is even
weaker here because Navajo Nation did not intervene until the appeal.

381a
lead. That distinction is critical. As I have recounted,
state courts have no obligation to follow a lower federal
court’s ruling on federal law. In contrast, the executive branch officials sued in cases like Franklin would
be bound in later litigation by the federal court’s declaratory judgment. 505 U.S. at 803 (recognizing that the
Commerce Secretary’s role in “litigating [the] accuracy”
of the census meant that declaratory relief against her
would redress plaintiff ’s injuries). The Franklin redressability dispute was about whether the Cabinet
member being sued had sufficient influence over the
challenged policy even though the President had the ultimate say (as is always the case). On that question, a
substantial likelihood that the Commerce Secretary
could influence the census conducted by the department
she headed established redressability. 505 U.S. at 803
(recognizing that it was the Commerce Secretary’s “policy determination concerning the census” that was being
challenged); see also supra note 4. Franklin’s unremarkable reasoning is why there is redressability for
the APA claims—a declaratory judgment against the Interior Secretary would bind her when it comes to enforcing the department’s challenged regulations.
But contrary to JUDGE DUNCAN’s Opinion, the Plaintiffs’ standing to challenge regulations cannot bootstrap
the claims challenging ICWA’s statutory preferences
into federal court. DaimlerChrysler Corp. v. Cuno,
547 U.S. 332, 352 (2006) (“[O]ur standing cases confirm
that a plaintiff must demonstrate standing for each
claim he seeks to press.”). Even without a regulation
requiring “clear and convincing” evidence to justify departing from the preferences, the statutory preferences
remain and must be applied by state court judges unless

382a
they hold them unconstitutional. The benefit the individual Plaintiffs would receive from a declaration that
the “clear and convincing evidence” regulation is invalid
establishes redressability for the APA claim challenging
that regulation; it does not show how a declaration that
the underlying statutory preferences are unconstitutional would redress plaintiffs’ injuries. But see Duncan Op. at 21-22.
JUDGE DUNCAN’s second stab at redressability also
improperly cross-pollinates standing among different
claims. Redressability arising from a declaration that
any obligations the placement preferences impose on
child welfare officials violate anti-commandeering principles at most establishes standing for that “particular
claim[],” Allen v. Wright, 468 U.S. 737, 752 (1984), not
the equal protection claim that seeks to declare unlawful
the preferences as they apply in state court proceedings.
But see Duncan Op. at 21-22. And the statutory preferences remain on the books regardless of federal funding based on ICWA compliance. 8 But see id. at 21.
The final redressability theory in JUDGE DUNCAN’s
Opinion is that the “requested relief would make the
adoptions less vulnerable to being overturned” because
it “would declare unenforceable the collateral attack
provisions themselves and the underlying grounds for
invalidity.” Duncan Op. at 21 (citing 25 U.S.C. §§ 19111914). This again mixes and matches claims against
different provisions instead of requiring the plaintiffs to
CHIEF JUDGE OWEN also correctly notes that the funding issue
“was not raised or briefed in the district court or this court.”
Owen Op. at 5. Nor is it clear how the individual plaintiffs, as opposed to the States which cannot assert a Fifth Amendment claim,
are injured by the funding issue.
8

383a
“demonstrate standing separately” for each claim.
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs., Inc.,
528 U.S. 167, 185 (2000). More fundamentally, it brings
us back to where I started: no state court judge has to
follow what we say about ICWA. Consequently, even
if standing to challenge the collateral review provisions
somehow transfers to support standing for challenging
the separate provisions establishing the preferences in
the first place, no state court has to follow a “ruling” we
make about the collateral review provisions. To a state
court judge, our “ruling” is nothing more than pontifications about the law. Perhaps our view persuades the
state court, perhaps not.
So both of the opinions that find standing for the
equal protection claim end up basing that view, at least
in part, on the possibility that a Texas judge might decide to follow our view of the law. Think about the consequences of this unprecedented view of standing. A
plaintiff need only find a state court judge who says she
would defer to a federal court ruling on the difficult constitutional issue she is facing. Presto! A plaintiff could
manufacture standing for a federal lawsuit even when a
declaratory judgment would not have preclusive effect
on any parties to the federal suit. Talk about upsetting
the state/federal balance.
This license to allow outsourcing of traditional state
court matters to federal court brings me back to the
opening point. To supposedly vindicate federalism, we
offend it by deciding questions that state court judges
are equipped to decide and have for decades—with the
Supreme Court having a chance to review those rulings.
See, e.g., Adoptive Couple v. Baby Girl, 570 U.S. 637
(2013) (case arising in South Carolina courts); cf. Moore

384a
v. Sims, 442 U.S. 415, 418, 434-35 (1979) (holding that
Younger abstention applies to family law cases). That
we disregard the limits of federal jurisdiction to reach
out and decide issues that are raised directly in adoption
cases makes our lack of faith in our state court colleagues even more troubling. Why aren’t they capable
of deciding these issues that are squarely before them?
Any historical and institutional concerns about state
courts’ willingness to vindicate federal constitutional
rights are lessened when a federal statute is being challenged. If anything, state court judges would be more
receptive to concerns, like the allegations plaintiffs raise
here, that a federal law is interfering with constitutional
protections for States and individuals.
If the case-or-controversy requirement means anything, it prevents a federal court from opining on a constitutional issue on the mere hope that some judge somewhere may someday listen to what we say. No limitation on Article III is more fundamental than our inability to issue such an advisory opinion.
II.
A.
That brings us to the most tragic irony of today’s
opinions. After more than two centuries of courts’ recognizing sweeping federal power over Indian affairs
when that power was often used to destroy tribal life,
our court comes within a whisker of rejecting that power
when it is being used to sustain tribal life. It would be
news to Native Americans that federal authority to
wage war against Indian nations, to ratify treaties laying claim to more than a billion acres of Indian land, to

385a
remove Indian communities to reservations, and to establish schools aimed at “civilizing” Indian pupils does
not reach the Indian family. See United States v. Lara,
541 U.S. 193, 201-04 (2004); 1 COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW §§ 1.01-03. Contrary to what a
near-majority of our court concludes, the same power
Congress once relied on to tear Indian children from Indian homes authorizes Congress to enlist state courts in
the project of returning them.
Two centuries of federal domination over Indian affairs are enough to sustain ICWA’s provisions regulating state domestic relations proceedings. Congress has
“plenary and exclusive” authority “to legislate in respect
to Indian tribes.” Lara, 541 U.S. at 200. This “broad
power,” White Mountain Apache Tribe v. Bracker, 448
U.S. 136, 142 (1980), is found in Article I, which authorizes Congress to “regulate commerce . . . with the
Indian tribes.” U.S. CONST. art. I, § 8. The Indian
Commerce Clause “accomplishes a greater transfer of
power from the States to the Federal Government than
does the Interstate Commerce Clause.” Seminole Tribe
of Fla. v. Florida, 517 U.S. 44, 62 (1996).
JUDGE DENNIS well articulates how federal supremacy in the field of Indian affairs grew out of the Founding generation’s understanding of the relationship between the new nation and tribes. From the outset, the
Continental Congress dealt with Indian tribes just as it
did foreign nations, wielding an indivisible bundle of
powers that encompassed war, diplomacy, and trade.
En Banc Brief for Professor Gregory Ablavsky in Support of Defendants-Appellants and Reversal at 5-6.
But under the Articles of Confederation, some states
claimed much of the same authority, leaving the state

386a
and federal governments jostling for control over Indian
relations. Gregory Ablavsky, Beyond the Indian Commerce Clause, 124 YALE L.J. 1012, 1021-22 (2015) (discussing ARTICLES OF CONFEDERATION OF 1781, art. IX,
para. 4). The Constitution solved this predicament by
making federal authority over Indian commerce, treatymaking, and territorial administration exclusive. Id.
The national government soon claimed, with the apparent assent of state leaders, undivided power over Indian
affairs. Id. at 1041-44. Dennis Op. at 7-13.
The Framers grounded federal power over Indian affairs in both the explicit constitutional text and in implicit preconstitutional understandings of sovereignty. 9
Brief of Indian Law Scholars as Amici Curiae in Support
of Defendants-Appellants at 1. They viewed relations
between the United States and Indian tribes as governed by the law of nations. Ablavsky, supra, at 105967. Many early treaties embraced the idea that the
United States, as the more powerful sovereign, owed a
duty of protection to tribes. Brief of Indian Law Scholars, at 1-2 (collecting examples). And the Supreme
Court emphasized that this responsibility for Indian
welfare imbued the federal government with immense
Just as the Supreme Court has stressed that background principles of state sovereign immunity inform interpretation of the Eleventh Amendment, Seminole Tribe, 517 U.S. at 72, the Court has
recognized the relevance of the historical context from which the
plenary federal Indian power emerged. See Lara, 541 U.S. at 201
(tracing federal authority over Indian affairs to “the Constitution’s
adoption of preconstitutional powers necessarily inherent in any
Federal Government”); Morton v. Mancari, 417 U.S. 535, 551-53
(1974) (“The plenary power of Congress to deal with the special
problems of Indians is drawn both explicitly and implicitly from the
Constitution itself.”).
9

387a
power at the expense of the states. See, e.g., Worcester
v. Georgia, 31 U.S. 515, 560-61 (1832); United States v.
Kagama, 118 U.S. 375, 384 (1886); United States v. Rickert, 188 U.S. 432, 437-38 (1903).
How far does this power extend? The Supreme
Court has upheld federal authority to enact special criminal laws, in the name of “continued guardianship,” affecting U.S. citizens who are Indian tribe members.
United States v. Nice, 241 U.S. 591, 595-99 (1916) (construing the General Allotment Act of 1887). Congress
may violate treaty obligations in its disposal of tribal
property, Lone Wolf v. Hitchcock, 187 U.S. 553, 564, 56768 (1903) (validating congressional allotment in conflict
with treaty between the United States and Kiowa and
Comanche Tribes); unilaterally determine tribal membership for the purposes of administering tribal assets,
Del. Tribal Bus. Cmte. v. Weeks, 430 U.S. 73, 84-86
(1977) (upholding statute appropriating award made by
Indian Claims Commission); exercise eminent domain
over tribal lands, Cherokee Nation v. S. Kan. Ry. Co.,
135 U.S. 641, 656-67 (1890) (upholding legislation granting railroad right of way through Indian land); and single out Indian applicants for preferred hiring in federal
jobs, Mancari, 417 U.S. at 551-55 (sustaining constitutionality of Indian Reorganization Act of 1934). 10

The Supreme Court has recognized the extraordinary breadth
of federal power in another area where Congress wields plenary authority: immigration. See Michael Doran, The Equal-Protection
Challenge to Federal Indian Law, 6 U. PA. J. L. & PUB. AFF. 1, 3442 (2020). The foundational cases recognizing plenary federal authority over immigration and Indian affairs were decided just three
years apart and rely on similar reasoning. Compare Chae Chan
Ping v. United States, 130 U.S. 581 (1889), with Kagama, 118 U.S.
10

388a
Where do the states stand in relation to the “plenary
and exclusive” federal power over Indian affairs?
They are “divested of virtually all authority over Indian
commerce and Indian tribes.” Seminole Tribe, 517
U.S. at 62. The states, in ratifying the Constitution,
ceded to Congress “the exclusive right to regulate . . .
intercourse with the Indians,” Worcester, 31 U.S. at 590,
as clearly as the states gave Congress sole power to
“coin money, establish post offices, and declare war,” id.
at 580-81. Even when federal policy favoring state control over Indian affairs reached its height, Congress
withheld from the states “general civil regulatory powers
. . .
over reservation Indians.”
Bryan v.
Itasca Cty., 426 U.S. 373, 390 (1976) (interpreting Pub.
L. 280); COHEN’S § 1.06 & n.32.
Some examples illustrate the limits of state authority
to regulate Indian affairs even in core areas of state
power like criminal law and taxation. Without Congress’s blessing, states cannot exercise criminal juris-

at 375 (1886); see also Doran, supra, at 34-36 (noting similarities in
the reasoning of the cases).
There is also symmetry in the scope of federal power over these
two subjects. Just as limited rational-basis review governs classifications involving tribes, the immigration power allows the federal
government to discriminate among noncitizens in a way that states
may not. Compare Mathews v. Diaz, 426 U.S. 67, 79-80 (1976)
(Congress may withhold Medicare eligibility from certain noncitizens), with Graham v. Richardson, 403 U.S. 365, 376 (1971) (states
may not constitutionally deny welfare benefits to certain noncitizens); see also Doran, supra, at 36-39 & n.193 (drawing this comparison). And because “the regulation of aliens is so intimately blended
and intertwined with responsibilities of the national government,”
“[a]ny concurrent state power that may exist is restricted to the narrowest of limits.” Hines v. Davidowitz, 312 U.S. 52, 66-68 (1941).

389a
diction over Indian country. See Washington v. Confederated Bands and Tribes of the Yakima Indian Nation, 439 U.S. 463, 470-71 (1979) (discussing federal authorization of state jurisdiction under Pub. L. 280);
United States v. John, 437 U.S. 634, 649-54 (1978) (holding state criminal jurisdiction precluded by Major
Crimes Act of 1885); Kagama, 118 U.S. at 379-80. Congress can exempt Indians from state property taxes.
Bd. of Comm’rs of Creek Cty. v. Seber, 318 U.S. 705, 71518 (1943). Even when Congress has not legislated, exclusive federal authority in the domain of Indian affairs
may preempt state regulation. McClanahan v. State
Tax Comm’n of Ariz., 411 U.S. 164, 165 (1973) (invalidating state tax on tribe member’s income earned on
reservation); Bracker, 448 U.S. at 150-52 (striking down
state tax on commercial activities of non-Indians on Indian land).
JUDGE DUNCAN’s Opinion proclaims ICWA a novel
exercise of congressional power because it interferes
with state domestic relations proceedings. But as
JUDGE DENNIS recounts, the federal government has
been a constant, often deleterious presence in the life of
the Indian family from the beginning. And, as will be
discussed, ICWA is hardly the only statute to impose
federal standards on state courts.
Congress’s interest in the destiny of Indian children
is older than the Republic itself. The Continental Congress viewed Indian education as a wartime strategy,
authorizing a grant to Dartmouth College with the hope
that bringing Indian students to the school would deter
any possible attack by British-allied tribes. Matthew
L.M. Fletcher & Wenona T. Singel, Indian Children
and the Federal-Tribal Trust Relationship, 95 Neb. L.

390a
Rev. 885, 911 (2017). Following Independence, more
than one hundred treaties provided for Indian education. Brief of Indian Law Scholars, at 4. But early
federal efforts to offer voluntary education programs
morphed into a “coercive and destructive” system of
boarding schools designed to assimilate Indian children.
MATTHEW L.M. FLETCHER, PRINCIPLES OF FEDERAL
INDIAN LAW § 3.6 (1st ed. 2017); Brief of Ablavsky, at
20. The federal government instituted its “civilization”
policy by force, punishing Indian families that resisted
turning over their children and hunting down the pupils
who escaped. FLETCHER, FEDERAL INDIAN LAW § 3.6.
At these schools, students were beaten for speaking
their native languages. COHEN’S § 1.04; Dennis Op. at
21-24. While these practices have abated, federal involvement in Indian schooling has not. Under today’s
federal policy of Indian self-determination, Congress
provides substantial funding for Indian education and
continues to operate some schools with “tribal input and
. . . tribal control.” Fletcher & Singel, supra, at 964;
see also Brief of Indian Law Scholars, at 4.
In the view of JUDGE DUNCAN’s Opinion, this narrative sheds little light on whether Congress can set standards for state adoptions involving Indian children because no Supreme Court decision or “founding-era congressional practice” explicitly blesses federal intervention in state domestic relations proceedings. Duncan
Op. at 2, 29. But adoption as we know it today did not
exist at common law and did not become the subject of
state legislation until the mid-nineteenth century. Stephen B. Presser, The Historical Background of American Adoption Law, 11 J. FAM. L. 443, 443 (1971). It
would have been “anachronistic . . . and bizarre,” in
the words of one amicus, for the founding-era Congress

391a
to attempt legislative interference with state proceedings that would not exist for another eight decades.
Brief of Ablavsky, at 16; see also Brown v. Bd. of Educ.,
347 U.S. 483, 489-90 (noting that the history of the Fourteenth Amendment was “inconclusive” on the issue of
school segregation because “[i]n the South, the movement toward free common schools, supported by general
taxation, had not yet taken hold” at the time of enactment). Given that “at least during the first century of
America’s national existence
. . .
Indian affairs
were more an aspect of military and foreign policy than
a subject of domestic or municipal law,” it should come
as no surprise that the focus of the broad federal power
over Indian affairs has shifted over time. Lara, 541
U.S. at 200 (internal citation omitted).
Still, JUDGE DUNCAN’s Opinion declares ICWA—
as a “federal Indian law [that] governs states’ own
administrative and judicial proceedings” for domestic
relations—to be highly “unusual,” and finds no historical analogue for this (highly specific) category of legislation. Duncan Op. at 2, 34. But while family court
proceedings typically are governed by state law, they
are not a “no fly zone” for federal interests. See Brief
of Casey Family Programs, at 24-26 (discussing federal
laws that apply in domestic relations cases). Take the
Servicemember’s Civil Relief Act. 50 U.S.C. §§ 39014043. The law sets rules governing child custody proceedings in state courts by, among other things, limiting
the court’s consideration of a servicemember’s deployment when determining custody. See id. §§ 3931, 3938.
In asserting a federal interest in family court proceedings, the Servicemember’s Civil Relief Act is not unique.
To further the federal government’s treatymaking and

392a
foreign relations powers, the International Child Abduction Remedies Act charges state courts with administering the Hague Convention on the Civil Aspects of International Child Abduction to ensure “prompt return” of
abducted children. See 28 U.S.C. §§ 9001-03. And
JUDGE HIGGINSON cites several examples of federal
laws that preempt state domestic relations law. Higginson Op. at 2-3 (citing cases involving ERISA, the
Railroad Retirement Act, the National Service Life Insurance Act, and Homestead Act). If these statutes
permissibly “govern[] states’ own administrative and judicial proceedings,” Duncan Op. at 2, why would Congress lack authority to do the same through its “plenary
and exclusive” power over Indian affairs?
When Congress enacted ICWA, it declared the removal of Indian children from their homes by state officials “the most tragic and destructive aspect of American Indian life today.” See H.R. Rep. No. 95-1386, at 9
(1978). Family-separation policies had “contributed to
a number of problems, including the erosion of generations of Indians from Tribal communities, loss of Indian
traditions and culture, and long-term emotional effects
on Indian children caused by the loss of their Indian
identity.” Indian Child Welfare Act Proceedings, Final Rule, 81 Fed. Reg. 38,864, 38, 780 (June 14, 2016)
(citing Hearing Before the Subcommittee on Indian Affairs of the Senate Comm. on Interior & Insular Affairs
on Problems that Am. Indian Families Face in Raising
Their Children & How These Problems Are Affected by
Fed. Action or Inaction, 93 Cong., 2d Sess., at 1-2, 45-51
(1974)). Although ICWA can never heal these wounds, it
sought to stanch their bleeding. As the culmination of

393a
extensive federal involvement in the education and welfare of Indian children, the law falls well within the broad
congressional power over Indian affairs.
B.
This leads to today’s final irony. JUDGE DUNCAN’s
Opinion overrides the plenary federal power over Indian
affairs, with its deep textual and historical roots, based
on a principle that finds support in neither text nor history: the notion that the Constitution prohibits the federal government from granting preferences to tribe
members. Rather than credit copious originalist evidence of the sweeping federal power over Indian affairs,
JUDGE DUNCAN’S Opinion adopts the atextual and ahistorical argument that the Fifth Amendment’s implicit
equal protection guarantee strips Congress of the power
to enact tribal preferences. DUNCAN OP. at 71; see Bolling v. Sharpe, 347 U.S. 497, 499 (1955) (recognizing that
the Fourteenth Amendment’s guarantee of “ ‘equal protection of the laws’ is a more explicit safeguard of prohibited unfairness” than the Fifth Amendment’s Due
Process Clause). That is nothing new. Originalism
usually goes AWOL when the issue is whether the government may grant preferences to historically disadvantaged groups. See, e.g., ERIC J. SEGALL, ORIGINALISM
AS FAITH 127-30 (2018); CASS R. SUNSTEIN, RADICALS
IN ROBES 131-42 (2005); Steven G. Calabresi & Gary
Lawson, The Rule of Law as a Law of Law, 90 NOTRE
DAME L. REV. 483, 490-91 (2014); Michael B. Rappaport,
Originalism and the Colorblind Constitution, 89 Notre
Dame L. Rev. 71, 76 (2013); Stephen M. Griffin, Rebooting Originalism, 2008 U. ILL. L. REV. 1185, 1202-03; Jed
Rubenfeld, Affirmative Action, 107 YALE L.J. 427, 43032 (1997); Eric Schnapper, Affirmative Action and the

394a
Legislative History of the Fourteenth Amendment, 71
VA. L. REV. 753, 754 (1985). 11
Ignoring the lack of historical support for a constitutional ban on federal preferences to historicallydisadvantaged groups is especially flagrant in light of
200-plus years of jurisprudence recognizing vast federal
power over Indian affairs. As that authority flows in
part from the federal government’s plenary power over
foreign relations, there is nothing unusual or unconstitutional about exercising it to grant preferences. Preferring some nations over others—through alliances,
aid, and treaties, among other things—is the essence of
foreign policy. That’s why a preference for tribe members “does not constitute racial discrimination.” Mancari, 417 U.S. 553; see Bethany R. Berger, Savage Equalities, 94 WASH. L. REV. 583, 627 (2019) (“ICWA’s definition of ‘Indian children,’ which requires either tribal citizenship or that the child has a tribal citizen parent and
is eligible for citizenship, rests squarely on the kind of
‘political rather than racial’ belonging of which Mancari
approved.”). When Congress “single[s] out [Indians]
for special treatment,” it draws upon its expansive authority to structure relations between the United States
and another sovereign. Mancari, 417 U.S. at 554-55
Although Professor Rappaport recognizes that some court decisions rejecting the constitutionality of affirmative action programs “engage[] in little discussion of the constitutional text and
almost no discussion of the history of the Fourteenth Amendment,”
he tries to push back on the prevailing scholarly view that the original understanding allows states to pursue such policies. Rappaport, supra, at 76. But even he recognizes that the historical
case is much different when it comes to claims that the federal government cannot adopt policies that prefer disadvantaged groups.
Id. at 71 n.2, 73.
11

395a
(describing Indians as “members of quasi-sovereign
tribal entities”); accord Fisher v. Dist. Court, 424 U.S.
382, 390 (1976) (explaining that the jurisdiction of a
tribal court “does not derive from [] race . . . but rather from the quasi-sovereign status of [tribes] under
federal law”). These preferences further centuries-old
interests animating the federal government’s “special
relationship” with tribes. Mancari, 417 U.S. at 541-42,
552.
C.
Why bother with these objections to the substantive
aspects of today’s opinions if, as I have explained, they
will have all the binding effect of a law review article? 12
Because the procedural and substantive problems with
this case are two peas in the same activist pod.
Judicial restraint is a double victim of today’s tome.
The court ignores standing requirements that enforce
“the proper—and properly limited—role of the courts in
a democratic society.” Warth v. Seldin, 422 U.S. 490,
498 (1975). And a willingness, even eagerness, to strike
down a 43-year-old federal law that continues to enjoy
bipartisan support scorns the notion that “declar[ing] an
Act of Congress unconstitutional . . . is the gravest
and most delicate duty” that federal judges are “called
on to perform.” Blodgett v. Holden, 275 U.S. 142, 14748 (1927) (Holmes, J., concurring).

In addition to a federal court’s inability to create precedent for
state courts, the two equal protection challenges our court upholds
will not even be precedential within our circuit because we are affirming the district court’s ruling by an equally divided vote.
12

396a
Whither the passive virtues? Alexander Bickel, The
Supreme Court 1960 Term Foreword: The Passive Virtues, 75 HARV. L. REV. 40 (1961).
Whither the “conviction that it is an awesome thing
to strike down an act of the legislature approved by the
Chief Executive”? ROBERT H. JACKSON, THE STRUGGLE FOR JUDICIAL SUPREMACY: A STUDY OF A CRISIS IN
AMERICAN POWER POLITICS 323 (Legal Classics ed.
2000).
Heaped, one must conclude, on the pile of broken
promises that this country has made to its Native peoples.

397a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-11479
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK
NICHOLAS LIBRETTI; STATE OF LOUISIANA;
HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
PLAINTIFFS-APPELLEES
v.
DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF
THE INTERIOR; TARA SWEENEY, IN HER OFFICIAL
CAPACITY AS ACTING ASSISTANT SECRETARY FOR
INDIAN AFFAIRS; BUREAU OF INDIAN AFFAIRS; UNITED
STATES DEPARTMENT OF INTERIOR; UNITED STATES OF
AMERICA; ALEX AZAR, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES;
UNITED STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES, DEFENDANTS-APPELLANTS
CHEROKEE NATION; ONEIDA NATION; QUINAULT
INDIAN NATION; MORONGO BAND OF MISSION INDIANS,
INTERVENOR DEFENDANTS-APPELLANTS
[Filed:

Aug. 9, 2019]

Appeals from the United States District Court
for the Northern District of Texas

398a
Before WIENER, DENNIS, and OWEN, Circuit Judges.
JAMES L. DENNIS, Circuit Judge:
This case presents facial constitutional challenges to
the Indian Child Welfare Act of 1978 (ICWA) and statutory and constitutional challenges to the 2016 administrative rule (the Final Rule) that was promulgated by
the Department of the Interior to clarify provisions of
ICWA. Plaintiffs are the states of Texas, Indiana, and
Louisiana, and seven individuals seeking to adopt Indian
children. Defendants are the United States of America, several federal agencies and officials in their official
capacities, and five intervening Indian tribes. Defendants moved to dismiss the complaint for lack of subject
matter jurisdiction, but the district court denied the motion, concluding, as relevant to this appeal, that Plaintiffs had Article III standing. The district court then
granted summary judgment in favor of Plaintiffs, ruling
that provisions of ICWA and the Final Rule violated
equal protection, the Tenth Amendment, the nondelegation doctrine, and the Administrative Procedure Act.
Defendants appealed. Although we AFFIRM the district court’s ruling that Plaintiffs had standing, we
REVERSE the district court’s grant of summary judgment to Plaintiffs and RENDER judgment in favor of
Defendants.
BACKGROUND
I.

The Indian Child Welfare Act (ICWA)

Congress enacted the Indian Child Welfare Act of
1978 (ICWA), 25 U.S.C. §§ 1901 et seq., to address rising
concerns over “abusive child welfare practices that resulted in the separation of large numbers of Indian children from their families and tribes through adoption or

399a
foster care placement, usually in non-Indian homes.”
Miss. Band Choctaw Indians v. Holyfield, 490 U.S. 30,
32 (1989). Recognizing that a “special relationship” exists between the United States and Indian tribes, Congress made the following findings:
Congress has plenary power over Indian affairs. 25
U.S.C. § 1901(1) (citing U.S. CONST. art. I, section 8,
cl. 3 (“The Congress shall have Power . . . To regulate Commerce . . . with the Indian Tribes.”)).
“[T]here is no resource that is more vital to the continued existence and integrity of Indian tribes than their
children . . . .” Id. at § 1901(3).
“[A]n alarmingly high percentage of Indian families
are broken up by the removal, often unwarranted, of
their children from them by nontribal public and private
agencies and that an alarmingly high percentage of such
children are placed in non-Indian foster and adoptive
homes and institutions.” Id. at § 1901(4).
“States exercising their recognized jurisdiction over
Indian child custody proceedings through administrative and judicial bodies, have often failed to recognize
the essential tribal relations of Indian people and the
cultural and social standards prevailing in Indian communities and families.” Id. at § 1901(5).
In light of these findings, Congress declared that it
was the policy of the United States “to protect the best
interests of Indian children and to promote the stability
and security of Indian tribes and families by the establishment of minimum Federal standards for the removal
of Indian children from their families and the placement
of such children in foster or adoptive homes which will

400a
reflect the unique values of Indian culture, and by providing for assistance to Indian tribes in the operation of
child and family service programs.” Id. at § 1902.
ICWA applies in state court child custody proceedings involving an “Indian child,” defined as “any unmarried person who is under age eighteen and is either (a) a
member of an Indian tribe or (b) is eligible for membership in an Indian tribe and is the biological child of a
member of an Indian tribe.” Id. at § 1903(4). In proceedings for the foster care placement or termination of
parental rights, ICWA provides “the Indian custodian of
the child and the Indian child’s tribe [] a right to intervene at any point in the proceeding.” Id. at § 1911(c).
Where such proceedings are involuntary, ICWA requires that the parent, the Indian custodian, the child’s
tribe, or the Secretary of the United States Department
of the Interior (Secretary or Secretary of the Interior)
be notified of pending proceedings and of their right to
intervene. Id. at § 1912. In voluntary proceedings
for the termination of parental rights or adoptive placement of an Indian child, the parent can withdraw consent for any reason prior to entry of a final decree of
adoption or termination, and the child must be returned
to the parent. Id. at § 1913(c). If consent was obtained through fraud or duress, a parent may petition to
withdraw consent within two years after the final decree
of adoption and, upon a showing of fraud or duress, the
court must vacate the decree and return the child to the
parent. Id. at § 1913(d). An Indian child, a parent or
Indian custodian from whose custody the child was removed, or the child’s tribe may file a petition in any
court of competent jurisdiction to invalidate an action in
state court for foster care placement or termination of

401a
parental rights if the action violated any provision of
ICWA §§ 1911-13. Id. at § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings involving Indian children. Section 1915 requires that “[i]n
any adoptive placement of an Indian child under State
law, a preference shall be given, in the absence of good
cause to the contrary, to a placement with: (1) a member of the child’s extended family; (2) other members of
the Indian child’s tribe; or (3) other Indian families.”
Id. at § 1915(a). Similar requirements are set for foster care or preadoptive placements. Id. at § 1915(b).
If a tribe establishes by resolution a different order of
preferences, the state court or agency effecting the
placement “shall follow [the tribe’s] order so long as the
placement is the least restrictive setting appropriate to
the particular needs of the child.” Id. at § 1915(c).
The state in which an Indian child’s placement was
made shall maintain records of the placement, which
shall be made available at any time upon request by the
Secretary or the child’s tribe. Id. at § 1915(e). A
state court entering a final decree in an adoptive placement “shall provide the Secretary with a copy of the decree or order” and information as necessary regarding
“(1) the name and tribal affiliation of the child; (2) the
names and addresses of the biological parents; (3) the
names and addresses of the adoptive parents; and (4) the
identity of any agency having files or information relating to such adoptive placement.” Id. at § 1951(a).
ICWA’s severability clause provides that “[i]f any provision of this chapter or the applicability thereof is held
invalid, the remaining provisions of this chapter shall
not be affected thereby.” Id. at § 1963.

402a
II.

The Final Rule

ICWA provides that “the Secretary [of the Interior]
shall promulgate such rules and regulations as may be
necessary to carry out [its] provisions.” 25 U.S.C. § 1952.
In 1979, the Bureau of Indian Affairs (BIA) promulgated guidelines (the “1979 Guidelines”) intended to assist state courts in implementing ICWA but without
“binding legislative effect.” Guidelines for State Courts;
Indian Child Custody Proceedings, 44 Fed. Reg. 67,584
(Nov. 26, 1979). The 1979 Guidelines left the “primary
responsibility” of interpreting certain language in
ICWA “with the [state] courts that decide Indian child
custody cases.” Id. However, in June 2016, the BIA
promulgated the Final Rule to “clarify the minimum Federal standards governing implementation of [ICWA]”
and to ensure that it “is applied in all States consistent
with the Act’s express language, Congress’s intent in enacting the statute, and to promote the stability and security of Indian tribes and families.” 25 C.F.R. § 23.101;
Indian Child Welfare Act Proceedings, 81 Fed. Reg.
38,778, 38,868 (June 14, 2016). The Final Rule explained that while the BIA “initially hoped that binding
regulations would not be necessary to carry out [ICWA],
a third of a century of experience has confirmed the
need for more uniformity in the interpretation and application of this important Federal law.” 81 Fed. Reg.
at 38,782.
The Final Rule provides that states have the responsibility of determining whether a child is an “Indian child”
subject to ICWA’s requirements. 25 C.F.R. §§ 23.10722; 81 Fed. Reg. at 38,778, 38,869-73. The Final Rule
also sets forth notice and recordkeeping requirements
for states, see 25 U.S.C. §§ 23.140-41; 81 Fed. Reg. at

403a
38,778, 38,875-76, and requirements for states and individuals regarding voluntary proceedings and parental
withdrawal of consent, see 25 C.F.R. §§ 23.124-28; 81
Fed. Reg. at 38,778, 38,873-74. The Final Rule also restates ICWA’s placement preferences and clarifies
when they apply and when states may depart from them.
See 25 C.F.R. §§ 23.129-32; 81 Fed. Reg. at 38,778,
38,874-75.
III.

The Instant Action
A.

1.

Parties

Plaintiffs

Plaintiffs in this action are the states of Texas, Louisiana, and Indiana, 1 (collectively, the “State Plaintiffs”), and seven individual Plaintiffs—Chad and Jennifer
Brackeen (the “Brackeens”), Nick and Heather Libretti
(the “Librettis”), Altagracia Socorro Hernandez (“Hernandez”), and Jason and Danielle Clifford (the
“Cliffords”) (collectively, “Individual Plaintiffs”) (together with State Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.
At the time their initial complaint was filed in the district court, the Brackeens sought to adopt A.L.M., who
falls within ICWA’s definition of an “Indian Child.”

There are three federally recognized tribes in Texas: the
Yselta del Sur Pueblo, the Kickapoo Tribe, and the AlabamaCoushatta Tribe. There are four federally recognized tribes in
Louisiana: the Chitimacha Tribe, the Coushatta Tribe, the TunicaBiloxi Tribe, and the Jena Band of Choctaw Indians. There is one
federally recognized tribe in Indiana: the Pokagon Band of Potawatomi Indians.
1

404a
His biological mother is an enrolled member of the Navajo Nation and his biological father is an enrolled member of the Cherokee Nation. When A.L.M. was ten
months old, Texas’s Child Protective Services (“CPS”)
removed him from his paternal grandmother’s custody
and placed him in foster care with the Brackeens. Both
the Navajo Nation and the Cherokee Nation were notified pursuant to ICWA and the Final Rule. A.L.M.
lived with the Brackeens for more than sixteen months
before they sought to adopt him with the support of his
biological parents and paternal grandmother. In May
2017, a Texas court, in voluntary proceedings, terminated the parental rights of A.L.M.’s biological parents,
making him eligible for adoption under Texas law.
Shortly thereafter, the Navajo Nation notified the state
court that it had located a potential alternative placement for A.L.M. with non-relatives in New Mexico,
though this placement ultimately failed to materialize.
In July 2017, the Brackeens filed an original petition for
adoption, and the Cherokee Nation and Navajo Nation
were notified in compliance with ICWA. The Navajo
Nation and the Cherokee Nation reached an agreement
whereby the Navajo Nation was designated as A.L.M.’s
tribe for purposes of ICWA’s application in the state
proceedings. No one intervened in the Texas adoption
proceeding or otherwise formally sought to adopt
A.L.M. The Brackeens entered into a settlement with
the Texas state agency and A.L.M.’s guardian ad litem
specifying that, because no one else sought to adopt
A.L.M., ICWA’s placement preferences did not apply.
In January 2018, the Brackeens successfully petitioned
to adopt A.L.M. The Brackeens initially alleged in
their complaint that they would like to continue to pro-

405a
vide foster care for and possibly adopt additional children in need, but their experience adopting A.L.M.
made them reluctant to provide foster care for other Indian children in the future. Since their complaint was
filed, the Brackeens have sought to adopt A.L.M.’s sister, Y.R.J. in Texas state court.
Y.R.J., like her
brother, is an Indian Child for purposes of ICWA. The
Navajo Nation contests the adoption. On February 2,
2019, the Texas court granted the Brackeens’ motion to
declare ICWA inapplicable as a violation of the Texas
constitution, but “conscientiously refrain[ed]” from ruling on the Brackeens’ claims under the United States
Constitution pending our resolution of the instant
appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby O.
for adoption at her birth, though Hernandez has continued to be a part of Baby O.’s life and she and the Librettis visit each other regularly. Baby O.’s biological father, E.R.G., descends from members of the Ysleta del
sur Pueblo Tribe (the “Pueblo Tribe”), located in El
Paso, Texas, and was a registered member at the time
Baby O. was born. The Pueblo Tribe intervened in the
Nevada custody proceedings seeking to remove Baby O.
from the Librettis. Once the Librettis joined the challenge to the constitutionality of the ICWA and the Final
Rule, the Pueblo Tribe indicated that it was willing settle. The Librettis agreed to a settlement with the tribe
that would permit them to petition for adoption of Baby
O. The Pueblo Tribe agreed not to contest the Librettis’ adoption of Baby O., and on December 19, 2018, the

406a
Nevada state court issued a decree of adoption, declaring that the Librettis were Baby O.’s lawful parents.
Like the Brackeens, the Librettis alleged that they intend to provide foster care for and possibly adopt additional children in need but are reluctant to foster Indian
children after this experience.
c. The Cliffords & Child P.
The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the
White Earth Band for purposes of ICWA’s application
in the Minnesota state court proceedings. Pursuant to
ICWA section 1915’s placement preferences, county officials removed Child P. from the Cliffords’ custody and,
in January 2018, placed her in the care of her maternal
grandmother, whose foster license had been revoked.
Child P.’s guardian ad litem supports the Cliffords’ efforts to adopt her and agrees that the adoption is in
Child P.’s best interest. The Cliffords and Child P. remain separated, and the Cliffords face heightened legal
barriers to adopting her. On January 17, 2019, the
Minnesota court denied the Cliffords’ motion for adoptive placement.
2.

Defendants

Defendants are the United States of America; the
United States Department of the Interior and its Secretary Ryan Zinke, in his official capacity; the BIA and its
Director Bryan Rice, in his official capacity; the BIA
Principal Assistant Secretary for Indian Affairs John
Tahsuda III, in his official capacity; and the Department

407a
of Health and Human Services (“HHS”) and its Secretary Alex M. Azar II, in his official capacity (collectively
the “Federal Defendants”). Shortly after this case was
filed in the district court, the Cherokee Nation, Oneida
Nation, Quinalt Indian Nation, and Morengo Band of
Mission Indians (collectively, the “Tribal Defendants”)
moved to intervene, and the district court granted the
motion. On appeal, we granted the Navajo Nation’s
motion to intervene as a defendant 2 (together with Federal and Tribal Defendants, “Defendants”).
B.

Procedural History

Plaintiffs filed the instant action against the Federal
Defendants in October 2017, alleging that the Final Rule
and certain provisions of ICWA are unconstitutional and
seeking injunctive and declaratory relief. Plaintiffs argued that ICWA and the Final Rule violated equal protection and substantive due process under the Fifth
Amendment and the anticommandeering doctrine that
arises from the Tenth Amendment. Plaintiffs additionally sought a declaration that provisions of ICWA and
the Final Rule violated the nondelegation doctrine and
the Administrative Procedure Act (APA). Defendants
moved to dismiss, alleging that Plaintiffs lacked standing. The district court denied the motion. All parties
The Navajo Nation had previously moved to intervene
twice in the district court. The first motion was for the limited
purpose of seeking dismissal pursuant to Rule 19, which the
district court denied. The Navajo Nation filed a second motion
to intervene for purposes of appeal after the district court’s
summary judgment order. The district court deferred decision on the motion pending further action by this court, at
which time the Navajo Nation filed the motion directly with
this court.
2

408a
filed cross-motions for summary judgment. The district court granted Plaintiffs’ motion for summary judgment in part, concluding that ICWA and the Final Rule
violated equal protection, the Tenth Amendment, and
the nondelegation doctrine, and that the challenged portions of the Final Rule were invalid under the APA. 3
Defendants appealed. A panel of this court subsequently stayed the district court’s judgment pending
further order of this court. In total, fourteen amicus
briefs were filed in this court, including a brief in support of Plaintiffs and affirmance filed by the state of
Ohio; and a brief in support of Defendants and reversal
filed by the states of California, Alaska, Arizona, Colorado, Idaho, Illinois, Iowa, Maine, Massachusetts, Michigan, Minnesota, Mississippi, Montana, New Jersey,
New Mexico, Oregon, Rhode Island, Utah, Virginia,
Washington, and Wisconsin.
STANDARD OF REVIEW

We review a district court’s grant of summary judgment de novo. See Texas v. United States, 497 F.3d
491, 495 (5th Cir. 2007). Summary judgment is appropriate when the movant has demonstrated “that there is
no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” FED.
R. CIV. P. 56(a). A genuine dispute of material fact exists “if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).

The district court denied Plaintiffs’ substantive Due Process claim, from which Plaintiffs do not appeal.
3

409a
DISCUSSION
I.

Article III Standing

Defendants first contend that Plaintiffs lack standing
to challenge ICWA and the Final Rule. The district
court denied Defendants’ motion to dismiss on this basis, concluding that Individual Plaintiffs had standing to
bring an equal protection claim; State Plaintiffs had
standing to challenge provisions of ICWA and the Final
Rule on the grounds that they violated the Tenth
Amendment and the nondelegation doctrine; and all
Plaintiffs had standing to bring an APA claim challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (citing U.S. CONST. art.
III, § 2). “Standing to sue is a doctrine rooted in the
traditional understanding of a case or controversy.”
Id. To meet the Article III standing requirement, plaintiffs must demonstrate “(1) an injury that is (2) fairly
traceable to the defendant’s allegedly unlawful conduct
and that is (3) likely to be redressed by the requested
relief.” Lujan v. Defs. of Wildlife, 504 U.S. 555, 590
(1992) (internal quotations omitted). A plaintiff seeking equitable relief must demonstrate a likelihood of future injury in addition to past harm. See City of Los
Angeles v. Lyons, 461 U.S. 95, 105 (1983). This injury
must be “concrete and particularized” and “actual or imminent, not conjectural or hypothetical.” See Lujan,
504 U.S. at 560 (cleaned up). “[S]tanding is not dispensed in gross,” and “a plaintiff must demonstrate
standing for each claim he seeks to press and for each
form of relief that is sought.” Town of Chester, N.Y. v.
Laroe Estates, Inc., 137 S. Ct. 1645, 1650 (2017) (quoting

410a
Davis v. Fed. Election Comm’n, 554 U.S. 724, 734 (2008)).
“[T]he presence of one party with standing is sufficient
to satisfy Article III’s case-or-controversy requirement.”
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 53 n.2 (2006). “This court reviews
questions of standing de novo.” Nat’l Rifle Ass’n of Am.,
Inc. v. McCraw, 719 F.3d 338, 343 (5th Cir. 2013).
A.

Standing to Bring Equal Protection Claim

Plaintiffs challenged ICWA sections 1915(a)-(b),
1913(d), and 1914 and Final Rule sections 23.129-32 on
equal protection grounds, alleging that these provisions
impose regulatory burdens on non-Indian families seeking to adopt Indian children that are not similarly imposed on Indian families who seek to adopt Indian children. The district court concluded that Individual
Plaintiffs suffered and continued to suffer injuries when
their efforts to adopt Indian children were burdened by
ICWA and the Final Rule; that their injuries were fairly
traceable to ICWA and the Final Rule because these authorities mandated state compliance; and that these injuries were redressable because if ICWA and the Final
Rule were invalidated, then state courts would no longer
be required to follow them. Defendants disagree, arguing that the Individual Plaintiffs cannot demonstrate
an injury in fact or redressability and thus lack standing
to bring an equal protection claim. For the reasons below, we conclude that the Brackeens have standing to
assert an equal protection claim as to ICWA sections
1915(a)-(b) and Final Rule sections 23.129-32, but as discussed below, not as to ICWA sections 1913-14. Accordingly, because one Plaintiff has standing, the “caseor-controversy requirement” is satisfied as to this claim,
and we do not analyze whether any other Individual

411a
Plaintiff has standing to raise it. 4
U.S. at 53 n.2.

See Rumsfeld, 547

The district court concluded that ICWA section
1913(d), which allows a parent to petition the court to
vacate a final decree of adoption on the grounds that
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years. Defendants argue that section
1914, 5 and not section 1913(d), applies to the Brackeens’
state court proceedings and that, in any event, an injury
premised on potential future collateral attack under either provision is too speculative. We need not decide
which provision applies here, as neither the Brackeens
nor any of the Individual Plaintiffs have suffered an injury under either provision. Plaintiffs do not assert
that A.L.M.’s biological parents, the Navajo Nation, or
any other party seeks to invalidate the Brackeens’ adoption of A.L.M. under either provision. Plaintiffs’ proffered injury under section 1913 or section 1914 is therefore too speculative to support standing. See Lujan,
4
State Plaintiffs argue that they have standing to bring an equal
protection challenge in parens patriae on behalf of their citizens.
We disagree. See South Carolina v. Katzenbach, 383 U.S. 301, 324
(1966) (“[A] State [does not] have standing as the parent of its citizens to invoke [the Fifth Amendment Due Process Clause] against
the Federal Government, the ultimate parens patriae of every American citizen.”).
5
“Any Indian child who is the subject of any action for foster care
placement or termination of parental rights under State law, any
parent or Indian custodian from whose custody such child was removed, and the Indian child’s tribe may petition any court of competent jurisdiction to invalidate such action upon a showing that such
action violated any provision of sections 1911, 1912, and 1913 of this
title.” 25 U.S.C. § 1914.

412a
504 U.S. at 560; see also Clapper v. Amnesty Int’l USA,
568 U.S. 398, 409 (2013) (“[T]hreatened injury must be
certainly impending to constitute injury in fact, and []
[a]llegations of possible future injury are not sufficient.”
(cleaned up)). To the extent Plaintiffs argue that an injury arises from their attempts to avoid collateral attack
under section 1914 by complying with sections 1911-13,
“costs incurred to avoid injury are insufficient to create
standing” where the injury is not certainly impending.
See Clapper, 568 U.S. at 417.
The district court also concluded that ICWA section
1915, and sections 23.129-32 of the Final Rule, which
clarify section 1915, gave rise to an injury from an increased regulatory burden. We agree. Prior to the
finalization of the Brackeens’ adoption of A.L.M., the
Navajo Nation notified the state court that it had located
a potential alternative placement for A.L.M. in New
Mexico. Though that alternative placement ultimately
failed to materialize, the regulatory burdens ICWA section 1915 and Final Rule sections 23.129-32 imposed on
the Brackeens in A.L.M.’s adoption proceedings, which
were ongoing at the time the complaint was filed, are
sufficient to demonstrate injury. See Contender Farms,
L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258, 266 (5th Cir.
2015) (“An increased regulatory burden typically satisfies the injury in fact requirement.”); see also Rockwell
Int’l Corp. v. United States, 549 U.S. 457, 473-74 (2007)
(standing is assessed at the time the complaint was
filed); Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 184 (2000) (discussing
Lyons, 461 U.S. at 108, and finding the injury requirement satisfied where the alleged harmful conduct was
occurring when the complaint was filed).

413a
Defendants contend that the Brackeens’ challenge to
section 1915 and sections 23.129-32 is moot. They argue that, because the Brackeens’ adoption of A.L.M. was
finalized in January 2018 and the Navajo Nation will not
seek to challenge the adoption, section 1915’s placement
preferences no longer apply in A.L.M.’s adoption proceedings. Plaintiffs argue that section 1915’s placement preferences impose on them the ongoing injury of
increased regulatory burdens in their proceedings to
adopt A.L.M.’s sister, Y.R.J., which the Navajo Nation
currently opposes in Texas state court.
“A corollary to this case-or-controversy requirement
is that an actual controversy must be extant at all stages
of review, not merely at the time the complaint is filed.”
Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 71
(2013). “[A] case is moot when the issues presented are
no longer live or the parties lack a legally cognizable interest in the outcome.” Powell v. McCormack, 395
U.S. 486, 496 (1969)(internal quotation marks omitted).
However, mootness will not render a case non-justiciable where the dispute is one that is “capable of repetition, yet evading review.” See Murphy v. Hunt, 455
U.S. 478, 482 (1982). “That exception applies where
(1) the challenged action is in its duration too short to be
fully litigated prior to cessation or expiration, and
(2) there is a reasonable expectation that the same complaining party will be subject to the same action again.”
Davis v. Fed. Election Comm’n, 554 U.S. 724, 735 (2008)
(internal citations and quotations omitted). Here, the
Brackeens were unable to fully litigate a challenge to
section 1915 before successfully adopting A.L.M. Additionally, they have demonstrated a reasonable expectation that they will be subject to section 1915’s regulatory burdens in their adoption proceedings involving

414a
A.L.M.’s sister, Y.R.J. Thus, the Brackeens’ challenge
to section 1915 is justiciable on the grounds that it is capable of repetition, yet evading review. See Hunt, 455
U.S. at 482.
Having thus found an injury with respect to ICWA
section 1915 and Final Rule sections 23.129-32, we consider whether causation and redressability are met
here. See Lujan, 504 U.S. at 590. The Brackeens’ alleged injury is fairly traceable to the actions of at least
some of the Federal Defendants, who bear some responsibility for the regulatory burdens imposed by ICWA
and the Final Rule. See Contender Farms, L.L.P., 779
F.3d at 266 (noting that causation “flow[ed] naturally
from” a regulatory injury). Additionally, the Brackeens have demonstrated a likelihood that their injury
will be redressed by a favorable ruling of this court. In
the Brackeens’ ongoing proceedings to adopt Y.R.J., the
Texas court has indicated that it will refrain from ruling
on the Brackeens’ federal constitutional claims pending
a ruling from this court. Accordingly, Plaintiffs have
standing to bring an equal protection claim challenging
ICWA section 1915(a)-(b) and Final Rule sections
23.129-32. See Lujan, 504 U.S. at 590; Rumsfeld, 547
U.S. at 53 n.2.
B.

Standing to Bring Administrative
Procedure Act Claim

Plaintiffs first argue that ICWA does not authorize
the Secretary of the Interior to promulgate binding
rules and regulations, and the Final Rule is therefore
invalid under the APA. The district court ruled that
State Plaintiffs had standing to bring this claim, determining that the Final Rule injured State Plaintiffs by
intruding upon their interests as quasi-sovereigns to

415a
control the domestic affairs within their states. 6 A
state may be entitled to “special solicitude” in our standing analysis if the state is vested by statute with a procedural right to file suit to protect an interest and the
state has suffered an injury to its “quasi-sovereign interests.” Massachusetts v. EPA, 549 U.S. 497, 518-20
(2007) (holding that the Clean Air Act provided Massachusetts a procedural right to challenge the EPA’s rulemaking, and Massachusetts suffered an injury in its capacity as a quasi-sovereign landowner due to rising sea
levels associated with climate change). Applying Massachusetts, this court in Texas v. United States held that
Texas had standing to challenge the Department of
Homeland Security’s implementation and expansion of
the Deferred Action for Childhood Arrivals program
(DACA) under the APA. See 809 F.3d 134, 152 (5th
Cir. 2015). This court reasoned that Texas was entitled
to special solicitude on the grounds that the APA created a procedural right to challenge the DHS’s actions,
and DHS’s actions affected states’ sovereign interest in
creating and enforcing a legal code. See id. at 153 (internal quotations omitted).
Likewise, here, the APA provides State Plaintiffs a
procedural right to challenge the Final Rule. See id.; 5
U.S.C. § 702. Moreover, State Plaintiffs allege that the
Final Rule affects their sovereign interest in controlling
child custody proceedings in state courts. See Texas,

The district court also found an injury based on the Social Security Act’s conditioning of funding on states’ compliance with
ICWA. However, because we find that Plaintiffs have standing
on other grounds, we decline to decide whether they have demonstrated standing based on an alleged injury caused by the SSA.
6

416a
809 F.3d at 153 (recognizing that, pursuant to a sovereign interest in creating and enforcing a legal code,
states may have standing based on, inter alia, federal
preemption of state law). Thus, State Plaintiffs are entitled to special solicitude in our standing inquiry.
With this in mind, we find that the elements of standing
are satisfied. If, as State Plaintiffs alleged, the Secretary promulgated a rule binding on states without the
authority to do so, then State Plaintiffs have suffered a
concrete injury to their sovereign interest in controlling
child custody proceedings that was caused by the Final
Rule. Additionally, though state courts and agencies
are not bound by this court’s precedent, a favorable ruling from this court would remedy the alleged injury to
states by making their compliance with ICWA and the
Final Rule optional rather than compulsory. See Massachusetts, 549 U.S. at 521 (finding redressability where
the requested relief would prompt the agency to “reduce
th[e] risk” of harm to the state).
C.

Standing to Bring Tenth Amendment Claim

For similar reasons, the district court found, and we
agree, that State Plaintiffs have standing to challenge
provisions of ICWA and the Final Rule under the Tenth
Amendment. The imposition of regulatory burdens on
State Plaintiffs is sufficient to demonstrate an injury to
their sovereign interest in creating and enforcing a legal
code to govern child custody proceedings in state courts.
See Texas, 809 F.3d at 153. Additionally, the causation
and redressability requirements are satisfied here, as a
favorable ruling from this court would likely redress
State Plaintiffs’ injury by lifting the mandatory burdens
ICWA and the Final Rule impose on states.
See
Lujan, 504 U.S. at 590.

417a
D.

Standing to Bring Nondelegation Claim

Finally, Plaintiffs contend that ICWA section 1915(c),
which allows a tribe to establish a different order of section 1915(a)’s placement preferences, is an impermissible delegation of legislative power that binds State
Plaintiffs. Defendants argue that State Plaintiffs cannot demonstrate an injury, given the lack of evidence
that a tribe’s reordering of section 1915(a)’s placement
preferences has affected any children in Texas, Indiana,
or Louisiana or that such impact is “certainly impending.” State Plaintiffs respond that tribes can change
ICWA’s placement preferences at any time and that at
least one tribe, the Alabama-Coushatta Tribe of Texas,
has already done so. We conclude that State Plaintiffs
have demonstrated injury and causation with respect to
this claim, as State Plaintiffs’ injury from the AlabamaCoushatta Tribe’s decision to depart from ICWA section
1915’s placement preferences is concrete and particularized and not speculative. See Lujan, 504 U.S. at 560.
Moreover, a favorable ruling from this court would redress State Plaintiffs’ injury by making a state’s compliance with a tribe’s alternative order of preferences under ICWA section 1915(c) optional rather than mandatory. See id.
Accordingly, having found that State Plaintiffs have
standing on the aforementioned claims, we proceed to
the merits of these claims. We note at the outset that
ICWA is entitled to a “presumption of constitutionality,”
so long as Congress enacted the statute “based on one
or more of its powers enumerated in the Constitution.”
See United States v. Morrison, 529 U.S. 598, 607 (2000).
“Due respect for the decisions of a coordinate branch of
Government demands that we invalidate a congressional

418a
enactment only upon a plain showing that Congress has
exceeded its constitutional bounds.” Id. (citing, among
others, United States v. Harris, 106 U.S. 629, 635
(1883)).
II.

Equal Protection

The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any person within its jurisdiction the equal protection of the
laws.” U.S. CONST., amend. 14, § 1. This clause is implicitly incorporated into the Fifth Amendment’s guarantee of due process. See Bolling v. Sharpe, 347 U.S.
497, 499 (1954). We apply the same analysis with respect to equal protection claims under the Fifth and
Fourteenth Amendments. See Richard v. Hinson, 70
F.3d 415, 417 (5th Cir. 1995). In evaluating an equal
protection claim, strict scrutiny applies to laws that rely
on classifications of persons based on race. See id.
But where the classification is political, rational basis review applies. See Morton v. Mancari, 417 U.S. 535, 555
(1974). The district court granted summary judgment
on behalf of Plaintiffs, concluding that section 1903(4)—
setting forth ICWA’s definition of “Indian Child” for
purposes of determining when ICWA applies in state
child custody proceedings—was a race-based classification that could not withstand strict scrutiny. 7 On appeal, the parties disagree as to whether section 1903(4)’s

As described above, we conclude that Plaintiffs have standing
to challenge ICWA section 1915(a)-(b) and Final Rule sections
23.129-32 on equal protection grounds. The district court’s analysis of whether the ICWA classification was political or race-based
focused on ICWA section 1903(4), presumably because section
1903(4) provides a threshold definition of “Indian child” that must
7

419a
definition of “Indian Child” is a political or race-based
classification and which level of scrutiny applies. “We
review the constitutionality of federal statutes de novo.”
Nat’l Rifle Ass’n of Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms, & Explosives, 700 F.3d 185, 192 (5th
Cir. 2012).
A.

Level of Scrutiny

We begin by determining whether ICWA’s definition
of “Indian child” is a race-based or political classification
and, consequently, which level of scrutiny applies. The
district court concluded that ICWA’s “Indian Child”
definition was a race-based classification. We conclude
that this was error. Congress has exercised plenary
power “over the tribal relations of the Indians . . .
from the beginning, and the power has always been
deemed a political one, not subject to be controlled by
the judicial department of the government.” Lone
Wolf v. Hitchcock, 187 U.S. 553, 565 (1903). The Supreme Court’s decisions “leave no doubt that federal
legislation with respect to Indian tribes . . . is not
based upon impermissible racial classifications.” United
States v. Antelope, 430 U.S. 641, 645 (1977). “Literally
every piece of legislation dealing with Indian tribes and
reservations . . . single[s] out for special treatment
a constituency of tribal Indians living on or near reservations.” Mancari, 417 U.S. at 552. “If these laws,

be met for any provision of ICWA to apply in child custody proceedings in state court. Because we are satisfied that our analysis
would produce the same result with respect to section 1903(4) and
the specific provisions Plaintiffs have standing to challenge, we
similarly confine our discussion of whether ICWA presents a political or race-based classification to section 1903(4).

420a
derived from historical relationships and explicitly designed to help only Indians, were deemed invidious racial discrimination, an entire Title of the United States
Code (25 U.S.C.) would be effectively erased and the solemn commitment of the Government toward the Indians
would be jeopardized.” Id.
In Morton v. Mancari, the Supreme Court rejected
a challenge to a law affording to qualified Indian applicants
—those having one-fourth or more degree Indian blood
with membership in a federally recognized tribe 8—a hiring preference over non-Indians within the BIA. Id. at
555. The Court recognized that central to the resolution of the issue was “the unique legal status of Indian
tribes under federal law and upon the plenary power of
Congress . . . to legislate on behalf of federally
recognized Indian tribes.” Id. at 551. It reasoned
that the BIA’s hiring preference was “granted to Indians not as a discrete racial group, but, rather, as members of quasi-sovereign tribal entities whose lives and
activities are governed by the BIA in a unique fashion.”
Id. at 554. The preference was thus a non-racial “employment criterion reasonably designed to further the
cause of Indian self-government and to make the BIA
The United States currently recognizes 573 Tribal entities. See
84 Fed. Reg. 1,200 (Feb. 1, 2019). Federal recognition “is a formal
political act confirming the tribe’s existence as a distinct political society, and institutionalizing the government-to-government relationship between the tribe and the federal government.” See California Valley Miwok Tribe v. United States, 515 F.3d 1262, 1263 (D.C.
Cir. 2008) (quoting COHEN’S HANDBOOK OF FEDERAL INDIAN LAW
§ 3.02[3], at 138 (2005 ed.) (internal quotation marks omitted)). It
“[i]s a prerequisite to the protection, services, and benefits of
the Federal Government available to those that qualify.” 25 C.F.R.
§ 83.2.
8

421a
more responsive to the needs of its constituent groups.
It [was] directed to participation by the governed in the
governing agency.” Id. at 553–54. The disadvantages to non-Indians resulting from the hiring preferences were an intentional and “desirable feature of the
entire program for self-government.” 9 Id. at 544.
The district court construed Mancari narrowly and
distinguished it for two primary reasons: First, the
district court found that the law in Mancari provided
special treatment “only to Indians living on or near reservations.” Second, the district court concluded that
ICWA’s membership eligibility standard for an Indian
child does not rely on actual tribal membership as did
the statute in Mancari. The district court reasoned
Plaintiffs argue that, unlike the law in Mancari, ICWA is not a law
promoting tribal self-governance. However, prior to enacting ICWA,
Congress considered testimony from the Tribal Chief of the Mississippi Band of Choctaw Indians about the devastating impacts of removing Indian children from tribes and placing them for adoption and
foster care in non-Indian homes:
9

Culturally, the chances of Indian survival are significantly reduced if our children, the only real means for the transmission
of the tribal heritage, are to be raised in non-Indian homes and
denied exposure to the ways of their People. Furthermore,
these practices seriously undercut the tribes’ ability to continue as self-governing communities. Probably in no area is
it more important that tribal sovereignty be respected than in
an area as socially and culturally determinative as family relationships.
Holyfield, 490 U.S. at 34. This testimony undoubtedly informed Congress’s finding that children are the most vital resource “to the continued existence and integrity of Indian tribes.” 25 U.S.C. § 1901(3).
Thus, interpreting ICWA as related to tribal self-government and the
survival of tribes makes the most sense in light of Congress’s explicit
intent in enacting the statute. See id.

422a
that, whereas the law in Mancari “applied ‘only to members of ‘federally recognized’ tribes which operated to
exclude many individuals who are racially to be classified as Indians,’ ” ICWA’s definition of “Indian child” extended protection to children who were eligible for
membership in a federally recognized tribe and had a
biological parent who was a member of a tribe. The
district court, citing the tribal membership laws of several tribes, including the Navajo Nation, concluded that
“[t]his means one is an Indian child if the child is related
to a tribal ancestor by blood.”
We disagree with the district court’s reasoning and
conclude that Mancari controls here. As to the district
court’s first distinction, Mancari’s holding does not rise
or fall with the geographical location of the Indians receiving “special treatment.” See Mancari, 417 U.S. at
552. The Supreme Court has long recognized Congress’s broad power to regulate Indians and Indian
tribes on and off the reservation. See e.g., United
States v. McGowan, 302 U.S. 535, 539 (1938) (“Congress
possesses the broad power of legislating for the protection of the Indians wherever they may be within the territory of the United States.”); Perrin v. United States,
232 U.S. 478, 482 (1914) (acknowledging Congress’s
power to regulate Indians “whether upon or off a reservation and whether within or without the limits of a
state”).
Second, the district court concluded that, unlike the
statute in Mancari, ICWA’s definition of Indian child
extends to children who are merely eligible for tribal
membership because of their ancestry. However, ICWA’s
definition of “Indian child” is not based solely on tribal
ancestry or race. ICWA defines an “Indian child” as

423a
“any unmarried person who is under age eighteen and is
either (a) a member of an Indian tribe or (b) is eligible
for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” 25 U.S.C.
§ 1903(4). As Defendants explain, under some tribal
membership laws, eligibility extends to children without
Indian blood, such as the descendants of former slaves
of tribes who became members after they were freed, or
the descendants of adopted white persons. Accordingly, a child may fall under ICWA’s membership eligibility standard because his or her biological parent became a member of a tribe, despite not being racially Indian. Additionally, many racially Indian children, such
as those belonging to non-federally recognized tribes, do
not fall within ICWA’s definition of “Indian child.”
Conditioning a child’s eligibility for membership, in
part, on whether a biological parent is a member of the
tribe is therefore not a proxy for race, as the district
court concluded, but rather for not-yet-formalized tribal
affiliation, particularly where the child is too young to
formally apply for membership in a tribe. 10

The Navajo Nation’s membership code is instructive on these
points, despite the district court’s reliance on it to the contrary.
The Navajo Nation explains that, under its laws, “blood alone is never
determinative of membership.” The Navajo Nation will only grant
an application for membership “if the individual has some tangible
connection to the Tribe,” such as the ability to speak the Navajo language or time spent living among the Navajo people. “Having a biological parent who is an enrolled member is per se evidence of such
a connection.” Additionally, individuals will not be granted membership in the Navajo Nation, regardless of their race or ancestry, if
they are members of another tribe.
10

424a
Our conclusion that ICWA’s definition of Indian child
is a political classification is consistent with both the Supreme Court’s holding in Mancari and this court’s holding in Peyote Way Church of God, Inc. v. Thornburgh,
922 F.2d 1210, 1212 (5th Cir. 1991). In Mancari, the
hiring preference extended to individuals who were onefourth or more degree Indian blood and a member of a
federally recognized tribe. See 417 U.S. at 554. Similarly, in Peyote Way, this court considered whether
equal protection was violated by federal and state laws
prohibiting the possession of peyote by all persons except members of the Native American Church of North
America (NAC), who used peyote for religious purposes.
See 922 F.2d at 1212. Applying Mancari’s reasoning,
this court upheld the preference on the basis that membership in NAC “is limited to Native American members
of federally recognized tribes who have at least 25% Native American ancestry, and therefore represents a political classification.” Id. at 1216. ICWA’s “Indian
child” eligibility provision similarly turns, at least in
part, on whether the child is eligible for membership in
a federally recognized tribe. See California Valley
Miwok Tribe v. United States, 515 F.3d 1262, 1263 (D.C.
Cir. 2008) (federal recognition “is a formal political act”
that “institutionaliz[es] the government-to-government
relationship between the tribe and the federal government.”); 25 U.S.C. § 1903(4).
The district court concluded, and Plaintiffs now argue, that ICWA’s definition “mirrors the impermissible
racial classification in Rice [v. Cayetano, 528 U.S. 495
(2000)], and is legally and factually distinguishable from
the political classification in Mancari.” The Supreme
Court in Rice concluded that a provision of the Hawaiian
Constitution that permitted only “Hawaiian” people to

425a
vote in the statewide election for the trustees of the Office of Hawaiian Affairs (OHA) violated the Fifteenth
Amendment. 528 U.S. at 515. “Hawaiian” was defined by statute as “any descendant of the aboriginal
peoples inhabiting the Hawaiian Islands which exercised sovereignty and subsisted in the Hawaiian Islands
in 1778, and which peoples thereafter have continued to
reside in Hawaii.” Id. The Court noted the state legislature’s express purpose in using ancestry as a proxy
for race and held that “[d]istinctions between citizens
solely because of their ancestry are by their very nature
odious to a free people whose institutions are founded
upon the doctrine of equality.” Id. at 514-17 (citing
Hirabayashi v. United States, 320 U.S. 81, 100 (1943)).
Distinguishing Mancari, the Court noted that its precedent did not afford Hawaiians a protected status like
that of Indian tribes; that the OHA elections were an affair of the state and not of a “separate quasi sovereign”
like a tribe; and that extending “Mancari to this context
would [] permit a State, by racial classification, to fence
out whole classes of its citizens from decisionmaking in
critical state affairs.” Id. at 522.
Rice is distinguishable from the present case for several reasons. Unlike Rice, which involved voter eligibility in a state-wide election for a state agency, there is
no similar concern here that applying Mancari would
permit “by racial classification, [the fencing] out [of ] whole
classes of [a state’s] citizens from decisionmaking in
critical state affairs.” See 528 U.S. at 518-22. Additionally, as discussed above, ICWA’s definition of “Indian child,” unlike the challenged law in Rice, does not
single out children “solely because of their ancestry or
ethnic characteristics.” See id. at 515 (emphasis added).
Further, unlike the law in Rice, ICWA is a federal law

426a
enacted by Congress for the protection of Indian children and tribes. See Rice, 528 U.S. at 518 (noting that
to sustain Hawaii’s restriction under Mancari, it would
have to “accept some beginning premises not yet established in [its] case law,” such as that Congress “has determined that native Hawaiians have a status like that
of Indians in organized tribes”); see also Kahawaiolaa
v. Norton, 386 F.3d 1271, 1279 (9th Cir. 2004) (rejecting
an equal protection challenge brought by Native Hawaiians, who were excluded from the U.S. Department of
the Interior’s regulatory tribal acknowledgement process, and concluding that the recognition of Indian tribes
was political). Additionally, whereas the OHA elections
in Rice were squarely state affairs, state court adoption
proceedings involving Indian children are simultaneously affairs of states, tribes, and Congress. See 25
U.S.C. § 1901(3) (“[T]here is no resource that is more
vital to the continued existence and integrity of Indian
tribes than their children.”). Because we find Rice inapplicable, and Mancari controlling here, we conclude,
contrary to the district court’s determination, that
ICWA’s definition of “Indian child” is a political classification subject to rational basis review. See Mancari,
417 U.S. at 555.
B.

Rational Basis Review

Having so determined that rational basis review applies, we ask whether “the special treatment can be tied
rationally to the fulfillment of Congress’s unique obligation toward the Indians.” Mancari, 417 U.S. at 555.
Given Congress’s explicit findings and stated objectives
in enacting ICWA, we conclude that the special treatment ICWA affords Indian children is rationally tied to
Congress’s fulfillment of its unique obligation toward

427a
Indian nations and its stated purpose of “protect[ing]
the best interests of Indian children and [] promot[ing]
the stability and security of Indian tribes.” See 25
U.S.C. §§ 1901-02; see also Mancari, 417 U.S. at 555.
ICWA section 1903(4)’s definition of an “Indian child” is
a political classification that does not violate equal protection.
III.

Tenth Amendment

The district court concluded that ICWA sections
1901-23 11 and 1951-52 12 violated the anticommandeering doctrine by requiring state courts and executive
agencies to apply federal standards to state-created
claims. The district court also considered whether
ICWA preempts conflicting state law under the Supremacy Clause and concluded that preemption did not
apply because the law “directly regulated states.” Defendants argue that the anticommandeering doctrine
does not prevent Congress from requiring state courts
to enforce substantive and procedural standards and
precepts, and that ICWA sets minimum procedural standards that preempt conflicting state law. We examine
the constitutionality of the challenged provisions of
ICWA below and conclude that they preempt conflicting

11
ICWA sections 1901-03 set forth Congress’s findings, declaration of policy, and definitions. Sections 1911-23 govern child custody proceedings, including tribal court jurisdiction, notice requirements in involuntary and voluntary state proceedings, termination
of parental rights, invalidation of state proceedings, placement preferences, and agreements between states and tribes.
12
Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior to promulgate necessary rules and regulations.

428a
state law and do not violate the anticommandeering doctrine. .
A.

Anticommandeering Doctrine

The Tenth Amendment provides that “[t]he powers
not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the
States respectively, or to the people.” U.S. CONST.
amend. X. Congress’s legislative powers are limited to
those enumerated under the Constitution. Murphy v.
Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1476
(2018). “[C]onspicuously absent from the list of powers given to Congress is the power to issue direct orders
to the governments of the States.” Id. The anticommandeering doctrine, an expression of this limitation on
Congress, prohibits federal laws commanding the executive or legislative branch of a state government to act
or refrain from acting. 13 Id. at 1478 (holding that a federal law prohibiting state authorization of sports gambling violated the anticommandeering rule by “unequivocally dictat[ing] what a state legislature may and may
not do”); Printz v. United States, 521 U.S. 898, 935
(1997) (holding that a federal law requiring state chief
law enforcement officers to conduct background checks
Though Congress is prohibited from commandeering states, it
can “encourage a State to regulate in a particular way, or . . .
hold out incentives to the States as a method of influencing a
State’s policy choices.” New York, 505 U.S. at 166. For example, Congress may also condition the receipt of federal funds under
its spending power. See id. at 167. Defendants also contend that
ICWA is authorized under Congress’s Spending Clause powers because Congress conditioned federal funding in Title IV-B and E of
the Social Security Act on states’ compliance with ICWA. However, because we conclude that ICWA is constitutionally permissible on other bases, we need not reach this argument.
13

429a
on handgun purchasers “conscript[ed] the State’s officers directly” and was invalid); New York v. United States,
505 U.S. 144, 175-76 (1992) (holding that a federal law
impermissibly commandeered states to implement federal legislation when it gave states “[a] choice between
two unconstitutionally coercive” alternatives: to either
dispose of radioactive waste within their boundaries according to Congress’s instructions or “take title” to and
assume liabilities for the waste).
1.

State Courts

Defendants argue that because the Supremacy
Clause requires the enforcement of ICWA and the Final
Rule by state courts, these provisions do not run afoul
of the anticommandeering doctrine. We agree. The
Supremacy Clause provides that “the Laws of the
United States . . . shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.” U.S. CONST.
art. VI, cl. 2. In setting forth the anticommandeering
doctrine, the Supreme Court drew a distinction between
a state’s courts and its political branches. The Court
acknowledged that “[f ]ederal statutes enforceable in
state court do, in a sense, direct state judges to enforce
them, but this sort of federal “direction” of state judges
is mandated by the text of the Supremacy Clause.”
New York, 505 U.S. at 178-79 (internal quotation marks
omitted). Early laws passed by the first Congresses
requiring state court action “establish, at most, that the
Constitution was originally understood to permit imposition of an obligation on state judges to enforce federal
prescriptions, insofar as those prescriptions related to
matters appropriate for the judicial power.” Printz,

430a
521 U.S. at 907. State courts were viewed as distinctive because, “unlike [state] legislatures and executives,
they applied the law of other sovereigns all the time,”
including as mandated by the Supremacy Clause. Id.
Thus, to the extent provisions of ICWA and the Final
Rule require state courts to enforce federal law, the anticommandeering doctrine does not apply. See id. at
928-29 (citing Testa v. Katt, 330 U.S. 386 (1947), “for the
proposition that state courts cannot refuse to apply federal lawa conclusion mandated by the terms of the Supremacy Clause”).
2.

State Agencies

Plaintiffs next challenge several provisions of ICWA
that they contend commandeer state executive agencies,
including sections 1912(a) (imposing notice requirements on “the party seeking the foster care placement
of, or termination of parental rights to, an Indian child”),
1912(d) (requiring that “any party seeking to effect a
foster care placement of, or termination of parental
rights to, an Indian child under State law shall satisfy
the court that active efforts have been made to provide
remedial services and rehabilitative programs designed
to prevent the breakup of the Indian family and that
these efforts have proved unsuccessful.”), 1915(c) (requiring “the agency or court effecting [a] placement” adhere to the order of placement preferences established
by the tribe), and 1915(e) (requiring that “the State” in
which the placement was made keep a record of each
placement, evidencing the efforts to comply with the order of preference, to be made available upon request
of the Secretary or the child’s tribe). See 25 U.S.C.
§§ 1912, 1915. Plaintiffs argue that ICWA’s require-

431a
ments on state agencies go further than the federal regulatory scheme invalidated in Printz and impermissibly
impose costs that states must bear. Defendants contend that the challenged provisions of ICWA apply to
private parties and state agencies alike and therefore do
not violate the anticommandeering doctrine.
In Printz, the Supreme Court affirmed its prior holding that “[t]he Federal Government may not compel the
States to enact or administer a federal regulatory program,” and “Congress cannot circumvent that prohibition by conscripting the State’s officers directly.” 521
U.S. at 925, 935 (quoting New York, 505 U.S. at 188).
The Printz Court, rejecting as irrelevant the Government’s argument that the federal law imposed a minimal
burden on state executive officers, explained that it was
not “evaluating whether the incidental application to the
States of a federal law of general applicability excessively interfered with the functioning of state governments,” but rather a law whose “whole object . . .
[was] to direct the functioning of the state executive.”
Id. at 931-32. Expanding upon this distinction, the
Court in Murphy discussed Reno v. Condon, 528 U.S.
141 (2000), and South Carolina v. Baker, 485 U.S. 505
(1988), and held that “[t]he anticommandeering doctrine
does not apply when Congress evenhandedly regulates
an activity in which both States and private actors engage.” 138 S. Ct. at 1478.
In Condon, the Court upheld a federal regulatory
scheme that restricted the ability of states to disclose a
driver’s personal information without consent. 528
U.S. at 151. In determining that the anticommandeering doctrine did not apply, the Court distinguished the
law from those invalidated in New York and Printz:

432a
[This law] does not require the States in their sovereign capacity to regulate their own citizens. The
[law] regulates the States as the owners of [Department of Motor Vehicle] data bases. It does not require the South Carolina Legislature to enact any
laws or regulations, and it does not require state officials to assist in the enforcement of federal statutes
regulating private individuals.
Id. In Baker, the Court rejected a Tenth Amendment
challenge to a provision of a federal statute that eliminated the federal income tax exemption for interest
earned on certain bonds issued by state and local governments unless the bonds were registered, treating the
provision “as if it directly regulated States by prohibiting outright the issuance of [unregistered] bearer bonds.”
485 U.S. at 507-08, 511. The Court reasoned that the
provision at issue merely “regulat[ed] a state activity”
and did not “seek to control or influence the manner in
which States regulate private parties.” Id. at 514.
“That a State wishing to engage in certain activity must
take administrative and sometimes legislative action to
comply with federal standards regulating that activity is
a commonplace that presents no constitutional defect.”
Id. at 514-15. “[S]ubstantial effort[s]” to comply with
federal regulations are “an inevitable consequence of
regulating a state activity.” Id. at 514.
In light of these cases, we conclude that the provisions of ICWA that Plaintiffs challenge do not commandeer state agencies. Sections 1912(a) and (d) impose
notice and “active efforts” requirements on the “party”
seeking the foster care placement of, or termination of
parental rights to, an Indian child. Because both state
agencies and private parties who engage in state child

433a
custody proceedings may fall under these provisions,
1912(a) and (d) “evenhandedly regulate[] an activity in
which both States and private actors engage.” 14 See
Murphy, 138 S. Ct. at 1478. Moreover, sections 1915(c)
and (e) impose an obligation on “the agency or court effecting the placement” of an Indian child to respect a
tribe’s order of placement preferences and require that
“the State” maintain a record of each placement to be
made available to the Secretary or child’s tribe. These
provisions regulate state activity and do not require
states to enact any laws or regulations, or to assist in the
enforcement of federal statutes regulating private individuals. See Condon, 528 U.S. at 151; Baker, 485 U.S.
at 514; see also Printz, 521 U.S. at 918 (distinguishing
statutes that merely require states to provide information to the federal government from those that command state executive agencies to actually administer

Similarly, section 1912(e) provides that no foster care placement may be ordered in involuntary proceedings in state court absent “a determination, supported by clear and convincing evidence,
including testimony of qualified expert witnesses, that the continued custody of the child by the parent or Indian custodian is likely
to result in serious emotional or physical damage to the child.”
See 25 U.S.C. § 1912(e). Section 1912(f ) requires that no termination of parental rights may be ordered in involuntary proceedings
in state court absent evidence beyond a reasonable doubt of the
same. See id. at 1912(f ). Neither section expressly refers to
state agencies and, in conjunction with section 1912(d), both sections must be reasonably read to refer to “any party” seeking the
foster care placement of, or the termination of parental rights to,
an Indian child. Thus, like section 1912(d), sections 1912(e)-(f )
“evenhandedly regulate[] an activity in which both States and private actors engage” and do not run afoul of the anticommandeering
doctrine. See Murphy, 138 S. Ct. at 1478; see also Condon, 528
U.S. at 151.
14

434a
federal programs). To the contrary, they merely require states to “take administrative . . . action to
comply with federal standards regulating” child custody
proceedings involving Indian children, which is permissible under the Tenth Amendment. 15 See Baker, 485
U.S. at 514-15.

In ruling otherwise, the district court discussed Murphy and
emphasized that adhering to the anticommandeering rule is necessary to protect constitutional principles of state sovereignty, promote political accountability, and prevent Congress from shifting
the costs of regulation to states. See Murphy, 138 S. Ct. at 1477.
These principles do not compel the result reached by the district
court. See id. First, the anticommandeering doctrine is not necessary here to protect constitutional principles of state sovereignty
because ICWA regulates the actions of state executive agencies in
their role as child advocates and custodians, and not in their capacity as sovereigns enforcing ICWA. See id. at 1478; see also Condon, 528 U.S. at 151 (concluding that the law in question there
“does not require the States in their sovereign capacity to regulate
their own citizens [but] regulates the States as the owners of data
bases”). The need to promote political accountability is minimized
here for similar reasons, as ICWA does not require states to regulate their own citizens. See Murphy, 138 S. Ct. at 1477 (noting
concern that, if states are required to impose a federal regulation
on their voters, the voters will not know who to credit or blame and
responsibility will be “blurred”). Finally, the need to prevent
Congress from shifting the costs of regulation to states is also minimized here, where some of the requirements at issue, like those in
sections 1912(d) and 1915(c), simply regulate a state’s actions during proceedings that it would already be expending resources on.
ICWA’s recordkeeping and notice requirements could impose costs
on states, but we cannot conclude that these costs compel application of the anticommandeering doctrine. See Condon, 528 U.S. at
150 (a federal law that “require[d] time and effort on the part of
state employees” was constitutional); Baker, 485 U.S. at 515 (that
states may have to raise funds necessary to comply with federal
regulations “presents no constitutional defect”).
15

435a
B.

Preemption

Defendants argue that, to the extent there is a conflict between ICWA and applicable state laws in child
custody proceedings, ICWA preempts state law. The
Supremacy Clause provides that federal law is the “supreme Law of the Land . . . any Thing in the Constitution or Laws of any State to the Contrary notwithstanding.” U.S. CONST. art. VI, cl. 2. Conflict preemption occurs when “Congress enacts a law that imposes restrictions or confers rights on private actors; a
state law confers rights or imposes restrictions that conflict with the federal law; and therefore the federal law
takes precedence and the state law is preempted.”
Murphy, 138 S. Ct. at 1480. For a federal law to preempt
conflicting state law, two requirements must be satisfied: The challenged provision of the federal law “must
represent the exercise of a power conferred on Congress
by the Constitution” and “must be best read as one that
regulates private actors” by imposing restrictions or
conferring rights. Id. at 1479-80. The district court
concluded that preemption does not apply here, as
ICWA regulates states rather than private actors. We
review de novo whether a federal law preempts a state
statute or common law cause of action. See Friberg v.
Kansas City S. Ry. Co., 267 F.3d 439, 442 (5th Cir. 2001).
Congress enacted ICWA to “establish[] minimum
Federal standards for the removal of Indian children
from their families and the placement of such children
in foster or adoptive homes which will reflect the unique
values of Indian culture.” 25 U.S.C. § 1902. Defendants contend that these minimum federal standards
preempt conflicting state laws. Plaintiffs contend that

436a
preemption does not apply here because ICWA regulates states and not individuals, and nothing in the Constitution gives Congress authority to regulate the adoption of Indian children under state jurisdiction.
ICWA specifies that Congress’s authority to regulate
the adoption of Indian children arises under the Indian
Commerce Clause as well as “other constitutional authority.” 25 U.S.C. § 1901(1). The Indian Commerce
Clause provides that “[t]he Congress shall have Power
To . . . regulate Commerce . . . with the Indian
Tribes.” U.S. CONST. art. I, § 8, cl. 3. The Supreme
Court has repeatedly held that the Indian Commerce
Clause grants Congress plenary power over Indian affairs. See Lara, 541 U.S. at 200 (noting that the Indian
Commerce and Treaty Clauses are sources of Congress’s “plenary and exclusive” “powers to legislate in
respect to Indian tribes”); Ramah Navajo Sch. Bd., Inc.
v. Bureau of Revenue of New Mexico, 458 U.S. 832, 837
(1982) (discussing Congress’s “broad power . . . to
regulate tribal affairs under the Indian Commerce
Clause”); Mancari, 417 U.S. at 551-52 (noting that “[t]he
plenary power of Congress to deal with the special problems of Indians is drawn both explicitly and implicitly
from,” inter alia, the Indian Commerce Clause). Plaintiffs do not provide authority to support a departure
from that principle here.
Moreover, ICWA clearly regulates private individuals. See Murphy, 138 S. Ct. at 1479-80. In enacting
the statute, Congress declared that it was the dual policy of the United States to protect the best interests of
Indian children and promote the stability and security
of Indian families and tribes. 25 U.S.C. § 1902. Each
of the challenged provisions applies within the context

437a
of state court proceedings involving Indian children and
is informed by and designed to promote Congress’s
goals by conferring rights upon Indian children and
families. 16 See H.R. REP. NO. 95-1386, at 18 (1978)
(“We conclude that rights arising under [ICWA] may be
enforced, as of right, in the courts of the States when
their jurisdiction, as prescribed by local law, is adequate
to the occasion.” (quoting Second Employers’ Liability
Cases, 223 U.S. 1, 59 (1912))). Thus, to the extent
ICWA’s minimum federal standards conflict with state
law, “federal law takes precedence and the state law is
preempted.” See Murphy, 138 S. Ct. at 1480.
IV.

Nondelegation Doctrine

Article I of the Constitution vests “[a]ll legislative
Powers” in Congress. U.S. CONST. art. 1, § 1, cl. 1. “In a
delegation challenge, the constitutional question is
whether the statute has delegated legislative power to
the agency.” Whitman v. Am. Trucking Ass’ns, 531
Arguably, two of the challenged provisions of ICWA could be
construed to simultaneously “confer[] rights” on Indian children and
families while “imposing restrictions” on state agencies. See Murphy, 138 S. Ct. at 1479-80. Section 1915(c) requires “the agency or
court effecting [a] placement” to adhere to a tribe’s established order of placement preferences, and section 1915(e) requires states to
keep records and make them available to the Secretary and Indian
tribes. 25 U.S.C. § 1915(c), (e). However, Murphy instructs that
for a provision of a federal statute to preempt state law, the provision
must be “best read as one that regulates private actors.” See 138
S. Ct. at 1479 (emphasis added). In light of Congress’s express purpose in enacting ICWA, the legislative history of the statute, and
section 1915’s scope in setting forth minimum standards for the
“Placement of Indian children,” we conclude that these provisions
are “best read” as regulating private actors by conferring rights on
Indian children and families. See id.
16

438a
U.S. 457, 472 (2001). The limitations on Congress’s
ability to delegate its legislative power are “less stringent in cases where the entity exercising the delegated
authority itself possesses independent authority over
the subject matter.” See United States v. Mazurie, 419
U.S. 544, 556-57 (1975). ICWA section 1915(c) allows
Indian tribes to establish through tribal resolution a different order of preferred placement than that set forth
in sections 1915(a) and (b). 17 Section 23.130 of the Final Rule provides that a tribe’s established placement
preferences apply over those specified in ICWA. 18 The
district court determined that these provisions violated
the nondelegation doctrine, reasoning that section
1915(c) grants Indian tribes the power to change legislative preferences with binding effect on the states, and
Indian tribes, like private entities, are not part of the
federal government of the United States and cannot exercise federal legislative or executive regulatory power
over non-Indians on non-tribal lands.
Defendants argue that the district court’s analysis of
the constitutionality of these provisions ignores the inherent sovereign authority of tribes. They contend
that section 1915 merely recognizes and incorporates a
tribe’s exercise of its inherent sovereignty over Indian
17
The section provides: “In the case of a placement under subsection (a) or (b) of this section, if the Indian child’s tribe shall establish a different order of preference by resolution, the agency or
court effecting the placement shall follow such order so long as the
placement is the least restrictive setting appropriate to the particular needs of the child, as provided in subsection (b) of this section.”
25 U.S.C. § 1915(c).
18
“If the Indian child’s Tribe has established by resolution a different order of preference than that specified in ICWA, the Tribe’s
placement preferences apply.” 25 C.F.R. § 23.130.

439a
children and therefore does not—indeed cannot—
delegate this existing authority to Indian tribes.
The Supreme Court has long recognized that Congress may incorporate the laws of another sovereign
into federal law without violating the nondelegation doctrine. See Mazurie, 419 U.S. at 557 (“[I]ndependent
tribal authority is quite sufficient to protect Congress’
decision to vest in tribal councils this portion of its own
authority ‘to regulate Commerce . . . with the Indian tribes.’ ”); United States v. Sharpnack, 355 U.S.
286, 293-94 (1958) (holding that a statute that prospectively incorporated state criminal laws “in force at the
time” of the alleged crime was a “deliberate continuing
adoption by Congress” of state law as binding federal
law in federal enclaves within state boundaries); Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1, 80 (1824) (“Although
Congress cannot enable a State to legislate, Congress
may adopt the provisions of a State on any subject.”).
“Indian tribes are unique aggregations possessing attributes of sovereignty over both their members and
their territory.” Mazurie, 419 U.S. at 557. Though
some exercises of tribal power require “express congressional delegation,” the “tribes retain their inherent
power to determine tribal membership [and] to regulate
domestic relations among members . . . .” See Montana v. United States, 450 U.S. 544, 564 (1981); see also
Merrion v. Jicarilla Apache Tribe, 455 U.S. 130, 170
(1982) (“tribes retain the power to create substantive
law governing internal tribal affairs” like tribal citizenship and child custody).
In Mazurie, a federal law allowed the tribal council
of the Wind River Tribes, with the approval of the Secretary of the Interior, to adopt ordinances to control the

440a
introduction of alcoholic beverages by non-Indians on
privately owned land within the boundaries of the reservation. See 419 U.S. at 547, 557. The Supreme Court
held that the law did not violate the nondelegation doctrine, focusing on the Tribes’ inherent power to regulate
their internal and social relations by controlling the distribution and use of intoxicants within the reservation’s
bounds. Id. Mazurie is instructive here. ICWA
section 1915(c) provides that a tribe may pass, by its own
legislative authority, a resolution reordering the three
placement preferences set forth by Congress in section
1915(a). Pursuant to this section, a tribe may assess
whether the most appropriate placement for an Indian
child is with members of the child’s extended family, the
child’s tribe, or other Indian families, and thereby exercise its “inherent power to determine tribal membership
[and] regulate domestic relations among members” and
Indian children eligible for membership. See Montana, 450 U.S. at 564.
State Plaintiffs contend that Mazurie is distinguishable because it involves the exercise of tribal authority
on tribal lands, whereas ICWA permits the extension of
tribal authority over states and persons on non-tribal
lands. We find this argument unpersuasive. It is well
established that tribes have “sovereignty over both their
members and their territory.” See Mazurie, 419 U.S.
at 557 (emphasis added). For a tribe to exercise its authority to determine tribal membership and to regulate
domestic relations among its members, it must neces-

441a
sarily be able to regulate all Indian children, irrespective of their location. 19 See Montana, 450 U.S. at 564
(tribes retain inherent power to regulate domestic relations and determine tribal membership); Merrion, 455
U.S. at 170 (tribes retain power to govern tribal citizenship and child custody). Section 1915(c), by recognizing the inherent powers of tribal sovereigns to determine by resolution the order of placement preferences
applicable to an Indian child, is thus a “deliberate continuing adoption by Congress” of tribal law as binding
federal law. See Sharpnack, 355 U.S. at 293-94; see
also 25 U.S.C. § 1915(c); 81 Fed. Reg. at 38,784 (the BIA
noting that “through numerous statutory provisions,
ICWA helps ensure that State courts incorporate Indian
social and cultural standards into decision-making that
affects Indian children”). We therefore conclude that
ICWA section 1915(c) is not an unconstitutional delegation of Congressional legislative power to tribes, but is
an incorporation of inherent tribal authority by Congress. See Mazurie, 419 U.S. at 544; Sharpnack, 355
U.S. at 293-94.
V.

The Final Rule

The district court held that, to the extent sections
23.106-22, 23.124-32, and 23.140-41 of the Final Rule
were binding on State Plaintiffs, they violated the APA
for three reasons: The provisions (1) purported to implement an unconstitutional statute; (2) exceeded the
scope of the Interior Department’s statutory regulatory
authority to enforce ICWA with binding regulations;
and (3) reflected an impermissible construction of
Indeed, as the BIA noted in promulgating the Final Rule, at
least 78% of Native Americans lived outside of Indian country as of
2016. See 81 Fed. Reg. at 38,778, 38,783.
19

442a
ICWA section 1915.
in turn.
A.

We examine each of these bases

The Constitutionality of ICWA

Because we concluded that the challenged provisions
of ICWA are constitutional, for reasons discussed earlier in this opinion, the district court’s first conclusion
that the Final Rule was invalid because it implemented
an unconstitutional statue was erroneous. Thus, the
statutory basis of the Final Rule is constitutionally valid.
B.

The Scope of the BIA’s Authority

Congress authorized the Secretary of the Interior to
promulgate rules and regulations that may be necessary
to carry out the provisions of ICWA. See 25 U.S.C.
§ 1952. Pursuant to this provision, the BIA, acting under authority delegated by the Interior Department, issued guidelines in 1979 for state courts in Indian child
custody proceedings that were “not intended to have
binding legislative effect.” 44 Fed. Reg. at 67,584.
The BIA explained that, generally, “when the Department writes rules needed to carry out responsibilities
Congress has explicitly imposed on the Department,
those rules are binding.” Id. However, when “the Department writes rules or guidelines advising some other
agency how it should carry out responsibilities explicitly
assigned to it by Congress, those rules or guidelines are
not, by themselves, binding.” Id. With respect to
ICWA, the BIA concluded in 1979 that it was “not necessary” to issue binding regulations advising states how
to carry out the responsibilities Congress assigned to
them; state courts were “fully capable” of implementing
the responsibilities Congress imposed on them, and
nothing in the language or legislative history of 25

443a
U.S.C. § 1952 indicated that Congress intended the BIA
to exercise supervisory control over states. Id. However, in 2016, the BIA changed course and issued the Final Rule, which sets binding standards for state courts
in Indian child-custody proceedings. See 25 C.F.R.
§§ 23.101, 23.106; 81 Fed. Reg. at 38,779, 38,785. The
BIA explained that its earlier, nonbinding guidelines
were “insufficient to fully implement Congress’s goal of
nationwide protections for Indian children, parents, and
Tribes.” 81 Fed. Reg. at 38,782. Without the Final
Rule, the BIA stated, state-specific determinations
about how to implement ICWA would continue “with potentially devastating consequences” for those Congress
intended ICWA to protect. See id.
In reviewing “an agency’s construction of the statute
which it administers,” we are “confronted with two questions.” Chevron, U.S.A., Inc. v. Nat. Res. Def. Council,
Inc., 467 U.S. 837, 842-43 (1984). First, we must examine whether the statute is ambiguous. Id. at 842. “If
the intent of Congress is clear, that is the end of the matter; for the court, as well as the agency, must give effect
to the unambiguously expressed intent of Congress.”
Id. But “if the statute is silent or ambiguous with respect to the specific issue, the question for the court is
whether the agency’s answer is based on a permissible
construction of the statute.” Id. at 842-43. We must
uphold an agency’s reasonable interpretation of an ambiguous statute. Id. at 844.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the Department authority to promulgate binding rules and regulations. ICWA provides that “the Secretary shall promulgate such rules and regulations as may be necessary

444a
to carry out the provisions of this chapter.” 25 U.S.C.
§ 1952. The provision’s plain language confers broad
authority on the Department to promulgate rules and
regulations it deems necessary to carry out ICWA.
This language can be construed to grant the authority
to issue binding rules and regulations; however, because
“Congress has not directly addressed the precise question at issue,” we conclude that section 1952 is ambiguous. See Chevron, 467 U.S. at 843.
Moving to the second Chevron step, we must determine whether the BIA’s current interpretation of its authority to issue binding regulations pursuant to section
1952 is reasonable. See 467 U.S. at 843-44. Defendants argue that section 1952’s language is substantively
identical to other statutes conferring broad delegations
of rulemaking authority. Indeed, the Supreme Court
has held that “[w]here the empowering provision of a
statute states simply that the agency may make . . .
such rules and regulations as may be necessary to carry
out the provisions of this Act . . . the validity of a
regulation promulgated thereunder will be sustained so
long as it is reasonably related to the purposes of the
enabling legislation.” Mourning v. Family Publications Serv., Inc., 411 U.S. 356, 369 (1973) (internal quotation marks omitted); see also City of Arlington, Tex.
v. F.C.C., 569 U.S. 290, 306 (2013) (noting a lack of
“case[s] in which a general conferral of rulemaking or
adjudicative authority has been held insufficient to support Chevron deference for an exercise of that authority
within the agency’s substantive field”). Here, section
1952’s text is substantially similar to the language in
Mourning, and the Final Rule’s binding standards for
Indian child custody proceedings are reasonably related
to ICWA’s purpose of establishing minimum federal

445a
standards in child custody proceedings involving Indian
children. See 25 U.S.C. § 1902. Thus, the Final Rule
is a reasonable exercise of the broad authority granted
to the BIA by Congress in ICWA section 1952.
Plaintiffs contend that the BIA reversed its position
on the scope of its authority to issue binding regulations
after thirty-seven years and without explanation and its
interpretation was therefore not entitled to deference.
We disagree. “The mere fact that an agency interpretation contradicts a prior agency position is not fatal.
Sudden and unexplained change, or change that does not
take account of legitimate reliance on prior interpretation, may be arbitrary, capricious [or] an abuse of discretion. But if these pitfalls are avoided, change is not
invalidating, since the whole point of Chevron is to leave
the discretion provided by the ambiguities of a statute
with the implementing agency.” Smiley v. Citibank
(S. Dakota), N.A., 517 U.S. 735, 742 (1996) (internal citations and quotation marks omitted). The agency
must provide “reasoned explanation” for its new policy,
though “it need not demonstrate to a court’s satisfaction
that the reasons for the new policy are better than the
reasons for the old one.” F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502, 515 (2009). “[I]t suffices that
the new policy is permissible under the statute, that
there are good reasons for it, and that the agency believes it to be better, which the conscious change of
course adequately indicates.” Id.
The BIA directly addressed its reasons for departing
from its earlier interpretation that it had no authority to
promulgate binding regulations, explaining that, under
Supreme Court precedent, the text of section 1952 con-

446a
ferred “a broad and general grant of rulemaking authority.” 81 Fed. Reg. at 38,785 (collecting Supreme Court
cases). The BIA further discussed why it now considered binding regulations necessary to implement
ICWA: In 1979, the BIA “had neither the benefit of
the Holyfield Court’s carefully reasoned decision nor
the opportunity to observe how a lack of uniformity in
the interpretation of ICWA by State courts could undermine the statute’s underlying purposes.” 81 Fed. Reg.
at 38,787 (citing Holyfield, 490 U.S. at 30).
In Holyfield, the Supreme Court considered the
meaning of the term “domicile,” which ICWA section
1911 left undefined and the BIA left open to state interpretation under its 1979 Guidelines. 490 U.S. at 43, 51.
The Court held that “it is most improbable that Congress would have intended to leave the scope of the statute’s key jurisdictional provision subject to definition by
state courts as a matter of state law,” given that “Congress was concerned with the rights of Indian families
vis-à-vis state authorities” and considered “States and
their courts as partly responsible for the problem it intended to correct” through ICWA. Id. at 45. Because
Congress intended for ICWA to address a nationwide
problem, the Court determined that the lack of nationwide uniformity resulting from varied state-law definitions of this term frustrated Congress’s intent. Id.
The Holyfield Court’s reasoning applies here. Congress’s concern with safeguarding the rights of Indian
families and communities was not limited to section 1911
and extended to all provisions of ICWA, including those
at issue here. Thus, as the BIA explained, all provisions of ICWA that it left open to state interpretation in
1979, including many that Plaintiffs now challenge, were
subject to the lack of uniformity the Supreme Court

447a
identified in Holyfield and determined was contrary to
Congress’s intent. 81 Fed. Reg. at 38,782. Thus, in
light of Holyfield, the BIA has provided a “reasoned explanation” for departing from its earlier interpretation
of its authority under section 1952 and for the need of
binding regulations with respect to ICWA. See Fox
Television Stations, 556 U.S. at 515.
In addition to assessing whether an agency’s interpretation of a statute is reasonable under Chevron, the
APA requires that we “hold unlawful and set aside agency
action . . . found to be . . . arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance
with law.” 5 U.S.C. § 706(2)(A). Contrary to Plaintiffs’ contentions, the BIA explained that the Final Rule
resulted from years of study and public outreach and
participation. See 81 Fed. Reg. 38,778, 38,784-85. In
promulgating the rule, the BIA relied on its own expertise in Indian affairs, its experience in administering
ICWA and other Indian child-welfare programs, state
interpretations and best practices, 20 public hearings,
and tribal consultations. See id. Thus, the BIA’s current interpretation is not “arbitrary, capricious, [or] an
abuse of discretion” because it was not sudden and
unexplained. See Smiley, 517 U.S. at 742; 5 U.S.C.
§ 706(a)(2). The district court’s contrary conclusion
was error.

Since ICWA’s enactment in 1978, several states have incorporated the statute’s requirements into their own laws or have enacted detailed procedures for their state agencies to collaborate
with tribes in child custody proceedings.
20

448a
C.

The BIA’s Construction of ICWA Section 1915

ICWA section 1915 sets forth three preferences for
the placement of Indian children unless good cause can
be shown to depart from them. 25 U.S.C. § 1915(a)-(b).
The 1979 Guidelines initially advised that the term
“good cause” in ICWA section 1915 “was designed to
provide state courts with flexibility in determining the
disposition of a placement proceeding involving an Indian child.” 44 Fed. Reg. 67,584. However, section
23.132(b) of the Final Rule specifies that “[t]he party
seeking departure from [section 1915’s] placement preferences should bear the burden of proving by clear and
convincing evidence that there is ‘good cause’ to depart
from the placement preferences.” 25 C.F.R. § 23.132(b).
The district court determined that Congress unambiguously intended the ordinary preponderance-of-theevidence standard to apply, and the BIA’s interpretation that a higher standard applied was therefore not
entitled to Chevron deference.
Defendants contend that the Final Rule’s clear-andconvincing standard is merely suggestive and not binding. They further aver that the Final Rule’s clarification of the meaning of “good cause” and imposition of a
clear-and-convincing-evidence standard are entitled to
Chevron deference.
Plaintiffs respond that state
courts have interpreted the clear-and-convincing standard as more than just suggestive in practice, and the Final Rule’s fixed definition of “good cause” is contrary to
ICWA’s intent to provide state courts with flexibility.
Though provisions of the Final Rule are generally
binding on states, the BIA indicated that it did not intend for section 23.132(b) to establish a binding stand-

449a
ard. See 25 C.F.R. § 23.132 (“The party seeking departure from the placement preferences should bear the
burden of proving by clear and convincing evidence that
there is ‘good cause’ to depart from the placement preferences.” (emphasis added)). The BIA explained that
“[w]hile the final rule advises that the application of the
clear and convincing standard ‘should’ be followed, it
does not categorically require that outcome . . . [and]
the Department declines to establish a uniform standard
of proof on this issue.” See 81 Fed. Reg. at 38,843.
The BIA’s interpretation of section 1915 is also entitled to Chevron deference. For purposes of Chevron
step one, the statute is silent with respect to which evidentiary standard applies. See 25 U.S.C. § 1915; Chevron, 467 U.S. at 842. The district court relied on the
canon of expressio unius est exclusio alterius (“the expression of one is the exclusion of others”) in finding that
Congress unambiguously intended that a preponderanceof-the-evidence standard was necessary to show good
cause under ICWA section 1915. The court reasoned
that because Congress specified a heightened evidentiary standard in other provisions of ICWA, but did not
do so with respect to section 1915, Congress did not intend for the heightened clear-and-convincing-evidence
standard to apply. This was error. “When interpreting statutes that govern agency action, . . . a congressional mandate in one section and silence in another
often suggests not a prohibition but simply a decision
not to mandate any solution in the second context, i.e.,
to leave the question to agency discretion.” Catawba
Cty., N.C. v. E.P.A., 571 F.3d 20, 36 (D.C. Cir. 2009).
“[T]hat Congress spoke in one place but remained silent
in another . . . rarely if ever suffices for the direct
answer that Chevron step one requires.” Id. (cleaned

450a
up); see also Texas Rural Legal Aid, Inc. v. Legal Servs.
Corp., 940 F.2d 685, 694 (D.C. Cir. 1991) (“Under Chevron, we normally withhold deference from an agency’s
interpretation of a statute only when Congress has directly spoken to the precise question at issue, and the
expressio canon is simply too thin a reed to support the
conclusion that Congress has clearly resolved this issue.”) (internal citations and quotation marks omitted).
Under Chevron step two, the BIA’s current interpretation of the applicable evidentiary standard is reasonable. See Chevron, 467 U.S. at 844. The BIA’s suggestion that the clear-and-convincing standard should apply was derived from the best practices of state courts.
81 Fed. Reg. at, 38,843. The Final Rule explains that,
since ICWA’s passage, “courts that have grappled with
the issue have almost universally concluded that application of the clear and convincing evidence standard is
required as it is most consistent with Congress’s intent
in ICWA to maintain Indian families and Tribes intact.”
Id. Because the BIA’s current interpretation of section
1915, as set forth in Final Rule section 23.132(b), was
based on its analysis of state cases and geared toward
furthering Congress’s intent, it is reasonable and entitled to Chevron deference. Moreover, the BIA’s current interpretation is nonbinding and therefore consistent with the 1979 Guidelines in allowing state courts
flexibility to determine “good cause.” Section 23.132(b)
of the Final Rule is thus valid under the APA. See
5 U.S.C. § 706(a)(2).
* * *

451a
For these reasons, we conclude that Plaintiffs had
standing to bring all claims and that ICWA and the Final Rule are constitutional because they are based on a
political classification that is rationally related to the
fulfillment of Congress’s unique obligation toward Indians; ICWA preempts conflicting state laws and does not
violate the Tenth Amendment anticommandeering doctrine; and ICWA and the Final Rule do not violate the
nondelegation doctrine. We also conclude that the Final Rule implementing the ICWA is valid because the
ICWA is constitutional, the BIA did not exceed its authority when it issued the Final Rule, and the agency’s
interpretation of ICWA section 1915 is reasonable.
Accordingly, we AFFIRM the district court’s judgment
that Plaintiffs had Article III standing.
But we
REVERSE the district court’s grant of summary judgment for Plaintiffs and RENDER judgment in favor of
Defendants on all claims.

452a
PRISCILLA R. OWEN, Circuit Judge, concurring in part
and dissenting in part:
I agree with much of the majority opinion. But I
conclude that certain provisions of the Indian Child Welfare Act (ICWA) 1 and related regulations violate the
United States Constitution because they direct state officers or agents to administer federal law. I therefore
dissent, in part.
The offending statutes include part of 25 U.S.C.
§ 1912(d) (requiring a State seeking to effect foster care
placement of an Indian child to “satisfy the court that
active efforts have been made to provide remedial services and rehabilitative programs designed to prevent
the breakup of the Indian family and these efforts have
proved unsuccessful”), § 1912(e) (prohibiting foster care
placement unless a State presents evidence from “qualified expert witnesses . . . that the continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage
to the child”), and § 1915(e) (requiring that “[a] record
of each such placement, under State law, of an Indian
child shall be maintained by the State in which the placement was made, evidencing the efforts to comply with
the order of preference specified in this section” and
that “[s]uch record[s] shall be made available at any
time upon the request of the Secretary or the Indian
child’s tribe”). Regulations requiring States to maintain related records also violate the Constitution. 2

1
2

25 U.S.C. §§ 1901 et seq.
See 25 C.F.R. § 23.141:

453a
The Supreme Court has made clear that Congress
cannot commandeer a State or its officers or agencies:
“[T]he Federal Government may not compel the States
to implement, by legislation or executive action, federal
regulatory programs.” 3 “The anticommandeering doctrine may sound arcane, but it is simply the expression
of a fundamental structural decision incorporated into
the Constitution, i.e., the decision to withhold from Congress the power to issue orders directly to the States.” 4
“The legislative powers granted to Congress are sizable,
but they are not unlimited. The Constitution confers on
Congress not plenary legislative power but only certain
enumerated powers. Therefore, all other legislative
power is reserved for the States, as the Tenth Amendment confirms.” 5 The Supreme Court has recognized
that “conspicuously absent from the list of powers given
(a) The State must maintain a record of every voluntary or involuntary foster-care, preadoptive, and adoptive placement of an Indian child and make the record available within 14 days of a request
by an Indian child’s Tribe or the Secretary.
(b) The record must contain, at a minimum, the petition or complaint, all substantive orders entered in the child-custody proceeding, the complete record of the placement determination (including,
but not limited to, the findings in the court record and the social
worker’s statement), and, if the placement departs from the placement preferences, detailed documentation of the efforts to comply
with the placement preferences.
(c) A State agency or agencies may be designated to be the repository for this information. The State court or agency should notify the BIA whether these records are maintained within the court
system or by a State agency.
3
Printz v. United States, 521 U.S. 898, 925 (1997).
4
Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1475
(2018).
5
Id. at 1476.

454a
to Congress is the power to issue direct orders to the
governments of the States. The anticommandeering
doctrine simply represents the recognition of this limit
on congressional authority.” 6
The defendants in the present case contend that the
Indian Commerce Clause 7 empowers Congress to direct the States as it has done in the ICWA. They are
mistaken. “Where a federal interest is sufficiently
strong to cause Congress to legislate, it must do so directly; it may not conscript state governments as its
agents.” 8
The panel’s majority opinion concludes that the
ICWA does “not commandeer state agencies” 9 because
it “evenhandedly regulate[s] an activity in which both
States and private actors engage.” 10 This is incorrect
with respect to the part of 25 U.S.C. § 1912(d) addressed
to foster care placement, § 1912(e), § 1915(e), and
25 C.F.R. § 23.141.
Though § 1912(d) nominally applies to “[a]ny party
seeking to effect a foster care placement of . . . an
Indian child under State law,” 11 as a practical matter, it
applies only to state officers or agents. Foster care
Id.
U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have Power
. . . To regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.”).
8
Murphy, 138 S. Ct. at 1477 (quoting New York v. United States,
505 U.S. 144, 178 (1992)).
9
Brackeen v. Bernhardt, __ F.3d __, __, 2019 WL 3759491, at *14
(5th Cir. 2019).
10
Id. (quoting Murphy, 138 S. Ct. at 1478).
11
25 U.S.C. § 1912(d).
6
7

455a
placement is not undertaken by private individuals or
private actors. That is a responsibility that falls upon
state officers or agencies. Those officers or agencies
are required by § 1912(d) to “satisfy the court that active
efforts have been made to provide remedial services and
rehabilitative programs designed to prevent the breakup of the Indian family and that these efforts have proved
unsuccessful.” 12 That directive means that a State cannot place an Indian child in foster care, regardless of the
exigencies of the circumstances, unless it first provides
the federally specified services and programs without
success. Theoretically, a State could decline to protect
Indian children in need of foster care. It could, theoretically, allow Indian children to remain in abusive or
even potentially lethal circumstances. But that is not a
realistic choice, even if state law did not apply across the
board and include all children, regardless of their Indian
heritage.
Certain of the ICWA’s provisions are a transparent
attempt to foist onto the States the obligation to execute
a federal program and to bear the attendant costs.
Though the requirements in § 1912(d) are not as direct
as those at issue in Printz v. United States, 13 the federal
imperatives improperly commandeer state officers or
agents:
It is an essential attribute of the States’ retained sovereignty that they remain independent and autonomous within their proper sphere of authority. See
Texas v. White, 7 Wall. [700,] 725 [(1868)]. It is no

12
13

Id.
521 U.S. 898 (1997).

456a
more compatible with this independence and autonomy that their officers be “dragooned” (as Judge
Fernandez put it in his dissent below, [Mack v.
United States], 66 F.3d[ 1025,] 1035 [(9th Cir. 1995)])
into administering federal law, than it would be compatible with the independence and autonomy of the
United States that its officers be impressed into service for the execution of state laws. 14
Similarly, § 1912(e) provides that “[n]o foster care
placement may be ordered” unless there is “qualified expert witness[]” testimony “that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.” 15 This places the burden on a State, not a court,
to present expert witness testimony in order to effectuate foster care for Indian children. If the federal government has concluded that such testimony is necessary
in every case involving an Indian child’s foster care
placement, then the federal government should provide
it. It cannot require the States to do so.
The requirements in 25 U.S.C. § 1912(d) apply to termination of parental rights, not just foster care placement. 16 The laws of Indiana, Louisiana, and Texas
each permit certain individuals to petition for the termination of parental rights in some circumstances, 17 and §
1912(d) applies to all parties seeking termination, not
Id. at 928.
25 U.S.C. § 1912(e).
16
Id. § 1912(d).
17
See, e.g., IND. CODE §§ 31-35-2-4, 31-35-3.5-3 (2018); IND. CODE
§ 31-35-3-4 (2013); LA. CHILD. CODE ANN. art. 1122 (2019);
TEX. FAM. CODE ANN. § 102.005 (WEST 2019); TEX. FAM. CODE ANN.
§ 161.005 (West Supp. 2019).
14
15

457a
just state actors. 18 At least superficially, § 1912(d) appears to be an evenhanded regulation of an activity in
which both States and private actors engage. 19 But it
is far from clear based on the present record that §
1912(d) applies in a meaningful way to private actors and
if so, how many private actors, as compared to state actors, have actually met its requirements. Additionally,
it appears that the State plaintiffs contend that “the incidental application to the States of a federal law of general applicability excessively interfered with the functioning of state governments.” 20 I would remand for
further factual development. It may be that in the vast
majority of involuntary parental termination proceedings, the party seeking the termination is a state official
or agency. It also seems highly unlikely that individuals or private actors seeking termination of parental
rights (if and when permitted to do so under a State’s
laws) will have been in a position “to provide remedial
services and rehabilitative programs designed to prevent the breakup of the Indian family.” 21 It seems
much more likely that these requirements fall, de facto,
on the shoulders of state actors and agencies.
The records-keeping requirements in 25 U.S.C.
§ 1915(e) and 25 C.F.R. § 23.141 are direct orders to the

25 U.S.C. § 1912(d).
See Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1478 (2018) (“The anticommandeering doctrine does not apply
when Congress evenhandedly regulates an activity in which both
States and private actors engage.”).
20
Printz v. United States, 521 U.S. 898, 932 (1997).
21
25 U.S.C. § 1912(d).
18
19

458a
States. 22 They do not apply to private parties in parental termination or foster care placement proceedings.
They do not apply “evenhandedly [to] an activity in
which both States and private actors engage.” 23
The Supreme Court expressly left open in Printz
whether federal laws “which require only the provision
of information to the Federal Government” are an unconstitutional commandeering of a State or its officers
or agents. 24 But the principles set forth in Printz lead
to the conclusion that Congress is without authority to
order the States to provide the information required by
§ 1915(e) and related regulations. Even were the burden on the States of creating, maintaining, and supplying the required information “minimal and only temporary,” the Supreme Court has reasoned that “where
. . . it is the whole object of the law to direct the functioning of the state executive, and hence to compromise
the structural framework of dual sovereignty, such a
‘balancing’ analysis is inappropriate.” 25 The Supreme
Court stressed, “It is the very principle of separate
state sovereignty that such a law offends, and no comparative assessment of the various interests can overcome that fundamental defect.” 26
Id. at § 1915(e) (“A record of each such placement, under State
law, of an Indian child shall be maintained by the State in which the
placement was made . . . .”); 25 C.F.R. § 23.141 (“The State must
maintain a record of every voluntary or involuntary foster-care,
preadoptive, and adoptive placement of an Indian child . . . .”).
23
Brackeen v. Bernhardt, __ F.3d __, __, 2019 WL 3759491, at
*14 (5th Cir. 2019) (quoting Murphy, 138 S. Ct. at 1478).
24
521 U.S. at 918.
25
Id. at 932.
26
Id.
22

459a
The panel’s majority opinion concludes that the requirements of 25 U.S.C. § 1915(e) and 25 C.F.R. § 23.141
do not commandeer state officers or agents because
they “regulate state activity and do not require states to
enact any laws or regulations, or to assist in the enforcement of federal statutes regulating private individuals.” 27 But the statute orders States to maintain records of each placement of an Indian child and requires
those records to “evidenc[e] the efforts to comply with
the order of preference specified in this section.” 28
That directs States to assist in the enforcement of the
ICWA by requiring States to document efforts to comply with the ICWA’s preferences. The panel’s majority opinion also cites three Supreme Court decisions,
none of which supports its holding regarding the creation and maintenance of records. 29 The statute at issue
in Condon prohibited States from disclosing or selling
personal information they obtained from drivers in the
course of licensing drivers and vehicles, unless the
driver consented to the disclosure or sale of that information. 30 The Court’s decision in Condon focused on
that prohibition rather than the statute’s additional requirement that certain information be disclosed to carry
out the purposes of federal statutes including the Clean
Air Act and the Anti Car Theft Act of 1992. 31 The Baker

Brackeen, __ F.3d at __, 2019 WL 3759491, at *14.
25 U.S.C. § 1915(e).
29
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14 (citing Reno
v. Condon, 528 U.S. 141, 151 (2000); Printz, 521 U.S. at 918; South
Carolina v. Baker, 485 U.S. 505, 514 (1988)).
30
Condon, 528 U.S. at 143-44 (citing the Driver’s Privacy Protection Act of 1994, 18 U.S.C. §§ 2721-2725).
31
Id. at 145, 148-51.
27
28

460a
decision did not concern a requirement that States create and maintain records. 32 The federal statute at issue in Baker allowed a tax exemption for registered, but
not bearer, bonds, and the statute “cover[ed] not only
state bonds but also bonds issued by the United States
and private corporations.” 33 As already discussed
above, the Printz decision expressly left open the question of whether federal statutes requiring States to provide information was constitutional, 34 but the rationale
of Printz compels the conclusion that some of the
ICWA’s commandments result in a commandeering of
state officers and agents.
I agree with the panel’s majority opinion that in some
respects, the ICWA “merely require[s] states to ‘take
administrative . . . action to comply with federal
standards regulating’ child custody proceedings involving Indian children, which is permissible under the
Tenth Amendment.” 35 Unlike the congressional enactment at issue in Murphy, the ICWA does “confer . . .
federal rights on private actors interested in” 36 foster
care placement, the termination of parental rights to an
Indian child, and adoption of Indian children. States cannot override or ignore those private actors’ federal rights
by failing to give notice to interested or affected parties
or by failing to follow the placement preferences ex-

See Baker, 485 U.S. at 508-10.
Id. at 510.
34
Printz, 521 U.S. at 918.
35
Brackeen, __ F.3d at
, 2019 WL 3759491, at *14 (quoting Baker,
485 U.S. at 515).
36
Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1467
(2018)
32
33

461a
pressed in the ICWA. If a State desires to place an Indian child with an individual or individuals other than
the child’s birth parents, the State must respect the federal rights of those upon whom the ICWA confers an interest in the placement of the Indian child or Indian children more generally. But 25 U.S.C. § 1912(d) (to
the extent it concerns foster care placement), § 1912(e),
§ 1915(e), and 25 C.F.R. § 23.141, require more than the
accommodation of private actors’ federal rights regarding the placement of Indian children. Those statutes
and regulations commandeer state officers or agents by
requiring them “to provide remedial services and rehabilitative programs designed to prevent the breakup of
the Indian family” and to demonstrate that such “efforts
have proved unsuccessful”; 37 to present “qualified expert witnesses” to demonstrate “that the continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage
to the child”; 38 and to create and maintain records of
every placement of an Indian child as well as records
“evidencing the efforts to comply with the order of preference specified in this section.” 39
That these statutes and regulations “serve[] very important purposes” and that they are “most efficiently
administered” at the state level is of no moment in a
commandeering analysis. 40 As JUSTICE O-CONNOR,
writing for the Court in New York v. United States, so
eloquently expressed, “the Constitution protects us
from our own best intentions: It divides power among
37
38
39
40

25 U.S.C. § 1912(d).
Id. § 1912(e).
Id. § 1915(e).
Printz v. United States, 521 U.S. 898, 931-32 (1997).

462a
sovereigns and among branches of government precisely so that we may resist the temptation to concentrate power in one location as an expedient solution to
the crisis of the day.” 41

41

505 U.S. 144, 187 (1992).

463a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

Civil Action No. 4:17-cv-00868-O
CHAD BRACKEEN, ET AL., PLAINTIFFS
v.
RYAN ZINKE, ET AL., DEFENDANTS
CHEROKEE NATION, ET AL., INTERVENORS-DEFENDANTS
Filed:

Oct. 4, 2018

FINAL JUDGMENT

The Court issued its order partially granting Plaintiffs’ Motions for Summary Judgment. It is therefore
ORDERED, ADJUDGED, and DECREED that Plaintiffs’
Motions for Summary Judgment (ECF Nos. 72, 79) are
GRANTED in part and DENIED in part, and this case is
DISMISSED with prejudice. The Court DECLARES
that 25 U.S.C. §§ 1901-23, 25 U.S.C. §§ 1951-52,
25 C.F.R. §§ 23.106-22, 25 C.F.R. §§ 23.124-32, and
25 C.F.R. §§ 23.140-41 are UNCONSTITUTIONAL.
SO ORDERED on this 4th day of Oct., 2018

/s/ REED O’CONNOR
REED O’CONNOR
United States District Judge

464a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

Civil Action No. 4:17-cv-00868-O
CHAD BRACKEEN, ET AL., PLAINTIFFS
v.
RYAN ZINKE, ET AL., DEFENDANTS
CHEROKEE NATION, ET AL., INTERVENORS-DEFENDANTS
Filed:

Oct. 4, 2018
ORDER

This case arises because three children, in need of
foster and adoptive placement, fortunately found loving
adoptive parents who seek to provide for them. Because of certain provisions of a federal law, however,
these three children have been threatened with removal
from, in some cases, the only family they know, to be
placed in another state with strangers. Indeed, their
removals are opposed by the children’s guardians or biological parent(s), and in one instance a child was removed and placed in the custody of a relative who had
previously been declared unfit to serve as a foster parent. As a result, Plaintiffs seek to declare that federal
law, known as the Indian Child Welfare Act (the
“ICWA”), unconstitutional.

465a
In this case, the State Plaintiffs have filed a Motion
for Summary Judgment (ECF No. 72), on April 26, 2018,
and the Individual Plaintiffs filed a Motion for Summary
Judgment (ECF No. 79), on the same day. Plaintiffs
seek judgment as a matter of law on all of their claims.
The parties appeared at a hearing on these motions and
presented oral arguments on August 1, 2018. See Hr’g
Tr., ECF No. 163. For the following reasons, the
Court finds Plaintiffs’ motions for summary judgment
should be and are hereby GRANTED in part and
DENIED in part.
I.

BACKGROUND

First, the Court identifies the parties, next the legal
backdrop of this dispute, and then the parties’ claims,
drawing in large part on those facts set out in the Order
denying Defendants’ motions to dismiss. See July 24,
2018 Order, ECF No. 155. Following these sections,
this order will analyze the claims.
Plaintiffs are comprised of three states—Texas, Louisiana, and Indiana, (collectively, the “State Plaintiffs”),
and seven individual Plaintiffs—Chad Everett and Jennifer Kay Brackeen (the “Brackeens”), Nick and Heather
Libretti (the “Librettis”), Altagracia Socorro Hernandez (“Ms. Hernandez”), and Jason and Danielle Clifford
(the “Cliffords”) (collectively, the “Individual Plaintiffs”) (together with the State Plaintiffs, “Plaintiffs”).
State Pls.’ Br. Supp. Mot. Summ. J. 1-2, ECF No. 74 [hereinafter “State Pls.’ Br.”]. Defendants are the United
States of America; the United States Department of the
Interior (the “Interior”) and its Secretary Ryan Zinke
(“Zinke”) in his official capacity; the Bureau of Indian
Affairs (the “BIA”) and its Director Bryan Rice (“Rice”)

466a
in his official capacity; the BIA Principal Assistant Secretary for Indian Affairs John Tahsuda III (“Tahsuda”) 1
in his official capacity; the Department of Health and
Human Services (“HHS”) and its Secretary Alex M.
Azar II (“Azar”) (collectively the “Federal Defendants”). Id. Shortly after this case was filed, the Cherokee Nation, Oneida Nation, Quinalt Indian Nation, and
Morengo Band of Mission Indians (collectively, the
“Tribal Defendants”) filed an unopposed motion to intervene, which the Court granted. See Trib. Defs.’
Mot. Intervene, ECF No. 42; Mar. 28, 2018 Order, ECF
No. 45.
Plaintiffs seek to declare unconstitutional certain
provisions of the ICWA and its accompanying regulations (codified at 25 C.F.R. part 23), known as the Indian
Child Welfare Act Proceedings (the “Final Rule”), as
well as certain provisions of the Social Security Act (the
“SSA”) that predicate federal funding for portions of
state child-welfare payments on compliance with the
ICWA. Plaintiffs argue that the ICWA and the Final
Rule implement a system that mandates racial and ethnic preferences, in direct violation of state and federal
law. Am. Comp. ¶ 193, ECF No. 35; 42 U.S.C. § 1996(b);
TEX. FAM. CODE §§ 162.015, 264.1085; LA. CONST. art. 1,
Initially Plaintiffs sued Michael Black in his official capacity
as Acting Assistant Secretary of Indian Affairs. See Orig. Compl.
¶ 17, ECF No. 1. On September 13, 2017, Secretary of the Interior
Ryan Zinke appointed Tahsuda as the Department of Interior’s
Principal Assistant Secretary of Indian Affairs. See Press Release,
Secretary Zinke Names John Tahsuda III the Principal Deputy Assistant Secretary for Indian Affairs, DEP’T OF THE INT., (Sept. 13,
2017), https://www.doi.gov/pressreleases/secretary-zinke-names-johntahsuda-iii-principal-deputy-assistant-secretary-indian. Accordingly,
Tahsuda has been substituted as a Defendant.
1

467a
§ 3. Plaintiffs ask that the Final Rule be declared invalid and set aside as a violation of substantive due process and as not in accordance with law (Counts One and
Five). Am. Compl. ¶¶ 265, 349, ECF No. 35; 5 U.S.C.
§ 705(2)(A). Plaintiffs also ask that the ICWA, specifically sections 1901-23 and 1951-52, be declared unconstitutional under Article One and the Tenth Amendment
of the United States Constitution because these provisions violate the Commerce Clause, intrude into state
domestic relations, and violate the anti-commandeering
principle (Counts Two and Three). Am. Compl. ¶¶ 281,
323, ECF No. 35. Finally, Plaintiffs ask that the ICWA
sections 1915(a)-(b) be declared unconstitutional in violation of the equal protection guarantee of the Fifth
Amendment to the United States Constitution and Individual Plaintiffs alone ask the same sections be declared
unconstitutional in violation of substantive due process.
(Counts Four and Six). Id. ¶¶ 338, 367. State Plaintiffs alone bring the final count, seeking a declaration
that ICWA section 1915(c) and Final Rule section
23.130(b) violate the non-delegation doctrine (Count
Seven). Am. Compl. ¶ 376, ECF No. 35.
A.

The ICWA and the SSA

Congress passed the ICWA in 1978 in response to rising concerns over “abusive child welfare practices that
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption
or foster care placement, usually in non-Indian homes.”
Miss. Band of Choctaw Indians v. Holyfield, 490 U.S.
30, 32 (1989). “Congress found that ‘an alarmingly high
percentage of Indian families [were being] broken up by
the removal, often unwarranted, of their children from
them by nontribal public and private agencies.’ ”

468a
Adoptive Couple v. Baby Girl, 133 S. Ct. 2552, 2557
(2013) (quoting 25 U.S.C. § 1901(4)). Recognizing “that
there is no resource that is more vital to the continued
existence and integrity of Indian tribes than their children,” Congress created a framework to govern
the adoption of Indian children. 2 See 25 U.S.C. § 1901,
et seq. This framework establishes: (1) placement
preferences in adoptions of Indian children; (2) good
cause to depart from those placement preferences;
(3) standards and responsibilities for state courts and
their agents; and (4) consequences flowing from noncompliance with the statutory requirements. See id.
The ICWA established “minimum Federal standards
for the removal of Indian children from their families
and the placement of such children in foster or adoptive
homes.” 25 U.S.C. § 1902. The ICWA mandates placement preferences in foster care, preadoptive, and adoptive proceedings involving Indian children. Id. § 1915.
It requires that “in any adoptive placement of an Indian
child under State law, a preference shall be given, in the
absence of good cause to the contrary, to a place with:
(1) a member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian
families.” Id. § 1915(a). Similar requirements are set
for foster care or preadoptive placements. Id. § 1915(b).

See also Br. of Amicus Curiae 123 Federally Recognized Indian Tribes, et al. in Opposition to Plaintiffs’ Motions for Summary
Judgment 1, ECF No. 138. (“Congress enacted the Indian Child
Welfares Act of 1978 (“ICWA” or “the Act”), 25 U.S.C. 1901 et seq.,
in response to a nationwide crisis—namely, the widespread and
wholesale displacement of Indian children from their families by
state child welfare agencies at rates far higher than those of nonIndian families.”).
2

469a
If the Indian child’s tribal court should establish a different order of the preferences than that set by Congress, the state court or agency “shall follow such order
so long as the placement is the least restrictive setting
appropriate to the particular needs of the child.” Id.
§ 1915(c).
Absent good cause, the state court shall transfer proceedings concerning an Indian child to the Indian child’s
tribal court. 25 U.S.C. § 1911(b). In any state court
proceeding for the “foster care placement of, or termination of parental rights to, an Indian child, the Indian
custodian of the child and the Indian child’s tribe shall
have a right to intervene at any point in the proceeding.”
Id. § 1911(c). The ICWA prohibits the termination of
parental rights for an Indian child in the absence of “evidence beyond a reasonable doubt, including testimony
of qualified expert witnesses, that continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.” Id. § 1912(f ).
State agencies and courts must notify potential intervenors and the Director of the BIA of an Indian child
matter. 25 U.S.C. § 1912. In any involuntary child
custody proceeding, the ICWA commands state agencies and courts—when seeking foster care placement of
or termination of parental rights to an Indian child—to
notify the parents or Indian custodian and the Indian
child’s tribe of the pending proceedings and of their
right to intervene. 25 U.S.C. § 1912(a). Copies of these
notices must be sent to the Secretary of the Interior and
the BIA. No foster care placement or termination of
parental rights proceeding may be held until at least ten

470a
days after receipt of such a notice by the parent or Indian custodian and tribe or the Secretary of the Interior.
Id. The ICWA also grants the Indian custodian or tribe
up to twenty additional days to prepare for such proceedings. Id.
The ICWA dictates that an Indian parent or guardian
may not give valid consent to termination of parental
rights before ten days after the birth of the Indian child.
25 U.S.C. § 1913(a). Before parental rights are terminated “any parent or Indian custodian may withdraw
consent to a foster care placement under State law at
any time.” Id. § 1913(b). In any voluntary proceeding for termination of parental rights or adoptive placement of an Indian child, the biological parents or the Indian tribe may withdraw consent for any reason prior to
the entry of a final decree, and the child shall be returned. Id. § 1913(c). Finally, the ICWA permits the
parent of an Indian child to withdraw consent to a final
decree of adoption on the grounds that the consent was
obtained through fraud or duress for up to two years after the final decree. Id. § 1913(d); Ind. Pls.’ Br. Supp.
Mot. Summ. J. 20, ECF No. 80 [hereinafter “Ind. Pls.’
Br.”].
The ICWA places recordkeeping duties on state
agencies and courts, to demonstrate their compliance
with the statute. 25 U.S.C. § 1915(e). Additionally,
state courts entering final decrees must provide the Secretary of the Interior with a copy of the decree or order,
along with the name and tribal affiliation of the child,
names of the biological parents, names of the adoptive
parents, and the identity of any agency having files or
information relating to the adoption. Id. § 1951.

471a
If the state court or prospective guardian fails to
comply with the ICWA, the final child custody orders or
placements may be overturned, whether on direct appeal or by another court of competent jurisdiction. 25
U.S.C. § 1914. 3 To ensure state agencies and courts
comply with the ICWA’s mandates, it enables any Indian child who is the subject of any action under the
ICWA, any parent or Indian custodian from whose custody the child was removed, and the Indian child’s tribe,
to petition any court of competent jurisdiction to invalidate a state court’s decision for failure to comply with
the ICWA sections 1911, 1912, and 1913. Id. Section
1914 has also been applied to allow collateral attacks of
adoptions after the close of the relevant window under
state law. See id.; Ind. Pls.’ Br. 6, ECF No. 80; see e.g.,
Belinda K. v. Baldovinos, No. 10-cv-2507-LHK, 2012
WL 13571, at *4 (N.D. Cal. Jan. 4, 2012).
Congress has also tied child welfare funding to compliance with the ICWA. The SSA requires states who
receive child welfare funding through Title IV-B, Part 1
of the SSA to file annual reports, including a description
of their compliance with the ICWA. Social Security
Amendments Act of 1994, Pub. L. No. 103-432, § 204, 108
Stat. 4398 (1994); 42 U.S.C. § 622(a). Title IV-B funding is partially contingent on how well the states demonstrate their compliance with the ICWA. Part ‘b’ re-

While a “court of competent jurisdiction” is not defined in the
ICWA or the Final Rule, state appellate courts and federal district
courts have heard challenges to adoption proceedings under the
ICWA. See e.g., Oglala Sioux Tribe v. Van Hunnik, 993 F. Supp.
2d 1017, 1022 (D.S.D. 2014); Doe v. Mann, 285 F. Supp. 2d 1229,
1231 (N.D. Cal. 2003).
3

472a
quires that a state’s plan must also “contain a description, developed after consultation with tribal organizations . . . in the State, of the specific measures
taken by the State to comply with the [ICWA].” 42
U.S.C. § 622(b).
Congress expanded the requirement for states to
comply with the ICWA to receive SSA funding in 1999
and 2008 when it amended Title IV-E to require states
to certify ICWA compliance to receive foster care and
adoption services funding. Foster Care Independence
Act of 1999, Pub. L. No. 106-69, § 101, 113 Stat. 1822
(1999); Fostering Connections to Success and Increasing Adoptions Act of 2008, Pub. L. No. 110-351, § 301,
122 Stat. 3949 (2008). Finally, HHS regulations state
that the HHS Administration for Children and Families
(“ACF”) “will determine a title IV-E agency’s substantial conformity with title IV-B and title IV-E plan requirements” based on “criteria related to outcomes.”
45 C.F.R. § 1355.34(a). Part ‘b’ of the same section includes compliance with the ICWA. Id. § 1355.34(b).
In fiscal year 2018, Congress allocated to Texas approximately $410 million in federal funding for Title IVB and Title IV-E programs, Louisiana received approximately $64 million, and Indiana received approximately
$189 million. Am. Compl. ¶¶ 76-78, ECF No. 35. Plaintiffs argue that HHS and Secretary Azar have the authority to administer funding under Title IV-B and Title
IV-E and are vested with discretion to approve or deny
a state’s compliance with the requirements of 42 U.S.C.
§§ 622, 677. Therefore, Plaintiffs claim that funding
under Title IV-B and IV-E is dependent on compliance
with the ICWA. Am. Compl. ¶ 80, ECF No. 35.

473a
B.

The 1979 Guidelines and Final Rule

In 1979, before passage of the Final Rule, the BIA
promulgated the Guidelines for State Courts—the Indian Child Custody Proceedings (the “1979 Guidelines”).
44 Fed. Reg. 67,584 (Nov. 26, 1979). The BIA intended
these guidelines to assist in the implementation of the
ICWA but they were “not intended to have binding legislative effect.” Id. The 1979 Guidelines left the “primary responsibility” for interpreting the ICWA “with
the courts that decide Indian child custody cases.” Id.
The 1979 Guidelines also emphasized that “the legislative history of the [ICWA] states explicitly that the use
of the term ‘good cause’ was designed to provide state
courts with flexibility in determining the disposition of a
placement proceeding involving an Indian child.” Id.
As state courts applied the ICWA, some held that the
‘good cause’ exception to the ICWA placement preferences required a consideration of a child’s best interest,
including any bond or attachment the child formed.
Ind. Pls.’ Br. 7, ECF No. 80; see e.g., In re Interest of
Bird Head, 331 N.W.2d 785, 791 (Neb. 1983); In re Appeal in Maricopa Cnty., Juvenile Action No. A-25525,
667 P.2d 228, 234 (Ariz. Ct. App. 1983). Other state
courts limited the ICWA’s application to situations
where the child had some significant political or cultural
connection to the tribe. Ind. Pls.’ Br. 7, ECF No. 80;
see e.g., In re Interest of S.A.M, 703 S.W.2d 603, 608-09
(Mo. Ct. App. 1986); Claymore v. Serr, 405 N.W.2d 650,
653-54 (S.D. 1987); In re Adoption of T.R.M., 525 N.E.2d
298, 303 (Ind. 1988); Hampton v. J.A.L., 658 So. 2d 331,
335 (La. Ct. App. 1995).

474a
In June 2016, the BIA promulgated the Final Rule,
which purported to “clarify the minimum Federal standards governing implementation of the [ICWA]” and to
ensure that it “is applied in all States consistent with the
Act’s express language.” 25 C.F.R. § 23.101. The
regulations declared that while the BIA “initially hoped
that binding regulations would not be necessary to carry
out [the ICWA], a third of a century of experience has
confirmed the need for more uniformity in the interpretation and application of this important Federal law.”
81 Fed. Reg. 38,782 (June 14, 2016).
Plaintiffs contend the main departure from the previous decades of practice under the ICWA was the Final
Rule’s definition of the ‘good cause’ exception to the
preference placements and the evidentiary standard required to show good cause. Am. Compl. ¶ 116, ECF
No. 35; Ind. Pls.’ Br. 60-63, ECF No. 80. The Final
Rule noted that “State courts . . . differ as to what
constitutes ‘good cause’ for departing from ICWA’s
placement preferences.” 81 Fed. Reg. at 38,782. In
response, the Final Rule mandates that “[t]he party
urging that ICWA preferences not be followed bears the
burden of proving by clear and convincing evidence the
existence of good cause” to deviate from such a placement. 81 Fed. Reg. at 38,838; see also 25 C.F.R.
§ 23.132(b). The Final Rule further provides that state
courts “may not consider factors such as the participation of the parents or Indian child in Tribal cultural, social, religious, or political activities, the relationship between the Indian child and his or her parents, whether
the parent ever had custody of the child, or the Indian
child’s blood quantum.” 81 Fed. Reg. at 38,868 (codified at 25 C.F.R. § 23.103(c)).

475a
Plaintiffs contrast the text of the 1979 Guidelines
where “the use of the term ‘good cause’ was designed to
provide state courts with flexibility” with the Final Rule,
which now claims that “Congress intended the good
cause exception to be narrow and limited in scope.”
Compare 44 Fed. Reg. at 67,584 (Nov. 26, 1979), with 81
Fed. Reg. at 38,839 (June 14, 2016). Accordingly, the
Final Rule sets forth “five factors upon which courts
may base a determination of good cause to deviate from
the placement preferences,” and further “makes clear
that a court may not depart from the preferences based
on the socioeconomic status of any placement relative to
another placement or based on the ordinary bonding or
attachment that results from time spent in a nonpreferred placement that was made in violation of ICWA.”
81 Fed. Reg. at 38,839; see also 25 C.F.R. § 23.132(c)-(e);
Ind. Pls.’ Br. 7-9, ECF No. 80.
Beyond limiting what state courts may consider in
determining “good cause,” the Final Rule places more
responsibilities on states to determine if the child is an
Indian child. 25 C.F.R. § 23.107(a). These inquiries
“should be on the record,” and “state courts must instruct the parties to inform the court if they subsequently receive information that provides reason to
know the child is an Indian child.” Id.; 25 C.F.R.
§ 23.107(b). Whenever a state court enters a final adoption decree or an order in an Indian child placement, the
Final Rule requires the state court or agency to provide
a copy of the decree or order to the BIA. 25 C.F.R.
§ 23.140. The Final Rule also requires states to “maintain a record of every voluntary or involuntary foster
care, preadoptive, and adoptive placement of an Indian
child and make the record available within 14 days of a

476a
request by an Indian child’s Tribe or the Secretary [of
the Interior].” 25 C.F.R. § 23.141.
In an involuntary foster care or termination of parental rights proceeding, the Final Rule requires state
courts to ensure and document that the state agency has
used “active efforts” to prevent the breakup of the Indian family. 25 C.F.R. § 23.120. The Final Rule defines “active efforts” to include “assisting the parent or
parents or Indian custodian through the steps of a case
plan and with accessing or developing the resources necessary to satisfy the case plan.” 25 C.F.R. § 23.2.
When determining if the child is an Indian child, only
the Indian tribe of which the child is believed to be a
member may determine whether the child is a member
of the tribe or eligible for membership. 25 C.F.R.
§ 23.108(a). “The State court may not substitute its
own determination regarding a child’s membership in a
Tribe, a child’s eligibility for membership in a Tribe, or
a parent’s membership in a Tribe.” Id. § 23.108(b).
When an Indian child is a member or eligible for
membership in only one tribe, that tribe must be designated by the state court as the Indian child’s tribe. But
when the child meets the definition of “Indian child” for
more than one tribe, then the Final Rule instructs state
agencies and courts to defer to “the Tribe in which the
Indian child is already a member, unless otherwise
agreed to by the Tribes,” or allow “the Tribes to determine which should be designated as the Indian child’s
Tribe.” 25 C.F.R. §§ 23.109(b)-(c). Only when the
tribes disagree about the child’s membership may state
courts independently designate the tribe to which
the child belongs, and the Final Rule provides criteria

477a
the courts must use in making that designation.
§ 23.109(c)(2).

Id.

The Final Rule instructs state courts to dismiss a voluntary or involuntary child custody proceeding when
the Indian child’s residence or domicile is on a reservation where the tribe exercises exclusive jurisdiction over
child custody proceedings.
25 C.F.R. § 23.110(a).
The Final Rule requires state courts to terminate child
custody proceedings if any party or the state court has
reason to believe that the Indian child was improperly
removed from the custody of his parent or Indian custodian. 25 C.F.R. § 23.114.
C.

The Adoption Proceedings

1.

The Brackeens and A.L.M.

The Brackeens wished to adopt A.L.M, who was born
in Arizona to an unmarried couple, M.M. and J.J. Ind.
Pls.’ App. Supp. Mot. Summ. J. 60, ECF No. 81 [hereinafter “Ind. Pls.’ App.”]. A.L.M. is an Indian child under the ICWA and the Final Rule because he is eligible
for membership in an Indian tribe—his biological
mother is an enrolled member of the Navajo Nation and
his biological father is an enrolled member of the Cherokee Nation. Id.; see 25 C.F.R. § 23.2. A few days after A.L.M. was born, his biological mother brought him
to Texas to live with his paternal grandmother. Ind.
Pls.’ App. 61, ECF No. 81. When he was ten months
old, Child Protective Services (“CPS”), a division of the
Texas Department of Family and Protective Services
(“DFPS”), removed A.L.M. from his grandmother and
placed him in foster care with the Brackeens. Id. at 61.
Pursuant to the ICWA and the Final Rule, 25 C.F.R.
§ 23.11, the Cherokee Nation and the Navajo Nation

478a
were notified of A.L.M.’s placement with the Brackeens.
Id at 61-62. Because DFPS identified no ICWApreferred foster placement for A.L.M., he remained
with the Brackeens. Id. A.L.M. lived with the Brackeens for more than sixteen months before, with the support of his biological parents and paternal grandmother,
the Brackeens sought to adopt him. Id.
In May 2017, a Texas state court terminated the parental rights of A.L.M.’s biological parents, making him
eligible for adoption under Texas law.
Id. at 61.
Shortly thereafter, a year after the Brackeens took custody of A.L.M., the Navajo nation notified the state
court that it had located a potential alternative placement for A.L.M. with non-relatives in New Mexico. Id.
The Brackeens note that this placement would have
moved A.L.M away from both his biological parents and
the only home he has ever known. Id. at 61-62.
In July 2017, the Brackeens filed an original petition
seeking to adopt A.L.M. Id. at 62. The Cherokee and
Navajo Nations were notified of the adoption proceeding in accordance with the ICWA and the Final Rule.
Id.; see 25 U.S.C. § 1912; see 25 C.F.R. § 23.11. No one
intervened in the Texas adoption proceeding or otherwise formally sought to adopt A.L.M. Id. at 63. On
August 1, 2017, a Texas family court held a hearing regarding the Brackeens’ petition for adoption. Id. at 62.
The Navajo Nation was designated as A.L.M.’s tribe,
but this “determination of [A.L.M.’s] Tribe for purposes
of ICWA and [the Final Rule] [did] not constitute a
determination for any other purpose.”
25 C.F.R.
§ 23.109(c)(3).
Under the ICWA and the Final Rule placement preferences, absent good cause, an Indian child should be

479a
placed with a member of the child’s extended family, a
member of the child’s Indian tribe, or another Indian
family, in that order. See 25 U.S.C. § 1915(a). The
Brackeens argued in state court that the ICWA’s placement preferences should not apply because they were
the only party formally seeking to adopt A.L.M., and
that good cause existed to depart from the preferences.
Ind. Pls.’ App. 63, ECF No. 81. The Final Rule places
the burden on the Brackeens, the party seeking adoption, to prove “by clear and convincing evidence that
there was ‘good cause’ ” to allow them, a non-Indian couple, to adopt A.L.M. 25 C.F.R. § 23.132(b). The
Brackeens submitted testimony by A.L.M.’s biological
parents, his court appointed guardian, and an expert in
psychology to show good cause. Ind. Pls.’ App. 62,
ECF No. 81. However, Texas DFPS pointed to the Final Rule’s heightened evidentiary requirements and argued that the Brackeens did not provide clear and convincing evidence of good cause to justify a departure
from the placement preferences. Id. at 61-62.
In January 2018, the Brackeens successfully petitioned to adopt A.L.M., but under the ICWA and the Final Rule, the Brackeens’ adoption of A.L.M. is open to
collateral attack for two years. Id. at 64; see 25 U.S.C
§ 1914; Ind. Pls.’ Br. at 6, ECF No. 80; see e.g., Belinda
K. v. Baldovinos, No. 10-cv-2507-LHK, 2012 WL 13571,
at *4 (N.D. Cal. Jan. 4, 2012). Plaintiffs explain that
the Brackeens intend to continue to provide foster care
for, and possibly adopt, additional children in need.
Ind. Pls.’ App. 64, ECF No. 81. But they are reluctant,
after this experience, to provide foster care for other Indian children in the future. Id. Plaintiffs argue that
the ICWA and the Final Rule therefore interfere with
the Brackeens’ intention and ability to provide a home

480a
to additional children. Am. Compl. ¶ 154, ECF No. 35.
Additionally, Plaintiffs argue that this legal regime
harms Texas’s interests by limiting the supply of available, qualified homes necessary to help foster-care children in general and Indian children in particular. Id.
2.

The Librettis and Baby O.

The Librettis are a married couple living in Sparks,
Nevada. See Ind. Pls.’ App. 66, ECF No. 81. They
sought to adopt Baby O. when she was born in March
2016. Id. at 67. Baby O.’s biological mother, Ms. Hernandez, felt that she would be unable to care for Baby
O. and wished to place her for adoption at her birth.
Id. at 72. Ms. Hernandez has continued to be a part of
Baby O.’s life and she and the Librettis visit each other
regularly. Id. at 73. Baby O.’s biological father, E.R.G.,
descends from members of the Ysleta del sur Pueblo
Tribe (the “Pueblo Tribe”), located in El Paso, Texas.
Id. at 69. At the time of Baby O.’s birth, E.R.G. was
not a registered member of the Pueblo Tribe. Id. at 73.
The Pueblo Tribe intervened in the Nevada custody
proceedings in an effort to remove Baby O. from the Librettis. Id. at 69. Once the Librettis joined the challenge to the constitutionality of the ICWA and the Final
Rule, the Pueblo Tribe indicated its willingness to discuss settlement. Id. at 69. The Librettis have agreed
to a settlement with the tribe that would permit them to
petition for adoption of Baby O. Id at 70. But Plaintiffs point out that any settlement would still be subject
to collateral attack under the ICWA for two years.
Am. Compl. ¶ 168, ECF No. 35. The Librettis intend
to petition to adopt Baby O. as soon as they are able and
are the only people who have indicated an intent to adopt
her. Ind. Pls.’ App. at 69-70, ECF No. 81.

481a
Similar to the Brackeens, the Librettis intend to provide foster care for and possibly adopt additional children in need. Id. at 70. Due to their experiences with
the ICWA, the Librettis are “reluctant to provide a foster home for other Indian children in the future.” Id.
3.

The Cliffords and Child P.

The Cliffords live in Minnesota and seek to adopt
Child P. See Ind. Pls.’ App. 2, ECF No. 81. Child P.’s
maternal grandmother is a registered member of the
White Earth Band of Ojibwe Tribe (the “White Earth
Band”). Id. at 4. Child P. is a member of the White
Earth Band for the purposes of the ICWA only. Id.
The Minnesota state court considered itself bound by
the White Earth Band’s pronouncement and concluded
that the ICWA must apply to all custody determinations
concerning Child P. Id. at 4. However, because the
ICWA placement preferences apply, county officials removed Child P. from the Cliffords. Id. at 5-6. Child
P. was placed in the care of her maternal grandmother—
whose foster licensed had been revoked—in January
2018. Id. at 3-6.
Child P.’s guardian ad litem supports the Cliffords’
efforts to adopt her and agrees that the adoption is in
Child P’s best interest. Id. at 5. However, due to the
application of the ICWA, the Cliffords and Child P. remain separated and the Cliffords face heightened legal
barriers to adopt Child P. Id. at 53. If the Cliffords
are successful in petitioning for adoption, that adoption
may be collaterally attacked for two years under the
ICWA. 25 U.S.C. § 1915(a).

482a
D.

State Plaintiffs

Texas, Louisiana, and Indiana bring this suit in their
capacities as sovereign states. See Am. Compl. ¶ 178,
ECF No. 35. They claim that the ICWA and the Final
Rule harm state agencies charged with protecting child
welfare by usurping their lawful authority of the regulation of child custody proceedings and management of
child welfare services. Id. Additionally, State Plaintiffs contend the ICWA and the Final Rule jeopardize
millions of dollars in federal funding. Id. State Plaintiffs each have at least one Indian tribe living within
their borders and have regular dealings with Indian
child adoptions and the ICWA. 4 Id.
Plaintiffs argue that the ICWA and the Final Rule
place significant responsibilities and costs on state agencies and courts to carry out federal Executive Branch
directives. Id. at ¶ 187. Texas DFPS, Louisiana Department of Child and Family Services (“DCFS”), and
the Indiana Department of Child Services (“DCS”) each
Three federally recognized tribes reside in Texas—Yselta del
Sur Pueblo in El Paso, Texas; the Kickapoo Tribe in Eagle Pass,
Texas; and the Alabama-Coushatta Tribe near Livingston, Texas.
Both the Kickapoo Tribe and the Alabama-Coushatta Tribe have
reservations in Texas. See State Pls’ App at 481, ECF No. 73. Four
tribes reside in Louisiana—the Chitimacha Tribe in Charenton,
Louisiana; Coushatta Tribe in Elton, Louisiana; the Tunica-Biloxi
Tribe in Marksville, Louisiana; and the Jena Band of Choctaw Indians in Jena, Louisiana. Am. Compl. ¶ 180, ECF No. 35. One
federally recognized tribe resides in Indiana—the Pokagon Band
of Potawatomi Indians. Id. ¶ 181. For example, as of December
2017, there were thirty-nine children in the care of Texas DFPS
who were verified to be enrolled or eligible for membership in a
federally recognized tribe, many of them living in Texas DFPS
homes. Id. ¶ 189.
4

483a
handle Indian child cases.
370, 394, ECF No. 73.

See State Pls.’ App at 10,

The State Plaintiffs require their state agencies and
courts to act in the best interest of the child in foster
care, preadoptive, and adoptive proceedings. See id. at
37, 40, 44, 46, 64, 382. But the State Plaintiffs argue
that the ICWA and Final Rule require these courts and
agencies to apply the mandated placement preferences,
regardless of the child’s best interest, if the child at issue is an “Indian child.” Am. Compl. ¶¶ 194-95, ECF
No. 35. Additionally, State Plaintiffs argue that the
ICWA’s requirement that state courts submit to mandates from an Indian child’s tribe violates state sovereignty because the Indian tribe is not an equal sovereign
deserving full faith and credit. Id. ¶ 196; 25 U.S.C.
§ 1915(c).
In every child custody case, the ICWA and Final
Rule require the State Plaintiffs to undertake additional
responsibilities, inquiries, and costs. As an example of
how the ICWA and the Final Rule affect state administrative and judicial procedures, State Plaintiffs submit
the Texas CPS Handbook (the “Texas Handbook”).
Ind. Pls.’ App. 16 (Texas Handbook) § 1225, ECF No. 73
[hereinafter “Texas Handbook”]. The Texas Handbook contains Texas DFPS’s policies and procedures for
compliance with the ICWA and the Final Rule. Id. at
9-29. First, these standards require that, in every case,
CPS workers determine if the child or child’s family has
Native American ancestry or heritage. Id. at 12. The
Texas Handbook provides guidance on how to ascertain
if the ICWA and the Final Rule apply, how to comply
with it, and warns that failure to comply could result in
the final adoption order being overturned. Id. at 9-29.

484a
The Texas Handbook also states that if an Indian child
is taken into DFPS custody, “almost every aspect of the
social work and legal case is affected.” Texas Handbook § 5844. If the ICWA applies, the legal burden of
proof for removal, obtaining a final order terminating
parental rights, and restricting a parent’s custody rights
is higher. Id. Texas DFPS must serve the child’s
parent, tribe, Indian custodian, and the BIA with a specific notice regarding the ICWA rights, and DFPS and
its caseworkers “must make active efforts to reunify the
child and biological Indian family.” Id. Finally, the
child must be placed according to the ICWA statutory
preferences; expert testimony on tribal child and family
practices may be necessary; and a valid relinquishment
of parental rights requires a parent to appear in court
and a specific statutory procedure is applied. Id.
Indiana and Louisiana have similar requirements in
place to assure that their child welfare systems comply
with the ICWA and the Final Rule. See id. at 370-400.
Louisiana DCFS must maintain ongoing contact with
the Indian child’s tribe because each tribe may elect to
handle the ICWA differently. Am. Compl. ¶ 220, ECF
No. 35. They are also required to ensure that the state
agencies take “all reasonable steps” to verify the child’s
status. 25 C.F.R. § 23.124.
The ICWA and the Final Rule require state courts to
ask each participant, on the record, at the commencement of child custody proceedings whether the person
knows or has reason to know whether the child is an
Indian child and directs the parties to inform the court
of any such information that arises later. 25 C.F.R.
§ 23.107(a). If the state court believes the child is an

485a
Indian child, it must document and confirm that the relevant state agency (1) used due diligence to identify and
work with all of the tribes that may be connected to the
child and (2) conducted a diligent search to find suitable
placements meeting the preference criteria for Indian
families. Id. §§ 23.107(b), 23.132(c)(5). The ICWA
and the Final Rule require the State Plaintiffs’ agencies
and courts to maintain indefinitely records of placements involving Indian children and subject those records to inspection by the Director of the BIA and the
child’s Indian tribe at any time. 25 U.S.C. §§ 1915(e),
1917; 25 C.F.R. §§ 23.140-41. State Plaintiffs claim this
increases costs for the agencies and courts who have to
maintain additional records not called for under state
law and hire or assign additional employees to maintain
these records indefinitely. Am. Compl. ¶ 225, ECF No.
35.
The statutes also affect the State Plaintiffs’ rules of
civil procedure. The ICWA section 1911(c) and the Final Rule dictate that the Indian child’s custodian and the
child’s tribe must be granted mandatory intervention.
Texas Rule of Civil Procedure 60 permits Texas courts
to strike the intervention of a party upon a showing of
sufficient cause by another party, but the ICWA imposes a different legal standard of intervention to child
custody cases involving Indian children. TEX. R. CIV.
P. 60; 25 U.S.C. § 1911(c) (“In any State court proceeding . . . the Indian child’s tribe shall have a right to
intervene at any point in the proceeding.”) (emphasis
added). In Louisiana, any person with a justiciable interest in an action may intervene. LA. CODE CIV.
PROC. art. 1091. In Indiana, a person may intervene as
of right or permissively, similar to the Federal Rules of
Civil Procedure. IND. R. TR. PROC. 24. The ICWA,

486a
however, eliminates these requirements and provides
mandatory intervention for the Indian child’s custodian
and the child’s tribe. 25 U.S.C. § 1911(c).
Finally, the ICWA and the Final Rule override the
State Plaintiffs’ laws with respect to voluntary consent
to relinquish parental rights. See 25 U.S.C. § 1913(a);
25 C.F.R. § 23.125(e). Texas law permits voluntary relinquishment of parental rights forty-eight hours after
the birth of the child; Louisiana allows surrender prior
to or after birth of the child, and surrender of maternal
rights five days after the birth of the child, and Indiana
permits voluntary termination of parental rights after
birth of the child. TEX. FAM. CODE § 161,103(a)(1); LA.
CHILD CODE art. 1130; IND. CODE § 31-35-1-6. The
ICWA and Final Rule prohibit any consent until ten
days after the birth. 25 U.S.C. § 1913(a); 25 C.F.R.
§ 23.125(e).
The ICWA and the Final Rule also affect how long a
final adoption decree is subject to challenge. Under the
ICWA, state courts must vacate a final adoption decree
involving an Indian child, and return the child to the biological parent, any time within two years if the parent
withdraws consent on the grounds that it was obtained
through fraud or duress. 25 U.S.C. § 1913(d); 25 C.F.R.
§ 23.136. This directly conflicts with Texas, Louisiana,
and Indiana state law, which provide that an adoption
decree is subject to direct or collateral attack for no more
than one year. TEX. FAM. CODE § 162.012(a) (up to six
months); Goodson v. Castellanos, 214 S.W.3d 741, 74849 (Tex. App.—Austin 2007, pet. denied); LA. CHILD.
CODE art. 1263 (up to six months); IND. CODE § 31-19-14-2
(up to six months after entry of adoption decree; or up
to one year after adoptive parents obtain custody,

487a
whichever is later). It also contradicts the Texas common law principle, as well as Indiana statutory law,
which hold that the best interest of the child is served
by concluding child custody decisions so that these decisions are not unduly delayed. In re M.S., 115 S.W.3d
534, 548 (Tex. 2003); IND. CODE § 31-19-14-2. The
ICWA however permits the invalidation, by any court of
competent jurisdiction, of a state court’s final child custody order if it fails to comply with the ICWA. 25
U.S.C. § 1914; 25 C.F.R. § 23.137. 5
Finally, the State Plaintiffs contend if they fail to
comply with the ICWA, they risk losing funding for child
welfare services under Title IV-B and Title IV-E of the
SSA. Am. Compl. ¶ 243, ECF No. 35; 42 U.S.C. §§ 622,
677. Defendants Zinke, Rice, Tahsuda, and Azar, and
their respective federal departments, determine if the
State Plaintiffs are in compliance with the ICWA’s statutory requirements, and in turn, whether they are eligible for continued funding under Title IV-B and Title
IV-E funding.
Plaintiffs moved for summary judgment on all
counts, arguing there is no dispute of material fact and
only questions of law remain. See ECF Nos. 72, 79.
The motions are ripe for review.
II. LEGAL STANDARD

The Court may grant summary judgment where the
pleadings and evidence show “that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. CIV. P. 56(a).

5

See supra note 3.

488a
“[T]he substantive law will identify which facts are material.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). A genuine dispute as to any material fact
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Id.
The movant must inform the Court of the basis of its motion and demonstrate from the record that no genuine
dispute as to any material fact exists. See Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986).
When reviewing the evidence on a motion for summary judgment, the Court must decide all reasonable
doubts and inferences in the light most favorable to the
non-movant. See Walker v. Sears, Roebuck & Co., 853
F.2d 355, 358 (5th Cir. 1988). The court cannot make a
credibility determination in light of conflicting evidence
or competing inferences. Anderson, 477 U.S. at 255.
If there appears to be some support for disputed allegations, such that “reasonable minds could differ as to the
import of the evidence,” the Court must deny the motion. Id. at 250. 6

The Federal Defendants disputed facts relating to Individual
Plaintiffs’ standing in this case. See Fed. Defs.’ Br. Resp, ECF
No. 124-1. But the dispute over standing was resolved in the July
24, 2018 Order, ECF No. 156. Neither the Federal nor Tribal Defendants have disputed facts in the record relating to the claims to
be resolved by summary judgment. See Tribal Defs.’ Br. Supp.
Resp. Mot. Summ. J. 2 n.1, ECF No. 118. (“[Individual] Plaintiffs
rely on none of the other facts in their brief and declarations to
support their legal arguments, and none is relevant to the issues
currently before the court.”).
6

489a
III. ANALYSIS

Plaintiffs move for summary judgment, claiming that
the ICWA and the Final Rule violate: (1) the equal
protection requirements of the Fifth Amendment;
(2) the Due Process Clause of the Fifth Amendment;
(3) the Tenth Amendment; and (4) the proper scope of
the Indian Commerce Clause. Plaintiffs also argue
that: (1) the Final Rule violates the Administrative
Procedure Act (the “APA”); and (2) the ICWA violates
Article I of the Constitution. 7 See generally Ind. Pls.’
Br., ECF No. 80; State Pls.’ Br., ECF No. 74.
A.

Fifth Amendment Equal Protection Claim

Plaintiffs claim that sections 1915(a)-(b), section
1913(d), and section 1914 of the ICWA as well as sections
23.129-132 of the Final Rule violate the Fifth Amendment’s guarantee of equal protection under the laws.
The parties primarily disagree about whether sections
1915(a)-(b) of the ICWA rely on racial classifications requiring strict scrutiny review. Ind. Pls.’ Br. 41, ECF
No. 80; Fed. Defs.’ Br. Supp. Resp. Obj. Ind. Mot.
Summ. J. 14, ECF No. 123 [hereinafter “Fed. Defs.’
Resp. Ind.”]. Plaintiffs argue the ICWA provides special rules in child placement proceedings depending on
the race of the child, which is permissible only if the
race-based distinctions survive strict scrutiny. Ind.
Pls.’ Br. 42-44. ECF No. 80; State Pls.’ Br. 57, ECF
No. 74. The Federal Defendants and Tribal Defendants (collectively, “Defendants”) disagree, contending
Individual Plaintiffs alone argue the Fifth Amendment due process claim. See generally Ind. Pls.’ Br.; State Pls.’ Br.; Ind. Pls.’
Reply; State Pls.’ Reply. State Plaintiffs alone argue the Article I
non-delegation claim. Id.
7

490a
the ICWA distinguishes children based on political categories, which requires only a rational basis. Fed.
Defs.’ Resp. Ind. 11, ECF No. 123; Trib. Defs.’ Resp. 16,
ECF No. 118. Resolution of this issue will direct the
level of scrutiny to be applied to Plaintiffs’ challenge of
the ICWA and Final Rule.
1. Appropriate Level of Review
Unlike the Fourteenth Amendment, the text of the
Fifth Amendment does not contain an equal protection
clause. But courts “employ the same test to evaluate alleged equal protection violations under the Fifth Amendment as under the Fourteenth Amendment.” Richard
v. Hinson, 70 F.3d 415, 417 (5th Cir. 1995) (citing Adarand
Constructors, Inc. v. Pena, 515 U.S. 200, 217, (1995)).
This means that to survive strict scrutiny, “federal racial classifications, like those of a State, must serve a
compelling governmental interest, and must be narrowly tailored to further that interest.” Id. at 202; see
also Fisher v. Univ. of Tex. at Austin, 758 F.3d 633, 664
(5th Cir. 2014). On the other hand, when a federal statute governing Indians relies on political classifications,
the legislation is permissible if singling out Indians for
“particular and special treatment” is “tied rationally to
the fulfillment of Congress’ unique obligation toward
the Indians.” Morton v. Mancari, 417 U.S. 535, 554-55
(1974). This requirement mirrors typical rational basis
review which requires only that the government show a
statute is rationally related to a legitimate government
interest. See F.C.C. v. Beach Commc’ns, Inc., 508 U.S.
307, 314 (1993).
The parties rely on precedent developed by the Supreme Court’s (and various circuits’) review of statutes
focused on American Indians and other native peoples.

491a
See Mancari, 417 U.S. 535; see Rice v. Cayetano, 528
U.S. 495 (2000). The Supreme Court’s decisions in
Rice and Mancari explain the differences between classifications based on race and those based on tribal membership. See id. Plaintiffs argue that Rice controls
because the ICWA, like the statute in Rice, utilizes ancestry as a proxy for a racial classification. Ind. Pls.’
Br. 42-44, ECF No. 80; State Pls.’ Reply 18, ECF 142.
Defendants counter that Mancari and other decisions
going back hundreds of years support their contention
that the ICWA’s Indian classification is based on political characteristics. Fed. Defs.’ Resp. Ind. 11, ECF No.
123; Trib. Defs.’ Resp. 16, ECF No. 118.
a. Ancestry as Racial Classification
Plaintiffs argue that the placement preferences in
sections 1915(a)-(b) of the ICWA, as well as the collateralattack provisions in section 1913(d) and section 1914, include race-based classifications like those in Rice, which
must survive strict scrutiny review. Ind. Pls.’ Br. 41,
ECF No. 80; State Pls.’ Br. 54-57, ECF No. 74. In
Rice, the Supreme Court overturned a Hawaiian statute
restricting voter eligibility to only “native Hawaiians”
and those with “Hawaiian” ancestry for positions at a
state agency. Rice, 528 U.S. at 519. By declaring this
restriction an unlawful racial preference, the Supreme
Court found that “ancestry can be a proxy for race” and
noted that “racial discrimination is that which singles
out ‘identifiable classes of persons . . . solely because of their ancestry or ethnic characteristics.’ ” Id.
at 515 (citation omitted). The Supreme Court held that
Hawaii had “used ancestry as a racial definition and for
a racial purpose” and noted “ancestral tracing . . .

492a
employs the same mechanisms, and causes the same injuries, as laws or statutes that use race by name.” Id.
at 517. Plaintiffs contend the ICWA preferences are
no different than the preferences struck down in Rice.
b. Tribal Membership as a Political Classification
Defendants respond that the ICWA’s placement preferences rely on political classifications like the statute in
Mancari, rather than racial classifications like the statute in Rice, and are therefore only subject to rational
basis review. Fed. Defs.’ Resp. Ind. 11, ECF No. 123;
Trib. Defs.’ Resp. 16, ECF No. 118. In Mancari, the
plaintiffs sought to declare unconstitutional a BIA hiring standard that gave preference to Indian applicants.
See Mancari, 417 U.S. at 535. The Supreme Court upheld this hiring preference, concluding it was a political,
rather than a racial, preference. Id. Because the preference was “an employment criterion reasonably designed to further the cause of Indian self-government
and to make the BIA more responsive to the needs of its
constituent groups,” it was “reasonably and directly related” to a legitimate non-racial goal. Id. at 554. The
preference was designed to give those Indians who were
“members of quasi-sovereign tribal entities” and who
chose to apply for jobs at the BIA, an opportunity to
govern tribal activities in “a unique fashion.” Id. at
554. While the Supreme Court held the preference was
constitutional, its decision was uniquely tailored to that
particular set of facts. Id. at 551 (“the Indian preference statute is a specific provision applying to a very
specific situation”); see Rice, 528 U.S. at 520 (“The
[Mancari] opinion was careful to note, however, that the
case was confined to the authority of the BIA, an agency

493a
described as ‘sui generis.’ ”). Importantly, the preference in Mancari applied “only to members of ‘federally
recognized’ tribes which operated to exclude many individuals who are racially to be classified as Indians.” Id.
at 555 n.24. And this preference provided special
treatment only to Indians living on or near reservations. 8 Id. at 552; see also Rice, 528 U.S. at 516-17
(“Simply because a class defined by ancestry does not
include all members of the race does not suffice to make
the classification neutral”). Mancari therefore did not
announce that all arguably racial preferences involving
Indians are actually political preferences. Id. at 554.
Defendants rely on a number of cases in support of their argument. Those cases confirm however that this authority is directed
at Indian self-government and affairs on or near Indian lands. In
Antelope, the Supreme Court found no equal protection violation
because the legislation involved “federal regulation of criminal conduct within Indian country implicating Indian interest.” 439
U.S. 641, 646 (1977) (emphasis added); cf. Plains Comm. Bank v.
Long Family Land & Cattle Co., 554 U.S. 316, 330 (2008)
(“[E]fforts by a tribe to regulate nonmembers, especially on nonIndian fee land, are presumptively invalid.”). Other cases cited
by Defendants also relate to Indian affairs occurring in Indian
country. See, e.g., Fisher v. Dist. Court of Sixteenth Judicial
Dist. of Montana, in and for Rosebud Cty, 424 U.S. 382 (1976);
United States v. Mazurie, 419 U.S. 544 (1975); Miss. Band of Choctaw Indians v. Holyfield, 490 U.S. 30 (1996); U.S. v. Lara, 541 U.S.
193 (2004). Even United States v. McGowan, 302 U.S. 535 (1938),
dealt with prohibitions on Indian land. Similarly, the Fifth Circuit found no equal protection violation in Peyote Way Church of
God, Inc. v. Thornburgh, where the federal government made an
exception under the Controlled Substance Act for a Native American church’s use of peyote, when the church limited membership to
only members of federally recognized tribes who have at least
twenty-five percent Indian ancestry. 922 F.2d 1210 (5th Cir.
1991) (emphasis added).
8

494a
Instead, the Supreme Court recognized that applying its
decision more broadly would raise the “obviously more
difficult question that would be presented by a blanket
exemption for Indians.” Id. at 554.
c. The ICWA Classification
The specific classification at issue in this case mirrors
the impermissible racial classification in Rice, and is legally and factually distinguishable from the political
classification in Mancari. The ICWA’s membership
eligibility standard for an Indian child does not rely on
actual tribal membership like the statute in Mancari.
Id. at 554, n.24 (the preference only applied to members
of federally recognized tribes, which “operates to exclude many individuals who are racially classified as ‘Indians’ ”); see 25 U.S.C. § 1903(4). Instead, it defines an
Indian child as one who is a member “of an Indian tribe”
as well as those children simply eligible for membership
who have a biological Indian parent. See 25 U.S.C.
§ 1903(4). This means one is an Indian child if the child
is related to a tribal ancestor by blood. See e.g. Navajo
Nation Code § 701; see CHEROKEE CONST. art. IV, § 1;
see CONST. OF WHITE EARTH NATION, Chap. 2. Art. 1;
see Yselta del Sur Pueblo Tribe Code of Laws § 3.01;
Ysleta del Sur Pueblo and Alabama and Coushatta Indian Tribes of Texas Restoration Act, Pub. Law 100-89,
101 Stat. 669 (1987). These classifications are similar
to the “blanket exemption for Indians,” which Mancari
noted would raise the difficult issue of racial preferences, as well as the classifications declared unconstitutional in Rice. 9 528 U.S. at 499 (“racial discrimination
At the hearing, the Federal Defendants identified specific
exceptions to the general rule that tribal membership eligibility
depends on biological ancestry. Aug. 1, 2018 Hr’g Tr. at 83:1-11.
9

495a
is that which singles out “identifiable classes of persons
. . . solely because of their ancestry or ethnic characteristics.”). 10 By deferring to tribal membership eligibility standards based on ancestry, rather than actual
tribal affiliation, the ICWA’s jurisdictional definition of
“Indian children” uses ancestry as a proxy for race and
therefore “must be analyzed by a reviewing court under
strict scrutiny.” Adarand, 515 U.S. at 227.
2. Strict Scrutiny Review
Because the ICWA relies on racial classifications, it
must survive strict scrutiny. Courts “apply strict scrutiny to all racial classifications to ‘smoke out’ illegitimate
uses of race by assuring that [the government] is pursuing a goal important enough to warrant use of a highly
suspect tool.” Grutter v. Bollinger, 539 U.S. 306, 326

The Federal Defendants noted some tribes may include African
Americans who are descendants of freed slaves and that some
tribes may include “adopted whites” as members. Id. Individual Plaintiffs responded that the Supreme Court addressed similar
limited exceptions in Rice. Id. at 109. Indeed, Rice controls on
this issue. Defendants in that case argued that the preferential
statute did not rely on a racial category because it also could include descendants of “Native Hawaiians” who were not racially
Polynesian. Rice, 528 U.S. at 514. The Court “reject[ed] this
line of argument” and noted immediately thereafter that “Ancestry
can be a proxy for race.” Id.
10
Notably, in Adoptive Couple v. Baby Girl, the Supreme Court
mentioned that an interpretation of provisions of the ICWA that
prioritizes a child’s Indian ancestry over all other interests “would
raise equal protection concerns.” 570 U.S. 637, 655 (2013); see
Hr’g Tr. 103 (acknowledging the equal protection violation Adoptive Couple referenced was race discrimination).

496a
(2003). To survive strict scrutiny review, the classifications must be “narrowly tailored to further a compelling governmental interest.” Id.
a. Compelling Interest Requirement
Here, the Federal Defendants have not offered a
compelling governmental interest that the ICWA’s racial classification serves, or argued that the classification is narrowly tailored to that end. Rather, the Federal Defendants rest their entire defense to this claim
on their argument that the ICWA classified Indians politically, which requires only that it be rationally tied to
fulfillment of Congress’s unique obligation to the Indians. Fed. Defs.’ Resp. Ind. 25, ECF No. 123. Given
the ICWA is a race-based statute, 11 the Government
has failed to meet its burden to show the challenged
statute is narrowly tailored to a compelling interest.
Fisher, 758 F.3d at 664 (citation omitted). Because the
government did not prove—or attempt to prove—why
the ICWA survives strict scrutiny, it has not carried its
burden to defend the ICWA and Plaintiffs are entitled
to judgment as a matter of law on their equal protection
claim. 12

In Rice, after determining that ancestry can be a proxy for
race, the Supreme Court noted the legislation at issue used ancestry “as a racial definition and for a racial purpose,” and subsequently
referred to the legislation as being “based on race.” See Rice 528
U.S. at 514, 523. Accordingly, as described above, the ICWA uses
ancestry as a proxy for race and is therefore race-based.
12
Both Defendants requested an opportunity to provide additional briefing if the Court concludes the ICWA contains racial
preferences. However, Defendants were on notice that Plaintiffs
sought judgment on all of their claims. This obligated Defendants
to meet their burden. See Apache Corp. v. W&T Offshore, Inc.,
11

497a
b. Narrow Tailoring Requirement
The Federal Defendants argue that “fulfilling Congress’s unique obligation toward the Indians” is a legitimate government purpose supporting their rational basis analysis. Fed. Defs.’ Resp. Ind. 312 ECF No. 123
(citing Mancari, 417 U.S. at 555). Likewise, at the
hearing on these motions the Tribal Defendants offered
“maintain[ing] the Indian child’s relationship with the
tribe” as a possible compelling interest. Hr’g Tr. 87:
23-25, ECF No. 163. 13 The compelling interest stand-

626 F.3d 789, 798-99 (5th Cir. 2010) (when a party is on notice that
its opponent seeks judgment on all of its claims, it is obligated to
respond to all of the claims); see also United States v. Paradise,
480 U.S. 149, 193 (1987) (Stevens, J. concurring) (“governmental
decisionmaker who would make race-conscious decisions must
overcome a strong presumption against them”). The Federal Defendants have failed to do so, nor have they offered a sufficient reason for this failure. Even so, at oral argument the Court permitted them to offer any arguments they desired on this issue even
though they failed to brief it. The Federal Defendants failed to
articulate any interest they viewed as compelling. See Hr’g Tr.
55-61.
13
The Federal Defendants similarly point to Congress’s obligation to Indian tribes to justify Congressional authority to enact the
ICWA. To bolster those arguments, it notes that Congress intended the ICWA to “protect the ‘continued existence and integrity
of Indian tribes’ by protecting their most vital resources—their
children.” Fed. Defs.’ Resp. Ind. 37, ECF No. 123 (emphasis
added) (quoting 25 U.S.C. § 1901(3)). The Federal Defendants
note that in congressional hearings about the ICWA there was considerable emphasis “on the impact on the tribes themselves of the
massive removal of their children.” Id. (quoting Holyfield, 490
U.S. at 34) (emphasis added). The emphasis on tribes is telling; indeed the Indian Commerce Clause specifically references “Indian
Tribes.” U.S. CONST. art. I, § 8, cl. 3.

498a
ard necessarily requires a stronger interest than is required under the broad legitimate government purpose
standard. See Richard, 70 F.3d at 417 (describing rational basis and strict scrutiny review standards).
Here, however, the Court will assume these interests
are compelling and will evaluate whether the statute is
narrowly tailored.
As stated above, a racial statute must be narrowly
tailored to a compelling government interest to survive
strict scrutiny. Grutter, 539 U.S. at 326. In other
words, the statute’s means must be narrowly tailored to
its ends. Id. To evaluate whether a statute is narrowly tailored to a compelling interest, the Supreme
Court has considered whether the statute covers too
many—or too few—people to achieve its stated purpose.
See Brown v. Entm’t Merchs. Ass’n, 564 U.S. 786, 804
(2011). The Supreme Court labels statutes that fail
this test as overinclusive, underinclusive, or both. See
id. A statute is overinclusive when it “burdens more
people than necessary to accomplish the legislation’s
goal.” Overinclusive. MERRIAM-WEBSTER’S DICTIONARY OF LAW (2016); see e.g. Church of the Lukumi Babalu Aye, Inc v. City of Hialeah, 508 U.S. 520, 578 (1993)
(Blackmun, J. concurring) (an overinclusive statute is
“one that encompasses more . . . than necessary to
achieve its goal”); see e.g. Mance v. Sessions (Ho, J. dissenting from denial of rehearing en banc) (“a categorical
ban . . . is over-inclusive—it prohibits a significant
number of transactions that fully comply with state
law.”) (emphasis added).
Here, the statute is broader than necessary because
it establishes standards that are unrelated to specific
tribal interests and applies those standards to potential

499a
Indian children. First, portions of the ICWA preferences are unrelated to specific tribal interests in that the
statute includes as a priority a child’s placement with
any Indian, regardless of whether the child is eligible
for membership in that person’s tribe. See 25 U.S.C.
§ 1915(a)(3). By doing so, the ICWA preferences categorically, and impermissibly, treat “all Indian tribes as
an undifferentiated mass.” United States v. Bryant,
136 S. Ct. 1954, 1968 (2016) (Thomas, J., concurring).
Applying the preference to any Indian, regardless of
tribe, is not narrowly tailored to maintaining the Indian
child’s relationship with his tribe. See Br. for the Goldwater Inst. as Amicus Curiae in Opposition to Defs.’
Mot. to Dismiss 5, ECF No. 133 (“ICWA’s placement
preferences do not depend on tribal or political or cultural affiliation; they depend on generic “Indianness.”).
The ICWA applies to many children who will never become members of any Indian tribe, 25 U.S.C. § 1903(4),
and the first preference is to place the child with family
members who may not be tribal members at all. 25
U.S.C. § 1915(1). These provisions burden more children than necessary to accomplish the goal of ensuring
children remain with their tribes.
The ICWA’s racial classification applies to potential
Indian children, including those who will never be members of their ancestral tribe, those who will ultimately
be placed with non-tribal family members, and those
who will be adopted by members of other tribes. Because two of the three preferences have no connection
to a child’s tribal membership, this blanket classification
of Indian children is not narrowly tailored to a compelling governmental interest and thus fails to survive
strict scrutiny review. For these reasons, the Court

500a
finds that Plaintiffs’ motion for summary judgment on
their Equal Protection Claim is GRANTED.
B.

Article I Non-Delegation Claim

State Plaintiffs also argue that section 1915 (c) of the
ICWA is unconstitutional because it delegates congressional power to Indian tribes in violation of the nondelegation doctrine outlined in Article I of the Constitution. Article I, known as the vesting clause, provides:
“All legislative Powers . . . shall be vested in a Congress of the United States.” U.S. CONST. I, § 1, cl.1.
State Plaintiffs argue that the ICWA impermissibly
grants Indian tribes the authority to reorder congressionally enacted adoption placement preferences by
tribal decree and then apply their preferred order to the
states. State Pls.’ Br. 47, ECF No. 74. They also contend that section 23.130 (b) of the Final Rule, which provides that a tribe’s established placement preferences
apply over those specified in the ICWA, violates the doctrine. 14 Am. Compl. ¶ 372, ECF No. 35; 25 C.F.R.
§ 23.130 (b). Tribal Defendants respond that the tribes
are permissibly exercising regulatory power subject to
an intelligible principle. Tribal Defs.’ Br. Supp. Resp.
Mot. Summ. J. at 35, ECF No. 118 [hereinafter “Trib.
Defs.’ Resp.”]. If so, Defendants argue the ICWA survives the non-delegation challenge. Id.
1. Legislative or Regulatory Power
Distinguishing between permissible and nonpermissible delegations of congressional power usually

Texas provides that the Alabama-Coushatta-Tribe of Texas has
filed with DFPS a notice of different placement preferences.
State Pls.’ App. at 918, ECF No. 73.
14

501a
requires asking whether Congress is delegating discretion to create law or discretion to execute law. Loving
v. United States, 517 U.S. 748, 758 (1996). Congress
plainly cannot delegate its inherent legislative power to
create law, defined as the power to formulate binding
rules generally applicable to private individuals. Dep’t.
of Transp. v. Ass’n of Am. R.R.’s, 135 S. Ct. 1246 (Thomas,
J. concurring); A.L.A. Schechter Poultry Corp. v. United
States, 295 U.S. 495, 529 (1935) (“The Congress is not
permitted to abdicate or to transfer to others the essential legislative functions with which it is thus vested.”);
see Wayman v. Southard, 10 Wheat. 1, 42-43 (1825) (Marshall, C.J.). On the other hand, Congress may grant a
federal agency the regulatory power necessary to execute legislation as well as interpret ambiguities therein.
See City of Arlington, Tex. v. F.C.C., 569 U.S. 290, 296
(2013).
An exercise of regulatory power does not empower
an entity to “formulate generally applicable rules of private conduct.” Ass’n of Am. R.R.’s, 135 S. Ct. at 1252
(Thomas, J. concurring). The core of regulatory power
involves factual determination or policy judgment necessary to execute the law. See Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 474-75 (2001) (quoting Mistretta v. United States, 488 U.S. 361, 416 (1989) (Scalia,
J., dissenting)). To determine whether a delegation of
regulatory power is proper, courts employ the “intelligible principle” standard which states that Congress properly delegates regulatory power to federal agencies
when it establishes an “intelligible principle” on which
the agency can base decisions. Whitman v. Am. Trucking Ass’n, 531 U.S. 457, 474 (2001). Defendants are
correct that the Supreme Court applies the test liberally
and has “almost never felt qualified to second-guess

502a
Congress regarding the permissible degree of policy
judgment that can be left to those executing or applying
the law.” Id. at 474-75 (emphasis added).
Here, the Tribes were granted the power to change
the legislative preferences Congress enacted in the
ICWA, and those changes are binding on the States.
See 25 U.S.C. § 1915(c); see also Br. of Amicus Curiae
123 Federally Recognized Indian Tribes et al. in Opposition to Pls.’ Mots. Summ. J. 22-23, ECF No. 138
(“ . . . ICWA confirms tribes’ authority to enact
placement preferences for their member children, and
as an exercise of Congress’ established authority over
Indian affairs, requires that state courts, when exercising their concurrent jurisdiction over those children,
give effect to those legislative preferences.”) (emphasis
added). The power to change specifically enacted Congressional priorities and impose them on third parties
can only be described as legislative. Ass’n of Am.
R.R.’s, 135 S. Ct. at 1253-1254 (Thomas, J. concurring)
(“an exercise of policy discretion . . . requires an exercise of legislative power”). This is particularly true
when the entity allowed to change those priorities is not
tasked with executing the law. Congress “cannot delegate its exclusively legislative authority at all.” See
Washington v. Confederated Tribes of Colville Indian
Reservation, 447 U.S. 134, 156 (1980); White Mountain
Apache Tribe v. Arizona, 649 F.2d 1274, 1281 (9th Cir.
1981).
Accordingly, section 1915(c) of the ICWA
and section 23.130 (b) of the Final Rule violate the nondelegation doctrine.

503a
2. Federal Actor Requirement
Alternatively, even if Congress granted permissible
regulatory power through the ICWA, it impermissibly
granted federal regulatory power to an Indian tribe.
Congress certainly has authority to regulate the Indian
tribes. U.S. CONST., art. 1, § 8, cl. 3. Likewise, tribes
unquestionably may regulate conduct on tribal lands
and reservations. Atkinson Trading Co., Inc. v. Shirley,
532 U.S. 645, 650-51 (2001). And, Congress may obtain
assistance from its coordinate branches by delegating
regulatory authority without violating the non-delegation
doctrine. Mistretta v. United States, 488 U.S. 361, 372
(1989). But, Indian tribes are not a coordinate branch
of government. See Trib. Defs.’ Resp. 36-38, ECF No.
118. (describing the Tribes as an independent separate
sovereign); see also Lawson, Delegation and Original
Meaning, 88 VA. L. REV. 327, 352-53 (2002) (Congress
cannot delegate legislative or executive power to a nonfederal entity).
Nor is section 1915(c) saved because, as Tribal Defendants argue, Congress recognized that Indian tribes
carry a unique, long-held, quasi-sovereign status, and
may thus delegate federal authority to them. Trib.
Defs.’ Resp. 36-37, ECF No. 118. An Indian tribe, like
a private entity, is “not part of the [federal] Government
at all,” which “would necessarily mean that it cannot exercise . . . governmental power.” Ass’n of Am.
R.R.s, 135 S. Ct. at 1253 (Thomas, J. concurring); see
also id. at 1237.
Therefore, whatever label is affixed to the tribes by
Defendants is inapposite. No matter how Defendants
characterize Indian tribes—whether as quasi-sovereigns
or domestic dependent nations—the Constitution does

504a
not permit Indian tribes to exercise federal legislative
or executive regulatory power over non-tribal persons
on non-tribal land. Id. The Court finds Article I does
not permit Congress to delegate its inherent authority
to the Tribes through section 1915(c) of the ICWA or the
BIA through section 23.130(b) of the Final Rule, which
unequivocally states tribal placement preferences apply
over those enacted by Congress in the ICWA. Accordingly, Plaintiffs are entitled to judgment as a matter of
law on their non-delegation claim. For these reasons,
the Court finds that Plaintiffs’ motion for summary
judgment on their Article I non-delegation claim is
GRANTED.
C.

Tenth Amendment Anti-Commandeering Claim

Plaintiffs also claim that the ICWA and the Final
Rule commandeer the States in violation of the Tenth
Amendment. State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’
Br. 68, ECF No. 80. They specifically challenge the
ICWA sections 1901-23 and 1951-52. 15 Am. Compl.
¶ 284, ECF No. 35. The Federal Defendants respond
that Congress passed the ICWA pursuant to its enumerated powers and thus authority over Indian children was
never reserved to the States. Fed. Defs.’ Br. Supp.
Resp. States Mot. Summ. J. 29, ECF No. 121 [hereinafter “Fed. Defs.’ Resp. States”]. Tribal Defendants argue that, to the extent the ICWA conflicts with state
law, state law is preempted by the Supremacy Clause.
Trib. Defs.’ Resp. 29, ECF No. 118.

These provisions include the congressional findings and declaration of policy, definitions, child custody proceedings, record
keeping, information availability, and timetables. See 25 U.S.C.
§§ 1901-23, 1951-52.
15

505a
The anti-commandeering principle “is simply the expression of a fundamental structural decision incorporated into the Constitution, i.e., the decision to withhold
from Congress the power to issue orders directly to the
states.” Murphy v. Nat’l Collegiate Athletic Ass’n, 138
S. Ct. 1470, 1475 (2018). The Constitution grants to
“Congress not plenary legislative power but only certain
enumerated powers.” Id. at 1476. “Conspicuously
absent from the list of powers given to Congress is the
power to issue direct orders to the governments of the
States” because the Constitution “confers upon Congress the power to regulate individuals, not States.”
Murphy, 138 S. Ct. at 1476. Legislative power that is
not enumerated is reserved to the States through the
Tenth Amendment, and “Congress may regulate areas
of traditional state concern only if the Constitution grants
it such power.” Adoptive Couple, 133 S. Ct. at 2566
(2013) (Thomas, J. concurring).
The Court must therefore first consider whether
Congress may require state courts and agencies to apply federal standards to exclusively state created causes
of action. 16
1. Commandeering State Courts and Agencies
Plaintiffs argue that the ICWA unconstitutionally requires state courts and executive agencies to apply federal standards and directives to state created claims.
State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’ Br. 68, ECF
The ICWA includes federal requirements that apply in a state
child custody proceedings including: involuntary proceedings,
voluntary proceedings, and proceedings involving foster-care, preadoptive, or adoptive placement, or termination of parental rights.
See 25 CFR §§ 23.103, 23.106.
16

506a
No. 80. The Federal Defendants respond that the power
to enact the ICWA was granted to Congress by the Indian Commerce Clause, was never reserved to the States,
and presents no constitutional problem. Fed. Defs.’
Resp. States 29, ECF No. 121. The Court finds that
requiring the States to apply federal standards to state
created claims contradicts the rulings in Murphy,
Printz, and New York. See Murphy, 138 S. Ct. 1470
(2018); Printz v. United States, 521 U.S. 898 (1997); New
York v. United States, 505 U.S. 144 (1992).
a. Federal Standards Applied in State
Created Claims
It is unquestionably true that state and federal courts
share concurrent jurisdiction in many legal matters.
See generally Mims v. Arrow Fin. Ser., LLC, 565 U.S.
368 (2012). The law is similarly clear about when a
state court must hear a federal claim. In Testa, the Supreme Court held that where a state court would hear a
comparable state law claim it must also hear a federal
claim. See Testa v. Katt, 330 U.S. 386 (1947) (emphasis
added). In other words, Congress may create a private
federal cause of action and authorize concurrent jurisdiction in state courts. When it does so, the state
courts cannot refuse to hear the federal claim. Later,
in Haywood, the Supreme Court confirmed that states
“lack authority to nullify a federal right or cause of action they believe is inconsistent with their local policies.” Haywood v. Drown, 556 U.S. 729, 736 (2009)
(emphasis added). The Supreme Court concluded that
when “state courts as well as federal courts are entrusted with providing a forum for the vindication of federal rights,” state courts may not refuse to adjudicate
the federal claim. Id. at 735. The controversy here,

507a
however, does not involve a federal cause of action that
may be adjudicated in a federal forum. See 25 U.S.C.
§ 1915(a). Instead, the ICWA commands that states
modify existing state law claims. Congress directs
state courts to implement the ICWA by incorporating
federal standards that modify state created causes of action. Id.
b. The Murphy Standard
In Murphy, the Supreme Court ruled that a federal
statute prohibiting state legislatures from authorizing
sports gambling violated the anti-commandeering doctrine because it directly regulated States rather than individuals. See Murphy, 138 S. Ct. 1461. The Supreme Court outlined three reasons why the anticommandeering principle is important. First, it is “one
of the Constitution’s structural protections of liberty.”
Id. at 1477. Second, the principle “promotes political
accountability.” Id. Third, it “prevents Congress
from shifting the costs of regulation to the States.” Id.
Congress violated all three principles when it enacted
the ICWA. First, the ICWA offends the structure of
the Constitution by overstepping the division of federal
and state authority over Indian affairs by commanding
States to impose federal standards in state created
causes of action. See 25 U.S.C. § 1915(a). Second, because the ICWA only applies in custody proceedings
arising under state law, it appears to the public as if
state courts or legislatures are responsible for federallymandated standards, meaning “responsibility is blurred.”
Murphy, 138 S. Ct. at 1477. Third, the ICWA shifts
“the costs of regulations to the States” by giving the sole

508a
power to enforce a federal policy to the States. 17 Id.
Congress is similarly not forced to weigh costs the
States incur enforcing the ICWA against the benefits of
doing so. In sum, Congress shifts all responsibility to
the States, yet “unequivocally dictates” what they must
do. Id.
That this case primarily involves state courts, rather
than legislative bodies or executive officers, does not
mean the principles outlined in Murphy, New York, and
Printz do not apply. In those cases, the Supreme
Court relied on the idea that “the Framers explicitly
chose a Constitution that confers upon Congress the
power to regulate individuals, not States.” Printz, 521
U.S. at 920. Here, the ICWA regulates states. As
stated above, the ICWA requires that the state “in any
adoptive placement of an Indian child under state law, a
preference shall be given, in the absence of good cause
to the contrary, to a placement with: (1) a member of
the child’s extended family; (2) other members of the Indian child’s tribe; or (3) other Indian families.” 25
U.S.C § 1915(a). Similar requirements are set for foster care or preadoptive placements. Id. § 1915(b). If
the Indian child’s tribal court establishes a different order of preferences, the state court or agency “shall follow such order so long as the placement is the least restrictive setting appropriate to the particular needs of
the child.” Id. § 1915(c). That requirement is, on its
As an example, the ICWA and the Final Rule require State
Plaintiffs’ agencies and courts to maintain indefinitely records of
placements involving Indian children, and subject those records to
inspection by the Director of the BIA and the child’s Indian tribe at
any time, as opposed to simply transferring those records to the BIA
so they may keep them indefinitely. 25 U.S.C. §§ 1915(e), 1917;
25 C.F.R. §§ 23.140-41.
17

509a
face, a direct command from Congress to the states.
The Court finds that the ICWA directly regulates the
State Plaintiffs and doing so contradicts the principles
outlined by the Supreme Court in Murphy. Cf. 138
S. Ct. 1470 (2018). Notwithstanding this impact on the
state courts, Texas has also indisputably demonstrated
that the ICWA requires its executive agencies to carry
out its provisions. 18 Hr’g Tr. at 22-23, ECF No. 163;
State Pls.’ App. Supp. Mot. Summ. J. 28-29, ECF No. 73
[hereinafter State Pls.’ App.]. Accordingly, Congress
regulates States—not individuals—through the ICWA,
and the Constitution does not grant it that power.
Nor does the Indian Commerce Clause save the
ICWA’s mandate to the states. Federal Defendants assert that the plenary power the Indian Commerce Clause
grants Congress permits directing states in child custody proceedings involving Indian children eligible for
tribal membership, therefore no power was reserved to
the states, and no Tenth Amendment violation is possible. Fed. Defs.’ Resp. States 29, ECF No. 121. But
regardless of the reach of the Indian Commerce Clause,
no provision in the Constitution grants Congress the
right to “issue direct orders to the governments of the
States,” and the Indian Commerce Clause can be no different. Cf. Murphy, 138 S. Ct. at 1478. Like in Murphy, there is no way to understand mandating state enforcement of the ICWA “as anything other than a direct
The Texas DFPS must, among other things; serve notice of suit
on Indian tribes, verify a child’s tribal status, make a diligent effort
to find a suitable placement according to the ICWA preferences
and show good cause if the preferences are not followed, ensure a
child is enrolled in his tribe before referring him for adoption, and
keep a written record of the placement decision. State Pls.’ App.
28-29, ECF No. 73.
18

510a
command to the States. And that is exactly what the
anti-commandeering rule does not allow.” Murphy,
138 S. Ct. at 1481.
2. State Law Preemption
Finally, the Tribal Defendants argue that the anticommandeering principle does not apply because the
ICWA, enacted pursuant to the Indian Commerce Clause,
simply preempts conflicting state laws regulating individuals. Trib. Defs.’ Resp. 29, ECF No. 118. Preemption generally applies when federal and state law conflict over matters in which they have concurrent jurisdiction. See Wyeth, 555 U.S. at 584. While Supremacy Clause preemption may apply to a conflict between
state and “federal law that regulates the conduct of private actors,” it cannot rescue a law that directly regulates states. Murphy, 138 S. Ct. at 1481. Even though
the ICWA’s general policy is directed towards protecting Indian children, 25 U.S.C. § 1902, its specific provisions, like section 1915, directly command states to enforce the ICWA without a comparable federal enforcement mechanism and do not “impose any federal restrictions on private actors.” Id. at § 1915; Murphy,
138 S. Ct. at 1481. As such, these commands do not result in a conflict between duly enacted state and federal
law. Rather, the provisions command states to directly
adopt federal standards in their state causes of actions.
This argument is not unlike the one rejected in Murphy,
where Congress relied on its commerce clause power,
yet even that express power does not permit it to command states in this manner. Murphy, 138 S. Ct. at
1479.
Preemption arguments therefore cannot rescue the
ICWA’s impermissible direct commands to the states.

511a
The ICWA is structured in a way that directly requires
states to adopt and administer comprehensive federal
standards in state created causes of action. Therefore,
the Court finds that sections 1901-23 and 1951-52 of the
ICWA violate the anti-commandeering doctrine. For
these reasons, the Court finds that Plaintiffs’ motion for
summary judgment on their Tenth Amendment AntiCommandeering Claim is GRANTED.
D.

Administrative Procedure Act Claims

Plaintiffs also claim that the Final Rule violates the
APA because it: (1) purports to implement an unconstitutional law and therefore must be vacated as contrary to law; (2) exceeds the scope of Interior’s statutory
regulatory authority under the ICWA; (3) reflects an
impermissibly ambiguous construction of the statute;
and (4) is otherwise arbitrary and capricious. Ind. Pls.’
Reply at 16, ECF No. 143; State Pls.’ Reply 18, ECF No.
142; see also Ind. Pls’ Br., ECF 80. Defendants respond that the Final Rule was properly passed and
promulgated, deserves Chevron deference, and stands
after Chevron review. Trib. Defs.’ Resp. 39-47, ECF
No. 118; Fed. Defs.’ Resp. States 41, ECF No. 121.
1. Constitutionality Requirement
As a threshold matter, if the Final Rule purports to
implement an unconstitutional statute, the Court must
hold it unlawful and set it aside. 5 U.S.C. § 706. As
previously explained, the Court has concluded sections
1901-23 and 1951-52 of the ICWA are unconstitutional.
The challenged sections of the Final Rule that regulate
unconstitutional portions of the ICWA, 25 C.F.R.
§§ 23.106-112, §§ 23.114-19, §§ 23.121-22, §§ 23.124-28,

512a
and §§ 23.130-132 must therefore also be set aside because “the authority of administrative agencies is constrained by the language of the statute they administer.” Texas v. United States, 497 F.3d 491, 500-01 (5th
Cir. 2007) (citing Massachusetts v. EPA, 549 U.S. 497
(2007)). For that reason, Plaintiffs’ Motion for Summary Judgment on their APA claims is GRANTED. Alternatively, the Court will address Plaintiffs’ arguments
that the Final Rule exceeds the scope of Interior’s—and
thus the BIA’s—statutory regulatory authority under
the ICWA, reflects an impermissibly ambiguous construction of the statute, and is arbitrary and capricious.
2. APA Statutory Authority Requirement
Plaintiffs argue that the challenged portions of the
Final Rule exceed the scope of the BIA’s regulatory authority under the ICWA because the Final Rule issues
binding regulations—which the BIA previously deemed
unnecessary to enforce the ICWA—without the statutory authority necessary to do so. Ind. Pls.’ Reply 1719, ECF 143; State Pls.’ Reply 18, ECF No. 142. “Expanding the scope” of a BIA regulation “in vast and
novel ways is valid only if it is authorized” by the ICWA.
Chamber of Commerce v. Dep’t of Labor, 885 F.3d 360,
369 (5th Cir. Mar. 15, 2018). “A regulator’s authority
is constrained by the authority that Congress delegated
it by statute. Where the text and structure of a statute
unambiguously foreclose an agency’s statutory interpretation, the intent of Congress is clear, and ‘that is the
end of the matter; for the court, as well as the agency,
must give effect to the unambiguously expressed intent
of Congress.’ ” Id. (quoting Chevron, U.S.A., Inc. v.
N.R.D.C., Inc., 467 U.S. 837, 842-43 (1984)). When an
agency waits decades to discover a new interpretation of

513a
a rule it “highlights the Rule’s unreasonableness,” and
“gives us reason to withhold approval or at least deference for the Rule.” Id. at 380. When a court reviews
an agency’s construction of a statute and determines
Congress has spoken directly to an issue, the court must
give effect to Congress’s unambiguously expressed intent. Food & Drug Admin. v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 121 (2000); City of Arlington, Tex. v. FCC, 133 S. Ct. 1863, 1874 (2013); Chevron,
467 U.S. at 842-43.
Here, Congress expressly and unambiguously granted
the Secretary of Interior authority to regulate if necessary. Congress stated in the ICWA that “within one
hundred and eighty days after November 8, 1978, the
Secretary shall promulgate such rules and regulations
as may be necessary to carry out the provisions in this
chapter.” 25 U.S.C § 1952 (emphasis added); see 44
Fed. Reg. 67,584. The BIA concluded that the ICWA
differs from most other federal statutes because the majority of the work required to “carry out the provisions”
falls to state courts and administrative agencies, not a
federal agency. See, e.g., 25 U.S.C § 1915. The BIA
conceded as much when administering the 1979 Guidelines:
Promulgation of regulations with legislative effect
with respect to most of the responsibilities of state or
tribal courts under the act, however, is not necessary
to carry out the Act. State and tribal courts are
fully capable of carrying out the responsibilities imposed on them by Congress without being under the
direct supervision of this Department. Nothing in
the legislative history indicates that Congress in-

514a
tended this Department to exercise supervisory control over state or tribal courts or to legislate for them
with respect to Indian child custody matters. For
Congress to assign an administrative agency such supervisory control over courts would be an extraordinary step . . . so at odds with concepts of both
federalism and separation of powers that it should
not be imputed to Congress in the absence of an express declaration of Congressional intent to that effect.
44 Fed. Reg. 67,584, (Nov. 26, 1979) (emphasis added).
Here, as outlined in the Court’s findings supra on
Plaintiffs’ anti-commandeering and non-delegation claims,
much of the authority to carry out the ICWA was delegated to the States and Indian tribes. The BIA admitted state and tribal courts were fully capable of carrying
out the ICWA without direct federal regulation and allowed them to do so for over thirty years. 44 Fed. Reg.
67,584 (Nov. 26, 1979). In establishing the Final Rule,
the BIA contradicted their earlier position and asserted
that section 1952 of the ICWA granted authority to
promulgate binding regulations. The BIA provides justification for the change in position by noting that state
courts have applied the ICWA inconsistently, which
makes binding regulations necessary. 81 Fed. Reg.
38,785. But when specifically addressing the change in
position about statutory authority under section 1952,
the BIA simply states that it “no longer agrees with the
statements it made in 1979.” Id. at 38,786. In the
analysis that follows, the BIA never addresses the fact
that the 1979 BIA determined that “[n]othing in the language or legislative history of 25 U.S.C. 1952 compels

515a
the conclusion that Congress intended to vest this Department with such extraordinary power” and that nothing indicated Congress intended the BIA to exercise supervisory or legislative control over the state court. 44
Fed. Reg. 67,584, (Nov. 26, 1979). While the BIA expresses frustration with how state courts and agencies
are applying the ICWA inconsistently, it does not address how, suddenly, it no longer believes the ICWA primarily tasks those state courts and agencies with the authority to apply the statute as they see fit. 81 Fed.
Reg. 38,782-90. 19
A current agency interpretation “in conflict with its
initial position, is entitled to considerably less deference” and is met with “a measure of skepticism.” Chamber, 885 F.3d at 381 (quoting Watt v. Alaska, 451 U.S.
259, 273 (1981); Util. Air Regulatory Grp v. EPA, 134
S. Ct. 2427, 2444 (2014)). The 1979 BIA acknowledged
that “where . . . primary responsibility for interpreting a statutory term rests with the courts, administrative interpretations of statutory terms are given important but not controlling significance.” 44 Fed. Reg.
67,584 (citing Batterton v. Francis, 432 U.S. 416, 424-25
(1977)). Because the BIA does not explain its change
in position over its authority to “carry out the provisions” and apply the ICWA—and therefore its authority
to issue binding regulations—the Court finds those regulations remain not necessary to carry out the ICWA.
As an example, in 1979 the BIA provided that the good cause
standard “was designed to provide state courts with flexibility in determining the disposition of a placement proceeding involving an Indian child.” 44 Fed. Reg. 67,584. The Final Rule, however, provided that “courts should only avail themselves of it in extraordinary
circumstances, as Congress intended the good cause exception to be
narrow and limited in scope.” 81 Fed. Reg. 38,839.
19

516a
See 25 U.S.C § 1952. Accordingly, when the BIA promulgated regulations with binding rather than advisory
effect, it exceeded the statutory authority Congress
granted to it to enforce the ICWA. 20 The Court finds
that 25 C.F.R. §§ 23.106-22, §§ 23.124-32 and §§ 23.14041 are INVALID to the extent the regulations are binding on the State Plaintiffs.
Assuming for the sake of argument that Congress
granted the BIA statutory authority to implement the
legally binding Final Rule, the Court will next consider
whether the Final Rule “fills in the statutory gaps” of an
ambiguous statute, and is entitled to Chevron deference.

At the hearing, the Federal Defendants argued that the Final
Rule’s clear and convincing evidence standard is not binding on
state courts. Hr’g Tr. 40:7-20. That argument contradicts the
Final Rule itself which clearly implements binding regulations to
counteract the very discretion Defendants argue states are allowed. See 25 CFR 23.132(b); see 81 Fed. Reg. 38,782, 38,786,
38,853. (“The Department’s current nonbinding guidelines are
insufficient to fully implement Congress’s goal of nationwide protections for Indian children . . . State courts will sometimes
defer to the guidelines in ICWA cases [but] State courts frequently
characterize the guidelines as lacking the force of law and conclude
that they may depart from the guidelines as they see fit.”; “As described above, the Department concludes today that this binding
regulation is within the jurisdiction of the agency, was encompassed by the statutory grant of rulemaking authority, and is necessary to implement the Act.”; “The final rule generally uses mandatory language, as it represents binding interpretations of Federal law.”). The preamble to the Final Rule does note that the
rule “does not categorically require,” that the clear and convincing
evidence standard be followed, but that statement cannot change
the fact that the Final Rule itself was promulgated as a binding
regulation. 81 Fed. Reg. 38,843.
20

517a
See Brown & Williamson Tobacco Corp., 529 U.S. at
159.
3. Chevron Deference and the Good Cause
Standard
When “a court reviews an agency’s construction of
the statute which it administers, it is confronted with
two questions. First, always, is the question whether
Congress has directly spoken to the precise question at
issue. If the intent of Congress is clear, that is the end
of the matter; for the court, as well as the agency, must
give effect to the unambiguously expressed intent of
Congress.” Chevron, 467 U.S. at 842-43; see, e.g., Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2125
(2016). If a statutory term is ambiguous, courts will assume Congress granted the implementing agency implicit authority to fill in the resulting statutory gaps.
Food and Drug Admin., 529 U.S. at 159. Commonly
referred to as Chevron deference, courts will defer to
the resulting agency interpretation if it is reasonable.
See Chevron, 467 U.S. at 837.
Here, Plaintiffs claim that the BIA violated the APA
when it promulgated § 23.132(b) of the Final Rule, which
limits the evidence that may be considered by courts to
determine “good cause” under section 1915 of the ICWA.
Ind. Pls.’ Resp. 60-63, ECF No. 80; State Pls.’ Reply 18,
ECF No. 142. Defendants argue that the Final Rule’s
interpretation of “good cause” is entitled to Chevron
deference. Trib. Defs.’ Resp. 39-47, ECF No. 118; Fed
Defs.’ Resp. Ind. 45-49, ECF No. 123.
“Where the text and structure of a statute unambiguously foreclose an agency’s statutory interpretation,
the intent of Congress is clear, and ‘that is the end of the

518a
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of Congress.” Chamber of Comm., 885 F.3d at 369 (quoting
Chevron, 467 U.S. at 842-43). To determine whether a
statute is ambiguous under Chevron, a court must:
(1) begin with the statute’s language; (2) give undefined
words their ordinary, contemporary, common meaning;
(3) read the statute’s terms in proper context and consider them based on the statute as a whole; and (4) consider a statute’s terms in light of the statute’s purpose.
Contender Farms, L.L.P v. U.S. Dep’t of Agric, 779 F.3d
258, 269 (5th Cir. 2015). But a current agency interpretation “in conflict with its initial position, is entitled
to considerably less deference.” Chamber of Comm.,
885 F.3d at 381 (quoting Watt v. Alaska, 451 U.S. 259,
273 (1981)).
Section 23.132(b) of the Final Rule interprets section
1915(b) of the ICWA, which provides in “any adoptive
placement of an Indian child under State law, a preference shall be given, in the absence of good cause to the
contrary, to a placement with (1) a member of the child’s
extended family; (2) other members of the Indian child’s
tribe; or (3) other Indian families.” 25 U.S.C. § 1915
(b). The Final Rule states that a “party seeking departure from the placement preferences should bear the
burden of proving by clear and convincing evidence that
there is ‘good cause’ to depart from the placement preferences.” 25 C.F.R. § 23.132(b).
Here, Plaintiffs contend that the Final Rule departs
from the BIA’s original 1979 interpretation and contradicts the “good cause” standard set by the ICWA because the Final Rule heightens the evidentiary burden.

519a
Ind. Pls.’ Reply 20-23, ECF No. 143. Defendants argue that “good cause” is an ambiguous term and it was
therefore appropriate for the BIA to promulgate—as
part of their interpretation of the term good cause—the
necessary evidentiary standard. Trib. Defs.’ Resp. 4445, ECF No. 118; Fed. Defs.’ Resp. Ind. 45, ECF No.
123. Plaintiffs counter that the default evidentiary
standard in civil cases, preponderance of the evidence,
applies to section 1915 and accordingly the Final Rule’s
clear and convincing evidence standard is not a permissible construction of the statute. Ind. Pls.’ Reply 20,
ECF No. 143. The issue here is whether Congress established an unambiguous evidentiary standard in section 1915 of the ICWA. That determination is distinct
from interpreting the meaning of the term good cause.
Congress did not codify a preponderance of the evidence standard in section 1915 of the ICWA. But other
portions of the ICWA specifically included heightened
evidentiary burdens. See 25 U.S.C. § 1912(e) (establishing a clear and convincing evidence standard for foster placements). Notably, unlike those sections, section 1915 does not establish a heightened evidentiary
standard in conjunction with the good cause requirement. “It is a ‘fundamental canon of statutory construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.’ ” Food & Drug Admin, 529 U.S. at
133. Similarly, “where Congress includes particular language in one section of a statute but omits it in another
. . . it is generally presumed that Congress acts intentionally and purposely in the disparate inclusion or exclusion.” Keene Corp. v. United States, 508 U.S. 200,
208 (1993) (quoting Russello v. United States, 464 U.S.
16, 23 (1983)). Because Congress included the clear

520a
and convincing evidence standard in certain sections of
the ICWA, but omitted it in section 1915, the Court presumes it did so intentionally.
When interpreting section 1915 the “silence is inconsistent with the view that Congress intended to require
a special, heightened standard of proof ” and “it is fair to
infer that Congress intended the ordinary preponderance [of the evidence] standard to govern . . . ”
Grogan v. Garner, 498 U.S. 279, 286-88 (1991). Here, a
holistic reading of the statute and the 1979 BIA guidelines confirms that Congress intended the default preponderance of the evidence standard to apply. Accordingly, defining an evidentiary standard in a way that
contradicts the standard intended by Congress, as the
BIA did in the Final Rule, is contrary to law.
Because the Court finds that the BIA lacked statutory authority to enact the challenged portions of the Final Rule, and that the evidentiary standard in section
1915 is unambiguous, Defendants are not entitled to
Chevron deference and the Final Rule’s change of standard to clear and convincing evidence is contrary to law.
For these reasons, the Court finds that Plaintiffs’ motion for summary judgment on their APA claim is
GRANTED.
E.

Fifth Amendment Due Process Claim

Individual Plaintiffs alone claim that sections 1910 (a)
and (b) of the ICWA, as well as the Final Rule, violate
the Fifth Amendment Due Process Clause. Ind. Pls.’
Br. 49-55, ECF No. 80. Plaintiffs argue that ICWA’s
racial preferences “disrupt . . . intimate familial relationships based solely on the arbitrary fact of tribal
membership” and that families have a fundamental right

521a
“to make decisions concerning the care, custody, and
control of their children.” Id. at 49, 50. The Federal
Defendants respond that this Court has no basis to “recognize a fundamental right where the Supreme Court
and Fifth Circuit have refused to do so.” Fed. Defs.’
Resp. Ind. 33, ECF No. 123. Defendants are correct.
The Supreme Court has recognized both custody and
the right to keep the family together as fundamental
rights. See Troxel v. Granville, 530 U.S. 57 (2000);
Moore v. City of East Cleveland, 431 U.S. 494 (1977).
However, the Supreme Court has never applied those
rights to foster families. See Drummond v. Fulton
Cnty. Dep’t of Family & Children’s Servs., 563 F.2d
1200, 1207 (5th Cir. 1977) (en banc). Similarly, the Supreme Court has not applied those rights in a situation
involving either prospective adoptive parents or adoptive parents whose adoption is open to collateral attack.
For these reasons, the Court finds that Plaintiffs’ motion for summary judgment on their substantive due
process claim is hereby DENIED.
F.

Indian Commerce Clause Claim

Plaintiffs also claim Congress did not have the constitutional authority to pass sections 1901-23 and sections 1951-52 of the ICWA under the Indian Commerce
Clause. Ind. Pls.’ Br. 66, ECF No. 80; State Pls.’ Br.
49-52, ECF No. 74. Defendants counter that the Indian Commerce Clause grants Congress plenary authority over Indian Affairs. Fed. Def ’s Resp. Ind. 35, ECF
No. 123; Trib. Defs.’ Resp. 21-28, ECF No. 118. But as
shown above, Murphy does not permit Congress to directly command the States in this regard, even when it
relies on Commerce Clause power. Murphy, 138 S. Ct.

522a
at 1479. Therefore Plaintiffs’ request for a declaration
that these sections are unconstitutional is GRANTED.
IV. CONCLUSION

For the reasons stated above, the Court finds that
Plaintiffs’ Motions for Summary Judgment (ECF Nos.
72, 79) should be and are hereby GRANTED in part and
DENIED in part.
SO ORDERED on this 4th day of Oct., 2018.

/s/ REED O’CONNOR
REED O’CONNOR
United States District Judge

523a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION

Civil Action No. 4:17-cv-00868-O
CHAD BRACKEEN, ET AL., PLAINTIFFS
v.
RYAN ZINKE, ET AL., DEFENDANTS
CHEROKEE NATION, ET AL., INTERVENORS-DEFENDANTS
Filed:

July 24, 2018
ORDER

All of the Defendants have filed Motions to Dismiss
(ECF Nos. 56, 58). 1 Defendants seek to dismiss Plaintiffs’ claims due to lack of standing. Plaintiffs oppose
these motions. For the following reasons, Defendants’
motions are DENIED.
I.

BACKGROUND

The following factual recitation is taken from Plaintiffs’ First Amended Complaint (ECF No. 35) unless
The Tribal Defendants “rely on, and incorporate by reference
as if fully set forth herein” Federal Defendants’ motion to dismiss.
See Tribal Defs.’ Mot. Dismiss, ECF No. 58. This Order will refer
to both motions collectively as Defendants’ Motion to Dismiss.
Federal Defendants were also the only Defendants to reply to
Plaintiffs’ Response.
1

524a
stated otherwise. Plaintiffs are composed of three states
—Texas, Louisiana, and Indiana, (collectively the “State
Plaintiffs”), and seven individual Plaintiffs—Chad Everett and Jennifer Kay Brackeen (the “Brackeens”), Nick
and Heather Libretti (the “Librettis”), Altagracia Socorro Hernandez (“Ms. Hernandez”), and Jason and
Danielle Clifford (the “Cliffords”) (collectively the “Individual Plaintiffs”). Am. Compl. 8-10, ECF No. 35.
Defendants are the United States of America; the
United States Department of the Interior (the “Interior”) and its Secretary Ryan Zinke (“Zinke”) in his official capacity; the Bureau of Indian Affairs (the “BIA”)
and its Director Bryan Rice (“Rice”) in his official capacity; BIA Principal Assistant Secretary for Indian Affairs
John Tahsuda, III (“Tahsuda”) 2 in his official capacity;
the Department of Health and Human Services (“HHS”)
and its Secretary Alex M. Azar II (“Azar”) (collectively,
the “Federal Defendants”). Id. Shortly after this
case was filed the Cherokee Nation, Oneida Nation, Quinalt Indian Nation, and Morengo Band of Mission Indians (collectively “Tribal Defendants”) filed an unopposed motion to intervene, which the Court granted.
See Trib. Defs.’ Mot. Intervene, ECF No. 42; 28 March
2018 Order, ECF No. 45.
Initially Plaintiffs sued Michael Black in his official capacity as
Acting Assistant Secretary of Indian Affairs. See Orig. Compl.
¶ 17, ECF No. 1. On September 13, 2017, U.S. Secretary of the
Interior Ryan Zinke appointed John Tahsuda III as the Department of Interior’s Principal Assistant Secretary of Indian Affairs.
Press Release, Secretary Zinke Names John Tahsuda III the
Principal Deputy Assistant Secretary for Indian Affairs, DEP’T
OF THE INT., (Sept. 13, 2017), https://www.doi.gov/pressreleases/
secretary-zinke-names-john-tahsuda-iii-principal-deputy-assistantsecretary-indian. Accordingly, he is substituted as a Defendant.
2

525a
This case is about the constitutionality of the Indian
Child Welfare Act (the “ICWA”) and the accompanying
regulations (codified at 25 C.F.R. pt. 23) known as the
Indian Child Welfare Act Proceedings (the “Final
Rule”) as promulgated by the BIA, as well as certain
provisions of the Social Security Act (“SSA”) that predicate federal funding for portions of state child-welfare
payments on compliance with the ICWA. Plaintiffs argue that the ICWA and the Final Rule implement a system that mandates racial and ethnic preferences, in direct violation of state and federal law. Am. Comp.
¶ 193, ECF No. 35 (citing TEX. FAM. CODE §§ 162.015,
264.1085; LA. CONST. ART. 1, § 3; 42 U.S.C. § 1996b).
Plaintiffs ask that the Final Rule be declared invalid and
set aside as a violation of substantive due process and as
not in accordance with law (Counts One and Five). 5
U.S.C. § 705(2)(A); Am. Compl. ¶¶ 265, 349, ECF No. 35.
Plaintiffs also ask that the ICWA, specifically §§ 190123 and 1951-52, be declared unconstitutional under Article One and the Tenth Amendment of the United
States Constitution because the provisions violate the
Commerce Clause, intrude into state domestic relations,
and violate principles of anti-commandeering (Counts
Two and Three). Am. Compl. ¶¶ 281, 323, ECF No. 35.
Finally, Plaintiffs ask that the ICWA §§ 1915(a)-(b) be
declared unconstitutional in violation of substantive due
process and the Equal Protection Clause of the Fifth
Amendment to the United States Constitution (Counts
Four and Six). Am. Compl. ¶¶ 338, 367, ECF No. 35.
The State Plaintiffs alone bring the final count, seeking
a declaration that ICWA § 1915(c) and Final Rule
§ 23.130(b) violate the non-delegation doctrine (Count
Seven). Am. Compl. ¶ 376, ECF No. 35. Defendants

526a
move to dismiss, challenging the standing of all Plaintiffs to bring their claims.
A.

The ICWA and SSA

Congress passed the ICWA in the mid-1970s due to
rising concern over “abusive child welfare practices that
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption
or foster care placement, usually in non-Indian homes.”
Miss. Band of Choctaw Indians v. Holyfield, 490 U.S.
30, 32 (1989). “Congress found that ‘an alarmingly
high percentage of Indian families [were being] broken
up by the removal, often unwarranted, of their children
from them by nontribal public and private agencies.’ ”
Adoptive Couple v. Baby Girl, 133 S. Ct. 2552, 2557
(2013) (quoting 25 U.S.C. § 1901(4)). Recognizing “that
there is no resource that is more vital to the continued
existence and integrity of Indian tribes than their children,” Congress created a framework to govern the
adoption of Indian children. See 25 U.S.C. §§ 1901-63.
This framework establishes: (1) placement preferences; (2) good cause to depart from placement preferences; (3) standards and responsibilities for state courts
and their agents; and (4) fiscal and procedural consequences if the ICWA is not followed. See id.
The ICWA itself established “minimum Federal standards for the removal of Indian children from their families and the placement of such children in foster or adoptive homes.” 25 U.S.C. § 1902. The ICWA mandates
placement preferences in foster care, preadoptive, and
adoptive proceedings involving Indian children. 25
U.S.C. § 1915. The ICWA requires that “in any adoptive placement of an Indian child under State law, a preference shall be given, in the absence of good cause to the

527a
contrary, to a place with: (1) a member of the child’s
extended family; (2) other members of the Indian child’s
tribe; or (3) other Indian families.” 25 U.S.C. § 1915(a).
Similar requirements are set for foster care or preadoptive placements. Id. § 1915(b). If the Indian
child’s tribal court should establish a different order of
the preferences, the state court or agency “shall follow
such order so long as the placement is the least restrictive setting appropriate to the particular needs of the
child.” Id. § 1915(c).
Absent good cause, the state court shall transfer proceedings concerning an Indian child to the Indian child’s
tribal court. 25 U.S.C. § 1911(b). In any state court
proceeding for the “foster care placement of, or termination of parental rights to, an Indian child, the Indian
custodian of the child and the Indian child’s tribe shall
have a right to intervene at any point in the proceeding.”
25 U.S.C. § 1911(c). The ICWA prohibits the termination of parental rights for an Indian child in the absence
of “evidence beyond a reasonable doubt, including testimony of qualified expert witnesses, that continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage
to the child.” 25 U.S.C. § 1912(f ).
State agencies and courts must notify potential intervenors and the Director of the BIA of an Indian child
matter. 25 U.S.C. § 1912. In any involuntary Indian
child custody proceeding for foster care placement or
termination of parental rights, the ICWA commands
state agencies and courts to notify the parents or Indian
custodian and the Indian child’s tribe of the pending
proceedings and of their right to intervention. 25
U.S.C. § 1912(a). Copies of these notices must be sent

528a
to the Secretary of the Interior and the BIA. The
ICWA also grants the Indian custodian or tribe up to
twenty additional days to prepare for such proceedings.
Id.
The ICWA imposes a ten-day waiting period on the
termination of parental rights to an Indian child. 25
U.S.C. § 1913(a). Before such parental rights are terminated “any parent or Indian custodian may withdraw
consent to a foster care placement under State law at
any time.” Id. § 1913(b). In any voluntary proceeding for termination of parental rights or adoptive placement of an Indian child, the biological parents or the Indian tribe may withdraw consent for any reason prior to
the entry of a final decree, and the child shall be returned to its parents or guardians. Id. § 1913(c). Finally, the ICWA permits the parent of an Indian child to
withdraw consent to a final decree of adoption on the
grounds that the consent was obtained through fraud or
duress for up to two years after the final decree. 25
U.S.C. § 1913(d); Am. Compl. ¶¶ 58-60, ECF No. 35.
The ICWA places recordkeeping duties on state
agencies and courts to demonstrate states’ compliance
with the statute. 25 U.S.C. § 1915(e); Am. Compl. ¶ 61,
ECF No. 35. Additionally, state courts entering final
decrees must provide the Secretary of the Interior with
a copy of the decree or order, along with the name and
tribal affiliation of the child, names of the biological parents, names of the adoptive parents, and the identity of
any agency having files or information relating to the
adoption. 25 U.S.C. § 1951.
If the state court or prospective guardians fail to
comply with the ICWA, the final child custody orders or
placements may be overturned on appeal or by another

529a
court of competent jurisdiction. 3 25 U.S.C. § 1914.
To ensure state agencies and courts comply with the
ICWA’s mandates, it enables any Indian child who is the
subject of any action under the ICWA, any parent or Indian custodian from whose custody the child was removed, and the Indian child’s tribe, to petition any court
of competent jurisdiction to invalidate a state court’s decision for failure to comply with the ICWA §§ 1911, 1912,
and 1913. 25 U.S.C. § 1914. Section 1914 has also
been applied to allow collateral attacks to adoptions after the close of the relevant window under state law.
See Id.; Am. Compl. ¶ 67, ECF No. 35; see e.g., Belinda
K. v. Baldovinos, No. 10-cv-2507, 2012 WL 13571, at *4
(N.D. Cal. Jan. 4, 2012).
Congress has also tied child welfare funding to compliance with the ICWA. The SSA requires states who
receive child welfare funding through Title IV-B, Part 1
of the SSA to file annual reports, including a description
of their compliance with the ICWA. Am. Compl. ¶ 68,
ECF No. 35; Pub. L. No. 103-432, § 204, 108 Stat. 4398
(1994); 42 U.S.C. § 622(a). Title IV-B funding is partially contingent on how well the states demonstrate
they comply with the ICWA. Part ‘b’ requires that this
plan must also “contain a description, developed after
consultation with tribal organizations . . . in the
State, of the specific measures taken by the State to
comply with the [ICWA].” 42 U.S.C. § 622(b).
While “court of competent jurisdiction” is not defined in the
ICWA or the Final Rule, state appellate courts and federal district
courts have heard challenges to adoption proceedings under the
ICWA. See e.g., Oglala Sioux Tribe v. Van Hunnik, 993 F. Supp.
2d 1017, 1022 (D.S.D. 2014); Doe v. Mann, 285 F. Supp. 2d 1229,
1231 (N.D. Cal. 2003).
3

530a
Congress expanded the requirement for States to
comply with the ICWA to receive SSA funding in 1999
and 2008 when it amended Title IV-E to require States
to certify ICWA compliance to receive foster care and
adoption services funding. Foster Care Independence
Act of 1999, Pub. L. No. 106-69, § 101, 113 Stat. 1822
(1999); Fostering Connections to Success and Increasing Adoptions Act of 2008, Pub. L. No. 110-351, § 301,
122 Stat. 3949 (2008).
Finally, HHS regulations state that the HHS Administration for Children and Families (“ACF”) “will determine a title IV-E agency’s substantial conformity with
title IV-B and title IV-E plan requirements” based on
“criteria related to outcomes.” 45 C.F.R. § 1355.34(a).
Part ‘b’ of the same section includes compliance with the
ICWA. 54 C.F.R. § 1355.34(b).
In fiscal year 2018, Congress allocated Texas approximately $410 million in federal funding for Title IV-B
and Title IV-E programs, Louisiana received approximately $64 million, and Indiana received approximately
$189 million. Am. Compl. ¶¶ 76-78, ECF No. 35.
Plaintiffs argue that HHS and Secretary Azar administer funding under Title IV-B and Title IV-E and are
vested with discretion to approve or deny a state’s compliance with the requirements of 42 U.S.C. §§ 622, 677.
Because of this, Plaintiffs claim that funding for Title
IV-B and IV-E is dependent on compliance with the
ICWA. Am. Compl. ¶ 80, ECF No. 35.
B.

The Final Rule

In 1979, before passage of the Final Rule, BIA promulgated Guidelines for State Courts—the Indian Child
Custody Proceedings (the “1979 Guidelines”). Am.

531a
Compl. ¶ 82, ECF No. 35. BIA intended these guidelines to assist in the implementation of the ICWA but
they were “not intended to have binding legislative effect.” 44 Fed. Reg. 67,584 (Nov. 26, 1979). The 1979
Guidelines left the “primary responsibility” for interpreting the ICWA “with the courts that decide Indian
child custody cases.” Id. It also emphasized that “the
legislative history of the Act states explicitly that the
use of the term ‘good cause’ was designed to provide
state courts with flexibility in determining the disposition of a placement proceeding involving an Indian
child.” Id. As state courts applied the ICWA, some
held that the ‘good cause’ exception to the ICWA placement preferences required a consideration of a child’s
best interest, including any bond or attachment the child
formed. See e.g., In re Interest of Bird Head, 331
N.W.2d 785, 791 (Neb. 1983); In re Appeal in Maricopa
Cnty,. Juvenile Action No. A-25525, 667 P.2d 228, 234
(Ariz. Ct. App. 1983); see also Am. Compl. ¶ 83, ECF No.
35. Other state courts limited the ICWA’s application
to situations where the child had some significant political or cultural connection to the tribe. Am. Compl.
¶ 84, ECF No. 35; see, e.g., In re Interest of S.A.M, 703
S.W.2d 603, 608-09 (Mo. Ct. App. 1986); Claymore v.
Serr, 405 N.W.2d 650, 653-54 (S.D. 1987); In re Adoption
of T.R.M., 525 N.E.2d 298, 303 (Ind. 1988); Hampton v.
J.A.L., 658 So. 2d 331, 335 (La. Ct. App. 1995).
In June of 2016, BIA promulgated the Final Rule,
which purported to “clarify the minimum Federal standards governing implementation of the [ICWA]” and to
ensure that the ICWA “is applied in all States consistent
with the Act’s express language.” 25 C.F.R. § 23.101.
The regulations declared that while BIA “initially hoped
that binding regulations would not be necessary to carry

532a
out [the ICWA], a third of a century of experience has
confirmed the need for more uniformity in the interpretation and application of this important Federal law.”
81 Fed. Reg. at 38,782.
The main departure from the previous decades of
practice under the ICWA was the Final Rule’s definition
of the ‘good cause’ exception to the preference placements. Am. Compl. ¶ 116, ECF No. 35. The Final
Rule noted that “State courts . . . differ as to what
constitutes ‘good cause’ for departing from ICWA’s
placement preferences.” 81 Fed. Reg. at 38,782. In
response, the Final Rule mandates that “[t]he party
urging that ICWA preferences not be followed bears the
burden of proving by clear and convincing evidence the
existence of good cause” to deviate from such a placement. 81 Fed. Reg. at 38,838; see also 25 C.F.R.
§ 23.132(b).
The Final Rule provides that state courts “may not
consider factors such as the participation of the parents
or Indian child in Tribal cultural, social, religious, or political activities, the relationship between the Indian
child and his or her parents, whether the parent ever
had custody of the child, or the Indian child’s blood
quantum.” 81 Fed. Reg. at 38,868 (codified at 25
C.F.R. § 23.103(c)).
Plaintiffs contrast the 1979 statutory text where “the
use of the term ‘good cause’ was designed to provide
state courts with flexibility” to the Final Rule, which
now claims that “Congress intended the good cause exception to be narrow and limited in scope.” Compare
44 Fed. Reg. 67,584 (Nov. 26, 1979), with 81 Fed. Reg.
at 38,839. Accordingly, the Final Rule sets forth “five
factors upon which courts may base a determination of

533a
good cause to deviate from the placement preferences,”
and further “makes clear that a court may not depart
from the preferences based on the socioeconomic status
of any placement relative to another placement or based
on the ordinary bonding or attachment that results from
time spent in a non-preferred placement that was made
in violation of ICWA.” 81 Fed. Reg. at 38,839; see also
25 C.F.R. § 23.132(c)-(e); Am. Compl. ¶ 118, ECF No. 35.
Beyond the narrowing of what state courts may consider in determining “good cause,” the Final Rule places
more responsibilities on the states to determine if the
child is an Indian child. 25 C.F.R. § 23.107(a). These
inquiries “should be on the record,” and “State courts
must instruct the parties to inform the court if they subsequently receive information that provides reason to
know the child is an Indian child.” Id., § 23.107(b).
Whenever a state court enters a final adoption decree or
an order in an Indian child placement, the Final Rule
requires the state court or agency to provide a copy of
the decree or order to BIA. Id. § 23.140. The Final
Rule requires states to “maintain a record of every voluntary or involuntary foster care, preadoptive, and adoptive placement of an Indian child and make the record
available within 14 days of a request by an Indian child’s
Tribe or the Secretary [of the Interior].’ ” Id. § 23.141.
In an involuntary foster care or termination of parental rights proceeding, the Final Rule requires state courts
to ensure and document that the state agency has used
“active efforts” to prevent the breakup of the Indian
family. Id. § 23.120. The Final Rule defines “active
efforts” to include “assisting the parent or parents or
Indian custodian through the steps of a case plan and

534a
with accessing or developing the resources necessary to
satisfy the case plan.” Id. § 23.2.
When determining if the child is an Indian child, only
the Indian tribe of which it is believed the child is a member may determine whether the child is a member of the
tribe or eligible for membership.
Id. § 23.108(a).
“The State court may not substitute its own determination regarding a child’s membership in a Tribe, a child’s
eligibility for membership in a Tribe, or a parent’s membership in a Tribe.” Id. § 23.108(b). But when the
child meets the definition of “Indian child” for more than
one tribe, then the Final Rule instructs state agencies
and courts to defer to “the Tribe in which the Indian
child is already a member,” or allow “the Tribes to determine which should be designated as the Indian child’s
Tribe.” Id. § 23.109(b)-(c). Only when the tribes disagree about the child’s membership may the state courts
designate the tribe to which the child belongs, and the
Final Rule provides criteria the courts must use in making that designation. Id. § 23.109(c)(2).
The Final Rule instructs state courts to dismiss a voluntary or involuntary child custody proceeding when
the Indian child’s residence or domicile is on a reservation where the tribe exercises exclusive jurisdiction over
child custody proceedings. 25 C.F.R. § 23.110(a). The
Final Rule requires state courts to terminate child custody proceedings if any party or the court has reason to
believe that the Indian child was improperly removed
from the custody of his parent or Indian custodian. 25
C.F.R. § 23.114.

535a
C.

The Pertinent Adoption Proceedings

1. The Brackeens and A.L.M.
The Brackeens wished to adopt A.L.M, who was born
in Arizona to an unmarried couple, M.M. and J.J. Am.
Compl. ¶ 127, ECF No. 35. A.L.M. is an Indian child
under the Final Rule because he is eligible for membership in two Indian tribes—his biological mother is an enrolled member of the Navajo Nation, and his biological
father is an enrolled member of the Cherokee Nation.
Id.; see 25 C.F.R. § 23.2. A few days after A.L.M. was
born, his biological mother brought him to Fort Worth,
Texas, to live with his paternal grandmother. When he
was ten months old, Child Protective Services (“CPS”),
a division of the Texas Department of Family and Protective Services (“DFPS”), removed A.L.M. from his
grandmother and placed him in foster care with the
Brackeens. Id. ¶ 129. Per the ICWA and the Final
Rule, the Cherokee Nation and the Navajo Nation were
notified of A.L.M.’s placement with the Brackeens. Id.
The Court identified no ICWA-preferred foster placement for A.L.M., so he remained with the Brackeens.
Id. A.L.M. lived with the Brackeens for more than sixteen months before—with the support of his biological
parents and paternal grandmother—the Brackeens
sought to adopt him. Am. Compl. ¶ 128, ECF No. 35.
On May 2, 2017, a Texas state court terminated the
parental rights of A.L.M.’s biological parents, making
him eligible for adoption under Texas law. Id. ¶ 132.
In June 2017, a year after the Brackeens took custody
of A.L.M., the Navajo nation notified the family court
that it located a potential alternative placement for
A.L.M. with non-relatives in New Mexico. Id. ¶ 133.

536a
On July 29, 2017, the Brackeens filed an original petition in the 323rd District Court, Tarrant County, Texas
seeking to adopt A.L.M. Id. ¶ 134. The Cherokee and
Navajo Nations were notified of the adoption proceeding. Id. ¶ 135; see 25 C.F.R. § 23.11. No one intervened in the Texas adoption proceeding or otherwise
formally sought to adopt A.L.M. Am. Compl. ¶ 135,
ECF No. 35. On August 1, 2017, the family court held
a hearing regarding the Brackeens’ petition for adoption. Id. ¶ 137. At that hearing, the Navajo Nation’s
social worker testified that the two tribes “came up with
[an] agreement” among themselves in the hallway prior
to the hearing to determine the designation of A.L.M.’s
tribe. Id. ¶ 138. According to that agreement, they
decided to designate the Navajo Nation as A.L.M.’s
tribe, but this “determination of [A.L.M.’s] Tribe for
purposes of ICWA and [the Final Rule] do[es] not
constitute a determination for any other purpose.” 25
C.F.R. § 23.109(c)(3).
Under the ICWA and the Final Rule placement preferences, absent good cause, an Indian child should be
placed with an Indian relative, member of the child’s
tribe, or another Indian party. See 25 U.S.C. § 1915(a).
The Brackeens argued in state court that the ICWA’s
placement preferences should not apply because they
were the only party formally seeking to adopt A.L.M.,
and that good cause existed to depart from the preferences. The burden is on the party seeking adoption to
prove “by clear and convincing evidence that there was
‘good cause’ ” to allow them, a non-Indian couple, to
adopt A.L.M. 25 C.F.R. § 23.132(b). The Brackeens
submitted testimony by A.L.M.’s biological parents, his
court appointed guardian, and an expert in psychology
to show good cause. Am. Compl. ¶ 141, ECF No. 35.

537a
However, Texas DFPS pointed to the Final Rule’s
heightened evidentiary requirements and argued that
the Brackeens did not satisfy the heightened requirements to justify a departure from the placement preferences. Id. ¶ 142.
The family court denied the Brackeens’ adoption petition, citing the ICWA and the Final Rule, concluding
that the Brackeens failed to satisfy the burden of proof
necessary to depart from the placement preferences.
Id. ¶ 143; see 23 C.F.R. § 23.132; Order Denying Request
for Adoption of Child, In re A.L.M., a Child, No. 323105593-17 (323rd Dist. Ct., Tarrant Cnty., Tex. Aug. 22,
2017). DFPS notified all parties of its intention to
move A.L.M. to the Navajo Nation’s proposed placement in New Mexico. Am. Compl. ¶ 145, ECF No. 35.
The Brackeens sought and obtained an emergency order preventing any placement of A.L.M. Id. ¶ 146.
DFPS then proposed to take A.L.M., without the Brackeens, on an overnight visit to the proposed New Mexico
placement. Id. ¶ 147-49. But, before that occurred,
the proposed New Mexico placement withdrew their offer to adopt A.L.M., leaving the Brackeens the only
party seeking to adopt A.L.M. Id. ¶ 150. The Brackeens and A.L.M’s guardian ad litem then entered into a
settlement agreement to that effect. Id. ¶ 150.
In January 2018, the Brackeens successfully petitioned to adopt A.L.M., but under the ICWA and the Final Rule, the Brackeens’ adoption of A.L.M. is open to
collateral attack for two years. Id. ¶ 152. Plaintiffs
explain that the Brackeens intend to continue to provide
foster care for, and possibly adopt, additional children
in need, but they are reluctant, after this experience, to

538a
provide foster care for other Indian children in the future. Id. ¶ 154. Plaintiffs argue that the ICWA and
the Final Rule therefore interferes with the Brackeens’
intention and ability to provide a home to additional children. Id. Additionally, Plaintiffs argue that this legal
regime damages Texas by limiting the supply of available, qualified homes necessary to help foster-care children in general, and Indian children, in particular. Id.
2. The Librettis and Baby O.
The Librettis are a married couple living in Sparks,
Nevada. Id. ¶ 156. They sought to adopt Baby O. when
she was born in March of 2016. Baby O.’s biological
mother, Ms. Hernandez, felt that she would be unable to
care for Baby O. and wished to place her for adoption at
her birth. Id. ¶ 157. Baby O. has significant medical
needs but the Librettis welcomed her into their family,
along with other adopted children and a biological son.
Id. ¶ 158. Ms. Hernandez has continued to be a part of
Baby O.’s life and she and the Librettis visit each other
regularly. Id. ¶ 162.
Baby O.’s biological father, E.R.G., is descended from
members of the Ysleta del sur Pueblo Tribe (“Pueblo
Tribe”), located in El Paso, Texas. Id. ¶ 163. At the
time of Baby O.’s birth, E.R.G. was not a registered
member of the Tribe. Id. Baby O.’s biological paternal grandmother is a registered member of the Pueblo
Tribe. The Pueblo Tribe intervened in the Nevada custody proceedings in an effort to remove Baby O. from
the Librettis and send her to foster care on Pueblo Tribe
reservation in west Texas. Id. ¶ 164. To date, the
Pueblo Tribe identified thirty-six potential placements,
each requiring Nevada to conduct full home studies as
an agent of the Pueblo Tribe. Id. ¶¶ 165-66. Given

539a
Baby O.’s significant medical needs, Nevada found the
first seven home studies designated by the tribe unsuitable. Currently, Nevada is in the process of reviewing
the additional twenty-nine proposed homes nominated
by the Pueblo Tribe to take foster care of Baby O. Id.
¶ 167.
Once the Librettis joined the challenge to the constitutionality of the ICWA and the Final Rule, the Pueblo
Tribe indicated its willingness to discuss settlement.
Id. ¶ 168. While the settlement negotiations may result in the Librettis adopting Baby O., Plaintiffs point
out that any settlement would still be subject to collateral attack under the ICWA for two years. Id. ¶ 168.
The Librettis intend to petition to adopt Baby O. as soon
as they are able; they are the only people who have indicated an intent to adopt her; and they are the only family
she has known. Id. ¶ 169. Similar to the Brackeens,
the Librettis intend to provide foster care for and possibly adopt additional children in need. Id. ¶ 170. Due
to their experiences with the ICWA, the Librettis are
“reluctant to provide a foster home for other Indian children in the future.” Id.
3. The Cliffords and Child P.
The Cliffords live in Minnesota and seek to adopt
Child P. Id. ¶ 173. Child P. was born in July 2011 and
placed in foster care in 2014 when her biological parents
were arrested and charged with various drug-related offenses. Id. ¶ 171. For two years, Child P. moved between various foster parents and relatives without a stable or permanent home. Id. The State of Minnesota
attempted to return Child P. to her biological mother,
but when her mother relapsed, the state returned Child

540a
P. to foster care. Id. ¶ 172. Finally, Minnesota terminated the biological mother’s parental rights and placed
her with the Cliffords in July 2016. Id. The Cliffords
seek to adopt Child P. and “have continually worked to
help her feel that she is a part of their family and community.” Id. ¶ 173.
Child P.’s maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Id. ¶ 174. When Child P. first
entered the state foster care system, her biological
mother informed the state court that Child P. was not
eligible for tribal membership. Id. In the fall of 2014,
several months after Child P. entered foster care, the
White Earth Band notified the court that Child P. was
not eligible for membership. Id. Nevertheless, the
state court sent notices to the White Earth Band that
Child P. was in the custody of the state, as required by
the ICWA. Id. Then, in January 2017, six months after Child P. was placed with the Cliffords, the White
Earth Band wrote the court and insisted that Child P.
was eligible for membership. Id. Most recently, the
White Earth Band announced that Child P. was not only
eligible but was now a member of the White Earth Band
for the purposes of the ICWA. Id. ¶ 175. The Minnesota state court considered itself bound by this latest
pronouncement and concluded that the ICWA must apply to all custody determinations concerning Child P.
Id.
No other family has moved to adopt Child P. Id.
¶ 176. However, because the ICWA placement preferences apply, Minnesota removed Child P. from the
Cliffords and placed her in the care of her maternal
grandmother in January 2018. Id. ¶ 176. According

541a
to Plaintiffs, Child P.’s grandmother was previously denied a foster care license by the state. Id.
Child P.’s guardian ad litem supports the Cliffords’
efforts to adopt her and agrees that this is in Child P’s
best interest. Id. ¶ 177. However, due to the application of the ICWA, the Cliffords and Child P. remain separated and the Cliffords face heightened legal barriers
to adopt Child P. Id. Just like the other Individual
Plaintiffs, if the Cliffords are successful in petitioning
for adoption, that adoption may be attacked for two
years under the ICWA. 25 U.S.C. § 1915(a).
D.

State Plaintiffs

Texas, Louisiana, and Indiana bring this suit in their
capacities as sovereign states. Id. ¶ 178. They claim
that the ICWA and the Final Rule harm state agencies
charged with protecting child welfare by usurping their
lawful authority of the regulation of child custody proceedings and management of child welfare services.
Id. Additionally, the ICWA and the Final Rule jeopardize millions of dollars in federal funding. Id. The
State Plaintiffs have at least one Indian tribe living
within their borders and have regular dealings with Indian child adoptions and the ICWA. 4 Id.
Three federally recognized tribes live in Texas—Yselta del Sur
Pueblo in El Paso, Texas; the Kickapoo Tribe in Eagle Pass, Texas;
and the Alabama-Coushatta Tribe near Livingston, Texas. Both
the Kickapoo Tribe and the Alabama-Coushatta Tribe have reservations in Texas. Am. Compl. ¶ 179, ECF No. 35. Four tribes exist
in Louisiana—Chitimacha Tribe in Charenton, Louisiana; Coushatta Tribe in Elton, Louisiana; Tunica-Biloxi Tribe in Marksville,
Louisiana; and Jena Band of Choctaw Indians in Jena, Louisiana.
Id. ¶ 180. One federally recognized tribe exists in Indiana: Pokagon Band of Potawatomi Indians. Id. ¶ 181. For example, as of
4

542a
Plaintiffs argue that the ICWA and the Final Rule
place significant responsibilities and costs on state agencies and courts to carry out federal Executive Branch
directives. Id. ¶ 187. Texas DFPS, Louisiana Department of Child and Family Services (“DCFS”), and Indiana Department of Child Services (“DCS”) each handle
several Indian child cases every year. Id. ¶ 188.
The State Plaintiffs require their state agencies and
courts to act in the best interest of the child in foster
care, preadoptive, and adoptive proceedings. Id. ¶ 191.
But the State Plaintiffs argue that the ICWA and Final
Rule require these courts and agencies to apply the
mandated placement preferences, regardless of the
child’s best interest, if the child at issue is an “Indian
child.” Id. ¶¶ 194-95. Additionally, the State Plaintiffs
argue that the ICWA’s requirement that state courts
submit their authority to a mandate from the Indian
child’s tribe violates state sovereignty because the Indian tribe is not an equally-footed sovereign deserving
full faith and credit. Id. ¶ 196; 25 U.S.C. § 1915(c).
In every child custody case, the ICWA and Final
Rule requires the State Plaintiffs to undertake additional responsibilities, inquiries, and costs. Id. ¶ 197.
As an example of how the ICWA and the Final Rule affects state procedures, the State Plaintiffs submit the
Texas CPS Handbook (the “Texas Handbook”). The
Texas Handbook contains Texas DFPS’s policies and
procedures for compliance with the ICWA and the Final
Rule. Id. ¶ 198. First, these standards require that,
December 2017, there were thirty-nine children in the care of Texas
DFPS who were verified to be enrolled or eligible for membership
in a federally recognized tribe, many of them living in Texas DFPS
homes. Id. ¶ 189.

543a
in every case, CPS workers determine if the child or the
child’s family has Native American ancestry or heritage.
Id. ¶ 199; Am. Compl., Ex. 1 (Texas Handbook) [hereinafter “Texas Handbook”] § 1225, ECF No. 35. The
Texas Handbook instructs agencies how to ascertain if
the ICWA and the Final Rule apply, how to comply with
it, and warns that failure to comply could result in
the final adoption order being overturned. Am. Compl.
¶¶ 200-204. The Texas Handbook also warns that if an
Indian child is taken into DFPS custody, “almost every
aspect of the social work and legal case is affected.”
Texas Handbook § 5844, ECF No. 35. If the ICWA applies, the legal burden of proof for removal, obtaining a
final order terminating parental rights, and restricting
a parent’s custody rights is higher. Id. Texas DFPS
must serve the child’s parent, tribe, Indian custodian,
and the BIA with a specific notice regarding the ICWA
rights, and DFPS and its caseworkers “must make active efforts to reunify the child and biological Indian
family.” Id. Finally, the child must be placed according to the ICWA statutory preferences; expert testimony on tribal child and family practices may be necessary; and a valid relinquishment of parental rights requires a parent to appear in court and a specific statutory procedure is applied. Id.
Indiana and Louisiana have similar requirements in
place to assure that their child welfare systems comply
with the ICWA and Final Rule. See Am. Compl. ¶¶ 20919. Louisiana DCFS must maintain on-going contact
with the Indian child’s tribe because each tribe may
elect to handle the ICWA differently. Id. ¶ 220. They
are also required to ensure that the state agencies take
“all reasonable steps” to verify the child’s status. 25
C.F.R. § 23.124.

544a
The ICWA and the Final Rule require state judges
to ask each participant, on the record, at the commencement of child custody proceedings whether the person
knows or has reason to know whether the child is an Indian child and directs the parties to inform the court
of any such information that arises later. 25 C.F.R.
§ 23.107(a). If the state court believes the child is an
Indian child, it must document and confirm that the relevant state agency: (1) used due diligence to identify
and work with all of the tribes that may be connected to
the child; and (2) conducted a diligent search to find suitable placements meeting the preference criteria for Indian families. Id. §§ 23.107(b), 23.132(c)(5). The ICWA
and the Final Rule require the State Plaintiffs’ agencies
and courts to maintain indefinitely records of placements involving Indian children, and subject those records to inspection by the Director of BIA and the child’s
Indian tribe at any time. 25 U.S.C. §§ 1915(e), 1917;
25 C.F.R. §§ 23.140-41. This increases costs for State
Plaintiffs’ agencies and courts who have to maintain additional records not called for under state law and hire
or assign additional employees to maintain these records indefinitely. Am. Compl. ¶ 225, ECF No. 35.
The statutes also affect the State Plaintiffs’ rules of
civil procedure. ICWA § 1911(c) and the Final Rule
dictate that the Indian child’s custodian and the child’s
tribe must be granted mandatory intervention. Texas
Rule of Civil Procedure 60 permits Texas courts to
strike the intervention of a party upon a showing of sufficient cause by another party, but the ICWA prevents
the rule’s application to child custody cases involving Indian children. TEX. R. CIV. PRO. 60. In Louisiana, any
person with a justiciable interest in an action may intervene. LA. CODE CIV. PROC. ART. 1091. In Indiana, a

545a
person may intervene as of right or permissively, similar
to the Federal Rules of Civil Procedure. IND. R. TR.
PROC. 24. The ICWA, however, eliminates these requirements and provides mandatory intervention for
the Indian child’s custodian and the child’s tribe. Am.
Compl. ¶ 231, ECF No. 35.
Finally, the ICWA and the Final Rule override the
State Plaintiffs’ laws with respect to voluntary consent
to relinquish parental rights. Id. ¶ 234. Texas law
permits voluntary relinquishment of parental rights 48
hours after the birth of the child; Louisiana allows surrender prior to or after birth of the child and surrender
of maternal rights five days after the birth of the child;
and Indiana permits voluntary termination of parental
rights after birth of the child.
TEX. FAM. CODE
§ 161,103(a)(1); LA. CHILD CODE ART. 1130; IND. CODE
§31-35-1-6. The ICWA and Final Rule prohibit any
consent until ten days after the birth. 25 U.S.C. § 1913(a);
25 C.F.R. § 23.125(e).
The ICWA and Final Rule also affect how long a final
adoption decree is subject to challenge. Under the
ICWA, state courts must vacate a final adoption decree
involving an Indian child, and return the child to the biological parent, anytime within two years if the biological parent withdraws consent on the grounds that it was
obtained through fraud or duress. 25 U.S.C. § 1913(d);
25 C.F.R. § 23.136. This directly conflicts with Texas,
Louisiana, and Indiana law, which provide that an adoption decree is subject to direct or collateral attack for no
more than one year. See, TEX. FAM. CODE § 162.012(a)
(up to six months); Goodson v. Castellanos, 214 S.W.3d
741, 748-49 (Tex. App.—Austin 2007, pet. denied); LA.
CHILD. CODE ART. 1263; IND. CODE § 31-19-14-2. It

546a
also contradicts the Texas common law principle, as well
as Indiana statutory law, which hold that the best interest of the child is served by concluding child custody decisions so that these decisions are not unduly finalized.
In re M.S., 115 S.W.3d 534, 548 (Tex. 2003); IND. CODE
§ 31-19-14-2. The ICWA however permits the invalidation, by any court of competent jurisdiction, of a state
court’s final child custody order if it fails to comply with
the ICWA. 25 U.S.C. § 1914; 25 C.F.R. § 23.137. 5
Finally, if states fail to comply with the ICWA, they
risk losing funding for child welfare services under Title
IV-B and Title IV-E of the SSA. Am. Compl. ¶ 243, ECF
No. 35; 42 U.S.C. §§ 622, 677. Interior and HHS, and
Defendants Zinke, Rice, Tahsuda, and Azar, determine
if the State Plaintiffs complied with the statutory requirements, making them eligible for continued funding
under Title IV-B and Title IV-E funding. Am. Compl.
¶¶ 244-46; 42 U.S.C. § 622(a); 42 U.S.C. § 677(e)(3).
II. LEGAL STANDARD

“Every party that comes before a federal court must
establish that it has standing to pursue its claims.” Cibolo Waste, Inc. v. City of San Antonio, 718 F.3d 469,
473 (5th Cir. 2013); see also Barrett Computer Servs.,
Inc. v. PDA, Inc., 884 F.2d 214, 218 (5th Cir. 1989).
Standing to sue is a doctrine rooted in the traditional
understanding of a case or controversy. “The doctrine
developed in our case law to ensure that federal courts
do not exceed their authority as it has been traditionally
understood.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016); Raines v. Byrd, 521 U.S. 811, 820 (1997).

5

See note 3, supra.

547a
“The doctrine of standing asks ‘whether the litigant
is entitled to have the court decide the merits of the dispute or of particular issues.’ ” Cibolo Waste, 718 F.3d
at 473 (quoting Elk Grove Unified Sch. Dist. v. Newdow,
542 U.S. 1, 11 (2004)). Standing has both constitutional
and prudential components.
See id. (quoting Elk
Grove, 542 U.S. at 11) (stating standing “contain[s] two
strands: Article III standing . . . and prudential
standing”). The Supreme Court has established that
the “irreducible constitutional minimum” of standing
consists of three elements. Spokeo, 135 S. Ct. at 1547;
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992).
The plaintiff must have (1) suffered an injury in fact,
(2) that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by a
favorable judicial decision. Lujan, 504 U.S. at 560-61.
But it is not necessary for all Plaintiffs to demonstrate
standing; rather, “one party with standing is sufficient
to satisfy Article III’s case-or-controversy requirement.” Texas v. United States, 809 F.3d 134, 151 (5th
Cir. 2015) (quoting Rumsfeld v. Forum for Acad. & Institutional Rights, Inc., 547 U.S. 47, 52 n.2 (2006)).
“Prudential standing requirements exist in addition
to ‘the immutable requirements of Article III,’ . . .
as an integral part of ‘judicial self-government.’ ”
ACORN v. Fowler, 178 F.3d 350, 362 (5th Cir. 1999)
(quoting Lujan, 504 U.S. at 560). “The goal of this selfgovernance is to determine whether the plaintiff ‘is a
proper party to invoke judicial resolution of the dispute
and the exercise of the court’s remedial power.’ ” Id.
(quoting Bender v. Williamsport Area Sch. Dist., 475
U.S. 534, 546 n.8 (1986)). The Supreme Court has observed that prudential standing encompasses “at least

548a
three broad principles,” including “the general prohibition on a litigant’s raising another person’s legal rights
. . . .” Lexmark Int’l, Inc. v. Static Control Components, Inc., 134 S. Ct. 1377, 1386 (2014); Cibolo Waste,
Inc., 718 F.3d at 474 (quoting Elk Grove, 542 U.S. at 12);
see also Sprint Commc’ns Co., L.P. v. APCC Servs., Inc.,
554 U.S. 269, 290 (2008) (discussing cases where thirdparties sought “to assert not their own legal rights, but
the legal rights of others”); Vt. Agency of Natural Res.
v. U.S. ex rel. Stevens, 773 (2000) (noting “the assignee
of a claim has standing to assert the injury in fact suffered by the assignor”).
The question of standing implicates subject-matter
jurisdiction; therefore, the motion to dismiss standards
pursuant to Rule 12(b)(1) apply. Villas at Parkside
Partners v. City of Farmers Branch, 245 F.R.D. 551, 556
(N.D. Tex. 2007) (citing Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 89 (1998)). A court determines
subject-matter jurisdiction based on “(1) the complaint
alone; (2) the complaint supplemented by undisputed
facts evidenced in the record; or (3) the complaint supplemented by undisputed facts plus the court’s resolution of disputed facts.” Ramming v. United States, 281
F.3d 158, 161 (5th Cir. 2001). A challenge to subjectmatter jurisdiction can come in one of two ways—a facial
attack or a factual attack. Paterson v. Weinberger, 644
F.2d 521, 523 (5th Cir. 1981). If the opposing party
merely files a Rule 12(b)(1) motion, it is considered a facial attack, and the court takes all pleaded facts as true
and looks at the sufficiency of the allegations in the
pleadings. Id. A factual attack requires the moving
party to submit additional evidence, through affidavits
or testimony, and the non-moving party must then prove

549a
by a preponderance of the evidence that the court has
jurisdiction. Id.
Article III confines the federal judicial power to
“cases” and “controversies.” U.S. CONST. art. III, § 2.
The case or controversy requirement ensures that the
federal judiciary respects “the proper—and properly
limited—role of the courts in a democratic society.”
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 341 (2006)
(quotation marks omitted). “[T]he presence of one party
with standing is sufficient to satisfy Article III’s caseor-controversy requirement [for each claim].” Rumsfeld, 547 U.S. at 53 n.2. As the parties invoking jurisdiction, Plaintiffs bear the burden of demonstrating that
all of the requirements for standing are satisfied. See
Ramming, 281 F.3d at 161.
Here, Defendants filed their motion to dismiss as a
facial attack based on Plaintiffs’ lack of standing. Defs.’
Br. Supp. Mot. Dismiss [hereinafter “Defs.’ Br. Dismiss”] 8, ECF No. 57. Therefore, when ruling on Defendants’ motion to dismiss for lack of standing, the
Court accepts “as true all material allegations of the
complaint, and must construe the complaint in favor of
the complaining party.” Warth v. Seldin, 422 U.S. 490,
501 (1975).
III. ANALYSIS

Defendants move to dismiss Plaintiffs’ complaint for
failure to establish subject-matter jurisdiction. Defs.’
Br. Dismiss 1, ECF No. 57. Defendants argue that:
(1) neither the Individual nor the State Plaintiffs have
standing to bring their claims; (2) the requested relief
will not redress any alleged injury; (3) the claims against

550a
HHS are not ripe; (4) Minnesota and Nevada are necessary and indispensable parties under Rule 19; (5) the
Younger abstention doctrine should apply; (6) and the
State Plaintiffs waived their ability to challenge the Final Rule by not objecting to it during the notice and comment period. Id. at 1-2. The State and Individual Plaintiffs respond separately. See State Pls.’ Comb. Resp.,
ECF No. 72; Indiv. Pls.’ Comb. Resp., ECF No. 79.
The Individual Plaintiffs respond that they are objects
of the regulations at issue and have suffered an injuryin-fact due to the challenged provisions. Indiv. Pls.’
Resp. Defs.’ Mot. Dismiss Br. Supp. Mot. Summ. J.
[hereinafter “Indiv. Pls.’ Br. Resp.”] 18, ECF No. 80.
The State Plaintiffs respond that they have standing because the ICWA and the Final Rule pressures them “to
relinquish control over powers reserved to them by the
Constitution, to reevaluate their own laws, and to incur
substantial costs in the process.” State Pls.’ Resp.
Defs.’ Mot. Dismiss Br. Supp. Mot. Summ. J. [hereinafter “State Pls.’ Br. Resp.”] 12, ECF No. 74. The Court
will address standing for each of these challenges separately.
B.

Individual Plaintiffs

1. Injury-in-Fact
The Individual Plaintiffs assert first, that they are
“plainly subject to ICWA and the Final Rule, which govern their adoption efforts because they are seeking to
adopt or place for adoption (or, in the case of the Brackeens, have adopted) an ‘Indian child.’ ” Indiv. Pls.’ Br.
Resp. 19, ECF No. 80. Defendants argue that foster
parents are not the object of either the ICWA or the Final Rule, therefore neither regulation provides an injury-in-fact. Defs.’ Reply Indiv. Pls.’ Opp. [hereinafter

551a
“Defs.’ Reply Indiv.”] 1, ECF No. 116. Defendants
also argue that the Brackeens’ claims are moot because
their adoption has been finalized. Defs.’ Br. Dismiss
10, ECF No. 57.
Injury-in-fact must be both particularized and concrete, actual or imminent, not conjectural or hypothetical. Spokeo, 136 S. Ct. at 1548 (quoting Lujan, 504
U.S. at 560). For an injury to be particularized, it
“must affect the plaintiff in a personal and individual
way.” Id. Finally, the injury must actually exist.
Id. Under Lujan, a type of a concrete and particularized injury generally exists if the “plaintiff is himself an
object of the action (or forgone action) at issue. If he
is, there is ordinarily little question that the action or
inaction has caused him injury. . . .” Lujan, 504 U.S.
at 561-62.
The Supreme Court has explained that a party is the
object of a regulation if “the interest sought to be protected by the complainant is arguably within the zone of
interests to be protected or regulated by the statute or
constitutional guarantee in question.” Ass’n of Data
Processing Serv. Orgs., Inc. v. Camp, 397 U.S. 150, 153
(1970). When the Fifth Circuit applied this concept, it
held that if legislation targets a party, that party ordinarily has standing. Duarte ex rel. Duarte v. City of
Lewisville, Tex., 759 F.3d 514, 518 (5th Cir. 2014).
Further, it held that “an increased regulatory burden
typically satisfies the injury in fact requirement [of
standing].” Contender Farms, LLP v. USDA, 779 F.3d
258, 264 (5th Cir. 2015). When determining if someone
is an object of the regulation, the Fifth Circuit uses “a
flexible inquiry rooted in common sense.” Id. In Duarte, the court held that the daughter and wife of the sex

552a
offender had standing to object to the ordinance that restricted where sex offenders could live because they
were held to be within the “zone-of-interest” for the ordinance. Duarte, 759 F.3d at 515; see also Ass’n of Am.
R.R.s v. Dep’t of Trans., 38 F.3d 582 (D.C. Cir. 1994)
(finding standing when the challengers of the regulation
asserted they were harmed by two sets of regulations
rather than one).
Applying the standards established in Duarte and
Contender Farms, it is clear that the Individual Plaintiffs are objects of the ICWA and the Final Rule. The
language of the Final Rule and the ICWA anticipates
that there will be non-Indian parents seeking to adopt
Indian children. See 25 C.F.R. § 23.130 (detailing the
placement preferences for foster care or adoption, anticipating the possibility of non-Indian parents only if no
preferred options were available). Individual Plaintiffs are burdened by the additional regulations and requirements as long as they are attempting to adopt an
Indian child. See Contender Farms, LLP, 779 F.3d at
264; cf, Lujan, 504 U.S. at 561 (holding standing did not
exist without concrete plans to be subject to the regulation).
The Individual Plaintiffs’ attempts to adopt Indian
children have been burdened, at the very least, by the
ICWA and the Final Rule. See Duarte, 759 F.3d at 519
(finding standing for the wife and child of a man registered as a sex offender because the regulation interfered
with their lives in “a concrete and personal way”). In
this case, the Individual Plaintiffs attempted to adopt
Indian children and, because they themselves were not
Indian, faced heightened burdens to adoption. See Contender Farms, LLP, 779 F.3d at 264. The ICWA and

553a
the Final Rule target those adults seeking to adopt Indian children even if those adults are not members of
an Indian tribe. See 25 U.S.C. §§ 1915(a)-(b); 25 C.F.R.
§ 23.130; Duarte, 759 F.3d at 519.
The Court finds the Individual Plaintiffs to be objects, therefore, it next examines whether the Individual
Plaintiffs have alleged a concrete and particularized injury. First, the Brackeens’ adoption of A.L.M. is open
to collateral attack for two years under the ICWA and
the Final Rule. 6 Indiv. Br. Resp. 37, ECF No. 80.
Next, despite Baby O.’s biological mother supporting
them, the Librettis have faced additional regulatory
burdens as they seek to adopt her because she is eligible
for membership in an Indian tribe. 7 Id. 38-39. And finally the Cliffords saw Child P. removed from their
home because of the ICWA placement preferences.
See supra Part II.C. Even if the Court only considered
the injuries alleged by the Cliffords—that Child P. has
been removed from their home because of the ICWA
and the Final Rule placement preferences—this would
constitute concrete and particularized injury. But, as
stated above, the Librettis and Brackeens have also
6
Defendants argue that the Brackeens’ claims are moot because
their adoption of A.L.M. has been finalized. Defs.’ Br. Dismiss,
19, ECF No. 57. But the Brackeens also claim injury from the
two-year time frame for collateral attack on their adoption that has
not yet run.
7
Defendants also argue that the Librettis are not injured by the
ICWA or the Final Rule because Baby O. has not been taken away
from them, nor have they faced an unusually long delay. Defs.’
Br. Dismiss 24, ECF No. 57. But the Librettis have taken “concrete steps” to adopt Baby O. and additional barriers, due to the
ICWA and the Final Rule, have delayed it. Duarte, 759 F.3d at
518.

554a
stated injuries due to application of the ICWA and the
Final Rule. This constitutes being the “object of the
regulation,” which is a particularized and concrete injury that satisfies the injury-in-fact requirements for
standing. Contender Farms, LLP, 779 F.3d at 264.
2. Traceability
The second prong of the standing analysis requires
the alleged injury be “fairly traceable to the defendant[s’] allegedly unlawful conduct.” Lujan, 504 U.S. at
590. Tracing an injury is not the same as seeking
“proximate cause.” Bennett v. Spear, 520 U.S. 154, 169
(1997). Instead, the Fifth Circuit has held that traceability is satisfied if the defendant “significantly contributed to the plaintiff ’s alleged injuries.” K.P. v. LeBlanc, 627 F.3d 115, 123 (5th Cir. 2010). The Supreme
Court held that while traceability is not satisfied when
the injury results from actions by a third party not before the court, this “does not exclude injury produced by
determinative or coercive effect upon the action of someone else.” Metro. Wash. Airports Auth. v. Citizens for
Abatement of Aircraft Noise, Inc., 501 U.S. 252, 265
(1991).
The Federal Defendants argue that traceability is
not shown here because the Federal Defendants are not
the cause of the Individual Plaintiffs’ injuries. Defs.’
Br. Dismiss 19, ECF No. 57. Instead, the Federal Defendants argue the alleged injury is caused by state
courts that enforce the ICWA. Id. at 20. This argument ignores the fact that the injury complained of exists because of the ICWA and Final Rule. As explained
below, the state courts only follow these requirements
because the ICWA and the Final Rule require them.

555a
The ICWA and the Final Rule are therefore fairly traceable to the alleged injury because the pleading demonstrates the injury complained of results from the ICWA
and the Final Rule. See Legacy Cmty. Health Servs.,
Inc. v. Smith, 881 F.3d 358, 368 (5th Cir. 2018). Federal Defendants also argue that the Individual Plaintiffs’ alleged injuries are not traceable to the federal
government because “ICWA specifies no enforcement
role for Defendants, and neither Interior or HHS or any
of their respective officers have enforced or are threatening to enforce ICWA.” Defs.’ Br. Dismiss 28-29,
ECF No. 57. But the Final Rule, by its own terms, requires states to comply or face loss of funds by the Defendants.
Federal Defendants promulgated the Final Rule, setting “binding standards for Indian child-custody proceedings in State courts” that have the force of law. 81
Fed. Reg. at 38,782; see 25 C.F.R. § 23.132 (describing
how a determination of good cause to depart from placement preferences is made). Accordingly, the traceability requirements are met.
3. Redressability
The final requirement—redressability—requires a
plaintiff to show “a ‘favorable decision will relieve a discrete injury to himself,’ but not necessarily ‘that a favorable decision will relieve his every injury.’ ” Air Evac
EMS, Inc. v. Texas, 851 F.3d 507, 514 (5th Cir. 2017)
(quoting Larson v. Valente, 456 U.S. 228, 243 n.15
(1982)). The Court must be able to structure relief to
redress plaintiff ’s injury. The Individual Plaintiffs request the Final Rule be declared invalid and set aside;
the ICWA and the related SSA provisions be declared
unconstitutional; and Federal Defendants enjoined from

556a
enforcing the statutes. Defendants argue that this requested relief would not redress Plaintiffs’ alleged injuries because “a declaratory judgment addressing the
constitutionality of ICWA would not bind state courts.”
Defs.’ Br. Dismiss 23, ECF No. 57.
The Court finds that the Individual Plaintiffs have
satisfied the redressability requirement of constitutional
standing. The redressability requirement is met if a
judgment in plaintiffs’ favor “would at least make it easier for them” to achieve their desired result. Duarte,
759 F.3d at 521. In this case, a declaration of the ICWA’s
unconstitutionality or the invalidity of the Final Rule
would have the “practical consequence” of increasing
“the likelihood that the plaintiff would obtain relief.”
Evans, 536 U.S. at 464. If the Federal Defendants are
enjoined from applying the ICWA and the Final Rule,
then the obligation to follow these statutory and regulatory frameworks will no longer be applied to the states.
Nor would the placement preferences and the two-year
collateral attack period be imposed. The Brackeens’
injury, at the very least, would be redressed by a favorable decision, allowing their adoption of A.L.M. to be finalized after six months, as provided by Texas state law,
rather than two years, as required by the ICWA and the
Final Rule. See Part I.D. The redressability requirement for the Individual Plaintiffs is therefore met.
4. Prudential Standing
Finally, a court should analyze prudential standing
only “if the Article III standing requirements are met.”
Wyoming v. U.S. Dep’t of the Interior, 674 F.3d 1220,
1231 (10th Cir. 2012). Because the Individual Plaintiffs
alleged Article III standing, the Court now considers

557a
whether the prudential principles of standing require
dismissal.
Prudential standing requires that the plaintiff generally “assert his own legal rights and interests, and cannot rest his claim to relief on the legal rights or interests
of third parties.” Valley Forge Christian Coll. v. Ams.
United for Separation of Church & State, Inc., 454 U.S.
464, 474 (1982). Federal courts must refrain from “adjudicating ‘abstract questions of wide public significance,’ which amount to ‘generalized grievances,’ pervasively shared and most appropriately addressed in the
representative branches.” Id. at 474-75.
Finally,
plaintiffs must fall within the “zone of interests to be
protected or regulated by the statute or constitutional
guarantee in question.” Id. at 475. If the three requirements of constitutional standing are met, and the
party is championing his own rights, “the basic practical
and prudential concerns underlying the standing doctrine are generally satisfied.” Duke Power Co. v. Carolina Evntl. Study Grp., Inc., 438 U.S. 59, 80-81 (1978).
Because the Individual Plaintiffs are the “objects of the
regulations” at issue, they are also within the zone of interests regulated by the statutes in question. Valley
Forge Christian Coll., 454 U.S. at 475.
For the above reasons, the Court finds that the Individual Plaintiffs have met the constitutional and prudential standing requirements to bring their claims. Accordingly, the Individual Plaintiffs have standing to
bring Count Four (addressing the constitutionality of
§§ 1915(a)-(b), Count Six (alleging §§ 1915(a)-(b) violate
the equal protection clause of the Fifth Amendment),
and parts of Counts One and Five (challenging the Final
Rule as not in accordance with the law). The Individual

558a
Plaintiffs have alleged standing to challenge the parts of
the Final Rule implementing the challenged portions of
the ICWA.
B.

State Plaintiffs

1. Standing
Defendants also contend that the State Plaintiffs do
not have standing to bring this suit in parens patriae
and that they fail to allege a fiscal injury because they
plead no facts demonstrating they have been financially
harmed by the ICWA or the Final Rule. Defs.’ Br. Dismiss 18, ECF No. 57. According to Defendants, the
State Plaintiffs may not represent the interests of children within their custody or their resident parents who
wish to foster or adopt a child. Id. While it is generally true that states may not represent their citizens
against the federal government—that is not what is happening here. See Massachusets v. Mellon, 262 U.S.
447, 485-86 (1923). The State Plaintiffs assert that their
standing is based primarily on a federal intrusion into a
quasi-sovereign realm of state law, through the ICWA,
the Final Rule, and the compliance requirements found
in the SSA Title IV-B and IV-E. State Pls.’ Br. Resp.
16, ECF No. 74. They also argue they have standing
under Lujan, as they are “objects” of the ICWA and Final Rule. Id. at 20.
When analyzing if a state has standing to challenge a
statute, a court must ask if the state is entitled to “special solicitude.” See Massachusetts v. EPA, 549 U.S.
497, 518 (2007). When a state sues for injuries sustained in its capacity as quasi-sovereign, the state has
“an interest independent of and behind the titles of its
citizens.” Id. at 520 (quoting George v. Tenn. Copper

559a
Co., 206 U.S. 230, 237 (1907). In Massachusetts, the
Supreme Court identified two considerations that entitled the state to special solicitude. First, that the
Clean Air Act created a procedural right to challenge
the EPA’s decision, and second, that the EPA’s decision
affected Massachusetts’s quasi-sovereign interest in its
territory. Id. at 520.
The Fifth Circuit applied the Massachusetts standard to Texas’s right to challenge the Department of
Homeland Services’ (“DHS”) implementation of the deferred action program for alien children (“DACA”), particularly the 2014 expansion to parents of the DACA recipients (“DAPA”). Texas v. United States, 809 F.3d
134, 152 (5th Cir. 2015) [hereinafter Texas DHS].
While DACA did not contain the same procedural rights
as the EPA statute in Massachusetts, the Fifth Circuit
found that the Administrative Procedures Act’s (the
“APA”) general authorization for challenges to “final
agency action” satisfied the first Massachusetts consideration. Texas DHS, 809 F.3d at 152. Second, the
court also found that DAPA affected the states’ quasisovereign interest by imposing substantial pressure on
the state to change its laws. Id.
The same considerations apply in this case. First,
as in Texas DHS, the State Plaintiffs are challenging the
Final Rule as not in accordance with law under the APA.
Second, it is well-established that domestic affairs fall
within the traditional police powers of the individual
states. 8 Sosna v. Iowa, 419 U.S. 393 (1975). Third, as
The Fifth Circuit has also found that “States have a sovereign
interest in the ‘power to create and enforce a legal code.’ ” Tex. Office of Pub. Util. Counsel v. FCC, 183 F.3d 393, 449 (5th Cir. 1999)
(quoting Alfred L. Snapp & Son, Inc. v. Puerto Rico ex rel. Barez,
8

560a
DAPA pressured Texas to change their laws, the ICWA
and the Final Rule pressures the State Plaintiffs to
change their domestic relations laws as they relate to
adoptions of Indian children. The ICWA and the Final
Rule usurp state civil procedure rules by requiring different procedure framework for an Indian child adoption proceeding. See supra, Part II.D. Finally, the
State Plaintiffs have standing to challenge federal assertions of authority to regulate matters they believe
they control. Tex. Office of Pub. Util. Counsel v. FCC,
183 F.3d 393, 449 (5th Cir. 1999). Here, the State Plaintiffs have stated a sufficient injury-in-fact in Defendants’ intrusion upon their interests as quasi-sovereigns
to control the domestic affairs within their states. Am.
Compl. ¶ 17, ECF No. 35.
The second injury-in-fact the State Plaintiffs claim is
related to funding under Title IV-B and Title IV-E,
which is contingent on complying with the ICWA. Am.
Compl. ¶¶ 23-25, 53, 263, ECF No. 35. Defendants argue that the State Plaintiffs have not alleged a fiscal injury because they have not “alleged any concrete fiscal
impact to State funds, or that Federal Defendants either
have withheld, or threatened to withhold.” Defs.’ Br.
Dismiss 19, ECF No. 57. In Texas v. United States
(2007), Defendants raised a similar argument. 497 F.3d
458 U.S. 592, 601 (1982)). From that basis, the Fifth Circuit held
that states may have standing based on: (1) federal assertions or
authority to regulate matters the States believe they control, (2) federal preemption of state law, and (3) federal interference with the
enforcement of state law, at least where the “state statute at issue
regulate[s] behavior or provides for the administration of a state
program and does not simply purport to immunize state citizens
from federal law.” Id. Those intrusions are analogous to pressure to change state law. Id.

561a
491, 496 (5th Cir. 2007) [hereinafter Texas 2007].
There Defendants claimed that Texas’s challenge
amounted to an alleged injury from the mere existence
of the regulation because it had not yet been applied
against the state. Id.
The regulations at issue in Texas 2007 involved the
approval of Class III gaming licenses involving Indian
tribes and states that invoked sovereign immunity. Id.
at 494. If a state invoked sovereign immunity and refused to bargain with the Indian tribes regarding proposed licensing regulation, then the Class III Gaming
Procedures, 25 C.F.R. pt. 291 (“Secretarial Procedures”),
would apply. Id. These procedures would allow the
Department of the Interior to either approve the proposed plan by the Indian tribe without the state’s input,
or consider an alternative plan put forth by the state.
Id. at 495. Texas challenged this regulation and argued it created an invalid administrative process. Id.
at 496. The Fifth Circuit found that Texas had standing to challenge the regulation because Texas was forced
to either participate in the allegedly invalid process or
forfeit its only opportunity to object to the proposed
gaming plan, “a forced choice that is itself sufficient to
support standing.” Id. at 497; see Thomas v. Union
Carbide Agr. Prod. Co., 473 U.S. 568, 582 (1985) (recognizing “the injury of being forced to choose between relinquishing [the benefit of an unlawful adjudicatory process] . . . or engaging in an unconstitutional adjudication”).
This case calls for a similar result. Either the State
Plaintiffs abide by the regimes enacted by the ICWA
and the Final Rule, or they face forfeiture of their child

562a
welfare benefits. See 42 U.S.C. §§ 622, 677. Accordingly, the State Plaintiffs have alleged a sufficient
injury-in-fact. The traceability and redressability requirements are satisfied as well. The injury the State
Plaintiffs claim are directly traceable to the application
of the ICWA and the Final Rule to the domestic authority of the state. Texas has alleged sufficient facts to
show that it has been forced to create alternate laws and
requirements for its DFPS if an adoption proceeding involves an Indian child. For these reasons, the State
Plaintiffs have standing to challenge the Final Rule as
not in accordance with law under the APA (Count One);
the ICWA, §§ 1901-23 and 1951-52 violates the Commerce Clause and the Tenth Amendment (Counts Two
and Three), and §§ 1915(c) and § 23.130(b) of the Final
Rule violate Article 1, §§ 1 and 8 of the Constitution
(Count Seven).
2. Ripeness
Defendants challenge the State Plaintiffs claims
against HHS, Azar, and the United States (the “HHS
Defendants”) on the grounds that these claims are not
ripe. Defs.’ Br. Dismiss 28, ECF No. 57. Defendants
argue that the State Plaintiffs are alleging merely a possible injury. State Plaintiffs respond that they are currently injured and have suffered hardship because of the
ICWA and the Final Rule compliance requirements
found under §§ 622 and 677 of the SSA. State Pls.’ Br.
Resp. 25, ECF No. 74. The statutes require such compliance or warn that the HHS Defendants will reduce
child-welfare funding to the states. Id.; see supra Part
II.B. For these reasons, the State Plaintiffs argue they
have alleged both standing and ripeness. State Pls.’
Br. Resp. 25, ECF No. 74.

563a
The purpose of the ripeness doctrine is to prevent the
courts, through premature adjudication, from entangling themselves in abstract disagreements over administrative policies, and to protect the agencies from judicial interference until the administrative decision has
been formalized and its effects felt in a concrete way by
the challenging parties. Abbott Labs. v. Gardner, 387
U.S. 136, 148-49 (1967). When evaluating if a case is
ripe for review, the court must consider also (1) the fitness of the issues for judicial decision, and (2) the hardship to the parties of withholding court consideration.
See id. at 149. Fitness and hardship must be balanced
and a “case is generally ripe if any remaining questions
are purely legal ones.” Am. Forest & Paper Ass’n v.
EPA, 137 F.3d 291, 296 (5th Cir. 1998); New Orleans
Pub. Serv., Inc. v. Council of the City of New Orleans,
833 F.2d 583, 587 (5th Cir. 1987). “A challenge to administrative regulations is fit for review if (1) the questions presented are ‘purely legal one[s],’ (2) the challenged regulations constitute ‘final agency action,’ and
(3) further factual development would not ‘significantly
advance [the court’s] ability to deal with the legal issues
presented.’ ” Texas v. United States, 497 F.3d 491, 49899 (5th Cir. 2007) (citing Nat’l Park Hosp. Ass’n, 538
U.S. at 812).
The Court finds that State Plaintiffs’ case is ripe for
review. Here, the question is a legal one—whether the
ICWA and Final Rule compliance requirements under
the SSA provisions are violations of constitutional principles of federalism. Additional facts would not help
the Court make its decision. To be eligible to receive
federal funding under Title IV-B and IV-E, the State
Plaintiffs must submit a plan in conformity with the
ICWA and the Final Rule. See supra Part II.B. The

564a
Fifth Circuit has held that the kinds of hardships considered in a ripeness analysis include—“the harmful
creation of legal rights or obligations; practical harms
on the interests advanced by the party seeking relief;
and the harm of being forced to modify one’s behavior in
order to avoid future adverse consequences.” Texas
2007, 497 F.3d at 499 (internal quotation marks omitted). Similar to Texas 2007, either the State Plaintiffs
must comply with the ICWA and the Final Rule or risk
their funding under Title IV-B and IV-E. Defendants
seem to imply that instead the State Plaintiffs should
take a wait-and-see approach, suggesting that the State
Plaintiffs violate the SSA requirements by not complying with the ICWA, and see if the federal government
will enforce the statute. See id.; Defs.’ Br. Dismiss 28,
ECF No. 57.
Here, the ICWA and the Final Rule require additional regulations and obligations from the State Plaintiffs if they wish to continue to receive federal funding
under Title IV-B and IV-E. This is the harm of “being
forced to modify one’s behavior in order to avoid future
adverse consequences.”
Id. (quoting Oh. Forestry
Ass’n v. Sierra Club, 523 U.S. 726, 734 (1998)). For
these reasons, the claims the State Plaintiffs bring
against the HHS Defendants are ripe for adjudication.
C.

Sovereign Immunity

Defendants assert that the HHS Defendants and the
United States should be dismissed because they have
not waived sovereign immunity. Defs.’ Br. Dismiss 31,
ECF No. 57. All Plaintiffs respond that sovereign immunity has been waived for both the administrative and
constitutional actions under the APA and Supreme

565a
Court precedent. State Pls.’ Br. Resp. 27, ECF No. 74;
Indiv. Pls.’ Br. Resp. 35-36, ECF No. 80.
First, the APA allows for claims “seeking relief other
than money damages” against the United States. 5
U.S.C. § 702. When a person suffers a “legal wrong”
or is “adversely affected” by agency action,” he is entitled to judicial review. Id. Here, all Plaintiffs challenged Interior and BIA’s Final Rule, as well as the
HHS Defendants SSA ICWA and Final Rule compliance
requirements, as agency actions that adversely affects
State Plaintiffs’ domestic relation laws and subjects Individual Plaintiffs to an additional regulatory scheme.
State Pls.’ Br. Dismiss 26, ECF No. 74.
Second, all other claims come under a challenge to
the constitutionality of the ICWA or SSA. The Supreme Court held that if the United States exceeds its
constitutional limitations, sovereign immunity cannot
shield it from suit. Larson v. Domestic & Foreign
Commerce Corp., 337 U.S. 682, 690 (1949). Under Larson, suits for prospective relief are permitted when the
statute authorizing the challenged actions is itself beyond constitutional authority. Id.; Anibowei v. Sessions, No. 3:16-CV-3495-D, 2018 WL 1477242, at *2
(N.D. Tex. Mar. 27, 2018); RICHARD H. FALLON, JR. ET
AL., HART AND WECHSLER’S THE FEDERAL COURTS
AND THE FEDERAL S YSTEM 895 (7th ed. 2015) (“Hart
and Wechsler”) (“[I]f the officer acted within the conferred statutory limits of the office, but his or her conduct allegedly offended a provision of the Constitution,
then sovereign immunity will be lifted.”) (internal quotation marks and citation omitted).

566a
In this case, all Plaintiffs bring a valid APA challenge
to the Final Rule under § 702 and a constitutional challenge to the ICWA, the Final Rule, and HHS’s application of the challenged rule and statute through the SSA.
For these reasons, sovereign immunity does not act as a
bar to Plaintiffs claims in this case.
D.

Younger Abstention

Defendants also argue that the Court should abstain
from hearing this case under Younger. Defs.’ Br. Dismiss 32, ECF No. 57. Since Plaintiffs seek declaratory
and injunctive relief to preclude application of the
ICWA and the Final Rule to ongoing state-court childcustody proceedings, Defendants argue this Court
should abstain from exercising jurisdiction. Id. (citing
DeSpain v. Johnston, 731 F.3d 1171, 1178 (5th Cir.
1984)). Plaintiffs respond that Defendants’ argument
is based on “outdated authority, all but ignoring the Supreme Court’s most recent decision . . . on the limited application of Younger.” Indiv. Pls.’ Br. Resp. 36,
ECF No. 80 (citing Sprint Comms., Inc. v. Jacobs, 571
U.S. 69 (2013)). In 2013, the Supreme Court decided
Sprint and clarified the three categories of the Younger
abstention doctrine. Sprint, 571 U.S. at 78. Specifically, the Younger exception applies to only “three ‘exceptional’ categories of state proceedings: ongoing
criminal prosecutions, certain civil enforcement proceedings akin to criminal prosecutions, and pending
‘civil proceedings involving certain orders
. . .
uniquely in furtherance of the state courts’ ability to
perform their judicial functions.” Id.
Since Sprint, courts have declined to invoke Younger
in adoption proceedings unless the case involved “state-

567a
initiated proceedings.” Sprint, 571 U.S. at 79. Defendants rely on Moore v. Sims as an example of Younger
abstention in an adoption context. Defs.’ Br. Dismiss
32, ECF No. 57. But in Moore, the proceedings were “in
aid of and closely related to criminal statutes.” Id.
Sprint explained Moore as involving “a state-initiated
proceeding to gain custody of children allegedly abused
by their parents.” Sprint, 571 U.S. at 79. Unlike Moore,
there are no criminal statutes at issue in the state-court
adoption proceedings in this case, nor are there state initiated proceedings at issue here. The cases Defendants rely on either pre-date the Supreme Court’s decision in Sprint, or deal with distinguishable facts. See
Catanach v. Thomson, 718 F. App’x 595, 598 n.2 (10th
Cir. 2017) (clarifying the changes to the Younger doctrine found in Sprint). When the Fifth Circuit applied
Sprint, it found that, while Younger has been expanded
beyond the purely criminal context, abstention is not required in every context with parallel state-court proceedings. Google, Inc. v. Hood, 822 F.3d 212, 222 (5th
Cir. 2016). If a case fits into one of the Sprint categories, then the three Middlesex factors are evaluated before invoking Younger abstention. See Middlesex Cty.
Ethics Comm. v. Garden State Bar Ass’n, 457 U.S. 423,
432 (1982).
The first Sprint category does not apply here, as no
party alleges there is an ongoing criminal prosecution.
Neither does the third category, proceedings uniquely
aiding the state court judicial function, apply. See,
Sprint, 571 U.S. at 78 (referencing Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 4 (1987) as an example of the third
Sprint category). Defendants attempt to place this
case into the second category, claiming that because
there is an ongoing state-court adoption proceeding,

568a
Younger must apply. Defs.’ Br. Dismiss 33, ECF No.
57. Sprint describes the second category as “akin to
criminal prosecutions” because they are “characteristically initiated to sanction the federal plaintiff . . .
for some wrongful act.” Sprint, 571 U.S. at 279. The
Fifth Circuit has applied the second category to an enforcement action before a civil rights commission, a bar
disciplinary proceedings, and state-instituted public nuisance proceedings. See Google, Inc., 822 F.3d at 222
(citing Ohio Civil Rights Comm’n v. Dayton Christian
Schs. Inc., 477 U.S. 619, 623 28 (1986); Middlesex, 457
U.S. at 432-35; Huffman v. Pursue, Ltd., 420 U.S. 592,
595-97 (1975)). None of these apply here. Accordingly, the Younger abstention doctrine does not apply in
this case.
E.

Failure to Join an Indispensable Party

Defendants also argue that Nevada and Minnesota
are necessary parties to the Librettis’ and Cliffords’
claims and that they should be joined or the claims dismissed. Defs.’ Br. Dismiss 45, ECF No. 57. If Plaintiffs obtain the relief they are seeking, Defendants argue, this Court’s decision would necessarily bind the Nevada and Minnesota state courts and their executive
agencies. Id. Plaintiffs respond that they are not
asking to bind state courts; instead they seek “to declare
that a federal regulation and a federal statute are unconstitutional and otherwise invalid, and to enjoin the
federal government from implementing or administering them.” Indiv. Pls.’ Br. Resp. 54, ECF No. 80.
When a party is primarily challenging the constitutionality of a federal statute and not state statutes or
rules, states are not an indispensable party. Romero v.
United States, 784 F.2d 1322, 1325 (5th Cir. 1986).

569a
Since Plaintiffs seek to nullify a federal statute and regulation, Nevada and Minnesota are not indispensable
parties. Bermudez v. U.S. Dep’t of Agric., 490 F.2d
718, 724 (D.C. Cir. 1973). Rather than binding the
state courts to an affirmative action, a favorable decision
for the Plaintiffs here would remove a federal mandate
on the state courts. Therefore, Nevada and Minnesota
are not necessary parties and this argument is overruled.
F.

Waiver to Challenge the Final Rule

Defendants’ final argument is that the State Plaintiffs “waived their APA arguments challenging the Final
Rule in Count One by not presenting their objections to
BIA during the notice and comment period.” Defs.’ Br.
Dismiss 47, ECF No. 57. The State Plaintiffs respond
that they have standing under statutory and Supreme
Court precedent to challenge the Final Rule under the
APA. State Pls.’ Br. Resp. 43-4, ECF No. 74. They
also argue that “neither the text of the APA, nor the
Fifth Circuit precedent require a party aggrieved by an
agency rule to comment first on the proposed rule or
risk waiving a later legal challenge to that rule.” Id. at
45.
In City of Seabrook v. EPA, defendants made a similar argument. 659 F.2d 1349, 1360-61 (5th Cir. 1981). 9
In that case, the Fifth Circuit declined to require anyone
“The rule urged by EPA would require everyone who wishes to
protect himself from arbitrary agency action not only to become a
faithful reader of the notices of proposed rulemaking published
each day in the Federal Register, but a psychic ability to predict
the possible changes that could be made in the proposal when the
rule is finally promulgated. This is a fate this court will impose
on no one.” City of Seabrook, Tex., 659 F.2d at 1360-61.
9

570a
who wishes to challenge a regulation to first have commented on it during the administrative process. It distinguished L.A. Tucker Truck Lines, Inc. and Merchants Fast Motor Lines, Inc., both of which found a
party waived the right to initiate legal challenges to an
agency decision, because the plaintiffs in both of these
cases participated in the underlying administrative
hearing and failed to appeal the decision. United
States v. L.A. Tucker Truck Lines, Inc., 344 U.S. 33
(1952); Merchants Fast Motor Lines, Inc. v. ICC, 528
F.2d 1042 (5th Cir. 1976); City of Seabrook, 659 F.2d at
1360 n.17. City of Seabrook concluded these cases did
not apply because there had been no underlying adversarial proceeding. Id.
Defendants argue City of Seabrook does not control
because more recent Fifth Circuit decisions have undermined it. Defs.’ Br. Dismiss 47, ECF No. 57; BCCA
Appeal Group v. EPA, 355 F.3d 817, 829 n.10 (5th Cir.
2003); Texas Oil & Gas Ass’n v. EPA, 161 F.3d 923, 933
n.7 (5th Cir. 1998). While there has been disagreement
about the applicability of City of Seabrook, no Supreme
Court decision or Fifth Circuit en banc decision has
overruled it. Therefore, City of Seabrook remains binding law on district courts. Accordingly, Defendants’
argument that City of Seabrook does not control fails.
City of Seabrook, 659 F.2d at 1349; see also, Am. Forest
& Paper Ass’n v. EPA, 137 F.3d 291, 295 (5th Cir. 1998)
(citing City of Seabrook’s rule that failure to comment
does not preclude a challenge to the APA statute). At
this time, it appears the Fifth Circuit requires a party
that participates in an administrative process to appeal
an adverse ruling or waive its right to later challenge the
decision. But if a party has not participated in the
agency process, a subsequent challenge is not waived.

571a
Compare L.A. Tucker Truck Lines, Inc., 344 U.S. at 35,
with Fleming Companies, Inc. v. U.S. Dep't of Agric.,
322 F. Supp. 2d 744, 754 (E.D. Tex. 2004).
Accordingly, the State Plaintiffs did not waive their
right to challenge the Final Rule in this case. See City
of Seabrook, 659 F.2d at 1360-61.
IV. CONCLUSION

For the foregoing reasons, the Court finds that Federal Defendants’ Motion to Dismiss (ECF No. 56) and
Tribal Defendants’ Motion to Dismiss (ECF No. 58)
should be and are hereby DENIED.
SO ORDERED on this 24th day of July, 2018.

/s/ REED O’CONNOR
REED O’CONNOR
United States District Judge

572a
APPENDIX F

1.

Article III, Sec. 2, of the U.S. Const. provides:

The judicial Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be
made, under their Authority;—to all Cases affecting
Ambassadors, other public Ministers and Consuls;—to
all Cases of admiralty and maritime Jurisdiction;—to
Controversies to which the United States shall be a
Party;—to Controversies between two or more States;—
between a State and Citizens of another State;—
between Citizens of different States,—between Citizens
of the same State claiming Lands under Grants of different States, and between a State, or the Citizens
thereof, and foreign States, Citizens or Subjects.
In all Cases affecting Ambassadors, other public Ministers and Consuls, and those in which a State shall be
Party, the supreme Court shall have original Jurisdiction. In all the other Cases before mentioned, the supreme Court shall have appellate Jurisdiction, both as
to Law and Fact, with such Exceptions, and under such
Regulations as the Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment,
shall be by Jury; and such Trial shall be held in the State
where the said Crimes shall have been committed; but
when not committed within any State, the Trial shall be
at such Place or Places as the Congress may by Law
have directed.

573a
2.

Article VI, Cl. 2, of the U.S. Const. provides:

This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all Treaties made, or which shall be made, under the Authority
of the United States, shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.

3.

Amend. V to the U.S. Const. provides:

No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War or public danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.
4.

Amend. X to the U.S. Const. provides:

The powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are reserved to the States respectively, or to the people.

574a
5.

25 U.S.C. 1901 provides:

Congressional findings

Recognizing the special relationship between the
United States and the Indian tribes and their members
and the Federal responsibility to Indian people, the
Congress finds—
(1) that clause 3, section 8, article I of the United
States Constitution provides that ‘‘The Congress
shall have Power * * * To regulate Commerce
* * * with Indian tribes1” 10 and, through this and
other constitutional authority, Congress has plenary
power over Indian affairs;
(2) that Congress, through statutes, treaties,
and the general course of dealing with Indian tribes,
has assumed the responsibility for the protection and
preservation of Indian tribes and their resources;
(3) that there is no resource that is more vital to
the continued existence and integrity of Indian tribes
than their children and that the United States has a
direct interest, as trustee, in protecting Indian children who are members of or are eligible for membership in an Indian tribe;
(4) that an alarmingly high percentage of Indian
families are broken up by the removal, often unwarranted, of their children from them by nontribal public and private agencies and that an alarmingly high
percentage of such children are placed in non-Indian
foster and adoptive homes and institutions; and

1

So in original.

Probably should be capitalized.

575a
(5) that the States, exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, have often failed to recognize the essential tribal relations of
Indian people and the cultural and social standards
prevailing in Indian communities and families.
6.

25 U.S.C. 1902 provides:

Congressional declaration of policy

The Congress hereby declares that it is the policy of
this Nation to protect the best interests of Indian children and to promote the stability and security of Indian
tribes and families by the establishment of minimum
Federal standards for the removal of Indian children
from their families and the placement of such children
in foster or adoptive homes which will reflect the unique
values of Indian culture, and by providing for assistance
to Indian tribes in the operation of child and family service programs.
7.

25 U.S.C. 1903 provides:

Definitions

For the purposes of this chapter, except as may be
specifically provided otherwise, the term—
(1) ‘‘child custody proceeding’’ shall mean and
include—
(i) ‘‘foster care placement’’ which shall mean
any action removing an Indian child from its parent or Indian custodian for temporary placement
in a foster home or institution or the home of a

576a
guardian or conservator where the parent or Indian custodian cannot have the child returned
upon demand, but where parental rights have not
been terminated;
(ii) ‘‘termination of parental rights’’ which
shall mean any action resulting in the termination
of the parent-child relationship;
(iii) ‘‘preadoptive placement’’ which shall mean
the temporary placement of an Indian child in a
foster home or institution after the termination of
parental rights, but prior to or in lieu of adoptive
placement; and
(iv) ‘‘adoptive placement’’ which shall mean
the permanent placement of an Indian child for
adoption, including any action resulting in a final
decree of adoption.
Such term or terms shall not include a placement
based upon an act which, if committed by an adult,
would be deemed a crime or upon an award, in a divorce proceeding, of custody to one of the parents.
(2) ‘‘extended family member’’ shall be as defined by the law or custom of the Indian child’s tribe
or, in the absence of such law or custom, shall be a
person who has reached the age of eighteen and who
is the Indian child’s grandparent, aunt or uncle,
brother or sister, brother-in-law or sister-in-law,
niece or nephew, first or second cousin, or stepparent;
(3) ‘‘Indian’’ means any person who is a member
of an Indian tribe, or who is an Alaska Native and a
member of a Regional Corporation as defined in section 1606 of title 43;

577a
(4) ‘‘Indian child’’ means any unmarried person
who is under age eighteen and is either (a) a member
of an Indian tribe or (b) is eligible for membership in
an Indian tribe and is the biological child of a member
of an Indian tribe;
(5) ‘‘Indian child’s tribe’’ means (a) the Indian
tribe in which an Indian child is a member or eligible
for membership or (b), in the case of an Indian child
who is a member of or eligible for membership in
more than one tribe, the Indian tribe with which the
Indian child has the more significant contacts;
(6) ‘‘Indian custodian’’ means any Indian person
who has legal custody of an Indian child under tribal
law or custom or under State law or to whom temporary physical care, custody, and control has been
transferred by the parent of such child;
(7) ‘‘Indian organization’’ means any group, association, partnership, corporation, or other legal entity owned or controlled by Indians, or a majority of
whose members are Indians;
(8) ‘‘Indian tribe’’ means any Indian tribe, band,
nation, or other organized group or community of Indians recognized as eligible for the services provided
to Indians by the Secretary because of their status as
Indians, including any Alaska Native village as defined in section 1602(c) of title 43;
(9) ‘‘parent’’ means any biological parent or parents of an Indian child or any Indian person who has
lawfully adopted an Indian child, including adoptions
under tribal law or custom. It does not include the
unwed father where paternity has not been acknowledged or established;

578a
(10) ‘‘reservation’’ means Indian country as defined in section 1151 of title 18 and any lands, not covered under such section, title to which is either held
by the United States in trust for the benefit of any
Indian tribe or individual or held by any Indian tribe
or individual subject to a restriction by the United
States against alienation;
(11) ‘‘Secretary’’ means the Secretary of the Interior; and
(12) ‘‘tribal court’’ means a court with jurisdiction
over child custody proceedings and which is either a
Court of Indian Offenses, a court established and operated under the code or custom of an Indian tribe,
or any other administrative body of a tribe which is
vested with authority over child custody proceedings.
8.

25 U.S.C. 1911 provides:

Indian tribe jurisdiction over Indian child custody
proceedings
(a)

Exclusive jurisdiction

An Indian tribe shall have jurisdiction exclusive as to
any State over any child custody proceeding involving
an Indian child who resides or is domiciled within the
reservation of such tribe, except where such jurisdiction
is otherwise vested in the State by existing Federal law.
Where an Indian child is a ward of a tribal court, the
Indian tribe shall retain exclusive jurisdiction, notwithstanding the residence or domicile of the child.

579a
(b)

Transfer of proceedings; declination by tribal court

In any State court proceeding for the foster care
placement of, or termination of parental rights to, an Indian child not domiciled or residing within the reservation of the Indian child’s tribe, the court, in the absence
of good cause to the contrary, shall transfer such proceeding to the jurisdiction of the tribe, absent objection
by either parent, upon the petition of either parent or
the Indian custodian or the Indian child’s tribe: Provided, That such transfer shall be subject to declination
by the tribal court of such tribe.
(c)

State court proceedings; intervention

In any State court proceeding for the foster care placement of, or termination of parental rights to, an Indian
child, the Indian custodian of the child and the Indian
child’s tribe shall have a right to intervene at any point
in the proceeding.
(d)

Full faith and credit to public acts, records, and
judicial proceedings of Indian tribes

The United States, every State, every territory or
possession of the United States, and every Indian tribe
shall give full faith and credit to the public acts, records,
and judicial proceedings of any Indian tribe applicable
to Indian child custody proceedings to the same extent
that such entities give full faith and credit to the public
acts, records, and judicial proceedings of any other entity.

580a
9.

25 U.S.C. 1912 provides:

Pending court proceedings
(a)

Notice; time for commencement of proceedings;
additional time for preparation

In any involuntary proceeding in a State court, where
the court knows or has reason to know that an Indian
child is involved, the party seeking the foster care placement of, or termination of parental rights to, an Indian
child shall notify the parent or Indian custodian and the
Indian child’s tribe, by registered mail with return receipt requested, of the pending proceedings and of their
right of intervention. If the identity or location of the
parent or Indian custodian and the tribe cannot be determined, such notice shall be given to the Secretary in
like manner, who shall have fifteen days after receipt to
provide the requisite notice to the parent or Indian custodian and the tribe. No foster care placement or termination of parental rights proceeding shall be held until at least ten days after receipt of notice by the parent
or Indian custodian and the tribe or the Secretary:
Provided, That the parent or Indian custodian or the
tribe shall, upon request, be granted up to twenty additional days to prepare for such proceeding.
(b)

Appointment of counsel

In any case in which the court determines indigency,
the parent or Indian custodian shall have the right to
court-appointed counsel in any removal, placement, or
termination proceeding. The court may, in its discretion, appoint counsel for the child upon a finding that
such appointment is in the best interest of the child.
Where State law makes no provision for appointment of
counsel in such proceedings, the court shall promptly

581a
notify the Secretary upon appointment of counsel, and
the Secretary, upon certification of the presiding judge,
shall pay reasonable fees and expenses out of funds
which may be appropriated pursuant to section 13 of this
title.
(c)

Examination of reports or other documents

Each party to a foster care placement or termination
of parental rights proceeding under State law involving
an Indian child shall have the right to examine all reports or other documents filed with the court upon which
any decision with respect to such action may be based.
(d)

Remedial services and rehabilitative programs;
preventive measures

Any party seeking to effect a foster care placement
of, or termination of parental rights to, an Indian child
under State law shall satisfy the court that active efforts
have been made to provide remedial services and rehabilitative programs designed to prevent the breakup of
the Indian family and that these efforts have proved unsuccessful.
(e)

Foster care placement orders; evidence; determination
of damage to child

No foster care placement may be ordered in such proceeding in the absence of a determination, supported by
clear and convincing evidence, including testimony of
qualified expert witnesses, that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.

582a
(f )

Parental rights termination orders;
determination of damage to child

evidence;

No termination of parental rights may be ordered in
such proceeding in the absence of a determination, supported by evidence beyond a reasonable doubt, including testimony of qualified expert witnesses, that the continued custody of the child by the parent or Indian custodian is likely to result in serious emotional or physical
damage to the child.

10. 25 U.S.C. 1913 provides:
Parental rights; voluntary termination
(a)

Consent; record; certification matters; invalid
consents

Where any parent or Indian custodian voluntarily
consents to a foster care placement or to termination of
parental rights, such consent shall not be valid unless
executed in writing and recorded before a judge of a
court of competent jurisdiction and accompanied by the
presiding judge’s certificate that the terms and consequences of the consent were fully explained in detail and
were fully understood by the parent or Indian custodian.
The court shall also certify that either the parent or Indian custodian fully understood the explanation in English or that it was interpreted into a language that the
parent or Indian custodian understood. Any consent
given prior to, or within ten days after, birth of the Indian child shall not be valid.

583a
(b)

Foster care placement; withdrawal of consent

Any parent or Indian custodian may withdraw consent to a foster care placement under State law at any
time and, upon such withdrawal, the child shall be returned to the parent or Indian custodian.
(c)

Voluntary termination of parental rights or
adoptive placement; withdrawal of consent; return
of custody

In any voluntary proceeding for termination of parental rights to, or adoptive placement of, an Indian
child, the consent of the parent may be withdrawn for
any reason at any time prior to the entry of a final decree of termination or adoption, as the case may be, and
the child shall be returned to the parent.
(d)

Collateral attack; vacation of decree and return of
custody; limitations

After the entry of a final decree of adoption of an Indian child in any State court, the parent may withdraw
consent thereto upon the grounds that consent was obtained through fraud or duress and may petition the
court to vacate such decree. Upon a finding that such
consent was obtained through fraud or duress, the court
shall vacate such decree and return the child to the parent. No adoption which has been effective for at least
two years may be invalidated under the provisions of
this subsection unless otherwise permitted under State
law.

584a
11. 25 U.S.C. 1914 provides:
Petition to court of competent jurisdiction to invalidate
action upon showing of certain violations

Any Indian child who is the subject of any action for
foster care placement or termination of parental rights
under State law, any parent or Indian custodian from
whose custody such child was removed, and the Indian
child’s tribe may petition any court of competent jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912,
and 1913 of this title.

12. 25 U.S.C. 1915 provides:
Placement of Indian children
(a)

Adoptive placements; preferences

In any adoptive placement of an Indian child under
State law, a preference shall be given, in the absence of
good cause to the contrary, to a placement with (1) a
member of the child’s extended family; (2) other members of the Indian child’s tribe; or (3) other Indian
families.
(b)

Foster care or preadoptive placements; criteria;
preferences

Any child accepted for foster care or preadoptive
placement shall be placed in the least restrictive setting
which most approximates a family and in which his special needs, if any, may be met. The child shall also be
placed within reasonable proximity to his or her home,
taking into account any special needs of the child. In
any foster care or preadoptive placement, a preference

585a
shall be given, in the absence of good cause to the contrary, to a placement with—
(i) a member of the Indian child’s extended
family;
(ii) a foster home licensed, approved, or specified
by the Indian child’s tribe;
(iii) an Indian foster home licensed or approved
by an authorized non-Indian licensing authority; or
(iv) an institution for children approved by an Indian tribe or operated by an Indian organization which
has a program suitable to meet the Indian child’s
needs.
(c)

Tribal resolution for different order of preference;
personal preference considered; anonymity in
application of preferences

In the case of a placement under subsection (a) or (b)
of this section, if the Indian child’s tribe shall establish
a different order of preference by resolution, the agency
or court effecting the placement shall follow such order
so long as the placement is the least restrictive setting
appropriate to the particular needs of the child, as provided in subsection (b) of this section. Where appropriate, the preference of the Indian child or parent shall
be considered: Provided, That where a consenting
parent evidences a desire for anonymity, the court or
agency shall give weight to such desire in applying the
preferences.
(d)

Social and cultural standards applicable

The standards to be applied in meeting the preference requirements of this section shall be the prevailing
social and cultural standards of the Indian community in

586a
which the parent or extended family resides or with
which the parent or extended family members maintain
social and cultural ties.
(e)

Record of placement; availability

A record of each such placement, under State law, of
an Indian child shall be maintained by the State in which
the placement was made, evidencing the efforts to comply with the order of preference specified in this section.
Such record shall be made available at any time upon the
request of the Secretary or the Indian child’s tribe.
13. 25 U.S.C. 1916 provides:
Return of custody
(a)

Petition; best interests of child

Notwithstanding State law to the contrary, whenever
a final decree of adoption of an Indian child has been vacated or set aside or the adoptive parents voluntarily
consent to the termination of their parental rights to the
child, a biological parent or prior Indian custodian may
petition for return of custody and the court shall grant
such petition unless there is a showing, in a proceeding
subject to the provisions of section 1912 of this title, that
such return of custody is not in the best interests of the
child.
(b)

Removal from
procedure

foster

care

home;

placement

Whenever an Indian child is removed from a foster
care home or institution for the purpose of further foster
care, preadoptive, or adoptive placement, such placement shall be in accordance with the provisions of this

587a
chapter, except in the case where an Indian child is being returned to the parent or Indian custodian from
whose custody the child was originally removed.
14. 25 U.S.C. 1917 provides:
Tribal affiliation information and other information for
protection of rights from tribal relationship; application
of subject of adoptive placement; disclosure by court

Upon application by an Indian individual who has
reached the age of eighteen and who was the subject of
an adoptive placement, the court which entered the final
decree shall inform such individual of the tribal affiliation, if any, of the individual’s biological parents and provide such other information as may be necessary to protect any rights flowing from the individual’s tribal relationship.
15. 25 U.S.C. 1918 provides:
Reassumption
proceedings
(a)

of

jurisdiction

over

child

custody

Petition; suitable plan; approval by Secretary

Any Indian tribe which became subject to State jurisdiction pursuant to the provisions of the Act of August 15, 1953 (67 Stat. 588), as amended by title IV of
the Act of April 11, 1968 (82 Stat. 73, 78), or pursuant to
any other Federal law, may reassume jurisdiction over
child custody proceedings. Before any Indian tribe may
reassume jurisdiction over Indian child custody proceedings, such tribe shall present to the Secretary for

588a
approval a petition to reassume such jurisdiction which
includes a suitable plan to exercise such jurisdiction.
(b)

Criteria applicable to consideration by Secretary;
partial retrocession

(1) In considering the petition and feasibility of the
plan of a tribe under subsection (a), the Secretary may
consider, among other things:
(i) whether or not the tribe maintains a membership roll or alternative provision for clearly identifying the persons who will be affected by the reassumption of jurisdiction by the tribe;
(ii) the size of the reservation or former reservation area which will be affected by retrocession and
reassumption of jurisdiction by the tribe;
(iii) the population base of the tribe, or distribution of the population in homogeneous communities
or geographic areas; and
(iv) the feasibility of the plan in cases of multitribal occupation of a single reservation or geographic area.
(2) In those cases where the Secretary determines
that the jurisdictional provisions of section 1911(a) of
this title are not feasible, he is authorized to accept partial retrocession which will enable tribes to exercise referral jurisdiction as provided in section 1911(b) of this
title, or, where appropriate, will allow them to exercise
exclusive jurisdiction as provided in section 1911(a) of
this title over limited community or geographic areas
without regard for the reservation status of the area affected.

589a
(c)

Approval of petition; publication in Federal
Register; notice; reassumption period; correction of
causes for disapproval

If the Secretary approves any petition under subsection (a), the Secretary shall publish notice of such approval in the Federal Register and shall notify the affected State or States of such approval. The Indian tribe
concerned shall reassume jurisdiction sixty days after
publication in the Federal Register of notice of approval.
If the Secretary disapproves any petition under subsection (a), the Secretary shall provide such technical assistance as may be necessary to enable the tribe to correct
any deficiency which the Secretary identified as a cause
for disapproval.
(d)

Pending actions or proceedings unaffected

Assumption of jurisdiction under this section shall
not affect any action or proceeding over which a court
has already assumed jurisdiction, except as may be provided pursuant to any agreement under section 1919 of
this title.
16. 25 U.S.C. 1919 provides:
Agreements between States and Indian tribes
(a)

Subject coverage

States and Indian tribes are authorized to enter into
agreements with each other respecting care and custody
of Indian children and jurisdiction over child custody
proceedings, including agreements which may provide
for orderly transfer of jurisdiction on a case-by-case basis and agreements which provide for concurrent jurisdiction between States and Indian tribes.

590a
(b)

Revocation;
unaffected

notice;

actions

or

proceedings

Such agreements may be revoked by either party
upon one hundred and eighty days’ written notice to the
other party. Such revocation shall not affect any action
or proceeding over which a court has already assumed
jurisdiction, unless the agreement provides otherwise.

17. 25 U.S.C. 1920 provides:
Improper removal of child from custody; declination of
jurisdiction; forthwith return of child: danger exception

Where any petitioner in an Indian child custody proceeding before a State court has improperly removed
the child from custody of the parent or Indian custodian
or has improperly retained custody after a visit or other
temporary relinquishment of custody, the court shall decline jurisdiction over such petition and shall forthwith
return the child to his parent or Indian custodian unless
returning the child to his parent or custodian would subject the child to a substantial and immediate danger or
threat of such danger.
18. 25 U.S.C. 1921 provides:
Higher State or Federal standard applicable to protect
rights of parent or Indian custodian of Indian child

In any case where State or Federal law applicable to
a child custody proceeding under State or Federal law
provides a higher standard of protection to the rights of
the parent or Indian custodian of an Indian child than

591a
the rights provided under this subchapter, the State or
Federal court shall apply the State or Federal standard.
19. 25 U.S.C. 1922 provides:
Emergency removal or placement of child; termination;
appropriate action

Nothing in this subchapter shall be construed to prevent the emergency removal of an Indian child who is a
resident of or is domiciled on a reservation, but temporarily located off the reservation, from his parent or Indian custodian or the emergency placement of such child
in a foster home or institution, under applicable State
law, in order to prevent imminent physical damage or
harm to the child. The State authority, official, or
agency involved shall insure that the emergency removal or placement terminates immediately when such
removal or placement is no longer necessary to prevent
imminent physical damage or harm to the child and shall
expeditiously initiate a child custody proceeding subject
to the provisions of this subchapter, transfer the child to
the jurisdiction of the appropriate Indian tribe, or restore the child to the parent or Indian custodian, as may
be appropriate.
20. 25 U.S.C. 1923 provides:
Effective date

None of the provisions of this subchapter, except sections 1911(a), 1918, and 1919 of this title, shall affect a
proceeding under State law for foster care placement,
termination of parental rights, preadoptive placement,
or adoptive placement which was initiated or completed

592a
prior to one hundred and eighty days after November 8,
1978, but shall apply to any subsequent proceeding in
the same matter or subsequent proceedings affecting
the custody or placement of the same child.
21. 25 U.S.C. 1931 provides:
Grants for on or near reservation programs and child
welfare codes
(a)

Statement of purpose; scope of programs

The Secretary is authorized to make grants to Indian
tribes and organizations in the establishment and operation of Indian child and family service programs on or
near reservations and in the preparation and implementation of child welfare codes. The objective of every Indian child and family service program shall be to prevent the breakup of Indian families and, in particular, to
insure that the permanent removal of an Indian child
from the custody of his parent or Indian custodian shall
be a last resort. Such child and family service programs
may include, but are not limited to—
(1) a system for licensing or otherwise regulating Indian foster and adoptive homes;
(2) the operation and maintenance of facilities
for the counseling and treatment of Indian families
and for the temporary custody of Indian children;
(3) family assistance, including homemaker and
home counselors, day care, afterschool care, and employment, recreational activities, and respite care;
(4)

home improvement programs;

593a
(5) the employment of professional and other
trained personnel to assist the tribal court in the disposition of domestic relations and child welfare matters;
(6) education and training of Indians, including
tribal court judges and staff, in skills relating to child
and family assistance and service programs;
(7) a subsidy program under which Indian adoptive children may be provided support comparable to
that for which they would be eligible as foster children, taking into account the appropriate State standards of support for maintenance and medical needs;
and
(8) guidance, legal representation, and advice to
Indian families involved in tribal, State, or Federal
child custody proceedings.
(b)

Non-Federal matching funds for related Social
Security or other Federal financial assistance
programs; assistance for such programs unaffected;
State licensing or approval for qualification for
assistance under federally assisted program

Funds appropriated for use by the Secretary in
accordance with this section may be utilized as nonFederal matching share in connection with funds provided under titles IV-B and XX of the Social Security
Act [42 U.S.C. 620 et seq., 1397 et seq.] or under any
other Federal financial assistance programs which contribute to the purpose for which such funds are authorized to be appropriated for use under this chapter. The
provision or possibility of assistance under this chapter
shall not be a basis for the denial or reduction of any
assistance otherwise authorized under titles IV-B and

594a
XX of the Social Security Act or any other federally assisted program. For purposes of qualifying for assistance under a federally assisted program, licensing or
approval of foster or adoptive homes or institutions by
an Indian tribe shall be deemed equivalent to licensing
or approval by a State.
22. 25 U.S.C. 1932 provides:
Grants for off-reservation programs for additional
services

The Secretary is also authorized to make grants to
Indian organizations to establish and operate offreservation Indian child and family service programs
which may include, but are not limited to—
(1) a system for regulating, maintaining, and
supporting Indian foster and adoptive homes, including a subsidy program under which Indian adoptive
children may be provided support comparable to that
for which they would be eligible as Indian foster children, taking into account the appropriate State standards of support for maintenance and medical needs;
(2) the operation and maintenance of facilities
and services for counseling and treatment of Indian
families and Indian foster and adoptive children;
(3) family assistance, including homemaker and
home counselors, day care, afterschool care, and employment, recreational activities, and respite care;
and
(4) guidance, legal representation, and advice to
Indian families involved in child custody proceedings.

595a
23. 25 U.S.C. 1933 provides:
Funds for on and off reservation programs
(a)

Appropriated funds for similar programs of
Department of Health and Human Services;
appropriation in advance for payments

In the establishment, operation, and funding of Indian child and family service programs, both on and off
reservation, the Secretary may enter into agreements
with the Secretary of Health and Human Services, and
the latter Secretary is hereby authorized for such purposes to use funds appropriated for similar programs of
the Department of Health and Human Services: Provided, That authority to make payments pursuant to
such agreements shall be effective only to the extent and
in such amounts as may be provided in advance by appropriation Acts.
(b)

Appropriation authorization under section 13 of this
title

Funds for the purposes of this chapter may be appropriated pursuant to the provisions of section 13 of this
title.
24. 25 U.S.C. 1934 provides:
‘‘Indian’’ defined for certain purposes

For the purposes of sections 1932 and 1933 of this title, the term ‘‘Indian’’ shall include persons defined in
section 1603(c)1 of this title.
11

1

See References in text note below.

596a
25. 25 U.S.C. 1951 provides:
Information availability to and disclosure by Secretary
(a)

Copy of final decree or order; other information;
anonymity affidavit; exemption from Freedom of
Information Act

Any State court entering a final decree or order in
any Indian child adoptive placement after November 8,
1978, shall provide the Secretary with a copy of such decree or order together with such other information as
may be necessary to show—
(1)

the name and tribal affiliation of the child;

(2) the names and addresses of the biological
parents;
(3) the names and addresses of the adoptive parents; and
(4) the identity of any agency having files or information relating to such adoptive placement.
Where the court records contain an affidavit of the biological parent or parents that their identity remain confidential, the court shall include such affidavit with the
other information. The Secretary shall insure that the
confidentiality of such information is maintained and
such information shall not be subject to the Freedom of
Information Act (5 U.S.C. 552), as amended.

597a
(b)

Disclosure of information for enrollment of Indian
child in tribe or for determination of member rights
or benefits; certification of entitlement to
enrollment

Upon the request of the adopted Indian child over the
age of eighteen, the adoptive or foster parents of an Indian child, or an Indian tribe, the Secretary shall disclose such information as may be necessary for the enrollment of an Indian child in the tribe in which the child
may be eligible for enrollment or for determining any
rights or benefits associated with that membership.
Where the documents relating to such child contain an
affidavit from the biological parent or parents requesting anonymity, the Secretary shall certify to the Indian
child’s tribe, where the information warrants, that the
child’s parentage and other circumstances of birth entitle the child to enrollment under the criteria established
by such tribe.
26. 25 U.S.C. 1952 provides:
Rules and regulations

Within one hundred and eighty days after November
8, 1978, the Secretary shall promulgate such rules and
regulations as may be necessary to carry out the provisions of this chapter.

598a
27. 25 U.S.C. 1961 provides:
Locally convenient day schools
(a)

Sense of Congress

It is the sense of Congress that the absence of locally
convenient day schools may contribute to the breakup of
Indian families.
(b)

Report to Congress; contents, etc.

The Secretary is authorized and directed to prepare,
in consultation with appropriate agencies in the Department of Health and Human Services, a report on the feasibility of providing Indian children with schools located
near their homes, and to submit such report to the Select Committee on Indian Affairs of the United States
Senate and the Committee on Interior and Insular Affairs of the United States House of Representatives
within two years from November 8, 1978. In developing this report the Secretary shall give particular consideration to the provision of educational facilities for
children in the elementary grades.
28. 25 U.S.C. 1962 provides:
Copies to the States

Within sixty days after November 8, 1978, the Secretary shall send to the Governor, chief justice of the highest court of appeal, and the attorney general of each
State a copy of this chapter, together with committee reports and an explanation of the provisions of this chapter.

599a
29. 25 U.S.C. 1963 provides:
Severability

If any provision of this chapter or the applicability
thereof is held invalid, the remaining provisions of this
chapter shall not be affected thereby.

